<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-628]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-628
 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3182

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF COMMERCE AND 
   JUSTICE, SCIENCE, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2009, AND FOR OTHER PURPOSES

                               __________

                         Department of Justice
             National Aeronautics and Space Administration
                      National Science Foundation
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
41-242 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
DANIEL K. INOUYE, Hawaii             RICHARD C. SHELBY, Alabama
PATRICK J. LEAHY, Vermont            JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 TED STEVENS, Alaska
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        MITCH McCONNELL, Kentucky
DIANNE FEINSTEIN, California         KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      LAMAR ALEXANDER, Tennessee
ROBERT C. BYRD, West Virginia (ex    THAD COCHRAN, Mississippi (ex 
    officio)                             officio)

                           Professional Staff
                            Gabrielle Batkin
                             Erin Corcoran
                             Kevin Kimball
                             Douglas Disrud
                         Art Cameron (Minority)
                        Allen Cutler (Minority)
                       Goodloe Sutton (Minority)
                       Augusta Wilson (Minority)

                         Administrative Support
                              Robert Rich


                            C O N T E N T S

                              ----------                              

                        Thursday, March 6, 2008

                                                                   Page

Department of Commerce: Secretary of Commerce....................     1

                        Thursday, April 3, 2008

National Aeronautics and Space Administration....................    53

                        Thursday, April 10, 2008

Department of Justice: Attorney General..........................    99

                       Wednesday, April 16, 2008

Department of Justice: Federal Bureau of Investigation...........   171

                           Submitted Material

Department of Commerce: National Oceanic and Atmospheric 
  Administra- 
  tion...........................................................   201
National Science Foundation......................................   212
Nondepartmental Witnesses........................................   222


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              


                        THURSDAY, MARCH 6, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Reed, Shelby, Stevens, and 
Brownback.

                         DEPARTMENT OF COMMERCE

                         Secretary of Commerce

STATEMENT OF HON. CARLOS M. GUTIERREZ, SECRETARY


            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI


    Senator Mikulski. The Subcommittee on Commerce, Justice, 
and Science will come to order. Today we are going to review 
the appropriations request at the Department of Commerce.
    There will only be a single witness, it will be Secretary 
Gutierrez. And we want to note that this is Secretary 
Gutierrez's fourth appearance before the subcommittee, and this 
Chairperson wants to really say that we've had a very 
productive relationship with him and his team. It has been 
characterized by content-rich conversations, by candor, by 
civility--we think it's been a model of the way people, if we 
work together, we can get the job done.
    So, we look forward to hearing your testimony. This is our 
first hearing of this subcommittee for this year, and I want to 
thank, once again, Senator Shelby and his staff for their 
ongoing, bipartisan cooperation.
    Last year was kind of a difficult year, particularly at the 
end, but Senator Shelby--you and your team were just great.
    As we look at this year's appropriation, we note that we 
are in a year of transition. This time next year, we will have 
a new President, and--a new administration. What we are very 
clear about on this subcommittee is that this appropriation 
that we do this year will be the operating budget for the first 
year of the first term of the new President.
    So, we've got to get it right. Because regardless of who 
America chooses, they will have the 2009 appropriations as 
their first year of operation. So, in the areas for which we 
have responsibility, we want to have everything as very clear 
and well-established to continue our national priorities. And 
we will be working together on a bipartisan basis.
    What we want to do at this hearing is to hear from the 
Secretary about the appropriations, we want to hear 
particularly about how he relates it to the mission of the 
agency, and also where we are on issues like the America's 
Competes Act.
    The other is that we will also focus on what we call red 
zone issues, which are areas where there are significant 
challenges within agencies at the Department of Commerce. We're 
concerned about the 2010 census, that we're able to do it 
right, and we understand there's some technological and 
managerial challenges there.
    The other that we continue to be concerned about is the 
cost overruns of the National Oceanic and Atmospheric 
Administration (NOAA) satellite program and then the perpetual 
backlog at the Patent Office. All three of those have dramatic 
consequences--not only on the Appropriations Committee, but on, 
essentially, the running of America.
    The census must be done, it deals with how we will 
apportion politically, and other information. The NOAA 
satellites stand sentry, giving us crucial weather information 
that saves lives, and it's the Patent Office that helps us do 
innovation--we take innovation and by turning it into a patent, 
we then, essentially, help our private sector be able to 
protect against those who would steal our intellectual 
property, around the world.
    As we look at this year's appropriation, we know the 
request is over $8 billion--it's $1.3 billion over 2008, which 
we appreciate, but what we're concerned about is that it also 
eliminates two programs that help our economy--the economic 
development assistance grants, which is a stand-alone agency, 
and the manufacturing extension partnership, which is over at 
the National Institute of Standards and Technology (NIST).
    The budget also falls short, we believe, in other areas of 
innovation. At NIST we applaud that the laboratory program 
request is $535 million, almost $100 million over the omnibus, 
but it is offset by the termination of important grant 
programs, which were authorized in the America Competes Act.
    At NOAA, the request is for $4 billion--almost one-half of 
the total Commerce Department's appropriation request. And when 
one looks at it, you see it's $200 million over 2008. And, we 
could say, ``Wow, we're going to really get serious about 
weather and oceans and global warming, and science education,'' 
but really where the money is, is in the satellite program, and 
if we excluded the growth in the satellite budget, the rest of 
NOAA would be flat.
    Ocean and atmospheric research is cut 4 percent, and 
education is cut 51 percent at NOAA. We'll talk more about 
NOAA.
    In the area of accountability, I'm going to get right to 
what I call the red zone issues--census. In terms of management 
challenges, we've got to take a look at the 2010 census. The 
budget for the Census Bureau grows by 112 percent, to $2.6 
billion--it's $1 billion more than the omnibus level, but we're 
concerned that with these handheld technologies, where there 
seems to be challenges in their workability. We're concerned 
that billion could go to boondoggle, rather than achieving the 
census.
    Two years ago, laptop computers got lost, there are privacy 
and security issues, and now these handheld computers. So, we 
think Census has some significant management challenges.
    Then we come to our favorite NOAA satellite program, 
satellites are critical to warning about the weather, and 
observing the changes in the Earth's climate. In other words, 
satellites help save lives and save the planet.
    Senator Shelby worked with me to include a provision in the 
2008 omnibus to give us early warning about satellite costs. We 
want to know how the Department, then, is doing that, to be 
sure we implement the Nunn-McCurdy framework.
    And last and not at all least, is the Patent Office. We 
continue to be concerned about the backlog and the waiting 
times, which continue to worsen. It now takes over 27 months 
for the Patents Office to issue a patent. And the backlog now 
is over 1 million.
    This is unacceptable. We've made progress, we've worked 
very tirelessly on management reform, we've increased the 
budget, it's 27 percent more than what it was in 2005, but we 
continue to have a backlog. More needs to be done to reverse 
this, and we look forward to your ideas.
    Mr. Secretary, we look forward to hearing you, and I now 
turn to Senator Shelby.


                 STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. We have worked extremely well during our 
tenure here, sharing many of the same goals and expectations of 
the agencies that we oversee, including the Department of 
Commerce.
    I'm pleased to serve beside her, and once again, doing what 
is shaping up to be another tight fiscal year.
    I look forward to learning about how the 2009 budget 
request will improve the Department of Commerce's mission. 
Overall, the Department's budget request for 2009 is $8.18 
billion, an increase of $1.32 billion from the funding level 
providing into 2008 omnibus appropriations bill.
    The Nation relies heavily on the Department of Commerce to 
maintain America's competitiveness within markets around the 
world.
    The Department works hard to provide avenues to promote the 
products and services of U.S. businesses, and then helps to 
level the playing field through expanding, strengthening, and 
enforcing our international trade agreements.
    Through the Department of Commerce programs, our country is 
able to maintain high technical standards, as well as staying 
on the cutting edge of scientific research, all of which are 
fundamental to our Nation's leadership in the global market.
    I'm pleased to see that the American Competitiveness 
Initiative, or ACI, continues to receive support from the 
administration, through the National Institute of Standards and 
Technology's budget request. The ACI will maintain the 
competitive edge that our Nation expects in the world economy 
through research and innovation, focusing on the ingenuity of 
our people, and tying our capabilities to policies that would 
keep us at the forefront of scientific and technical 
advancement for generations to come.
    The strength of America's economy rests on our ability to 
innovate, and use the latest technology to solve the problems 
of today, and preserve our economic and scientific leadership 
in the future. With the recent downturn in the economy, it's 
more important than ever that we do all we can to push the 
envelope in innovation and science to maintain our competitive 
edge in the world.
    I believe that Chairwoman Mikulski and I will work together 
to do all we can to ensure that science and technology are 
funded at the highest levels in our bill.
    If we can not train more engineers and doctoral students, 
America will fall behind the rest of the world. If we don't 
make a relatively small investment now, make no mistake about 
it--playing catch-up with the rest of the world will cost us 
fiscally and strategically.
    The operations of both NIST and the National Oceanic and 
Atmospheric Administration, or NOAA, function to keep the 
Nation competitive, and inspire the next generation of 
scientists and researchers. We must find better ways to use 
NOAA's education programs to capture the imagination of our 
children, to encourage them to pursue careers in science and 
research.
    Secretary, as we work to evaluate the number of scientists 
and engineers, I believe we also need to have the high-tech 
jobs of the future ready for them through our investment in 
transformative research in our Nation's businesses. The 
Technology Innovation Program at NIST will work to create the 
high-paying, technical jobs that drive our economy now, and are 
essential to our future.
    The $4.1 billion budget request for NOAA--a 5 percent 
increased over 2008 enacted level--is a pleasant surprise. 
However, none of the significant increases included in this 
request are directed at the Gulf of Mexico.
    The gulf coast still lacks the infrastructure, research and 
support from NOAA that other regions of the country have 
perpetually received. Since the recent rash of devastating 
hurricanes, nearly all infrastructure improvements for fish, 
severe weather forecasting, and research in the gulf, have been 
borne solely by the members of this subcommittee, with little 
or no assistance from NOAA headquarters.
    While I have been a big proponent of NOAA and worked with 
the Chairwoman to protect them from significant cuts that other 
agencies were forced to absorb in last year's conference 
negotiations, I can no longer turn a blind eye toward the 
continual lack of commitment by NOAA to the gulf coast. 
Therefore, I may not be able to protect NOAA at the expense of 
other agencies and programs this year.
    Mr. Secretary, I'm troubled by the large number of 
expensive technology procurement failures at the Department. I 
understand that the Geostationary Operational Environmental 
Satellite Program is back on track, but I'm disappointed that a 
$6.2 billion program, originally intended for four satellites 
has ballooned into a $7 billion program for only two 
satellites.
    I understand their importance for weather and research, but 
I have trouble understanding the benefits, when the taxpayer is 
stuck paying $800 million more than the original estimate for 
one-half the product, and a delivery date 3 years later.
    Further, the national polar orbiting operational 
environmental satellite system (NPOESS) has mushroomed from a 
$6 billion estimate to more than a $12 billion, with less 
functionality, and a delivery date 4 years later. I believe 
this is inexcusable.
    Since 1790, and every 10 years thereafter, this country 
undertakes a constitutionally mandated effort to count its 
population. Planning for the next decennial census begins 
almost immediately after the previous one has been completed. 
So far, it's taken 8 years and counting, merely to implement a 
plan to re-engineer the 2010 census.
    The Census Bureau's new technology initiative--acquiring 
and using handheld data collection devices--has been promising 
to bring the census into the 21st century, with improved 
accuracy, and reduced cost. It has been brought to my 
attention, at the committee level, that as the census is about 
to enter a crucial point in this technological transition, the 
Department has grave concerns about the Census' ability to 
manage and to deploy the handheld devices, and associated data 
collection necessary to carry out a successful 2010 census.
    I'm troubled that when my staff met with senior officials 
late last year, they were told that the $600 million contract 
for the handheld devices was on schedule and that there were no 
major concerns.
    A few weeks later, the Census submitted more than 400 
necessary changes to the handheld device contractor--400. In 
2005, the inspector general reported that the Census had 
insufficiently defined requirements for the data collection and 
handheld devices. The inability to define the requirements, 
combined with the 400 last minute changes, means that no one 
knew what they were asking the contractor to build to begin 
with, and yet a contract for more--yes, more--than $500 million 
was signed by the Commerce Department.
    The inspector general was right in his take on the Census 
Bureau, I regret it took 3 years to come to the realization, 
they have a problem. While I have been assured that you have a 
plan to bring this situation under control, Mr. Secretary, I 
have to wonder if any of the managers who told subcommittee 
staff the handheld contracts were still on track, are still 
involved in this program today. How much more of the taxpayers' 
money will be squandered before someone is held accountable for 
what is supposed to be a less expensive and more efficient 
Census? While I understand and support the importance of 
technology to assist the components of the Department, I cannot 
support unlimited, and unchecked resources.
    I believe it's imperative that you, as the Secretary of 
Commerce, proceed with caution to ensure that the Department 
does not make the same, blatant mistakes again. We expect 
results, and working with Senator Mikulski, we will do 
everything that we can to ensure success.
    Thank you for appearing with us today.
    Senator Mikulski. Colleagues, I'm now going to turn to 
Secretary Gutierrez. There's a vote at 10:55 a.m. What I offer 
as a way of proceeding is the Secretary presents his testimony, 
then I'll be the wrap up questioner. Because if we have votes, 
I'll be more than willing to come back. I know--and I'll turn 
to you two first. Does this sound like a good way to go?
    Senator Stevens. Well, I'd just ask unanimous consent that 
my opening statement be put in the record, and my questions be 
submitted.
    Senator Mikulski. Absolutely, yes.
    Senator Stevens. I'm managing one of the bills on the 
floor, so I really can't--I'm just here to pay my respects to 
the Secretary.
    Senator Mikulski. Absolutely.
    Senator Stevens. Thank you very much.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    Secretary Gutierrez, we welcome you before the subcommittee 
to discuss the fiscal year 2009 budget for the U.S. Department 
of Commerce. I commend the Department's efforts in the past 
year to enhance our nation's competitiveness, support our 
public and private sectors with reliable data, better 
understand our planet's weather and climate, and manage and 
protect our marine resources.
    We look forward to working with you to address the 
important issues that face us in the coming year.
    The work of your Department continues to be critical to the 
economic, social, and environmental health of my State.
    Your commitment to Arctic science is of great importance to 
Alaska, where the impacts of climate change will occur first 
and be the most pronounced. The sustainability of our fisheries 
depends on NOAA research and management efforts. Given our 
inclement weather, vast coastline, commercial fishing 
activities, and dependence on aviation, Alaskans rely heavily 
on NOAA for weather forecasting and storm warnings. EDA grants 
stimulate economic growth in distressed Alaskan communities. 
Those are just a few examples.
    Mr. Secretary, we look forward to hearing today about your 
priorities in the current budget request.

    Senator Mikulski. And if there is a question you would like 
to ask orally, if your staff will give it to us, we'll be sure 
to ensure that.
    Okay, Secretary Gutierrez?


                OPENING STATEMENT OF CARLOS M. GUTIERREZ


    Secretary Gutierrez. Thank you, Madam Chairman, Senator 
Shelby, and members of the subcommittee. I'm very pleased to 
present the--President Bush's 2009 budget request for the 
Department of Commerce, and with your permission, I'd like to 
make a brief oral statement and submit my written testimony for 
the record.
    The Department of Commerce is charged with promoting 
economic growth, competitiveness and opportunity for the 
American people. This request for $8.2 billion is a careful, 
and fiscally responsible budget that reflect the commitment to 
fulfilling the charge, and to maintaining U.S. leadership in 
today's global economy.
    I'd like to highlight some of the key items in the budget. 
For the National Oceanic and Atmospheric Administration, $4.1 
billion is requested, that includes $1.2 billion to provide 
timely access to global environmental data from satellites and 
other sources, $931 million to provide critical weather 
observations, forecasts and warnings to American communities 
and families, and $759 million for stewardship of living marine 
resources and habitats, including a $32 million increase to 
directly support implementation of the Magnuson-Stevens Act 
reauthorization.
    The funding requests for Economics and Statistics 
Administration (ESA) headquarters and the Bureau of Economic 
Analysis which produces the Gross Domestic Product and other 
vital economic data is $91 million.
    For the International Trade Administration (ITA) which 
supports U.S. commercial interests at home and abroad, the 
request is $420 million. U.S. exports totaled a record $1.6 
trillion in 2007, and free trade agreements are leveling the 
playing field, and helping American exporters access new 
markets.
    Free trade agreements with Colombia, Panama, and South 
Korea are now pending in Congress. Colombia is priority, it's a 
democracy and staunch ally of the United States, and we need to 
stand by Colombia in the cause of freedom, while at the same 
time creating new opportunities for U.S. exporters.
    The ITA budget request includes a $3.8 million increase for 
enforcement and countervailing duty law with respect to China 
and other non-market economies.
    The National Institute of Standards and Technology request 
of $638 million will keep America on the leading edge of 
scientific and technological advances. It puts us back on track 
to double the funding for NIST basic research in the core 
physical sciences by 2016, a major goal of the President's 
American competitiveness initiative.
    As you know, the National Telecommunications and 
Information Administration is administering the digital 
television transition and public safety fund, including the TV 
converter box coupon program.
    As with any budget, tough decisions were made. The Economic 
Development Administration (EDA) budget request for 2009 is 
$133 million. For the Census Bureau, which is part of the 
Economics and Statistics Administration, $2.6 billion is 
requested. This includes a program increase of $1.3 billion, to 
fund the 2010 decennial census, and continue the American 
community survey.
    Yesterday I testified before the Senate Homeland Security 
and Government Affairs Committee on how the Department is 
working to address some of the challenges currently facing the 
2010 census.
    The 2010 census is one of the highest priorities and most 
important responsibilities of the Commerce Department, however, 
I should say the field data collection automation, which we 
also know as FDCA, is experiencing significant schedule, 
performance, and cost issues. This is unacceptable, as I know 
it's unacceptable to the subcommittee.
    Concerns about the FDCA program grew over time, and we're 
taking several steps to address the situation. Following his 
confirmation in January, new Census Director Murdock began a 
top to bottom review of all components of the 2010 census. On 
February 6, he launched a 2010 census FDCA risk reduction task 
force, which is headed by Bill Barron, a former Deputy Director 
and Acting Director of the U.S. Census Bureau.
    As a result of the ongoing work of the task force, we are 
exploring four options. Option one is to continue with the 
Harris Corporation's original project plan, simultaneously 
evaluating the development of a paper-based backup plan. So, 
option one, essentially, is to continue with the baseline 
option.
    Option two is to shift everything but address canvassing 
back to Census Bureau, including the operational control 
system, and field infrastructure. Non-response follow up would 
then be paper based under that option.
    Option three would move non-response follow up and field 
operations infrastructure to Census with Harris developing the 
operational control system and the address canvassing.
    Option four would shift non-response follow up back to 
Census as paper based, while Harris would handle the 
operational control system, and field operations 
infrastructure, as well as address canvassing.
    So, each option, essentially, has a variance on how much 
Harris handles, and how much we send back to the Census Bureau, 
to be able to achieve the census.
    Yesterday, I announced that I am forming a panel of outside 
experts to review these actions, and other potentially serious 
problems with certain aspects of the 2010 census, and to 
provide recommendations to assure a fully successful census. 
The panel will augment the ongoing Census Bureau review of the 
overall 2010 census operations, regarding field data collection 
automation, or FDCA, especially the private contractors 
technological infrastructure support of the FDCA contract, and 
management practices.
    I am personally very involved in bringing key issues to the 
surface, and developing a way forward. The American people 
expect and deserve a timely and accurate decennial census, and 
the Department and I will not rest until they have it. So, it 
is our goal, not only to have a good census, but we'd like to 
shoot for having the best census.
    Madam Chairman, the President's fiscal year 2009 budget for 
the Department of Commerce will enable the Department to 
continue to provide vital statistics, strengthen the 
stewardship of living marine resources, support the innovative 
and entrepreneurial spirit of America, and increase our 
competitiveness in the global marketplace.
    This is the last time it will be my privilege to present to 
the Senate Appropriations subcommittee President Bush's budget 
proposal for the Department of Commerce, I want to thank the 
members for your consideration, for your courtesy over the last 
several years. I want to thank you for your support of vital 
Commerce programs that have served the Nation, the business 
community, the people of this great country, and while this is 
my last hearing, I hope to continue working with you over the 
next year.


                           PREPARED STATEMENT


    So, thank you very much, and I'd be glad to take questions 
or comments.
    [The statement follows:]

               Prepared Statement of Carlos M. Gutierrez

    Madam Chairman and Members of the Subcommittee, I am pleased to 
appear before you today to present the President's budget request for 
the Department of Commerce. Our request of $8.2 billion in 
discretionary funds reflects a balance between the Administration's 
commitment to the Department's mission to promote and sustain economic 
growth, and the need to restrain discretionary Federal spending. 
Enactment of this budget will enable the Department to continue to 
support the innovative and entrepreneurial spirit of America and 
increase our competitiveness in the international marketplace.
    The President's fiscal year 2009 budget request of $4.1 billion for 
the National Oceanic and Atmospheric Administration (NOAA) reflects the 
Administration's commitment to environmental stewardship. It represents 
an increase of $214 million above the fiscal year 2008 enacted level. 
NOAA encompasses the National Weather Service, which provides critical 
observations, forecasts and warnings; the National Environmental 
Satellite, Data and Information Service, which provides timely global 
environmental satellite data; the National Marine Fisheries Service, 
which provides stewardship of the Nation's living marine resources and 
their habitat; the National Ocean Service, which measures and predicts 
coastal and ocean phenomena; the Office of Oceanic and Atmospheric 
Research, which provides research for understanding weather, climate, 
and ocean and coastal resources; and the Office of Marine and Aviation 
Operations, which operates a variety of aircraft and ships providing 
specialized support for NOAA's environmental and scientific missions.
    The request continues support for development and acquisition of 
the next-generation Geostationary Operational Environmental Satellite 
(GOES-R), with an increase of $242 million as we enter the main 
procurement phase for the spacecraft and the ground control system. 
There is also a $32 million increase to continue improving fishery 
management under the Magnuson-Stevens Act that was reauthorized in 
2006, and a $40 million increase to continue construction of the 
Pacific Region Center in Honolulu, Hawaii. The budget includes new 
requests of $74 million to restore climate sensors that were 
demanifested during the Nunn-McCurdy review of the tri-agency National 
Polar-orbiting Operational Environmental Satellite System (NPOESS) 
Program, and $12 million to replace the Satellite Command and Data 
Acquisition station in Fairbanks, Alaska.
    The Economics and Statistics Administration (ESA) promotes the 
understanding of the U.S. economy and its competitive position. ESA's 
Census Bureau is the leading source of quality data regarding the 
Nation's population and economy, and the President's fiscal year 2009 
budget requests $2.6 billion in discretionary funds for the Census 
Bureau. This includes a program increase of $8.1 million to provide 
policymakers, business leaders, and the American public with 
comprehensive and timely data on the service economy, which now 
accounts for 55 percent of economic activity.
    The largest increase requested, for both the Census Bureau and the 
Department, is $1.3 billion for the 2010 Decennial Census to fund 
critical operations and preparations for 2010, improve accuracy of map 
features, and continue the American Community Survey on an ongoing 
basis. As you are aware, the Census Bureau is currently experiencing 
significant challenges in the management of the Field Data Collection 
Automation (FDCA) project for the 2010 Census. I can assure you that 
not only the Census Bureau but the Office of the Secretary is devoting 
all of the resources at our disposal to resolve the IT management 
issues with FDCA and develop a successful way forward. We will keep you 
informed of our progress.
    ESA's Bureau of Economic Analysis (BEA) promotes understanding of 
the Nation's economic condition by providing policy makers, business 
leaders, households, and individuals with essential economic data. This 
data includes the Gross Domestic Product (GDP) as well as other 
regional, national, international, and industry-specific information. 
The President's fiscal year 2009 budget requests $91 million for ESA 
Headquarters and BEA. This request includes an increase of $5.7 million 
to improve measurement of the health care sector and to incorporate the 
impact of research & development investments into the GDP.
    The International Trade Administration (ITA) supports U.S. 
commercial interests at home and abroad by promoting trade and 
investment, ensuring fair trade and compliance with domestic and 
international trade laws and agreements and strengthening the 
competitiveness of American industries and workers. The President's 
fiscal year 2009 budget requests $420 million for ITA. This request 
includes an increase of $3.8 million for enforcement of the 
Countervailing Duty Law with China and other non-market economies, as 
well as a decrease of $3.0 million to reflect streamlining of Trade 
Promotion and domestic U.S. & Foreign Commercial Service offices. In 
the future, as in the past, our long-term economic growth will also be 
enhanced by supporting international trade, by opening world markets to 
U.S. goods and services and by keeping our markets open. Congress can 
help create jobs and economic opportunity by passing the pending Free 
Trade Agreements with Colombia, Panama and South Korea.
    The Economic Development Administration (EDA) assists states, 
regions, and communities in promoting a favorable business environment 
through capacity building, planning, infrastructure investments, 
research grants, and strategic initiatives. The President's fiscal year 
2009 budget requests $133 million for EDA. The request reduces funding 
for the Economic Development Assistance Programs (EDAP) by $149 million 
in order to support other Administration priorities.
    The Bureau of Industry and Security (BIS) regulates the export of 
sensitive goods and technologies to protect the security of the United 
States. The President's fiscal year 2009 budget requests $84 million to 
enable BIS to effectively carry out this mission. The request includes 
$2.4 million in program increases to upgrade export enforcement and to 
ensure compliance through validating end-users in foreign countries.
    The Minority Business Development Agency (MBDA) focuses on 
accelerating the competitiveness and growth of minority-owned 
businesses by assisting with economic opportunities and capital access. 
The President's fiscal year 2009 budget requests $29 million to enable 
MBDA to continue its activities to increase access to the marketplace 
and financing for Minority Business Enterprises.
    The President's fiscal year 2009 budget request of $638 million for 
the National Institute of Standards and Technology (NIST) will advance 
measurement science, standards, and technology. The request includes 
increases of $71 million for research initiatives at NIST Laboratories 
and National Research Facilities, and $62 million for Construction and 
Major Renovations as part of the President's 10-year American 
Competitiveness Initiative (ACI). This will put us back on track to 
double the funding for NIST basic research in the core physical 
sciences and engineering by 2016, to ensure continued U.S. leadership 
in this area, a major goal of ACI.
    The request includes $4 million to transition Hollings 
Manufacturing Extension Partnership centers to a self-supporting basis, 
and does not include new funding for the Technology Innovation Program 
(successor to the Advanced Technology Program).
    The National Technical Information Service (NTIS) collects and 
preserves scientific, technical, engineering and other business-related 
information from Federal and international sources and disseminates it 
to the American business and industrial research community. NTIS 
operates a revolving fund for the payment of all expenses incurred and 
does not receive appropriated funds.
    The National Telecommunications and Information Administration 
(NTIA) develops telecommunications and information policy, manages the 
Federal radio spectrum, and performs telecommunications research, 
engineering, and planning. A key responsibility for NTIA is 
administration of the Digital Television Transition and Public Safety 
Fund (DTTPSF). During fiscal year 2009, NTIA estimates obligating $592 
million from the DTTPSF to support several one-time programs created by 
the Deficit Reduction Act of 2005, most notably $472 million for the 
Digital-to-Analog Television Converter Box Program. The other $120 
million in DTTPSF obligations includes $50 million to implement a 
national tsunami warning system and $60 million to assist low power 
television stations in upgrading their signals from analog to digital 
formats. In addition, NTIA will continue working with the Department of 
Homeland Security to implement the Public Safety Interoperable 
Communications grant program. The President's fiscal year 2009 budget 
request of $19 million in discretionary budget authority for NTIA 
includes a reduction of $18 million to terminate further grants for 
Public Telecommunications Facilities, Planning, and Construction.
    Furthering the mission to promote the research, development, and 
application of new technologies by protecting inventors' rights to 
their intellectual property through the issuance of patents and 
trademarks, the President's fiscal year 2009 budget requests $2.1 
billion in spending authority for the U.S. Patent and Trademark Office 
(USPTO). The USPTO will use these funds to reduce application 
processing time and increase the quality of its products and services. 
Consistent with prior years, the Administration proposes to fund the 
USPTO budget exclusively through offsetting fee collections. Fee 
collections for fiscal year 2009 are projected to cover the proposed 
increases.
    Departmental Management (DM) funds the Offices of the Secretary, 
Deputy Secretary, and their support staff. Staffs in these offices 
develop and implement policy, administer internal operations, and serve 
as primary liaison to other executive branch agencies, Congress, and 
private sector entities. The President's fiscal year 2009 budget 
requests $20.8 million in discretionary appropriations for DM, which 
includes a $48.6 million rescission from the Emergency Steel Guaranteed 
Loan Program. Proposed increases include $7.1 million to upgrade IT 
security and ensure mission essential communications, and $3.6 million 
for blast mitigation windows and other renovations to the 76-year-old 
Herbert C. Hoover Building.
    The Office of the Inspector General (OIG) strives to promote 
economy and efficiency, and detect and prevent fraud, waste, and abuse 
in Departmental programs and operations. The President's fiscal year 
2009 budget requests $24.8 million to enable the OIG to continue to 
effectively meet these mandates. Also, the budget requests $1 million 
to improve the OIG's ability to evaluate and improve the security for 
the Department's information technology assets.
    The Department of Commerce is a diverse group of agencies, with 
varied expertise and differing needs, all engaged in a common 
commitment to keep the United States at the global forefront of 
competitiveness and innovation. The President's fiscal year 2009 budget 
effectively meets those needs, while exercising the fiscal restraint 
necessary to sustain our economic prosperity. I look forward to working 
with the Committee to keep our Nation's economy growing and strong, and 
to promote technological advancement and environmental stewardship.

    Senator Mikulski. Mr. Secretary, thank you for a very crisp 
testimony. We want to acknowledge that Senator Jack Reed of 
Rhode Island has come.
    What we're going to do, Senator Reed--because there is a 
vote--we're going to let Senator Brownback go first, we'll come 
to you, Shelby and I--Senator Shelby and I will be the wrap up.
    So, we can keep it crisp?

                     TRADE DISPUTE WITH EADS AIRBUS

    Senator Brownback. We'll try to keep it crisp.
    Secretary, thank you for being here, I appreciate that. And 
in the notion of crispness, then I want to focus you on the 
trade dispute we have with Airbus in the case that's supposed 
to be reported out, I understand, a ruling on it in April.
    Just to--and you know this case very well, it's been our 
ongoing subsidy fight with EADS Airbus, that's--I was in Bush 
One in the trade field, and we were fighting with Airbus then. 
And we're still fighting with them.
    But, as you know, European governments have subsidized EADS 
Airbus, we contend--our government, U.S. Government--$15 
billion in launch aid, financing--including $5 billion on the 
A-330, 340 program, which is $5 billion on launch aid, just for 
that particular program.
    The A-330, 340 program is the largest recipient of European 
government support, support from French, German, Spanish, 
British. We initiated a trade dispute against them, and I 
understand that is potentially going to report out in April.
    If we win that, we will be entitled to retaliatory measures 
against Airbus, is that correct, Secretary?
    Secretary Gutierrez. I believe that's one of the options, 
depending on--hopefully, that we will win that. We're working 
with the United States Trade Representative (USTR), and USTR, 
of course, is the lead on this, but we hope to be able to prove 
that there are launch subsidies, something that has worried us 
for a long, long time, but I can't be specific as to what we 
will be able to get back if we win.
    Senator Brownback. Is it the U.S. Government's position 
that the A-330, 340 program has received $5 billion in launch 
aid from the European governments?
    Secretary Gutierrez. I'm not sure about the exact amount, 
but we have always stated and alleged that they receive launch 
subsidies for their new products, as well as their new, large-
body plane, and that is essentially what we are taking forward.
    Senator Brownback. And that's the U.S. Government position?
    Secretary Gutierrez. Yes.
    Senator Brownback. Do you believe that European subsidies 
have created an unfair playing field for U.S. companies, 
competing against EADS Airbus?
    Secretary Gutierrez. I believe that they have made Airbus 
able to compete with lower prices versus Boeing, because of 
these government subsidies that they have had.
    Senator Brownback. I'm sorry, go ahead.
    Secretary Gutierrez. I just think it says a lot about 
Boeing that Boeing has been able to compete and win and gain 
market share, in spite of competing with these subsidies.
    Senator Brownback. You're concerned about the rapid 
increase in the European share of the U.S. commercial aviation 
market over the past two, three decades?
    Secretary Gutierrez. Yes. And to the extent that these are 
achieved, because of the benefit of subsidies, then absolutely. 
We want to be able to compete on a fair playing field, and we 
believe they do have the benefit of these subsidies.
    Senator Brownback. And you believe the current playing 
field is not fair for U.S. commercial aviation?
    Secretary Gutierrez. If we can prove that these subsidies 
are what we say they are, then it is not. Because they are 
receiving launch subsidies from their government, they're not 
projecting the total cost of the plane when they have to price 
to sell that plane.
    Senator Brownback. Are there other obstacles as well that 
U.S. companies face in competition with the subsidized European 
firm of EADS, that owns 80 percent of Airbus, in addition to 
the direct subsidy of the--what we suggest is $5 billion in 
launch aid, just for the A-330, and then $15 billion overall in 
launch aid in financing for their whole fleet of planes?
    Secretary Gutierrez. Our major concern has been launch 
subsidies. Aside from that, we know that it's a very 
competitive firm, and we have some very competitive firms, and 
we're constantly competing for major contracts--which we don't 
mind--but we just want our company to be playing on a level 
playing field. And if they are receiving this level of launch 
subsidy for these large planes, then they are not reflecting 
the full cost in their price, which gives them an artificial 
advantage.
    Senator Brownback. And you're aware that the current 
contract that was just let for the Northrop Grumman uses the A-
330 base plane, which we are contending is a heavily subsidized 
plane that's in its start?
    Secretary Gutierrez. Yes.

                RETALIATORY MEASURES AGAINST EADS AIRBUS

    Senator Brownback. What retaliatory measures might we use, 
if we win this case against EADS Airbus? What's possible?
    Secretary Gutierrez. I'd like to be able to get back to you 
on that, Senator Brownback. These are, obviously, legal 
questions. I don't want to preempt anything that USTR may want 
to state, but if you'd like, I'd be glad to go back, look at 
the different options we have, assuming we win, and get those 
to you. And I don't think there would be a problem in that, I 
don't think USTR would have a problem with that, but I do want 
to respect their lead role in this case.
    [The information follows:]

       Retaliatory Measures Following Ruling in EADS Airbus Case

    The WTO has not yet made its ruling in this dispute, so it 
would be premature to speculate on possible retaliation. 
However, if the WTO rules in favor of the U.S. complaint, we 
would hope that the EC would comply with that ruling or reach a 
mutually acceptable agreement. Should we not reach an 
acceptable outcome and assuming that the WTO dispute settlement 
body authorizes retaliation, there remain U.S. statutory 
procedures that require consultation and public notice and 
comment as to the particular retaliatory countermeasures to be 
adopted. Only after such consultations could we have a sense of 
what measures might be taken.

    Senator Brownback. Thank you.
    Thank you, Madam Chairman.
    Secretary Gutierrez. Thank you, Senator.
    Senator Mikulski. You were crisp.
    Senator Brownback. Trying to.
    Senator Mikulski. You raised excellent points.
    Senator Reed.

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Senator Reed. Thank you very much, Madam Chairman and 
Senator Shelby.
    Thank you, Mr. Secretary, for joining us today. I, in my 
experience over 18 years now, have found the Economic 
Development Administration (EDA) to be an incredibly effective 
and efficient source of support for local communities. I could 
list a number of items of support for my State.
    The most recent one, the one I am concerned about is 
support to the city of Woonsocket, Rhode Island. They had a 
levee system that, after Katrina, was declared substandard. We 
have taken steps to transfer the authority to the Corps of 
Engineers and the Corps will assume the authority, but the city 
still has the obligation for ongoing repairs and upgrades until 
the transfer is complete.
    EDA has stepped in with a lot of technical assistance, and 
the city has a grant proposal at the agency now. I personally 
want to thank, and show my appreciation of Tyrone Beach of your 
Philadelphia office and Dennis Alvord of your Washington 
office, for their assistance and their hard, hard work.
    This is an important issue, and certainly any consideration 
you could give would be appropriate, because literally, the 
city would have been bankrupted if they were forced to make 
these repairs and shoulder this responsibility ongoing.
    So, all of that is a long prelude to the question of--given 
the need we have for projects like this across the country, in 
fact the American Society of Civil Engineers have rated our 
infrastructure ``D''--why are we cutting roughly $170 million 
from the budget of an agency that is effective, efficient, 
responds to the needs of local communities in a very thoughtful 
and businesslike way, when the demands are way beyond the 
capacity of the existing budget?
    Secretary Gutierrez. Senator, I understand your point. We 
had to make, obviously, some decisions to reallocate some of 
our funds, we wanted to make sure that we got the long-term 
basic research right in NIST and we are a little bit behind our 
plan on that, so we had a 22 percent increase in NIST. Of 
course, we had the satellites, we have the census.
    The only thing I can say about EDA is that because these 
are grants, this is not a permanent cut. We have the 
flexibility to increase it and lower it, without having to 
commit to something that is long term. So, it is a 1-year cut, 
that's the way we're thinking about it, and again, it comes 
down to the tough role of having to allocate within a limited 
budget.
    Senator Reed. I appreciate the difficulties of prioritizing 
these programs, given the current budget situation, but I think 
this is one that would require a little more reflection.
    And I would also just finally point out, because I want to 
stay within my time, that it's sort of the curse, the baseline. 
Once you reduce EDA at this level, next year when you talk 
about increasing it, even a robust increase probably does not 
get it up to where it was. And I think that has to be 
considered long term.
    So, even though you see it as a 1-year cut, if this is cut 
this much, it will very difficult to replace that funding and 
get it to the level I believe it should be.
    But, thank you for your consideration, Mr. Secretary.
    Secretary Gutierrez. Senator, the city you mentioned, I 
just want to make sure I get that right--Woosakah?
    Senator Reed. That's the way you say it, if you have a 
terrible Rhode Island accent, like I have, but it's actually 
Woonsocket, W-O-O-N-S-O-C-K-E-T.
    Secretary Gutierrez. Okay, thank you.
    Senator Reed. Thank you, Mr. Secretary.
    Senator Mikulski. Senator Shelby.

                     TANKER CONTRACT TO EADS AIRBUS

    Senator Shelby. Mr. Secretary, I just want to pick up on a 
point made by Senator Brownback, a little bit. You know, trade 
is important, fair trade is very important to all of us. But 
when the Air Force selects a plane, and this is at the 
Pentagon, and chooses an airframe that's made in Europe, but 
the plane will be assembled in my State of Alabama, and 
thousands and thousands of new U.S. jobs--maybe not Boeing 
jobs--will be created, I think the Air Force's top criteria is 
what's best for the warfighter.
    In this case we--have regular order, we have a process that 
Boeing will have to go through, and should go through, to 
protest this award. The Air Force concluded that the Northrop 
Grumman proposal was superior in five main categories, over the 
Boeing plane. And I think that what we need to do is buy the 
best thing for the warfighter. You know, this is not going to 
be used in commerce, it's going to be used in national 
security.
    There is a process to go through, Senator Brownback knows 
that. Assuming there is a protest, GAO will review the awarding 
of the contract to Northrop Grumman/EADS, over Boeing. I 
believe they will uphold the award, but I don't know that. 
Because I don't know, and I don't believe Congress, including 
the Senator from Kansas, the Senator from Alabama, or Senator 
Mikulski, should get into the procurement business. Senator 
Warner spoke very strongly on that the other day as others 
have, too. Whether it's made in Kansas, or Alabama, or Maryland 
we better leave procurement up to the Pentagon, and not to us.
    I have several questions, and I have some for the record 
dealing with the Department of Commerce.

                     MANAGEMENT OF DECENNIAL CENSUS

    Given where we are today, Mr. Secretary, would you rate the 
Census Bureau's management of the decennial census, as 
moderately effective? Poor, or what?
    Secretary Gutierrez. Based on where we are today, I would 
have to be very convincing to say moderately effective.
    Senator Shelby. Well, you couldn't convince me to that, 
now.
    Secretary Gutierrez. I know. I'm not going to try, Senator 
Shelby. I'm disappointed.
    Senator Shelby. You've got good standing, you don't want to 
ruin that standing.
    Secretary Gutierrez. Yes.
    We're in the situation today, and I will know so much more 
in 3 weeks when the task force gets back, but we are probably 
facing an overrun, and I'll know more about that. We're looking 
at different options, we may not be able to use all of the 
technology that we had hoped for.
    So, given that, and given the amount of time that it took 
the communication to work itself up the ladder, I would say I'm 
disappointed. I'm very much part of it, and I'm not separating 
myself from it, but it's been very disappointing.
    Senator Shelby. Indeed. People over at Census which came up 
with this--the handheld device, which makes sense, to some 
extent--did they know, really know, what they were doing when 
they're coming up with 400 additional changes? I mean, one or 
two, three or four--but 400? Plus the cost. That bothers us, as 
appropriators, and it should, and it should bother you, as the 
Secretary.
    Secretary Gutierrez. Yes, sir.
    Well, I think that part of the problem has been the lack of 
experience in working with an outside contractor that would 
come in and do a lot of the work that Census once did. And then 
once that happens, the level of intensity of management has to 
increase and I don't think that happened. I don't think that 
happened early on.
    So, Harris would have a certain date of delivery, Census 
would have another date--it just says that people----
    Senator Shelby. Why? Why? Why?
    Secretary Gutierrez [continuing]. People weren't talking. 
They hadn't set up the management processes to ensure that an 
outsider can come in and do what Census had always done.
    So, I think this is, while it comes down to a technology 
issue, I think that's a symptom. And from my standpoint, 
Senator, what we have is a management issue, and a cultural 
issue.
    Senator Shelby. What about a software problem?
    Secretary Gutierrez. Well, we had some software problems in 
our address canvassing, which we've done. We did our dress 
rehearsal, and those, I understand are fixable. We have work to 
do with the software, but those are fixable, but as you say 
with the 400 changes that were identified, some of those are 
software. It can be done, it's just a matter of the level of 
confidence of having to do that when we're 2\1/2\ years away 
from the Decennial Census.
    Senator Shelby. Are the same people at Census that came up 
with this idea to begin with, and assured the subcommittee that 
everything was rosy--are they still over there, running this 
program?
    Secretary Gutierrez. We have a new Director.
    Senator Shelby. Okay.
    Secretary Gutierrez. Who's been on board for 1 month. And 
we have a fairly new Deputy Director who has been in that role 
for almost 1 year. So there were some changes that took place.
    Senator Shelby. Okay.
    Secretary Gutierrez. Last year.
    Senator Shelby. Secretary, can we--this Committee of 
Appropriations--dealing with Commerce, and your money--can we 
anticipate a supplemental request from you, your Department, to 
accommodate the difficult position that the Census finds itself 
in?
    Secretary Gutierrez. That's the question I will have 
answered Senator Shelby. I should have the amount of money, but 
also if it falls into 2009 and 2010. We believe that a lot of 
it will fall in 2010, and we're also going to try to find the 
money internally before we do anything. So, I wish I could be 
more specific, but I'd like to wait before responding on the 
money and the timing. And then, I'll be back to this 
subcommittee with the full plan.

                   COLOMBIA AND PANAMA SHRIMP EXPORTS

    Senator Shelby. It's a lot of money.
    Mr. Secretary, going over to NOAA, free trade and shrimp?
    Secretary Gutierrez. Yes.
    Senator Shelby. If I can talk about that a minute. Has your 
Department examined Colombia and Panama's shrimp export 
activities, prior to these recent trade discussions? And, if 
so, what were your findings? If you don't know, will you get 
it?
    Senator Mikulski. Shift gears on that one.
    Senator Shelby. Yeah.
    Secretary Gutierrez. I will get back to you on that. I know 
that we--a lot of our shrimp activities are with Vietnam and 
Asia, but I will look back at Panama and Colombia.
    Senator Shelby. This would be dealing with Colombia and 
Panama's shrimp activities.
    I have a number of other questions, Madam Chairman, but I 
will submit them for the record and ask them in the timeframe 
we have.
    [The information follows:]

                 Colombia and Panama--Shrimp Activities

U.S. Shrimp Trade with Colombia and Panama
    The Department of Commerce's International Trade Administration 
reports no anti-dumping case work on shrimp with Panama or Colombia, 
nor any outstanding or longstanding shrimp-related issues within the 
purview of the National Oceanic and Atmospheric Administration (NOAA).
            Colombia
    In 2007, Colombia exported 2,221,646 kg of shrimp (of various 
product types) to the United States at a value of $12,877,685. That 
year, U.S. shrimp exports to Colombia amounted to 125,551 kg with a 
value of $909,424.
            Panama
    Panama exported 4,453,686 kg of various products of shrimp to the 
United States in 2007, valued at $36,644,581. In 2007, U.S. shrimp 
exports to Panama amounted to 28,474 kg, valued at $231,805.
Free Trade Agreement (FTA) Provisions
    The Office of the United States Trade Representative (USTR) reports 
no shrimp-related trade issues with Panama or Colombia--not before, 
during, or after the FTA negotiations with these countries.
            Market Access
    U.S. fish and fish product exports, including shrimp, will benefit 
from the pending FTAs with Colombia and Panama. Colombia's tariffs on 
high-priority U.S. fish exports such as shrimp, salmon, and sardines 
will be eliminated immediately upon entry into force of the United 
States-Colombia FTA. Currently, Colombian tariffs on U.S. fish exports 
range between 5 and 20 percent with an average of 18.9 percent. 
Similarly, Panama's tariffs on U.S. shrimp exports will be eliminated 
immediately upon entry into force of the United States-Panama FTA. 
Panama's tariffs on U.S. fish exports currently range between zero and 
15 percent with an average of 12.7 percent.
    For years prior to the launch of FTA talks with Colombia and 
Panama, the U.S. market was open to fish imports from these countries. 
The U.S. tariffs on fish and fish products average only 2 percent. 
Under the United States-Colombia FTA, most U.S. fish imports from 
Colombia will continue to receive duty-free treatment upon entry into 
force of the Agreement. Similarly, under the United States-Panama FTA, 
100 percent of U.S. fish imports from Panama will receive duty-free 
treatment immediately upon entry into force of the FTA. It is important 
to note these products, including shrimp, currently enter the U.S. 
market with little or no tariffs.

Turtle Excluder Devices (TED) Certification
    The chief component of the U.S. sea turtle conservation program is 
a requirement that commercial shrimp boats use sea turtle excluder 
devices (TEDs) to prevent the accidental drowning of sea turtles in 
shrimp trawls. On May 1, 2007, the Department of State certified 40 
nations and one economy as meeting the requirements set by Section 609 
of Public Law 101-162 for continued importation of shrimp into the 
United States. Section 609 prohibits importation of shrimp and products 
of shrimp harvested in a manner that may adversely affect sea turtle 
species. Colombia and Panama were among the countries certified.

                            FDCA TECHNOLOGY

    Senator Mikulski. Thank you very much.
    I'd like to pick up on Senator Shelby's line of questioning 
on the Census. Two points--number one, we've talked about the 
management issues, and you're a skilled manager, and we have a 
new Director of the Census in Mr. Murdock, so management is one 
thing.
    But, let's go to the technology. In this year's 
appropriation in the President's request, he's asking for, 
through you, $1 billion more. We have to make sure that $1 
billion gives us value at the end of the day. So, could you 
tell the subcommittee--what is the technological problem? 
What--I know that there are 400 changes, et cetera, but what 
doesn't work? If--think of someone knocking on the door, ``Hi, 
I'm from Census,'' and they have this technology in their hand 
and then they're asking their questions--at what point does 
this break down?
    Secretary Gutierrez. Yes, there are two big problems. One 
is that it takes a longer amount of time to capture the 
information for one interview than what was assumed. The other 
problem is that the number of interviews that a handheld can 
absorb in a given day is a lot less than what we expected. So, 
if you go into one of these apartment buildings with a lot of 
tenants, now all of a sudden we can't do that with one 
enumerator, we'd have to do that with more than one.
    Senator Mikulski. But what is it about--the technology that 
is broken--again, pardon me, but who cares if it lasts longer? 
Is it a consequence to the battery, what, what?
    Secretary Gutierrez. I believe it's a design of the 
software. I don't think it's a capacity problem, I think it's 
just the way that the requirements were communicated. And part 
of the problem is how the requirements were communicated to the 
contractor--this is what we need, this is the capacity we need, 
this is what an enumerator does every day--there are also some 
productivity assumptions that were not valid that were put into 
the program, so that also impacts.
    Senator Mikulski. So, the handheld can't absorb what we had 
hoped that it could absorb. So, it could mean, then, if you 
don't fix the handheld, you will need more people, because it 
takes more time.
    Secretary Gutierrez. Yes.
    Senator Mikulski. Okay. Then, is the handheld able to send 
it to the mother ship? I mean, is there a mother ship that 
absorbs all of this?
    Secretary Gutierrez. That's the plan. The whole idea was 
that the handheld would help us determine every single address 
in the country. We're also using global positioning satellite 
(GPS) technology this time. We'd send the questionnaires to 
those addresses, and then those households that did not 
respond, we would go back with the handheld, and all of that 
information would go back to what we call an operational 
control system, that would essentially get back to the 
enumerator with their tasks.
    Senator Mikulski. Pardon me, I'm a very plain-spoken and 
plain-thinking person. And knowing the way a census goes, there 
has to be--there will be someone who will knock on a door----
    Secretary Gutierrez. Yes.
    Senator Mikulski [continuing]. Presuming someone's at home 
and friendly and willing to answer. That in and of itself is an 
assumption--a big assumption. Because if they don't respond, 
there's usually a reason--they're old, they're poor, they could 
be hiding, they could have 15 people living in a house, some 
documented, some not.
    I mean, we've done censuses for 200 years--this is not a 
special ops operation, where we are doing a new secret thing in 
a foreign territory. It's in our country, we've been doing it 
for 200 years, and it's all been based on some form of 
interview.
    So, this is not to lay that on you, but the fact that they 
didn't understand what the hell they were being asked to do, I 
find shocking. If we are that dumb, we've got a problem in our 
country, let alone with technology. This, is again, not secret, 
not special ops.
    So, but here--they've gotten, you know, income under 
$50,000, et cetera. Then do they push a button, and it goes to 
a central facility?
    Secretary Gutierrez. Yes.
    Senator Mikulski. And is that part working?
    Secretary Gutierrez. That is one of the options we have, is 
to take that control system away from Harris, and put it into--
--
    Senator Mikulski. That's your option, but is it working now 
with the Harris contract?
    Secretary Gutierrez. I'll be able to answer that in 3 
weeks.
    Senator Mikulski. Okay.
    Secretary Gutierrez. The experts are looking at it to see 
if it's capable of----
    Senator Mikulski. And the enumerators talk to the computer, 
and that's going to take longer, and a computer isn't ready to 
work as hard as the enumerator. Then the handheld talks to the 
mother ship--we're not sure it can talk the same language. 
Then, having done that, the question is, can the mother ship 
process that information?
    You're shaking your head--who are you?
    Mr. Wienecke. I work for the Secretary.
    Senator Mikulski. So, can the mother ship process it? Okay.
    Mr. Wienecke. That's what we're working through right now.
    Senator Mikulski. Do you know the answer if the mother ship 
can process the information?
    Mr. Wienecke. We're testing that.
    Senator Mikulski. Okay. Now, let's presume that's happened, 
then they have to tell the enumerator the next day what they're 
to do.
    Secretary Gutierrez. That's right.
    Senator Mikulski. Do they talk back?
    Secretary Gutierrez. They essentially give the enumerator 
their schedule and tasks, and where they have to go for the 
next day.
    Senator Mikulski. Okay.
    Secretary Gutierrez. They also calculate productivity, they 
also calculate wages.
    Senator Mikulski. So, what you're saying, though, this 
could be really a collapse.
    And colleagues, this is really serious. Again, this is the 
United States of America. We hold ourselves out to be 
technological innovators, and we can't develop technology to 
take a census where we know the process, and we've known it for 
200 years.
    So, now, let's get to the money. If we have to do handheld, 
I mean, if we go to paper--if the United States of America has 
to do a paper census, it borders on a scandal. It really does.
    Senator Shelby. Madam Chairman, could I just interject one 
thing, just follow up?
    Senator Mikulski. Yes, because I want to get to the money 
punch line.
    Senator Shelby. Okay. I just----
    Senator Mikulski. Because we're heading to something 
that's--do you realize if we have to pay for a paper census----
    Senator Shelby. I know.
    Senator Mikulski [continuing]. Yes, go ahead, Senator.
    Senator Shelby. Just, I was just thinking of the software, 
here, and I'm a long way from being a software engineer. But, a 
census--the questions you ask during the census--I've talked to 
some software people, they said, ``That's so simple,'' you 
know, to program. I mean, because you're asking--let's assume 
you have the form, and you have to knock on the door, you know, 
and you had to fill it out, which we've done--that's not 
difficult. Is it laborious? Is it labor-intensive? It could be. 
And the software, or the handheld computer was to save money, 
be more efficient, and everything else. But, I don't think 
you're asking--whether it's Harris or whoever's doing it, the 
Commerce Department--you're not asking for a difficult software 
program.
    Senator Mikulski. Right.
    Senator Shelby. And I think the chairman's right. Thank you 
for letting me interrupt----

                  POSSIBLE SUPPLEMENTAL APPROPRIATION

    Senator Mikulski. Let's get to the--so, you're going to 
have answers. But, here's where we are. Senator Shelby asked--
as he does, such excellent focused and targeted questions--as 
he said, are you prepared to ask for money in a supplemental? 
And, as I understand your response is, ``Oh, we will turn to 
the Department first.''
    Secretary Gutierrez. Yes, I think I should say that----
    Senator Mikulski. Can I just give you a head's up?
    Secretary Gutierrez. Yes.
    Senator Mikulski. The supplemental appropriations will be 
before the Senate in mid-April. So, when you have your answers, 
we can't wait to know--we only get one crack at the 
supplemental. And this Appropriations Committee cannot absorb 
the fix, even if we get a robust allocation, because of all of 
our other compelling needs and very important agencies across--
remember, we not only have Commerce, we have Justice, where 
local law enforcement has been drastically cut, we're 
concerned--we could go on. So, we have to, if there--if you--I 
don't know where you're going to get the money. Because what we 
passed for the omnibus, was pretty lean. We scrubbed this 
pretty well.
    So, what we're saying, Mr. Secretary is, that whatever is 
the fix that is required, we would respectfully recommend that 
it be in the President's supplemental. I mean, we really do 
need a plan by, I would say, April 10. Because we'll be on the 
floor.
    Secretary Gutierrez. And we should have a plan, and numbers 
before that time, late March--and I will bring it to you as 
soon as we have it.
    Senator Mikulski. Fine, but we need, not only a plan, but 
we need a method----
    Secretary Gutierrez. Yes.
    Senator Mikulski [continuing]. For paying for the plan.
    But, we have a lot of confidence in your management 
ability.

                        NPOESS SATELLITE PROGRAM

    Let's go, then, to NOAA satellites. As I understand it, in 
terms of the famous NPOESS program, which is polar satellites, 
which are so important to giving us information about weather 
and climate, that there's--in addition to the cost overruns, 
that there is also another technological problem that could 
exacerbate the overruns.
    We understand that there is a main sensor, known as VIIRS, 
that's supposed to take a picture of the ocean color--now, why 
is that important? The ocean color tells us the temperature, 
which then gives us important information on climate change and 
weather. But that--what it's going to take a picture of is now 
blurry.
    You know, I went through that--the Hubble telescope over 20 
years ago, Senator Shelby was very aware of that--you know, we 
can't put a satellite up and then have it need a contact--its 
sensor needs a contact lens.
    So, our question is, oh my God, do we have to then fix the 
sensor, while we're already in cost overruns?
    Secretary Gutierrez. We----
    Senator Mikulski. Are you aware of this problem?
    Secretary Gutierrez. Yes. The assumption at this point, is 
that sensor will delay that part of the project by 8 months. We 
have not added 8 months to the end completion date. So, the 
VIIRS is 8 months off schedule, but the assumption is that we 
will be able to get back on schedule for the full NPOESS. So, 
we're still saying NPOESS will be launched in 2013. But that 
VIIRS sensor is 8 months behind schedule.
    Senator Mikulski. But, even on schedule, will it be able to 
see and do the job that it's supposed to do? Or is that another 
technological fix that requires, again, more money?
    Secretary Gutierrez. I don't know that, and I have not 
heard that. I have not heard that there will be another overrun 
on that part of it.
    Senator Mikulski. Well, Mr. Secretary, what Senator Shelby 
and I would like to do is submit our concerns about this in 
writing, because after we get it on track, and they deliver it, 
if we have a sensor with a blurry vision, and the whole point 
of it is that it's looking from the sky at our oceans, which 
gives us very important predictability, and like, his questions 
about shrimp, I'm asking about rockets----
    Secretary Gutierrez. The quality should be a constant, 
and----
    Senator Mikulski. Yeah, it should be.
    Secretary Gutierrez [continuing]. At this point, is----
    Senator Mikulski. Well, right now, we hear it's blurry. We 
hear it's blurry.

                        GOES-R SATELLITE PROGRAM

    Let's ask--let me go to GOES-R, and--which is another 
satellite program. Our question will be--what assurances can we 
give the subcommittee that we're not going to run into the same 
cost overruns with GOES-R as we did with NPOESS?
    Secretary Gutierrez. Well, and I'll be very up front here, 
we've gone from $6.9 billion to $7.6 billion and I believe you 
brought that up a little while ago. We are, today, $500 million 
away from having to trigger a Nunn-McCurdy-like process. I have 
been told that doesn't look like it's in the cards--one of the 
reasons that we have this $800 million increase is because we 
have mitigation plans, we have been very conservative, we have 
ensured that we're looking at the downside risk, but I just 
want the subcommittee to know that we've got to track this very 
closely, because we are $500 million away from hitting that 20 
percent mark. So GOES-R is clearly the big priority right now.
    Senator Mikulski. Well, that really gives us pause, 
because--first of all, there seems to be a consistent pattern 
of cost overruns in the NOAA satellite program. That's number 
one.
    Number two, that along with the cost overruns is then once 
we pay for it, do we get value for the dollar? The so-called, 
blurry-eyed sensor?
    Secretary Gutierrez. Right.
    Senator Mikulski. I have a real problem with our satellite 
programs across our Government. Whether it's in the classified 
area, or in others--we just don't seem to be able to get our 
satellites up on time, on budget, and then meeting what the 
expectations and criteria.
    So, here's where we are. What I would like--right now, the 
census is a crisis. We've got to get it solved, and we've got 
to get the payment for it within the supplemental. We ask you 
to please focus on that.

               MANAGEMENT REFORMS FOR SATELLITE PROGRAMS

    But we ask you to take a look now, also, at the NOAA 
satellite program, and give us a path forward, in terms of what 
you think will be the management reforms necessary in the--in 
this. One, so we can keep it on track for this year's 
appropriations, but at the same time, what this will mean for 
the incoming NOAA Administrator. Because we can't just be left 
holding the bag, and America will lose interest. People with 
scientists have their self on the line.
    Secretary Gutierrez. I'd be glad to do that, Madam 
Chairman.
    [The information follows:]

              Management Reforms in NOAA Satellite Program

    Within the Department of Commerce, the National Oceanic and 
Atmospheric Administration operates and manages two major environmental 
satellite programs: the Geostationary Operational Environmental 
Satellites (GOES) in geosynchronous orbit above the equator, and the 
Polar-orbiting Operational Environmental Satellites (POES) which 
provide global coverage in a low earth orbit.
    Following the Nunn-McCurdy certification of NOAA's next-generation 
polar-orbiting system--the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS)--the Department and NOAA have 
strengthened the management, oversight, and systems engineering 
processes of its satellite systems acquisitions. These changes will 
ensure that NOAA does not repeat the NPOESS mistakes in the development 
of the next generation Geostationary Operational Environmental 
Satellite series (GOES-R). These changes include:
  --Robust Risk Reduction in instrument acquisition processes. Risk 
        reduction in these processes requires careful management and 
        engineering attention. Both GOES-R and NPOESS are aggressively 
        managing instrument acquisition to mitigate the risk to the 
        entire program.
  --Technical Teaming with NASA to implement proven NASA space 
        acquisition processes in Department of Commerce and NOAA 
        acquisition strategies. For GOES-R, this approach is documented 
        in a GOES-R Management Control Plan (MCP) which allows the 
        GOES-R program access to the expertise and experience of both 
        NOAA and NASA, their support contractors, and of the best of 
        each agency's acquisition processes to ensure active and in-
        depth oversight of the development contractors. For NPOESS, 
        NOAA has teamed with the Air Force and NASA with activities 
        guided by a Memorandum of Agreement among the Department of 
        Commerce, Department of Defense, and NASA which is implemented 
        by a series of management, acquisition, and funding 
        arrangements.
  --Regular Management Oversight and Reporting by the satellite 
        programs to senior management officials. The GOES-R program 
        reports to the Department of Commerce and NOAA executive 
        management, and NASA engineering teams through NASA and NOAA 
        Program Management Councils (PMC). The NPOESS programs reports 
        to the NPOESS Executive Committee (EXCOM) which is comprised of 
        senior representatives from NOAA, NASA, and the Air Force that 
        provides programmatic and management oversight and guidance. 
        The NPOESS program also reports monthly to the NOAA PMC.
  --Realistic Cost Estimating and Budgeting that vets the Government 
        cost estimates by independent experts to ensure that adequate 
        resources are applied to areas of high risk. This means budget 
        requests will more likely cover expected costs without 
        requiring additional budget allocations to deal with unforeseen 
        issues.
  --Program Control and Congressional Oversight is ongoing with annual 
        program reports for both the GOES-R and NPOESS and quarterly 
        reporting of program status to Congress.
  --Management of Contractors using Incentive Fee Structure to ensure 
        the Government utilizes a full range of incentive and 
        performance management approaches to facilitate contractor 
        management.
  --Independent Reviews by Experienced Space Acquisition Experts such 
        as the Independent Review Team (IRT) to provide NOAA and the 
        Department of Commerce with unvarnished opinions of the 
        program's readiness at key decision points.
  --Recruitment of Experienced Program Managers and Program Executives 
        to implement internal controls, to improve insight into 
        emerging cost, schedule, and technical issues and exercise 
        stronger management control on the release of management 
        reserve and changes to the estimate at completion. For the 
        GOES-R and NPOESS programs, seasoned and experienced Senior 
        Executives have been placed in lead management positions. For 
        the NPOESS Program, in addition to the System Program Director 
        who is involved in day-to-day activities of managing the system 
        acquisition, a Program Executive Officer position was 
        established to provide high level monitoring of the program and 
        contractor performance.

    Senator Mikulski. We note that the vote has started, has 
the second bell occurred?
    Senator Brownback. Madam Chairwoman, could I ask one other 
question----
    Senator Mikulski. On what topic?
    Senator Brownback. On the----
    Senator Mikulski. I have questions related to the Patent--
is it on the satellites?
    Senator Brownback. No, it's on the subsidization, but I 
just wanted to ask----

                             PATENT BACKLOG

    Senator Mikulski. I'd like to finish my patent question.
    Senator Brownback. Okay.
    Senator Mikulski. We have over a 1 million case backlog. 
There is a persistent pattern in our Patent Office with these 
issues. We have given them more money, we have given them more 
flexibility, but at the end of the day, our innovators and our 
inventors--be they big companies or those start-up companies 
that make America great, feel they're standing in line. Could 
you share with us, where you think we should be going forward? 
Is it a money problem? Are we doing our part? What is the 
problem, here?
    Secretary Gutierrez. Where we are today, essentially, Madam 
Chairman, it is like, we are on a treadmill and we're trying to 
catch up. The number of applications is increasing, and each 
application is more complex than it was 10 or 20 years ago. So, 
we're adding 1,200 people every year, and our initial pendancy, 
the first time we get back to people, is up to 25 months. Our 
final pendancy, when we finally get back with a patent, is over 
30 months. So, the number of people we're adding is not enough 
to keep up with the applications and the complexity.
    I think we need to come up with different process 
solutions, other than just adding more people. One day we're 
going to have 500,000 people, and we're still not going to be 
caught up.
    So, one of those things we're looking at, and this is where 
we'd like to go to the patent bill, we need some help on this, 
is we'd like to be able to offer applicants that, if they do 
more of the work themselves, that we will guarantee we will get 
back to them in 12 months. But that will essentially take some 
of the work that we're doing--having to do quality reviews and 
sending the application back, and asking for more information--
if they do the work themselves, we would guarantee a speedier 
response. That's a big solution.
    We're also looking at some workplace methods, flexible 
workplace, working from home. We're also looking at the 
flexibility of having quotas on a quarterly basis, instead of 
on a daily basis, so that people can be more empowered to 
manage their time and their priorities.
    So, I think we need to look at the process and a different 
way of thinking about this than simply adding more people every 
year. By 2013, we would have added 8,000 more people.
    Senator Mikulski. Well, this is really--again, we're almost 
at a breaking point, here. With 1 million patents pending. And 
at this breaking point, we've added more money--I won't repeat 
myself--the part you've said we have to look at the patent 
bill, that's beyond the scope of this subcommittee.
    But, in terms of the personnel reforms, that's not beyond 
the scope of this subcommittee, and I think we need to look at 
how do we retain the people we recruit, because of just the 
knowledge factor--they walk out, go to the private sector, et 
cetera, it's a big loss. And it takes at least 2 years for them 
to really know how to get--do the job in the way they do. 
Because experience counts.
    We really need from you, this year, what we're going to do 
here, whether it's flexibility on work hours, or all of these 
other creative things, because we're really frustrated, the 
Judiciary Committee is really frustrated, but America--the 
private sector is.
    I'll just stop here, because in the report on our 
innovation, from the National Academy of Science, ``Rising 
Above the Gathering Storm, Where We're Falling Behind'', they 
said one of the key things in an innovation-friendly Government 
is the Patent Office, which enables us to, not only take our 
brilliant inventions that are being done, but to really make 
sure that we protect them against our intellectual property 
being robbed.
    So, this is really, I mean, these are really three big 
issues we've laid out here--the census, which is a crisis, the 
satellites, which are bordering on a crisis, and then this 
whole other issue with patents, that I believe stifles our 
ability to turn our innovations into products that could be 
sold around the world.
    Secretary Gutierrez. We're also looking at sharing work 
with some other Patent Offices in international countries where 
it makes some sense.
    Madam Chairman, on the satellites, I offered up this notion 
that we are $500 million away--I've asked that question 
internally, I was told that we won't see that, because we've 
had mitigation costs, and we've been very careful about this 
increase to $7.7 billion. But, I just want you to know what I 
know----
    Senator Mikulski. Well, we've been told things before. We 
were told, from the Census, ``Oh, don't worry about it.'' We've 
been told, ``Oh, gee, the satellites,'' there's three different 
agencies, you know, we've been told a lot of things, and we're 
now acting like Missouri, ``Show us.''
    So, Mr. Secretary, we think you're doing a great job, but 
these three things are really--have now come to the Cabinet 
level, and we look forward to working with you.
    Secretary Gutierrez. Thank you.
    Senator Mikulski. There's only about 3 minutes left in the 
vote--Senator Brownback, did you want to have a round of 
questions?

                  SUBSIDATION OF EADS AIRBUS AIRCRAFT

    Senator Brownback. Yes, and I won't take long on this, but 
this is just a--this is a big deal, it's been going on for a 
long time. Just to complete that area, because I tried to stay 
within my time on that 5 minutes, and--but we believe, the U.S. 
Government, that every EADS Airbus plane receives launch aid in 
its development, believes in our proposal that each is given 
help in the development costs, is that correct, in the U.S. 
Government's position?
    Secretary Gutierrez. I'll have to check if every single 
plane--I know that we have alleged that the new planes that 
have come out, that there have been launch aids given by the 
Government.
    Senator Brownback. And that, for the A-330, includes the A-
330 airplane?
    Secretary Gutierrez. I believe so.
    Senator Brownback. My point to you is simply that wherever 
the plane is put together, it's the U.S. Government's position 
that that plane has received somewhere between 33 percent to 
100 percent of its development cost from European governments, 
and that's in our claim, that's in our proposal. And that that 
applies in pulling down the cost of each of those planes, and 
that's why they can be more competitive against a Boeing plane, 
is in our base proposal.
    And that's, I just--I wanted to draw that attention to you, 
and to my colleagues, because if we win this case and we're 
successful on it, there's going to be, then, what are we going 
to do in response to this, toward EADS and Airbus? And it's 
going to affect a lot of things that are being discussed, and 
the Secretary is going to be involved in these retaliatory 
measures, substantially, because of the development cost was 
for the whole plane. And then that is spread about over all 
planes that are sold.
    So, I--I appreciate Madam Chairman----

                            CLOSING REMARKS

    Senator Mikulski. Colleagues, I'm going to have to close 
out the hearing. I'm going to invite Senator Shelby to have 
whatever he wishes to say. But I want to announce that this 
hearing, after the conclusion of his remarks, will come to an 
end. The subcommittee, we can submit questions and so on for 30 
days, we will stand in recess until March 13, when we'll hear 
from NOAA and NSF.
    Senator Shelby. Madam Chairman, I just want to answer that, 
the best I can. We have this ongoing dispute of subsidies, and 
that's got to be settled there, but what we have here, though, 
is an award of a tanker by the Air Force that's going to be 
built in the United States with the air frame which comes from 
EADS, which the Air Force has selected in five major categories 
as superior, and we're talking about the warfighter, what's 
best for the warfighter.
    Boeing, in a lot of people's estimates, submitted an old 
plane, old technology, and they lost, fair and square. And now 
they're trying to come in different ways. I don't believe it's 
going to work. I think the decision by the Air Force will 
either be upheld or changed by the Government Accountability 
Office and that's regular procedure, that's not before us 
today.
    Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. If there are no further questions this 
morning, Senators may submit additional questions for the 
subcommittee's official hearing record. We request the 
Department's response within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted by Senator Barbara A. Mikulski

               CENSUS--2008 DRESS REHEARSAL AND HANDHELDS

    Question. I understand that the handheld computers were tested in 
last year's dress rehearsal of address canvassing. How did they 
perform? What problems were identified? What is the status of fixing 
those problems?
    Answer. We completed the Dress Rehearsal Address Canvassing on 
schedule using the handheld computers supplied by the FDCA contractor. 
Although we experienced some software, help desk, and training problems 
with this first-ever deployment of the contractor's solution, many of 
the problems were resolved quickly. We continue to examine the results 
to determine what needs to be done to make improvements for the 2010 
Census Address Canvassing operation, which will begin a year from now.
    During the Dress Rehearsal Address Canvassing operations, where 
census enumerators verify and update our Master Address File, the 
devices proved to be reliable, with a hardware failure rate of less 
than 1 percent--much better than industry standards. The devices were 
also secure--they required a fingerprint and password to operate, and 
the data were fully encrypted in the device and during transmission. We 
successfully collected precise Global Positioning System (GPS) 
coordinates for housing units and map features; data we collected were 
transmitted effectively via both landline and wireless transmissions; 
and our workers were generally comfortable working with the device. We 
were also able to identify software problems and apply solutions 
simultaneously and uniformly to all devices via electronic transmission 
to each device daily upon start-up.
    Following the Dress Rehearsal Address Canvassing operation, Census 
Bureau and contractor staff identified problems and analyzed their 
causes to learn from this operation. Teams conducted more detailed 
analyses of the transmission component of the design and performance 
during Address Canvassing. These analyses included data on average 
transmission time, the average size of transmissions, the type of data 
being transmitted, and the number of transmissions. The contractor also 
analyzed the end-to-end transmission workflow, problems documented in 
help desk tickets, and assignment area size. These analyses led to a 
number of corrective measures that are now being taken to improve 
performance of the handheld computer and of the transmission process. 
For example:
  --The initial handheld computer software design inhibited efficient 
        transmission to and from the handheld computer, resulting in 
        enumerator downtime. We resolved this by making improvements to 
        the database design and implementing hardware and software 
        upgrades.
  --The handheld computers did not function well if the data files were 
        too large. They worked most efficiently with assignment areas 
        of up to 720 addresses. However, approximately 3 percent of the 
        assignment areas had more than that. We are addressing this 
        issue for the nationwide 2010 Census Address Canvassing 
        operation by limiting the size of the assignment areas and the 
        amount of data that must be downloaded and processed on the 
        handheld computer.
  --The contractor's operations support (``help desk'') solution was 
        insufficient to meet the type and amount of support needs for 
        our field staff. We are addressing this by improving 
        operational readiness (more testing, increased knowledge base 
        development, and additional support personnel training) and by 
        jointly developing a more robust support system.

                      FDCA TECHNICAL REQUIREMENTS

    Question. The Field Data Collection Automation contract was awarded 
on April 4, 2006. Obviously, at the time Census and Harris figured all 
the work associated with the contract could be accomplished on time and 
within the $600 million budget.
    Given the complexity of the system why were Census' assumptions 
regarding time required for the handheld contract so far off?
    Answer. Early in the decade, we believed our experienced Census 
Bureau staff could develop and deploy the handheld computers for use in 
the 2010 Census. These staff did produce the solutions we tested in 
both the 2004 Census Test and 2006 Census Test. Although we were able 
to develop and use them well enough to determine that we could conduct 
field data collection on such devices, by 2004 we had concluded that we 
did not have sufficient expert resources in house to do this for the 
2010 Census, so we decided to contract this effort to the private 
sector. At the time we prepared the RFP, our strategy was to supply 
high-level functional requirements to the contractor on award, and then 
to determine final detailed requirements based on what we learned from 
the 2004 and 2006 Census Tests, and the 2008 Census Dress Rehearsal.
    Thus, at the time of contract award in April 2006, both the Census 
Bureau and the contractor were fully aware this strategy would mean a 
tight schedule for requirements development, system design, system 
development, and deployment. The initial requirements strategy at that 
point was to develop remaining requirements in a two-step process. 
First, based on results from the 2004 and 2006 Census Tests, we would 
provide detailed Dress Rehearsal requirements for our major operations. 
Then, based on lessons learned from the Dress Rehearsal, we would make 
adjustments to those detailed requirements for 2010 Census operations, 
as well as develop the detailed requirements for those operations that 
could not be included in Dress Rehearsal (e.g., enumeration in Puerto 
Rico; enumeration in remote areas).
    The contract was awarded in April 2006--less than one year before 
the first major application was needed for the Dress Rehearsal Address 
Canvassing operation. We knew this was a very aggressive schedule, and 
to mitigate some of this risk, all of the final vendors for the 
contract were required to develop a prototype of the Address Canvassing 
device so that, upon award, they would already have initial development 
underway. However, after contract award, it became clear that the 
contractor's funding needs by fiscal year differed from what the Census 
Bureau had assumed in its lifecycle cost estimate for the contract. In 
particular, the contractor stated they needed more of the overall 
contract funding earlier in the cycle, including fiscal year 2006. 
Because the Congress had already appropriated funds for fiscal year 
2006, and the President had already made his request to the Congress 
for fiscal year 2007, the Census Bureau had limited flexibility to 
address these funding issues directly. In response, the Census Bureau 
reprogrammed some funding to the FDCA contract, and a re-plan was 
developed which, among other things, delayed and extended software 
development into seven increments. Thus, this re-plan added additional 
risk to the overall development plan and strategy, though at the time 
the Census Bureau thought the added risk was manageable.
    Question. Last month, nearly 21 months after awarding the contract 
Census finally provided the contractor with a final set of technical 
requirements. Why did it take so long to finalize the requirements?
    Answer. As mentioned above, at the time of contract award in March 
2006, both the Census Bureau and the contractor were fully aware this 
strategy would mean a tight schedule for requirements development, 
system design, system development, and deployment. The initial 
requirements strategy at that point was to develop remaining 
requirements in a two-step process. First, based on results from the 
2004 and 2006 Census Tests, we would provide detailed Dress Rehearsal 
requirements for our major operations. Then, based on lessons learned 
from the Dress Rehearsal, we would make adjustments to those detailed 
requirements for 2010 Census operations, as well as develop the 
detailed requirements for those operations that could not be included 
in Dress Rehearsal (e.g., enumeration in Puerto Rico; enumeration in 
remote areas).
    We were moving on that path when, in October 2007, we had to de-
scope many paper-based dress rehearsal activities in order to have 
sufficient funds to keep this contract (and our data capture systems 
contract) on schedule in developing critical applications and 
interfaces planned for the Dress Rehearsal. Until that point, we still 
were planning to use our Dress Rehearsal experiences with various 
operations to help finalize detailed requirements for the FDCA 
contractor. However, because most of those operations had to be 
cancelled, in mid-November 2007, the contractor requested, and we 
agreed, to move forward immediately to deliver a final set of all 
detailed requirements. This effort was completed, and we delivered them 
to the contractor on January 16, 2008.

                         HARRIS CONTRACT AWARDS

    Question. I understand that this was a ``cost-plus contract'', as 
such bonuses were awarded based on performance. Harris was awarded two 
bonuses on grades of 91 and 93 for this program.
    What criteria were used to determine that Harris was exceeding 
expectations and deserved these bonuses?
    Answer. No bonuses have been awarded for this contract. The only 
opportunity for the contractor to earn any profit (over and above 
costs) is through the award fee process. For this contract, there are 
four evaluation categories for the award fee determination: Business 
Management; Technical Management; Project Integration; and FDCA/DRIS 
Integration.
    The criteria used in assessing performance are: Quality, 
efficiency, ingenuity, responsiveness, thoroughness, timeliness, 
resourcefulness, accuracy, safety/health/environmental compliance, 
communication, autonomy, and contract management.
    FDCA award fees are determined by an Award Fee Determination Board 
consisting of a Chairperson, eight voting members and three non-voting 
members and an Award Fee Determining Official, in accordance with 
procedures outlined below:
  --1. Government Technical Monitors (TMs) prepare/submit monthly 
        Technical Monitors Reports (TMRs) documenting aspects of 
        Contractor performance.
  --2. Government Principal Technical Monitor (PTM) prepares/submits 
        monthly report summarizing TMRs.
  --3. Together with final monthly TMR in the Award Fee Period (AFP), 
        TMs also prepare/submit a summary report of observations over 
        the entire AFP; the PTM prepares a similar overall summary.
  --4. FDCA Project Management Office (PMO) distributes timetable of 
        activities called for by the FDCA Award Fee Determination Plan 
        and schedules necessary meetings/briefings.
  --5. FDCA PMO distributes TMRs/PTMRs, any Individual Event Reports, 
        and related information to Award Fee Board members.
  --6. Contractor submits (and briefs to the Award Fee Determination 
        Board) its Self-Evaluation Report for the AFP in question.
  --7. Award Fee Determination Board members review documentation 
        referenced in previous steps, and other documentation deemed 
        relevant by individual Board members (e.g., field observation 
        reports).
  --8. Award Fee Determination Board meets to arrive at consensus 
        score.
  --9. FDCA PMO documents Board's findings and conclusions and briefs 
        Award Fee Determining Official.
  --10. Award Fee Determining Official makes final fee determination.
  --11. Government Contracting Officer reviews determination for 
        contract compliance and submits invoice authorization letter to 
        Contractor.
  --12. FDCA PMO debriefs Contractor on final award fee determination.
    Step 4 takes place shortly before the end of a given Award Fee 
Period. Steps 5 through 12 are scheduled so as to conclude no later 
than 60 calendar days after the end of the Award Fee Period.

                       EFFECT OF FDCA ALTERNATIVE

    Question. One of the options being looked at is to de-scope the 
contract and bring work back in-house at Census.
    What other programs will suffer as a result of Census 
reprioritizing staff to work on this program? Will additional 
contractors be needed? If additional contractors are used, aren't we 
back where we started?
    Answer. We do not believe this decision will have any significant 
impact on other programs. We likely will have to hire additional staff 
or contract support personnel to accomplish this work. These 
contractors will be used to supplement and support Census Bureau staff 
leading the work. This will not involve another solutions-based 
contract like FDCA.

                           MANAGEMENT REFORM

    Question. What management reforms have you put in place in order to 
avoid problems from now until the conclusion of the 2010 census?
    Answer. We have a new Acting Associate Director for Decennial 
Census, Arnold Jackson. Other moves are under consideration. We are 
taking a series of steps to strengthen management, including:
  --Instituting a new management approach that will strengthen planning 
        and oversight relative to risk management, issue 
        identification, product testing, communications, and budget/
        cost management.
  --Increasing the intensity and pace of senior management involvement, 
        including daily status assessments and problem resolution 
        sessions chaired by the Associate Director, weekly status 
        assessment meetings with the Director and Deputy Director, 
        periodic but unannounced reviews by MITRE and Department of 
        Commerce specialists in IT, project management, and 
        contracting.
    We also are developing a comprehensive plan that consolidates the 
recommendations from several studies and reviews, including MITRE, GAO, 
our own Blue team, the FDCA Risk Reduction Task Force, and the 
Secretary's expert panel. Some of the action items we are committing to 
are:
  --Comprehensive risk management such that the higher impact risks are 
        known as early as possible and elevated to proper levels for 
        timely resolution.
  --Strengthened leadership in the Decennial Program so that 
        stakeholders, contractors, staff, and management are unified 
        and focused on the issues that drive a successful census.
  --Transitioning from a planning phase of the Decennial cycle to an 
        action-oriented operational phase by shortening decision 
        cycles, cutting internal redtape, and pushing more problem 
        resolution responsibility down to our managers.
  --Adhering to a structured plan of action to see that the things we 
        have not done well do get better as rapidly as we can.
    The FDCA PMO and the Software Assessment Team have agreed to a plan 
to strengthen oversight of the contractor, and the plan is known as our 
``Insight Plan''. The PMO launched implementation of the Insight Plan a 
few weeks ago, and some of the key steps of that plan are:
  --A much closer review of the contractor's software earlier in the 
        development and test cycle.
  --Permanent Census staff at the contractor's Largo facility and staff 
        embedded with the contractor at key points in the development 
        cycle from requirements clarification to product release for 
        final field hands on testing.
  --Improving the contractor's test cases by including more realistic 
        census events and operationally characteristic data.
  --Involving census users of the information collected by the handheld 
        system in the process of review and approval of contractor 
        products before they are final. This will greatly increase 
        stakeholder participation and bring about rapid feedback needed 
        for problem correction.
    Question. After the problems with NPOESS we brought in a person 
with a proven track record to rescue the program and get thing moving 
in the right direction. Who is your General Mashiko for the Handheld 
contract?
    Answer. We recognize the need for better program oversight, program 
integration, and acquisition management. We are in the process of 
finalizing leadership and management improvements that address these 
needs and expect to announce these in the near future.

                     OTHER 2010 DECENNIAL CONTRACTS

    Question. The handheld computer contract is just one of many large 
contracts supporting the reengineering of 2010 operations. Given the 
problems with FDCA have you begun a top to bottom review of these 
programs? What assurances can you give the Subcommittee that there are 
no other problems lurking out there?
    Answer. One of our major, multiyear contracts for the 2010 Census 
recently was completed on time and within budget. Only one minor task 
and contract closeout remain. The Harris Corporation successfully 
completed its tasks in support of this MAF/TIGER Accuracy Improvement 
Program, which now has brought our geographic databases into GPS 
alignment for the entire country.
    For our two other major IT contracts, we are working with the same 
vendors who supplied similar solutions for Census 2000. For the Data 
Response Integration System (DRIS) contract, we selected Lockheed 
Martin, who was the contractor for the Census 2000 data capture system. 
For the Data Access and Dissemination System (DADS) II contract, we 
selected IBM, who also was the contractor for our existing DADS system. 
While previous experience with the same contractors on similar tasks is 
no guarantee of a problem-free process, we are much more confident 
these contracts will be completed on time and within budget.
    Although not an IT contract, we do have some initial concerns about 
the Communications contract and have reduced their initial award fee 
for the first evaluation period. Our primary concern is that their 
initial draft plan was not as fully detailed or analytically robust as 
we required in our statement of work. They can recover this fee 
reduction in the second evaluation period, and we are hopeful their 
performance will improve so that they do so.

          SATELLITE OVERSIGHT DURING ADMINISTRATION TRANSITION

    Question. What management reforms have you instituted within your 
office to ensure adequate oversight of NOAA and its satellite programs 
as we transition into a new Administration?
    Answer. With regards to the GOES-R program, on December 21, 2007, 
the Department delegated Key Decision Point Authority for the GOES-R 
program to the Under Secretary for Oceans and Atmosphere. With that 
delegation, the Department laid out a series of expectations for the 
program:
  --The GOES-R program will adhere to the Department's standard review 
        board processes.
  --NOAA and the GOES-R program will make available all information 
        necessary for budget oversight and legal advice.
  --NOAA and the GOES-R program will provide the Department will all 
        briefings and information packages for all Key Decision Point 
        Reviews and will provide the Chief Financial Officer and 
        Assistant Secretary for Administration quarterly briefings.
  --The Department established cost and schedule thresholds for 
        reporting variances.
    The Department fully expects that these requirements will survive 
the transition into a new administration. In addition, the NOAA Deputy 
Under Secretary, a career NOAA executive, will continue to provide 
senior oversight of NOAA's satellite acquisition programs. The 
Assistant Administrator for Satellite and Information Services and 
Deputy Assistant Administrator for Systems have multiple years of 
experience acquiring satellite systems and will continue to provide 
day-to-day supervision of the System Program Directors of the 
Geostationary Operational Environmental Satellite N Series (GOES-N), 
GOES-R Series, Polar-orbiting Operational Environmental Satellites 
(POES), and the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) programs.
    NOAA has also established a Program Management Council (PMC) that 
meets monthly to review and provide oversight to the major acquisition 
programs. The PMC will continue its reviews of all NOAA satellite 
acquisition programs during the transition period.

                   VIIRS AND OCEAN COLOR REQUIREMENTS

    Question. The latest problem with NPOESS is its main sensor, know 
as VIIIRS, will not meet all of the requirements for ``ocean color'' in 
time for the NPP launch. However, we have been told that this problem 
will be corrected in time for the first NPOESS launch.
    Answer. This is correct. In 2007, problems were noted during 
testing of the VIIRS instrument that were traced to the Integrated 
Filter Assembly (IFA), which allowed some light to cross into the wrong 
detectors, and caused degraded performance of ocean color sensing.
    The NPOESS Executive Committee (EXCOM) directed the NPOESS 
Integrated Program Office (IPO) to: (1) fly the first sensor on NPP 
with the existing IFA, accepting the existing performance degradation 
for that mission; and (2) resolve the VIIRS IFA problems before flying 
it on NPOESS C1.
    The agreed to path forward is to remanufacture the IFA to achieve 
an acceptable Ocean Color/Chlorophyll (OC/C) capability for NPOESS C1. 
The remanufactured IFA was delivered ahead of the scheduled June 2008 
plan. Performance results are expected from IFA testing this year.
    Question. By placing a VIIRS on NPP with less than 20/20 vision 
will we still get useable science when it comes to ocean color?
    Answer. The expectation for Visible/Infrared Imager/Radiometer 
Suite (VIIRS) on NPP is expected to exceed existing operational earth 
observation capabilities in space. VIIRS is expected to meet 20 of 21 
Environmental Data Records, including the Imagery and Sea Surface 
Temperature Key Performance Parameters (KPP). These data records are 
the main scientific data required of the NPP. Only Ocean Color/
Chlorophyll (OC/C) products and Aerosol will be degraded.
    Although these Ocean Color/Chlorophyll products and Aerosol will be 
degraded from original levels of performance, aerosol measurements will 
still be at specification.
    Question. What assurances can you give us that the ocean color 
problem will be correct on VIIRS in time for the first launch of 
NPOESS?
    Answer. The remanufactured Integrated Filter Assembly (IFA) 
incorporates a different coating technology which is expected to 
significantly reduce the amount of degradation. Testing later this year 
will verify performance against the VIIRS specification requirements.

                            GOES-R CONTRACTS

    Question. Will the contract for GOES-R be a ``firm-fixed price'' or 
a ``cost-plus'' contract?
    Answer. The contracts for the GOES-R Ground and the Flight Segments 
will be Cost Plus Award Fee (CPAF) contracts.
    Question. Will the GOES-R contract include cost overrun penalties 
to ensure contractors don't get away with another boon-doggle?
    Answer. The GOES-R Program will structure the contract management 
mechanisms for the Ground and Flight Segment contracts to ensure 
adequate safeguards to prevent contract overruns.
    For the GOES-R Ground and Flight Segment contracts, overall cost 
performance will be evaluated on how well the total cumulative actual 
costs were controlled as compared to the negotiated baseline estimated 
costs. Per the award fee structure, the contractors should not earn a 
satisfactory rating for cost control when there is a significant cost 
overrun within its control. The Government will consider the reasons 
for any overrun and assess the extent and effectiveness of the 
contractor's efforts to control or mitigate the overrun.

                  GOES-R ``COST-PLUS'' CONTRACT OPTION

    Question. Given all the problems associated with the Department of 
Commerce's other ``cost-plus'' contracts, namely the Handheld computers 
at Census and NOAA's own NPOESS, would it not be a better decision to 
not do a ``cost-plus'' contract?
    Answer. A cost plus type contract is suitable for the GOES-R Ground 
and Flight Segment contracts as there are too many uncertainties 
involved in contract performance that do not permit costs to be 
estimated with sufficient accuracy to use a fixed-price contract. 
Because of the high degree of uncertainty in developing this new 
observing system and the volume of data produced by these new sensors 
that the ground system will have to process, contractor proposals for a 
fixed-price contract would contain an extremely large amount of risk/
contingency funding which would eliminate any degree of potential 
savings with a fixed-price contract. In addition, cost pressure on a 
contractor in such a contract can drive them towards cost cutting 
efforts that threaten mission success. For programs such as these, NOAA 
prefers to maintain risk dollars outside of the contract in order to 
have close government control of cost/schedule and technical trades 
throughout the development cycle.

                       GOES-R TOTAL PROGRAM COST

    Question. If the decision is made to build the 2 option satellites 
then what will the total program cost be?
    Answer. The estimated cost for the additional two satellites is 
estimated between $2.5 and $3 billion above the current $7.672 billion 
cost for the two satellite program. This includes four satellites, 
instruments for each, ground facility support, and operations and 
sustainment (O&S) funding for the lifetime of all four satellites. The 
last satellite (GOES-U) is expected to cease operations in 2036.

               UNITED STATES PATENT AND TRADEMARK OFFICE

    Question. At last year's hearing we talked about my concerns with 
PTO. I appreciate that you took my request for a remediation plan 
seriously. Unfortunately we need to do more. For example the GAO has 
recommended that patent examiner's work production quotas need to be 
revised. Do you agree with this recommendation?
    Answer. In September 2007, the GAO recommended that the USPTO 
undertake a comprehensive evaluation of the assumptions that the agency 
uses to establish its production goals. In September 2004, the Commerce 
OIG also recommended that the USPTO reevaluate current patent examiner 
goals and assess the merits of revising them to reflect efficiencies in 
and changes to work processes resulting from automation and other 
enhancements. I agree that a comprehensive evaluation of the 
assumptions that the agency uses to establish its production goals is 
appropriate.
    Question. Will you charge the PTO to immediately begin a 
comprehensive revision of these work production quotas?
    Answer. I support the USPTO's ongoing efforts to conduct a 
strategic level assessment of its patent examiner production process in 
comparison to best practices similar to other large-scale federal 
agencies and commercial organizations.
    To that end, the USPTO is selecting a contractor with expertise in 
assessing practices in large-scale production environments to conduct 
an independent analysis.
    Another significant component of these ongoing efforts includes 
evaluation of the Flat Goal Pilot Program, initiated by the USPTO in 
April of 2007. The ``Flat Goal'' pilot tests a new concept of how 
patent examiner production is measured.
    Specifically, the 173 patent examiners who volunteered for the one-
year pilot (April 2007-April 2008) are given flexibility in choosing 
when and how to do their work, and may earn larger, quarterly bonuses 
for every application examined above a particular target goal rather 
than earning bonuses on an annual basis.
    Examiners who participate are assigned a production goal at the 
beginning of each quarter rather than tracking their use of examining 
time throughout the quarters of the fiscal year. The results of the 
flat goal pilot may help the USPTO reassess some of the assumptions 
underlying the examiner production goals.
    Question. Since we met last year patent waiting times have 
continued to increase due to the increasing dual challenges of rising 
workloads and more complex challenges. What efforts has PTO made to 
provide continuing education to its examiners so that they can review 
these ever more complex technologies?
    Answer. Effective training and continuing review and education are 
priority issues for the USPTO because the agency recognizes that the 
expertise of its examining corps is the primary factor influencing 
patent quality.

Tech Fairs
    Our Technology Centers (TCs) regularly hold on-campus ``tech 
fairs'' where industry speakers share state-of-the-art information with 
our patent examiners. In April 2008, the USPTO held a Design Day for 
its design examiners (TC 2900), where USPTO specialists shared 
information on the Hague Agreement and its implementation and how 
design patents impact the economy.
    On May 5, the USPTO has planned a Tech Fair for the biotechnology 
area (TC 1600). Dr. John Rossi from Beckman Research Center of City of 
Hope will speak about the state of the art in Dicer-substrates and 
Oligonucleotides and Dr. Kevin D'Amour from Novocell will speak about 
human embryonic stem cells. On May 14 and 15, a Tech Fair is scheduled 
for the semiconductor area (TC 2800). Thomas Gallagher from IBM will 
speak about magnetic random access memory; Santokh Badesha from Xerox 
will give an overview of electrophotography; and Michael Nelson from 
NanoInk will speak about ``Nanotechnology Applications and Micro 
Electromechanical (MEM) Devices.''
    On June 4 and 5, the USPTO has planned a Tech Fair for the 
mechanical area (TCs 3600 and 3700). Dr. Ned Allen from Lockheed Martin 
will speak about the F-35 Joint Strike Fighter; John Boller from Mizuno 
will speak about golf equipment; and William Bachand from Taser 
International will speak about the ``Taser Gun.''
    We are happy to invite you and your staff to participate in any of 
USPTO's tech fairs so you can see for yourself the sort of cross-
pollination training provided for examiners.

Expanded Technical Training Program
    The USPTO has expanded the range of eligible non-duty training 
courses available for examiners to enhance their technical skills and 
abilities. A similar ``After Work Education'' (AWE) program is 
currently being implemented for technical support personnel.
    While the USPTO has provided paid non-duty training in the past to 
patent examiners to enable them to take technical classes, it was 
determined that the previous program was too restrictive. In response 
to an explicit need expressed by the examiners, amendments were made to 
broaden the program to provide examiners with one year of experience at 
the USPTO the opportunity to take classes in arts outside their 
immediate docket. The classes, however, must still be related to a 
recognized technology that is examined at the USPTO.
    This program will assist in developing and maintaining a highly 
skilled workforce by enhancing the employees' knowledge, skills and 
abilities through formal education. Currently, the patent examiner can 
receive up to $5,000 per year, and the agency has proposed to raise 
that opportunity to $10,000 per year.

University-style Training
    USPTO's recently established university-style training program 
leads to new-hire examiners with the ability, skills and confidence to 
work with reduced oversight. The training program consists of classes 
of approximately 130 students, which are broken down further into small 
``labs'' of approximately 16 examiners who will work in a similar area 
of technology. The training program is conducted over a period of 8 
months in a location outside of the Technology Centers.
    The program courses are taught through a combination of large 
lectures and small group sessions within the individual labs. The 
curriculum is kept current by a committee, with representation from 
every Technology Center, that writes and reviews the substance of the 
curriculum.
    Lectures are followed by practical application and testing. The 
results of ongoing testing, administered electronically, indicate to 
examiners how well they grasp a particular topic and provide the 
trainer with information as to whether segments of the topic need 
additional review. Examiners write Office actions that are reviewed and 
evaluated by the trainer who provides appropriate feedback. A 
proficiency test is administered at the end of the 8-month program. The 
intent of the program is to deliver, to the examining corps, new hires 
who are capable of writing complete Office actions for supervisory 
review.

Examiner Certification and Recertification
    The USPTO has implemented a thorough certification process for any 
patent examiner seeking to be promoted from the GS-12 level to the GS-
13 level. This process includes a review of the work product of the 
examiner and a certification exam modeled upon the patent bar exam that 
patent attorneys and agents must pass.
    Examiners are provided with legal education on fundamental concepts 
involving patent laws and procedures to assist them in the preparation 
of taking the certification exam. Patent law and evidence courses, 
coaching lectures and on-line Study Tool for Examination Preparation 
(STEP) are offered to the examiners as training preparation tools.
    An in-depth review of the work of primary examiners is conducted 
after three years to ensure that primary examiners maintain the 
knowledge, skills and abilities necessary to perform high quality 
examinations.

Patent Reviews
    USPTO's Office of Patent Quality Assurance (OPQA) has implemented 
targeted reviews of examination processes or functions that are 
perceived to potentially be problematic trends. These reviews provide a 
means to validate the accuracy and magnitude of the most significant 
examination process complaints, to establish a baseline of current 
performance in the targeted area as well as a basis to establish 
performance targets for improvement plans.
    The reviews are conducted on a sample designed to provide 
statistically valid data and yield an assessment of the current level 
of performance and the supporting review data with respect to the 
identified examination process or function. Based on input on potential 
areas for consideration obtained through customer satisfaction survey 
data and other input from applicants and practitioners, the areas of 
final rejection practice, Request for Continued Examination (RCE) 
practice, search quality and restriction practice were identified for 
review during fiscal year 2007. Fiscal year review findings are 
summarized at the Corps and Tech Center levels and OPQA consults with 
the Technology Centers to develop and/or implement improvement plans, 
as appropriate.
    In October 2006, OPQA instituted an in-depth analysis of the search 
quality in applications selected from specific Art Units within each 
Technology Center in order to positively identify root-cause problems 
related to search quality and to identify and share best practices. Art 
Units subject to review were selected by the Technology Centers on the 
basis of perceived need, taking into account the findings of quality 
assurance programs in place within the Technology Centers and the OPQA.
    Based upon the review findings, training tailored to the specific 
needs and technical subject matter of the individual Art Units is 
developed and delivered to the unit in an interactive format. Training 
is a collaborative effort between OPQA, Technology Center managers and 
search experts from the Scientific and Technical Information Center and 
covers topics including search strategy, claim interpretation, search 
tools and effective search techniques.
    Question. The remediation plan you presented to the Subcommittee 
discussed a number of initiatives devoted to improving retention rates 
of staff. What progress has PTO made in instituting these initiatives 
and when will we begin to see measurable progress in improving 
retention rates of examiners?
    The USPTO has already achieved notable successes in patent examiner 
retention efforts; during fiscal year 2007 our targeted strategies 
focusing on first-year attrition were very successful. First-year 
attrition is the highest attrition year for nearly all businesses and 
has historically averaged 20 percent at the USPTO. In 2007, the USPTO 
reduced the overall first-year attrition rate to 15 percent. Further, 
in some hard-to-hire areas where we targeted recruitment bonuses, the 
first-year attrition rate was cut in half--to 10 percent.
    Additional relevant retention facts include the following:
  --The USPTO's overall, organizational attrition rate (8.5 percent) is 
        lower than the average attrition rate for Federal workers (11.2 
        percent).
  --The average attrition rate for USPTO patent examiners with 0-3 
        years experience is 15.5 percent. The average attrition rate 
        for USPTO patent examiners with 3-30 years experience is 3.95 
        percent.
  --The attrition rate of patent examiners with 0-3 years experience, 
        though measurably higher than the rest of the patent corps, 
        appears to be well below the attrition rate experienced by 
        similarly situated entities hiring more than 1,000 engineers in 
        a year.
  --Examiners with the highest production requirements have the lowest 
        attrition rates, and the examiners with the lowest production 
        requirements have the highest attrition rates. In fact, 70 
        percent of all work in fiscal year 2007 was done by examiners 
        with 3 or more years of experience who exceeded their 
        production goals by an average of 8 percent and had an average 
        attrition rate of 3.95 percent.
  --60 percent of all patent examiners exceeded their production 
        requirements by at least 10 percent in fiscal year 2006.
    Question. PTO's management continually states that examiners are 
leaving for better opportunities, when in fact the GAO's survey 
revealed that 67 percent of examiners who left cited the workload and 
production quotas as their primary reason for leaving. Why is PTO 
management in a state of denial over the reasons examiners are leaving?
    Answer. The GAO's data was based on its survey of current 
employees, and asked these current employees to speculate (from a 
preset list of possible answers) regarding the primary reason they 
would consider leaving were they do leave. Under these parameters, 
those surveyed identified production goals as among the primary reasons 
they would leave the USPTO if they did leave.
    As you can see, the approach used in the GAO survey is not the same 
as asking people who actually chose to leave why they are leaving (or 
have left).
    The USPTO conducts actual exit interviews--as opposed to 
speculative interviews--with employees who do choose to leave. Based on 
the information provided to us by employees who are actually leaving 
the agency, we have enhanced our hiring and recruitment process.
    In 2006, the USPTO started a focused effort on exit interviews, to 
help better determine why employees who actually leave the USPTO decide 
to do so. The exit interviews are voluntary, but the data indicate 
that--even though attrition is relatively low after the first three 
years--room for improvement remains. Senior employees most frequently 
cited personal reasons and management issues when asked for the primary 
reason they were leaving. The USPTO has held off-site management 
conferences for two consecutive years to enhance communication and 
leadership skill sets.
    The GAO report draws attention to issues that are of paramount 
importance and the USPTO recognizes that attrition of patent examiners 
can impair the effectiveness of its hiring efforts. However, we do not 
observe a direct link between production requirements and attrition. 
For example, examiners with the highest production requirements have 
the lowest attrition rates, and the examiners with the lowest 
production requirements have the highest attrition rates. Also, 70 
percent of all work in fiscal year 2007 was done by examiners with 3 or 
more years of experience who exceeded their production goals by an 
average of 8 percent and had an average attrition rate of 3.95 percent.

                          ECONOMIC DEVELOPMENT

    Question. What data did you use to determine that $8.7 million 
would meet the nation's needs for rural economic development?
    Answer. From 2001-2007, EDA invested approximately $1 billion or 62 
percent of its total investments in rural communities. Although EDA 
does not have a program specifically targeted for rural communities, 
rural areas typically receive 50 percent or more of the agency's total 
investments annually. We do not anticipate a substantial change in 
fiscal year 2009.
    Question. Given the proposed cut to public works grants it would 
seem logical that there should be a corresponding cut to EDA's salaries 
and expense account. Why were salaries not cut or is this just an 
indication that this request should not be taken seriously?
    Answer. The increase in the Salaries and Expenses (S&E) account is 
necessary for EDA to maintain its full staffing level of 170 full time 
equivalents (FTE). EDA's staff performs multiple duties across its 
programs, not just evaluating and processing new grants. Therefore, 
maintaining EDA's current staff level is necessary to provide 
assistance to communities and maintain current programmatic functions.
    Since 2001, EDA's S&E account has remained virtually flat. 
Meanwhile, EDA's non-personnel operating costs--many of which, like 
computer security expenses, are inflexible--have increased by 45 
percent. EDA also faces annual personnel cost increases in its efforts 
to maintain an effective workforce. The lack of necessary funding 
increases in the S&E account to offset increases in non-personnel 
operating costs, has represented an effective $1.5 million annual cut 
in EDA's operating budget. Without the increase in S&E proposed in the 
fiscal year 2009 request, EDA may have to reduce staff.
    While EDA programs are flexible and scalable--we can ``ramp up'' 
operations, as well as ``ramp down'' based on available funds--the 
agency nonetheless needs an appropriate level of funding to maintain 
its existing organizational structure as directed by Congress.
    Question. Your testimony states that the proposed reduction for 
economic development assistance is done in order to support other 
priorities. What are those other priorities?
    Answer. In a difficult budget environment, the Administration has 
made tough choices to rein in spending to eventually balance the 
budget. Areas such as homeland security and the 2010 Decennial Census 
exhibit pressing needs that necessitate these difficult choices.

                   ELIMINATION OF MEP FEDERAL FUNDING

    Question. The Administration again proposes devastating cuts to the 
one federal program specifically designed to assists manufacturers.
    Can you explain the rationale for the cut to the MEP?
    Answer. Elimination of federal funds to MEP centers could be 
compensated through a combination of increased fees derived from the 
benefits accrued by individual companies and cost-savings in the 
operations of the centers. This would move the centers to a self-
sustaining basis. The fiscal year 2009 President's budget request 
focuses on NIST's core measurement science and standards activities in 
our laboratories that impact entire industries or entire sectors of the 
economy--and where Federal dollars can make the biggest impact on 
innovation and competitiveness. The focus of the fiscal year 2009 
budget supports this principle by increasing NIST Core activities, 
which increases by $115 million (+22 percent) over fiscal year 2008.
    Question. Your testimony states that the request ``includes $4 
million to transition the center to a self supporting basis''.
    Since this is a partnership with the states have you engaged MEP 
state partners on this decision?
    Answer. NIST shared the fiscal year 2009 President's budget for MEP 
with all MEP centers.
    Question. Can you share the analysis that went into the 
determination that the network will survive without federal cost share?
    Answer. With sufficient support from local resources along with 
increased fees from the manufacturing customers, the centers could 
remain operational.

                           DIGITAL TRANSITION

    Question. I have received constituent letters requesting 
information about the coupon program. The letters indicate confusion 
among average citizens regarding the transition to digital and where to 
request a coupon for a converter box.
    What is Commerce doing to educate consumers? With a limited budget 
for education and outreach what efforts are you undertaking to leverage 
your efforts? Should we provide additional funding in the supplemental 
to enhance education and outreach efforts?
    Answer. NTIA's consumer education campaign--coupled with the over 
$1 billion commitment from industry--is working. According to a recent 
survey by the Consumer Electronics Association, public awareness of the 
DTV transition grew 80 percent between August 2006 and January 2008, 
from 41 percent to 74 percent. Given consumer education activities have 
intensified since the beginning of 2008, we would expect consumer 
awareness to continue to increase. In addition, robust demand for 
converter box coupons, including demand from over-the-air reliant 
households, is a strong indication that consumers are learning about 
their options and taking the necessary action to ensure their TV sets 
continue to operate after the digital transition.
    Members of the industries most directly affected by the 
transition--television broadcasters, cable system operators, and 
consumer electronics retailers--are investing heavily to ensure that 
their viewers, subscribers and customers are made aware of the 
transition. Their efforts, targeted at the general population, have 
been very successful in raising consumer awareness and have enabled 
NTIA to focus its resources, funding, and activities on reaching 
particular groups that are likely to rely more heavily on over-the-air 
television than others. These include seniors, minorities, rural 
residents, people with disabilities, and economically disadvantaged 
households.
    NTIA's strategy for its consumer education campaign is simple and 
straightforward: use earned media and leverage trusted partners that 
possess pre-existing relationships with members of our target groups to 
deliver tailored messages about the transition and the Coupon Program. 
NTIA has instituted a proactive campaign to educate consumers about the 
role of the Coupon Program in the DTV transition, leveraging 
relationships with consumer groups, community organizations, federal 
agencies, and members of affected industries to inform consumers of 
their options. NTIA is collaborating with more than 200 partner 
organizations, including social service and community organizations 
with ties to seniors, rural residents, minorities, and disabled 
communities, as well as a variety of federal agencies that communicate 
directly with these constituent groups. As of March 31, 2008, broadcast 
and print coverage of the Coupon Program has reached over 200 million 
media. This is coupled with the National Association of Broadcasters' 
campaign which aims to generate 30 billion audience impressions of the 
broader digital television transition before February 17, 2009.
    Additionally, the Federal Communications Commission has received 
$2.5 million in fiscal year 2008 and requested an additional $20 
million for fiscal year 2009 specifically for consumer education about 
the DTV transition. Based upon multiple surveys that reveal a steep 
increase in consumer awareness about the transition and the sheer 
number of households that have ordered coupons to date (as of April 25, 
2008, 6.2 million households have ordered 11.9 million coupons), these 
combined consumer education efforts are working. NTIA is confident that 
these public and private sector investments in DTV consumer education 
will be sufficient to educate all consumers about the DTV transition 
and the TV Converter Box Coupon Program.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                  2010 DECENNIAL EFFECTIVENESS RATING

    Question. I have serious concerns about how the Administration and 
the Department have been monitoring the progress of the 2010 Census. 
The Performance and Accountability Report for the Department submitted 
November 15, 2007, gave the Decennial Census a moderately effective 
score of 83 percent. It also says that the Census Bureau is ensuring 
oversight of critical information technology services.
    Given where we are today, Mr. Secretary, would you rate the Census 
Bureau's management of the Decennial Census as moderately effective?
    Answer. Both Secretary Gutierrez and Dr. Murdock have testified 
that the Census Bureau's failure to effectively communicate its 
expectations to the contractor has been a major contributor to the 
current situation.
    Given these concerns, both the Census Bureau and the Department of 
Commerce have made substantial management changes to address the 
challenges facing the 2010 Census. We are working to ensure that there 
is clear accountability and that we have set specific leadership 
expectations. This includes better integration between Census and 
Harris personnel; rapid decisionmaking; real-time problem solving; and 
improved transparency, oversight, and communication.
    We are taking this very seriously and hope these changes and others 
reflect our concern and ultimately our resolve to better serve the 
American people. Secretary Gutierrez is personally engaged in this 
matter and will continue to devote time to this issue until he can be 
assured that we have established a sustainable and achievable path 
forward to a successful 2010 Census.

                           MANAGEMENT REFORM

    Question. What are you doing to ensure that the Census Bureau has 
leadership capable of solving the problems with field automation and 
conducting a successful 2010 census?
    Answer. We have a new Acting Associate Director for Decennial 
Census, Arnold Jackson. Other moves are under consideration. We are 
taking a series of steps to strengthen management, including:
  --Instituting a new management approach that will strengthen planning 
        and oversight relative to risk management, issue 
        identification, product testing, communications, and budget/
        cost management.
  --Increasing the intensity and pace of senior management involvement, 
        including daily status assessments and problem resolution 
        sessions chaired by the Associate Director, weekly status 
        assessment meetings with the Director and Deputy Director, 
        periodic but unscheduled reviews by MITRE and Department of 
        Commerce specialists in IT, project management, and 
        contracting.
    We also are developing a comprehensive plan that consolidates the 
recommendations from several studies and reviews, including MITRE, GAO, 
our own Blue team, the Barron Task Force, and the Secretary's expert 
panel. Some of the action items we are committing to are:
  --Comprehensive risk management such that the higher impact risks are 
        known as early as possible and elevated to proper levels for 
        timely resolution.
  --Strengthened leadership in the Decennial Census Program so that 
        stakeholders, contractors, staff, and management are unified 
        and focused on the issues that drive a successful census.
  --Transitioning from a planning phase of the Decennial cycle to an 
        action-oriented operational phase by shortening decision 
        cycles, cutting internal redtape, and pushing more problem 
        resolution responsibility down to our managers.
  --Adhering to a structured plan of action to see that the things we 
        have not done well do get better as rapidly as we can.
    The FDCA PMO and the Software Assessment Team have agreed to a plan 
to strengthen oversight of the contractor, and the plan is known as our 
``Insight Plan''. The PMO launched implementation of the Insight Plan a 
few weeks ago, and some of the key steps of that plan are:
  --A much closer review of the contractor's software earlier in the 
        development and test cycle.
  --Permanent Census staff at the contractor's Largo facility and staff 
        embedded with the contractor at key points in the development 
        cycle from requirements clarification to product release for 
        final field hands on testing.
  --Improving the contractor's test cases by including more realistic 
        census events and operationally characteristic data.
  --Involving census users of the information collected by the handheld 
        system in the process of review and approval of contractor 
        products before they are final. This will greatly increase 
        stakeholder participation and bring about rapid feedback needed 
        for problem correction.

                         MITRE REVIEW JUNE 2007

    Question. In June of last year, MITRE produced a report 
recommending that Census immediately stabilize the requirements for 
data management and to co-locate Census and contractor staff. This 
report is in stark contrast to the information senior Census officials 
provided in December when they reported that this procurement was 
moving forward as expected. These same Census officials then submitted 
over 400 changes to the contractor less than a month after assuring 
this Committee that they had this procurement under control.
    Do you believe the Census now understands the requirements 
necessary to acquire the handhelds that they contracted for in 2006?
    Answer. Although we have decided to drop plans for using the 
handheld computers for nonresponse follow-up in 2010, we still will use 
them for the Address Canvassing operation that will begin one year from 
now in May 2009. We tested the use of the contractor's Address 
Canvassing solution last year, and while we experienced some problems, 
we believe the contractor now has a full set of final detailed 
requirements in place to ensure success for this operation next year. 
We continue to work with the contractor regarding new or revised 
requirements resulting from the shift to paper-based NRFU, and the 
other contract scope changes that were part of the recent decision 
announced by Secretary Gutierrez.
    At the time of contract award in March 2006, both the Census Bureau 
and the contractor were fully aware this strategy would mean a tight 
schedule for requirements development, system design, system 
development, and deployment. The initial requirements strategy at that 
point was to develop remaining requirements in a two-step process. 
First, based on results from the 2004 and 2006 Census Tests, we would 
provide detailed Dress Rehearsal requirements for our major operations. 
Then, based on lessons learned from the Dress Rehearsal, we would make 
adjustments to those detailed requirements for 2010 Census operations, 
as well as develop the detailed requirements for those operations that 
could not be included in Dress Rehearsal (e.g., enumeration in Puerto 
Rico; enumeration in remote areas).
    We were moving on that path when, in October 2007, we had to de-
scope many paper-based dress rehearsal activities in order to have 
sufficient funds to keep this contract (and our data capture systems 
contract) on schedule in developing critical applications and 
interfaces planned for the Dress Rehearsal. Until that point, we still 
were planning to use our Dress Rehearsal experiences with various 
operations to help finalize detailed requirements for the FDCA 
contractor. However, because most of those operations had to be 
cancelled, in mid-November 2007, the contractor requested, and we 
agreed, to move forward immediately to deliver a final set of all 
detailed requirements. This effort was completed, and we delivered them 
to the contractor on January 16, 2008. It was not until the contractor 
delivered their cost estimate (to complete all these requirements) at 
the end of January that the full scope of our problem came into focus.
    Question. Mr. Secretary, can you provide this Committee, in 
writing, a timeline that shows on which dates actions were taken by the 
Census to address the issues identified in the June MITRE report?
    Answer. After reviewing the June 2007 MITRE report the Census 
Bureau:
  --Established a temporary FDCA requirements ``SWAT Team'' to 
        streamline, integrate and finalize all Dress Rehearsal 
        requirements for FDCA, including better integration of the 
        contractor's and Census Bureau's schedules.
  --Expanded the FDCA Strategy Group to include all division chiefs 
        critical to the FDCA program. This group began meeting on a 
        weekly basis to discuss and resolve FDCA issues and establish 
        priorities.
  --With MITRE's assistance, redefined the process for finalizing 2010 
        requirements to ensure a more structured, systematic, and 
        integrated approach.
  --Clarified roles between the FDCA Project Management Office 
        (responsible for contract management) and the Decennial 
        Management Division (responsible for managing the entire 2010 
        Census program).
  --Redefined the FDCA contract Change Management Process with the goal 
        of ensuring additional control of requirements changes.
  --Established monthly Executive Management meetings in addition to 
        the monthly Program Management Reviews. These meetings 
        consisted of executives and key managers from both the FDCA 
        contractor and the Census Bureau to discuss and resolve 
        critical issues.
  --With MITRE's assistance, redefined and began implementation of a 
        more structured Risk Management Process.
    In late November 2007, the Deputy Director of the Census Bureau 
initiated a comprehensive assessment to determine the status of the 
program and to better understand any issues or concerns as the program 
approached key 2010 Census milestones. This assessment included a 
series of wide-ranging meetings with Census Bureau staff directly 
involved in the FDCA program. The Deputy Director also met with Harris 
Corporation, the company developing the FDCA system, and MITRE 
Corporation, an information technology firm under contract with the 
Census Bureau. MITRE's role was to provide an internal, independent 
assessment of the information technology systems in the decennial 
programs and also IT systems in the Census Bureau. The Census Bureau 
also established an Integrated Project Team (IPT) made up of key, high 
ranking 2010 Census managers. The IPT was tasked with producing the 
final set of FDCA program requirements by mid-January 2008.
    This effort was completed, and the requirements delivered on 
January 16, 2008. At the end of January, the contractor provided 
feedback on these requirements, including their initial, high-level 
estimate of the additional costs that would be needed to meet all of 
the 2010 Census requirements.
    At this point, the full scope of our problem came into focus. New 
Census Bureau Director Steve Murdock then established a FDCA Task 
Force, chaired by former Deputy Director William Barron, and made up of 
some of the Census Bureau's and the Department's senior technical and 
management officials, as well as representatives from MITRE, to help 
develop a strategy to address these problems. The Task Force outlined 
four options for moving forward. All of these options called for using 
the handheld computers for Address Canvassing, and all but one (the 
baseline) assumed we would revert to a paper-based NRFU operation. For 
the other major components of FDCA, each of the options considered a 
combination of responsibilities between the contractor and the Census 
Bureau in terms of capabilities, expertise, staffing, timing, and 
costs.
    The work of the task force was then turned over to the Expert Panel 
established by the Secretary and made up of two former Census Bureau 
Directors, a former Associate Director of the Census Bureau, two 
information technology experts, and a former Member of Congress. After 
deliberating with this panel, the Secretary recommended the plan that 
he described in his testimony.
    As to management steps now being taken, we have a new acting 
Associate Director for Decennial Census, Arnold Jackson. Other moves 
are under consideration. We are taking a series of steps to strengthen 
management, including:
  --Instituting a new management approach that will strengthen planning 
        and oversight relative to risk management, issue 
        identification, product testing, communications, and budget/
        cost management.
  --Increasing the intensity and pace of senior management involvement, 
        including daily status assessments and problem resolution 
        sessions chaired by the Associate Director, weekly status 
        assessment meetings with the Director and Deputy Director, 
        periodic but unscheduled reviews by MITRE and Department of 
        Commerce specialists in IT, project management, and 
        contracting.
    We also are developing a comprehensive plan that consolidates the 
recommendations from several studies and reviews, including MITRE, GAO, 
an internal expert software assessment team, the Barron Task Force, and 
the Secretary's expert panel. Some of the action items we are 
committing to are:
  --Comprehensive risk management such that the higher impact risks are 
        known as early as possible and elevated to proper levels for 
        timely resolution.
  --Strengthened leadership in the Decennial Program so that 
        stakeholders, contractors, staff, and management are unified 
        and focused on the issues that drive a successful census.
  --Transitioning from a planning phase of the Decennial cycle to an 
        action-oriented operational phase by shortening decision 
        cycles, cutting internal redtape, and pushing more problem 
        resolution responsibility down to our managers.
  --Adhering to a structured plan of action to see that the things we 
        have not done well do get better as rapidly as we can.
    These management activities are described in our ``Program 
Management Plan'' to be finalized in early May.
    The FDCA PMO and the Software Assessment Team have agreed to a plan 
to strengthen oversight of the contractor, and the plan is known as our 
``Insight Plan''. The PMO launched implementation of the Insight Plan a 
few weeks ago, and some of the key steps of that plan are:
  --A much closer review of the contractor's software earlier in the 
        development and test cycle.
  --Permanent Census staff at the contractor's Largo facility and staff 
        embedded with the contractor at key points in the development 
        cycle from requirements clarification to product release for 
        final field hands on testing.
  --Improving the contractor's test cases by including more realistic 
        census events and operationally characteristic data.
  --Involving census users of the information collected by the handheld 
        system in the process of review and approval of contractor 
        products before they are final. This will greatly increase 
        stakeholder participation and bring about rapid feedback needed 
        for problem correction.

                            USE OF HANDHELDS

    Question. The primary innovation that was going to create 
significant savings and efficiencies for the 2010 Census revolves 
around the handheld computers and moving away from a paper based 
system. I would like to know what your plans are for dealing with the 
problems of the handheld computers and getting the 2010 census back on 
track.
    Will the handhelds still be used? When is the latest date you can 
make this decision?
    Answer. On April 3, 2008, Secretary Gutierrez testified before the 
House Appropriations Subcommittee on Commerce, Justice, Science, and 
Related Agencies that he had decided to discontinue plans for using 
handheld computers for the 2010 Census nonresponse follow-up operation, 
and revert to the paper-based approach used in previous censuses. He 
also testified that we still plan to use these devices to conduct the 
nationwide Address Canvassing operation next year.
    Question. When will the Department determine if the handheld 
computers will be used for any portion of the 2010 Census?
    Answer. Please see previous response.

                      PAPER NON-RESPONSE FOLLOW UP

    Question. Will the Census have to go back to paper for non-response 
follow up? When will this decision have to be made?
    Answer. On April 3, 2008, Secretary Gutierrez testified before the 
House Appropriations Subcommittee on Commerce, Justice, Science, and 
Related Agencies that he had decided to discontinue plans for using 
handheld computers for the 2010 Census nonresponse follow up operation, 
and revert to the paper-based approach used in previous censuses.

                      ADDITIONAL COSTS FOR CENSUS

    Question. This Committee has been supportive of the Bureau of the 
Census and its plans for the 2010 Census. However, it is obvious that 
more funds than anticipated will be required to conduct what is 
currently the most expensive census in our nation's history. GAO has 
estimated that the increase will be between $600 million and $1.2 
billion. Can we anticipate a supplemental request from the Department 
for fiscal year 2008 to accommodate the difficult position the Census 
finds itself in today?
    Answer. No, the Department will not be submitting a supplemental 
request to cover the funding shortfall in fiscal year 2008 related to 
the 210 Census. The Administration believes that the fiscally 
responsible action to address this difficult position is to work within 
existing resources at the Department. To that end, I have proposed 
transfers from other Commerce bureaus to provide the necessary 
resources for the Census Bureau. While this was a difficult decision, I 
believe that avoiding mission failure of a constitutionally-mandated 
operation at the Census Bureau warranted lesser impacts among our other 
bureaus.
    Question. Will there be a need for a budget amendment for fiscal 
year 2009 for the 2010 Census?
    Answer. Yes, addressing the issues within the 2010 Census will 
require a budget amendment for fiscal year 2009, as funding 
requirements for that year have grown beyond the requested level in the 
fiscal year 2009 President's budget submission.

                          NPOESS--VIIRS ISSUES

    Question. Last year we discussed the failures of the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS) 
which was scrutinized for its mismanagement and lack of oversight. 
Since that time NPOESS was restructured, but problems have occurred on 
a critical instrument the Visible Infrared Imager (VIIRS).
    Can you elaborate more on the problems that exist?
    Answer. The NPOESS Executive Committee, working with the NPOESS 
Program Executive Officer, has implemented a number of steps to address 
the management of the program. The key NPOESS sensors are currently in 
ambient testing, when several test anomalies are expected to be 
uncovered and addressed.
    One of the anomalies uncovered is the likelihood of performance 
degradation to ocean color/chlorophyll and aerosol measurements on the 
first VIIRS instrument due to issues with the Integrated Filter 
Assembly (IFA). Using the current IFA, aerosol will be degraded from 
original levels of performance measurements but will still be at 
requirement specification, so ocean color will be the only measurement 
greatly impacted. Because of this limited degradation of capabilities 
and the risk reduction nature of the NPP mission, the NPOESS Executive 
Committee (EXCOM) directed the NPOESS Integrated Program Office (IPO) 
to: Fly the first sensor on NPP with the existing IFA, accepting the 
existing performance degradation for that mission; and resolve VIIRS 
IFA problems before flying it on NPOESS C1.

                           NPOESS LAUNCH DATE

    Question. What is your degree of confidence that the first NPOESS 
launch date will be met and if your confidence is high, why?
    Answer. There is a high degree of confidence that the NPOESS 2013 
launch date will be met. The confidence is derived from program metrics 
which at this time show all program segments remain on schedule.

                   NPOESS--VIIRS CONTINGENCY PLANNING

    Question. What are the contingencies if VIIRS continues to have 
problems?
    Answer. The Integrated Program Office (IPO) has developed a plan, 
with the prime contractor, which established an achievable delivery 
schedule in advance of the April 2009 commitment with margin to that 
date. The IPO monitors that margin daily. In addition, the PEO holds 
bi-weekly executive reviews of the Visible/Infrared Imager/Radiometer 
Suite (VIIRS) status with the contractors and government leadership to 
ensure appropriate focus is placed on this critical sensor program. We 
believe these steps will allow the IPO to contend with future issues 
regarding VIIRS.

              NPOESS--CROSS TRACK INFRARED SOUNDER ISSUES

    Question. What is the status of the other critical instrument, the 
Cross Track Infrared Sounder, that was having problems?
    Answer. Following the frame failure in 2006, the frame was 
redesigned and all Cross-track Infrared Sensor (CrIS) components were 
inspected and fixed, as needed. The CrIS unit has passed its vibration 
testing and is in its final thermal vacuum tests. At this time, the 
instrument is expected to be delivered in mid-June 2008, well in 
advance of its August 2008 need date for spacecraft integration.

                    NPOESS--COST AND SCHEDULE GOALS

    Question. Can we reasonably expect the program to stay within the 
new cost and schedule goals?
    Answer. Although the NPOESS program is undertaking the most complex 
operational environmental satellite system ever built by the United 
States; the program expects to deliver within its restructured budget 
and schedule goals. The cost estimate provided at the time of the June 
2006 Nunn-McCurdy certification used to establish the restructured 
budget reflected the results of an intense independent review of the 
Program's technical requirements and associated costs. The Integrated 
Program Office (IPO) has based the restructured NPOESS program budget 
and contract on the independent cost estimate developed by the 
Department of Defense Cost Analysis Improvement Group (CAIG). The CAIG 
estimate takes into account the technical, schedule, and cost risk 
remaining on the program to ensure adequate resources are available to 
fully respond to the ``unknown unknowns'' that are continuous 
challenges to any major development.

                       NOAA IN THE GULF OF MEXICO

    Question. Although NOAA's 2009 budget request boasts a $213 million 
increase, it yet again continues to short-change the Gulf of Mexico. I 
am disappointed that NOAA has continually underfunded weather 
infrastructure, research, and fish and habitat growth in the Southeast. 
The Gulf Coast has severe weather events, we have fishing disasters, we 
have underutilized research capabilities just like everyone else, yet I 
see no money in this budget to help the people of the Gulf receive any 
improvement in the dedication of services from NOAA.
    What will it take for NOAA to make the Gulf of Mexico and the 
southeast a priority?
    Answer. NOAA has a diverse mission ranging from managing fisheries 
to predicting severe weather. The Administration's request provides for 
a balanced set of priorities that sustains core mission services while 
also addressing our highest priority program needs. As part of that 
mission, NOAA's fiscal year 2009 budget request continues to fund many 
ongoing efforts in the Gulf of Mexico and southeast region. For 
example, the request includes $74.2 million in support of fisheries 
research and management, habitat conservation and restoration, and 
fisheries enforcement; $5 million to support the Gulf of Mexico 
Alliance for increased regional collaboration to enhance the 
environmental and economic health of the Gulf of Mexico; and $7.4 
million for continued operations of the three National Marine 
Sanctuaries in the region. In addition, the fiscal year 2009 request 
includes $19.5 million in new increases across NOAA for hurricane 
modeling improvements, research, and operations, which contributes to 
NOAA's overall spending of over $300 million a year for hurricane 
warning and forecast efforts throughout the southeast.

                WEATHER INFRASTRUCTURE IN THE SOUTHEAST

    Question. When will the Southeast receive state of the art NEXRAD 
radars and Advanced Weather Interactive Systems that are in other parts 
of the country?
    Answer. NEXRAD radars were installed at the Weather Forecast 
Offices (WFO) in the Southeast United States during the mid-1990s. As 
with the rest of the United States, the NEXRAD radars in the Southeast 
are all part of the same service configuration; they all go through the 
same technology refreshes every several years. Since 1996, AWIPS has 
been utilized not only in the Southeast but at all of the WFOs across 
the United States. As with the NEXRAD program, all AWIPS are part of 
the same service configuration and are on the same technology refresh 
cycle. NWS appreciates the support it has received from members of 
Congress with these programs and because of this support we have been 
able to keep these programs state of the art.

                     FREE TRADE AND SHRIMP IMPORTS

    Question. Recently, the Administration has called for expanding 
free trade agreements with Latin America, particularly with Colombia 
and Panama. In fact, last week you led a delegation to Colombia to 
discuss a U.S.-Colombia Trade Promotion Agreement. The expanded 
agreements would eliminate tariffs on American exports and provide 
duty-free access for American agricultural commodities. However, many 
people along the Gulf Coast are still concerned about Latin America's 
agricultural exports, particularly that of farmed shrimp. Shrimp 
imports from Latin American countries continue to rise despite 
confirmed antidumping activities that your Department investigated.
    Has your department examined Colombia and Panama's shrimp export 
activities prior to these recent trade discussions, and if so what were 
your findings?
    What protections are in place for the U.S. industry?
    Answer. The Office of the United States Trade Representative 
reports no shrimp-related trade issues with Panama or Colombia--not 
before, during, or after the FTA negotiations with these countries. In 
2007, Colombia exported shrimp (of various product types) to the United 
States at a value of $12.9 million. During the same year, Panama 
exported shrimp (of various product types) to the United States at a 
value of $36.7 million.
    Brazil and Ecuador are the countries in Latin America in which the 
Department issued antidumping (AD) orders on frozen warmwater shrimp 
imports to the United States. In order to comply with the WTO panel 
decision regarding the Department's ``zeroing'' methodology, the AD 
order on frozen warmwater shrimp imports from Ecuador was revoked on 
August 15, 2007. According to U.S. import data, Brazil did not export 
any warmwater shrimp in 2007 that would be subject to the AD order. We 
reviewed the harmonized tariff code and found that no tariffs or quotas 
exist for shrimp imported from Colombia or Panama except for food 
preparations that include shrimp as an ingredient. As a result, the 
Free Trade Agreement extension to Colombia or Panama would have no 
visible effect on the U.S. Gulf of Mexico shrimp fishery.

          INTERNET CORPORATION FOR ASSIGNED NAMES AND NUMBERS

    Question. The Internet Corporation for Assigned Names and Numbers, 
``ICANN'', is responsible for making policy concerning the Internet's 
global address system. While I support the idea of the Internet being 
managed by a non-government entity, I have become aware that ICANN has 
been pushing very hard to sever its ties completely from the 
Department. I have also heard from industry officials who have raised 
concerns that while ICANN makes decisions that have the potential to 
affect billions of dollars in commercial transactions, the organization 
lacks an effective mechanism for redress by companies affected by those 
decisions.
    Do you think it is wise to allow ICANN to sever all of its ties to 
the Department?
    Answer. The Joint Project Agreement (JPA) between the Department of 
Commerce and ICANN will not be terminated before its September 2009 
expiration as was suggested in ICANN's submission to the Notice of 
Inquiry (NOI) issued by the National Telecommunications and Information 
Administration (NTIA). The JPA required the Department of Commerce to 
conduct a mid-term review of progress achieved on each ICANN activity 
and responsibility contained in the JPA. NTIA, on behalf of the 
Department, conducted this mid-term review which included a 
solicitation of public comments through the NOI and a public meeting. 
NTIA received 171 comments, the majority of which did not support early 
termination of the JPA. All comments to NTIA's NOI can be found at the 
following link: http://www.ntia.doc.gov/ntiahome/domainname/
jpamidtermreview.html.
    Question. Do you think ICANN is a mature enough organization to 
handle this enormous responsibility on its own?
    Answer. On April 2, 2008, NTIA issued a statement on the mid-term 
review summarizing that the record demonstrates general consensus that: 
(1) ICANN is the appropriate technical coordinator of the domain name 
and addressing system (DNS) and has made significant progress in 
several key areas; and (2) important work remains to increase 
institutional confidence through implementing effective processes that 
will enable long-term stability, accountability, responsiveness, 
continued private sector leadership, stakeholder participation, 
increased contract compliance, and enhanced competition.
    As previously stated in the ``U.S. Principles on the Internet's 
Domain Name and Addressing System,'' the Department of Commerce remains 
committed to taking no action that would have the potential to 
adversely impact the effective and efficient operation of the DNS.
    NTIA's statement on the JPA can be found at the following link: 
http://www.ntia.doc.gov/ntiahome/domainname/ICANN_JPA_080402.pdf.
    Question. Do you think it would be wise to release ICANN from its 
contractual obligations before redress mechanisms are in place?
    Answer. As noted above, important work remains for ICANN in order 
to increase institutional confidence through implementing effective 
processes that will enable long-term stability, accountability, 
responsiveness, continued private sector leadership, stakeholder 
participation, increased contract compliance, and enhanced competition. 
The Department of Commerce strongly encourages all stakeholders to work 
with ICANN to address these issues and others that may be of concern, 
including redress mechanisms.

                            GOES-R OVERSIGHT

    Question. Not only are there serious issues with NPOESS, there are 
serious failures of the Geostationary Operational Environmental 
Satellites Program (GOES-R). While this program has been restructured 
and finally seems to have some management controls in place, I am 
disappointed with the revised program plan. When I compare the new 
goals with the program's original prospects, I see that the plan has 
lost 2 of the 4 planned satellites, has added 2 years to the 
development cycle, and has a cost increase of $800 million.
    Answer. There have been no identified failures with respect to the 
GOES-R program. GOES-R has recently completed Program Definition and 
Risk Reduction (PDRR), a phase where requirements are traded against 
design concepts, cost and schedule in order to formulate appropriate 
scope, cost and schedule prior to major procurements.
    At completion of the program's work, independent reviews of cost 
estimates, program business organization and technical structures were 
performed successfully. Only at the completion of program work and 
independent validation does NOAA consider a program ready for initial 
baseline which occurs at Key Decision Point (KDP). The GOES-R Program 
passed KDP in January 2008 when the Secretary of Commerce delegated the 
authority to proceed to the Under Secretary of Commerce for Oceans and 
Atmosphere.
    Satellite acquisitions cannot be accurately baselined until after 
the developing contractor is formally onboard. NOAA uses the 
Preliminary Design Review (PDR) as the formal milestone since it 
contains all necessary factors to accurately establish a cost and 
schedule baseline.
    Question. How are responsibilities for this program divided between 
NOAA and the Department?
    Answer. The Department of Commerce retains ultimate authority for 
the GOES-R program. On December 21, 2007, the Department delegated 
Milestone Decision Authority for GOES-R to the Under Secretary for 
Oceans and Atmosphere (the NOAA Administrator). With this delegation, 
however, the Department set forth a number of requirements that ensures 
its ability to conduct appropriate oversight of the program. The 
Department has responsibility and approval authority over the ground 
segment acquisition strategy and complete authority over the budget 
through the annual budget formulation process. The Program also reports 
ongoing progress on a quarterly basis to the Department of Commerce 
Assistant Secretary for Administration/Chief Financial Officer. The 
Program has also begun providing the Deputy Secretary a bi-weekly 
status. There is also a Department of Commerce Attorney on site at the 
GOES-R Program Office as the Program Legal Counsel. NOAA's Program 
Management Council (PMC) is NOAA's primary oversight body for the GOES-
R program. At monthly program reviews, the program provides an update 
of its status and provides detailed explanations of technical and 
budget issues and risks. The Department also has insight into the PMC 
activities and routinely sends representatives to observe PMC meetings. 
The PMC is chaired by the Deputy Under Secretary for Oceans and 
Atmosphere.

                       GOES-R KEY DECISION POINT

    Question. How did you ensure that the recent GOES-R Key Decision 
Point to proceed was based on complete and accurate information?
    Answer. A number of independent bodies reviewed the program before 
the Key Decision Point (KDP) decision was made. An Independent Review 
Team (IRT) of senior satellite acquisition experts (with over 250 years 
of combined satellite acquisition experience) reviewed the program 
starting in 2006. The IRT's November 2007 assessment determined the 
program, with its contracts divided into flight and ground segments, 
was technically and programmatically ready to proceed into the next 
acquisition phase. An Independent Cost Estimate (ICE) review was deemed 
sufficiently close to the Program Office Estimate to validate the 
probable cost of the program. These were independent bodies. Within the 
Department of Commerce and NOAA, numerous reviews were conducted 
leading up to the KDP decision and all decision makers were satisfied 
that the program had provided complete and accurate information and 
that the program was indeed ready to proceed.

                     GOES-R COST AND SCHEDULE GOALS

    Question. Can we reasonably expect the program to stay within the 
cost and schedule goals identified in the President's fiscal year 2009 
budget request?
    Answer. For a two satellite program, we are confident the program 
can be executed within the requested funding and schedule profile, 
assuming the planned budget profile in the President's fiscal year 2009 
budget request.

                       FISH PROTECTION PRIORITIES

    Question. The NOAA budget proposes to spend $10 million on 79 
Atlantic salmon. That is $130,000 per fish and a 92.3 percent increase 
for this program. While I support programs that assist fish 
populations, and I want to support this program, I am at a loss why 
there is not a similar program to assist the Gulf of Mexico and its 
large variety of fish, shrimp and oyster populations that are stressed 
and need assistance. Looking at your budget request, I see no new money 
or resources that are dedicated to gulf coast fisheries or to gulf 
coast research.
    How much do we spend on any one species of fish in the Gulf?
    Answer. The Annual Report of the U.S. Atlantic Salmon Assessment 
Committee reports that 1,480 adult salmon returned to U.S. rivers in 
2006. Of this total, 79 adults were counted as returns to the Gulf of 
Maine distinct population segment (DPS) and 1,044 adults were counted 
on the Penobscot River. The Gulf of Maine DPS was listed as endangered 
in 2000 and is composed of small coastal rivers in Maine. The 2006 
Status Review recommends that the Gulf of Maine DPS be expanded to 
include the large rivers in Maine (Penobscot, Kennebec and 
Androscoggin). It is important to note that these are adult counts only 
and are not population assessments. A full population assessment with 
totals for all life stages (adults, fry, parr, smolts, post smolts) is 
not available at this time.
    Because of the sheer number of fish, it is not feasible to estimate 
NMFS' spending on a per fish basis for any one species of fish in the 
Gulf. However, the budget does provide $74.2 million specifically for 
Gulf of Mexico fishery activities--a 6 percent increase over the fiscal 
year 2008 enacted level.
    Question. How much do we spend per fish on Pacific Coast Salmon?
    Answer. NMFS does not prioritize funding on a per fish basis. The 
funds requested are not to save the existing fish, generally, the fewer 
the fish the more critical the need. Requested funding is an investment 
in the future to ensure that the number of Pacific Coast Salmon will 
increase--and that we will eventually be able recover ESA listed 
Pacific Coast Salmon to a sustainable level, and delist them. Section 
4(f) of the Endangered Species Act requires NOAA to develop and 
implement recovery plans for the conservation and survival of all 
endangered or threatened species. These plans lay out activities 
necessary to recover the species and provide an estimated cost to 
accomplish these recovery tasks.
    Question. What is the justification for a 92.3 percent increase for 
this program?
    Answer. The fiscal year 2009 funding amount will allow NOAA to 
focus conservation and recovery actions on supporting listed Atlantic 
salmon populations as required under the Atlantic Salmon recovery plan 
and re-establishing extirpated populations by addressing habitat needs 
in key watersheds historically used by Atlantic salmon that span five 
New England States. NOAA will use the additional Atlantic salmon funds 
to restore connectivity to fragmented habitats to enhance recovery of 
Atlantic salmon on an ecosystem basis. Priority will be given to 
projects that support listed populations to restore connectivity and 
recovery of ecosystem functions for the benefit of Atlantic salmon and 
all diadromous species in New England. Collaborative efforts will also 
be used to prioritize projects funded with the increase. Projects will 
likely include dam removals, fish passage, stream restoration, and 
reduction in sedimentation to salmon spawning areas. This increase will 
allow NOAA to fund 25 additional projects each year, which will open 
approximately 230 stream miles annually for use by Atlantic Salmon.

                             DATA SECURITY

    Question. In September 2006, in response to media and Congressional 
requests for information on laptops lost or stolen during the previous 
5 years, the Department reported the loss or theft of 214 Census Bureau 
laptop computers. The Commerce Inspector General reported that the 
missing laptops contained sensitive information that could be recovered 
with tools easily available on the Internet.
    How will the Census Bureau ensure that the systems involved in the 
decennial census, including the handhelds or even a paper census, 
provide adequate protection of the sensitive data collected?
    Answer. The Census Bureau understands the great responsibility it 
has to ensure the public that the information it provides is protected 
to the greatest extent possible. As an outgrowth of the DOC Inspector 
General's report in 2006 the Bureau has looked at security controls 
implemented in all of its systems to ensure that they meet Federal IT 
security requirements and afford the level of protection to which the 
public should expect.
    Specifically for the Decennial 2010 Census, the Census Bureau has 
worked to ensure that its mobile computing devices afford the best 
protection possible while still allowing for flexibility and ease of 
use. We have also begun to prepare processes and procedures to better 
track and account for paper forms that will be used during the 
Decennial operations.
    All laptops used during the Decennial Census will have full disk 
encryption installed. This will render the information on the laptop 
virtually useless to unauthorized individuals in the event a laptop is 
lost or stolen. In addition to the full disk encryption, users will be 
required to enter a unique user name and password to access the laptop. 
The laptop will have anti-virus software installed to prevent infection 
and possible spread of malicious code.
    The Hand Held Computing devices (HHC) will also employ technical 
security controls to ensure the data collected is protected in 
accordance with Federal IT security requirements. These devices will be 
protected with similar controls as implemented on the laptop with some 
specific differences based on the device and intended use. These 
additional controls include the use of biometrics (fingerprints) that 
must be scanned in order for the user to gain access to the device and 
the applications. In addition, the HHC is run using a specific mode 
(Windows Mobile 5.0--Kiosk Mode) which provides the ability for the 
program to control the applications and the user interface. This 
prevents the device from executing unnecessary or vulnerable 
operations. The HHC has had a number of capabilities which could 
introduce vulnerabilities either removed or blocked at the factory. The 
application monitors processes running on the HHC as well as critical 
registry settings; with this control, processes that are not authorized 
are unable to run. If critical system-level settings are found to be 
changed, they are automatically reset to the proper value.
    Data collected is stored on a removable SD (sometimes called a 
Flash) drive. The data is encrypted using a NIST-approved encryption 
product which ensures that the data could not be read on another device 
if the SD card is lost or stolen.
    All communications containing sensitive information between the 
Field, Decennial Offices and the Data Processing Centers (DPC) are 
across secure communications paths that use NIST-authorized encryption.
    Paper presents a more difficult problem by its nature and the sheer 
volume which it will be present in the Decennial Census. The Census 
Bureau is responding to this challenge by increasing its awareness and 
training at the Field level as well as implementing checks with each 
shipment of paper to track its progress from start to finish. Careful 
records of paper shipments will be kept to make sure that in the event 
a package or set of paper forms is lost or misplaced, there is an 
accurate record of exactly what was lost, the circumstances surrounding 
the loss, and actions taken once the loss is discovered.

                             DATA SECURITY

    Question. The 2010 Census will require the hiring of thousands of 
temporary employees. Can you offer this Committee your assurance that 
the background checks for these employees will be fully completed 
before they are invited into homes of millions of Americans?
    Answer. In the 1990 and 2000 decennial censuses, the Census Bureau 
used Federal Bureau of Investigation (FBI) name checks to determine the 
suitability of all applicants for temporary Census jobs (most work for 
8 weeks or less). There was virtually no criminal activity by temporary 
Census workers in 1990 or 2000. Accordingly, as part of the cost 
estimates prepared for the 2010 Census, we again assumed we would use 
this method to conduct background checks on all temporary workers. 
Although Executive Order 8914 requires that all newly hired federal 
government be fingerprinted within 14 days of beginning work, this 
Order also specifically authorizes fingerprint exemptions for temporary 
workers. The Census Bureau continues to study various operational 
approaches for conducting background checks, including risks and cost 
implications.

                    HANDHELD TECHNICAL REQUIREMENTS

    Question. After several discussions with the Census, it has become 
clear that the Census entered into the contract for 2010 Census data 
collection before the Census was actually certain of what the 
requirements for such a system would be. It is rare that when given an 
unknown, that the costs come in below the estimates.
    Did the Census Bureau enter into a data collection contract knowing 
that it would cost more than expected?
    Answer. We did not enter into this contract knowing that costs 
would be higher than expected. The final bids of all vendors for the 
contract were similar, and all were relatively close to the independent 
government cost estimate prepared by the MITRE Corp.
    Regarding the level of requirements known at contract award, early 
in the decade we believed our experienced Census Bureau staff could 
develop and deploy the handheld computers for use in the 2010 Census. 
These staff did produce the solutions we tested in both the 2004 Census 
Test and 2006 Census Test. Although we were able to develop and use the 
devices well enough to determine that we could conduct field data 
collection on them, by 2004 we had concluded that we did not have 
sufficient expert resources in house to do this for the 2010 Census, so 
we decided to contract this effort to the private sector. At the time 
we prepared the RFP for the FDCA contract, our strategy was to supply 
high-level functional requirements to the contractor on award, and then 
to determine final detailed requirements based on what we learned from 
the 2004 and 2006 Census Tests, and the 2008 Census Dress Rehearsal.
    Thus, at the time of contract award in March 2006, both the Census 
Bureau and the contractor were fully aware this strategy would mean a 
tight schedule for requirements development, system design, system 
development, and deployment. The initial requirements strategy at that 
point was to develop remaining requirements in a two-step process. 
First, based on results from the 2004 and 2006 Census Tests, we would 
provide detailed Dress Rehearsal requirements for our major operations. 
Then, based on lessons learned from the Dress Rehearsal, we would make 
adjustments to those detailed requirements for 2010 Census operations, 
as well as develop the detailed requirements for those operations that 
could not be included in Dress Rehearsal (e.g., enumeration in Puerto 
Rico; enumeration in remote areas).
    The contract was awarded in April 2006--less than one year before 
the first major application was needed for the Dress Rehearsal Address 
Canvassing operation. We knew this was a very aggressive schedule, and 
to mitigate some of this risk, all of the final vendors for the 
contract were required to develop a prototype of the Address Canvassing 
device so that, upon award, they would already have initial development 
underway. However, after contract award, it became clear that the 
contractor's funding needs by fiscal year differed from what the Census 
Bureau had assumed in its lifecycle cost estimate for the contract. In 
particular, the contractor stated they needed more of the overall 
contract funding earlier in the cycle, including fiscal year 2006. 
Because the Congress had already appropriated funds for fiscal year 
2006, and the President had already made his request to the Congress 
for fiscal year 2007, the Census Bureau had limited flexibility to 
address these funding issues directly. In response, the Census Bureau 
reprogrammed some funding to the FDCA contract, and a re-plan was 
developed which, among other things, delayed and extended software 
development into seven increments. Thus, this re-plan added additional 
risk to the overall development plan and strategy that the Census 
Bureau thought was manageable.

                    HANDHELD TECHNICAL REQUIREMENTS

    Question. When did the contractor ask for a finalized set of 
requirements?
    Answer. At the time of contract award in March 2006, both the 
Census Bureau and the contractor were fully aware the initial 
requirements development strategy would mean a tight schedule for 
software development, system design, system development, and 
deployment. The initial requirements strategy at that point was to 
develop remaining requirements in a two-step process. First, based on 
results from the 2004 and 2006 Census Tests, we would provide detailed 
Dress Rehearsal requirements for our major operations. Then, based on 
lessons learned from the Dress Rehearsal, we would make adjustments to 
those detailed requirements for 2010 Census operations, as well as 
develop the detailed requirements for those operations that could not 
be included in Dress Rehearsal (e.g., enumeration in Puerto Rico; 
enumeration in remote areas).
    In mid-November of 2007, however, facing a delayed, scaled-back 
dress rehearsal, and early 2010 Census operations not too far behind, 
the Harris Corporation requested that the Census Bureau deliver the 
final 2010 Census requirements by November 30, 2007 so that they could 
conduct a re-plan to align scope, schedule, and cost. These 
requirements were to include: Operations not planned in Dress 
Rehearsal, known defects in the operations, the de-scoped Dress 
Rehearsal requirements, as well as any clarifying requirements from 
those operations planned for Dress Rehearsal. We did deliver the final 
change requirements for Address Canvassing (the first major Census 
operation that Harris is participating in) by November 30, and in early 
December, negotiated with Harris to deliver final requirements by 
January 16, 2008.

                     DEPARTMENT INFORMATION SYSTEMS

    Question. For the last 7 years, the Inspector General has noted 
that the Department has a material weakness in its information 
technology (IT) security because of problems with its certification and 
accreditation (C&A) process. I understand that several Department 
systems have recently been compromised.
    What is the Department doing to improve the C&A process so the 
material weaknesses can be resolved?
    Answer. Since fiscal year 2001 when the system certification and 
accreditation (C&A) material weakness was first reported, a deadline of 
one year was set for its resolution. Because of the short timeframes, 
efforts mainly focused on completing C&As instead of improving their 
quality. It is the poor quality of the C&A packages that caused the 
material weakness to continue. To that end, an OCIO/OIG joint strategy 
has been developed to incorporate realistic milestones, take measurable 
steps, and build consistent and repeatable C&A practices. We have 
established a 24-month schedule to meet these commitments, with the 
following significant milestones:
  --Standard assessment cases can promote consistency and improved 
        security for the Department's IT systems. Bureaus will use the 
        examples to develop system specific assessment cases that will 
        be used during security control assessments associated with 
        certification and continuous monitoring by May 2008.
  --The C&A package documents the security posture of a system as a 
        snapshot in time, but continuous monitoring must be performed 
        to ensure that appropriate adjustments are made to security 
        controls and the system security plan as changes to the 
        information system and external environment occur. OCIO will 
        develop Department-wide continuous monitoring policy and 
        guidance to help achieve consistency and compliance. The 
        planned completion date for this guidance is June 2008. As part 
        of its independent Federal Information Security Management Act 
        (FISMA) reviews of C&A packages and security control 
        assessments, OIG will identify controls that have not been 
        adequately assessed and recommend that they be assessed during 
        continuous monitoring. OIG will later review continuous 
        monitoring activities for those systems to determine whether 
        appropriate actions were taken. OIG will also assess compliance 
        with the continuous monitoring policy and guidance when it 
        becomes available. This work will be performed on an ongoing 
        basis as part of our fiscal year 2008 and fiscal year 2009 
        FISMA reviews.
  --The Information Systems Security Line of Business (ISSLoB) 
        initiative requires that agencies use a designated FISMA 
        automated tool to standardize tracking and reporting. The 
        Department has begun to implement the Justice Department's 
        Cyber Security Assessment and Management (CSAM) tool to 
        standardize the C&A process and documentation as well as 
        conduct compliance reviews. CSAM will be implemented in two 
        phases--the management information inventory phase, which will 
        provide consistent security records for IT investments, is 
        scheduled for September 2008; full implementation, including 
        conversion of existing packages, is scheduled for June, 2009.
  --IT security compliance is one of the Department's highest 
        priorities. To ensure this effort is on track, both OCIO and 
        OIG will brief progress at the Department's Senior Management 
        Council (SMC) on a quarterly basis. We will also brief the CIO 
        Council on a quarterly basis.
    Question. The Inspector General recently reported that only 1 of 
the 16 system security officers at Census is an IT security specialist. 
What are you doing to ensure there are enough qualified IT security 
professionals to protect the Department's many sensitive systems and to 
oversee the work of its IT security contractors?
    Answer. The attraction and retention of experienced IT Security 
Officers is a challenge. The insufficient number of individuals 
proficient in IT security has been raised in various government and 
private-sector organizations. Experienced IT security professionals are 
not easy to come by, and the Department must compete in the market 
place for these skills.
    In 2007, the Departmental CIO worked with Office of the Secretary 
Information Technology Review Board, CIO Council, and Commerce 
Information Technology Review Board. Discussions regarding the 
increasing threat environment and escalating requirements resulted in 
an increase in the fiscal year 2009 budget for IT security. Part of 
this budget is set aside to address training and certification of our 
IT security personnel.
    Census continues to actively address building a robust IT security 
staff. The Census Bureau has taken steps to address this problem area 
by supplementing its limited staff resources through the use of highly 
qualified contractors. These additional skilled resources, together 
with the adoption of new and improved processes, have resulted in a 
great improvement in the Census Bureau's ability to assist the system 
owners, authorizing officials, and Information System Security Officers 
(ISSOs) in understanding and carrying out their information security 
responsibilities.
    Over the past two years, we have seen a dramatic increase in 
security-related activity throughout the Federal government. Heightened 
threat levels, as well as a need to strengthen the overall IT security 
program, have led the Census Bureau to review its budget and consider 
future increases, as well as a plan of action to improve the Division 
Security Officer/Information System Security Officer (DSO/ISSO) 
program. The Census Bureau is considering options for significantly 
increasing staffing to support the IT Security Program. More 
specifically, the Census Bureau is studying ways to provide resources 
to the office so that it can provide more advice and guidance to senior 
executives and all other roles relating to IT security. This includes 
training and support to ensure that authorizing officials, system 
owners, and DSO/ISSOs are performing their roles properly.
    Further, the Census Bureau hired MITRE Corporation to conduct an 
independent organizational assessment of the Census IT Security Office 
(ITSO). The assessment was to identify strengths as well as areas for 
improvement in the ITSO management, communications, processes, and 
structure. The analysis generally found that, despite many challenges 
in today's Federal IT security environment, the ITSO has significantly 
improved information security at the Census Bureau over the past few 
years. Based on MITRE's recommendations, the ITSO developed a five-year 
strategy to address the findings of the assessment and other gaps in 
the program, to include strengthening the role of the DSO/ISSO. The 
ITSO is currently conducting a gap analysis of the DSO/ISSO role 
structure and intends to recommend a plan of action to the Census 
Bureau Executive Staff in June 2008.

                    NOAA'S FLEET MODERNIZATION PLAN

    Question. Mr. Secretary, over the past several years this Committee 
has supported and funded new Fisheries Survey Vessels for NOAA's fleet. 
These vessels provide a valuable service to this county, and the aging 
ships they replace deserve retirement. However, these fishery vessels 
represent only a fraction of NOAA's fleet. NOAA also has hydrographic 
and oceanographic research vessels, some of which are well past their 
prime. We need to do more to support the officers, crew and shore 
support staff that keep these vehicles working well past their prime.
    When will this Committee receive a long-term fleet modernization 
plan that covers the entire NOAA fleet?
    Answer. NOAA's Ship Recapitalization Plan has been drafted and is 
currently undergoing Administration clearance.

                           LAKE PONTCHARTRAIN

    Question. A number of members have raised a concern about a lack of 
funding for the Lake Pontchartrain Restoration Program which would 
provide funding which would help restore and preserve the estuarine 
areas. Tell us whether this is a priority of NOAA and what NOAA is 
doing to assist Lake Pontchartrain.
    Answer. The Lake Pontchartrain Restoration Program is important to 
NOAA. The current research conducted has provided NOAA a better 
understanding of the water quality, critical habitats, biological 
resources, and contaminant sediments, thus benefiting those living on 
the Lake's shores. These research and education efforts contribute to 
NOAA's priority of habitat conservation and restoration. NOAA 
recognizes the need for such projects as they preserve nursery habitats 
for fisheries and protects and buffers coastlines. In fiscal year 2008, 
NOAA will provide approximately $500,000 to support the Lake 
Pontchartrain Restoration Program.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

            FISHERIES RESEARCH AND MANAGEMENT FUNDING LEVELS

    Question. I have heard from fishermen in my state with concerns 
about the level of NOAA funding for Fisheries Research and Management 
in the fiscal year 2008 omnibus. Effective management of our fisheries 
depends on sound science.
    Will funding in the fiscal year 2009 budget allow for the stock 
surveys necessary to ensure sustainable management of Alaska's 
fisheries and the fisheries of the nation?
    Answer. Based on the fiscal year 2009 President's request, we 
estimate that we would allocate $57.1 million for the Alaska Fisheries 
Science Center (AFSC), an increase of $2.7 million compared to the 
fiscal year 2008 level. In addition, the 2009 President's request 
restores funding for core survey and monitoring activities that were 
not included in the passage of the 2008 enacted budget.
    While additional funds for survey activities may be available, due 
to increased charter and fuel costs, it is unlikely that the total cost 
of all bottom trawl and acoustic surveys needed in fiscal year 2009 
will be realized. The AFSC would prioritize the acoustic surveys for 
pollock, and the Bering Sea bottom trawl surveys as top priorities. 
Restoration of the Aleutian Islands survey, cancelled in fiscal year 
2008, would not be possible at the 2009 funding levels. Likewise, the 
Gulf of Alaska slope survey would be cancelled and a portion of the 
Gulf of Alaska shelf survey would likely be scaled back.

                        MSRA IMPLEMENTATION--IUU

    Question. Can you give me an update on the progress the Department 
is making toward implementing the provisions of the Magnuson-Stevens 
Act, specifically with respect to ending overfishing and addressing the 
problem of illegal, unreported, and unregulated (IUU) fishing?
    Answer. Under the international provisions of the MSRA, the 
Secretary of Commerce is required to take action to combat illegal, 
unreported, or unregulated (IUU) fishing activities. The fiscal year 
2009 President's budget request includes a total request of $2.6 
million for international cooperation and assistance activities to 
combat IUU fishing. Of this amount, $1.5 million is for consultation 
with nations that have been identified as having vessels engaged in IUU 
fishing and engage in capacity building activities with developing 
countries. The above figure also includes $1.1million for the Law 
Enforcement program to support the MSRA requirement to strengthen 
international fisheries enforcement by providing additional 
infrastructure and personnel to monitor imports of fish and fish 
products into the United States through collaboration with enforcement 
entities in other federal agencies and foreign governments. 
Furthermore, the Secretary of Commerce is required to produce a 
biennial report to Congress which lists countries the United States has 
identified as having vessels engaged in IUU fishing and to certify 
whether identified nations have taken appropriate corrective action to 
warrant receipt of a positive certification. The absence of steps to 
address these IUU fishing activities may lead to prohibitions on the 
importation of certain fisheries products into the United States and 
other measures.
    In January 2008, the NMFS Office of International Affairs released 
a progress report on the status of implementation of the MSRA 
international provisions. This report summarizes efforts to combat IUU 
fishing around the world and can be found at http://www.nmfs.noaa.gov/
msa2007/.
    In preparation for the first biennial report, which is due to 
Congress in January 2009, NMFS has begun to collect information the 
agency can use to identify nations engaged in IUU fishing activities. 
To help acquire this information, on March 21, 2008, NMFS published a 
notice in the Federal Register that solicited information from the 
public regarding nations whose vessels are engaged in IUU fishing and 
bycatch of protected resources. The information request has been 
circulated broadly within constituent groups.
    NMFS is drafting a proposed rule for the identification and 
certification of nations whose vessels are engaged in IUU fishing or 
bycatch of protected living marine resources. We hope to have the rule 
available for public comment this summer. In preparation for the 
development of the proposed rule, NMFS published an Advanced Notice of 
Proposed Rulemaking in June 2007, and the agency held several public 
meetings in July 2007 to solicit public comments on this process.
    NMFS is also undertaking projects that will address IUU fishing and 
bycatch of protected living marine resources all around the world, with 
a focus at present on Central America and West Africa. These projects 
include workshops to provide technical assistance on the adoption of 
bycatch mitigation technologies and to improve enforcement. The 
enforcement activities focus on the development of effective legal 
frameworks and the implementation of improved monitoring, control and 
surveillance (MCS) programs.
    The United States continues to serve as Chair of the international 
MCS Network. In addition, we are also continuing to collaborate with 
various countries to address pelagic longline sea turtle bycatch 
through the use of circle hooks and we have collaborated with the U.S. 
Navy in partnership programs aimed at providing development assistance 
in Latin America and West Africa.
    The NOAA Office of Law Enforcement (OLE) is working closely with 
enforcement entities, with other federal agencies and foreign 
governments, to gather intelligence data on IUU fishing activities and 
trade in IUU fish and fish products. NOAA OLE is also developing its 
capability to analyze this intelligence data to create intelligence-
based products to improve the detection and intercept IUU fish product 
entering the United States.

                 ENDANGERED SPECIES LISTINGS IN ALASKA

    Question. I am concerned about Endangered Species Act petitions for 
species in Alaska. In addition to the current listings for Stellar Sea 
Lions, there are proposed listings for Cook Inlet Beluga Whales and 
ribbon seals before the Department of Commerce. Decisions on these 
listing could have huge consequences for development in my state.
    Would increased funding for research in this area improve NOAA's 
ability to make scientifically supported decisions on these listings?
    Answer. NOAA must render an ESA listing decision based on the best 
available scientific and commercial data information. More research 
will likely reduce scientific uncertainty and assist NOAA's ability to 
determine how to recover the species if they are listed.

              ECONOMIC DEVELOPMENT ADMINISTRATION FUNDING

    Question. The President's fiscal year 2008 budget includes a 51 
percent decrease in funding for the Economic Development 
Administration. How will this reduction impact the Department's ability 
to assist economically distressed communities?
    Answer. EDA will maintain its mission to ``lead the federal 
economic development agenda by promoting innovation and 
competitiveness, preparing American regions for growth and success in 
the worldwide economy,'' to the best of its ability, regardless of 
EDA's budget funding levels. The agency will continue to assist 
distressed communities through its grant investments and the agency's 
``soft assets'' such as sharing best practices and technical expertise 
with communities.
    The fiscal year 2009 funding request is based on budget priorities 
to help balance the federal budget. In a difficult budget environment, 
the Administration has made tough choices. EDA has a flexible and 
scalable nature--we can ``ramp up'' operations, as well as ``ramp 
down'' based on available funds.

                           DIGITAL TRANSITION

    Question. As the nation prepares for the transition to digital 
television, I am concerned that there is no focus on the special needs 
of rural American when implementing the converter box program. I am 
particularly concerned that customers are not being properly educated 
about needing a pass through converter box if their communities rely on 
low power or translators for their broadcasting.
    What is the National Telecommunications and Information 
Administration doing to address this concern?
    Answer. To minimize confusion to viewers of low-power stations, 
NTIA has been working closely with organizations representing low-power 
and translator stations to communicate effective messages to consumers. 
First, the materials consumers receive in the envelope with their 
coupons identify which converter boxes will pass through analog 
signals. This information enables consumers to determine on their own 
which retail outlets stock these analog pass through boxes. Second, 
NTIA has added information about the low-power issue to list of 
Frequently Asked Questions (FAQs) on the Coupon Program website 
www.DTV2009.gov. This information includes a list of low-power and 
translator stations by location to help consumers determine, first, 
whether they receive service from one of these stations and, if so, 
whether they need to consider purchasing a pass through converter box. 
NTIA also identifies other options for viewers of low-power and 
translator stations, such as buying a low-cost splitter, which enables 
viewers to use any of the certified converter boxes to view programs 
broadcast in analog and digital.
    NTIA is also working expeditiously to ensure that low-power 
operators in rural areas have resources to assist them with the 
transition in a timely fashion. On March, 5, 2008, NTIA sent a letter 
to all licensees of Class A, low-power and translator stations with a 
fact sheet they could use to inform their viewers about the digital 
transition. The letter also included information about the Coupon 
Program and listed of all approved converter boxes that included analog 
pass through.
    The letter also included additional information about two NTIA 
grant programs to assist low-power facilities. The Low-Power Television 
and Translator Digital-to-Analog Conversion Program currently provides 
$1,000 to eligible low-power stations that must purchase a digital-to-
analog conversion device to convert the incoming digital signal of a 
full-power television station to analog for transmission on the low-
power station's analog channel. To date, NTIA has awarded 232 grants 
under this program. Applications will be accepted until February 17, 
2009.
    Of course, stations that operate at less than full power will 
eventually convert to digital broadcasts. The Low-Power Television and 
Television Translator Upgrade Program established by Congress directs 
NTIA to assist this effort through a program that provides $65 million 
for necessary equipment upgrades to stations in eligible rural 
communities. To implement this program in a timely manner, a technical 
correction to the program authorization is required to permit the 
agency to begin making funds available during fiscal year 2009. On 
April 24, 2008, the Senate Committee on Commerce, Science, and 
Transportation favorably reported S. 2607, which would effectuate this 
technical correction. NTIA will continue to work with the Federal 
Communications Commission, industry and the broadcast community to 
assist low-power television stations and their viewers during the 
transition to digital broadcasting.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The subcommittee stands in recess until 
Thursday, March 13, at 10 a.m., when we will take testimony 
from the Administrator of the National Oceanic and Atmospheric 
Administration (NOAA) and the Director of the National Science 
Foundation (NSF).
    [Whereupon, at 11:14 a.m., Thursday, March 6, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
March 13.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senator Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. DR. MICHAEL GRIFFIN, ADMINISTRATOR

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning. Today the Subcommittee on 
Commerce, Justice, and Science will come to order.
    Today the subcommittee will hear from the National 
Aeronautics and Space Administration (NASA) Administrator, Dr. 
Michael Griffin, about the NASA budget request and its 
priorities. This is Administrator Griffin's fourth appearance 
before the CJS Subcommittee and we feel that we have a very 
good, productive relationship with both him and his team.
    There are many issues facing NASA and there is also good 
news. And we look forward, as we talk with NASA, about its 
tremendous history.
    This year we honor important milestones in America's space 
program. It is the 50th anniversary of NASA's creation. It is 
the 25th anniversary of when Dr. Sally Ride became the first 
American woman in space. But we want to be sure that NASA is 
not an agency with a great history, but with a great future.
    We regard this year as a year of transition. We say this is 
a year of transition because this time next year we will have a 
new President, but whatever we do for this year's appropriation 
for fiscal year 2009 will be the operating budget for the 
President's first year for the space program. So we have got to 
get it right as the new President comes in. So as the chair 
this year, I want to make sure we put the right resources in 
the right places in the checkbook to make sure America's space 
program remains number one in the world.
    When I looked at the President's budget for NASA, I was 
disappointed. I regarded it as stagnant despite the advocacy 
both from the agency and externally. The President's budget 
request is $7.6 billion. This is only $300 million above the 
2008 omnibus level. This 1.8 percent increase does not even 
keep up with inflation when one simply looks at rising energy 
costs. Science is held steady at $4.4 billion, and though it 
does include launch plans for the decadal study, it is only 5 
of the 17 priorities.
    Of deep concern to this subcommittee are the cuts in 
aeronautic research. It is cut by $65 million, for a total of 
$447 million. We feel that aeronautics is so crucial to the 
future of America's aerospace industry. And once again, 
regrettably, there is no additional funding to help pay back 
NASA for the cost of returning the Shuttle to flight after the 
terrible accident a few years ago. And it also perpetuates a 5-
year gap between the Shuttle's return in 2010 and the launch of 
Orion and Ares in 2015.
    So we are worried about lost opportunities and we want to 
restore those opportunities and keep America's space program 
number one. We continue to face challenges from other 
countries. We know China is on the rise with its capability and 
its intent. Russia is always there, and we do not see this like 
a war for space, but we do say who is going to be the premier 
space agency. We want the United States to continue to lead the 
way not only for national prestige and honor, also not only for 
national security reasons, but the fact that we believe that 
our values, as we became the first in space, were that space 
belongs to the world and does not belong to a single nation.
    Anyway, coming back to where we are, I will continue in my 
fight, joining with Senators Shelby and Hutchison, to fight 
again this year to add the $1 billion to deal with the cost 
that was incurred in returning to flight after the Columbia 
accident. It should not be a question of whether we should or 
should not. It is just a question of doing it.
    We are also going to remember the original Augustine 
Commission which says we need to have a balanced space program 
of human space exploration, a reliable space transportation 
system, and investments in science and also investments in 
scientific research.
    For science, the budget request of $4.4 billion is what the 
President requested. Science at NASA is guided by decadal 
reports prepared by the National Academy of Science. It also 
guides this subcommittee. These decadals are road maps for 
NASA. Science at NASA is something that is so important because 
it saves lives, saves the planet, and creates jobs for the 
future.
    So I am puzzled why the science budget has been flat-funded 
for this year and for the next 5 years. We need to maintain our 
very important commitment to Earth science and the role that it 
plays in global warming. Missions like Ice, Clouds, Land 
Elevation Satellite (ICESat) and the tropical rainfall 
measurement mission (TRMM) measure and monitor the world's ice 
sheets and rain forests. We also need to have science that 
takes us into new breakthrough thinking like a great telescope 
like Hubble whose life we will extend and also the James Webb 
telescope. If you liked Hubble, you are going to be crazy about 
the James Webb telescope and what it will do for those 
advancements.
    Again, aeronautics. In 1998, the aeronautics budget at NASA 
was $1.5 billion. Today it is less than $500 million. Every 
commercial aircraft flying today uses technology developed by 
NASA. We must maintain this leadership, and we see, as we 
travel the world, how competitive aerospace is becoming.
    The budget request for the Space Shuttle is $3 billion. It 
calls for 10 more flights to the Space Station by 2010 and one 
flight is reserved to service the Hubble telescope. Retiring 
the Shuttle and transitioning the workforce will be major 
challenges for NASA. The United States cannot afford to lose 
our science and engineering talent. Therefore, we need to look 
at what will be our employment plan.
    As always, no matter what we do, the safety of our 
astronauts has to be number one. The budget request for 
exploration is $3 billion. It is over $600 million above 2008, 
and this subcommittee, chaired by both myself and Ranking 
Member Shelby are absolutely committed to the goal of returning 
U.S. astronauts to the Moon and maintaining a presence there. 
We estimate that it will cost $16 billion to build Ares and 
Orion. While this is a significant investment, we again 
continue to be disturbed by the gap of almost 5 years between 
the retirement of the Space Shuttle and the launch of Orion and 
Ares. I want to know what we can do, as we engage in our 
conversation, to minimize the time gap and minimize the impact 
on the workforce and what is our path forward.
    The Space Station is $2 billion, $200 million above the 
omnibus level. It is a national laboratory. We must keep our 
international commitments. We need to make sure we finish the 
station and we also need to continue to have access to the 
Shuttle which goes to our partnership with the Russians and the 
commercial orbital transportation services (COTS) program. I 
fully support the COTS program which is funded at $170 million.
    We have a tough road ahead as we put together our bill. It 
will be the intention of the committee to have our bill 
completed before the Memorial Day recess so that we can be 
ready to fly our space ship, the CJS bill.
    So having laid that groundwork, we are going to turn to 
Administrator Griffin.
    But I want the record to show that Senator Richard Shelby 
is not here because his duties as the ranking member of the 
Banking Committee have him on the floor. He is the lead ranking 
member on moving the bill to deal with our terrible, terrible 
housing and foreclosure crisis. Senator Shelby must be on the 
floor, but we assured him his views would be presented here. We 
will submit his statement and questions for the record. He has 
questions about the future of robotic missions to the Moon, the 
NASA education program, the gap in human space flight, and 
issues related to accountability and stewardship. I too share 
those questions. Without objection, we will put these in the 
record and I will proceed.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Thank you, Madam Chairwoman.
    Dr. Griffin, thank you for joining us today. This is an important 
hearing because it gives us an opportunity to discuss the significant 
role of the National Aeronautics and Space Administration (NASA) and 
its fiscal year 2009 budget proposal.
    NASA's proposed budget is $17.6 billion. This is a $300 million, or 
1.8 percent, increase over the fiscal year 2008 funding level. This is 
a sizeable sum considering the funding constraints that the Federal 
Government faces, yet it still does not begin to provide enough for 
NASA to do all of the critical missions it has been asked to do. 
Therefore, the Committee continues to be posed with many difficulties 
as we try to develop a sound budget for NASA.
    The budget reflects funding choices that have been made by the 
Administration to achieve the goal of returning to the Moon, providing 
a $357 million increase for the Exploration account.
    However, without overall growth in NASA's base budget, this 
translates to either little growth or even serious cuts in funding for 
other critical missions and activities. The budget keeps science 
funding flat for years to come, as well as proposing serious reductions 
in aeronautics and education programs.
    The proposed budget continues to force the development and 
operation of manned vehicles to compete with science and education for 
limited funding, making balancing NASA's budget increasingly difficult.
    When the President proposed his vision for returning to the Moon, 
he outlined a funding plan that showed what it would take to continue 
our leadership in space exploration. Yet, the funding levels that were 
initially proposed have never been requested by the Administration. The 
shortfall for NASA has been estimated to be up to $4 billion. This, 
coupled with serious budget constraints faced by this subcommittee, 
have made it challenging, if not nearly impossible, to provide NASA 
with the money it needs to carry out its critical missions.
    Last year, through the leadership of Chairwoman Mikulski, the 
Senate attempted to alleviate some of NASA's budget constraints by 
approving an additional $1 billion. This funding would have allowed 
NASA's exploration programs to continue without massive cuts to science 
and aeronautics accounts. Further, it would have helped NASA's budget 
recover from the effects of the Columbia shuttle disaster. However, 
these efforts were met by opposition within the Administration and 
ultimately thwarted.
    Dr. Griffin, you have commented in the past that NASA cannot do all 
it is asked to do with the funding provided. Yet, when more funds are 
proposed, the cooperation from those in the Administration have been 
painfully absent.
    While the NASA budget clearly cannot move forward without more 
funding, the fiscal year 2009 budget does stays the course for the work 
NASA is currently doing. It contains some interesting pieces that will 
help further our understanding of the solar system and our own Moon. A 
proposed new outer planets flagship mission and the upcoming Hubble 
servicing mission will enhance the world class science that NASA does 
every day.
    The plan has been laid out, and now NASA is doing its best to 
implement it. Accomplishing the vision for exploration must keep moving 
forward.
    I am particularly pleased to see that the Administration has seen 
the wisdom of flying a robotic lunar precursor mission and the benefits 
that can be achieved in doing such a mission. The National Research 
Council indicated that this type of mission would be beneficial in 
their lunar science report and I look forward to discussing further how 
this mission will be implemented by NASA.
    As we continue to discuss the future of NASA, it is important to 
remember that NASA's know-how not only allows us to reach beyond Earth, 
but also directly impacts our daily lives.
    Scientists at Marshall Space Flight Center developed software that 
clarifies and refines image processing to allow us to view clear, new 
images of the Sun. The software adjusts and corrects computer and video 
images for zoom, tilt and shakiness, giving us the ability to review 
the Sun in a whole new way. Yet, this capability has applications far 
closer to home. This technology is now being used in countless criminal 
cases to assist our law enforcement in solving crimes.
    Last month, a young female student at Auburn University was 
kidnapped and murdered. Through the expertise of the U.S. Marshal's 
Service, the killer's image was captured in a grocery store 
surveillance video where the victim's debit card was used. The 
Marshal's Service sent the surveillance images to Dr. David Hathaway at 
Marshall Space Flight Center in Huntsville where an image enhancement 
program was used to clear the grainy surveillance photos. It was these 
images that were later used to capture the killer.
    And this type of work does not stop here. It is my understanding 
that Dr. Hathaway has also been assisting America's Most Wanted in the 
Lane Bryant Chicago murders. He is to be commended for being such an 
asset to the law enforcement community and NASA is to be lauded for 
their role in developing this vital technology.
    We could spend all morning talking about the many successes of 
NASA, and yet we are here today to discuss the difficulty in balancing 
a budget that will fund only a fraction of the potential this agency 
could achieve.
    The continual budget strains will require that we all work together 
as partners to ensure NASA can meet its many objectives.
    It is my hope that the implementation of the President's vision can 
be accomplished while still maintaining the capabilities that NASA has 
developed in other mission areas.
    The Administration did not leave many crumbs on the table, but I 
look forward to discussing how we may find a solution that keeps all of 
NASA's activities moving forward. While it will be a difficult task 
given the demands for funding across all of the agencies funded in the 
CJS bill, I look forward to working with you, Dr. Griffin, and the 
Chairwoman to ensure that NASA receives the funds necessary to achieve 
the nation's goals.
    Thank you, Madam Chairwoman.

               OPENING STATEMENT OF ADMINISTRATOR GRIFFIN

    Senator Mikulski. So, Dr. Griffin, we are going to turn to 
you and go with your testimony.
    Dr. Griffin. Thank you and good morning, Chairman Mikulski. 
I too regret Senator Shelby could not be here, but please be 
assured we will answer his questions for the record as 
expeditiously as possible.
    I want to thank you for inviting me here today to discuss 
our fiscal year 2009 budget request of $17.6 billion. Rather 
than delving into the details of the budget request itself, I 
would like to use this opportunity to explain the rationale 
behind the strategic choices made with America's investment in 
our Nation's space program.
    Our annual budget represents less than six-tenths of 1 
percent of the $3.1 trillion Federal budget, a small yet 
strategic investment in our Nation's leadership on ``The New 
Frontier'', as President Kennedy characterized our Nation's 
first halting steps and then giant leaps beyond Earth.
    When strategically applied, America's investment in NASA 
also benefits our Nation by spurring development in new, 
innovative technologies and advancing our scientific 
understanding of the Earth, the Sun, the solar system, and the 
rest of the universe in ways that we can hardly fathom today, 
but which inspire us to learn more. Space exploration also 
contributes to our national security in a very deep way by 
enabling us to build closer ties with other nations and 
societies and by inspiring young people to study difficult 
subjects--mathematics, science, and engineering--so that the 
next generation of Americans remains at the cutting edge of 
technical progress. What we do is rocket science. The conquest 
of air and space is one of mankind's most interdisciplinary 
activities. The capabilities we bring into being help not only 
to build a better future for aviation and space; they benefit 
our entire society.
    This year, we celebrate the 50th anniversary of NASA's 
creation by the Congress with the passage of the National 
Aeronautics and Space Act of 1958, a strategic national 
response to the historic achievements of the Soviet Union in 
the arena that President Kennedy would label, so aptly, ``this 
new ocean.'' It was this foresight in recognizing the strategic 
importance of space which inspired and challenged a now aging 
generation of Americans, my generation, to study math, science, 
and engineering so that we could take part in this great 
enterprise.
    However, as we celebrate NASA's 50th anniversary, I must 
also tell you that I am worried. Senator Mikulski, in absentia 
members of the committee, I am concerned that our Nation is now 
facing a silent Sputnik, a moment when many other countries are 
racing for a new high ground of innovation while our own 
advantages--technological, economic, intellectual--are showing 
signs of wear. While I believe that America's greatest days lie 
always ahead of us, this optimism is misplaced unless we 
recognize our problems, confront them, and strive with 
concerted energy to fix them. We need your help.
    We face many challenges at NASA, but I believe the greatest 
of these is the need to maintain a determined and unified sense 
of purpose as we pursue the tasks before us. Our achievements, 
the things we do that awe the world, do not come cheaply, 
quickly, or easily. Space exploration is not for the faint of 
heart. It is not for those who are easily distracted. It is not 
for those who require instant gratification.
    This year, all of us in the space community took a moment 
to recall where we were just 5 years ago when the Space Shuttle 
Columbia disintegrated over Texas and Louisiana, and to reflect 
upon the ultimate sacrifice our astronauts made while pursuing 
our Nation's endeavors in space, and to take cautious, sober 
pride in the progress that we have made in the short time since 
then.
    At great expense, and with considerable technical 
difficulty, we returned the Space Shuttle to flight, and we are 
using it today to complete the assembly of the International 
Space Station (ISS). In the last few months, we have installed 
the European Columbus laboratory, the first of three components 
of the Japanese Kibo module, and the Canadian Dextre robotic 
arm. We have 10 more assembly and logistics missions ahead of 
us, plus one final Shuttle servicing mission to the Hubble 
space telescope scheduled for later this year. Barring 
unforseen circumstances, I believe we are well positioned to 
complete station assembly by 2010, and then retire the Shuttle 
in accordance with the thoughtful recommendations of the 
Columbia Accident Investigation Board (CAIB).
    It took a crisis, the Columbia tragedy, for our Nation's 
leaders in the White House and Congress to recognize the truth 
of the damning assessment of the CAIB. Quoting, ``The U.S. 
civilian space effort has moved forward for more than 30 years 
without a guiding vision.'' The President and Congress honored 
the sacrifice of the Columbia crew, with a new civil space 
policy noteworthy for the logical progression of its goals and 
its clarity of purpose. We must not allow that clarity to fade 
with the passage of time. We must not let it just slip away.
    So, we are honoring America's prior commitments to our 
international partners on the station. We have begun the 
necessary steps, now turning into longer strides to develop a 
new generation of capabilities with the Orion crew exploration 
vehicle and the Ares family of rockets to replace the aging 
Space Shuttle. We are using the market provided by the ISS to 
help bring about U.S. commercial space transportation 
capability with our COTS program that you mentioned.
    By being good partners on the ISS and with an armada of 
Earth and space science missions, through good times and in 
bad, it is my belief that other countries will want to join the 
United States in returning to the Moon, exploring Mars and 
other planets and moons of our solar system, and discovering 
what lies beyond. There is little we cannot do if we pursue 
this common vision together.
    However, please do not confuse my desire for international 
collaboration with a willingness to rely upon others for 
strategic capabilities. Today we are dependent upon the Russian 
Soyuz. This dependence upon Russia for such a critical 
capability is not an option we would choose, but it is where we 
are today. In fact, we must seek an exception to the Iran, 
North Korea, Syria Nonproliferation Act (INKSNA) because we 
have no immediate replacement for the Shuttle and no other 
recourse if we wish to sustain the ISS.
    Since that is a fact--and I prefer to deal in facts--I am 
glad that in today's world we have the option to avail 
ourselves of Russian crew transportation capabilities. But we 
did not get here by design. We got here by default. And as 
Admiral Gehman observed in the CAIB report, ``. . . previous 
attempts to develop a replacement vehicle for the aging Shuttle 
represent a failure of national leadership.'' That failure has 
had and will have costs. The most important of those costs are 
not measured in money or in jobs, though both of these measures 
have been much in the news, but rather in terms of our Nation's 
posture and standing in the world. I will leave it to others to 
assess the larger consequences of the failure of American 
leadership, to which Admiral Gehman referred.
    So let me be perfectly clear. While we have made 
significant progress in the past 5 years, the journey ahead is 
not easy. It requires courage on the part of those who must 
carry it out and commitment from those in leadership who would 
see it succeed. To reach this point in the aftermath of 
Columbia has required extraordinary self-sacrifice by everyone 
involved, and even more will be required in the years ahead. 
Transition from Shuttle to Orion and Ares, the next generation 
of constellation systems, while utilizing the Space Station 
with its six-person crew, and sustaining it with United States 
and commercial and foreign transportation services, is NASA's 
greatest management challenge.
    We must not make promises we cannot keep. We must carefully 
consider any new missions to ensure that they are affordable. 
We must set priorities. We must focus upon the next steps: 
finishing the Station, building a new space transportation 
system to replace the Shuttle, and then venturing out again 
beyond low Earth orbit. We must keep always before us the real 
reasons why we explore this New Frontier, and the consequences 
of allowing our hard-earned leadership on that frontier to slip 
away.
    None of this will be finished in a single year, a single 
presidential administration, a session of Congress, or even in 
the lifetime of anyone here today. It is a challenge for 
generations to come, but one which requires leadership on our 
part today on behalf of those generations to come.
    In the immortal words of President Kennedy, ``Now is the 
time to take longer strides.''
    Thank you.
    Senator Mikulski. Thank you, Dr. Griffin.
    [The statement follows:]

                Prepared Statement of Michael D. Griffin

    Chairman Mikulski and Members of the Subcommittee, thank you for 
the opportunity to appear today to discuss the President's fiscal year 
2009 budget request for NASA. The President's budget request for NASA 
is $17.6 billion, a 2.9 percent increase over the net budget authority 
enacted for 2008, along with a steady, five-year runout commensurate 
with inflation. This increase demonstrates the President's commitment 
to funding the balanced priorities he set forth for the Agency in space 
exploration, Earth and space science, and aeronautics research. We are 
making steady progress in achieving these goals. I ask for your 
continued support as you consider the President's fiscal year 2009 
budget request for NASA.
    When I testified before this Subcommittee last year, I spoke about 
the Administration's balanced priorities for our Nation's civil space 
and aeronautics research goals as set forth by the Congress and the 
President. NASA's mandate is clear, and NASA's authorizing legislation, 
as well as the level of funding appropriated to NASA in fiscal year 
2008, tell me that Congress broadly endorses the balanced set of 
programs the Agency has put forward in this era of limited budget 
growth.
    I have said this in other forums, but it warrants repeating here: 
at present funding levels, NASA's budget is sufficient to support a 
variety of excellent space programs, but it cannot support all of the 
potential programs we could execute. No plan or level of funding can 
fully satisfy all the many constituencies we have. Balanced choices 
must be made. But they cannot continually be remade and revisited if 
there is to be steady progress toward our common, defined objectives.
    As the Columbia Accident Investigation Board noted, and as 
stakeholders acknowledged in ensuing policy debates, it would have been 
far worse to continue with the prior lack of strategic direction for 
human space flight, to continue dithering and debating and inevitably 
widening the gap between Shuttle retirement and the availability of new 
systems. Until and unless the Congress provides new and different 
authorization for NASA, the law of the land specifies that we will 
complete the International Space Station, retire the Shuttle, design 
and build a new spaceflight architecture, return to the Moon in a 
manner supporting a ``sustained human presence,'' and prepare the way 
to Mars.
    We are doing those things as quickly and efficiently as possible. 
System designs for the early elements have been completed, contracts 
have been let, and consistently solid progress is being made with a 
minimum of unexpected difficulty. True, the progress might be slower 
than all of us would prefer, but applying resources in the right 
direction, irrespective of pace, is always productive--and we are doing 
that. The Ares I Crew Launch Vehicle and the Orion Crew Exploration 
Vehicle, as they are presently taking form, are the building blocks for 
any American future beyond low-Earth orbit (LEO).
    Given that this endeavor will be our first step beyond LEO for 
crewed spacecraft since 1972, I believe that bypassing the Moon to 
venture directly into deep space--a proposal some have suggested 
revisiting--poses unacceptable risk. Returning to the Moon and 
consolidating the gains to be made thereby will set us properly on the 
path toward Mars. I ask for your continued support and leadership as we 
progress toward achieving these worthy National objectives.
    Before I highlight key elements of NASA's fiscal year 2009 budget 
request, I would like to summarize NASA's initial fiscal year 2008 
Operating Plan. The initial Operating Plan provides aggregate funding 
of $17.3 billion, at the level of the President's fiscal year 2008 
request. Pursuant to the rescission of $192.5 million in NASA 
unobligated balances in the Consolidated Appropriations Act, 2008 
(Public Law 110-161), aggregate funding in NASA's fiscal year 2007 
Operating Plan is reduced by $185.2 million, and prior year balances 
are reduced by $7.2 million. Implementation of direction in Public Law 
110-161 has resulted in a total reduction of $620.9 million in planned 
NASA activities, consisting of the rescission of $192.5 million, 
offsets for programmatic augmentations totaling $345.2 million, and 
site-specific Congressional interest items totaling $83.2 million. 
Finally, in accordance with Congressional direction, NASA has 
established seven Agency appropriations accounts in the fiscal year 
2009 budget request. As a result, the budgets for NASA's programs and 
projects are requested in terms of direct costs, not the additional 
indirect costs associated with operating the Agency's field Centers, 
assuring safety and mission success, and Agency management and 
operations. The direct budgets will continue to reflect labor, travel, 
and procurement costs associated with each program and project. The 
indirect costs are now budgeted solely within the Cross Agency Support 
account, and not in the NASA programs and projects. We will strive to 
ensure that these changes are transparent to our stakeholders.
    I am appreciative of the action by the Committees on Appropriations 
and Congress in providing regular fiscal year 2008 appropriations for 
the Agency at the level of the President's request, including 
essentially full funding for the Orion, the Ares I, the Space Shuttle, 
and the International Space Station. This total fiscal year 2008 
appropriations level, with some adjustments within the total, will 
enable NASA to meet critical priorities in accordance with the 
direction from the Congress and the President.

         HIGHLIGHTS OF THE NASA FISCAL YEAR 2009 BUDGET REQUEST

    I am pleased to report that the fiscal year 2009 budget represents 
a substantial step forward in responding to the recommendations of the 
National Research Council's (NRC) first decadal survey of Earth 
Science, released in January 2007. The five-year budget runout requests 
$910 million for priorities enumerated in the report. Funding will 
support development of two Decadal Survey new mission priorities--the 
Soil Moisture Active/Passive (SMAP) mission scheduled to launch as 
early as 2012, and the Ice, Clouds, land Elevation Satellite II (ICESat 
II) scheduled to launch in 2015--as well as formulation of three 
additional decadal survey missions.
    Working closely with NOAA, we also are making significant progress 
toward restoring climate sensors that had been removed from the tri-
agency National Polar-Orbiting Operational Environmental Satellite 
System (NPOESS) in 2006. The fiscal year 2009 budget request of $74 
million for NOAA supports the addition of a Clouds and the Earth's 
Radiant Energy System (CERES) instrument onto NASA's NPOESS Preparatory 
Project (NPP) satellite, set to launch in 2010; instrument development 
and ongoing analyses to identify a suitable satellite platform for 
hosting the Total Solar Irradiance Sensor (TSIS); and development of 
climate data records. These actions, which will be implemented through 
close coordination between NASA and NOAA, come in addition to the 
inclusion of the Ozone Mapping and Profiler Suite (OMPS)-Limb sensor on 
the NPP satellite that was announced earlier in 2007.
    The Agency's fiscal year 2009 budget request also reflects a number 
of exciting developments in the space sciences, including an increase 
in the number of new missions, a new initiative in lunar science and 
initiation of plans for high-priority missions in Astrophysics and 
Planetary Exploration. The fiscal year 2009 request includes an 
increase of $344 million over 5 years for Lunar Science in order to 
better understand our Moon. NASA's Science Mission Directorate, with 
support from the Exploration Systems Mission Directorate, is developing 
two small lunar landers, and the Science Mission Directorate is 
initiating a series of new and exciting missions headed to the Moon 
over the next decade. Meanwhile, we are focusing our Mars program after 
2013 on a Mars sample return mission to launch by 2020, and have 
identified funds to initiate development of an outer planets flagship 
mission to be selected in October of this year for launch by 2017. The 
budget also significantly increases Research and Analysis funds in the 
space sciences to gain better value from the missions we are flying, 
and so too, it increases the funding and, therefore, the flight rate of 
our suborbital rocket and balloon research programs in the space 
sciences.
    Our Aeronautics Research portfolio is positioned to address the 
challenges facing the Next Generation Air Transportation System, while 
also developing world-class aeronautics expertise and capabilities. 
Research is aligned with the National Plan for Aeronautics Research and 
Development and Related Infrastructure, approved by the President in 
December 2007. In fiscal year 2009, we will conduct a key test to 
advance our understanding of aircraft aging and durability, and develop 
algorithms to optimize the use of crowded airspace and airports. We 
will continue work on blended-wing-body aircraft, which may reduce fuel 
consumption and emissions, as well as aircraft noise. Additionally, 
NASA's Aeronautics Research Mission Directorate continues to strengthen 
partnerships with academia, industry, and other Government agencies to 
accomplish its strategic goals.
    NASA's commitment to its exploration objectives is clearly 
reflected in the fiscal year 2009 budget request. As assembly of the 
Space Station nears completion, NASA will increasingly focus its 
efforts on continuing the development of the Orion Crew Exploration 
Vehicle and Ares I Crew Launch Vehicle. This budget request maintains 
Orion initial operational capability in March 2015, and full 
operational capability in fiscal year 2016, though we are striving to 
bring this new vehicle on line sooner. In fiscal year 2008, we will see 
the completion of the formulation phase for major elements of the 
Constellation program; both Orion and Ares I will undergo their 
preliminary design reviews. We will conduct the first Ares ascent 
development flight test with the Ares I-X in the Spring of 2009, and we 
will continue to conduct research and develop and test technologies 
through the Advanced Capabilities Human Research and Exploration 
Technology Development Program. The Lunar Reconnaissance Orbiter (LRO)/
Lunar Crater Observation Sensing Satellite (LCROSS), an important part 
of NASA's lunar exploration strategy, is on track for launch at the 
beginning of fiscal year 2009. The Agency is also requesting $173 
million to provide incentives for entrepreneurs--from big companies or 
small ones--to develop commercial transport capabilities to support the 
International Space Station. With more than $2.6 billion in NASA funds 
available over the next five years to purchase cargo and crew services 
to support Space Station operations, our objective and strong 
preference is to use these funds to purchase these services from 
American commercial companies wherever possible.
    While I would prefer that the United States have domestic 
alternatives to purchasing crew transport services from Russia, I am 
glad that the Russians are our partners and have such capabilities, 
because the consequences if they were not available are far worse. If 
NASA astronauts were not onboard the Space Station, our National 
Laboratory in space simply would not survive. If there is no Space 
Station, there is no market for the commercial providers we are trying 
to help bring into existence, and our international partnership would 
simply fall apart. So, in order to keep these objectives viable, NASA 
may need to obtain additional crew and cargo transport services from 
our international partners if U.S. commercial services are not yet 
demonstrated and available.
    In the area of Space Operations, NASA's fiscal year 2009 budget 
request will allow us to continue to expand the Space Station, complete 
the supporting truss structure and solar arrays, and deliver the final 
component of the Japanese laboratory. This will round out the set of 
three space laboratories aboard the Station, with one each from the 
United States, Europe, and Japan. In addition, fiscal year 2009 will 
mark another milestone for the International Space Station Program--for 
the first time, the Station will be able to support a full-time crew of 
six astronauts. With three major scientific facilities available to 
them, these larger crews will be busy as Station kicks off a new era in 
microgravity research aboard this National Laboratory in orbit. 
Critical to these achievements, the Space Shuttle is scheduled to fly 
five times in fiscal year 2009. During fiscal year 2009, NASA also 
plans to launch payloads on eight expendable launch vehicles. Fiscal 
year 2009 will also see the consolidation of the Deep Space, Near-
Earth, and Space Communications networks into a unified Space 
Communications and Navigation (SCaN) architecture within the Space 
Operations Mission Directorate.
    NASA is continuing to transition from the Space Shuttle to new 
Exploration systems, and will need a complement of critical tools and 
authorities necessary for the transformed Agency to execute its 
mission. This transition is the largest and most daunting since the end 
of the Apollo program and the beginning of the Space Shuttle program. 
It dictates that we obtain the authorities needed to ensure sufficient 
support in the future. We hope to discuss the details of these 
legislative requests with Members of Congress in the weeks ahead.
    The remainder of my testimony outlines the fiscal year 2009 budget 
request for NASA in greater detail.

                      SCIENCE MISSION DIRECTORATE

    In 2007, NASA successfully launched four new orbital and planetary 
science missions (THEMIS, AIM, Phoenix, and Dawn), almost 20 suborbital 
science missions, and two major airborne Earth science campaigns. This 
past year also saw the first test flights of the Stratospheric 
Observatory for Infrared Astronomy (SOFIA) 747 airborne infrared 
observatory, as well as the provision of rapid-response airborne remote 
sensing aid to the California wildfire emergencies. In addition, 2007 
was a year of remarkable scientific discovery about the Earth, the Sun, 
the planets and the universe. For example, data from the Ice, Clouds, 
and land Elevation Satellite (ICESat), the Gravity Recovery and Climate 
Experiment (GRACE), and other satellites have provided dramatic new 
insights on ice sheet changes in Greenland and Antarctica. The Solar 
TErrestrial RElations Observatory (STEREO) satellites (A and B) have 
provided the first three dimensional images of the sun and the 
structures of the heliosphere. These new 3-D views, along with 
unprecedented observations from Hinode (Solar-B), NASA's Time History 
of Events and Macroscale Interactions during Substorms (THEMIS) 
mission, and the Aeronomy of Ice in the Mesosphere (AIM) satellite are 
revolutionizing knowledge of the variable Sun and its interactions with 
the Earth. Also, the Cassini spacecraft radar imagery of Titan revealed 
large lakes of methane in Titan's North polar region, indicating a 
hydrological cycle. Finally, a new map provides the best evidence to 
date that normal matter, largely in the form of galaxies, accumulates 
along the densest concentrations of dark matter. Mapping dark matter's 
distribution in space and time is fundamental to understanding how 
galaxies grew and clustered over billions of years.
    NASA's fiscal year 2009 budget request provides $4.44 billion for 
the Agency's Science portfolio to study the Earth, our Sun and its 
heliosphere, our solar system, and the Universe. This funding enables 
NASA's Science Mission Directorate (SMD) to start major new missions, 
to increase research and analysis funding, and to operate and provide 
ground support for 55 operating science missions, including 13 Earth 
science mission extensions. It provides support for over 3,000 current 
operating research and analysis grants, while continuing to develop 
high priority missions in Earth Science, Heliophysics, Planetary 
Science and Astrophysics, consistent with the priorities established by 
the NRC's decadal surveys.
    The fiscal year 2009 budget request for Earth Science provides 
$1.37 billion to help us better understand the Earth's atmosphere, 
lithosphere, hydrosphere, cryosphere, and biosphere as a single 
connected system. In addition to 14 operating missions, the request 
includes funding for seven missions in development. The Landsat Data 
Continuity Mission and Ocean Surface Topography Mission (to launch in 
2008) continue the decades-long time series of land cover change and 
ocean surface height data, respectively. Glory targets the impact of 
aerosols on climate. The National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) Preparatory Project (NPP) paves 
the way for the future national weather system and continues essential 
measurements from the NASA Earth Observing System (EOS), Aquarius, and 
the Orbiting Carbon Observatory (OCO), set to launch in 2008. Aquarius 
and OCO will make the first-ever global measurements of ocean surface 
salinity and atmospheric carbon dioxide, respectively. The request 
specifically increases funding for OCO and the Aquarius missions to 
maintain development schedules. The Global Precipitation Measurement 
(GPM) mission will extend the rainfall measurements made by the 
Tropical Rainfall Measurement Mission (TRMM) to the global scale. The 
request retains the GPM core mission launch readiness date. With 
respect to Glory, the development estimate included in the fiscal year 
2009 request represents cost growth of more than 30 percent from NASA's 
baseline development estimate, which, under the terms for Major Program 
Activity Reports under Public Law 109-555, will require explicit 
Congressional authorization in the next 18 months to continue.
    The budget request responds to the Earth Science Decadal Survey by 
establishing a funding wedge of $910.0 million over the budget runout 
to initiate five new earth Decadal Survey missions for launch by 2020, 
while continuing to implement seven precursor missions for launch 
between 2008 and 2013. NASA will continue to contribute to the 
President's Climate Change Research Initiative by collecting data sets 
and developing predictive capabilities that will enable advanced 
assessments of the causes and consequences of global climate change.
    The Heliophysics budget request of $577.3 million will support 
missions to understand the Sun and its effects on Earth, the solar 
system, and the space environmental conditions that explorers will 
experience, and to demonstrate technologies that can improve future 
operational systems. The request increases budgets for Sounding 
Rockets, Research Range, and Research and Analysis to achieve a more 
robust level of small payload opportunities. In addition to supporting 
16 currently operational missions, the request supports the 
Interstellar Boundary Explorer (IBEX) mission focused on the detection 
of the very edge of our solar system and the Coupled ion-Neural 
Dynamics Investigation (CINDI) ``Mission of Opportunity'' that will 
provide new insight on the Earth's ionospheric structure, both of which 
are planned for launch in 2008. In early fiscal year 2009, the Solar 
Dynamics Observatory (SDO) to study the Sun's magnetic field is planned 
for launch, and the Geospace Radiation Belt Storm Probes (RBSP) mission 
will begin development. RBSP will improve our understanding of how the 
Earth's radiation belts are formed and how solar output modifies the 
Earth's Van Allen radiation belts. Further, the 5-year budget funds a 
new Solar Probe mission, which has long been sought by the U.S. 
scientific community and is recommended highly in the most recent 
Heliophysics decadal survey.
    The Planetary Science budget provides $1.33 billion to advance 
scientific knowledge of the solar system, search for evidence of life, 
and to prepare for human exploration. The budget supports an array of 
eight currently operating spacecraft and rovers traveling to or now 
studying Mercury, Mars, the Asteroid Belt, Saturn, and Pluto, in 
addition to a series of instrument missions of opportunity. The budget 
request augments Lunar Science to include a series of small robotic 
lunar satellites to begin development in fiscal year 2009 and initiates 
an outer planets flagship mission, planned for launch in 2016 or 2017. 
The request includes continuation of funds for all five of NASA's 
operating Mars missions, the development of a Mars Science Laboratory 
for launch in 2009, a Mars Scout mission in 2013, expanding U.S. 
participation on the ESA/ExoMars mission by selecting two instrument 
Missions of Opportunity for study and technology development, a Mars 
mission in 2016. and an increase in Mars research funds. The Mars 
Program has been directed, consistent with National Research Council 
advice, to begin exploring concepts for a Mars Sample Return mission, 
to launch no earlier than 2020. With the New Horizons spacecraft 
continuing on its way to Pluto, the request realigns the New Frontiers 
Program's Juno Mission to Jupiter to be consistent with a 2011 launch 
date, and funds initiation of the next New Frontiers mission. An open 
competitive solicitation for the next mission is planned for release 
near the end of this calendar year. The request continues support for 
the operating Discovery mission and for the development of the new 
Gravity Recovery and Interior Laboratory (GRAIL) Discovery mission, the 
latter of which will use high-quality gravity field mapping of the Moon 
to determine the moon's interior structure.
    The Astrophysics budget provides $1.16 billion to search for 
answers to fundamental questions about how the universe works, how we 
got here, and whether we are alone. The request supports a restart of 
the Nuclear Spectroscopic Telescope Array (NuSTAR) Small Explorer with 
a launch date of no-earlier-than 2011, increases funding for sounding 
rocket payloads, balloon payloads, detector technology and theory, and 
initiates the Joint Dark Energy Mission (JDEM) in fiscal year 2009. The 
Astrophysics suite of operating missions includes three Great 
Observatories (Hubble Space Telescope, Chandra X-Ray Observatory and 
the Spitzer Space Telescope), which have helped astronomers unravel the 
mysteries of the cosmos. The request will support the Gamma-ray Large 
Area Space Telescope (GLAST), which is now planned for launch in May, 
2008, to begin a 5-year mission mapping the gamma-ray sky and 
investigating gamma-ray bursts. It also provides funding for the Kepler 
telescope, which is planned for launch in February 2009 to detect 
planets in the ``habitable zone'' around other stars. SOFIA will begin 
science operations in 2009, significantly earlier than previously 
planned. The request supports development of the Wide-field Infrared 
Survey Explorer (WISE), which will conduct an all-sky survey, and the 
James Webb Space Telescope, which will explore the mysterious epoch 
when the first luminous objects in the universe came into being after 
the Big Bang.

                AERONAUTICS RESEARCH MISSION DIRECTORATE

    In 2007, the Aeronautics Research Mission Directorate (ARMD) 
continued to pursue high-quality, innovative, and cutting-edge research 
that develops revolutionary tools, concepts, and technologies to enable 
a safer, more flexible, environmentally friendly, and more efficient 
national air transportation system. ARMD's research also plays a vital 
role in supporting NASA's space exploration activities. ARMD's program 
content and direction is consistent with the National Aeronautics 
Research and Development Policy, as well as the follow-on National Plan 
for Aeronautics Research and Development and Related Infrastructure 
that the President approved on December 21, 2007.
    A primary goal across all of the programs in ARMD is to establish 
strong partnerships with industry, academia, and other Government 
agencies in order to enable significant advancement in our Nation's 
aeronautical expertise. NASA has put many mechanisms in place to engage 
academia and industry, including industry working groups and technical 
interchange meetings at the program and project level, Space Act 
Agreements for cooperative partnerships, and the NASA Research 
Announcement (NRA) process that provides for full and open competition 
for the best and most promising research ideas. ARMD has established 
over 35 Space Act Agreements with industry partners and more are in the 
works. We have ensured that all Space Act Agreements are negotiated so 
that results of collaborations will be broadly disseminated. To date, 
NASA has selected 346 proposals for negotiation of award through the 
NRA process from more than 70 different universities and 60 different 
companies and non-profits. NASA investment in NRAs will increase 
steadily from fiscal year 2009 ($72 million) through fiscal year 2013 
($100 million).
    We have also strengthened our partnerships with other Government 
agencies. For example, NASA and the Joint Planning and Development 
Office (JPDO) have established quarterly reviews to ensure close 
coordination, and NASA participates in all major JPDO planning 
activities. In addition, NASA and the Federal Aviation Administration 
have developed a joint program plan for the Aviation Safety Information 
Analysis and Sharing (ASIAS) effort with well defined roles and 
responsibilities. Also, NASA and the United States Air Force have 
established an Executive Research Council that meets at least twice a 
year to ensure close coordination and collaboration. Lastly, NASA and 
the Army have signed a Memorandum of Understanding to coordinate 
research efforts on rotorcraft.
    In fiscal year 2009, the President's budget for NASA requests 
$446.5 million for Aeronautics Research. ARMD is directly addressing 
the fundamental research challenges that must be overcome in order to 
enable the JPDO vision for the Next Generation Air Transportation 
System (NextGen).
    NASA's Airspace Systems Program has partnered with the JPDO to help 
develop concepts, capabilities and technologies that will lead to 
significant enhancements in the capacity, efficiency and flexibility of 
the National Airspace System. In fiscal year 2009, NASA's budget 
request will provide $74.6 million for the Airspace Systems Program to 
conduct trajectory analyses for service-provider-based automated 
separation assurance with time-based metering in an environment with 
two to three times capacity and with delay and separation comparable to 
or better than that achieved today. In addition, the Airspace Systems 
Program will develop algorithms to generate robust, optimized solutions 
for airport surface traffic planning and control. These surface models 
will be developed as a basis for the optimized use of super-density 
airports, integrated airport clusters, and terminals where demand for 
runways is high.
    NASA's Fundamental Aeronautics Program conducts research in all 
aeronautics disciplines that enable the design of vehicles that fly 
through any atmosphere at any speed. The fiscal year 2009 budget 
request, amounting to $235.4 million, will enable significant advances 
in the Hypersonics, Supersonics, Subsonic Fixed Wing, and Subsonic 
Rotary Wing projects that make up the Fundamental Aeronautics Program. 
These projects focus on creating innovative solutions for the technical 
challenges of the future: increasing performance (range, speed, 
payload, fuel efficiency) while meeting stringent noise and emissions 
constraints; alleviating environmental and congestion problems through 
the use of new aircraft and rotorcraft concepts; and facilitating 
access to space and re-entry into planetary atmospheres. A wide variety 
of cross-cutting research topics are being pursued across the speed 
regimes with emphasis on physics-based multi-disciplinary analysis and 
design, aerothermodynamics, materials and structures, propulsion, aero-
servo-elasticity, thermal protection systems, advanced control methods, 
and computational and experimental techniques.
    The fiscal year 2009 budget request for NASA's Aviation Safety 
Program is $62.6 million. The four projects within the Program 
(Integrated Intelligent Flight Deck, Integrated Resilient Aircraft 
Control, Aircraft Aging and Durability, and Integrated Vehicle Health 
Management) will develop cutting-edge tools, methods, and technologies 
with close coordination among them to improve the intrinsic safety 
attributes of current and future aircraft that will operate in the 
NextGen. In fiscal year 2009, the Program will demonstrate aircraft 
engine safety and reliability improvements using advanced sensing 
technologies and new methods for modeling engine gas flow 
characteristics. In addition, ballistic tests will be used to study the 
effect of aging on the impact resiliency of composite fan-blade 
containment structures for aircraft engines. Multiple flight and 
simulation tests will evaluate technologies to protect aircraft during 
hazardous situations. For example, simulations will evaluate 
technologies enabling aircraft to land safely even when flight control 
surfaces are partially damaged or malfunctioning, and flight tests will 
examine forward-looking, multi-frequency radar systems for early 
detection of potential hazardous icing.
    Finally, NASA's Aeronautics Test Program (ATP) will continue to 
safeguard the strategic availability of a critical suite of aeronautics 
test facilities that are deemed necessary to meet Agency and national 
aeronautics needs. The fiscal year 2009 budget request for the ATP is 
$73.9 million, which will enable strategic utilization, operations, 
maintenance, and investment decisions for major wind tunnel/ground test 
facilities at Ames Research Center in California, Glenn Research Center 
in Ohio, and Langley Research Center in Virginia, and will support 
specific aircraft and test bed aircraft at Dryden Flight Research 
Center, also in California. ARMD has established the National 
Partnership for Aeronautical Testing with the Department of Defense to 
pursue a coordinated approach to managing DOD-NASA aeronautical testing 
facilities. In fiscal year 2009, ATP will continue to reduce the 
deferred maintenance associated with its facilities and will also 
invest in new test technologies ensuring a healthy set of facilities 
and the new capabilities needed for future programs. In addition, ATP 
plans to continue off-setting the user rates for its facilities through 
the funding of a portion of the indirect costs resulting in competitive 
prices. Simultaneously, the Program will continue to move toward a 
long-term strategic approach that aligns the NASA and DOD facilities to 
meet future requirements with the right mix of facilities and 
appropriate investments in facility capability.

                EXPLORATION SYSTEMS MISSION DIRECTORATE

    In 2007, the Exploration Systems Mission Directorate (ESMD) 
delivered as promised and will continue to do so in 2008. Major 
development work is underway; contracts are in place, and our future 
Exploration plan is executable. By the end of 2008, ESMD will see its 
first spacecraft launched from the NASA Kennedy Space Center. This 
Lunar Reconnaissance Orbiter (LRO) and the Lunar Crater Observation 
Sensing Satellite (LCROSS) will help NASA scout for potential lunar 
landing and outpost sites. Additionally, in 2008, NASA will continue to 
plan how best to transition any needed Shuttle workforce and 
infrastructure to the Constellation program.
    The fiscal year 2009 budget request of $3.5 billion for Exploration 
will support continued development of new U.S. human spaceflight 
capabilities and supporting research and technologies, and will enable 
sustained and affordable human space exploration after the Space 
Shuttle is retired at the end of fiscal year 2010. The budget request 
provides stable funding to allow NASA to continue developing our next-
generation U.S. human spaceflight vehicles while also providing 
research and developing technologies for the longer-term development of 
a sustained human presence on the Moon. Budget stability in fiscal year 
2009 is crucial to maintaining a March 2015 Initial Operational 
Capability for the Orion Crew Exploration Vehicle and Ares I Crew 
Launch Vehicle. There is minimum flexibility through 2010, so 
Congressional support for budget stability is critical. Additionally, 
NASA will continue to work with other nations and the commercial sector 
to coordinate planning, leverage investment, and identify opportunities 
for specific collaboration on lunar data collection and lunar surface 
activities in support of Exploration objectives.
    The fiscal year 2009 budget request for Constellation Systems 
Program is approximately $3 billion. The Constellation program includes 
funding for the Orion and Ares, as well as for ground operations, 
mission operations, and extravehicular activity projects and a 
dedicated in-house effort for systems engineering and integration. Last 
year, the Constellation program made great strides and it will continue 
to do so in 2008. We have tested real hardware; we have tested landing 
systems; and we have logged thousands of hours in wind tunnels. So far, 
NASA engineers have conducted almost 4,000 hours of wind tunnel testing 
on subscale models of the Ares I to simulate how the current vehicle 
design performs in flight. These wind tunnel tests, as well as NASA's 
first scheduled demonstration test flight for Ares I, known as Ares I-
X, are scheduled for spring 2009 and will lay the ground work for 
maturing the Ares I final design.
    Constellation has an integrated schedule and we are meeting our 
early milestones. In fact, all major elements of the Orion and Ares 
vehicles were placed under contract by the end of 2007. Currently, NASA 
has civil servants and contractors on board for the Constellation 
program serving at all ten Agency Centers, as well as in more than 20 
States. In 2008, NASA will continue efforts to define the specific work 
the Agency's Centers will perform in order to enable astronauts to 
explore the Moon. Preliminary work assignments covering elements of the 
Altair human lunar lander and lunar surface operations, as well as the 
Ares V, were announced in October 2007.
    During 2007, ESMD completed a series of key project review 
milestones, including a System Definition Review for the Orion project 
in August and for the Ares I project in October. During these reviews, 
each project examined how its proposed requirements impact engineering 
decisions for the functional elements of the system. The Orion and Ares 
I teams are currently assessing design concepts, and are moving toward 
finalized reference designs that meets their requirements. This 
reference configuration will be the starting point for the design 
analysis cycle that leads to Preliminary Design Reviews for the Orion 
and Ares I projects, in turn leading to an integrated stack review by 
the end of December 2008. A Preliminary Design Review is a crucial 
milestone, during which the overall program verifies that the 
preliminary design meets all requirements within acceptable risk limits 
and within the cost and schedule constraints.
    In fiscal year 2009, NASA is requesting $173 million for the 
Commercial Crew and Cargo Program and its associated projects. Full 
funding is essential to maintaining NASA's promised $500 million 
investment in this program to spur the development of U.S. commercial 
space transportation services to and from the Space Station, while also 
providing substantial savings to the taxpayer compared to NASA 
Government-owned and operated capabilities. On February 19, 2008, NASA 
announced that the Agency had signed a Space Act Agreement with a new 
funded partner, Orbital Sciences Corporation of Dulles, Virginia. 
Technical progress continues to be made by our other funded partner, 
SpaceX, of El Segundo, California, as well by as several of our 
unfunded partners.
    The Agency's fiscal year 2009 budget request provides $453 million 
for activities in ESMD's Advanced Capabilities theme, which seeks ways 
to reduce the risks for human explorers of the Moon and beyond by 
conducting research and developing and maturing new technologies. In 
2008, NASA's Human Research Program will focus on the highest risks to 
crew health and performance during exploration missions. We also will 
develop and validate technologies that serve to reduce medical risks 
associated with human spaceflight. For example, NASA will continue its 
work to understand the effect of space radiation on humans and to 
develop effective mitigation strategies. During 2008, NASA also will 
continue to research ways to reduce the risks to future explorers. 
Research onboard Space Station will include human experiments, as well 
as biological and microgravity experiments. In 2009, the Advanced 
Capabilities Exploration Technology Development program will conduct a 
range of activities, including testing prototype ablative heat shield 
materials; throttleable Lox Hydrogen engines suitable for a human lunar 
lander; and lightweight life support systems for Orion. The program 
also will deploy and test advanced environmental monitoring systems on 
the Space Station to advance the safety of crewmembers, and will 
continue to test in-situ resource utilization technologies as well as 
life support and cryogenic fluid management.
    In response to Congressional direction contained in the Explanatory 
Statement accompanying the Consolidated Appropriations Act, 2008 
(Public Law 110-161), ESMD will fund in 2008 a robotic lander project 
managed by NASA's Marshall Space Flight Center as a pathfinder for an 
anticipated network of small science landers based on requirements for 
NASA's expanded lunar science program. The first lander mission is 
planned to fly in 2013-2014. NASA's Exploration Systems and Science 
Mission Directorates will continue to work together combining resources 
to ensure that the goals of the science lander are achieved.
    NASA's LRO and the LCROSS have a planned launch later this year 
from Kennedy Space Center. These dual-manifested spacecraft are in the 
assembly, integration, and test phase and are making excellent progress 
toward launch. The knowledge generated by these missions will enable 
future outpost site selection and new information about resources 
within the permanently shadowed craters at the lunar poles. The LRO/
LCROSS missions represent NASA's first steps in returning to the Moon.
    Lastly, facility, infrastructure, property, and personnel 
transitions from Space Shuttle to Constellation continue to be a major 
activity. NASA transition activities are focused on managing the 
evolution from current operations of the Space Shuttle to future 
operations of Constellation and emerging commercial services, in a 
safe, successful and smooth process. To date, NASA has met all of its 
milestones and disposition targets. This joint effort between the Space 
Operations Mission Directorate and ESMD includes the utilization and 
disposition of resources, including real and personal property, 
personnel, and processes, to leverage existing Shuttle and Space 
Station assets for NASA's future Exploration activities. Formalized 
Transition Boards are working to successfully achieve this outcome. An 
initial Human Spaceflight Transition Plan was developed in 2006. An 
updated NASA Transition Plan, supported by key metrics, is being 
refined and will be released this year.

                  SPACE OPERATIONS MISSION DIRECTORATE

    The Space Shuttle and Space Station programs both enjoyed a highly 
successful and productive year in 2007. The Space Shuttle flew three 
missions during the year, continuing the assembly of the Station and 
expanding its capabilities. The June 2007 flight of Atlantis on STS-117 
added a truss segment and new solar arrays to the starboard side of the 
Station to provide increased power. In August, Endeavour brought up 
another truss segment, supplies, and became the first Orbiter to use a 
new power transfer system that enables the Space Shuttle to draw power 
from the Station's solar arrays, extending the duration of the 
Shuttle's visits to Space Station. On the same mission, STS-118, 
teacher-turned-astronaut Barbara Morgan conducted a number of 
education-related activities aboard the Space Station, inspiring 
students back on Earth and realizing the dream of the Teacher In Space 
Project for which she and Christa McAuliffe trained more than two 
decades ago. In October 2007, Discovery flew the STS-120 mission, which 
added the Harmony node to the Station and featured a spacewalk to 
disentangle a snagged solar array.
    The STS-120 mission paved the way for Station astronauts to conduct 
a series of ambitious spacewalks and operations using the Station's 
robotic arm to move the Pressurized Mating Adapter-2 and Harmony node 
in preparation for the addition of the European Columbus laboratory and 
the Japanese Kibo laboratory in 2008. These spacewalks are particularly 
challenging and impressive, as they are carried out entirely by the 
three-person Expedition crews, without benefit of having a Shuttle 
Orbiter, with its additional personnel and resources, docked to the 
Station.
    NASA continues to expand the scientific potential of the Space 
Station in 2008, a year in which we are delivering and activating key 
research assets from two of our International Partners. In February, 
Shuttle Atlantis delivered the European Columbus laboratory during STS-
122; the recently completed STS-123 mission featured the delivery by 
Shuttle Endeavour of the experiment logistics module portion of the 
Japanese Kibo laboratory, along with the Canadian Special Purpose 
Dextrous Manipulator, or Dextre. Dextre, the final component of the 
remote manipulator system provided by Canada, will act as the ``hand'' 
on the robotic arm, allowing astronauts to conduct operations and 
maintenance activities from inside the Space Station, rather than via 
spacewalks. In May, STS-124 will deliver the pressurized module 
component of the Kibo lab, and in late summer, the crew of STS-125 will 
become the final Shuttle crew deployed to a non-Station orbit, as they 
conduct the last Hubble Space Telescope servicing mission from the 
Space Shuttle. This mission will outfit the telescope with the Cosmic 
Origins Spectrograph and the Wide-Field Camera 3, as well as replace 
components to extend Hubble's operational life.
    The Space Shuttle fiscal year 2009 budget request of approximately 
$3 billion would provide for five Shuttle flights to support assembly 
of the Space Station. This would include the flight of the Japanese 
Kibo laboratory's Exposed Facility, and the delivery of the final 
Station Truss segment.
    The fiscal year 2009 budget request includes about $2.1 billion for 
ISS International Space Station activities, reflecting the presence of 
a permanent six-person crew and three major research facilities aboard 
Station.
    After the Space Shuttle retires at the end of fiscal year 2010, 
NASA will use alternative means to transport cargo and crew to the 
Space Station. The Agency's first choice for such services is domestic, 
commercial capability, the development of which is the focus of the 
Commercial Orbital Transportation Services (COTS) effort. ESMD is 
funding the first phase of COTS under the Commercial Crew and Cargo 
Program, which will demonstrate this capability via funded and unfunded 
Space Act Agreements. SOMD will manage the second phase of the effort, 
covering actual cargo--and potentially crew--delivery services to the 
Space Station. Until such time that operational commercial means are 
available for resupplying the Station, NASA will look to its 
international partners to provide cargo resupply capability, much of 
which will be provided as part of the partners' contributions to the 
International Space Station Program. NASA has contracted with Roscosmos 
to provide Soyuz and limited cargo services through the end of fiscal 
year 2011, as permitted under the Iran, North Korea and Syria Non-
proliferation Act of 2005 (Public Law 109-112). NASA is monitoring the 
progress of potential domestic commercial providers to develop cargo 
and crew transportation services to the Space Station, and the Orion 
project is on track to reach its Initial Operational Capability in 
March 2015. The Administration is considering options to maintain a 
U.S. crew presence aboard the Space Station after the retirement of the 
Shuttle and before the advent of Orion. Purchasing crew transportation 
services domestically is NASA's preferred method to meet the needs of 
the Space Station. Another option may be to seek relief from the 
provisions of the Iran, North Korea, and Syria Non-Proliferation Act of 
2005 for additional Soyuz services to keep a U.S. crew presence on the 
Space Station until either domestic commercial crew transportation 
services, or Orion, become available. We will keep the Congress fully 
informed of our plans.
    NASA remains focused on, and committed to, flying out the remaining 
Space Shuttle missions safely and completing the assembly of the Space 
Station. Beyond those aims, one of the challenges NASA faces as we 
approach the end of the Shuttle era is the smooth disposition of 
personnel and infrastructure. SOMD and ESMD have been working hand-in-
hand to ensure that needed skills and facilities are retained and put 
to productive use during the development and operational phases of the 
Orion, Ares I, and Ares V projects. In fiscal year 2009, the Agency's 
transition milestones will include the transfer of Pad 39B and Mobile 
Launch Platform #1 to Constellation, after the Hubble Servicing 
Mission. In addition, the Space Shuttle Program is reviewing whether 
the Space Shuttle Atlantis will be retired in fiscal year 2008 or used 
to conduct existing missions within the planned manifest.
    The Space Flight Support Program's fiscal year 2009 budget request 
of $733 million would help mitigate out-year costs associated with the 
Delta II launch pads. The request also reflects the consolidation of 
the Agency's space communications projects into the Space 
Communications and Navigation Program. Finally, it includes funding for 
the development of two satellites to replenish the Tracking and Data 
Relay Satellite System, planned for launch in 2012 and 2013.

                               EDUCATION

    The fiscal year 2009 budget request for Education totals $115.6 
million and furthers NASA's commitment to Science, Technology, 
Engineering, and Mathematics (STEM) education. NASA's primary 
objectives for Education are to: (1) contribute to the development of 
the Nation's STEM workforce through a portfolio of initiatives for 
students at all levels; (2) attract and retain students in STEM 
disciplines while encouraging them to pursue higher education that is 
critical to NASA's workforce needs; and (3) engage Americans in NASA's 
mission through strategic partnerships with STEM education providers.
    NASA is committed to ensuring that its future workforce is fully 
prepared to handle a variety of challenging scientific and technical 
careers. NASA's Office of Education encourages student interest in STEM 
through the Agency's missions, workforce, facilities, and innovations 
in research and technology. The fiscal year 2009 budget request 
reflects a balanced portfolio of investments which takes into account 
Congressional priorities, the NASA Strategic Plan, and recommendations 
from the National Research Council, as well as the priorities of the 
education community. NASA Education is the critical link between the 
Agency's scientists and engineers and the education community. NASA 
Education translates the Agency's missions into educational materials, 
services, and opportunities for students and learners of all ages. NASA 
strives to support the role of educational institutions, which provide 
the framework to unite students, their families, and educators for 
educational improvement.
    In 2008, NASA's Office of Education will continue to collaborate 
with Agency Mission Directorates and field Centers to assist educators 
in promoting scientific and technical literacy while attracting and 
retaining students in STEM disciplines and careers. NASA Education will 
also continue its work with other Federal agencies engaged in 
educational activities, along with public and private partners to 
leverage the effectiveness and reach of its efforts.

                          CROSS-AGENCY SUPPORT

    The fiscal year 2009 budget request for activities within Cross-
Agency Support includes funding for developing and maintaining NASA's 
technical capability including the Agency's vital mission support 
functions. Cross Agency Support provides a focus for managing technical 
capability and Agency mission support functions. This budget area 
consists of three themes: Center Management and Operations; Agency 
Management and Operations; and, Institutional Investments. Cross Agency 
Support is not directly identified or aligned to a specific program or 
project requirement but is necessary to ensure the efficient and 
effective operation and administration of NASA.
    The most significant change is in the area of Agency Management and 
Operations. Agency Management and Operations provides for the 
management and oversight of Agency missions and functions and for the 
performance of many Agency-wide activities. Agency Management and 
Operations is divided into five programs: Agency Management; Safety and 
Mission Success; Agency Information Technology services; Innovative 
Partnerships Program; and, Strategic Capabilities Assets Program.
  --The fiscal year 2009 budget request provides $414.6 million for 
        Agency Management which sponsors and supports an executive-
        based, Agency-level functional and administrative management 
        agenda. Agency Management delivers policies, controls, and 
        oversight across a range of functional and administrative 
        management service areas and also provides for independent 
        technical assessments of Agency programs. It delivers strategic 
        planning services. It assesses and evaluates NASA program and 
        mission performance. It sponsors and directs the Institutions 
        and Management agenda in procurement, human capital, real 
        property and infrastructure, security and program protection, 
        diversity, equal opportunity, and small business. Agency 
        Management also provides for the operational costs of 
        Headquarters as an installation, including salaries, benefits, 
        training and travel requirements of the Headquarters workforce, 
        as well as the resources necessary to operate the Headquarters 
        installation.
  --The fiscal year 2009 budget request provides $163.4 million for the 
        Agency's Safety and Mission Success support activities required 
        to strengthen and enable the fundamental and robust cross 
        checks applied on the execution of NASA's mission. The 
        engineering; safety and mission assurance; and health and 
        medical independent oversight and technical authority which are 
        essential to NASA's success and were established in direct 
        response to the Challenger and Columbia shuttle accident board 
        recommendations for independent funding of these efforts. The 
        Safety and Mission Success program directly supports NASA's 
        core values and serves to improve the likelihood for safety and 
        mission success for NASA's programs, projects, and operations. 
        The Safety and Mission Success program includes the corporate 
        work managed by the offices of the Chief, Safety and Mission 
        Assurance (including the NASA Safety Center), Chief Engineer 
        (including the NASA Engineering and Safety Center), the Chief 
        Health and Medical Officer, and the Director of the Independent 
        Verification and Validation Facility.
  --The fiscal year 2009 budget request for Agency Information 
        Technology services is $163.9 million which encompasses cross-
        cutting services and initiatives in IT management, 
        applications, and infrastructure necessary to enable the NASA 
        Mission and improve security, integration and efficiency of 
        Agency operations. In fiscal year 2009 significant emphasis 
        will be placed on consolidation of networks and network 
        management, improved security incident detection, response and 
        management, further consolidation of desktop/laptop computer 
        services, data center assessment for consolidation, and 
        application portfolio management leading to consolidation. NASA 
        is using an enterprise architecture approach to assess current 
        assets, capabilities and costs for services and developing 
        requirements, projects and procurements for transition to the 
        desired consolidated state. Additionally, the underlying 
        infrastructure and systems to instill strong authentication and 
        access to information systems in alignment with HSPD-12 will 
        progress significantly in fiscal year 2009. Critical work will 
        continue under the Integrated Enterprise Management Program to 
        improve business processes by minimizing data redundancy, 
        standardizing information and electronic data exchanges, and 
        processing. Also, NASA will continue participation in several 
        Federal E-Government initiatives and Lines of Business to 
        improve services to citizens and gain efficiencies across the 
        Government.
  --The fiscal year 2009 budget request for Innovative Partnerships 
        Program activities is $175.7 million. This program provides 
        leveraged technology investments, dual-use technology-related 
        partnerships, and technology solutions for NASA. This program 
        also facilitates the protection of NASA's rights in its 
        inventions and the transfer of that technology for commercial 
        application and public benefit. In addition, the Innovative 
        Partnerships Program implements NASA's Small Business 
        Innovation Research and Small Business Technology Transfer 
        Programs which seek out high-technology small businesses to 
        address key technology needs for NASA. The program also manages 
        a Seed Fund to address technology needs through cost-shared, 
        joint-development partnerships. The Centennial Challenges 
        Program, which is also managed by the Innovative Partnerships 
        Program, consists of prize contests to stimulate innovation and 
        competition in new technologies for solar system exploration 
        and other NASA mission areas. NASA has already benefited from 
        Centennial Challenge competitions, and last year awarded 
        $450,000 in prize money for the Astronaut Glove Challenge and 
        Personal Air Vehicle Challenge. The Innovative Partnerships 
        Program also transfers NASA technology for public benefit, as 
        documented in NASA's annual ``Spinoff'' publication. ``Spinoff 
        2007'' documented 39 new examples of how NASA innovation has 
        been successfully transferred to the commercial market place 
        and applied to areas such as health and medicine, 
        transportation, public safety, consumer goods, homes and 
        recreation, environmental and agricultural resources, computer 
        technology, and industrial productivity.
  --Finally, NASA is requesting $28 million in fiscal year 2009 for the 
        Strategic Capabilities Assets Program, a focused activity 
        designed to ensure that critical Agency capabilities and assets 
        for flight simulation, thermal vacuum testing, arc jet testing, 
        and microgravity flight services are available to NASA missions 
        when needed. Strategic Capabilities Assets Program assets are 
        also used by other Government agencies, industry, and academia 
        to improve the Nation's position in the global market place as 
        well as its defense capabilities. The Strategic Capabilities 
        Assets Program budget request covers the direct and associated 
        costs required to sustain key test capabilities and assets 
        including operating staff, preventive maintenance, subsystem 
        repairs, and component replacements required to keep the assets 
        in ``ready for testing'' condition. Incremental costs to 
        conduct specific tests are borne by individual programs and 
        reimbursable customers. The Aeronautics Research Mission 
        Directorate budget request includes $73.9 million for the 
        Aeronautics Test Program (e.g. wind tunnels and flight testing) 
        and the Science Mission Directorate budget request includes 
        $41.9 million for High-End Computing Capability (e.g. the 
        Columbia super computer), which are also managed as Strategic 
        Capabilities Assets. Centralized management at the Agency-level 
        allows NASA to better prioritize and make strategic investment 
        decisions to replace, modify, or disposition these capabilities 
        and assets.

                               CONCLUSION

    NASA has a lot of hard work ahead, but the Agency continues to make 
steady progress in managing its challenges. We are deploying our 
workforce to carry out the great task before us. Last fall, the Agency 
assigned new leadership roles and responsibilities for exploration and 
science missions to NASA's ten field Centers across the country in 
order to help restore the core technical capabilities across the Agency 
as we transition from the Space Shuttle to new capabilities. I ask your 
continued help to ensure that this Nation maintains a human spaceflight 
capability.
    In a short span of years, we have already taken long strides in the 
formulation of strategies and programs that will take us back to the 
Moon and on to Mars and other destinations in our solar system. Indeed, 
a generation from now, astronauts on Mars will be flying and living 
aboard hardware America is funding and designing today, and will be 
building in the near future. This is a heady legacy to which we can 
aspire as we develop the next U.S. human space exploration vehicles. 
The foundation of this legacy will include work we plan to carry out in 
fiscal year 2009.
    As I said earlier in my testimony, NASA is committed to executing 
the exciting programs and projects within the President's fiscal year 
2009 budget request. Having reached a steady state on a balanced set of 
priorities, we now have a sense of purpose to make steady progress 
toward achieving our goals for continued leadership in space 
exploration, scientific discovery, and aeronautics research.
    Chairman Mikulski, with your support and that of this Subcommittee, 
we are making the right strategic choices for our Nation's space 
program. Again, thank you for the opportunity to appear before you 
today. I would be pleased to respond to any questions that you may 
have.

                  PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST SUMMARY BY APPROPRIATION ACCOUNT
                                   [Budget Authority, in millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal year--
                 By theme                 ----------------------------------------------------------------------
                                             2007       2008      2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Science..................................   4,609.9   4,106.2    4,441.5   4,482.0   4,534.9   4,643.4   4,761.6
    Earth Science........................   1,198.5   1,280.3    1,367.5   1,350.7   1,250.9   1,264.4   1,290.3
    Planetary Science....................   1,215.6   1,247.5    1,334.2   1,410.1   1,537.5   1,570.0   1,608.7
    Astrophysics.........................   1,365.0   1,337.5    1,162.5   1,122.4   1,057.1   1,067.7   1,116.0
    Heliophysics.........................     830.8     840.9   \1\ 577.     598.9     689.4     741.2     746.6
                                                                       3
                                          ======================================================================
Aeronautics..............................     593.8     511.7      446.8     441.8     482.4     486.1     467.7
                                          ======================================================================
Exploration..............................   2,869.8   3,143.1    3,500.8   3,737.7   7,048.2   7,116.8   7,666.8
    Constellation Systems................   2,114.7   2,471.9    3,048.2   3,252.8   6,479.5   6,521.4   7,080.5
    Advanced Capabilities................     755.1     671.1      452.3     484.9     568.7     595.5     586.3
                                          ======================================================================
Space Operations.........................   5,113.8   5,526.2    5,774.7   8,872.8   2,900.1   3,089.9   2,788.8
    Space Shuttle........................   3,315.3   3,266.7    2,981.7   2,983.7      95.7  ........  ........
    International Space Station..........   1,469.0   1,813.2    2,060.2   2,277.0   2,176.4   2,448.2   2,143.1
    Space and Flight Support.............     329.2     446.3   \2\ 732.     612.1     628.0     641.7     645.4
                                                                       8
                                          ======================================================================
Education................................     115.9     146.8      118.6     126.1     123.8     123.8     123.8
                                          ======================================================================
Cross-Agency Support.....................   2,949.9   3,242.9    3,299.9   3,323.9   3,363.7   3,436.1   3,511.3
    Center Management and Opera-  tions..   1,754.9   2,013.0    2,045.6   2,046.7   2,088.0   2,155.3   2,211.6
    Agency Management and Opera-  tions..     971.2     830.2      945.6     945.5     939.8     950.5     961.3
    Institutional Investments............     223.8     319.7      308.7     331.7     335.9     330.4     338.3
    Congressionally Directed Items.......  ........      80.0   ........  ........  ........  ........  ........
                                          ======================================================================
Inspector General........................      32.2      32.6       35.5      36.4  ........      38.3      39.2
      Fiscal Year 2008 Rescission  \2\...  ........    (192.5)  ........  ........  ........  ........  ........
                                          ======================================================================
      NASA Fiscal Year 2009..............  16,285.0  17,309.4   17,614.2  18,026.3  18,460.4  18,905.0  19,358.8
----------------------------------------------------------------------------------------------------------------
\1\ Deep Space and Near Earth Networks Transfer $256 million to SFS in fiscal year 2009.
\2\ Fiscal year 2008 Appropriation rescinded $192.475 million in prior-year unobligated balances, effectively
  reducing fiscal year 2008 authority. Not included in totals.

Fiscal year 2008 budgets are the enacted levels per the fiscal year 2008 Appropriation as shown in the Agency's
  fiscal year 2009 Budget Estimates. Totals may not add due to rounding.
2008 budgets include all direct costs required to execute the programs. Indirect costs are now budgeted within
  Cross-Agency Support.

                      SPACE TRANSPORTATION SYSTEM

    Senator Mikulski. First of all, I know this was your oral 
testimony, which was more of a rhetorical document than a 
budget statement. So, we will put into the record your full 
testimony to the subcommittee, which I think went into very 
specific detail. We have the written testimony, which I know 
was vetted by OMB and powers that be, and it outlines the 
budget aspects that we want.
    We too agree with your statement that says we must not make 
promises we cannot keep and carefully consider any new missions 
to ensure that they are affordable. Dr. Griffin--this is not 
directed at you, but really your predecessor and the White 
House--I agree with that. So, when they embarked upon the Mars 
mission, for which the Congress was not critical, they never 
gave us any money. So, we are very frustrated that we were 
given an assignment without the money and falling upon us to 
come up with the money.
    So, I would agree with the premise let us not make promises 
we cannot keep and consider the affordability of any new 
missions. Well, we were given a new mission. A promise was made 
just like the promise was made on the Space Station. We got all 
those international partners involved, and now we wonder how in 
the hell are we going to get there. So we are cranky. We are 
not cranky with you, but we are cranky because we keep feeling 
like we are being set up and then it comes to us.
    So we note your question about leadership, but we are not 
in here to finger-point today. We are into pinpointing our path 
forward. But I want to set the record straight, that a promise 
was made to go to Mars, but no money was given to us. The 
Gehman Commission outlined--and it cost NASA $2-plus-billion to 
return to space and return to space in a way that was safe for 
our astronauts, which always needs to be a national obsession. 
And no money back for the replacement costs paralleling the 
Challenger. So those for us are the big issues.
    We went to the Space Station at the request of President 
Bush I and we have sustained that. And we have had difficulty 
paying for it since in two administrations. Now, this one gave 
us a Mars mission without the wallet.
    So we appreciate your observation. We presume it is not a 
lecture. And number three, we are cranky because we keep 
getting missions and no wallet, and I know you must feel the 
same way.
    That takes us, though, to really the heart of what you are 
saying which is a reliable space transportation system. That 
goes to the transportation system to replace the Shuttle 
because without a reliable transportation device, we cannot do 
any of the things, whether it is the return to the Moon or 
beyond.
    Could you share with us because everyone is deeply 
concerned about the gap? I would like to go through some of the 
questions about the gap. I am going to say two things. One, 
colleagues both here and in the House are saying, well, why do 
we not give them more money and close the gap? So, I am going 
to ask if that is a realistic possibility if money were not the 
problem, just with sound engineering principles.
    And then number two, as you know, there are some members in 
the House who are raising the concept of extending the life of 
the Shuttle until 2015.
    So, let us go with acceleration. What could we, putting 
money aside, because I will come back to show me the money 
because that is what this is--can we accelerate or close that 
gap in a prudent way and not just be throwing money at it? And 
then what you think of the idea of extending the Shuttle until 
2015.
    Dr. Griffin. Yes, of course, Senator Mikulski. Thank you. 
Let me start out by saying just for the record that if anything 
in my oral statement came across as presuming to lecture the 
Congress, that was not my intent. I was calling for the 
leadership that I know that you know we need and have provided, 
but certainly not lecturing the Congress.
    But to answer the specifics of your questions, with regard 
to closing the gap, at this point with 65 percent statistical 
confidence, we are budgeted to deliver Orion and Ares for 
operational capability to the Space Station in March 2015. We 
have been asked by your colleagues in the Senate, as well as 
your colleagues in the House, if that could be improved. We 
have answered for the record, and I will give you the outlines 
of that answer now. At a cost of about $2 billion total over 
the next couple of years, it would be possible to bring March 
2015 back into, let us say, the late fall of 2013. So we could 
improve the schedule by about 15 to 16 months at this point at 
a cost of $2 billion.
    In general, as a rough guide for your planning, every $100 
million extra that is put into the program improves the 
schedule by just about 1 month. So on the record, that is the 
best we have been able to determine.
    Senator Mikulski. It seems like about $1 billion a year.
    Dr. Griffin. Yes, ma'am. That is correct. Now, we cannot, 
for any amount of money, get back earlier than the fall of 
2013.
    Senator Mikulski. So using $1 billion as a rule of thumb 
per year, even if we came up with $5 billion--highly unlikely--
you could not----
    Dr. Griffin. The earliest technically achievable date at 
this point----
    Senator Mikulski. Would be 2013.
    Dr. Griffin [continuing]. Given the water over the dam 
behind us, would be late 2013.
    Senator Mikulski. Okay.

                  EXTENDING THE SPACE SHUTTLE LIFETIME

    Dr. Griffin. Now, in answer to your second question, my 
opinions about extending the lifetime of the Shuttle, my 
opinion is we should not do that. They are founded on several 
different principles. The first is that as I believe we all now 
know and as Admiral Gehman pointed out in the CAIB report, the 
Shuttle is an inherently risky design. We currently assess the 
per-mission risk as about 1 in 75 of having a fatal accident. 
If one were to do as some have suggested and fly the Shuttle 
for an additional 5 years, say, two missions a year, the risk 
would be about 1 in 12 that we would lose another crew. That is 
a high risk. We have elected as a Nation--the administration 
has decided and the Congress has concurred, and I believe that 
concurrence was absolutely correct--that we will complete the 
Space Station. But it is not being done without risk. To fly 
the Shuttle after the Space Station is completed for any 
significant length of time I believe would incur a risk I would 
not choose to accept on behalf of our astronauts.
    Now, flying the Shuttle after the 2010 retirement date has 
other effects. It costs about $3 billion a year. You, ma'am, 
referenced just a few moments ago that our request this year to 
fly the Shuttle was $3 billion. I would rather see, if my 
opinion were being sought, extra money made available, if that 
were the case, to accelerate existing systems. If extra money 
were not made available, and the $3 billion had to come out of 
hide--as you mentioned, the return to flight costs of $2.7 
billion was taken out of hide. If that were done again, every 
$100 million that comes out of the new systems extends their 
schedule for 1 month. On the back end of the program, we lose 
1\1/2\ months. So if you delay Constellation by 1 year today, 
in order to fly the Shuttle for another year, then you delay 
Constellation by 1\1/2\ years on the back end. So you do not 
ever narrow the gap. You extend the gap if you fly the Shuttle 
longer.
    Senator Mikulski. Well, that is an important thing. So, 
trying to keep the Shuttle going beyond the current designated 
time is high risk----
    Dr. Griffin. Yes, ma'am.
    Senator Mikulski [continuing]. High expense.
    Dr. Griffin. Yes, ma'am.
    Senator Mikulski. And the very goal we want to have, which 
is not to have a gap, we once more exacerbate.
    Dr. Griffin. Yes, ma'am.

                            RETURN TO FLIGHT

    Senator Mikulski. I got it.
    Did Admiral Gehman, when he looked at the return to flight 
as part of the review after the accident, look at this 
possibility?
    Dr. Griffin. Well, they did. Around pages 209 and 210 of 
volume I of the CAIB report, they devoted considerable 
discussion to the future of the Shuttle. I happen to have a few 
of those quotes with me. I am given to using them in speeches 
for just these purposes.
    But Admiral Gehman pointed out--and I will quote for the 
record here--``because of the risks inherent in the original 
design of the Space Shuttle''--and I will skip a couple of 
points that do not matter--``it is in the Nation's interest to 
replace the Shuttle as soon as possible as the primary means of 
transporting humans to and from Earth orbit.''
    Admiral Gehman also points out that ``there is urgency in 
choosing the design after serious review of a concept of 
operations for human space flight and bringing it into 
operation as soon as possible. This is likely to require a 
significant commitment of resources over the next several 
years. The Nation must not shy from making that commitment.''
    Senator Mikulski. Well, of course, we will look to the 
wisdom of working with their authorizers and you. But based on 
our conversations, both in preparation for this hearing and 
here, I really could not support the extension of the Shuttle 
to 2015.
    What I want to do is, working on a bipartisan basis, see 
what we can do to prudently, both from an engineering and 
technology perspective and from a fiscal perspective, 
accelerate. Look to see if we cannot find the funds to 
accelerate closing the gap and the framework that I believe 
NASA already is thinking about and could do. So, we would have 
a plan A which would be to close the gap to 2013, which in and 
of itself would be pretty terrific. And plan B would be to stay 
the course, which would be the minimum threshold.
    So from my perspective, again, working with Senator Shelby, 
Senator Nelson, Senator Hutchison, those of us involved, really 
the authorizing and so on, our goal would do that. I cannot 
speak for my colleagues, but speaking for myself, I would not 
envision trying to keep the Shuttle going. I think the risk is 
inherent and the national goals are not that which we want to 
accomplish.

                 RELYING ON RUSSIAN ``SOYUZ'' SERVICES

    That takes me to using the Soyuz. Whatever it is, we are 
currently relying on the Soyuz. So could you tell us where we 
are? Do we not have some treaty issues? I mean, you and I are 
not State Department wonks here, but do we not have kind of 
anti-proliferation compliance? As a member of the Intelligence 
Committee, I cannot be out of compliance with proliferation 
issues. Where are we with that? And what is required and where 
are we? And can the subcommittee help facilitate this?
    Dr. Griffin. Thank you. Yes. They are excellent questions 
there. First, we need Russian Soyuz services today at a minimum 
for crew rescue capability on board the station. The Shuttle is 
not a lifeboat. So until we have a qualified replacement 
system, Orion and Ares, qualified for 6 months of flight and 
therefore can serve the lifeboat function, we will be dependent 
upon the Russian Soyuz system for crew rescue from station.
    Second, after the retirement of the Shuttle in 2010, the 
only mechanism for crew transport will be the Russian Soyuz 
system.
    To your point out treaty obligations, we have the INKSNA, 
the treaty that I mentioned and to which you referred, for 
control of space technology and missile technology 
proliferation, which prevents the purchase of certain goods and 
services from Russia for the Space Station program. We are 
currently operating under an exemption to that treaty. It ends 
on December 31, 2011. So until the end of 2011, we can purchase 
Progress cargo delivery services and Soyuz crew transport 
services. There is about a 3-year lead time for the Russians to 
produce a new Soyuz. So, if in 2012 we wish to have crew 
transportation for ourselves and our partners to whom we have 
treaty obligations, then by around early 2009, hopefully 
sooner, we need to have agreements in place with Russia. To 
accomplish that, I need to furnish to the Congress, within a 
very short period of time, a request from the administration 
for a continued exemption to the treaty.

        IRAN, NORTH KOREA, SYRIA NON-PROLIFERATION ACT (INKSNA)

    Senator Mikulski. Well, yes. Again, going back to my 
opening statement, this is a year of transition. Our new 
President does not take office until January 20 or 21, and we 
need to have this done in this current administration. It would 
be the hope of this subcommittee, working with our colleagues 
on Foreign Relations, Senators Biden and Lugar, who are experts 
on the proliferation issue--we would like to move this.
    When do you think we can expect a request from the 
administration?
    Dr. Griffin. I believe, Senator Mikulski, that it is 
imminent. We have spoken with them just yesterday. The last 
elements of coordination within the White House are ongoing as 
we speak. We are working with them to get that to the Congress 
as quickly as we can.
    Senator Mikulski. Well, over the next few weeks, we will be 
meeting with Secretary Rice on a variety of issues. So if we 
get bogged down, this subcommittee would like to offer a way of 
working with you and the administration to get it unstuck and 
over here for review by Senators Biden and Lugar so that we can 
move ahead with this. Okay?
    Dr. Griffin. Thank you very much.

                     ``SOYUZ'' LAUNCH CAPABILITIES

    Senator Mikulski. Now, this though then goes to COTS. So 
right now we can accelerate, if we put in $2 billion, to 2013. 
We have got the Soyuz. What is the astronaut capability of the 
Soyuz to take people up, not the rescue mission, but what is 
the max number of astronauts they can take up?
    Dr. Griffin. Well, the crew capacity on a given Soyuz 
launch is three. So obviously to sustain a crew of six, we need 
two Soyuz systems flying in rotation to maintain the crew of 
six that we go to in April 2009.
    Senator Mikulski. And how much are the Russians charging us 
per flight? Did they talk about that yet? Because they now have 
a monopoly.
    Dr. Griffin. Yes, they do. Our current contract calls for 
payments for Soyuz seats and progress flights through the end 
of 2011 of $780 million.

               COMMERCIAL ORBITAL TRANSPORTATION SERVICES

    Senator Mikulski. And that will go back and forth. Well, we 
will go into that in more detail.
    Let us go to COTS. Could you outline what the budget 
request for COTS is? What do you think we buy for it, and do 
you think that is sufficient? And is COTS an answer in terms of 
beefing up COTS to take people up there where we would have our 
own kind of version of a Soyuz, in other words, not the full go 
to the Moon and so on, but really a Space Station vehicle which 
COTS is? Can you share with us those views? Because there is a 
lot floating around that COTS could be the answer to the gap.
    Dr. Griffin. COTS, commercial orbital transportation 
services, is a program that I initiated upon rejoining NASA on 
this occasion. I did so because I believe very strongly--I 
believe two things, that we need a strong Government 
development program for Orion and Ares to guarantee that we 
have the capability to get to Earth orbit again and to go to 
the Moon, as Admiral Gehman discussed. But I also believe that 
we need to stimulate, wherever possible as a matter of 
Government policy, provide rewards for the development of 
commercial capability available for purchase by the Government, 
but on an arm's length basis.
    So the purpose of the program was to provide some, not all, 
of the money necessary for new systems development to reach 
Earth orbit, allowing companies to use that leverage of 
Government funds to seek other investment, and to bring to bear 
new capabilities.
    We are focusing on initially cargo because I just want to 
be clear with everybody. We actually have a mechanism to get 
crew to the Station with the Soyuz system, but unless we can 
bring some new commercial capabilities online, we really have 
no cargo resupply. So actually of the two, the most important 
COTS capability to me right now is cargo, and I must be honest 
about that.
    However, COTS is a program with four different phases to 
it, and phase D is human transportation. And yes, we would very 
much like to see a capability developed from U.S. commercial 
suppliers to provide crew transport to and from the Space 
Station, and I do believe that can be a solution going forward.
    I do not believe that even with their best efforts and even 
if more money were provided, that COTS crew transportation 
capability will arrive in time to be available after the 
Shuttle retires or even by the end of the current contract with 
Russia in 2012. So I do not believe that it will be available.
    Senator Mikulski. So what you are saying is there is no 
silver bullet or there is no magic potion available to close 
the gap.
    Dr. Griffin. Ma'am, I do not know of one.
    Senator Mikulski. So extending the life of the Shuttle is 
not a reasonable option.
    COTS, which is very promising technology--its first 
priority is cargo because that is what is needed to sustain the 
astronauts when we get them up there. Without a cargo vehicle, 
the cost is prohibitive. We cannot use Soyuz for cargo at the 
cost of the Soyuz, and I do not think it would be big enough 
for cargo.
    Dr. Griffin. That is correct.
    Senator Mikulski. So we need COTS to do the sustainability 
of the astronauts.
    At the same time, sure, COTS has promise, but you want to 
make sure that what is firmly in place is the cargo capability, 
but while they are developing their technologies, of course, we 
would look forward to possibilities of adding a human element. 
But that is an add-on to the mission.
    Do I have it down right?
    Dr. Griffin. Yes, ma'am.
    Senator Mikulski. What I am really getting to is people are 
fishing around--not fishing. I should say searching. That was 
not a good use of the word. Genuinely searching because of the 
gap. And like everything else we do in this Government, we have 
regrets about, oh, why was this not all thought about. But we 
are where we are.
    So what you are saying is that right now the only reliable 
transportation system after 2010 will be Soyuz. So we have to 
work with the Russians, get our treaty in place, et cetera. We 
have got to keep COTS on track no matter what because that is 
the cargo. Even during the gap, we can sustain our American 
presence, and we will have an American vehicle in space. So it 
will not be like we are just sitting on the tarmac.
    Am I correct?
    Dr. Griffin. Yes.
    Senator Mikulski. But there is no magic potion to close the 
gap. The only prudent fiscal way to go is accelerate Ares and 
Orion by 2 years and, at the same time, keep COTS on track so 
we have the cargo capability. So, from the standpoint of fiscal 
reality and engineering sensibility, that would be the way to 
go.
    Dr. Griffin. Ma'am, I think you have it perfectly.

                   SPACE SHUTTLE WORKFORCE TRANSITION

    Senator Mikulski. Well, the reason I took such a long time 
in asking these questions is there are a lot of ideas in the 
ethers out here and I wanted to be able to do that.
    Now, my last question on this is what is the plan for the 
workforce transition when the Shuttle is retired? And I am 
talking about at Kennedy. It is of deep concern, of course, to 
our two colleagues from Florida. You know, we ask people to go 
into science and engineering. There have been people who have 
been working at Kennedy. They have given their life's work 
through good times and wrenching times. We remember the brave 
way they responded during Hurricane Katrina to keep everything 
in place. I mean, it is a wonderful talented, group of people, 
and we do not want to leave them hanging by their thumbs.
    Dr. Griffin. Well, we do not, and I know that your 
colleagues from Florida are concerned. But I too am concerned. 
I am the Administrator of this agency, and that is my 
workforce. So I am concerned as well.
    Before I answer your question about what our plans are, I 
would like to note a positive thing for the record, if I might. 
I just received word that the planned docking of the European 
automated transfer vehicle, which is a cargo delivery vehicle 
to the Space Station in support of European obligations to the 
partnership, just successfully docked with the Space Station 
for the first time on its maiden flight. This accomplishment of 
an automated rendezvous and docking is the first by any nation 
other than Russia and brings our European partners fully on 
line as full partners in the Space Station. It is a magnificent 
accomplishment for the partnership.
    Senator Mikulski. We salute our European colleagues.
    Dr. Griffin. I think they deserve every bit of that.
    Now, to answer your question about our workforce, we are 
obligated to the Congress for a report twice a year. Every 6 
months we must report on our transition plans to retire Shuttle 
and bring Ares and Orion online. We submitted the first of 
those per requirement on Monday, and it showed, among the 
contractor community at Kennedy Space Center, over the years 
the worst case scenario of a reduction of some 6,400 or so jobs 
over the years following retirement of the Shuttle.
    Now, for the record, I must point out to this subcommittee 
that those projections are projections which are obtained by 
forecasting the job reductions from retirement of the Shuttle, 
but they do not forecast the job increases as we bring on a 
future lunar development program. So as we begin to get out of 
Shuttle and station operations, we are fairly well able to 
forecast who we will lose, but----
    Senator Mikulski. But is that the same workforce?
    Dr. Griffin. Well, it will not be the same people. It will 
be a different skill mix.
    Senator Mikulski. That is what I mean.
    Dr. Griffin. The Shuttle workforce, in terms of Shuttle 
operations, will be a much smaller operational workforce for 
Ares and Orion. That was a goal of retiring the Shuttle.
    When we put new work down at Kennedy Space Center, it will, 
in some respects, require different kinds of skills. So we have 
the option--the companies have the option of retraining people, 
but many people will be moving to take other jobs and new 
people will be moving in to take new jobs.
    Senator Mikulski. Well, Dr. Griffin, this is a conversation 
I really want to have Senator Shelby participate in and also 
our space authorizing team, Senator Nelson. We know that 
Senator Landrieu is deeply concerned about the Michoud issue 
where I think we estimate that there could be 1,000 more there.
    Really then, what do we anticipate and what is it really 
going to take? Are we looking at retirements and therefore a 
steady glide path? Are we looking at retraining? Because we 
will have to give you money to do retraining as we are doing 
that. And we have got to look at how we are all moving in the 
same way. Just as you have your engineering plans and you have 
your critical path, we need to have the same critical path for 
our social--I hate to use the term ``social'' engineering, but 
our social plan, which is who is going to leave, who is going 
to stay to do the job they are doing, who is going to be 
retrained, what are we bringing on, and then how is this going 
to be paced and what is it then you would need from us with the 
workforce issues because we need people as well as our 
technology.
    So, let us schedule that after we complete our hearing.

                         OVERALL SCIENCE BUDGET

    Moving on, though, I want to go now to science. NASA's 
budget shows a flat science budget this year and also for the 
next 5 years. Some are winners like Earth science and planetary 
science. Others seem to not do as well, astrophysics and 
heliophysics.
    Is where we are on the budget enough to meet our existing 
obligations to science and continue the development of new 
ones? In other words, we have things underway, whether it is 
Hubble--I worry about ICESat.
    You know what everybody is excited about, of course, is the 
mission to our own planet Earth. I have been meeting with 
people. Senator Boxer has too in her global warming 
initiatives. Every scientist or environmental minister is crazy 
about NASA and also about the National Science Foundation (NSF) 
and about National Oceanic and Atmospheric Administration 
(NOAA). Because of our size, our scope, and our talent, we have 
become the indispensable nation in terms of the science that we 
do for our planet. Therefore, anything that we are going to do 
to solve the problems of our planet has to be rested on that.
    So we worry about that and do we have enough to do what we 
are doing? Could you comment on it? Because we see you and 
NOAA, working with the NSF and National Institute of Standards 
and Technology, we save lives and we are saving the planet.
    And what an incredible role of public diplomacy. You and I 
are sitting here talking about treaties with the Russians on 
making sure we do not proliferate, but those school kids in 
Australia or South Africa or Southeast Asia are looking at the 
same Hubble as the south Baltimore kids. The Danish 
environmental minister is looking at the Hubble stuff the way 
they are looking at the NOAA stuff over in India.
    So we know that Secretary Rice thinks she is the diplomat, 
but so is NASA. And we view Hubble as one of our first 
technological diplomats.
    So, my point is that where are we in terms of what we 
continue to do and in these new missions.
    Dr. Griffin. Well, Senator, although you did not ask, I 
could not agree with you more about the value of our space 
program as an instrument of positive American image and 
diplomacy in the world. Truthfully, over 60 percent of our 
science missions are done on a collaborative basis with other 
nations. Sometimes we supply an instrument. Sometimes we supply 
the major part of the spacecraft. But either way the 
collaborations that we do work, and they work for the United 
States and for everyone in the world.
    Now, our science budget. I need to say a couple of things. 
First of all, our science budget as a fraction of our portfolio 
is around 32 percent this year, and it is at historically high 
levels. So science is well funded at NASA. It is not growing as 
much as we would like until 2011 when we retire the Shuttle. 
Science resumes its growth at the top line starting in 2011.
    As you noted yourself, in these current years, our entire 
NASA top line growth is only 1.8 percent, and so for science to 
be slightly less than that is not a major difference between 
the agency's top line and the science portfolio top line.
    We are budgeted to meet the commitments that we have made, 
everything from Hubble and James Webb down to the Mars science 
lab and other things in other divisions of our science 
portfolio. We are budgeted to meet the commitments we have made 
to you.
    Certainly it is always possible, just as in our human space 
flight program, more money will buy more product. And there are 
always more new and interesting and fascinating science 
missions to do. But we have a rich plate of missions, and I 
believe that we are adequately funded to execute the ones we 
have said we will execute.
    Earth science did receive an increase this year I think in 
respect to the Earth science decadal. That is something we 
wanted to do. I was one of the people calling for a decadal 3 
years ago and now we have one, and we are pleased with it. We 
have revamped our Earth science portfolio to respect that 
decadal. But at the same time, astrophysicists and planetary 
scientists and heliophysicists also have decadal surveys, and 
we try to honor those missions as well.

                        EARTH OBSERVING SENSORS

    Senator Mikulski. Well, first of all, that is heartening to 
hear, and know that we have just a great passion about this.
    I know you are so busy.
    You know, there are things I want to talk about with both 
science and education. Let me come back to I think a very 
poignant moment.
    The National Academy of Science. This goes to what they 
tell us they are concerned about. According to the National 
Academy, 40 percent of the Earth-observing sensors that are now 
in orbit will cease to function by the end of the decade unless 
they are replaced. And my question is, well, what does that 
mean? And what is NASA's plan to replace those sensors and 
satellites? In other words, do we have the money to even 
continue to do the pretty spectacular work we are already 
doing?
    Dr. Griffin. Right. We are in a difficult period right now. 
If you look at the sensor level on Earth sciences for climate 
research and environmental monitoring, we are in a difficult 
period because, as you know, the Department of Defense, the 
NOAA, and NASA NPOESS program being executed by the Air Force 
encountered some severe cost problems. And so the NPOESS 
spacecraft have been descoped. This has been the subject of 
other hearings before other committees of this Congress.
    Senator Mikulski. I know.
    Dr. Griffin. And so the climate research sensors that were 
originally planned to go on NPOESS will now not fly on NPOESS. 
Now, we have known this for over 1 year. We have been 
scrambling to try to find ways to remanifest those climate 
research sensors on other missions, and we are doing that. But 
the recovery plan from the NPOESS descope of climate research 
sensors cannot happen instantaneously. Moreover, NASA was not 
budgeted for these additional climate research sensor flight 
opportunities because that budget went to NPOESS.
    So in the White House and at NASA, by all means, we do 
recognize the seriousness of the concern about replacing the 
climate research sensors on orbit today. That was one of the 
originally intended purposes of NPOESS and we are having to 
find other ways to do it. And we are working that plan as 
aggressively as we are able.

  NATIONAL POLAR-ORBITING OPERATIONAL ENVIRONMENTAL SATELLITE SYSTEM 
                                (NPOESS)

    Senator Mikulski. Well, the subcommittee and its staff 
would like to have an ongoing conversation with you about this. 
First of all, we are very concerned about NPOESS.
    Dr. Griffin. Yes, ma'am.
    Senator Mikulski. We have raised it and it has been an 
enormous challenge. Of course, our overall satellite 
capabilities are of growing concern.
    But let me go to our accountability issue, and then we will 
conclude shortly. The Congress is going to have a commemorative 
ceremony noting the melancholy event that occurred 40 years ago 
tomorrow with the assassination of Dr. King. Both the House and 
Senate will gather for just a moment of reflection and really 
renewal to a commitment against violence in the world.
    NASA has informed us that of 12 science missions that are 
under development, 4 are over budget and 8 are behind schedule. 
We would like to talk with you about that in more detail as we 
look at this, one, maintaining the schedule but also where 
those four missions are over budget. We are not going to go 
into that because, again, I want to join my colleagues.
    I know Senator Shelby wanted to also ask about aeronautics 
and about education. The aeronautics is part of the NASA 
mission in education. So, we will follow up with aeronautics as 
we talk about it when we come together. Education, of course, 
continues to be such a major role at NASA.

                       CHAIRMAN'S CLOSING REMARKS

    And I just want to tell you a story before we conclude 
about what your NASA Goddard people did that was so 
spectacular. We, in Baltimore, are the home to the National 
Federation of the Blind. It is their global headquarters.
    Some years ago, a wonderful Ph.D. by the name of Dr. 
Zabrowski, who just passed away, wanted to move the blind into 
the future and the new economy. Over 40 percent of all blind 
people live below poverty level because they do not have access 
to education that often takes them into the new careers. So, 
they did that. And one of the things they wanted to do was see 
if blind kids could have access to information about astronomy.
    On a modest grant of $50,000 from Goddard, working with the 
National Federation of the Blind, the Goddard Genius Club, and 
the Smithsonian Institution, we have now produced a textbook 
for blind kids, for middle school and high school, on 
astronomy. It is called ``Touching the Invisible Sky.'' And 
when you see this book--have you seen it?
    Dr. Griffin. I have seen it, ma'am. It is incredible.
    Senator Mikulski. It is incredible. The text is in Braille, 
but the pictures of the Hubble and other cosmic photographs are 
in these raised images that is having a profound impact.
    And when I went to Dr. Zabrowski's memorial service and 
told the gathering over 600 people about this book and 
presented a copy in behalf of all of us to their library--but 
it will be widely disseminated--the audience response was 
overwhelming. And the response afterwards, as people came up, 
parents were talking about they do not know if their kids will 
be astronomers, but they know that they could go into science. 
They could go into technology. If you are blind, you can hear 
very well. There are jobs and everything from national security 
to other things.
    So, you know, this is really about changing lives, 
transforming lives, and so on. And NASA is doing such great 
work. If we take the time for a modest $50,000 and transform 
opportunities for blind children--and once again, it will 
happen not only for our kids here in our own country, but this 
will go to south Baltimore and South Africa and so on. I mean, 
I think this is what we are all about.
    So, we want to go to the Moon and we want to get out there 
to Mars, return our astronauts safely. And we want to see what 
we can do to help you.
    So, I think we have covered our testimony today. I was kind 
of doing double dutch here. We will continue our conversations 
with you.
    We hope to have our bill ready. We view the President's 
request as the minimum threshold. We are going to see what 
other ways, given our allocation, we can add to this to 
accelerate our capabilities of closing the gap, as well as 
improving our science and aeronautics capability and see what 
we can do. I also will pursue adding that amendment for another 
$1 billion as emergency funding.
    So, since there are no further questions--and do not think 
that because my other colleagues are not here they are not 
interested. Many are chairing their own hearings on our 
accelerated schedule, and others are involved in the mortgage 
foreclosure.

                     ADDITIONAL COMMITTEE QUESTIONS

    So, since there are no further questions--and Senators may 
submit questions for the subcommittee's official record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Richard C. Shelby

                          ROBOTIC LUNAR LANDER

    Question. I am pleased to see the budget request has a proposed 
lunar robotic lander mission for the Moon. This proposal comes on the 
heels of funding provided by this committee that followed 
recommendations from the National Research Council.
    Can you expand on what this mission will entail and how the 
workload will be distributed and managed for this mission?
    Answer. The Science Mission Directorate (SMD)-sponsored Lunar 
Science Program Office at Marshall Space Flight Center (MSFC) will 
provide program management for the Lunar Science Program, consisting of 
a small-sat lunar orbiter and a series of mini-landers. The Lunar 
Science Program Office will establish a mini-lander project, also to be 
located at MSFC, using the capabilities of the LPRP office to conduct a 
phase A and begin Phase B. In fiscal year 2008-2009, the focus of the 
mini-lander project will be on defining the mini-lander design through 
Preliminary Design Review. As appropriate for the missions, SMD will 
define significant roles for the Applied Physics Lab (APL), Ames 
Research Center (ARC), the Goddard Space Flight Center (GSFC) and the 
Jet Propulsion Laboratory (JPL).
    Question. When do you anticipate this mission and will be ready to 
go to the moon?
    Answer. The first two mini-landers, which will be developed by MSFC 
and the APL, are envisioned to be launched in the 2013-14 timeframe. 
Further definition will be undertaken as part of the Pre-Phase A 
identified in the previous question.
    Question. Is there potential for these landers to be the first in a 
series of similar missions?
    Answer. It is envisioned that these landers will be the backbone 
nodes of an International Lunar Network providing a series of 
standardized seismic, heat flow, and other scientific measurements 
(provided by both the United States and international partners). In 
addition, Exploration Systems Mission Directorate (ESMD) and SMD will 
cooperate on the definition of key enabling technologies that might be 
suited for flight on one or more of the mini-landers.

                             EDUCATION CUTS

    Question. How can we take the ACI model and apply it to NASA 
education programs to encourage students to want to become future 
scientists and engineers?
    Answer. NASA Education is taking steps that align with the ACI 
model to encourage students to enter STEM fields.
    The following activities reflect direct action based on the 
recommendations of the ACI:
  --Pursuant to Conference Report accompanying the America Competes 
        Act, NASA is required to submit to Congress and the President 
        an annual report describing the activities conducted pursuant 
        to Section 2001 of the America COMPETES Act, including a 
        description of the goals and the objective metrics upon which 
        funding decisions were made. NASA will submit the first of 
        these reports in January 2009.
  --Also pursuant to Section 2001, NASA will submit a plan for 
        assessing the effectiveness of the Agency's science, 
        technology, engineering, and mathematics education programs in 
        improving student achievement, including with regard to 
        challenging State achievement standards.
  --NASA is utilizing the Undergraduate Student Research Program to 
        support basic research projects on STEM subjects.
  --NASA is also leading the interagency ISS Education Coordination 
        Working Group, with its concept plan, ``An Opportunity to 
        Educate: ISS National laboratory,'' which was submitted to 
        Congress on June 20, 2008. The Working Group is also in early 
        discussions with other interested agencies that are not formal 
        participants.
    Pursuant to direction included in the Explanatory Statement 
accompanying the fiscal year 2008 Consolidated Appropriations Act, 
NASA's Office of Education will soon release a competitive solicitation 
to the university community, based upon recommendations from Earth 
Science and Application from Space: National Imperatives for the Next 
Decade and Beyond, prepared by the National Research Council in 2007.
  --The solicitation will address innovative opportunities for 
        educating students on global climate change with a special 
        component focusing on teacher education preparation (pre-
        service).
    NASA is also pursuing other interagency activities that will 
facilitate the enhancement of its STEM education program.
  --NASA Education serves on the Education Subcommittee of the National 
        Science and Technology Council (NSTC) Subcommittee on Science, 
        which is providing a report based on the Academic 
        Competitiveness Council recommendations.
  --The Office of Education also represents the Agency on the 
        Interagency Aerospace Revitalization Task Force, a group of 
        federal agencies with a vital interest in strategic planning 
        for STEM education to strengthen the science and technology 
        workforce.

                     EPSCOR AND SPACE GRANT FUNDING

    Question. Are these reductions because the programs are ineffective 
in their objectives?
    Answer. NASA has not de-emphasized its education program nor 
reduced these two projects being ineffective in their objectives. 
Though the 2009 request for NASA education is a reduction of $31.2 
million from the 2008 enacted budget, it reflects the reality of 
addressing increasing mission operational requirements within limited 
funding.
    Each program area in the Agency was impacted by the need to 
redirect funding. The overall Office of Education's budget reduction 
was further influenced by ``Results Not Demonstrated'' rating in last 
year's OMB Performance Assessment Rating Tool (PART) analysis due to 
the agency not providing sufficient data indicating the program's 
effectiveness. Baseline data and results have now been submitted to OMB 
for review. Education is and will continue to be a fundamental element 
of NASA's activities reflecting a diverse portfolio of Higher 
Education, Minority University Research and Education, Elementary & 
Secondary/Education, and Informal Education Programs.
    For Space Grant, the quantitative change between the fiscal year 
2009 and fiscal year 2008 budgets in DIRECT dollars is a decrease of 
$6.9 million. The Space Grant two tiers of alliances (35 states and 17 
states) are funded at $730,000 and $535,000; respectively, in fiscal 
year 2008. As with all projects, the request includes agency 
administrative full costs that include corporate general and 
administrative costs, which are determined by the Office of the Chief 
Financial Officer (OCFO), as well as project-specific costs. For fiscal 
year 2008 Space Grant, the corporate general and administrative costs 
are approximately $7.6 million. Final allocations are dependent upon 
the passing of the NASA Appropriation and subsequent approval of the 
NASA Operating Plan. Funds will be apportioned to the Space Grant 
consortia in a pro rata manner consistent with 35 Designated consortia 
and 17 Program Grant/Capability Enhancement consortia.
    Question. Are there better places for us to focus our resources for 
education funding, and if so, what education programs do you believe 
work the best at NASA?
    Answer. NASA's Agency goals in education are outlined in both the 
2006 NASA Strategic Plan and the NASA Education Strategic Coordination 
Framework: A Portfolio Approach.
    All of NASA's education efforts are part of an integrated Agency-
wide approach to human capital management. Within the NASA Strategic 
Plan, education is identified as a crosscutting function that supports 
all of the Agency's strategic goals and objectives.
    For the fiscal year 2009 budget, Education used a defined process 
to create a balanced portfolio of investments to address the NASA 
Strategic Plan, recommendations from the National Research Council 
(NRC), and education community priorities.
    Each project within the portfolio is mapped to one of the following 
Outcomes as defined in the NASA Strategic Plan and the Education 
Strategic Portfolio Coordination Framework:
  --Outcome ED-1: Contribute to the development of the STEM workforce 
        in disciplines needed to achieve NASA's strategic goals through 
        a portfolio of programs.
  --Outcome ED-2: Attract and retain students in STEM disciplines 
        through a progression of educational opportunities for 
        students, teachers, and faculty.
  --Outcome ED-3: Build strategic partnerships and linkages between 
        STEM formal and informal education providers that promote STEM 
        literacy and awareness of NASA's mission.
Background:
    In 2006 and beyond, NASA will pursue three major education goals:
  --Strengthen NASA and the Nation's future workforce.--NASA will 
        identify and develop the critical skills and capabilities 
        needed to ensure achievement of NASA's mission. To help meet 
        this demand, NASA will continue contributing to the development 
        of the Nation's science, technology, engineering, and 
        mathematics (STEM) workforce of the future through a diverse 
        portfolio of education initiatives that target America's 
        students at all levels, especially those in traditionally 
        underserved and underrepresented communities.
  --Attract and retain students in STEM disciplines.--NASA will focus 
        on engaging and retaining students in STEM education programs 
        to encourage their pursuit of educational disciplines and 
        careers critical to NASA's future engineering, scientific, and 
        technical missions.
  --Engage Americans in NASA's mission.--NASA will build strategic 
        partnerships and linkages between STEM formal and informal 
        education providers. Through hands-on, interactive educational 
        activities, NASA will engage students, educators, families, the 
        general public, and all Agency stakeholders to increase 
        Americans' science and technology literacy.

                           10 HEALTHY CENTERS

    Question. One of the challenges in running NASA is keeping a 
workforce and the agencies aging facilities running and operating 
efficiently. You have mentioned in the past of maintaining 10 healthy 
and productive centers. Not all centers are the same in their health, 
in fact, some will likely be healthier than others.
    Can you give this committee an idea of which centers, in your 
opinion, are healthier and which ones are not quite as healthy?
    Answer. Achieving the Agency's Space Exploration mission is a 
challenge requiring NASA to draw on all of its expertise and resources. 
Mission success will depend on ten strong, healthy centers. NASA's 
Strategic Management Council (SMC) has developed a set of attributes 
that define strong, healthy Centers as:
  --Centers strategically positioned, configured, and operated to 
        support NASA's Mission.
  --Centers that are prepared to execute programs and project 
        responsibilities successfully and are prepared to adjust or 
        adapt to changes necessary for future Center and Agency success 
        (i.e., Centers doing the right job with the right number of 
        competently prepared people supported by the right mix of 
        state-of-the-art facilities and the right budget.)
    The indicators of strong and healthy centers can be grouped into 
two major categories:
  --Human Capital.--The ability to productively utilize the NASA 
        workforce and to adjust workforce size and skills to meet 
        current and future mission requirements and sustain the 
        operations of the center.
  --Physical Capital.--The quality and utilization of mission and 
        center institutional assets (facilities, buildings, etc.) 
        required to meet not only NASA programmatic goals, but also to 
        sustain national interests while providing for safe and stable 
        center operations.
    Human Capital.--NASA plans to assign important spaceflight 
development activities in exploration and science to all of the 
Centers. Workforce planning has been more effectively integrated into 
the annual budget process and the assignment of work to the NASA 
workforce is supported though a high level of collaboration between the 
programs and the Centers. Where work demand exceeds available workforce 
at a center, it is shifted to centers where workforce is available. In 
the out-years of the budget planning horizon, ARC, GRC, LaRC and DFRC 
have a small amount of workforce available that have not yet been 
planned to identified program demand and funding. However, matching 
work assignments to this workforce is a manageable challenge that we 
expect to resolve as we complete the development of our fiscal year 
2010 budget. An additional measure of workforce health is its 
scalability. NASA can adjust the size of its workforce through 
strategies such as buyout and early retirement incentives, hiring 
controls, and expanded use of non-permanent workforce; i.e., term 
appointments. At the monthly Baseline Performance Review, NASA senior 
leadership reviews key workforce metrics to monitor Center workforce 
health and make adjustments as needed.
    Facilities.--The condition of NASA facilities are approximately 
consistent from Center to Center. Facilities condition varies from 
Center to Center by 0.7, rated on 0 to 5.0 scale.
    Question. If there are centers that are struggling to be healthy, 
would it not be fair to consider converting a less healthy center into 
some other instrument that NASA could utilize like a federally funded 
research and development center (FFRDC)?
    Answer. There are currently no large differences in Center health 
across the Agency, primarily due to the efforts of NASA's leadership 
over the past three years in assigning exploration and science 
development work to strengthen and maintain a healthy workforce 
balance. NASA will continue to face challenges but intends to work 
proactively and strategically to mitigate issues. In 2004-2005, NASA 
investigated the possibility of converting the operations and 
management of some NASA Centers to other organizational models such as 
FFRDCs, Government Corporations or university consortia. At that time, 
several Centers had significant issues that contributed to their 
unhealthy state. Since then, the goal of 10 healthy Centers has been 
developed and maintained, and NASA is not currently pursuing other 
organizational models for its Centers.

                         EXPLORATION ACTIVITIES

    Question. You have already touched on what is currently happening 
in with the Ares and Orion programs. These programs are integral to 
maintaining our Nation's manned spaceflight activities.
    Can you provide us an update on where we are in the schedule?
    Answer. NASA's Constellation program has moved beyond being just a 
mere concept on paper; we are making real progress. We have tested 
hardware; we have tested landing systems; and we have logged thousands 
of hours in wind tunnels. So far, the Ares I project has conducted more 
than 4,000 hours of wind tunnel testing on subscale models of the Ares 
I to simulate how the current vehicle design performs in flight. These 
tests support development of the J-2X engine for the Ares I and the 
Earth Departure Stage of the Ares V. By December 2007, all major 
elements of the Orion and Ares vehicles were placed under contract. 
This year, Constellation will be busy with hardware activities which 
include fabrication of the First Stage Development Motors 1 and 2 for 
Ares I; complete construction of the Upper Stage Common Bulkhead 
Demonstration article and also deliver the first Ares I-X demonstration 
test flight hardware to KSC in October 2008. Orion will be just as 
busy, culminating the year with a test of its launch abort system at 
the U.S. Army's White Sands Missile Range (WSMR) in New Mexico.
    All activities are progressing to support all planned design 
reviews. The Ares I and Orion projects recently completed their Systems 
Definition Review (SDR) and the Preliminary Non-Advocate Reviews that 
confirmed NASA is employing a strong systems engineering approach to 
refine the current program requirements and the requirements were 
properly allocated down to the projects. Orion and Ares I Projects are 
currently proceeding toward their individual Project level Preliminary 
Design Reviews (PDR) by the end of the year. These reviews provide 
opportunities to confirm that the subject activities, products, and 
process control requirements have been adequately flowed to--and 
implemented within--the Projects. The Projects, along with the program, 
are tracking all products required for PDR to insure all data is 
available on time and at the appropriate maturity level.
    Question. Are there any technical issues that NASA is aware of 
today that will cause the current schedule to slip and make the gap 
between the Shuttle retirement and Ares and Orion even longer?
    Answer. NASA is very confident in the capability of our government 
and contractor Constellation team, to accomplish this complex system 
acquisition. We are not dependent on the development of exotic new 
technologies to make this program a reality. Our challenge is the 
integration of complex systems that must work together. Issues have and 
will inevitably arise, but none are expected to delay the Initial 
Operating Capability of Ares and Orion, set for March 2015.
    NASA is continuing the design process for the Orion and is pleased 
with the progress made so far. The current design configuration 
establishes a robust vehicle and meets the weight requirements, 
including meeting the more demanding lunar configurations. However, 
NASA recognizes that the design is still young and much work remains to 
be done to complete it. Some of the key areas NASA is following closely 
with Orion are:
  --Crew support for safety;
  --Ensuring the vehicle adequately supports the crew in the event of 
        contingency landings when the crew may have to spend an 
        extended period of time in the vehicle prior to recovery by 
        ground support teams;
  --Landing scenarios assessment;
  --The assessment of mass threats and opportunities against the Orion 
        PDR configuration; and
  --Understanding the vulnerabilities of the vehicle design and 
        understanding the Loss of Crew and Loss of Mission 
        probabilities.
    Question. What would it take to make these systems come on-line 
sooner, or are we at a point where no matter how much additional 
funding is provided, the successful launch of the Constellation 
vehicles cannot be accelerated?
    Answer. Full funding of NASA's fiscal year 2009 budget request for 
Constellation is needed so that we can continue successful transition 
between the Shuttle and the Orion and Ares I. The fiscal year 2009 
budget request supports Orion IOC in March 2015 at a 65 percent cost 
confidence and full operational capability (FOC) in fiscal year 2016, 
though NASA is working to bring this new vehicle online sooner.
    In preparation for NASA's fiscal year 2010 budget submission to 
Congress next year, NASA is beginning to make several new assessments 
of the program plans, budget available and schedule for the Orion and 
Ares vehicles. Although those calculations are not final, NASA believes 
that acceleration to September 2014 IOC may be possible if additional 
funding for these vehicles beyond what is projected in the fiscal year 
2009 Presidential Budget Request were made available.

                           FINANCIAL SYSTEMS

    Question. For several years now this committee has asked about 
NASA's financial systems. NASA has a recent track record of failing its 
independent audits. We keep being reassured that the financial system 
was being improved.
    Can you point to any improvements in the way NASA keeps track of 
its $17 billion in funds?
    Answer. NASA has two remaining material weaknesses: Financial 
Systems, Analyses, and Oversight (FSAO); and, Enhancements Needed for 
Controls Over Property, Plant and Equipment (PP&E) and Materials. The 
FSAO material weakness addresses multiple entity-wide internal control 
weaknesses, identified by the agency's independent auditor. To resolve 
these issues, NASA has developed a Comprehensive Compliance Strategy 
(CCS) that focuses on ensuring compliance with Generally Accepted 
Accounting Principles (GAAP) and other financial reporting 
requirements. The CCS also covers the standards and requirements 
necessary to cure deficiencies noted in recent audit and related 
reports. The CCS serves as the basis for implementing comprehensive 
proactive corrective actions and provides the guiding principles for 
executing effective financial management functions and activities with 
internal control and compliance solutions inherently embedded in the 
processes.
    In the first quarter of fiscal year 2008, NASA undertook an 
internal review and engaged a nationally-recognized accounting firm to 
perform an in-depth analysis of requirements for NASA to be in 
compliance with GAAP and other applicable financial standards, to 
demonstrate such compliance through auditable evidence, and to operate 
with robust and comprehensive internal controls. Validation of this 
framework and plans to implement the required actions to conform NASA 
policies to this framework were completed in the second quarter of 
fiscal year 2008. An assessment of the remedial actions necessary is 
underway, and upon completion of the assessment, timing and phasing for 
resolution will be determined. The CCS provides the critical path 
milestones for NASA to resolve the FSAO material weakness.
    The Property, Plant and Equipment material weakness is comprised of 
issues primarily related to the agency's reliance on contractors to 
``report property values at periodic intervals without robust agency-
wide detect controls,'' and difficulties ensuring the completeness of 
balances for certain legacy assets.
    In November 2007, NASA implemented a new policy and related 
procedures for identifying the cost of individual assets throughout the 
asset's acquisition lifecycle. This policy change was based on guidance 
received from the Federal Accounting Standards Advisory Board (FASAB). 
These changes support the verification and reconciliation of asset 
values for those assets developed through new contracts (post November 
2007) and certain large pre-existing contracts. For legacy assets, like 
the Space station and Space Shuttles, NASA does not have the necessary 
supporting information available to provide auditable book values for 
the Space Shuttle and the International Space Station (ISS). Together, 
Shuttle and ISS related assets currently represent over $14 billion of 
the total $20.6 billion PP&E net asset value reported in the September 
30, 2007 fiscal year-end financial statements. While certain of the 
existing Shuttle and ISS assets will be transitioned for use on other 
NASA programs, much of this issue may become moot with the passage of 
time, as the Shuttle is to be retired in 2010, and the ISS is being 
depreciated based upon a 15-year specification life through 2016. While 
the ISS depreciation schedule naturally leads to 2016 as an outside 
date for resolution of this issue, NASA is presently developing and 
evaluating a variety of alternatives with a view to achieving a more 
timely, albeit still cost efficient and effective, solution for this 
issue.
    Question. Will we see any improvement in how NASA manages its funds 
so that it is clear to everyone what is happening with taxpayer funds?
    Answer. Even though we still have two material weaknesses 
outstanding, NASA has high confidence in the current data collected and 
reported in our financial systems from our contractors and NASA 
facilities. With this data, we are reporting monthly program status to 
NASA management and Congressional members and staff. We are actively 
using this information to make decisions daily about the execution of 
our programs and projects. Our financial systems permit a comprehensive 
monthly assessment of the execution status of our projects, helping us 
to identify which projects might require additional funding, and which 
may be potential sources for funds re-balancing. You will see operating 
plan requests that are based upon this level of insight.
    Our financial systems now provide standard data reports that can be 
used by senior managers to assess how well projects are using their 
appropriated funds and to allow managers to make corrections as needed 
to ensure proper funds management. Starting last summer, we initiated 
an Agency-wide effort to ensure efficient use of appropriated funds, 
with a goal of reducing our end of year unobligated balances by over 40 
percent. Through better reporting, better funds distribution processes, 
and better management tools and standards, we expect to achieve this 
goal by the end of fiscal year 2008.
    Question. In your proposed budget for the Shuttle, there is funding 
identified through fiscal year 2011. For a vehicle that has been around 
as long as the Shuttle, I find it hard to believe that the program can 
be completely closed out in that short of time. What is the plan to 
fund and perform this close out activity?
    Answer. Current plans call for Shuttle transition and retirement 
real and personal property disposition activities (the long-term item 
in transition and retirement) to be effectively complete (with no 
further significant budget impacts to ongoing programs) by about the 
middle of the next decade. Shuttle transition and closeout began two 
years ago and the rate of closeout continues to increase as the Shuttle 
flies out the remaining manifest. The goal, projections, and progress 
indicate that Shuttle closeout will be well on its way to completion at 
the end of 2010. NASA will develop estimates for transition and 
retirement funding needed from 2011 and later during the formulation of 
the fiscal year 2010 budget. It is important to note that NASA 
continues to disposition Apollo-era property at a low level even today, 
thirty-two years after the last flight of an Apollo vehicle.
    The in-year resources (i.e., those from fiscal year 2006-10, the 
end of the Space Shuttle Program) for Transition and Retirement (T&R) 
activities are already incorporated in the Space Shuttle Program budget 
line. The out-year costs (i.e., those from fiscal year 2011-15) for T&R 
activities are being generated now as part of the formulation of the 
fiscal year 2010 President's Budget request. The budget projection will 
benefit from trade studies and ``what-if'' exercises conducted since 
the development of the fiscal year 2009 request, and will reflect an 
increasingly mature understanding of Constellation Program 
requirements. Every time NASA has projected out-year T&R costs, the 
numbers have decreased. Thus, the Agency didn't want to prematurely 
commit to a firm set of out-year numbers, since data and trends 
indicate that transition and retirement costs will be lower than the 
estimate from 2007. In not ``locking in'' higher projections, NASA 
hopes to incentivize people to find the best methods and approaches for 
the Agency.
    Question. What are your observations on the Chinese space program 
and what does it mean for our Nation?
    Answer.
Assessment of Chinese Capabilities to Mount a Human Lunar Mission
    Chinese space officials have openly discussed plans to conduct 
spacewalking demonstrations next year, orbital rendezvous and docking 
operations by 2010, and a robotic lunar landing mission by 2012. Based 
upon a careful review of open source information concerning the 
capabilities of the Shenzhou crew vehicle and the planned Long March 5 
rocket, it is my considered judgment that, although China's public 
plans do not include a human lunar landing, China will have the 
technical wherewithal to conduct a manned mission to the surface of the 
moon before the United States plans to return.
    While initial Chinese mission(s) to the moon would not have the 
long-term sustainability of our own plans for lunar return, I believe 
China could be on the moon before the United States can return.
    China is prosecuting a fully indigenous program of human 
spaceflight development. They have adapted the design of the Russian 
Soyuz vehicle to create their own Shenzhou, which is more spacious, 
more capable, and better suited for long duration space missions than 
its Russian antecedent. China plans to conduct its first spacewalks and 
orbital rendezvous operations in 2008 and 2010, and to build a small 
space station in the next few years. All of this has been openly 
announced. Their accomplishments so far give me no cause to doubt their 
ability to carry out these plans.
    With the first manned Shenzhou flight in October 2003 China 
surpassed by itself the accomplishments of all six U.S. Mercury 
missions in the early 1960s. The second Shenzhou flight in 2005 
demonstrated most of the accomplishments of the first three U.S. Gemini 
missions in 1965. They will soon demonstrate the rendezvous and docking 
capabilities pioneered by the United States in the Gemini program in 
1966, by docking a Shenzhou spacecraft with another Shenzhou, or with 
an orbital module left by a prior mission.
    These examples illustrate a fundamental difference between the 
development of the Chinese human spaceflight program, and that of the 
United States and Russia. Because China can follow established 
technical paths, they do not have to verify the basic feasibility of 
their approach. They need only to demonstrate that their systems work 
as designed to accomplish tasks which are by now well understood. Thus, 
each step in space can take them to a new capability plateau, eclipsing 
the equivalent of several pioneering but tentative steps in an earlier 
era. The United States required twenty-one human spaceflights to reach 
the moon in the 1960s. China should not need so many.
    The second major initiative for which the Chinese have demonstrated 
significant progress is the development of the Long March 5 launch 
vehicle. They have conducted several rocket engine tests over the past 
two years, and plan to conduct demonstration flights in 2008-11. The 
Chinese have advertised its capability as 25 metric tons (mT) to low 
Earth orbit (LEO), rivaling or surpassing the largest expendable launch 
vehicles available today, which have a capacity of approximately 20 mT, 
or slightly greater. I believe that China's concerted, methodical 
approach to the Long March 5 development, along with recent 
construction of a new launch facility on Hainan Island, puts them on 
track to bring the Long March 5 online by 2013-14, their stated 
intention. NASA's Ares I rocket, which will have similar capabilities, 
will not be fully functional until March 2015, according to current 
plans.
    Third, China has developed and demonstrated a dual launch 
processing capability. This capability, together with the 25 mT-to-LEO 
capacity of the Long March 5, allows China to reach the ``tipping 
point'' critical to executing a manned mission to the Earth's moon. As 
one possible approach, this can be done by means of two dual-launch 
sequences.
    The first Long March 5 would place, in Earth orbit, a lunar lander 
similar in size and mass to the Apollo Lunar Module, about 14 mT, 
together with a lunar orbit injection (LOI) stage weighing 6 mT. With a 
second Long March 5 launch, the lander and LOI stage would be joined in 
Earth orbit by a 25 mT Trans-Lunar Injection (TLI) stage. The two 
payloads would rendezvous and dock automatically, as the Russian Soyuz 
and Progress vehicles do at the International Space Station today. 
After docking, the TLI stage would send the combined payload to the 
moon. Injection into lunar orbit would be accomplished by the LOI 
stage, leaving the lander poised to wait for a few weeks--or even 
months if necessary--for the second launch sequence.
    The second pair of Long March 5 launches would place in Earth orbit 
a crewed Shenzhou vehicle and LOI stage with one launch, and a TLI 
stage with the other. As in the earlier sequence, the Shenzhou would 
rendezvous and dock with the TLI stage, which would send the combined 
stack to the moon. The LOI stage would decelerate the Shenzhou into 
lunar orbit, where it would then dock with the waiting lander. The 
Shenzhou would differ from today's Earth-orbital version in two 
respects. It would require larger propellant tanks to allow it to 
depart lunar orbit for the return to Earth, and it might require a 
thicker heat shield to withstand atmospheric entry upon return from the 
moon. Neither of these modifications presents a significant challenge. 
The lunar version of Shenzhou would weigh about 11 mT, considerably 
less than the 14 mT lunar lander, so the delivery of a lunar-capable 
Shenzhou to lunar orbit presents no difficulty.
    After rendezvous, the Shenzhou crew would transfer to the lander, 
land on the moon's surface, remain for several days, depart, rendezvous 
again with the Shenzhou, and return to Earth. (Parameters and 
assumptions for this scenario are summarized in the attached Technical 
Notes.)
    What is fundamentally different about the dual-launch capability 
that the Chinese have demonstrated, and could well develop for the Long 
March 5, is that it enables human lunar missions without requiring a 
120 mT class vehicle like the Apollo-era Saturn V, or our planned 
Shuttle-derived Ares V. This technique is not particularly cost-
effective and is not easily scaled to a sustainable operation, but it 
does offer a path to ``boots on the moon'' without the development of a 
heavy-lift launch vehicle.
    Apart from the lunar lander itself, this approach requires for its 
implementation only modest developments beyond the existing Shenzhou 
and the Long March 5 vehicles. The new elements for a lunar mission are 
the TLI and LOI stages, which would be essentially the same aside from 
the size of the propellant tanks employed, and which would utilize the 
upper-stage engines from the Long March 5, with modest improvements. 
This is a minor developmental excursion from Long March 5 technology.
    China has not announced any intention to develop a human lunar 
lander. However, I note that China recently launched its first robotic 
lunar orbiter mission, and has announced plans for a robotic lander by 
2012 and a robotic sample return mission in the 2017-2020 timeframe. 
The developments in communications, tracking, guidance, navigation, and 
control required to execute robotic lunar orbital and lander missions 
are identical to those for a manned system, irrespective of whether or 
not the lander itself is scaleable to human missions. Inasmuch as the 
design parameters of the Apollo lunar lander are widely known and well 
within today's state of the art, the development of a similar vehicle 
by the Chinese should not present a significant problem.
    Pending development of a Chinese manned lunar lander, a fly-by or 
orbital mission around the moon could easily be executed with the 
Shenzhou spacecraft and a single pair of Long March 5 launches, as 
outlined above. Indeed, as a matter of prudent engineering development, 
I would fully expect China to execute such a mission prior to a lunar 
landing. This would be completely analogous to the inspirational Apollo 
8 mission during the Christmas season of 1968.
    Question. What do you think we need to do to maintain our advantage 
in space exploration and innovation?
    Answer. NASA should continue to take all steps necessary to retire 
the Shuttle, which is planned for the end of fiscal year 2010. 
Retirement of the Shuttle is a critical step in enabling a smooth 
transition to NASA's exploration program. Full funding of NASA's fiscal 
year 2009 budget request for Constellation is needed so that we can 
continue successful transition between the Shuttle and the Orion and 
Ares I. The fiscal year 2009 budget request supports Orion IOC in March 
2015 at a 65 percent cost confidence and full operational capability 
(FOC) in fiscal year 2016, though NASA is working to bring this new 
vehicle online sooner. Budget stability in fiscal year 2009 is crucial 
to maintaining IOC. There is minimum flexibility through fiscal year 
2010, so Congressional support for budget stability is critical.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

         NASA OPERATIONS AT THE MICHOUD ASSEMBLY FACILITY (MAF)

    Question. Given the vast amount of room in the MAF and the green 
space outside the facility, are there any expected transfer business 
opportunities from other NASA facilities to Michoud in the next year?
    Answer. Since 2006, NASA has been actively supporting 
diversification of work being performed at the Michoud Assembly 
Facility (MAF) for NASA and other organizations, and the Agency will 
continue to do so. Today, MAF is transitioning from being a single-
project (External Tank), government-owned, contractor-operated 
facility, to one being used for manufacturing by several human space 
flight projects for the Constellation Program. As part of this 
transition, Ares I Upper Stage and Instrument Unit work is planned for 
MAF, as well as Orion Crew Exploration Vehicle manufacturing and Launch 
Abort System work. After completion of the Space Shuttle manifest in 
2010, MAF's major use will be the production of the Ares V heavy lift 
rocket for Constellation.
    For the next year, NASA work at MAF is focusing on: continued 
External Tank production; initial start-up of Constellation Ares I 
Upper Stage and Orion manufacturing equipment installations; 
transitioning to a new base operations contractor; and investigation of 
``enhanced use lease'' opportunities by non-NASA entities.
    During calendar year 2008, NASA is conducting the competition to 
select a new ``base operations contractor'' to operate and maintain MAF 
for NASA and non-NASA users. The contractor should be selected during 
fiscal year 2009. One reason NASA has made the change to the way the 
facility is operated now, prior to the last Space Shuttle External Tank 
being completed, is to facilitate the goal of enabling diversification 
of the work being performed at MAF before the last External Tank is 
completed. This should partially mitigate the workforce disruption at 
the end of External Tank production.
    NASA continues to refine Constellation plans this year, including 
plans for Ares V launcher design and development. It is possible that 
these refinements may accelerate Ares V work at MAF into fiscal year 
2012 or fiscal year 2011. If so, NASA will inform the Committee.
    Question. How about any in the next 5 years?
    Answer. NASA is currently investigating the possibility of adding 
Ares V manufacturing technology demonstrations to MAF over the next 
three years, prior to the start of full production of Ares V projects 
at MAF. These assessments will be conducted incrementally over the next 
two years, and may or may not result in manufacturing technology work 
assignments, based on budget availability and conflicts with work 
already at MAF. If work is added, NASA will inform the Committee.
    Layouts for NASA floor space at MAF in the fiscal year 2013-2014 
show that the great majority of MAF floor space will be used for 
manufacturing equipment installation for Ares V Core Stage and Ares V 
Earth Departure Stage (EDS) production. NASA floor plans show MAF floor 
space utilized at a very high percentage once Ares V development 
begins. Because MAF utilization is projected as being high for Ares V, 
and given the cost to programs of changing equipment locations once 
established, NASA is not currently considering major but temporary 
(two years) allocations of production work from other projects to MAF 
prior to Ares V development.
    NASA is currently refining plans to close out Space Shuttle 
External Tank production after the last Space Shuttle mission in fiscal 
year 2010. Work to dispose of materials and tooling no longer required 
for Space Shuttle production and unneeded for Constellation production 
will be conducted by a subset of the existing MAF contractor workforce. 
These plans are expected to be completed by October 2008. When these 
plans are completed and the amount and duration of work to dispose of 
External Tank manufacturing equipment is understood, NASA will inform 
the Committee.
    Question. Will you commit to do a thorough review of possible 
transfer opportunities which may help ``bridge'' employment at the 
Michoud Facility? (Yes/no)
    Answer. As stated in response to the previous question, NASA is 
currently conducting a competition to select a new ``base operations 
contractor'' to operate and maintain MAF for NASA and non-NASA users. 
The contractor should be selected during fiscal year 2009. One reason 
NASA has made the change to the way the facility is operated now, prior 
to the last Space Shuttle External Tank being completed, is to 
facilitate the goal of enabling diversification of the work being 
performed at MAF before the last External Tank is completed. This 
should partially mitigate the workforce disruption at the end of 
External Tank production.
    NASA is also exploring the potential of ``bridge'' employment at 
our impacted facilities, which may take the form of cross-training key 
Shuttle personnel to work on Constellation projects and/or early builds 
of some Constellation hardware. Also, in preparation for next year's 
budget submission to Congress, NASA is undertaking several programmatic 
trade studies for how best to plan and organize Constellation work, 
including the post-2010 flight test program, with an eye toward 
enhancing our test program and mitigating workforce impacts as we 
retire the Space Shuttle and transition to new Constellation Systems.
    It should also be noted that the first NASA Transition Workforce 
Report, submitted to the Committee on March 31, 2008, likely overstated 
the reduction in local employment at MAF because of the assumptions and 
caveats listed in that report. NASA continues to refine Ares V 
development planning, including short term manufacturing demonstration 
tasks, and these refinements may modify internal government estimates 
of contracted work to be conducted at MAF from fiscal year 2010 to 
fiscal year 2015. If there are internal estimate changes, these would 
be reflected in the next update to the NASA Transition Workforce Report 
in September 2008.

                   FUNDING FOR CONSTELLATION PROGRAM

    Question. How much in additional funding would have to be added to 
the fiscal year 2009 NASA budget to close or essentially close the gap 
between Space Shuttle retirement and the start of the Constellation 
Program?
    Answer. Full funding of NASA's fiscal year 2009 budget request for 
Constellation is needed so that we can continue successful transition 
between the Shuttle and the Orion and Ares I. The fiscal year 2009 
budget request maintains Orion initial operational capability (IOC) in 
March 2015 at a 65 percent cost confidence level and full operational 
capability (FOC) in fiscal year 2016, though NASA is working to bring 
this new vehicle online sooner. In order to accelerate the Ares I and 
Orion IOC, and provide for a 65 percent cost confidence level for a 
September 2014 IOC instead of March 2015, an additional $350 million in 
fiscal year 2009 and an additional $400 million in fiscal year 2010 
would be required.
    The Agency is considering a number of options for minimizing the 
period between Shuttle retirement and the availability of a new U.S. 
crew transport capability, including maintaining an aggressive 
development schedule for Orion/Ares I. However, keeping the Space 
Shuttle flying past 2010 is simply not a credible way to address this 
issue. The Agency cannot continue flying the Space Shuttle while 
simultaneously and aggressively developing the next-generation 
exploration systems under the Constellation program. Maintaining even a 
minimal capability to launch two Shuttle flights per year after fiscal 
year 2010 would require nearly the same infrastructure and vendor 
capabilities we have today, at a cost of approximately $2.7-$4 billion 
per year, which would likely come at the expense of Constellation 
development. In addition, the Constellation architecture is designed to 
take advantage of Space Shuttle infrastructure, production 
capabilities, and workforce once they are no longer needed for flying 
the Shuttle. If the Shuttle were kept flying past 2010, these 
capabilities could not be released for Constellation's modification and 
use. As a result, keeping Shuttle flying past 2010 would only compound 
the problem of getting Constellation into service and would not reduce 
the period between Shuttle retirement and the availability of a new 
U.S. crew transport capability.

            SMALL/DISADVANTAGED BUSINESS UTILIZATION EFFORTS

    Question. The Marshall Space Flight Center in Alabama currently has 
a U.S. Small Business Administration (SBA) Procurement Center 
Representative (PCR) which assists with small business procurement and 
technical assistance in that area. It is my understanding that this PCR 
is responsible for Michoud in New Orleans. Please provide information 
on the specific duties of this PCR.
    Answer. Ms. Barbara (Bobbie) Jenkins is the resident SBA PCR 
assigned to the Marshall Space Flight Center (MSFC), and is the liaison 
PCR and provides coverage for: the Stennis Space Center, MS, and NASA 
Shared Services Center (NSSC), which is located on the same campus as 
Stennis Space Flight Center, MS; Space and Missile Defense Agency in 
Huntsville, AL; Anniston Army Depot in Anniston, AL, Fort Rucker, AL, 
the Naval Facilities Engineering Command PWD Mid-South in Millington, 
TN, and the Corp of Engineers in Memphis, TN.
    Following is a listing of principal duties of this SBA PCR.
    The SBA PCR is responsible for representing the SBA at the 
foregoing assigned installations on all matters pertaining to 
procurement policy or operations that affect SBA's programs or small 
business concerns, interest in, or doing business with, these 
installations. The PCR reviews procurement plans and programs of the 
installation with the head of the installation or director of 
procurement. She evaluates their impact on small business and 
recommends changes to enhance small business participation. She 
develops individual plans of operation for each installation which will 
ensure adequate consideration of small business and a fair share of 
awards to small business.
    The SBA PCR takes appropriate action to resolve policy and/or 
procedural deviations which have significant adverse impact on contract 
awards to small business anticipated or made by the installation. The 
PCR reviews types and classes of items to determine which ones can be 
set-aside for small businesses.
    The SBA PCR reviews all significant procurements not set-aside by 
class action or unilateral action on the part of the installation and 
takes appropriate action to facilitate individual set-aside action on 
procurements on which research indicates the expectation of sufficient 
small business competition.
    In some cases, the PCR may also review procurements that have been 
set-aside for small business to see if they might be suitable for the 
8(a) Program or for HUBZone, service-disabled veteran-owned, or women-
owned small business; and, if so, the PCR takes appropriate action on a 
case-by-case basis to facilitate a more targeted set-aside.
    As required by Section 8(d) of the Small Business Act (Public Law 
95-507), the PCR reviews pre-award proposed subcontracting plans 
submitted by apparent successful bidders and offerors. The PCR advises 
the contracting officer if plans provide maximum practicable 
opportunities for small business in accordance with the statute and 
regulations. If not, the PCR negotiates with contracting officer to 
resolve differences.
    The SBA PCR develops technical data on specifications and 
specialized equipment necessary to produce items on which there is 
limited or no small business competition so as to provide small firms 
with the opportunity to compete. The PCR reviews local regulations and 
instructions which have an impact on small business concerns to ensure 
conformity with the Federal Acquisition Regulations (FAR) and brings 
deviations that are harmful to small business to the attention of 
proper procurement officials for correction.
    The SBA PCR appeals unwarranted rejections or withdrawals of set-
asides to the commanding officer or to the head of the installation, 
and suspends procurement until the set-aside issue is resolved. If not 
resolved at the installation level, the PCR prepares and documents 
files for set-aside appeals to the Agency headquarters level by the SBA 
Administrator.
    The SBA PCR personally develops small business sources for 
procurements on which such competition is needed or initiates action 
for other SBA offices to develop such sources. The PCR takes action to 
assure that competent small business concerns are included on the 
source list for negotiated procurement.
    The SBA PCR studies the history of sole source procurement and 
recommends specific components for direct competitive purchase by the 
Government, either through component breakout or breakout under the 
high dollar spare parts procedures. The PCR studies individual sole 
source procurement and recommends that complete specifications and 
drawings be obtained from the sole source contractor when the 
Government has purchased the rights to them, that competitive 
procurements be made, and that sources furnished by SBA be given the 
opportunity to compete.
    The SBA PCR conducts interviews with representatives of small 
business concerns and advises them how and where to sell their products 
to the Government. She directs them to the cognizant purchasing 
offices, and, when appropriate, arranges for these firms to contact the 
proper SBA representative, Certificate of Competency Specialist, 
Commercial Market Representative, Size Specialist, or Small and 
Disadvantaged Business Specialist.
    The SBA PCR participates in the establishment of small business 
award goals at installations for which the she is responsible. The PCR 
evaluates the rationale on which goals are based and negotiates with 
procurement officials for the raising of targets when data warrants 
such action.
    The SBA PCR conducts periodic seminars for interested small 
businesses, either alone or with other Federal agencies, to provide an 
update for the small business community in the area regarding changes 
in procurement regulations and/or policies which affect them.
    The SBA PCR is responsible for the screening, identification, and 
referral of all procurements to be used in the 8(a) programs nationally 
at the installations covered.
    Question. Does this PCR also cover the Stennis Space Flight Center 
in Mississippi?
    Answer. Yes, as noted above, Ms. Jenkins also covers the Stennis 
Space Flight Center.
    Question. Please provide information on the status and whether 
there is any demonstrated success of current Michoud small business 
utilization efforts.
    Answer. The attached chart contains the actuals of the two major 
contracts currently being performed at Michoud Assembly Facility by the 
Lockheed Martin Corporation. As reflected in the chart, on the External 
Tank contract, Small Businesses are receiving 21 percent of the total 
contract value, which equates to $471.2 million, and on the Facility 
Operations contract, Small Businesses are receiving 21.3 percent of the 
total contract value, which equates to $42.3 million. Lockheed is 
exceeding the negotiated small business goals for both of these 
contracts.

     LOCKHEED MARTIN CORPORATION MICHOUD ASSEMBLY FACILITY EXTERNAL TANK AND CONSOLIDATED FACILITY CONTRACTS
----------------------------------------------------------------------------------------------------------------
                                                               Awarded to SB of total
                                                                        award             Facility     Percent
                                                             --------------------------  NNM04AA02F    Achieved
                                                                 Amount      Percent
----------------------------------------------------------------------------------------------------------------
Current Contract Amount.....................................     $2,247.7  ...........        $98.4  ...........
Small Business..............................................       $471.2         21.0        $42.3         21.3
Small Disadvantage Business.................................       $109.3          4.9        $22.5         11.3
Woman Owned Small Business..................................        $71.5          3.2         $2.6          1.3
HUBZone.....................................................  ...........  ...........          $.4           .2
Veteran Owned Small Business................................  ...........  ...........        $14.8          7.5
Small Disadvantage Veteran Owned Small Business.............  ...........  ...........          $.2           .1
----------------------------------------------------------------------------------------------------------------
Note: The external tank contract is NAS8-00016, and the facility contract is NNM04AA02F. Lockheed Martin
  provides this support to MSFC at the Michoud Assembly Facility in New Orleans. These are MSFC contacts.

                      ENHANCED USE LEASE AUTHORITY

    Question. Describe the estimated workforce impact of the expanded 
Enhanced Use Lease authority on the ability to provide additional 
employment opportunities at Michoud over the next five years.
    Answer. Enhanced Use Leasing (EUL) will support NASA's efforts to 
develop underutilized real property at the Michoud Assembly facility 
(MAF), offsetting job losses from the sunset of the External Tank 
project. EUL will provide a benefit that will assist in marketing and 
developing new tenants. It will also allow NASA more flexibility in 
using the income to help reduce the cost of maintaining this national 
asset.
    MAF is playing a major role in the Constellation program including 
the manufacture of the Orion Command Module structure, the Service 
Module structure, and the Ares I Upper Stage at MAF. Starting in 2012, 
manufacturing of Ares V Boost Stage, and Ares Earth Departure Stage are 
planned for MAF as well. There is significant potential and incentive 
for private entities to locate on the site to take advantage of common 
pursuits. Enhanced Use Leasing can support and provide a vehicle for 
these pursuits. Commercial use of the space, by tier 2, 3, or 4 Space 
program suppliers is expected. The proximity of suppliers can increase 
their understanding of NASA program requirements and ease product 
delivery, expanding the skill base and workforce pool needed to execute 
NASA's next generation of vehicles.
    While it is too early to project workforce estimates, NASA's keen 
interest in preserving the talented workforce at MAF will be key to EUL 
developments. Enhanced Use Lease will allow MAF to either reduce or 
avoid increases to its facilities overhead burden and to develop 
revenue streams for sustaining certain facilities and infrastructure.
    NASA MAF has met with other Federal and NASA EUL implementers, such 
as the Department of Energy Oak Ridge National Laboratory, to discuss 
their business model for developing their science and technology park. 
MAF has specific, unique capabilities which can be utilized or expanded 
by EUL partners. These capabilities include extensive infrastructure 
for design, manufacturing, and testing of extremely large aerospace 
structures; their transportation and handling including a deep-water 
port; and the specialized environmental permits, wastewater treatment 
capability, and compliance management for large vehicle manufacturing.
    Question. Does NASA recommend any additional steps that can be 
taken by the State of Louisiana to take full advantage of this expanded 
authority at Michoud?
    Answer. As the Senator is aware, MAF hosts the National Center for 
Advanced Manufacturing (NCAM), a Federal, State, and University 
sponsored partnership. The NCAM is currently involved in discussions 
with the State to assess workforce retraining and benefit strategies to 
make sure the current MAF workforce can have full access to proper 
training to attract potential new tenants.

                  ADDITIONAL BRIDGE EMPLOYMENT EFFORTS

    Question. I would be interested if NASA could provide some specific 
recommendations for priority areas that Congress and the State of 
Louisiana can work with NASA to provide significant ``bridge'' 
employment to help retain workers at the Michoud facility.
    In particular, are there any other Federal government programs, 
such as those at the Economic Development Administration, the Small 
Business Administration's Historically Underutilized Business Zone 
(HUBzone) Program, or Department of Labor assistance programs which 
could help the economic impact of workforce reductions at the Michoud 
Facility?
    Please provide any additional areas that the Congress and/or State 
of Louisiana could help provide bridge employment at the Michoud 
facility.
    Answer. NASA does not have a recommendation at this time. Lockheed-
Martin, the prime contractor at the Michoud Assembly Facility (MAF) for 
the Space Shuttle Program External Tank, is investigating employee 
placement and potential new ``within the company'' work assignments to 
MAF as a facility user following the end of External Tank production. 
NASA will continue to investigate alternate business opportunities for 
the MAF workforce skill types and identify these to the Committee and 
Lockheed-Martin when known. NASA will investigate, during fiscal year 
2009, assistance from other Federal Government programs to affect 
economic impact from MAF work changes.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. The Western United States depends upon information 
collected by the thermal infrared instrument (TIR) on the NASA Landsat 
satellite to measure and monitor water supply and use. However, I 
understand that you have stated that building the TIR will delay the 
launch schedule for Landsat 8. Other than funding, are there any other 
factors that would preclude you from building the TIR and including it 
on Landsat 8 without delaying the scheduled launch?
    Answer. There are no substantial technical challenges associated 
with adding a thermal infrared (TIR) instrument to the Landsat Data 
Continuity Mission (LDCM). The challenges are in cost and schedule. TIR 
is not in the LDCM cost baseline, as the LDCM conceptual design did not 
include a requirement for thermal imaging. The schedule challenge 
arises from the risk of lengthening the potential data gap between 
Landsat 7 and LDCM, although NASA's current schedule projections for 
LDCM regardless of whether it flies a TIR indicate that the mission 
will not be ready for a July 2011 launch as originally planned.
    Question. NASA facilities and contractors in California are helping 
to develop and build the Orion Crew Exploration Vehicle for the 
Constellation Program; and many key components for the Space Shuttle 
program. The current shuttle fleet is scheduled to be retired in 2010, 
leaving the United States without domestic capacity for manned space 
flight. What level of funding is needed to restore NASA's manned space 
flight capacity before 2015?
    Answer. Full funding of NASA's fiscal year 2009 budget request for 
Constellation is needed so that we can continue successful transition 
between the Shuttle and the Orion and Ares I. The fiscal year 2009 
budget request maintains Orion initial operational capability (IOC) in 
March 2015 at a 65 percent cost confidence level and full operational 
capability (FOC) in fiscal year 2016, though NASA is working to bring 
this new vehicle online sooner. In order to accelerate the Ares I and 
Orion IOC, and provide for a 65 percent cost confidence level for a 
September 2014 IOC instead of March 2015, an additional $350 million in 
fiscal year 2009 and an additional $400 million in fiscal year 2010 
would be required.
    The Agency is considering a number of options for minimizing that 
gap, including maintaining an aggressive development schedule for 
Orion/Ares I. However, keeping the Space Shuttle flying past 2010 is 
simply not a credible way to address this issue. The Agency cannot 
continue flying the Space Shuttle while simultaneously and aggressively 
developing the next-generation exploration systems under the 
Constellation program. Maintaining even a minimal capability to launch 
two Shuttle flights per year after fiscal year 2010 would require 
nearly the same infrastructure and vendor capabilities we have today, 
at a cost of approximately $2.7-$4 billion per year, which would likely 
come at the expense of Constellation development. In addition, the 
Constellation architecture is designed to take advantage of Space 
Shuttle infrastructure, production capabilities, and workforce once 
they are no longer needed for flying the Shuttle. If the Shuttle were 
kept flying past 2010, these capabilities could not be released for 
Constellation's modification and use. As a result, keeping Shuttle 
flying past 2010 would only compound the problem of getting 
Constellation into service and would not reduce the period between 
Shuttle retirement and the availability of a new U.S. crew transport 
capability.
    Question. The United States faces an imminent gap in both cargo and 
crew carriage to the International Space Station after retirement of 
the Shuttle in 2010. If NASA were to pursue domestic carriage through 
the exercise of the COTS Capability D (manned) option, how quickly 
could this occur, how much would Capability D cost over what period of 
time, and when is the soonest date that a domestic, commercial provider 
could become available?
    Answer. NASA estimates that industry would require a development 
period of between 3-6 years until a fully operational Capability D for 
crew transportation and rescue services would be available. Even if 
Capability D becomes operationally available during this timeframe, 
NASA will still need to purchase Russian Soyuz crew transportation and 
rescue services to fill any gap between Shuttle retirement and the 
projected Capability D operationally available date. NASA prefers to 
purchase U.S. commercial crew transportation and rescue services once 
they have been demonstrated rather than purchase Russian Soyuz 
services.
    Credible industry proposals for Capability D would need to take 
into consideration an extended development period, major financial 
investments, and high infrastructure costs. In order for NASA to 
initiate the first phase of a Capability D option, funding on the order 
of a few hundred million dollars per partner would have to be made 
available through the development period. NASA estimates that an 
industry partner would have to spend well over $1 billion in the 
development of Capability D, either from company reserves or from 
outside investments in addition to the NASA funding. NASA believes that 
a co-investment approach would appropriately balance the government's 
contribution with the desire to stimulate the market and ensure 
commitment from industry for a follow on procurement of demonstrated 
crew transportation services. This approach would be consistent with 
the current funded Space Act Agreements with SpaceX and Orbital 
Sciences Corporation for development and demonstration of cargo 
delivery.
    Question. Are you confident that the Joint Dark Energy Mission that 
results from NASA's competition will be within the range of all of the 
explicit scientific objectives and expectations laid out by the 
National Research Council in its report on ``Beyond Einstein'' 
missions?
    Answer. Yes. From the National Academies' National Research 
Council's major findings, a Joint Dark Energy Mission (JDEM) mission 
will set the standard in the precision of its determination of the 
distribution of dark energy in the distant universe. By clarifying the 
properties of 70 percent of the mass-energy in the universe, JDEM's 
potential for fundamental advancement of both astronomy and physics is 
substantial. A JDEM mission will also bring important benefits to 
general astronomy. In particular, JDEM will provide highly detailed 
information for understanding how galaxies form and acquire their mass.
    NASA will use the National Academies' National Research Council's 
report and other related reports in preparing the Announcement of 
Opportunity (AO) for JDEM science investigations. Potential to meet 
JDEM science objectives will be a principal selection criterion. NASA 
continues to work with ESA and others to prepare for future missions 
such as LISA and Con-X to meet additional objectives of NASA's Physics 
of the Cosmos program which include the Beyond Einstein science.
    Question. The proposed budget transfers the space communications 
networks from Science to Space Operations. What is the purpose of this 
transfer and will funding for these activities be fully maintained 
after the transfer?
    Answer. The consolidation of the Agency's Space Communications and 
Navigation (SCaN) activities under a single management organization 
will move NASA away from individual solutions, providing instead an 
integrated, efficient and effective approach to meeting NASA's evolving 
SCaN needs. As part of this consolidation, NASA transferred all 
budgetary matters related to SCaN to this new organization, presently 
known as the SCaN Program Office (within the Space Operations Mission 
Directorate). The SCaN Program Office will draw on the commonality in 
the hardware, software and operations in the existing networks to 
integrate all of these networks under a single architecture, capable of 
meeting all of NASA's growing SCaN needs. The efficiency that NASA can 
achieve from this integration will provide the Agency with more 
effective SCaN services into the future and will enable the leveraging 
of cost savings into upgrading and modernizing the aging SCaN 
infrastructure. NASA anticipates that all existing activities will not 
only be maintained, they will also be enhanced to more effectively 
enable NASA's spaceflight and exploration missions.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The subcommittee stands in recess until 
April 10 when we will take testimony from the Attorney General. 
Thank you very much.
    [Whereupon, at 11:05 a.m., Thursday, April 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              


                        THURSDAY, APRIL 10, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Leahy, Feinstein, Shelby, and 
Alexander.

                         DEPARTMENT OF JUSTICE

                            Attorney General

STATEMENT OF HON. MICHAEL B. MUKASEY, ATTORNEY GENERAL

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everyone. The Subcommittee 
on Commerce, Justice, and Science will come to order.
    Today, the subcommittee will take testimony from the 
Attorney General of the United States, Mr. Mukasey. We welcome 
him for his first appearance here and look forward to a very 
straightforward, candid conversation.
    We have been informed that at approximately 11 o'clock, 
there will be a series of votes on budget issues affecting our 
housing foreclosure situation.
    We're going to do our best to finish the hearing in the 
next hour. To that end, I'm going to ask unanimous consent that 
my full opening statement be in the record. I'll say a few 
remarks, turn to my able colleague, Senator Shelby of Alabama, 
who, too, has responsibilities on the floor this morning. We 
understand our colleague, Senator Alexander, is offering an 
amendment in 15 minutes on the Senate floor and we know he 
wants to pose a question to the Attorney General and get an 
answer in writing from the Department.
    This morning is a hearing on the budget for the Department 
of Justice (DOJ). It is a very important hearing because this 
year's appropriation, when we pass it, will be the operating 
budget for the first year of the next president.
    We need to understand that the fiscal year begins October 
1. We'll get a new president on January 20. That new President 
will inherit what we present to him in the operating budget of 
the Department of Justice.
    To that end, we have to be very clear on what our national 
priorities are. We have to do all we can to work with the 
Attorney General in restoring the integrity of the Justice 
Department, improving morale at the Justice Department, and at 
the same time meeting our very serious domestic 
responsibilities of: fighting violent crime, protecting women, 
protecting children, and making sure that the grassroots law 
enforcement is a partner with the Federal Government. This is 
what our focus of our hearing will be.
    We'll also look at accountability at the Justice Department 
and make sure that we are stewards of the taxpayers' dollars. 
We know that the Justice Department has faced many challenges 
over the last several months. There's been the torture memos, 
the firing of U.S. Attorneys, the FBI's national security 
letters being mismanaged and problems with the terrorist watch 
list, and the reforms called for in the 9/11 Commission report 
have not been fully implemented.
    We're also deeply concerned about the overall budget at the 
Justice Department. The Justice Department has been cut by 2 
percent. That doesn't sound like a lot but when we look at the 
responsibilities of the Justice Department, we see they have 
responsibilities ranging from enforcing our antitrust laws to 
enforcing our civil rights laws as well as the role the Justice 
Department is supposed play by offering grants to State and 
local governments.
    Number 1, to fight violent crime where there is a terrible 
surge in violent crime. Violent crime is up, murders, rapes, 
and other heinous activity continue to rise. We need to make 
sure local law enforcement is partner with us and we're a 
partner with them. We're deeply concerned about the slashing 
cuts to the COPS Program and to the Byrne JAG program.
    Then we look at those crimes that are just despicable. 
Despicable crimes are crimes against children. As a former 
child abuse worker, I feel very passionate about this. Sexual 
predators stalking our children, child abuse, and attacks on 
women continue to plague our communities. So, we do not cut 
these important programs as the President proposes--we're very 
concerned about the drastic cuts and the elimination of 
programs like Adam Walsh, and the Violence Against Women Act 
proposed by the President.
    We note that the YWCA is here, as they always are, standing 
up for women. We wear our colors with you today in solidarity.
    You can applaud but just know that we and the good men up 
here are in solidarity with you.
    We also want to be accountable and we want to look at the 
grant programs to make sure that every dollar we have counts. 
No more $4 Swedish meatballs. We're going to make sure that 
when we issue those grants, that they are done in a timely 
manner and subject to rigorous peer-review process.
    There are many issues that I will raise in my questioning, 
but I think it's time now to move to the substance of our 
hearing and I would turn to Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman, and Mr. 
Attorney General, thank you for joining us here today to 
discuss your budget with the Department of Justice.
    The total Department of Justice budget for the fiscal year 
2009 is $22.9 billion. This is $500 million or 2 percent 
decrease below the fiscal year 2008 level.
    While the Department of Homeland Security request from the 
administration has grown seven to 10 percent each year since 
its inception, the Justice Department request continues to 
shrink by 2 to 3 percent each year.
    The chairwoman and I are concerned about the Justice 
Department continuing to be the world's premier law enforcement 
entity with these continuous decreasing budgets.
    As I've said in the past, the budget constraints placed 
upon us will once again force us to make touch decisions. The 
chairwoman has covered most of the budget in her opening 
statement, so I won't repeat all that, but I do have a number 
of issues I think we need to discuss here today.
    First, I want to recognize and extend my appreciation to 
the men and women of the Justice Department who protect this 
country from terrorism and crime each and every day. We all owe 
them a debt of gratitude.
    As in past years, the administration continues to propose 
eliminating State and local law enforcement programs which is 
troubling. These programs are the lifeblood of police 
departments throughout the Nation. I will join with the 
chairwoman in rejecting the proposals.
    The U.S. Marshals Service, regional fugitives task force, 
track down and apprehend the dangerous fugitives on our 
streets. The fugitives are some of the worst of the worst, 
usually averaging more than four prior arrests per fugitive.
    The six regional task forces arrested approximately 95,000 
felony fugitives last year. These task forces are proven and 
multiply. The Marshals Service may be the smallest Federal law 
enforcement agency but they have arrested more fugitives than 
all other Federal agencies combined, yet there are no new 
resources for their efforts in the budget.
    The National Center for Missing and Exploited Children, 
which Senator Mikulski mentioned, estimates there are currently 
more than 100,000 sex offenders who have failed to register as 
required under the Adam Walsh Act. These predators are working, 
attending school, and living in proximity to our children 
unbeknownst to the parents and law enforcement officials.
    The Marshals Service is the lead agency in the enforcement 
of the Adam Walsh Act. The Congressional Budget Office 
conservatively estimates it would cost $220 million over a 5-
year period for the Marshals Service to hire 350 new deputy 
marshals as required by the law, to locate and hunt down these 
unregistered sex offenders.
    John Walsh said the following after the signing of the act, 
and I quote, ``Legislation without the resources to back it up 
is nothing more than a photo op and yet the Department has 
requested no new resources for 2009 to reduce the number of sex 
offenders from our streets.''
    Is this giving sex offenders a free ride? What kind of 
message does this budget send? The administration also proposes 
to task the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF) with additional Southwest border responsibilities, 
highlighting cross-border arms trafficking, yet only a paltry 
$948,000 out of $100 million is requested to carry out this 
mission.
    This means that the ATF agents investigating violent crime, 
arson and gang-related activities will be relocated to the 
border. The baseline request in this budget doesn't even 
support the existing missions of the law enforcement agencies 
in the Department of Justice.
    There's no doubt we have a crisis on the Southwest border. 
Fund the Southwest border enhancement at the levels requested 
will remove the Drug Enforcement Administration (DEA), ATF, the 
Federal Bureau of Investigation (FBI) and U.S. Marshals Service 
from our communities. These communities are already stretched 
in dealing with increased crime and receive less fiscal support 
from the Department of Justice.
    Mr. Attorney General, it's been brought to my attention 
that individuals in the National Institute of Justice (NIJ) 
have attempted to derail the 2006 report language that we 
requested directing the National Academy of Sciences to conduct 
an independent forensics study.
    Once completed, this study will produce an unbiased and, we 
hope, independent assessment of the present and future needs of 
the forensics community, providing a roadmap of best practices.
    Current and former employees of the National Institute of 
Justice, along with lobbyists and contractors, have attempted 
to undermine and influence the National Academy study. On 
December 17 and 18 of this past year, the Deputy Director of 
the National Institute of Justice even convened a 
counterproductive forensic summit here in Washington. Many of 
the attendees deemed the summit a huge waste of more than 
$300,000 in taxpayers' funds.
    Also while investigating this matter, our staff discovered 
potential conflicts of interest, unethical behavior and a 
serious void of transparency where lobbyists, including former 
DOJ employees, were contracted to NIJ to conduct policy-forming 
studies and surveys. These same lobbyists, while writing these 
unbiased policies for the Department of Justice, are also 
representing clients whose business success depends on the 
results of the studies and surveys that lobbyists conducted.
    I'm not so sure the seriousness of this matter has the full 
attention of the leadership of the Department of Justice. I 
hope and encourage you to check into this matter.
    I would be remiss if I did not express my dismay at the 
Department's position or lack thereof on the recent passage of 
the Second Chance Act. In what will be a year of tough budget 
decisions, numerous re-entry, recidivism prevention, and 
prisoner education studies and programs were created.
    Most of the programs and studies already exist, yet the 
Department of Justice was silent throughout the process. A lot 
of us are troubled by section 231 related to prisoner re-entry 
procedures that ``ensure that priority is given to the re-entry 
needs of high-risk populations, such as sex offenders and 
career criminals.
    To a degree, I believe in re-entry and any recidivism 
programs, but in a tight budget year when we have to make 
choices, I think we should prioritize and ensure that the needs 
of victims and law enforcement officers are supported before 
giving any consideration whatsoever to the welfare of 
criminals.
    There are currently more than 70 programs at DOJ. Each 
program has its own constituency, you know. This legislation 
provides more welfare and career counseling by pedophiles and 
career criminals on our bill than we give to victims and most 
of our children.
    Sex offenders, a lot of people believe, cannot be 
rehabilitated, yet this bill would give them priority in 
receiving Federal taxpayer assistance to reintegrate into our 
neighborhoods.
    The Department should be extremely proud of its personnel 
stationed overseas. The ATF, FBI, DEA, Marshals Service, and 
U.S. attorneys all play vital roles in protecting our country.
    I understand the chairwoman has endorsed the efforts to 
provide Byrne State and local law enforcement funding in the 
upcoming emergency supplemental bill and Senator Mikulski knows 
we all have our support.
    Last, Mr. Attorney General, you have a lifetime appointment 
as a Federal judge in the Department of Justice. Since your 
arrival, morale has risen and we're seeing signs that you're 
having success in the rising shift. I commend you for that and 
congratulate you for your efforts and your commitment.
    Thank you for appearing before us today.
    Senator Mikulski. Thank you, Senator Shelby. We are not 
having opening statements by other members, but we want to get 
to their points quickly, Mr. Attorney General, but we note that 
Senator Alexander has to leave at 10:20 to offer an amendment 
on the Senate floor.
    Senator, I know you want to just ask your question and that 
way, it will ensure that your question gets asked, but we'll 
save the answer when the Attorney General gets the answers to 
questions.
    Senator Alexander. Thank you very much, Madam Chairman, and 
thank you for your service, Mr. Attorney General.
    I can pose my question in 2 minutes. This is the 1-year 
anniversary of Nashville's participation in the 287(g) program 
whereby local law enforcement officials are trained to identify 
illegal immigrants. The number identified has risen from 150 to 
3,000. The majority of those are transported to Oakdale, 
Louisiana, through Perry, Alabama, for their bond hearing.
    My question is: Given the increase from 150 to 3,000, and 
given the fact that it would save Federal tax dollars not to 
transport them to Oakdale, Louisiana, where they have a 26-hour 
bus ride home, and given the fact that we'd like to process 
illegal immigrants more speedily, and as an element of fairness 
to the defendants who have to pay for their own bus ride home, 
would you be willing to seriously consider placing an 
immigration judge in Nashville where there are 400 vacant beds 
in the metro jail and all this could be done more quickly?
    I thank the chairwoman for her time and I'll look forward 
to a written answer.
    Senator Mikulski. Thank you very much, Senator Alexander.
    Mr. Attorney General.
    Attorney General Mukasey. Good morning, Chairwoman 
Mikulski, Ranking Member Shelby, Senator Leahy, Senator 
Feinstein, Senator Alexander, other members of the 
subcommittee.
    I'm here to present the president's fiscal year 2009 budget 
for the Department of Justice. I was advised both before the 
hearing and during the chairwoman's remarks that this will be a 
somewhat abbreviated hearing and so I'm going to try to 
abbreviate my own introductory remarks on the fly as I give 
them so that I don't use up an inordinate amount of time.
    But I do want to say that since my nomination was approved 
by the Senate and I arrived at the Department, I've confirmed 
what I hoped and expected to find, namely men and women who are 
talented, who are hard working, who are dedicated to fulfilling 
the Department's historic mission. As you're aware, the 
Department is charged with defending the interests of the 
United States, according to the law, ensuring public safety 
against threats, both foreign and domestic, and seeking just 
punishment for law-breakers, assisting our State and local 
partners and ensuring fair and impartial administration of 
justice for all Americans.
    I have looked for opportunities during my tenure to work 
with Congress to ensure that the Department is provided the 
statutory tools and the necessary resources to fulfill those 
important mandates and I'm here to continue to do that.
    The Department relies on funding from this subcommittee to 
pursue our mission and enhance our efforts in the areas that 
need it, and I thank you very much for your continued support 
of the Department.
    I very much look forward to continuing to work with each of 
you this year to advance the budget that will help achieve that 
mission.
    My written statement addresses in detail the Department's 
budget. Obviously I'm not going to go into the detail that's 
addressed in that statement.
    The total request is $22.7 billion. Those funds will allow 
us to accomplish our broadbased mission and to focus on several 
of the priorities that I've had occasion to discuss in other 
settings. Those priorities include national security, violent 
crime, immigration and border security as well as public 
corruption.
    Now, we've advanced enhancements. First, the proposal to 
increase the resources dedicated to the national security in 
counterterrorism by $492.7 million, which includes resources 
that are necessary to improve the counterterrorism programs 
that are contained in the National Security Division and the 
Federal Bureau of Investigation.
    Second, the budget dedicates an additional $100 million to 
the Southwest Border Enforcement Program. Those funds will 
provide essential resources, personnel and infrastructure that 
are required to address illegal immigration, drug trafficking, 
gun smuggling across the Southwest border.
    Third, the budget requests funds to support essential 
Federal detention and incarceration programs that provide the 
infrastructure necessary to the Department's law enforcement 
personnel and prosecutors to carry out those responsibilities. 
I believe the enhancements there total approximately $67 
million.
    As programs, such as Project Safe Neighborhoods and the 
Southwest border initiative, investigate and prosecute 
dangerous criminals, the Department has to be ready to keep 
those individuals in a safe, secure and humane environment that 
also assures the safety of our staff in those prisons.
    And finally, the budget fully funds the base and reflects 
the Department's strategy to work in partnership with State and 
local and tribal authorities and to target funding to address 
the most significant needs in each of our communities. It's our 
collective obligation to ensure that those resources, whether 
spent on Federal efforts or in support of our State and local 
partners, are used wisely and in a way that's calculated to 
achieve the most significant impact.
    Thank you for the opportunity to present this budget, and I 
thank you for inviting me to be here today. I'm going to try to 
answer any questions that you might have, including the 
questions that were posed by Senator Alexander before he had to 
leave.
    [The information follows:]

                    Immigration Judges in Nashville

    The Department of Homeland Security (DHS) is responsible 
for the detention and transportation of aliens within their 
custody. Immigration judges are part of the Department of 
Justice, Executive Office for Immigration Review (EOIR). 
Immigration judges adjudicate cases of aliens who are placed in 
removal proceedings by DHS and charged with violations of the 
immigration laws.
    The volume, nature, and geographic concentration of 
immigration judge caseload is tied directly to initiatives 
undertaken by DHS. In general, however, not all cases 
identified under 287(g) programs are cases that necessarily 
result in a hearing before an immigration judge. In appropriate 
cases, DHS may elect to use alternatives, such as reinstatement 
of removal orders against aliens who had previously been 
ordered removed.
    With respect to the location of hearings before an 
immigration judge, EOIR holds immigration hearings in over 50 
immigration courts and numerous other hearing locations. For 
cases involving detained aliens, immigration hearings can occur 
at certain federal, state, and local correctional facilities 
and DHS detention facilities. When the caseload does not 
support the opening of a full-time, independent court, EOIR 
works with DHS to maximize immigration judge resources by use 
of video or telephone conferencing at various hearing locations 
or scheduling traveling immigration judges to appear on a 
routine basis.
    In fiscal year 2007, over 9,100 cases were received and 
completed in the Oakdale Louisiana Immigration court, a 
significant increase over previous fiscal years. Most 
individuals who are detained for immigration violations in 
Nashville and who need to go before an immigration judge are 
ultimately transported by DHS to Oakdale, based on DHS's 
regional processing plan.
    Currently, Tennessee has an immigration court in Memphis 
with two immigration judges. Cases received in Memphis are 
adjudicated in a timely manner and include cases of aliens 
primarily from Tennessee and Arkansas. Individuals detained in 
Nashville, Tennessee who seek bond hearings may file in the 
Memphis court for a telephonic hearing. Should DHS begin 
detaining aliens in Nashville, the Department of Justice would 
work with DHS to identify the appropriate immigration judge 
resources needed to adjudicate the cases.

    Attorney General Mukasey. Thank you very much.
    Senator Mikulski. Thank you very much, Mr. Attorney 
General.
    [The statement follows:]

                Prepared Statement of Michael B. Mukasey

    Good morning Chairwoman Mikulski, Ranking Member Shelby, and 
Members of the Subcommittee. It is my pleasure to appear before you 
today to present the President's fiscal year 2009 budget for the U.S. 
Department of Justice (Department). Before I begin, I would like to 
thank you for your continued support of the Department's mission and 
your recognition of the important work that we do.
    The Department is charged with defending the interests of the 
United States according to the law; ensuring public safety against 
threats both foreign and domestic; seeking just punishment for 
lawbreakers; assisting our state and local partners; and ensuring fair 
and impartial administration of justice for all Americans. The 
Department's ability to pursue this mission is dependent on the funding 
that supports our operations and allows us to enhance our efforts in 
the areas that need it.
    The President's budget request for the Department in fiscal year 
2009 is $22.7 billion, which will allow us to accomplish our broad-
based mission and provide a particular focus on the following critical 
areas: national security, violent crime, immigration and border 
security, and public corruption. More specifically, the President's 
fiscal year 2009 budget request:
  --reflects a 6 percent total increase over the fiscal year 2008 
        enacted budget for law enforcement and prosecution programs;
  --increases the resources dedicated to national security and 
        counterterrorism efforts by $492.7 million;
  --enhances the Department's capacity to address violent crime through 
        a strategy to target grant funding to the places and problems 
        that need it most;
  --dedicates an additional $100 million for the Southwest Border 
        Enforcement Initiative to enforce federal laws, including 
        immigration laws, along the border; and
  --continues the Department's focus on prosecuting public corruption.
    During a time of limited resources and tough decisions, I am 
grateful that the Committee continues to support the Department's 
mission and these priorities.
    Understanding that our time together is limited, my testimony today 
highlights key budget priorities that support our efforts to enhance 
national security and protect our homeland. Although we have a number 
of key priorities for which we are requesting enhancements, I want to 
emphasize that one of our goals is also to fund base operations for the 
Department and its missions. I will also discuss the Department's 
proposal to target state and local funding in a way that supports these 
priorities and leverages our limited resources.
    First, since the devastating attacks of September 11, 2001, the 
Department has mobilized its resources to help protect the Nation. In 
that time, this Committee has strongly and repeatedly shown its support 
of the Department's efforts in the war against terror. The President's 
fiscal year 2009 proposal asks this Committee to continue its support 
by providing the Department with the resources necessary to expand and 
improve the counterterrorism programs of the National Security Division 
and the Federal Bureau of Investigation.
    Second, the budget seeks funds to improve the Department's ability 
to combat crime along the Southwest Border. This budget request takes 
into account the full range of essential resources, personnel, and 
infrastructure required to address illegal immigration, drug 
trafficking, and gun smuggling across that border.
    Third, the budget requests funds to support essential federal 
detention and incarceration programs that provide the infrastructure 
necessary for the Department's law enforcement personnel and 
prosecutors to carry out their responsibilities. As programs such as 
Project Safe Neighborhoods and the Southwest Border Enforcement 
Initiative investigate and prosecute dangerous criminals, the 
Department must be ready to segregate those individuals from the 
general population in a safe and secure environment.
    Finally, the budget reflects the Department's strategy to work in 
partnership with state, local, and tribal authorities and target 
funding to address the most significant needs in those communities. It 
is our collective obligation to ensure that our resources--whether 
expended on federal efforts or in support of our state and local 
partners--are used wisely and in a way calculated to achieve the most 
significant impact.

    NATIONAL SECURITY: PROTECTING THE AMERICAN PEOPLE BY PREVENTING 
                             TERRORIST ACTS

    As I testified during the Department's oversight hearings earlier 
this year, since the terrorist attacks of September 11, 2001, the first 
priority of the Justice Department has been to protect Americans from 
the threat of international terrorism. All aspects of what the 
Department does, from budget, to allocation of resources, to policy 
development and legislative priorities, must continue to reflect this 
critical aspect of our mission and the reality of the world in which we 
live. According to the National Intelligence Estimate released last 
summer, al Qaeda has ``protected or regenerated key elements of its 
Homeland attack capability'' and continues to look for ``prominent . . 
. targets with the goal of producing mass casualties . . .'' As a 
result, the Department must continue to work aggressively to 
investigate and prosecute terrorists, and we must do so effectively and 
efficiently. To that end, the Department has expended substantial time, 
energy, and resources in improving and streamlining the organization 
and operations of its counterterrorism assets. In just two years, the 
Department has created and brought into full operation the National 
Security Division (NSD), which is dedicated to centralizing and 
improving the Department's ability to carry out its primary national 
security functions. Similarly, the FBI has dramatically improved and, 
in some instances, completely recreated its counterterrorism and 
intelligence collection activities. These improved efforts have allowed 
the Department to utilize its resources and its expertise to 
investigate, thwart, and prosecute terrorist conspiracies more swiftly 
and more effectively.
    The importance of the Department's national security efforts is 
reflected in the President's fiscal year 2009 budget, which requests an 
additional $492.7 million to improve the Nation's counterterrorism 
capabilities to investigate, identify, track, and dismantle terrorist 
cells operating in the United States and abroad. Although these funds 
are allocated for numerous programs and policies, I would like to 
discuss three particular priorities in the national security realm: (1) 
providing the National Security Division with the resources it needs to 
continue its successful and critical operations; (2) providing the FBI 
with necessary funding; and (3) creating a critical wireless network 
for law enforcement operations.

National Security Division
    The Department created the National Security Division (NSD) in 2006 
to combat terrorism and other national security threats more 
effectively. NSD has been critical to coordinating the Department's law 
enforcement, prosecution, and intelligence functions in the fight 
against terror. As a result of the nature of its work, the Division's 
successes are not always public. But some efforts are, for example the 
trial and conviction of Jose Padilla in the Southern District of 
Florida, and the indictment and conviction of several individuals who 
sought to profit from illegally providing sensitive national security 
information to China. To ensure the continued viability of this 
important contributor to the Department's counterterrorism efforts, the 
President's fiscal year 2009 budget requests $84 million in total 
resources to maintain the operations of the National Security Division.

Federal Bureau of Investigation
    The men and women of the FBI have provided a visible and vital role 
in protecting the Nation's security. Since the attacks of September 
2001, the FBI has implemented a comprehensive plan that has overhauled 
the FBI's counterterrorism operations, expanded its intelligence 
capabilities, begun to modernize its technology, and improved its 
coordination with federal, state, local, and tribal partners. The more 
than 30,000 agents and professional staff of the FBI work tirelessly to 
protect this country. They do so from 56 domestic field offices and 60 
additional locations around the globe. In recognition of the broad 
scope of the FBI's role in protecting the American people, the fiscal 
year 2009 President's budget requests $7.1 billion for the FBI, an 
increase of 6.77 percent. An investment of $447.4 million will support 
the FBI's intelligence and counterterrorism programs, improve 
surveillance capabilities, guard against and respond to incidents 
involving weapons of mass destruction, protect the security of the 
Nation's cyber systems, and add 280 new agents and 271 new intelligence 
analysts.
    Investigations, intelligence, and surveillance are the key tools in 
the fight against terrorism. The fiscal year 2009 President's budget 
recognizes the importance of the investigative and intelligence arms of 
the FBI with an enhancement of $235.5 million slated for operations 
focused on identifying and analyzing national security and criminal 
threats. This amount includes resources for national security 
investigations; cyber security detection and prevention; and foreign 
intelligence gathering and operations. To meet the expanding demands to 
produce and use intelligence to protect the Nation from threats, an 
additional $43.4 million will be used to strengthen the FBI's 
professional workforce to ensure that it has the critical skills, 
competencies, and training to fulfill the FBI's mission. To support 
surveillance technology, an additional $88.5 million is requested to 
sustain operational requirements, including physical and electronic 
surveillance and collection processing exploitation, analysis and 
reporting.
    Promoting partnerships both here and abroad is critical to the 
success of many initiatives. Since September 11, the Department of 
Homeland Security has supported the establishment of approximately 35 
operational fusion centers. These fusion centers foster information-
sharing between local, state, and federal partners to identify and 
assess emerging threats to the United States. The Department of Justice 
has been an integral partner in these efforts and has dedicated 
personnel and resources to the fusion centers. Together, we have been 
able to leverage existing information-sharing tools and resources. The 
FBI request includes funds to provide secure connectivity to fusion 
centers. Further, our partners in the war against terror extend beyond 
our borders and enhancements totaling $5.7 million will not only 
provide resources for the fusion center program, but also to expand the 
Legal Attache program overseas.
    Finally, the fiscal year 2009 budget seeks additional funds to 
improve the FBI National Academy, one of the premier training 
facilities for law enforcement. An enhancement of $9.8 million is 
requested to augment architectural and engineering services, construct 
roads, and install a new substation to handle an increase in electrical 
power loads. These improvements will address the training facility's 
maintenance issues and allow the FBI Academy to focus on its core 
responsibility of training.

Improved Communications Capabilities
    All of our law enforcement components--especially those involved in 
national security efforts--need wireless communication capabilities 
that will enable them to fulfill their responsibilities. The current 
DOJ radio systems used nationwide are, on average, between 15 and 20 
years old. We must modernize this technology, even though doing so is 
complicated and expensive. When I visited the border in January, I was 
shown how smugglers have better radio equipment than we provide to our 
federal agents. For example, these criminals have deployed car-battery 
operated surveillance equipment to listen to, and track the movement 
of, our law enforcement agents. Such practices put the lives of our 
brave men and women in great danger.
    To date, our funding has essentially just repaired and maintained 
our legacy systems. The fiscal year 2009 budget requests $43.9 million 
for the creation of an integrated wireless network (IWN) in the 
Washington, D.C. area. This network will allow the Department to begin 
modernizing communication technology so that we can effectively and 
securely communicate across the law enforcement community. The IWN will 
provide new equipment, better security, an improved range, and better 
interoperability among the many jurisdictions that protect the National 
Capital area. The Department intends to implement the IWN on a 
nationwide basis over the next several years.

                      SOUTHWEST BORDER INITIATIVE

    Enforcing the Nation's immigration laws and reducing violent crime 
are two of the Department's significant priorities. Earlier this year, 
I had the opportunity to meet some of the prosecutors and law 
enforcement officers who work every day to secure our borders. For 
those who work along the Southwest Border, their job is particularly 
challenging. In addition to functioning as the point of entry of many 
illegal immigrants coming into this country, the Southwest Border is an 
access point for smuggling drugs into, and guns out of, the United 
States.
    Reducing crime along the Southwest Border requires a wide variety 
of personnel, resources, and infrastructure, spanning a number of 
Department components, including the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF), the U.S. Marshals Service (USMS), the 
Drug Enforcement Administration (DEA), and the U.S. Attorney's Offices 
(USAO). Investigators and law enforcement personnel are necessary to 
police the borders and identify and prevent criminal activity, to 
detain those who are arrested, and to prosecute those who have violated 
the law. Moreover, resources are needed for the immigration courts that 
hear a substantial percentage of the matters arising out of the 
Southwest Border. Each element of this chain is essential to preventing 
crime along the Border. Without adequate funding for all of these 
activities, the other activities will suffer. In recognition of the 
continuing importance of securing our Southwest Border, the President 
has requested an enhancement of $100 million for the Department's 
enforcement and prosecution efforts.
    To combat criminal activity on the Southwest Border, the Department 
will invest resources to prosecute criminals and immigration violators 
as well as to combat drug and gun traffickers and gangs. The Department 
is requesting an enhancement of $20.4 million for the DEA that includes 
funding for 30 additional agents. DEA has long played a central role in 
the counternarcotics strategy to combat the violent drug trafficking 
organizations along our border with Mexico. DEA's strong partnership 
with Mexico has led to success in drug seizures, money laundering, 
arrests, and extraditions. This budget request will allow DEA to add 
investigative and support personnel in locations in close proximity to 
the Southwest Border for purposes of targeted enforcement operations in 
the arrival zone. It will also provide funding to support two 
additional foreign-deployed Advisory and Support Teams (FAST) and 
Operation All-Inclusive, the enforcement arm of DEA's Drug Flow Attack 
Strategy.
    The President's budget also requests an enhancement of nearly a 
million dollars for the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) to address firearms trafficking on the Southwest 
Border. The impact of firearms related violence has already been felt 
on both sides of the border in Laredo, Texas and Nuevo Laredo, Mexico. 
To address such threats, 12 positions are requested to expand ATF's 
ability to provide oversight in the region and to implement a focused 
inspection program to identify straw purchasers, traffickers, and non-
compliant licensees that are often the source of illegal firearms used 
by violent criminals. ATF agents have reported that weapons are 
flooding into Mexico each week from the United States, with a notable 
percentage linked to drug trafficking organizations. This enhancement 
to ATF's budget will help control the current illegal firearms 
trafficking along the Southwest Border.
    Increased enforcement operations will likely lead to an increased 
number of detainees. More detainees means a greater burden will be 
placed on the U.S. Marshals Service, which apprehends fugitives, 
transports and manages prisoners, protects witnesses, serves court 
documents, manages seized assets, and protects federal judges and 
courts. In just one fiscal year, from fiscal year 2006 to fiscal year 
2007, the U.S. Marshals Service prisoner operations along the Southwest 
Border increased by 9 percent, compared to a 2 percent increase in the 
other districts. The President's fiscal year 2009 budget requests an 
additional $12.7 million for 79 new positions, including 58 Deputy U.S. 
Marshals to handle the increased workload expected on the Southwest 
Border.
    An increase in detainees also means an added responsibility for the 
Office of the Federal Detention Trustee (OFDT) to provide more 
detainees with housing, medical and hospital care, guard services, 
transportation and other detention-related services. It is anticipated 
that in fiscal year 2009 OFDT will house more than 200,000 detainees in 
both Federal and non-federal facilities. To accommodate this 
anticipated increase, the President's budget requests an additional 
$37.6 million for OFDT.
    Another $10 million in enhancements will provide much needed IT 
equipment for the Executive Office for Immigration and Review (EOIR)'s 
immigration courts. This new IT equipment will improve court hearing 
records and will support the Immigration Review Information Exchange 
System, which will allow mission critical information to be shared with 
the Department of Homeland Security and other federal agencies. This 
new digital recording system itself will significantly improve the 
audio quality of immigration court hearings and will also allow the 
immigration judges to operate the system through desk-top computers.
    With an increase in detainees and immigration court hearings, comes 
the need for additional prosecutors. To meet this need, the President's 
fiscal year 2009 budget requests an additional $8.4 million for the 
U.S. Attorneys to support 83 new positions, including 50 Assistant U.S. 
Attorneys who will prosecute cases along the Southwest Border. 
Prosecutors will be focused on human smuggling, drug smuggling, 
homicide, robbery, immigration, hostage taking, money laundering, and 
immigration violation cases. To support the additional attorneys, 
paralegals will also be hired to help keep pace with the mounting 
workload which is expected to significantly increase over the 12,000 
felony cases filed in fiscal year 2007. This increase is attributed to 
more Border Patrol agents who are expected to generate an estimated 
24,000 criminal immigration cases during the next two years.
    The remaining Department enhancements for the Southwest Border 
Initiative includes support for the Criminal Division's efforts to 
reduce gang violence; the Office of Justice Programs to provide funding 
for local prosecutor offices in the four Border States (California, 
Texas, Arizona, and New Mexico); and the Organized Crime Drug 
Enforcement Task Force to improve its IT infrastructure and increase 
attorney resources along the Southwest Border.

   SUPPORTING ESSENTIAL FEDERAL DETENTION AND INCARCERATION PROGRAMS

    Since the beginning of this Administration, the Department has 
successfully increased its enforcement efforts in several key areas. 
These enhanced enforcement efforts have led to significant increases in 
the federal detention and prison populations. For example, through the 
Project Safe Neighborhoods (PSN) initiative, the Department has doubled 
the number of prosecutions for federal firearms crimes over the past 
seven years. As a result of programs such as PSN, the Federal 
government has taken on defendants who would have been prosecuted and 
imprisoned by state and local authorities, resulting in harsher 
penalties. To enable the Department to continue its focus on programs 
such as PSN, the Department requires additional funds to support 
adequate infrastructure to hold those who are arrested and successfully 
prosecuted. The President has requested $67.1 million for the fiscal 
year 2009 budget in order to respond to this need.
    I would also like to take the time to thank the Subcommittee for 
working with the Department so quickly to address the Bureau of 
Prisons' fiscal year 2008 funding needs. There is still more work to be 
done, and your continued support is appreciated.
    Last fiscal year, 7,436 inmates were added to a Federal Prison 
System that was already above rated capacity. As a result, the 
Department needs to increase prison capacity to house the growing 
prison population. The President's fiscal year 2009 budget requests an 
enhancement of $50 million and 16 positions to add 4,000 beds in 
contract facilities to house low security inmates in fiscal year 2009.
    The Bureau of Prisons (BOP) confines offenders in controlled 
environments of prisons and community-based facilities to help protect 
society from those who violate the law. As a result of tighter 
enforcement along the Southwest Border and an increase in conviction 
rates, BOP estimates that more than 13,000 inmates will be added to the 
federal prison system between fiscal year 2008 and fiscal year 2009. To 
prepare and care for these new inmates, an additional $17.1 million is 
requested to meet the managed costs of providing security, food, 
medical care, clothing, utilities, unit management, education, records 
and maintenance. Health care costs alone have risen from $9.16 per 
inmate per day in fiscal year 2001 to $11.91 in fiscal year 2007 for 
the more than 200,000 inmates in the Federal Prison System system, 
which includes 114 minimum, low, medium, and high security facilities.
    The request also includes additional funds to recruit, train, and 
employ essential staff for these facilities. Research has shown that 
when the inmate-to-staff ratio increases so does the number of serious 
assaults. The current BOP inmate population exceeds capacity by 37 
percent. While BOP has increased the number of beds and improved 
architectural designs in newer facilities to take advantage of improved 
technology and security measures, this has not been enough to keep pace 
with the increasing population. In addition, the ratio of staff to 
inmates keeps widening. As a result, filling staff positions that have 
direct contact with inmates is a critical priority.
    It is not only the inmate population that has increased, but also 
the number of pre-sentenced detainees housed in detention facilities. 
The President's fiscal year 2009 budget, as part of the Southwest 
Border Initiative, requests $37.6 million for the Office of the Federal 
Detention Trustee (OFDT) to handle this increase of pre-trial 
detainees.

 SUPPORTING OUR STATE, LOCAL, AND TRIBAL PARTNERS IN THE FIGHT AGAINST 
                                 CRIME

    The Nation's safety depends on the combined work of law enforcement 
personnel acting at the federal, state, and local levels. The 
Department significantly values the partnerships it has forged with 
state and local authorities to investigate and prosecute serious 
crimes, including matters of national security. We also understand that 
these partnerships, in some cases, require additional funding to 
support local participation.
    In an effort to utilize its resources and target them effectively 
to the areas of greatest need, the Department proposes consolidating 70 
grant programs into four new competitive grant programs: (1) Violent 
Crime Reduction Partnership Initiative; (2) Byrne Public Safety and 
Protection Program; (3) Child Safety and Juvenile Justice Program; and 
(4) Violence Against Women Grants. Through these combined grant 
programs, more than $1 billion will be available in discretionary grant 
assistance for state, local, and tribal governments.
    The President's budget requests $200 million to fund the Violent 
Crime Reduction Partnership Initiative to provide necessary funding to 
those communities who need assistance in responding to violent crime. 
Many communities continue to struggle with violent crime. To assist our 
local partners, last fall the Department invested $75 million in 106 
jurisdictions to combat violent crime through multi-agency and multi-
jurisdictional partnerships that include at least one federal law 
enforcement agency. The flexibility to meet the needs of those 106 
communities came from the 2007 Joint Resolution, which gave the 
Department discretion in administering crime fighting funds.
    In order to build on the success of that $75 million investment, 
the President's fiscal year 2009 budget requests $200 million for the 
Violent Crime Reduction Partnership Initiative. The Initiative will 
address violent crime through multi-jurisdictional law enforcement 
partnerships like those funded this past fall and will use competitive 
grants to combat a jurisdiction's specific violent crime problems. The 
program is designed to address crimes that range from drug trafficking 
to gang activity and to address the crime problems of both large and 
small communities. In addition to providing necessary funds to those 
localities that need assistance, the program is designed to retain the 
flexibility to adjust to changing trends in criminal behavior.
    In fiscal year 2009, the President has requested $200 million for a 
competitive grant program entitled the ``Byrne Public Safety and 
Protection Program.'' This grant program will address several critical 
concerns that confront many law enforcement agencies and the 
jurisdictions they serve, including reducing violent crime; addressing 
substance abuse; enhancing law enforcement information sharing efforts; 
improving the capacity of law enforcement to use forensic evidence and 
reduce the DNA evidence backlogs; addressing human trafficking; 
expanding prisoner re-entry initiatives; and improving services to 
victims of crime. Both government and non-government entities will be 
eligible to apply for the fiscal year 2009 Byrne program.
    With the advent of new technology, we have seen a devastating 
increase in the number of children that are exploited through the 
Internet. In order to help address this problem, the Department is 
proposing the consolidation of several juvenile justice and exploited 
children programs into one new grant program entitled the ``Child 
Safety and Juvenile Justice Program'' for which the President has 
requested $185 million. This new grant program will be both flexible 
and competitive and will focus on reducing incidents of child 
exploitation and abuse through cybercrimes, improving juvenile justice 
outcomes, and addressing school safety needs.
    The fourth new program is entitled ``Violence Against Women 
Grants'' and $280 million has been requested for this initiative. Like 
the other grant programs, this one also consolidates existing programs 
to allow grantees to request funding through a single application to 
support activities previously authorized under multiple grant programs. 
Whereas the other three grant programs I mentioned will be administered 
by the Office of Justice Programs, this one will be administered 
through the Office on Violence Against Women (OVW). This new grant 
program will continue to emphasize OVW's focus on enhancing 
collaboration, measuring effectiveness, and maintaining a 
sustainability focus related to ending domestic violence, date rape, 
sexual assaults, and stalking.
    In addition to these four consolidated grant programs, the 
President has also requested funds for the Regional Information Sharing 
System (RISS); the Crime Victims Fund, the Bureau of Justice Statistics 
(BJS); and the National Institute of Justice (NIJ).

                               CONCLUSION

    Chairwoman Mikulski, Senator Shelby, and Members of the 
Subcommittee, I want to thank you for this opportunity to present the 
President's fiscal year 2009 budget. As you know, my tenure in the 
Department to date has been brief, but over the past several months my 
knowledge of, and respect for, the men and women who are protecting and 
serving this country has only grown. And it is with your continued 
support that they can continue to do their jobs to ensure that justice 
is served.
    Today I have highlighted critical areas that require attention and 
resources so that the Department can fulfill its mission to enforce the 
Nation's laws and help protect national security. I hope you agree that 
these are worthy investments for fiscal year 2009. As always, we are 
aware that there are tough decisions and challenges ahead and I look 
forward to working with you as we move forward.
    Once again, thank you for inviting me to be here today. I would be 
pleased to answer any questions you may have.

                          TERRORIST WATCH LIST

    Senator Mikulski. There are many questions related to 
national security and also the role of the Justice Department 
in writing certain legal memos related to everything from wire-
tapping and surveillance to torture.
    We note that the chairman of the Judiciary Committee is 
here and we're sure that he's going to have a robust set of 
questions about these issues.
    I have one question related to the investigations 
surrounding the events around 9/11 and it goes like this. After 
9/11, we found out that terrorists came into this country 
because of the failure of the watch list. The watch list failed 
because there were too many of them and they didn't talk to 
each other, so that if you were a watch list, you essentially 
were a dysfunctional situation.
    Now, 6 years after 9/11, the inspector general recently 
reported unacceptable errors in the terrorist watch lists. I, 
the Attorney General, this isn't Senator Mikulski speaking, 
said DOJ law enforcement agencies do not have a functional 
system for reporting names to the terror watch list, for taking 
names off that are inadvertently placed on there or have a 
similar or identical name to someone we have to keep an eye on. 
The report notes that the FBI is delayed in reporting names to 
the watch list by up to 4 months.
    Now, we're part of the DNI's coordinating team, the 
Director of National Intelligence. Would you tell us what role 
your leadership is playing in ensuring that we have a 
functional watch list system?
    Attorney General Mukasey. Well, we're playing two roles. 
One is in attempting to address the concerns that were 
addressed in the inspector general's report that you mentioned; 
that is, getting people on the watch list that belong there and 
getting people off who don't.
    The difficulty, as you mentioned, has to do in part with 
the way names are placed on the watch list and the way names 
are formulated. There are numerous variations in the spelling 
and formulations of particular names.
    Without getting into details, there are various ways of 
spelling a particular name. Each of those may have to be 
entered on the watch list. Each of those may then have to be 
removed. This is not an easy process, but it's one which we are 
addressing, both in getting names on the list as well as----
    Senator Mikulski. But, Mr. Attorney General, I'm just going 
to jump in here. It's been 6 years since 9/11, 6 years. We've 
also had tremendous breakthroughs in technology. We understand 
the difficulties. It's the same difficulty that always existed.
    What are we doing to end the difficulty and what are we 
doing--do you have a set of--do you have a methodology for 
resolving this problem? Do you have time tables for fixing this 
problem? Do we have the right people solving this problem?
    Every time we turn around, we hear about how hard it is to 
do it. We know it's hard. If it would have been easy, it would 
have been done.
    Attorney General Mukasey. The DNI is the principal person 
who is addressing it. He's the principal person with whom I've 
had conversations.
    It's my understanding that there's an attempt to try to 
infuse technology to address this, but the fact is that because 
names are spelled in various ways, it is a difficult thing to 
make sure that we get everybody on that belongs on and then 
when somebody has to get off, get all the various formulations 
of his name off.
    They're trying to use technology to the extent that it can 
be used, but the variations in spelling of the same name which 
may add up to 6, 7, 8, or 10 variations accounts for the size 
of the list and accounts also for the difficulty of getting 
names off.
    Senator Mikulski. Well, in other words, you say it's the 
DNI's job. The DNI says that's the FBI's role and then we're 
back to where we started.
    I really do believe that there has to be a very high-level 
decision with the DNI, you as the Department of Justice, and 
the FBI and Homeland Security to really get these watch lists 
undertaken.

                             VIOLENT CRIME

    But, listen, I have a short amount of time. I want to talk 
about violent crime in our communities. Violent crime continues 
to plague our communities. More than ever, State and local 
governments need help putting more cops on the beat. Yet, when 
we look at the Department of Justice's budget, though there's 
an increase for Federal law enforcement, particularly the FBI, 
this has essentially been funded by restructuring State and 
local law enforcement and also eliminating those programs that 
are important to juvenile justice, the Adam Walsh bill, the 
Violence Against Women Act.
    Fiscal year 2009 eliminates the COPS Program which has been 
used to put more cops on the beat and better prepare them. It 
also restructures and eliminates the Byrne grants.
    Could you tell us, number one, what is the rationale in 
eliminating Byrne grants and eliminating the COPS Program which 
is the cops on the beat, and with the elimination of those 
programs, then how does the Department of Justice want to be a 
partner in fighting the surge in violent crime?
    We seem to be good at fighting the surge in Baghdad. I'd 
like to fight the surge in Baltimore.
    Attorney General Mukasey. There have been spikes in violent 
crime, but I think violent crime generally over the last 
several years is down, thanks to a focused effort using task 
forces to address violent crime issues, and we have tried to do 
that in as focused a way as we can.
    What we've tried to do with State and local grants is to 
put them essentially into four categories: violent crime 
reduction, public safety and protection grants generally, child 
safety and juvenile justice, and violence against women, and 
there's been $200 million allocated to violent crime reduction, 
Byrne public safety and protection, a $185 million for child 
safety and juvenile justice, and $280 million to violence 
against women.
    Those are only the grant programs. Our own efforts in that 
area--and you mentioned enforcing the Adam Walsh Act. We 
continue to enforce the Adam Walsh Act at the same level at 
which it was enforced before.
    You're correct in pointing out that the budget contains no 
enhancement for it, but I would point out that it's continuing 
to be enforced at the level it was before. This is the kind of 
effort that was addressed by it; that is, enforcing laws that 
inhibit and restrict and punish exploitation of children. It's 
something we were doing before the passage of the Adam Walsh 
Act. There are designated deputy U.S. Marshals in each district 
to coordinate Adam Walsh Act enforcement, so that potentially 
those deputy U.S. Marshals in each district can be brought to 
bear on the program as it may exist in that district. That's 
the way we're trying to approach it.
    Senator Mikulski. Well, my time is up. I want to turn to 
Senator Shelby. I fundamentally disagree with these premises. I 
think we need a COPS Program, we need a Byrne Program. Last 
year, we funded violence against women at $400 million. It has 
now been reduced.
    Fundamentally, we need to have more people and also one of 
the great ways to deal with violent crime is through these 
intervention efforts like we have in the Juvenile Justice Block 
Grant Program.
    I'm going to come back to my questions, if there's time 
before the vote, but let me turn to Senator Shelby.

                          EXPLOSIVES DATABASE

    Senator Shelby. Thank you, Madam Chairman. Mr. Attorney 
General, the establishment of the Office for Bombing Prevention 
was created under the jurisdiction of the Department of 
Homeland Security to address terrorist explosive threats and 
for other purposes.
    This proposal contains language that would provide yet 
another explosives database. The Department already has two 
databases with the ATF and the FBI. If the Department of 
Justice already has, and we do, two databases, you do, why is 
it necessary to create yet another explosives database? It 
seems to be duplication there.
    What will the Department of Homeland Security system 
provide that the Department's current systems do not? I guess 
basically how many computer databases with similar information 
do we need before we have so many, because you have two now and 
you're talking about creating another one. Are you familiar 
with that?
    Attorney General Mukasey. Well, I'm familiar with the fact 
because you mentioned it. I can't speak too precisely what 
would be addressed by the DHS database.
    I will say that the ATF and FBI databases, which you 
mentioned, are vital.
    Senator Shelby. They're very important.
    Attorney General Mukasey. And we appreciate your particular 
efforts to focus those and to center them in a facility that 
will enable us to really exploit the information that they 
gather.
    As you know, they are housed in what might perhaps be 
described, not very charitably, as an enhanced garage in 
Quantico and they're going to be moved to a suitable facility 
in Alabama when that's ready and we're deeply appreciative of 
that because they help not only with explosives analysis here 
but also improvised explosive devices (IEDs) that we get sent 
from Iraq and Afghanistan.
    Senator Shelby. Absolutely.
    Attorney General Mukasey. They're very helpful with that.
    Senator Shelby. Well, the FBI's working with the Army on a 
lot of that, are they not, and the ATF, on a lot of these 
explosives and provides explosive devices?
    Attorney General Mukasey. We want to continue that and 
obviously if there's anything that's added by DHS, we're happy 
to accept it. We think the principal effort should be where it 
is, namely with ATF, which does a terrific job, and the Bureau.
    Senator Shelby. Will you get your staff to see what they're 
doing there, and if this is duplication, we need to know?
    Attorney General Mukasey. I certainly will.
    [The information follows:]

 Proposed Creation of a Database Under the Jurisdiction of the Office 
       for Bombing Prevention/DHS With Information on Explosives

    The Department supports a multi-layered defense to 
adequately defend against the threat presented by explosives, 
with each layer reducing the ability of terrorists to acquire 
and use IEDs. Training is an important component in ensuring a 
successful defense against IEDs. The Department is not aware of 
DHS' specific IED training curriculum and cannot comment. State 
and local agencies also offer varied curriculums on IED 
training.
    Department of Justice bomb databases located at ATF and the 
FBI are targeted toward investigation of bombing and analysis 
of explosives cases and forensic information.
    ATF's Bomb Arson Tracking System (BATS) is a case 
management system used by federal, State, and local agencies 
investigating arsons, bombings, and other explosives incidents. 
ATF developed BATS to allow law enforcement agencies to solve 
arson and bombings crimes by tracking and sharing information 
on these cases and to determine national trends and patterns. 
The system provides law enforcement and fire service officials 
with access to information collected in ATF's U.S. Bomb Data 
Center (USBDC), the repository for all domestic bombing 
incidents. The USBDC, with an information management system 
containing more than 140,000 arson and explosives incidents, 
provides intelligence to ensure the highest degree of 
investigative coordination throughout the law enforcement 
community. The USBDC also supports ATF Certified Explosives 
Specialists (CESs) and Explosives Enforcement Officers (EEOs) 
who are assigned to the Department of Defense Combined 
Explosives Exploitation Cells (CEXC) in Iraq.
    EXPeRT is the FBI's document management system and 
electronic reference library for organizing and making 
available for future reference all the documents, reference 
material, photos, and other information related to explosives 
forensic examinations conducted by the FBI Lab Explosives Unit 
and the Department's Terrorist Explosive Device Analytical 
Center (TEDAC). The EXPeRT systems contain searchable tables of 
information on explosives components such as detonators or 
detonating cord, evidence chain of custody data, or other 
tables of information that can be linked to the documents and 
photos in the system based on case ID or other user established 
criteria. EXPeRT is used within the FBI to share case data and 
reference material that support forensic exams and 
investigations, within TEDAC in the DOJ/DOD/INTEL Community to 
share information.
    The DHS Office for Bombing Prevention (OBP) database 
referenced in proposed legislation already exists as the 
National Capability Database (NCAD). The DHS database collects 
and shares information about federal, state, and local law 
enforcement and emergency service capabilities including bomb 
squad, dive teams, explosives detection canine teams, and SWAT 
teams. State and local planners use NCAD to identify gaps and 
apply ``best practices'' to improve their security posture and 
develop multi-jurisdiction plans to respond to emergencies.

                             ADAM WALSH ACT

    Senator Shelby. Thank you. The Adam Walsh Act, Mr. Attorney 
General, as you know, was enacted on July 27, 2006. The act 
directs the Attorney General, you, sir, to use the resources of 
Federal law enforcement, including the U.S. Marshals Service, 
to assist jurisdictions in locating and apprehending sex 
offenders who violate sex offender registration requirements.
    The act also deems as a fugitive any sex offender who 
violates a sex offender registration requirement.
    The President's budget that I mentioned earlier does not 
appear to sufficiently request Marshals Service funding 
specifically for implementation of the Adam Walsh Act and this 
is troubling to a lot of us.
    Based on the President's budget request, should this 
subcommittee be concerned that the Department is inadequately 
prioritizing the need to identify and apprehend absconders from 
the sex offender registry, given that the risk of recidivism 
among the pedophiles and sex offenders is so high?
    Attorney General Mukasey. I think, given the Department's 
historic commitment, which really antedates the Adam Walsh Act, 
to enforcing crimes of violence against children, as well as 
the presence in each district of coordinating deputy U.S. 
Marshals, should provide some reassurance to the subcommittee. 
I agree that we have to be vigilant about the use of resources 
to make sure that, to the extent the function of the U.S. 
Marshals Service is to apprehend fugitives and that's part of 
the mandate, that they address the fugitives from this 
registration program and fugitives who commit child molestation 
offenses generally. That's a scourge and that's always been a 
priority of the Justice Department historically and will remain 
so.
    Senator Shelby. How committed are you as the Attorney 
General, and you head up the Justice Department, to use Federal 
law enforcement, including the Marshals Service, of course, to 
apprehend sex offenders?
    Attorney General Mukasey. Senator, I visited the National 
Center for Missing and Exploited Children in Alexandria and I 
recommend that to anybody who hasn't seen it because it's a 
life-changing experience.
    We have deputy U.S. Marshals there full time who receive 
information and get it out to the law enforcement authorities 
who can use it to apprehend these people. We are and remain 
very committed and we're happy for your support because we 
share that concern.
    Senator Shelby. There are a number of Adam Walsh provisions 
expiring in fiscal year 2009 and they include the following. 
Given the landmark importance of the Adam Walsh Act and its 
many provisions, has the Department at this point contemplated 
a legislative plan regarding these expiring provisions and, if 
not, will you and will you get back with us?
    Attorney General Mukasey. I will get back to you. I am not 
particularly familiar with those. I know that we're trying to 
fund the ongoing ones and to make sure that our deputy U.S. 
Marshals address the problem that you mentioned.
    [The information follows:]

                             Adam Walsh Act

    Below is a list of the expiring provisions of the Adam Walsh Act. 
At present the Department is still evaluating the necessity (utility?) 
of each and anticipates working with authorizing and appropriations 
committees to ensure that all relevant (necessary?) provisions remain 
in force before they expire.
    Expiring sections of the Adam Walsh Act:
  --126--Sex Offender Management Assistance (SOMA) Program
  --142--Federal assistance with respect to violations of registration 
        requirements
  --621--Pilot program for monitoring sexual offenders
  --623--Sex offender apprehension grants; juvenile sex offender 
        treatment grants
  --625--Grants to combat sexual abuse of children
  --631--Jessica Lunsford Address Verification Grant Program
  --632--Fugitive safe surrender

    Senator Shelby. Thank you.
    Senator Mikulski. Thank you very much. It was a whole line 
of questioning that I had hoped we would ask. It's a very 
serious issue.
    Senator Leahy, also the chairman of the Judiciary 
Committee.
    Senator Leahy. Thank you very much. Attorney General, good 
morning.
    Attorney General Mukasey. Good morning.

                             VIOLENT CRIME

    Senator Leahy. Beginning with your immediate predecessor, 
Attorney General, we have seen the rate of violent crime go up 
during the past 2 years.
    Senator Mikulski has already gone into this to some extent, 
but I, too, am thinking about this because last month Senator 
Specter and I had a field hearing in Rutland, Vermont, about 
small cities and towns and rural crime, and the impact of drugs 
and violence on them. These are cities and towns that can't 
fight such kind of crime. It's totally different than what 
they're used to. We have Federal programs that funded State and 
local enforcement--the COPS Program, Byrne-JAG Program, Crime-
Free Rural States Program--that brought down crime 
considerably.
    The administration has tried to dismantle these, to 
eliminate them. You announced earlier this year $200 million in 
new Federal assistance for State and local law enforcement. 
That didn't even begin to make up for the billions that are 
being cut.
    I have a difficulty explaining to people in Vermont why we 
can spend over $20 billion on the Iraqi Police Force and then 
we don't even know what happened to their weapons, we don't 
know where much of the money went, but we have to cut money for 
a police force in America to pay for a police force in Iraq. 
And what do I say to them? Are we going to find monies that are 
going to come back to our own police forces, this money that's 
been cut, or do we have to just continually send it to the 
Iraqi Police Force?
    Attorney General Mukasey. I can't address the question of 
whether money in Iraq is being used effectively or not being 
used effectively.
    What I can say is that we----
    Senator Leahy. Trust me, it's not from every hearing we've 
had, but go ahead.
    Attorney General Mukasey. I don't know about that. I've 
visited Iraq, and I saw the rule of law efforts that are being 
made by our people there and by their people there.
    Senator Leahy. We still can't find a whole lot of the 
handguns we sent over there. We have no idea what happened to 
them.
    Attorney General Mukasey. It's a war zone, and I understand 
that things happen in a war zone that don't happen in a peace--
--
    Senator Leahy. We have found some of them and they've been 
used against us, against our forces. Go ahead.
    Attorney General Mukasey. The--we continue to believe in 
the use of the task force approach toward fighting crime, 
particularly toward fighting methamphetamine, which is an 
increasing scourge, particularly in our rural areas, and we've 
had great success with that.
    We believe that organizing the grant allocation program the 
way that I described initially is the best way to make use of 
scant resources. We're not pretending that less money is more 
money, but we're trying to use it as intelligently as we can.
    Senator Leahy. Well, let us work together and work with 
members of both sides of the aisle here because we've found 
success in the COPS Program and other programs like that, 
because with them crime did come down. They are now being cut 
out and crime's going up. I think there's more than a 
corollary.
    I would also hope that all these inquiries being made, by 
whether this committee or the Judiciary Committee, that are not 
being answered, will be answered. We've had no answers to 
questions we asked after a hearing weeks ago.

                          MONITORSHIP PROGRAMS

    I'll tell you one I'm especially interested in. I asked 
months ago about the lucrative no bid contracts awarded to 
former political appointees at the Justice Department for 
monitoring compliance with settlements and deferred prosecution 
agreements in criminal cases.
    According to press reports, these contracts include one 
funneled by former New Jersey U.S. attorney, Christopher 
Christy, to his former boss, Attorney General Ashcroft's 
consulting firm, worth somewhere between $28 million and $52 
million. The story on the front page of yesterday's New York 
Times suggests that the Department could use these agreements 
in the subprime mortgage investigations. Many are concerned 
that that's nothing more than a get out of jail free card for 
corporations.
    Any chance that I might get an answer to the questions I 
asked 3 months ago about who got these contracts, their 
amounts, and how they were rewarded and implemented?
    Attorney General Mukasey. Well, I'm aware of your 
correspondence and it will be responded to, but I can answer 
some of your questions now in the order in which you asked 
them.
    [The information follows:]

                            No-bid Contracts

    On May 15, 2008, the Department submitted a letter to 
Senator Leahy in response to his letters of January 10 and 
February 26, 2008. The May 15 letter addresses the issues 
raised in this question, including the process by which 
monitors are selected. In particular, as noted in the May 15 
letter, the current policy governing the selection and use of 
corporate monitors is set forth in a memorandum dated March 7, 
2008, from Acting Deputy Attorney General Craig S. Morford, 
entitled ``Selection and Use of Monitors in Deferred 
Prosecution Agreements and Non-Prosecution Agreements with 
Corporations'' (the ``Monitor Principles''). Section II of that 
memorandum describes key aspects of monitor selection, 
including oversight. Among other things, monitor candidates 
must be considered by a committee, and the Office of the Deputy 
Attorney General must approve the monitor.
    The Monitor Principles are designed to ensure that the 
monitor selection process produces a high-quality and conflict-
free monitor. Political and personal favoritism have no place 
in this process. Toward that end, the Monitor Principles 
require, among other things, that (a) Government attorneys must 
be mindful of their obligation to comply with existing 
conflict-of-interest guidelines; (b) the Government must create 
a committee in the Department component or office at issue to 
consider monitor candidates; (c) United States Attorneys and 
Assistant Attorneys General may not make, accept, or veto the 
selection of monitor candidates unilaterally, and (d) the 
Office of the Deputy Attorney General must approve the monitor.

    Attorney General Mukasey. The issue of grants to 
monitorship programs was addressed in a March memorandum to all 
United States attorneys setting forth best practices. It 
includes a requirement that the Deputy Attorney General monitor 
who is appointed by a United States attorney. These are--I 
should add that the compensation under a monitorship program 
comes not from public funds but comes from the corporation 
that's being monitored.
    Senator Leahy. I understand that. Mr. Attorney General, I 
think we're going to have to have another hearing on this 
because people are losing their pension funds, they're losing 
their homes and they're losing their investments, and we want 
them to know that somebody's not being given a sweetheart deal. 
That's why I urge you to answer.
    My time is virtually up, but I would like to ask one more 
question and feel free to answer what you want on this.

                          PRE-9/11 PHONE CALL

    You recently gave a speech at the Commonwealth Club, at 
which you made reference to a pre-9/11 phone call from 
Afghanistan to the United States. Here's what you said. This 
was an open meeting. ``That's the call we didn't know about. We 
knew there'd been a call from someplace that was known to be a 
safe house in Afghanistan, and we knew that it came to the 
United States. We didn't know precisely where it went.'' You 
indicated the failure to intercept this was responsible for the 
deaths of more than 3,000 people on September 11. You also 
suggested that we didn't intercept this phone call because the 
Foreign Intelligence Surveillance Act prevented it.
    I've gone back through the 9/11 Commission report. Nobody 
else seems to have known about this call you made or that----
    Attorney General Mukasey. I didn't make the call.
    Senator Leahy. Hmm?
    Attorney General Mukasey. I didn't make the call. I 
mentioned it.
    Senator Leahy. No, you mentioned the call, but nobody else 
seems to know about this.
    So, can you tell me what the circumstances were on that and 
why somebody would have stopped it because nobody else seems to 
know about this call from Afghanistan? You talked about it.
    We do know about the Department of Justice failing to even 
listen to their own FBI agents who told them about these 
hijackers were learning to fly--Agent Bill Kurtz, among 
others--have said so--and were told we've got this under 
control. We know that the Department of Justice wanted to cut 
the budget on counterterrorism on September 10. We know that a 
lot of those signals were missed, but nobody seems to know 
about this phone call you talked about.
    Attorney General Mukasey. The phone call I referenced in--
by the way, it was not in the speech. It was a question and 
answer session following the speech, relates to an incoming 
call that is referred to in a letter, dated February 22 of this 
year, from the DNI and me to Chairman Reyes of the House 
Intelligence Committee, with copies to principal members and 
the chairman of the Senate Intelligence Committee.
    The underlying reference is contained in a joint 
intelligence report of the House Intelligence Committee and a 
Senate Intelligence Committee. I'm happy to provide you with a 
copy of that reference.
    Senator Leahy. Would you, please?
    [The information follows:]

              Information Regarding a Terrorist Phone Call

    The Department has previously clarified the details of the 
intelligence collection discussed by the Attorney General and provided 
additional information in a letter dated April 10, 2008 from Principal 
Deputy Assistant Attorney General Brian Benczkowski to Chairmen Conyers 
and Scott, a copy of which was sent to Chairman Leahy, among others. A 
copy of that letter and associated attachments is attached for the 
Committee's review:

    Dear Chairmen Conyers, Nadler, and Scott: This responds to your 
letter of April 3, 2008, in which you discuss press reports regarding a 
question and answer session following a speech on public corruption 
where the Attorney General, in response to a question, discussed the 
Administration's effort to work with Congress to modernize the Foreign 
Intelligence Surveillance Act of 1978 (FISA).
    In his remarks, the Attorney General discussed a pre-September 11, 
2001, intelligence collection under Executive Order 12333 of 
communications between a terrorist facility abroad and one of the 9/11 
hijackers. The Attorney General and the Director of National 
Intelligence have discussed this particular intelligence collection 
before, in a joint letter they sent to Chairman Reyes on February 22, 
2008. In that letter, which is enclosed for your convenience, the 
Attorney General and the Director of National Intelligence (DNI) 
explained that because of the nature of the collection, the 
Intelligence Community missed the opportunity to identify the domestic 
end of the communication prior to September 11, 2001. This episode is 
also referenced in the report of the Joint Inquiry by the Senate and 
House Intelligence Committees into the 9/11 attacks. Some of the 
confusion regarding the Attorney General's remarks may have arisen from 
the details provided by the Attorney General of the nature and location 
of the terrorist facility. We note that while the Attorney General 
referenced a communication between a 9/11 hijacker and a location in 
Afghanistan, he was, in fact, referring to communication between a 9/11 
hijacker and a terrorist facility located in a different country. Apart 
from your questions concerning the particulars of the response the 
Attorney General provided at the Commonwealth Club, your letter appears 
to question the very premise for the joint congressional and executive 
branch effort over the past year to modernize FISA. We believe there is 
a broad bipartisan agreement among Members of Congress that FISA has 
become outdated in large part because of changes in communications 
technology and the nature of national security threats facing the 
country in the past thirty years. This mutual understanding led to the 
passage of the Protect America Act last year and underlies the 
continued bipartisan effort to place HSA modernization on a long-term 
footing. Your letter, for instance, asks whether a FISA order could 
have been required in 2001, to intercept a communication with a 
terrorist suspect overseas. Prior to the passage of the Protect America 
Act, our intelligence officials were frequently required to seek a 
court order based upon probable cause to target the communications of 
terrorists located overseas; indeed, this requirement, which was 
discussed extensively both in public hearings and in closed session, 
was the primary impetus for the Executive Branch's efforts to modernize 
FISA. As the Attorney General and the Director of National Intelligence 
explained in their letter of February 22:
    . . . HSA's requirements, unlike those of the Protect America Act 
and the bipartisan Senate bill, impair our ability to collect 
information on foreign intelligence targets located overseas. Most 
importantly, FISA was designed to govern foreign intelligence 
surveillance of persons in the United States and therefore requires a 
showing of ``probable cause'' before such surveillance can begin. This 
standard makes sense in the context of targeting persons in the United 
States for surveillance, where the Fourth Amendment itself often 
requires probable cause and where the civil liberties of Americans are 
most implicated. But it makes no sense to require a showing of probable 
cause for surveillance of overseas foreign targets who are not entitled 
to the Fourth Amendment protections guaranteed by our Constitution. Put 
simply, imposing this requirement in the context of surveillance of 
foreign targets located overseas results in the loss of potentially 
vital intelligence by, for example, delaying intelligence collection 
and thereby losing some intelligence forever. In addition, the 
requirement to make such a showing requires us to divert our linguists 
and analysts covering al-Qa'ida and other foreign threats from their 
core role--protecting the Nation--to the task of providing detailed 
facts for FISA Court applications related to surveillance of such 
foreign targets. Our intelligence professionals need to be able to 
obtain foreign intelligence from foreign targets with speed and 
agility. If we revert to a legal framework in which the Intelligence 
Community needs to make probable cause showings for foreign terrorists 
and other national security threats located overseas, we are certain to 
experience more intelligence gaps and miss collecting information.
    We are also enclosing public testimony from a senior Justice 
Department official explaining why FISA, prior to the passage of the 
Protect America Act, often required a court order to surveil overseas 
intelligence targets.
    Your letter also inquires why FISA's emergency provisions were not 
an adequate substitute for the authorities the Government has obtained 
under the Protect America Act (Public Law 110-55). This issue has also 
been repeatedly addressed by the Executive Branch, most recently in the 
February 22 letter:
    You imply that the emergency authorization process under FISA is an 
adequate substitute for the legislative authorities that have lapsed. 
This assertion reflects a basic misunderstanding about FISA's emergency 
authorization provisions. Specifically, you assert that the National 
Security Agency (NSA) or the Federal Bureau of Investigation (FBI) 
``may begin surveillance immediately'' in an emergency situation. FISA 
requires far more, and it would be illegal to proceed as you suggest. 
Before surveillance begins the Attorney General must determine that 
there is probable cause that the target of the surveillance is a 
foreign power or an agent of a foreign power and that FISA's other 
requirements are met. As explained above, the process of compiling the 
facts necessary for such a determination and preparing applications for 
emergency authorizations takes time and results in delays. Again, it 
makes no sense to impose this requirement in the context of foreign 
intelligence surveillance of targets located overseas. Because of the 
hurdles under FISA's emergency authorization provisions and the 
requirement to go to the FISA Court within 72 hours, our resource 
constraints limit our use of emergency authorizations to certain high-
priority circumstances and cannot simply be employed for every foreign 
intelligence target. The fact is that not every threat meets the 
emergency exception because many do not appear to be emergencies until 
it is too late. Indeed, the job of the Intelligence Community is to 
obtain intelligence information that permits us to act before an 
emergency arises, and our intelligence professionals should be 
authorized to obtain intelligence information in an expeditious and 
efficient manner. Given the catastrophic nature of the threats we face 
from foreign terrorists abroad, the Government should not be forced to 
wait for an emergency before it can take steps to gather information 
needed to prevent these terrorists from creating such an emergency. It 
is quite easy to say, after the fact, that the Government could have or 
should have used FISA to conduct surveillance of a particular overseas 
intelligence target. If the Government had the requisite probable cause 
before the fact and could have met the remaining legal requirements of 
FISA (and known that this particular target among numerous others would 
turn out to be so important), that might have been possible. But doing 
so comes at the price of diverting analysts from their primary purpose 
of tracking terrorist and other foreign threats to drafting probable 
cause determinations every time they become aware of a new target or 
that target acquires a new method of communication. Considering the 
sheer volume of foreign intelligence targets abroad and the speed and 
agility with which the Intelligence Community must react, this 
process--as we have learned from experience--is simply not sustainable. 
This, of course, begs the policy question currently before the 
Congress: namely, why would we willingly impose these requirements, 
which impede and at times can prevent effective intelligence 
collection, on the government when it targets foreigners overseas? As 
discussed in the letter to Chairman Reyes quoted above, although the 
probable cause findings required by FISA make a great deal of sense 
when we target people in the United States, they do not with respect to 
foreigners in foreign lands. We hope that this letter and the 
enclosures are responsive to your recent letter and help you understand 
the critical need for FISA modernization. The passage of legislation to 
modernize FISA--like the bipartisan bill passed overwhelmingly by the 
Senate--will help ensure that the Intelligence Community has the tools 
it needs to protect the Nation.
            Sincerely,
                                      Brian A. Benczkowski,
                       Principal Deputy Assistant Attorney General.

    Attorney General Mukasey. One thing--the one thing I got 
wrong was the geography. It did not come from Afghanistan. I 
got the country wrong. But other than that, it was spot on, and 
I will be happy to provide you with the page.
    The point to be made there was not that we could not have 
monitored their visa but rather that no visa application should 
have been necessary to monitor a foreign target in a foreign 
country. I was speaking generally to the desirability of 
getting a bill passed. As you know, we've had a lot of trouble 
with that.
    But I'd be happy to get you the reference. You're right. 
It's not in the 9/11----
    Senator Leahy. We don't need visas to monitor foreign 
source.
    Attorney General Mukasey. We shouldn't need it.
    Senator Leahy. We didn't need it then and we don't today. 
Thank you, Madam Chairwoman.
    Senator Mikulski. Thank you very much. Senator Feinstein.

                CUTS TO STATE AND LOCAL LAW ENFORCEMENT

    Senator Feinstein. Mr. Attorney General, I just want you to 
know I totally agree with what Senator Mikulski said. In 13 
years on this committee, 15 years in the Senate, have never had 
more letters from local law enforcement in the State of 
California of deep concern and here is why.
    Your budget cuts local and State law enforcement by 65 
percent and since 2002, the administration has slashed the 
grant programs for State and local law enforcement by 85 
percent or $3.2 billion.
    This is enormous. I am having chiefs of police throughout 
the State of California tell me they're unable to fill the 
FBI's investigative gap. It's a very serious situation.
    In California, 22 drug task forces are going to end if this 
budget is pursued, and I think not to fund, to slash, to cut 
out both COPS and Byrne-JAG is an impossible situation for 
local law enforcement, and this cannot be left to stand.
    So, clearly, we've got our job to do in this area, but I 
want to ask you a question about John Mew's OLC memos.

                     OFFICE OF LEGAL COUNCIL'S MEMO

    On April 1, 2008, the DOJ released a March 2003 Office of 
Legal Counsel (OLC) memo written by John Mew. That memo 
asserted that President Bush had unlimited power to order 
brutal interrogations to exact information from detainees. The 
memo references, on page 8, footnote 10, another OLC memo 
written by John Mew in October 2001. In this memo, the OLC 
concluded that the Fourth Amendment had no application to 
domestic military operations. To date, your Department has 
refused to declassify and release this memo.
    Is the October 2001 OLC opinion still considered binding by 
the Department of Justice?
    Attorney General Mukasey. That opinion was withdrawn 9 
months after it was issued. It is not.
    Senator Feinstein. So it is not?
    Attorney General Mukasey. Correct.
    Senator Feinstein. It is not operative?
    Attorney General Mukasey. Correct.
    Senator Feinstein. Since when has it not been operative?
    Attorney General Mukasey. Since December 2000--you say this 
is the March 2003 memo?
    Senator Feinstein. This is a March 2003 memo.
    Attorney General Mukasey. Has not been----
    Senator Feinstein. It's the--it's basically the October 
2001 memo.
    Attorney General Mukasey. I can't speak to the October 2001 
memo, but the March 2003 memo was withdrawn 9 months after it 
was issued.
    We are aware of Congress' ongoing interest in this matter 
and oversight interest in this matter and proper interest in 
this matter and we're looking for ways to meet Congress' 
legitimate interest and our own regard for both the equities of 
other agencies that are involved with these memos as well as 
preserving a deliberative process within the Department that 
doesn't result in every piece of advice becoming the subject of 
public debate.
    We're trying to work with Congress to arrive at ways to 
meet your legitimate oversight which we recognize with the 
release of the 2003 memo.
    Senator Feinstein. If you'll excuse me, this isn't a 
question of oversight. I'm just asking you, is this memo in 
force, that the Fourth Amendment does not apply to the domestic 
military?
    Attorney General Mukasey. The principle that the Fourth 
Amendment doesn't apply in war time is not in force.
    Senator Feinstein. It--no. The principle that I asked you 
about, does it apply to domestic military operations? Is the 
Fourth Amendment today applicable to domestic military 
operations?
    Attorney General Mukasey. I don't know of any domestic 
military operations being carried out today.
    Senator Feinstein. I'm asking you a question. That's not 
the answer. The question is, does it apply?
    Attorney General Mukasey. I'm unaware of any domestic 
military operations being carried out today. In order for me 
to----
    Senator Feinstein. You're not answering my question.
    Attorney General Mukasey. The Fourth Amendment----
    Senator Feinstein. Is this memo binding today?
    Attorney General Mukasey. The Fourth Amendment applies 
across the board, regardless of whether we're in war time or 
war peace time. It applies across the board.
    Senator Feinstein. Thank you. Appreciate that. Thank you, 
Madam Chairman.
    Senator Mikulski. That's a pretty important answer.
    Senator Feinstein. Yes, it is, bearing in mind what the 
history of this is.
    Attorney General Mukasey. With due respect, I don't think 
it's--there's anything new about the answer because the 
discussion of which that was a part goes to the suggested 
inapplicability of the Fourth Amendment as an alternative basis 
for a finding that searches discussed there would be 
reasonable.
    But in any event,----
    Senator Feinstein. But Mr. Mew's contention was that the 
Fourth Amendment did not apply and that the president was free 
to order domestic military operations.
    Attorney General Mukasey. Without regard to the Fourth 
Amendment?
    Senator Feinstein. That's correct.
    Attorney General Mukasey. That's not my under----
    Senator Feinstein. And you're saying that is not operative?
    Attorney General Mukasey. That is not----
    Senator Feinstein. That is not binding?
    Attorney General Mukasey. To my understanding, that is not 
applicable.
    Senator Feinstein. Thank you very much. That's what I 
wanted to know.
    Thank you, Madam Chairwoman.
    Senator Mikulski. Well, that's something. We're glad to 
hear you say that. That's something somebody should have told 
Mr. Rumsfeld.
    Attorney General Mukasey. Respectfully, I don't think it's 
news.
    Senator Mikulski. Well, Senator Feinstein and I are also on 
the Intelligence Committee and Senator Shelby also once chaired 
it as well as membership and I'm on it now, and there's a lot 
of issues related to that which we believe now have come to an 
end, but we're deeply troubled by.
    Senator Feinstein. Madam Chairman, if this is true, I have 
a hard time understanding why the Department of Justice will 
not declassify that memo.
    Senator Mikulski. Did we ask for it?
    Senator Feinstein. We have asked for it. Chairman Leahy has 
asked for it on several occasions and we can't seem to spring 
it loose.
    Attorney General Mukasey. And that was one of the memos 
that was the subject of my statement that we are trying to 
figure out ways of making sure that portions of the memos are 
provided in a way that allows the oversight needs and equities 
of Congress to be served and yet recognizes the equities of 
other agencies that may be involved here, wholly apart from the 
Department, as well as our interests in preserving the 
deliberative processes, such that people can give us the 
benefit of their thinking without having their thinking then 
become the subject of the congressional hearings simply because 
they offered an idea.
    Senator Feinstein. I think we appreciate that. If I may 
just, Madam Chairman, this memo becomes a linchpin. It's a very 
important memo and in Intelligence, we've been unable to obtain 
it. In Judiciary, we've been unable to obtain it.
    I appreciate that you're trying to do it and I hope the 
decision will be forthcoming shortly.
    Attorney General Mukasey. And by trying to do it, I mean 
actively trying to do it. I don't mean it's down in some pile 
of papers. It's at the top. It's a priority of mine.
    Senator Feinstein. Well, may I ask this? When might we 
receive it?
    Attorney General Mukasey. When people asked me when I was a 
judge when a case is going to be decided, my usual response was 
if I knew that precisely, I would already have decided it. I'm 
going to try to do it as quickly as I can and I recognize that 
there's a degree of urgency about this. I have a great deal of 
urgency about it. I am not--my interests are not served by 
having this drag on.
    Senator Feinstein. Thank you. Thank you, Madam Chairman. I 
appreciate it.
    Senator Mikulski. I have a few questions. Mr. Attorney 
General, I have a few more, and I don't know if my colleagues 
do before the vote begins.

                     DEPARTMENT OF JUSTICE FUNDING

    Let me tell you the intent of the subcommittee working this 
all on a bipartisan basis. We're going to need your help with 
the Office of Management and Budget (OMB). First of all, when 
we pass our bill, we want to be sure that there's adequate 
funds to operate the Department of Justice with the highest 
level of personnel, not only in terms of volume but in terms of 
quality, and also to acknowledge what we call the worker bees 
at the Justice Department, those faithful people, those 
professional civil servants that every day are implementing the 
antitrust laws, the civil rights laws, issuing grants, et 
cetera.
    Second, we want Federal law enforcement to be adequately 
funded. That's the FBI, DEA, the Marshals Service, and the ATF. 
Senator Shelby has raised issues about the Marshals Service. We 
know the FBI does very well. We're concerned about the adequacy 
of DEA and the ATF.
    Then there's also the other pillar in local, which is our 
relationship with State and local law enforcement, and their 
involvement with the community.
    Now, that means that we really want to restore the funding 
to the Byrne grants and the COPS Programs. We really do want to 
do that, and it has wide bipartisan support. I've received 
numerous letters from senators asking us to do that.
    Where senators do ask for earmarks, it's usually around 
fighting gangs, fighting meth, and more technology to make them 
more effective. That's what the earmark is and usually they go 
to earmarks because the grants didn't work.
    Then there are those other issues related to either 
prevention or response. That's the juvenile justice block 
grants and then it is the violence against women which is not 
only to respond to sexual assault and domestic violence. Those 
two things are in and of themselves crucial, but it's also the 
prevention program, the kinds of things that must go on at so 
many levels, particularly against girls, which goes on in 
schools, which young boys often in communities where there's no 
father, no constructive male role model, need to occur, and 
it's unique.
    I remember when the wall came down and new emerging 
democracies came, they wanted to see how a national justice 
department worked with the community because they were used to 
KBG-type stuff. This was fantastic.
    So, this brings us to what we need to do. I met with a 
group called Surviving Parents. These are parents of children 
who endured the most heinous of crimes. These were children 
that were kidnapped, bullishly abused and in some instances 
murdered.
    Now let me tell you what they asked for. They asked for, 
first of all, U.S. Marshals to track down predators. Senator 
Shelby has just been a stalwart supporter in us working 
together on that. The other thing that they asked for was this. 
This was the lapse in technology when DOJ transfers sexual 
predator technology to a new system.

                       SEXUAL PREDATOR TECHNOLOGY

    Let me go to my question because, in addition to more 
marshals to go after the predators, technology is our friend 
and we understand there's been a very creative and effective 
program in Wyoming, actually very cost effective, that has been 
used to identify over 500,000 unique computers that are 
involved in the trafficking of repugnant movies and images of 
children, and I don't even want to identify the crimes against 
the children. They're just too despicable for civilized 
conversation.
    Essentially what we're worried about is DOJ's going to get 
a new technology system. Wyoming has been working well and we 
want to be sure that no child or no microchip falls between the 
cracks.
    So, my question to you, because Wyoming has such a great 
program and has been working so well and was developed in such 
a cost-effective way, can you promise me that the Wyoming-based 
system will be fully supported and funded until such time as an 
equal or better system is in place, so that no matter what, 
we've got this technology working with local law enforcement to 
protect against the trafficking against images which in and of 
themselves, the images, the photographs taken all indicate the 
most vile, the most vile of child abuse?
    Attorney General Mukasey. I want to respond both to your 
question and to one point in your preliminary comments.
    As far as the Wyoming project, what we are trying to do is 
transfer that highly innovative technology which is terrific to 
what's called the RISS System, which is a national system that 
allows intercommunication between and among various law 
enforcement agencies. So what we are trying to do is to get 
that very good innovative technology that was developed in the 
Wyoming project transferred to a national system and we hope to 
try to do that.
    Senator Mikulski. But in the meantime, are we going to keep 
Wyoming, the Wyoming model going, both operational and funded?
    Attorney General Mukasey. We are going to try to do that 
and try to----
    Senator Mikulski. Try, try, try, try. Pardon me. We 
appreciate the effort, but can we have your word that this, the 
Wyoming model, will stay operational until such time as the new 
model moves online?
    Attorney General Mukasey. I have no reason to believe that 
it won't and you have my word that it has my priority. Those 
you have.
    Senator Mikulski. Well, I accept your word. We want to 
continue to work with your staff. The third--yes, sir? Did you 
want to comment?

                      JUSTICE DEPARTMENT EMPLOYEES

    Attorney General Mukasey. One comment about the general 
quality of people of the Justice Department. I can't lose an 
opportunity to point out that the quality of the people at the 
Justice Department is, person for person, the highest of any 
group of lawyers that I've ever worked with. That's true of the 
career people. That's true of political appointees as well and 
that's what keeps us and me going.
    Senator Mikulski. What keeps you going?
    Attorney General Mukasey. Their ability and their 
commitment.
    Senator Mikulski. Right. Well, we don't dispute that. We 
want them to have the resources that they need. What we're 
concerned about is that the bean counters at OMB to fund FBI, 
which FBI should be funded, they've got really swell programs 
and eliminated them, and we're running a zero sum gain all to 
play let's pretend that we're going to balance the budget. 
That's what we're concerned about.
    We believe in the Justice Department in the sense that we 
believe in those folks, just like we believe in these programs. 
These aren't programs. We're not for the program. We're for the 
outcome of the program and it's how to do it. We were very, 
very, very disturbed last year when we had done an absolutely 
bipartisan bill to run into the President's veto threat. So, we 
had to meet a veto gun. We had to cut $3 billion out in this 
subcommittee. That's where we shave funds from things like weed 
and seed and juvenile justice block grants. We're for your 
Department. We wish OMB was. We really do and that's not laying 
it at your doorstop. You've come in. You're righting the ship. 
You're trying to do a good job. We have a great deal of respect 
for you, Mr. Attorney General, but OMB has to believe in this 
Department as much and we're very frustrated about it and 
that's what we're trying to get to.
    Senator Shelby, did you want to say something?
    Senator Shelby. I just have another question for the 
Attorney General.

                                 RADIOS

    In March 2007, the inspector general reported that of the 
30,000 Department of Justice radios, 79 percent are not airwave 
compliant, 95 percent lack federally mandated security, and 73 
percent are obsolete. That's troubling.
    The report found that this failure to upgrade the 
Department of Justice's components and antiquated 
communications represent an unnecessary risk to the safety of 
agents, among other things.
    I've heard cost estimates to seriously address this issue 
are in the $20 billion range, which seems high but it's a lot 
of money.
    Do you have any idea or do you have any numbers on what it 
would cost to upgrade the Department and make it compliant?
    Attorney General Mukasey. What we're asking for in the 
budget is $70 some odd million to do the, frankly, spit and 
bailing wire repair on the current system.
    Senator Shelby. Just keep it going?
    Attorney General Mukasey. Keep it going. But we've also 
asked for roughly $45 million for new interoperable radios that 
allow us to communicate in an encrypted way so that the bad 
guys aren't listening in on police band radios, so that we can 
do it in an effective way.
    We're on to the problem, and we've--that's the funding that 
we've asked for to help us to at least begin doing that.
    Senator Shelby. Are current communications, Mr. Attorney 
General, are the systems in compliance with the presidential 
narrow band mandate and the National Institute of Standards and 
Technology security guidelines?
    Attorney General Mukasey. I can't speak to that. I'll get 
back to you on that.
    [The information follows:]

              Compliance of Current Communication Systems

    No. The DOJ Inspector General's report on IWN from March of 
2007 estimated that 21 percent of the Department's radios are 
compliant with presidential narrowband mandates and 5 percent 
are capable of meeting NIST security guidelines. Since March of 
2007, the limited funds have been prudently used to improve 
narrowband compliance to 30 percent and NIST security 
compliance to 15 percent.

    Senator Shelby. And is the IWN, I-W-N, Seattle pilot 
project a feasible model for the future?
    Attorney General Mukasey. We believe it is a feasible model 
and that's the one that we're asking to have funded.
    Senator Shelby. Will you get us some information again on 
that?
    Attorney General Mukasey. I will get you as much 
information as I can. That's the one we've been working on. 
That's the one we want.
    [The information follows:]

         Information Regarding the Integrated Wireless Network

    The Seattle Blaine pilot is a feasible model for major 
metropolitan areas with high federal agent user densities. 
Areas of high user densities typically coincide with scarcity 
of spectrum resources. While the relative spectral efficiency 
of trunking radio technologies can be debated in remote or low-
density rural areas, high user-density areas always benefit 
from the implementation of trunking technologies.
    A few design criteria from the Seattle Blaine pilot have 
been re-evaluated and probably would not be implemented 
nationwide. The criteria include radio tower site improvements 
and backhaul redundancy. While overall system reliability in a 
trunked system is improved, nationwide implementation may be 
too costly. Selective application of redundancy at the most 
vulnerable system nodes, and site improvements commensurate 
with the equipment being installed would be the two major 
deviations from the Seattle Blaine model.
    The differences in ease-of-use between conventional and 
trunking radio are substantial. The WMO continually receives 
positive feedback from users on the Seattle Blaine IWN system 
regarding usability and roaming capabilities. The use of 
trunking technologies is not an explicit stated requirement for 
IWN, however, we feel the minimal incremental cost (estimated 
to be 30 percent) is well worth the significant improvement in 
radio usability and roaming capabilities for many areas, 
especially in urban settings.

    Senator Shelby. Mr. Attorney General, I know you'd be 
concerned, but in the event of another attack, absent 
communications interoperability, which is so important, how 
will the Federal law enforcement officers communicate with each 
other? There's got to be--that's got to be a high priority for 
you.
    Attorney General Mukasey. Only with great difficulty.
    Senator Shelby. So this--to make the interoperability and 
modernize the whole communications system is a high priority 
with the Department?
    Attorney General Mukasey. It is a very high priority.
    Senator Shelby. Okay. Thank you, Madam Chair.
    Senator Mikulski. As always, you're very insightful, 
Senator Shelby. I mean, it's 7 years after 9/11. We should at 
least be able to talk to each other.
    Senator Shelby. Absolutely.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. Just like the watch list. Well, if there 
are no further questions this morning, Senators may submit 
additional questions for the subcommittee's official record. We 
request the Department's response within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Patrick J. Leahy

                           CORRUPTION IN IRAQ

    Question. You recently traveled to Iraq in February to view first 
hand the Justice Department's efforts at establishing the rule of law 
in that country. According to press accounts, you said, and I quote: 
``I'm encouraged by the work that's being accomplished here . . . My 
assessment is that the Iraqis are firmly committed to the notion of the 
rule of law.''
    But I recently chaired an Appropriations Committee Hearing on 
fraud, waste, and abuse in Iraq, and the testimony at that hearing made 
it absolutely clear that corruption in Iraq is rampant, and corruption 
remains among the most serious obstacles to progress in that country. 
At the moment, there are more than three thousand pending corruption 
investigations in Iraq, involving more than $18 billion lost to fraud, 
yet the Iraqi government has passed laws and taken other legal actions 
to immunize its public officials from prosecution and protect those 
engaged in corruption.
    The Special Inspector General for Iraq Reconstruction, the Jones 
Commission, and the Baker-Hamilton Commission have all been critical of 
the Administration's lack of effort to improving the Iraqi justice and 
police system, yet you say you are ``encouraged'' by what is being 
accomplished in Iraq.
    Do you believe that corruption persists as a very serious problem 
in Iraq and undermines the rule of law there?
    Answer. We do believe that corruption persists as a serious problem 
in Iraq and that corruption of any kind undermines the Rule of Law.
    The Prime Minister and other senior Iraqi officials have publicly 
announced their determination to tackle this problem. Corruption is a 
hidden crime in which individuals in positions of power or influence 
are able to extract for themselves benefits that should be reserved for 
the public. It is no secret that during the Saddam regime, corruption 
was a way of life for Saddam himself, his family, and favored officials 
under him. These practices are inconsistent with a democracy and with 
the Rule of Law because they deny the law the opportunity to govern all 
actions of the state. Instead, they relinquish that power to those 
willing to pay. This impropriety is obviously true when a corrupt 
official's action violates the law, but it is equally true when the 
corrupt official takes an action that would otherwise have been 
permitted by the law.
    For example, current Iraqi law requires amnesty for many Iraqi 
prisoners who have been convicted of or charged with certain crimes. We 
have heard widespread allegations that at some local police stations, 
processing the necessary paperwork would only happen if the detainee's 
family produced a substantial bribe. The corrupt act, of course, is not 
releasing the prisoner, which the law permits and requires; it is 
delaying that action and making it contingent on private payment, when 
the law guarantees it as of right. By contrast, the Iraqi government 
has recently made some high-level arrests in which the evidence 
suggests that officials released individuals under the guise of the 
amnesty statute when, in fact, their crimes were so serious that the 
law did not authorize their release.
    The Rule of Law (not to mention the security of the Iraqi people 
and our troops) is undermined when criminal justice matters proceed in 
any way other than according to the law itself. The same is true for 
run-of-the-mill corruption matters, such as no-show jobs at ministries 
or the diversion of government resources to friends or family of 
officials. In these cases, as well, self-interest rather than the law 
is what governs the actions of the state. When the people perceive that 
actions of any sort are taken for these reasons, they justifiably doubt 
the integrity of the government, and their own commitment to obeying 
the law inevitably declines.
    Question. Exactly what do you find to be encouraging about the 
current efforts to combat corruption in Iraq?
    Answer. As made clear above, we certainly agree that corruption is 
a very serious problem and that Iraq has a long road ahead of it before 
it can tackle that problem. Nevertheless, we believe that it is slowly 
getting better, rather than worsening.
    We are guardedly optimistic because the Government of Iraq, often 
with the assistance and encouragement of the United States, has taken 
substantial steps to transition to a regime in which corruption is 
identified and targeted. It bears repeating that under the previous 
regime, whose final breaths ended barely five years ago, corruption was 
a staple. We are all anxious that Iraq shed any remnants of that prior 
regime, including corruption, but as with every other problem, the 
Iraqi people must work their way through this one.
    They appear to be engaged in this process. A few of the reasons we 
are encouraged include:
  --The Commission on Integrity, Iraq's principal anti-corruption 
        investigative agency, has nearly 300 investigators, all of whom 
        have been trained by Department of Justice contract trainers 
        and funded by the Department of State. The Commission has 
        launched more than five thousand corruption investigations. The 
        Commission has plans to expand the number of investigators by 
        more than a third.
  --A number of recent arrests of government officials demonstrate that 
        investigators and judges are willing to risk even their 
        personal safety by finding and prosecuting corruption.
  --The judiciary is plainly stepping up to the plate. The well-known 
        case against the former Deputy Minister of Health generated an 
        acquittal in early March. The fact that the case was heard at 
        all was an important victory for the independence of the 
        judiciary and the message that corruption and illegal 
        government action would be pursued. But even more significant 
        is that the Chief Prosecutor has appealed the dismissal of the 
        charges to the Court of Cassation.
  --Police salaries have been increased, which will in turn increase 
        professionalism and decrease perceived needs to accept illegal 
        gratuities. The Directorate of Internal Affairs in the Ministry 
        of Interior (MOI), which supervises the police, opened 6,652 
        cases in 2007 against MOI employees, and 1,112 of them were 
        fired. Others were otherwise disciplined.
  --In January, Prime Minister Maliki issued an eighteen-point anti-
        corruption program and has given international attention to 
        anti-corruption efforts--for example, he highlighted them in 
        his speech at the International Compact with Iraq meeting in 
        Stockholm in May.
  --New draft laws are pending in the Council of Representatives to 
        better govern the chief anti-corruption entities in the Iraqi 
        government (the Commission on Integrity, the Board of Supreme 
        Audit, and the Directors General from the various ministries).
  --At least some parts of the government appear to be taking proactive 
        measures to reduce opportunities for corruption. Chief Justice 
        Medhat al-Mahmoud, whom the statute made responsible for 
        administering the nationwide system for adjudicating claims for 
        amnesty, recognized the likelihood that detainees and their 
        families would face demands for bribes throughout the process. 
        He therefore crafted extraordinarily simple claims forms of 
        only a single sheet of paper and made them widely available, 
        allowing not only detainees but their families to obtain forms 
        at courthouses throughout Iraq. He allowed the forms to be 
        distributed where they would most likely reach those in need, 
        including within prisons. From the very beginning, his view was 
        that if the forms were readily available, they would have no 
        value on the corruption mill. Since the completed forms were 
        then to be given directly to the courts, another opportunity 
        for corruption was squeezed out. Although this is only one 
        small example, it is an encouraging sign that the government 
        recognizes the problem and is trying to address it.
  --In March the Government of Iraq signed and ratified the U.N.'s 
        Convention Against Corruption which obligates the country to 
        take action against corruption.
    Question. Is it encouraging that the Maliki government passes laws 
to protect public officials from investigation?
    Answer. We are not aware of any law that the Maliki government has 
passed with the aim of protecting public officials from investigation. 
There is a provision of the Criminal Procedure Code which allows 
Ministers to stop investigations of all types including corruption. Our 
Embassy continues to urge the Government to rescind this provision but 
it remains on the books. The Department of Justice defers to the 
diplomatic efforts of our Embassy in this regard.
    Question. Specifically, what is the Justice Department doing to 
combat the corruption problem in Iraq?
    Answer. The Department of Justice's efforts in Iraq are aimed at 
strengthening Iraq's Rule of Law institutions. The Department of State 
has created a separate entity at the U.S. Embassy in Baghdad, the Anti-
Corruption Coordination Office (ACCO), which is charged with 
coordinating anti-corruption activities and policies. Anti-corruption 
principles are a key ingredient of any society living under the Rule of 
Law, so all Department of Justice employees in Iraq are fully aware 
that the Department of Justice mission includes assisting ACCO.
    There are some specific ways in which the Department of Justice is 
attempting to do that. The International Criminal Investigative 
Training Assistance Program (ICITAP) provides capacity building, 
training, and technical assistance, along with equipment and 
specialized training for Iraq's Commission on Integrity. The Federal 
Bureau of Investigation investigates alleged corruption involving the 
U.S. government (which affects both the Iraqi and the American people) 
and, through its work with the Major Crimes Task Force, helps Iraqi law 
enforcement investigate illegal behavior of Iraqi public officials. 
Department of Justice personnel across Iraq work closely to help build 
the capacity and enhance the integrity of the courts.

                              BULLET LEAD

    Question. More than four months ago, in a letter I sent to you that 
remains unanswered, I expressed my concerns that flawed bullet lead 
analysis done by the FBI for many years may have led to wrongful 
convictions. The National Academy of Sciences issued a report in 2005 
discrediting bullet lead analysis, and the FBI stopped conducting 
bullet lead testing that same year. Over the last two years, however, 
the Justice Department has not taken steps to find or correct the cases 
where it was misused. As a former judge, I am sure you share my fear 
that this faulty forensic evidence may have been introduced in the 
estimated 2,500 cases where it was used. In my letter in November, I 
asked you to provide the Judiciary Committee with the list of cases 
where FBI bullet lead analysis was used, and to advise the Committee 
what steps you've taken to correct any unjust convictions resulting 
from bullet lead analysis.
    Please state whether you have taken any action in response to my 
letter and explain your response.
    Answer. As is discussed in more detail in the response to your 
November 2007 letter to the Attorney General, in 2005 the FBI sent to 
the National District Attorney's Association, the National Association 
of Criminal Defense Lawyers, the Innocence Project, and approximately 
300 agencies letters outlining the FBI's decision to discontinue these 
examinations. The letters were sent so the recipients could take 
whatever steps they deemed appropriate to ensure no one was convicted 
based on inappropriate bullet lead testimony.
    The FBI has committed to review all testimony provided by FBI 
Laboratory personnel in bullet lead cases that resulted in convictions 
in order to determine whether they testified within the scope of the 
science. Because the FBI performed bullet lead examinations for 
approximately 40 years, we cannot readily produce a list of all cases 
in which bullet lead analysis was performed. Because FBI laboratory 
personnel who conducted bullet lead examinations also conducted other 
types of forensic tests, the FBI has to examine all files worked by the 
universe of examiners who conducted bullet lead analysis. That process 
is ongoing. As of mid-May 2008, the FBI had identified approximately 
1,270 cases (covering the period of 1975 to 2004) in which bullet lead 
analyses resulted in ``positive'' results that may possibly have formed 
the basis of trial testimony.
    As the FBI Director has testified, the FBI will be working with the 
Innocence Project (IP) to ensure all appropriate parties are notified. 
Specifically, as the FBI identifies cases in which bullet lead analysis 
was performed, we will provide to the IP the FBI file number, the names 
of the contributor and prosecutor and their contact information, 
contributor and prosecutor file numbers, the FBI Laboratory examiner's 
name, the defendant's name, and the FBI's assessment of the 
appropriateness of the testimony provided. The FBI will also offer the 
IP copies of the transcripts received from prosecutors. By providing a 
dual notification track (that is, notification to both the prosecutor 
and the IP), the FBI is confident that appropriate notification will be 
made to any defendant who was or may have been adversely affected by 
inappropriate FBI bullet lead testimony.
    Question. When can I expect a response to my letter?
    Answer. DOJ is completing its response to the letter and will be 
transmitted to your office presently.
    Question. According to press accounts, the FBI agreed in November 
to provide a list of all cases where bullet lead analysis was used to 
the Innocence Project in order to begin working to identify cases where 
there may be problems.
    Please state whether you support this collaborative effort and 
explain your response.
    Answer. In an FBI press release on November 17, 2007, the FBI 
announced that it has undertaken an additional round of outreach, 
analysis, and review efforts concerning bullet lead analysis. This has 
included joint work with the Innocence Project, which has done legal 
research to identify criminal cases in which bullet lead analysis has 
been introduced at trial.
    The Department of Justice, including the FBI, takes this issue very 
seriously, and we are developing procedures to ensure that appropriate 
disclosures are made to the relevant parties. Thereafter, the parties 
involved can make an assessment of the effect of any potentially 
erroneous testimony.
    Question. Has anyone in the Justice Department taken any steps to 
support or oppose this agreement between the FBI and the Innocence 
Project?
    Answer. Please see the response to subpart a, above.

                          UNANSWERED QUESTIONS

    Question. As of May last year, the Justice Department reported to 
the Judiciary Committee that there was only one FBI agent assigned to 
Iraq and one assigned to Kuwait to investigate significant contracting 
fraud. Since May 2007, has the Justice Department assigned more full-
time FBI agents or other federal investigators to work on contracting 
fraud cases in Iraq and Afghanistan? If not, why not?
    Answer. The FBI currently has Special Agents (SAs) deployed in 
Iraq, Afghanistan, and Kuwait to provide full-time support to the 
International Contract Corruption Initiative, which addresses major 
fraud and corruption in the war and reconstruction efforts in Iraq and 
Afghanistan. These deployments are conducted in 120-day rotation cycles 
and SAs work jointly with the Defense Criminal Investigative Service, 
Army Criminal Investigation Command Major Procurement Fraud Unit, 
Special Inspector General for Iraq Reconstruction, and U.S. Agency for 
International Development, who also have agents deployed to address 
this crime problem. The FBI's overseas assignments in direct support of 
this multi-agency initiative are as follows: one SA in Kuwait; one 
Assistant Legal Attache and two SAs in Iraq; and two SAs in 
Afghanistan.
    Question. In November, I sent you a letter expressing my concerns 
that flawed bullet lead analysis done by the FBI for many years may 
have led to wrongful convictions. As you know, the National Academy of 
Sciences issued a report in 2005 discrediting bullet lead analysis, and 
the FBI stopped conducting bullet lead testing that same year. But over 
the last two years, the Justice Department has not taken steps to find 
or correct the cases where it was misused. As a former judge, I am sure 
you share my fear that this faulty forensic evidence may have been 
introduced in the estimated 2,500 cases where it was used. Two months 
ago, I asked you to provide the Judiciary Committee with the list of 
cases where FBI bullet lead analysis was used, and to advise the 
Committee what steps you've taken to correct any unjust convictions 
resulting from bullet lead analysis. When can I expect a response to my 
letter? Have you taken any action in response to my letter?
    Answer. Please see the response to Question 1, above.
    Question. According to press accounts, the FBI agreed in November 
to provide a list of where all bullet lead analysis was used to the 
Innocence Project in order to begin working to identify cases where 
there may be problems. Do you support this collaborative effort? Has 
anyone in the Justice Department taken any steps to support or oppose 
this agreement between the FBI and the Innocence Project?
    Answer. Please see the response to Question 2, above.

                      E-MAIL AND E-MAIL RETENTION

    Question. Have you begun any review of the White House's policies 
on e-mail and e-mail retention?
    Answer. No.
    Question. Have you investigated whether in the implementation of 
those policies there has been noncompliance with laws requiring 
retention of White House records that belong to the American people?
    Answer. We are not aware of any facts that would warrant a criminal 
investigation. The Presidential Records Act is not a criminal statute.
    Question. Are you going to inquire as to whether there has been an 
intentional effort to avoid those laws and Congressional oversight?
    Answer. We are aware of no facts that would suggest that such an 
inquiry would be warranted.
    Question. At last week's oversight hearing, you would not agree 
with me that waterboarding an American citizen anywhere in the world is 
torture and illegal. Under what circumstances or with what 
justifications would you consider waterboarding an American not torture 
and not illegal?
    Answer. As the Attorney General stated during his appearance before 
the Committee, because waterboarding is not among the practices 
currently authorized for use in the CIA program, we do not believe that 
it would be appropriate to answer categorically questions concerning 
the legality of waterboarding absent a set of circumstances that call 
for those answers.
    Question. While the Nisoor Square killings have drawn the most 
publicity, those shootings were not an isolated event. Blackwater 
forces have a documented history of shootings in Iraq where civilians 
have been seriously injured and killed. There were two other shooting 
incidents in the same month as the Nisoor square killings, where five 
civilians were killed and fifteen more were wounded. Since 2005, there 
have been nearly 200 other shootings by Blackwater guards in Iraq, and 
in more than 160 of those incidents, the Blackwater guards fired first. 
Is the Justice Department's investigation limited to the Blackwater 
killings in September, or will the Justice Department also investigate 
the other shooting incidents by Blackwater and other private security 
contractors in Iraq? If not, why not?
    Answer. As a general matter, the Department does not comment on 
referrals made to it by other Departments, including State and DOD. In 
addition to being law enforcement information that the Department 
generally does not disclose publicly, referral numbers paint an 
incomplete picture and raise law enforcement sensitive questions that 
the Department is unable to answer.
    Question. How many full time prosecutors and agents at the Justice 
Department are assigned to investigate criminal allegations against 
private security contractors overseas? What steps have you taken to 
make sure that shooting incidents by private security contractors in 
Iraq and Afghanistan are aggressively investigated and prosecuted?
    Answer. Most MEJA cases involving private security contractors are 
initially investigated by the Department of Defense or the Department 
of State. Department of Justice agents and prosecutors do not typically 
become involved until those Departments refer a given case to the 
Department of Justice for criminal prosecution. When MEJA cases are 
referred to the Department for prosecution, the Department assigns 
agents and prosecutors as needed from the FBI, the offices of the 
United States Attorneys, and the Criminal Division.
    The Department is committed to investigating and prosecuting 
criminal acts committed by private security contractors overseas. To 
that end, we continue to work with the Departments of Defense and State 
to ensure that there are clear procedures for those Departments to 
identify and, where appropriate, to refer for prosecution allegations 
of criminal misconduct involving private security contractors. We are 
also working with the Congress to explore legislative amendments that 
would increase the USG's ability to hold private security contractors 
accountable under federal law.
    Question. According to press accounts, on January 24, 2008, a 
federal grand jury in Alexandria issued a subpoena to New York Times 
reporter Jim Risen reportedly seeking information about his 
confidential sources for a chapter in his 2006 book, ``State of War'' 
focusing on the CIA's alleged efforts to infiltrate and destabilize 
Iran's nuclear program. Mr. Risen's book also expanded on his reporting 
about the Administration's warrantless wiretapping for which he and 
another New York Times reporter won the 2006 Pulitzer Prize. Under the 
Department's guidelines, a subpoena to the media must be approved by 
the Attorney General. Did you approve this subpoena? What process was 
followed by the Department in considering whether to subpoena Mr. 
Risen?
    Answer. Because Federal Rule of Criminal Procedure 6(e) imposes a 
secrecy requirement on all pending Grand Jury investigations, we cannot 
answer any questions pertaining to a specific Grand Jury subpoena or 
specific Grand Jury proceedings. We can say, however, that the 
Department's internal guidelines concerning media subpoenas, reprinted 
at 28 CFR 50.10, set out the specific factors to be considered before 
issuing a subpoena to a member of the media and require Attorney 
General approval before any such subpoena is issued.
    Question. The Department's time-honored guidelines, set forth in 
the Department's ``red book''--its guidebook on ``Federal Prosecution 
of Election Offenses''--were revised under the outgoing, discredited 
leadership group to turn the traditional practice of not bringing last-
minute investigations and actions on its head. The policies in the new 
``green book'' provide great latitude for the Department to influence 
the outcomes of elections. We learned of this shift last year and were 
made aware of its dangers in investigating the actions of interim U.S. 
Attorney Bradley Schlozman, who replaced fired U.S. Attorney Todd 
Graves and brought election-eve indictments in a highly contested 
election in Missouri. What steps are you and the Department taking to 
make sure that there is no repeat of this type of conduct?
    Answer. This question includes several components, which we address 
separately. As an initial matter, earlier this year, the Attorney 
General circulated a memorandum to all Department employees emphasizing 
the Department's existing policies with respect to political 
activities. The memorandum reiterated that ``politics must play no role 
in the decisions of federal investigators or prosecutors regarding any 
investigations or criminal charges.'' The Attorney General has also 
reiterated this message personally on numerous occasions in his 
meetings with Department personnel.
    With respect to the question, there was nothing improper about the 
timing of the registration fraud indictments in Missouri. Evidence 
submitted to the Department reflected that the subjects had submitted 
numerous bogus voter registrations to a get-out-the vote organization. 
No voters needed to be interviewed; the Department's consultation 
procedures for such matters were followed; and the charges did not 
violate the Department's policy against interfering with an ongoing 
election. This policy focuses on the timing of investigations of 
alleged voter fraud--not the timing of filing charges that have already 
been investigated--and discourages overt criminal investigation during 
the period immediately prior to an election or on Election Day in order 
to avoid chilling lawful voting activity or interjecting a criminal 
investigation into an ongoing campaign.
    Simply stated, the Department's 1995 election crime manual was 
revised because it was out of date. The main authors of the 2007 manual 
are two career prosecutors in the Criminal Division's Public Integrity 
Section. These senior prosecutors are the Department's experts on 
election crimes and collectively have over sixty years of experience in 
the investigation and prosecution of election fraud and campaign 
financing crimes. The updated draft went through several revisions by 
its authors. After review and approval by the Section and Criminal 
Division, the manual was forwarded to other Department components prior 
to publication. Its authors received no substantive suggestions from 
anyone outside the Criminal Division.
    The 2007 manual incorporates the landmark changes enacted by 
Congress in the Bipartisan Campaign Reform Act of 2002 (BCRA), and 
especially the enhanced criminal penalties for campaign financing 
crimes included in these reforms. It also incorporates the Department's 
renewed commitment to addressing election fraud and campaign financing 
crimes that is exemplified by the Department's Ballot Access and Voting 
Integrity Initiative. The initiative was created in 2002 to increase 
the Department's efforts to protect voting rights and deter and 
prosecute election crimes, and recognizes that it does little good to 
protect a person's right to vote if that person's vote is subsequently 
diluted or eliminated by fraud.
    As in other areas of criminal law enforcement, the effect of 
vigorous and impartial enforcement of the federal statutes 
criminalizing various types of election crimes is likely to extend 
beyond the defendants charged in specific cases and deter others who 
are considering similar conduct. While this deterrence is not capable 
of measurement, it remains an important societal and governmental goal. 
Congress also has recently recognized the importance of deterring 
crimes. See BCRA  314(b)(1) (mandating a new sentencing guideline for 
campaign financing crimes that would reflect ``the need for appropriate 
and aggressive law enforcement action to prevent such violations''). 
The 2007 manual also incorporates the Department's additional 
enforcement experiences prosecuting election crimes over the past 
decade, and recognizes that there are situations where prosecution of 
an individual act of election fraud or campaign fraud may be warranted. 
Rather than providing what is in essence a blanket immunity for an 
individual who commits a federal crime, this approach allows 
prosecutive decisions to be made on a case-by-case basis, as is the 
case in other areas of criminal law enforcement.
    Moreover, there has been no substantive change in the Department's 
policy regarding noninterference with elections. For over two decades, 
the Public Integrity Section and its Election Crimes Branch have 
counseled United States Attorneys' Offices against taking overt 
criminal investigative measures involving alleged election fraud, such 
as interviewing voters or issuing grand jury subpoenas for ballot 
documents, until the election in question has been concluded and its 
results certified. This policy reduces the risks of chilling legitimate 
voting, interfering with the administration of elections by the states, 
or transforming a criminal investigation into a campaign issue by 
appearing to legitimize unsubstantiated allegations. Rather than being 
``watered down'' or weakened, the text was expanded in the updated 
manual to provide additional guidance and assistance as a result of the 
Department's ongoing criminal enforcement efforts in this area.
    Election crimes strike at the heart of our democratic form of 
government and the Department is committed to the vigorous and 
impartial enforcement of the federal criminal statutes enacted by 
Congress to combat these serious crimes.
    Question. One of the most disturbing features of the Justice 
Department in this Administration has been the complicity of the 
Department's supposedly independent and impartial Office of Legal 
Counsel in providing secret legal memoranda defining torture down to 
meaninglessness, excusing warrantless spying on Americans contrary to 
our laws and, more recently, justifying the absolute immunity of White 
House employees from Congressional subpoenas without reference to a 
single legal precedent. Jack Goldsmith, a conservative former head of 
the Office of Legal Counsel who found many of these opinions to be 
``deeply flawed and sloppily reasoned'' rescinded several of the most 
extreme of them, only to see some reinstated in other forms after his 
departure. In response to questions from Senator Schumer at your 
confirmation hearing, you committed to this Committee that you would 
conduct a review of OLC opinions in several areas, including detention 
policies, interrogation policies, and policies relating to warrantless 
wiretapping. Have you conducted this review and in what areas? If not, 
why not?
    Answer. As the Attorney General committed in his letter to the 
Committee, dated October 30, 2007, he has reviewed the Office of Legal 
Counsel's legal analysis of practices that are currently authorized for 
use in the CIA's interrogation program. The Attorney General has found 
those practices to be lawful and has found the Office's analysis and 
conclusions concerning those practices to be correct and sound. The 
Attorney General has not found it necessary to go further and to review 
Office of Legal Counsel opinions, or portions of those opinions, that 
do not address matters currently before him.
    Have you determined that any OLC opinions are suspect? If so, what 
action have you taken?
    Answer. No, the Attorney General has reviewed the Office of Legal 
Counsel's legal analysis of practices that are currently authorized for 
use in the CIA's interrogation program. The Attorney General has found 
those practices to be lawful and has found the Office's analysis and 
conclusions concerning those practices to be correct and sound.
    Question. Congress cannot legislate in the dark. With this 
Committee, in particular, that means we must know how the Executive 
Branch interprets the law on critical national security issues. Yet 
this Administration has steadfastly refused to provide the Congress 
with key opinions from the Office of Legal Counsel on electronic 
surveillance and their interpretation of the laws on torture. Will you 
commit to providing this Committee, under appropriate security 
protections, the OLC legal opinions that we have been requesting for 
years and that we require in order to fulfill our constitutional 
responsibilities?
    Answer. The Administration has made extraordinary accommodations in 
recent months to accommodate Congress' interest in these matters. 
Highly classified opinions concerning the Terrorist Surveillance 
Program have been made available to, among others, the Intelligence and 
Judiciary Committees of both Houses of Congress. As to the CIA's 
interrogation program, the Intelligence Committees briefed on both the 
classified details of and the legal basis supporting the program, and 
unclassified briefings also have been provided to Congress. Since the 
Attorney General's testimony, the Administration has further 
accommodated congressional interest in this subject by making available 
to the Intelligence Committees the classified OLC opinions on the CIA 
program. In addition, the Administration has made available to the 
Judiciary Committees three of those opinions, with limited redactions 
necessary to protect intelligence sources and methods.
    Question. In 2004, Congress passed and the President signed the 
Justice for All Act. That bipartisan bill included the Innocence 
Protection Act, a piece of legislation I worked on for years providing 
important reforms to help reduce the risk of error in capital cases. A 
key component of that Act was a grant program for post-conviction DNA 
testing. The program is named in honor of Kirk Bloodsworth, the first 
death row inmate exonerated as a result of DNA testing. To ensure that 
other innocent people avoid the ordeal Mr. Bloodsworth went through and 
that the guilty are caught and convicted, it is crucial that states 
receive the funding authorized and appropriated for the Bloodsworth 
program. Instead, the Department of Justice has interpreted the very 
reasonable evidence preservation requirements that Congress included 
for this program so stringently, and contrary to Congress' intent, that 
all applications to the program have been rejected and not a dime has 
been awarded. This Committee held a hearing last month on this issue, 
and the Department's representative assured us that he would work to 
award the grant money that has been sitting unused these past three 
years. Will you make sure that the Department does everything it can 
this year to get the money appropriated to the Bloodsworth program out 
to the states that can use it for good?
    Answer. Yes. In the fiscal year 2007 postconviction DNA 
solicitation, in accordance with section 413 of the Justice for All Act 
and the fiscal year 2006 and fiscal year 2007 appropriations, 
applicants were required to demonstrate compliance with certain 
stringent eligibility requirements set by section 413. Language in this 
year's (fiscal year 2008) appropriation has the effect of allowing the 
Department of Justice's National Institute of Justice (NIJ) to ease the 
section 413 requirements with respect to funds appropriated for fiscal 
year 2006-fiscal year 2008. The fiscal year 2008 solicitation--which 
was posted on January 22, 2008, and updated in response to concerns 
expressed in connection with a Senate hearing--accordingly eases the 
requirements of section 413, in a manner that we believe remains 
consonant with the policy objectives of section 413.
    Question. Congress gave the Department an out in this year's 
appropriations bill that allows the Department to loosen the 
requirements for the Bloodsworth program. Will you nonetheless make 
sure that the Department does not ignore Congress's clear intent that 
states be held to reasonable standards of evidence preservation since 
money for DNA testing does no good if the evidence is not there to 
test?
    Answer. The fiscal year 2008 solicitation eases the requirements in 
a manner that we believe remains consonant with the policy objectives 
of the statute. Under the fiscal year 2008 solicitation to establish 
eligibility, the chief legal officer of the State must certify that the 
State ``[p]reserves biological evidence secured in relation to the 
investigation or prosecution of a State offense of forcible rape, 
murder, or nonnegligent manslaughter under a State statute, local 
ordinances, or State or local rules, regulations, or practices, in a 
manner intended to ensure that reasonable measures are taken by all 
jurisdictions within the State to preserve such evidence.'' We believe 
that this requirement, which includes language derived generally from 
section 413 of the Justice for All Act itself, calls for a meaningful 
certification. We will rely on the chief legal officer of each State to 
accurately assess whether the certification properly can be made based 
on the State's particular circumstances. We note that the certification 
template explicitly states that ``I am aware that a false statement in 
this certification may be subject to criminal prosecution, including 
under 18 U.S.C.  1001.''
    Moreover, the fiscal year 2008 solicitation for these funds puts 
States on notice that funding in future fiscal years may be contingent 
on the more stringent requirements regarding evidence retention 
established by section 413 of the Justice for All Act. In addition, 
through the DNA and Coverdell programs, NIJ provides significant 
assistance to States and units of local government to purchase 
equipment and other resources to provide for retention of biological 
evidence. Finally, NIJ is studying the extent of evidence preservation 
in DNA laboratories generally to identify ways to improve evidence 
storage practices.
    Question. The Judiciary Committee's hearing last month also looked 
into Inspector General Glenn Fine's highly critical review of the 
Department's implementation of the Coverdell grant program for forensic 
improvements. The Justice for All Act required that states receiving 
money under the Coverdell program certify that they have an independent 
entity to investigate allegations of serious negligence or misconduct. 
Inspector General Fine's report found many problems with the 
Department's implementation of this provision. Perhaps most 
astonishing, he found that the Department has taken the legal position 
that, while agencies must certify they have an independent entity where 
they can refer allegations of misconduct or serious negligence by 
forensic labs, the agencies have no obligation to actually refer such 
allegations for investigation. So they need to have a process, but they 
do not need to use it. This is clearly contrary the bi-partisan intent 
of Congress in the Justice for All Act. Why would the Justice 
Department would take a legalistic position that is so clearly contrary 
to the intent of the Justice for All Act?
    Answer. The Department of Justice agrees that allegations of 
serious negligence or misconduct in forensic programs should be 
appropriately investigated. In its recent fiscal year 2008 solicitation 
for the Coverdell program, the National Institute of Justice strongly 
encouraged the reporting of allegations of serious negligence or 
misconduct to the appropriate government entity. The Department is 
currently working collaboratively with the Office of the Inspector 
General to further clarify, in the best way possible, the grantees' 
responsibilities when they receive allegations of serious negligence or 
misconduct.
    Question. Do you agree with me that the Justice Department must 
encourage the reporting of serious allegations of lab misconduct for 
investigation in order to ensure that any federally-funded forensic 
labs have the highest level of integrity?
    Answer. Yes, the Justice Department believes that allegations of 
serious negligence or misconduct should be appropriately investigated. 
Beginning with the upcoming fiscal year 2008 solicitation, Coverdell 
program solicitations will strongly encourage the reporting of this 
misconduct.
    Question. What are you proposing for rural areas and the smaller 
cities where crime has risen the most?
    Answer. DOJ is committed to providing the technical assistance 
necessary to ensure that applicants need not employ professional grant 
writers to successfully compete for funding. But more, objective 
criteria such as crime rates allow communities and grantees to compete 
on equal footing.
    This has been borne out in practice. A total of 18 sheriffs offices 
were funded in the fiscal year 2007 Targeting Violent Crime Initiative 
Program--all that applied were successful. While several large 
sheriffs' offices applied and were funded, many small agencies also 
applied and received funding (some with as few as 20 or 30 sworn 
staff). Awards to larger agencies often included support for smaller 
agencies in the surrounding areas, including sheriffs' offices (showing 
multi-jurisdictional character was an important factor in this 
program).
  --Tulsa, Oklahoma--the Tulsa Police Department will partner with the 
        Tulsa County Sheriffs Office, the local community services 
        council, the FBI and ATF to address gang- and drug-related gun 
        crime in the greater Tulsa area.
  --Wilmington, North Carolina--this town will use TVCI funds to 
        address a violent drug gang problem using long and short term 
        investigative strategies and relying on a partnership with the 
        local FBI task force.
  --Moss Point, Mississippi--this Gulf Coast community (population 
        15,512) will use TVCI funds in addition to building on existing 
        DEA and FBI task forces to address local violence, which 
        appears to be drug- and gang-related.
  --Redding, California--this Shasta area community will address local 
        gang problems using TVCI funds in collaboration with federal 
        agency support.
  --Lowell, Massachusetts--this suburban community will use TVCI funds 
        to support an analytical, intelligence-driven ``Ceasefire'' 
        approach to address gun, gang, and drug violence in the 
        community.
  --Akron, Ohio--this Midwest community will broaden an anti-gang 
        initiative with Summit County Sheriff's Office and the Greater 
        Akron High Intensity Drug Trafficking Area project. Funds will 
        also be used to support prevention and prosecution of crimes in 
        that area.
  --Leech Lake Tribe in Minnesota.
    The Bureau of Justice Assistance within OJP also has a program of 
training and technical assistance designed exclusively for small law 
enforcement agencies (those with less than 50 sworn staff). This 
program provides assistance to small departments in developing anti-
crime strategies, managing departments, and accessing resources such as 
grants. This program is administered by the International Association 
of Chiefs of Police.
    Question. Will you commit to working with me during the regular 
fiscal year 2009 appropriations cycle and on the upcoming emergency 
supplemental appropriations bill to restore the hundreds of millions in 
funding cuts to the COPS Program, the Byrne grant program, and other 
programs that have proven effective in cutting crime?
    Answer. We appreciate the support shown for the Department by the 
Senate Appropriations Subcommittee on Commerce, Justice and Science and 
pledge, consistent with the President's budget request, the 
Department's assistance to the subcommittee in getting the information 
it needs to formulate its fiscal year 2009 appropriations bill. If 
Congress were to pass a supplemental appropriations bill in 2008, the 
Department would be glad to consider supporting the request so long as 
it was consistent with Administration priorities.
    Question. Sixteen years after Congress authorized the National 
Motor Vehicle Title Information System (NMVTIS), there are still major 
loopholes in the system that allow crooked mechanics and sellers to 
``wash'' data from car titles that would alert prospective buyers if a 
car has been totaled in an accident or stolen. Consumers face dangers 
when they unknowingly buy improperly repaired vehicles with a history 
of serious damage. An article about airbag scams published last month 
in Reader's Digest documents several deaths due to nonfunctioning 
airbags in vehicles whose titles had been ``washed'' and whose repairs 
were fraudulent. Due to gaps in NMVTIS reporting, the owners did not 
know that their cars had been previously totaled, much less improperly 
repaired. They delay in full implementation of NMVTIS is the result of 
the Justice Department's failure to issue long-overdue rules requiring 
insurers and junkyards to provide data about totaled vehicles. Why, 
when consumer safety is at stake, has the Department failed for over a 
decade to issue these rules? When will the rules be issued?
    Answer. The key to an effective vehicle titling system is the 
cooperation and participation of all of the states. Since 
responsibility for the National Motor Vehicle Title Information System 
(NMVTIS) was transferred from the Department of Transportation (DOT) to 
the Department of Justice, the Department of Justice has been working 
with the American Association of Motor Vehicle Administrators (AAMVA) 
to implement NMVTIS. AAMVA is a nonprofit, tax exempt, educational 
association representing U.S. and Canadian officials who are 
responsible for the administration and enforcement of motor vehicle 
laws. AAMVA has been acting in the capacity of NMVTIS operator since 
1992, when DOT was responsible for the system. The focus of the efforts 
of the Department of Justice and AAMVA has been to set up a working 
system and to get all of the states to participate in NMVTIS. 
Unfortunately, many states have been slow to participate because of 
competing demands on their resources.
    Currently, 35 states are actively involved with NMVTIS. Thirteen 
states are participating fully in NMVTIS, 12 states are regularly 
providing data to the system, and an additional 10 states are actively 
taking steps to provide data or to participate fully. The 13 states 
participating fully in NMVTIS are Arizona, Florida, Indiana, Iowa, 
Kentucky, Massachusetts, New Hampshire, Nevada, Ohio, South Dakota, 
Virginia, Washington, and Wisconsin. The 12 states providing regular 
data updates to NMVTIS are Alabama, Georgia, Idaho, Louisiana, 
Nebraska, New Jersey, New York, North Carolina, Pennsylvania, 
Tennessee, Texas, and Wyoming. The 10 states actively taking steps to 
provide data or participate fully are Arkansas, California, Delaware, 
Missouri, Montana, New Mexico, Oklahoma, South Carolina, Vermont, and 
West Virginia. States that participate fully in the system provide data 
regularly and make NMVTIS inquiries before issuing a new title. These 
states also send updates to the system when necessary. States that 
regularly provide data to the system do so through a batch upload 
process but do not check NMVTIS before issuing a new title. Currently, 
more than 60 percent of the U.S. vehicle population is represented in 
the system. The Department of Justice's goal is to have more than 75 
percent of the U.S. vehicle population represented in the system by the 
end of 2008.
    The Department of Justice has recently submitted a proposed rule to 
implement NMVTIS to the Office of Management and Budget. That rule is 
currently under review.

                 TELECOMMUNICATION CARRIER COMPENSATION

    Question. We are engaged in a debate in the Senate about this 
Administration's proposal to grant retroactive immunity to 
telecommunications carriers who participated in secret warrantless 
surveillance efforts for more than 5 years in violation of the Foreign 
Intelligence Surveillance Act, presumably some of the same carriers 
that later disconnected wiretaps when the bills were not paid. What 
payments were made to telecom companies to compensate for their 
participation in surveillance efforts including that which came to know 
as the President's program and the Terrorist Surveillance Program?
    Answer. The Senate and House Intelligence Committees have conducted 
extensive oversight of operational aspects of the National Security 
Agency activities described by the President and the 2005 Act now 
commonly known as the Terrorist Surveillance Program. The Judiciary 
Committees of both Houses have also been provided with documents, held 
hearings, and have been briefed on this Program. The specifics of any 
arrangement between the Government and a telecommunications carrier to 
provide classified assistance with surveillance efforts cannot be 
further discussed in an unclassified setting.
    Question. As of May last year, the Justice Department declined to 
identify for the Judiciary Committee the number of civil false claims 
cases that have been referred to or remain pending at the Justice 
Department, and only identified one case where the Justice Department 
has joined a qui tam relator in a case involving allegations of 
contracting fraud in Iraq or Afghanistan. Will you provide the 
Committee with an update on the status of these unresolved civil false 
claims cases? Please identify how many false claims cases have been 
referred to the Justice Department for investigation, how many the 
Justice Department has joined, and how many cases the Justice 
Department has declined to join. Also, please identify any new public 
settlements under the False Claims Act related to allegations of 
contracting fraud in Iraq or Afghanistan, and briefly describe the 
facts of these cases.
    Answer. As of June 2, 2008, fifty-three qui tam actions have been 
filed under the False Claims Act against private contractors that 
provided support for U.S. government activities in the Middle East, 
including Iraq and Afghanistan. Of these fifty-three cases, the 
Department has intervened in and is litigating one case, has settled, 
at least in part, three other cases, and has declined to intervene in 
another eighteen cases. The Department continues to investigate the 
remaining matters. The Department is also investigating a number of 
non-qui tam matters involving the Middle East that have been referred 
to the Department by other governmental agencies.
    As noted, the Department has resolved three qui tam actions, at 
least in part, relating to the Middle East, which resulted in four 
separate settlements. Additionally, the Department has settled one non-
qui tam matter under the False Claims Act involving the Middle East. 
These five settlements are briefly described below:
  --Houston-based EGL, Inc., operating as Eagle Global Logistics, a 
        subcontractor for Kellogg Brown and Root, settled for $4 
        million on August 6, 2006. The settlement resolved allegations 
        that EGL inflated invoices for shipments under government 
        contracts for support of military operations in the Balkans, 
        Afghanistan and Iraq. This settlement resolved in part a qui 
        tam case that remains sealed.
  --In a second settlement arising out of the same sealed qui tam case 
        discussed in the prior paragraph, EGL, Inc. paid the United 
        States in June, 2007, an additional $300,000 to settle 
        allegations that the company's local agent in Kuwait 
        overcharged the military for rental charges on shipping 
        containers to Iraq for the period from January through June, 
        2006.
  --Force Protection Industry, Inc., of Ladson, South Carolina, agreed 
        on August 23, 2006, to pay the United States $1.8 million to 
        settle fraud claims related to the manufacture and delivery of 
        armored vehicles for use in Iraq. These allegations were the 
        subject of a qui tam action captioned United States ex rel. 
        Chomyn v. Force Protection Industry, Inc., No. 2:05-1906 
        (D.S.C.).
  --Northrop Grumman settled a voluntary disclosure case on July 18, 
        2007, by paying $8 million in connection with deficient testing 
        of night vision goggles and sniper scopes used throughout the 
        military.
  --On December 18, 2007, the Department settled with Sioux 
        Manufacturing Corp. for $1.9 million the allegations in United 
        States ex rel. Kenner v. Spirit Lake Tribe, No. 2-06-CV-48 (D. 
        N.D.). This qui tam case alleged that the defendant failed to 
        follow specifications in making protective cloth material for 
        military helmets.
    Finally, as noted, the Department is currently litigating one case 
relating to the Middle East. On June 11, 2007, the United States 
intervened in the qui tam case captioned United States ex rel. Dye v. 
ATK Thiokol, Inc., No. 1:06CV39 (D. Utah). The lawsuit alleges that ATK 
delivered defective illumination flares used in search and rescue, and 
combat operations critical to the U.S. military, including operations 
in Iraq and Afghanistan.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan

                         TRIBAL JUSTICE FUNDING

    Question. The Justice Department dedicated 102 Federal Bureau of 
Investigations agents to investigate violent crimes in Indian country 
in 1998. Congress provided funding for an additional 30 agents in 
fiscal year 1999, and an additional 27 agents in fiscal year 2005. As a 
result of these appropriations, there should be 159 FBI agents 
dedicated to violent crime in Indian country. However, there are only 
114 FBI agents dedicated to Indian country today. Can you please 
explain this discrepancy?
    Answer. As of June 2008, there are 104 FBI Special Agents working 
on Indian Country (IC) matters. Of this total, 30 were appropriated in 
fiscal year 1997, 30 in fiscal year 1999, and 10 in fiscal year 2005 
(the FBI's fiscal year 2005 appropriation included 27 positions, 10 of 
which were Special Agents). The remaining 34 Special Agents currently 
working IC matters have been assigned by their respective field offices 
to address specific IC issues.
                                 ______
                                 
            Questions Submitted By Senator Richard C. Shelby

    Question. Is the Department of Justice pleased with all of the DHS 
charges in present and past budget requests? If so, please explain why. 
If not, please explain why. Please list all services received from the 
DHS charge since its inception.
    Answer. The Department of Homeland Security charges three types of 
security costs to the Department of Justice (DOJ): basic security 
charges, building-specific security charges, and reimbursable 
collections. Basic security charges are required for all Federal 
Protective Service (FPS)-protected facilities and are based on a per-
square footage basis. Building-specific security charges are based on 
specific security needs of the building in question. The building-
specific security charges are comprised of two elements: operating 
expenses and amortized capital costs. Building specific charges, 
whether operating expenses or capital costs, are distributed over all 
federal users by building or facility in direct proportion to each 
customer agency's percentage of federal occupancy. Reimbursable 
collections include any agency-specific requirement or requirement 
above the building security survey recommendation. We cannot confirm 
what precise building security measures the Department has in place, as 
it would jeopardize building security. We are happy to provide this 
information to you in a more secure manner, however.

                      DEPARTMENT OF JUSTICE AGENTS

    Question. Two years ago (May 2006), the Administration's 
supplemental budget request included $2 billion to secure the Nation's 
border of which only $20 million, or 1 percent, was for the Department 
of Justice. Since September 11th, the Administration has increased the 
number of Border Patrol agents by 122 percent, from 9,000 in fiscal 
year 2000, to 20,000 in their fiscal year 2009 request.
    Provide a detail breakout by bureau the number of agents hired and 
the percentage increase by each since September 11th.
    Answer. The following chart indicates the authorized agent levels 
for the core DOJ law enforcement agencies.

----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
                                                ----------------------------------------------------------------
                 DOJ Component                                               Percent        2009       Percent
                                                   Enacted        2008      2008 over   President's   2009 over
                                                                enacted        2001        budget        2001
----------------------------------------------------------------------------------------------------------------
FBI............................................       11,375       13,027         14.5       13,313         17.0
DEA............................................        6,080        5,838         -4.0        5,868         -3.5
ATF............................................        2,671        2,482         -7.1        2,482         -7.1
USMS...........................................        2,671        3,412         27.7        3,570         33.7
----------------------------------------------------------------------------------------------------------------
Reflects direct and reimbursable authorized agent positions.

                                 OTHER

    Question. Concerns have been raised with the Subcommittee that S&E 
funds have been used for construction projects at DEA. Has DEA used any 
S&E funding for anything other than its intended purpose, without 
notifying Congress, in the past three years?
    Answer. DEA has not used any S&E funding for anything other than 
its intended purpose, without notifying Congress in the past three 
years.
    Question. Last year, DEA used the term hiring freeze while 
soliciting increased funding over the Presidents requested budget. Was 
anyone hired at DEA last year? Does the Attorney General agree that DEA 
had an actual hiring freeze? If anyone was hired at DEA, please explain 
how this is a hiring freeze. If the Attorney General agrees that DEA 
was in the midst of a hiring freeze and DEA had hired, please explain 
the Attorney General's position. If the Attorney General disagrees with 
DEA saying it was a hiring freeze, please explain that position.
    Answer. DEA did not fill positions that were funded through its 
base Salaries and Expenses Account. However, DEA did not have to limit 
hiring for positions funded through the Diversion Control Fee Account. 
DEA was able to hire a limited number of positions in the Salaries and 
Expense Account due to funding provided by Congress specifically for 
new hires. The fiscal year 2007 Joint Resolution included funding for 
57 new DEA positions to support the Intelligence Community. Congress 
also provided funding in the fiscal year 2007 GWOT Supplemental, which 
allowed DEA to fill 184 positions.
    DEA lost 663 employees through attrition (including 251 Special 
Agents) from August 2006 through December 2007. Over the same time 
period, DEA hired 281 new employees (including 96 Special Agents), 
resulting in a net reduction of 382 employees (including 155 Special 
Agents).
    The Department of Justice remains fully informed of DEA's progress 
in hiring over the past year and a half. The Department has been 
engaged from the beginning in dialogue with DEA to ensure that the 
managed hiring initiative is implemented appropriately.

                      SOUTHWEST BORDER ENFORCEMENT

    Question. Two years ago (May 2006), the Administration's 
supplemental budget request included $2 billion to secure the Nation's 
border of which only $20 million, or 1 percent, was for the Department 
of Justice.
    Thousands of new Border Patrol agents have placed a tremendous 
strain on the federal criminal justice system and significantly 
increases the workload of the Department of Justice. The end result is 
that DOJ agencies must further sacrifice its limited resources to 
respond to fiscal and human resource pressures created by other federal 
agencies. Do you really think $100 million is enough for the Department 
of Justice when the Border Patrol alone is asking for four times that 
amount at $442 million?
    Answer. The Attorney General has requested $100 million in new 
funding as a part of the fiscal year 2009 budget for the 
Administration's Southwest Border Enforcement Initiative. If funded by 
Congress, the new resources will better enable the United States to 
combat the flow of illegal immigration, drugs, and weapons across our 
Southwest Border, and to arrest, detain, prosecute, and incarcerate 
violent criminals, drug offenders, and immigration violators along the 
Southwest Border. These funds will support the full range of law 
enforcement operations along our Southwest Border. The requested funds 
for fiscal year 2009 included enhancements to the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives, the Drug Enforcement Administration, 
Interagency Crime and Drug Enforcement, the U.S. Marshals Service, the 
Office of the Federal Detention Trustee, the Executive Office for 
Immigration and Review, and the border U.S. Attorneys' Offices. As that 
list indicates, the issues associated with border enforcement are 
multifaceted and involve many entities, not only in the Department of 
Justice but across the Executive Department, as well as the Judiciary. 
Any legislative responses to issues associated with border law 
enforcement need to address the system as a whole.

                     FUGITIVE APPREHENSION PROGRAM

    Question. Provide background on the OIG review on Adam Walsh. In 
December 2007, the USMS was notified that the Office of the Inspector 
General was initiating a review of the Department of Justice's efforts 
to implement the Sex Offender Registration and Notification Act 
(SORNA), Title 1 of the Adam Walsh Child Protection and Safety Act of 
2006. What is the status of this investigation?
    Answer. It is an inspection (rather than an investigation) being 
conducted by the Evaluation and Inspections Division of the Office of 
the Inspector General (OIG). The purpose of the review is to determine 
the status of the Department's efforts to prevent convicted sex 
offenders from committing additional crimes by locating, apprehending, 
and prosecuting fugitive sex offenders. This inspection is currently in 
progress.
    Question. What other agencies in Justice were asked to participate?
    Answer. The following offices were asked to participate: The Office 
of Justice Programs' Sex Offender Sentencing, Monitoring, Apprehending, 
Registering, and Tracking (SMART); the Federal Bureau of 
Investigation's National Crime Information Center (NCIC), Crimes 
Against Children Unit, and Integrated Statistical Reporting and 
Analysis Application (ISRAA); the Criminal Division's Child 
Exploitation and Obscenity Section (CEOS); and the Executive Office for 
United States Attorneys' Transactional Informational Government 
Accounting System (TIGAS).
    Question. Who at the Department is coordinating this effort for the 
Federal Government?
    Answer. Paul Price, Assistant Inspector General for Evaluations and 
Inspections, Office of the Inspector General, is coordinating this 
inspection at the behest of the Department of Justice's Inspector 
General, Glenn A. Fine.
    Question. Provide the statistics on the number of shootings the 
DEA, ATF, FBI and USMS had in fiscal year 2007 versus the number of 
fugitives apprehended.
    Answer. The USMS apprehended or cleared 75,812 federal fugitives 
and cleared 84,944 state and local fugitive cases in fiscal year 2007. 
The USMS had 20 shooting incidents in fiscal year 2007 during fugitive 
apprehensions. Shooting statistics involving other law enforcement 
agencies must be obtained directly from DEA, ATF, and FBI.
    Question. Does the USMS have a plan for the expansion of the USMS 
Foreign Field Offices and does the Department of Justice support that 
expansion?
    Answer. The USMS has a five-year plan for the expansion of the USMS 
Foreign Field Offices which was approved by the Director in July 2005 
and by a previous Attorney General.
    Question. What is the long term plan for the International Fugitive 
Apprehension Program?
    Answer. The USMS International Fugitive Apprehension Program five-
year plan proposes the establishment of country-specific and regional 
offices strategically placed in host countries to best address fugitive 
workload throughout the world. The USMS will determine the most 
strategic locations to expand the foreign field offices based on 
fugitive workload, extradition activity, political factors, and 
geographic location.
    Since the approval of the foreign expansion plan, the Adam Walsh 
Child Protection and Safety Act became law. Adding the requirements of 
this new mission may change the order in which new foreign offices are 
added.
    Question. The Department was directed in the 2005 conference report 
to submit a five year plan that included a time-line and cost estimate 
to open additional international offices that are critical to the USMS 
fugitive apprehension mission. Provide the Committee with the plan 
directed in the 2005 Conference report.
    Answer. The USMS was directed by the Conference Report (H.R. 108-
792) accompanying the fiscal year 2005 Consolidated Appropriations Act 
to submit a five-year plan for the International Fugitive Program. The 
plan was approved by DOJ and OMB on December 23, 2005 and is attached 
as submitted.
    Question. Where is the department in implementing that plan?
    Answer. The USMS currently has three foreign offices in the 
following locations: Mexico City, Mexico; Kingston, Jamaica; and Santo 
Domingo, Dominican Republic.
    Question. Provide the plan for 2008 and 2009.
    Answer. No new resources were included in the fiscal year 2008 
enacted, but there is a pending request for one position in Mexico in 
the fiscal year 2009 USMS S&E President's budget request and one 
additional position in Mexico in the fiscal year 2009 OCDETF budget 
request for the USMS.
    Question. How many new foreign offices will be opened by the 
Marshals to catch international fugitives in the 2009 budget?
    Answer. The fiscal year 2009 President's budget does not include 
resources to open a new foreign field office.
    Question. The Organized Crime Drug Enforcement Task Forces (OCDETF) 
is funded at $498 million this year. Most of the funding is for the 
1,629 law enforcement personnel including: 1,048 DEA agents, 489 FBI 
agents, 53 ATF agents, and 39 Deputy U.S. Marshals. The fiscal year 
2009 request seeks an additional 6 Deputy Marshals which would bring 
them up to 45 OCDETF Deputy Marshals. There is a memorandum of 
understanding (MOU) between the Marshals Service and DEA to work 
fugitive warrants. Under this MOU, after seven days, most DEA warrants 
are transferred over to the Marshals Service. No USMS warrants are 
transferred to DEA. If the Marshals Service is identifying and 
arresting DEA fugitives, why don't they get more OCDETF resources?
    Answer. The level of USMS funding within the OCDETF Program is 
established by the ICDE Appropriations; it is not a matter of 
discretion for the OCDETF Program. Over the last several budget cycles, 
OCDETF has gradually requested and received additional resources to 
expand the USMS's ability to assist in the OCDETF mission. The 
President has not requested additional new resources, because the 
USMS's OCDETF resource allocation already takes into account that it 
will assume responsibility for unexecuted DEA warrants once 
investigations are completed.
    The OCDETF Program provides reimbursable funding for the Drug 
Enforcement Administration, Bureau of Alcohol, Tobacco, Firearms and 
Explosives, Federal Bureau of Investigation, United States Marshals 
Service, United States Attorneys, and the Justice Department's Criminal 
and Tax Divisions. OCDETF funding augments the direct budgets and 
appropriations of the participating agencies and these funds are 
restricted to OCDETF program expenses. The allocation of OCDETF 
resources among these participating agencies takes into account the 
level of resources needed to fulfill each agency's role in the handling 
of OCDETF drug cases. Each OCDETF agency, including the DEA and the 
USMS, has unique capabilities and expertise that are deployed in 
individual cases to maximize productivity and avoid duplication of 
effort. The USMS's contributions, while critical to the success of the 
mission, are typically more limited than the DEA's in scope and 
expense. In most OCDETF cases, the DEA's role is to investigate the 
drug trafficking organizations, and the USMS's role is to find and 
arrest the traffickers who escape the first round of arrests. Recently, 
with the addition of new USMS resources, the OCDETF Program has begun 
using the USMS in a more proactive basis during the initial arrest and 
take-down process to limit the number of traffickers who become 
fugitives. The agencies' respective OCDETF funding levels take into 
account that division of labor and expertise. Warrants are not moved 
from USMS to DEA as that is not DEA's role in the OCDETF Program.
    OCDETF funding allocations developed annually during the regular 
budget process are included in the President's budget request to 
Congress each February. The OCDETF resource requests that are submitted 
are developed within the overall National Drug Strategy and constraints 
provided by the Department of Justice and the Administration. During 
this process all aspects of each of the OCDETF components are reviewed 
with regard to the task force's mission. As the budget environment has 
become more restricted, only the highest priority budget increases have 
been approved. Over the last few years, in recognition of the need for 
the USMS's unique capabilities and expertise, the OCDETF Program has 
made it a priority to request increases for the USMS. In fiscal year 
2005, OCDETF requested and received 28 new deputies, an increase of 215 
percent. The current fiscal year 2009 President's budget includes a 
request for 6 new deputies, a 17 percent increase including the first 
full-time deputy who will be assigned to a foreign duty station. The 
OCDETF Program will continue to request additional deputies until the 
appropriate balance between investigations, prosecutions, and fugitive 
apprehensions has been met.
    Question. How much money has been provided to the Marshals from 
OCDETF for extraditions?
    Answer. The OCDETF Program does not specifically designate any of 
the funding provided to the USMS. Historically, the USMS has not 
designated any of its OCDETF funding for returning extradited fugitives 
to the United States and instead has focused its OCDETF funding on its 
highest priority of identifying, locating and apprehending fugitives, 
including those that have fled the country. Shifting resources to 
support the administrative and logistical costs associated with 
extraditions would greatly diminish fugitive apprehension efforts.
    Question. Can the USMS use OCDETF funding to support the expansion 
of the USMS Foreign Field Offices?
    Answer. Yes. The USMS can use OCDETF funding to help the expansion 
of USMS foreign field offices. The fiscal year 2009 OCDETF President's 
budget contains a request for one position for the USMS to expand 
violent narcotics case fugitive apprehension in Mexico. This is in 
addition to the aforementioned Mexico position in question right before 
this one.
    Question. Can't OCDETF money be used to augment the Foreign Field 
Office in Mexico City, Mexico and Bogota, Colombia? If not, why not? Be 
specific.
    Answer. Yes, OCDETF money could be used to augment the foreign 
field offices. There were no program enhancements in fiscal year 2007 
and the USMS OCDETF budget decreased in fiscal year 2008. The fiscal 
year 2009 OCDETF President's budget contains a request for one USMS 
position to expand violent narcotics case fugitive apprehension in 
Mexico. The USMS is in the process of initiating a temporary duty 
assignment to Bogota, Colombia using OCDETF resources, in conjunction 
with the Drug Enforcement Administration, to assess the USMS in-country 
capabilities on fugitive apprehension and extradition efforts. The 
temporary duty start date is scheduled for the Summer of fiscal year 
2008.
    Question. How many narcotics related or narco-terrorism related 
extraditions does the USMS do each year?
    Answer. In fiscal year 2006, 301 narcotics/narco-terrorism related 
extraditions were completed costing $1,068,728. In fiscal year 2007, 
347 narcotics/narco-terrorism related extraditions were completed 
costing $1,166,500.
    Question. Can funding be utilized from the Organized Crime Drug 
Enforcement Task Force (OCDETF) to support narcotics related 
extraditions?
    Answer. Yes. The USMS has requested $100,000 in the fiscal year 
2009 OCDETF President's budget to support narcotics related 
extraditions. The USMS has also sought funding through the Asset 
Forfeiture Program and OCDETF to cover the costs incurred by the USMS 
for extraditing these targets and will continue to pursue future 
funding for this essential mission.
    Question. If so, has it been used for this purpose?
    Answer. The USMS has not previously used any outside funding 
resources for this purpose.
    Question. If not please describe in detail why.
    Answer. Funding was allocated to maximize performance output. 
Domestic OCDETF fugitive operations would have been markedly reduced by 
any spending priority shift to extradition funding.
    Question. Isn't it true that in fiscal year 2006 and fiscal year 
2007 approximately half of the extradition missions were conducted on 
subjects wanted in major narcotics cases, including criminal 
indictments filed under the Organized Crime Drug Enforcement Task Force 
(OCDETF)?
    Answer. Yes. Please see stats in next question.
    Question. Specifically in fiscal year 2006, 301 of the 685 missions 
completed were for narcotics, 72 of which were specifically for OCDETF 
violators. In fiscal year 2007, 347 of the 772 missions completed were 
for major narcotics violators, 51 of which were OCDETF cases. How much 
funding has OCDETF given to the Marshals to support these efforts from 
fiscal year 2004 to today? Be specific.
    Answer.

----------------------------------------------------------------------------------------------------------------
                                                             Positions   Investigators      FTE         Amount
----------------------------------------------------------------------------------------------------------------
Fiscal year 2004..........................................           13            13            13   $2,125,000
Fiscal year 2005..........................................           41            39            27   $6,345,000
Fiscal year 2006..........................................           41            39            36   $6,932,000
Fiscal year 2007..........................................           41            39            39   $8,447,000
Fiscal year 2008..........................................           41            39            41   $8,272,000
Fiscal year 2009 President's request......................           47            45            44  $10,221,000
----------------------------------------------------------------------------------------------------------------

    Question. Provide a detailed list of all funding provided by OCDETF 
to support the extraditions and deportations carried out by the 
Marshals Service.
    Answer. OCDETF does not limit the activities that USMS can use 
OCDETF funding for as long as the costs are related to an OCDETF 
fugitive. The USMS has historically chosen not to allocate OCDETF 
funding for the logistical and administrative costs of extraditions and 
deportations.
    Question. Provide all of the requests since fiscal year 2005 from 
the U.S. Marshals Service to OCDETF for funding assistance? Be specific 
as to why each was approved or rejected. Be specific about all higher 
priorities funded.
    Answer. As noted in the above response, the OCDETF Program provides 
the USMS funding on an annual basis through the budget process. This 
process allows the USMS to submit budget enhancements to the OCDETF 
Program for inclusion in its annual President's budget request. The 
details of these requests are pre-decisional and not releasable.
    However, since fiscal year 2005, the following program enhancement 
requests were requested by the Administration for the OCDETF USMS 
Program: an additional 28 positions and $4,320,000 in fiscal year 2005 
to create OCDETF fugitive apprehension units throughout the nine OCDETF 
regions and assume responsibility for all OCDETF fugitives; 9 positions 
and $2,072,000 in fiscal year 2006 to increase the capacity of the USMS 
to apprehend OCDETF fugitives; and an additional 6 positions and 
$1,714,000 for the USMS to address OCDETF fugitive apprehension by 
adding a Deputy U.S. Marshal to each of the border Districts; one 
Deputy U.S. Marshal in Mexico City, addressing the apprehension of 
OCDETF fugitives that are linked to CPOTs and Gatekeepers; and funding 
to assist in defraying the costs of extradition incurred by the USMS 
when bringing a fugitive out of Mexico back to the United States to 
face prosecution. These requests are on top of the mandatory 
inflationary cost requests by the Program. When compared to the other 
OCDETF components' requests, the USMS has grown at a significantly 
higher rate. Only DEA and USAs have also received enhancements during 
this time frame. While the USMS OCDETF budget has increased 289 percent 
since fiscal year 2004, the USA OCDETF budget grew 32 percent, and the 
DEA OCDETF budget grew only 12 percent.
    In addition, during this period the OCDETF Program has relied upon 
reprogrammed funds from prior year balances to supply requisite funding 
for short-term, targeted fugitive apprehension missions, called Special 
OCDETF Response Teams, or SORT Operations. Nearly $1.2 million in 
reprogrammed monies were provided to the USMS by the OCDETF Executive 
Office during this time. The OCDETF Program continues to support the 
USMS, as they are an integral part of the Program.
    Question. How much will OCDETF be assisting the marshals with 
funding in fiscal year 2008?
    Answer. The USMS resource assistance by OCDETF in fiscal year 2008 
is 41 positions, including 39 Deputy Marshals, totaling $8,272,000.
    Question. Provide all requests since 2001 made by the Marshals for 
assistance from OCDETF, how much funding assistance was provided for 
each request, and the metrics used to determine what requests to 
support and reject?
    Answer. See table below.

------------------------------------------------------------------------
                                  Positions   Investigators     Amount
------------------------------------------------------------------------
Fiscal year 2001...............           13            13    $1,980,000
Fiscal year 2002...............           13            13    $2,049,000
Fiscal year 2003...............           13            13    $2,095,000
Fiscal year 2004...............           13            13    $2,125,000
Fiscal year 2005...............           41            39    $6,345,000
Fiscal year 2006...............           41            39    $6,932,000
Fiscal year 2007...............           41            39    $8,447,000
Fiscal year 2008...............           41            39    $8,272,000
Fiscal year 2009 President's              47            45   $10,221,000
 request.......................
------------------------------------------------------------------------

    The United States Marshals Service (USMS) plays a significant role 
in the OCDETF Program. The USMS is responsible for approximately 90 
percent of all OCDETF fugitive investigations. Currently, there are 
over 7,200 OCDETF fugitives nationwide, 32 percent of which are 
considered leaders in their organization. In fiscal year 2007, the USMS 
arrested 1,449 OCDETF fugitives--an average of 42 arrests per OCDETF 
U.S. Marshal FTE, clearing 1,492 warrants by arrest.
    When the OCDETF Program began in 1982, the Marshals received an 
allocation of 13 positions and this allocation remained unchanged for 
over twenty years. Fugitive apprehension is a critical element of the 
OCDETF Program's success. However, while other OCDETF member agencies 
increased their workforce generating many new OCDETF investigations and 
thereby increased the workload of the USMS, the USMS OCDETF resources 
remained fixed. In fiscal year 2003, a management study was done on the 
participation levels of the OCDETF Components which indicated that the 
level of participation by the USMS should be 113 positions given the 
current workloads. The OCDETF Program determined that this level of 
increase needed to be implemented in phased process. The fiscal year 
2005 President's request represented the first phase of the process 
resulting in the USMS receiving 28 new positions a 215 percent 
increase. Each year since, the OCDETF Program has sought to 
incrementally increase the USMS to reach the ultimate goal of 113 
positions.

                                       USMS HISTORICAL OCDETF ENHANCEMENTS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                               Enhancement requests      Enhancements received
                        Fiscal year                         ----------------------------------------------------
                                                              Positions     Funding     Positions      Funding
----------------------------------------------------------------------------------------------------------------
2005.......................................................           37       $5,801           28        3,932
2006.......................................................           67       13,024  ...........          450
2007.......................................................           34        7,181  ...........        1,940
2008.......................................................           20        8,032  ...........         (175)
2009.......................................................           19        4,690      ( \1\ )       ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Pending.

    Question. What are the participation levels in OCDETF among the DOJ 
agencies? What are the overall percentages that each agency initiates 
and participates in OCEDTF cases?
    Answer. Please see table below.

                                                                          AGENCY PARTICIPATION IN OCDETF INVESTIGATIONS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Fiscal year 2001    Fiscal year 2002    Fiscal year 2003    Fiscal year 2004    Fiscal year 2005    Fiscal year 2006    Fiscal year 2007    Fiscal year 2008
                                 ---------------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ATF.............................       305      22.8       212      23.5       165      23.4       212      24.0       261      25.6       258      26.7       273      26.9       211      30.1
DEA.............................     1,117      83.6       781      86.6       623      88.5       803      91.0       925      90.6       870      89.9       918      90.4       625      89.2
FBI.............................       566      42.4       333      36.9       247      35.1       309      35.0       344      33.7       325      33.6       334      32.9       233      33.2
ICE.............................       655      49.0       504      55.9       387      55.0       467      52.9       465      45.5       390      40.3       424      41.7       289      41.2
IRS.............................       526      39.4       419      46.5       378      53.7       451      51.1       438      42.9       356      36.8       469      46.2       276      39.4
USCG............................        15       1.1        19       2.1         9       1.3        16       1.8        11       1.1        16       1.7        21       2.1        11       1.6
USMS............................       307      23.0       263      29.2       209      29.7       300      34.0       340      33.3       406      41.9       511      50.3       325      46.4
State & Local...................     1,205      90.2       806      89.4       617      87.6       768      87.1       922      90.3       867      89.6       901      88.7       647      92.3
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                           AGENCY SPONSORSHIP OF OCDETF INVESTIGATIONS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Fiscal year 2001    Fiscal year 2002    Fiscal year 2003    Fiscal year 2004    Fiscal year 2005    Fiscal year 2006    Fiscal year 2007    Fiscal year 2008
                                 ---------------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ATF.............................        60       4.5        41       4.5        27       3.8        42       4.8        54       5.3        71       7.3        59       5.8        49       7.0
DEA.............................       908      68.0       624      69.2       536      76.1       710      80.5       816      79.9       784      81.0       821      80.8       568      81.0
FBI.............................       310      23.2       182      20.2       124      17.6       152      17.2       168      16.5       164      16.9       179      17.6       135      19.3
ICE.............................       168      12.6       146      16.2        86      12.2       143      16.2       137      13.4       132      13.6       127      12.5        93      13.3
IRS.............................        95       7.1        80       8.9        77      10.9        80       9.1        70       6.9        52       5.4        85       8.4        49       7.0
USCG............................         1       0.1         1       0.1  ........  ........         1       0.1  ........  ........  ........  ........         2       0.2  ........  ........
USMS............................         1       0.1         2       0.2  ........  ........         2       0.2         1       0.1         8       0.8  ........  ........  ........  ........
State & Local...................       163      12.2       100      11.1        81      11.5       106      12.0       153      15.0       136      14.0       140      13.8       126      18.0
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Do they receive adequate/appropriate funding in support 
of their contributions to the OCDETF program?
    Answer. Yes, the USMS receives appropriate funding for its 
participation in the OCDETF Program. The OCDETF Program was established 
to ensure that an appropriate level of participation from all of its 
member agencies were directed at the Department of Justice/
Administration's highest priority long-term and complex drug 
trafficking and money laundering investigations so that individual 
agencies could not redirect these funds to their respective short term 
priorities. This strategy has been hugely successful with the 
dismantlement of many of the infamous drug cartels from around the 
world who once thought they were untouchable by U.S. law enforcement.
    This Departmental funding priority is carefully balanced each year 
during the development of the President's budget against the other 
priorities within the Department and the availability of new funds. 
This has become more difficult in recent years due to budget 
constraints and the war on terror. Given all of these factors, the USMS 
OCDETF Program has grown at a faster rate than the other OCDETF 
components in recognition of the increasing USMS serves within the 
Program.
    Question. The USMS currently supports the U.S. National Central 
Bureau of Interpol (USNCB) with management positions in the Alien/
Fugitive Division and also holds the current Deputy Director position. 
What funding does the USMS receive to support this participation?
    Answer. The salaries, benefits, and overtime of these positions are 
funded by the USMS salaries and expenses (S&E) base. Over and above the 
position costs, the USMS receives an annual operating budget of 
approximately $44,000 to support the USNCB.
    Question. How much does the USMS International Extradition Program 
cost each year and how is the program funded? Provide a detail breakout 
of the real costs associated with this program by fiscal year from 
2006-08 and proposed for fiscal year 2009 and the money actually 
allocated to this program by the Department.
    Answer. The International Extradition Program is funded from the 
operational base of the USMS S&E appropriation. The Department does not 
directly allocate funding for USMS extraditions. The following table 
shows historical extradition expenses, not including the salaries and 
benefits of the USMS participants:

                        USMS EXTRADITION EXPENSES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                               Cost of
                        Fiscal year                         extraditions
------------------------------------------------------------------------
2006......................................................         2,481
2007......................................................         2,705
2008......................................................     \1\ 3,600
2009......................................................     \2\ 3,600
------------------------------------------------------------------------
\1\ Estimate.
\2\ Projection.

    Question. The USMS Extradition Program has increased the number of 
missions completed every year since 2001. Has there been any comparable 
increase in personnel to support the increase in workload over that 
same period of time? Provide a detail list of workload increase and the 
number of positions increased for this program.
    Answer. The USMS has the statutory responsibility for conducting 
all extraditions to the United States from foreign countries, as well 
as supporting extraditions to foreign countries from the United States. 
This includes all individuals ordered extradited and/or surrendered, 
regardless of whether they are wanted by a federal, state, or local 
jurisdiction. As crime and wanted fugitives become more global, and the 
efforts of the USMS Domestic and International Fugitive Programs become 
more successful, the numbers of international fugitives apprehended and 
extradited to face justice has and will increase. Currently the USMS 
International Branch is responsible for coordinating all extraditions 
with the Department of Justice, State Department, and foreign 
governments. The International Branch has two full-time employees in 
the Extradition Program: an Extradition Program Manager, and one 
Extradition Specialist--a position that was initially created in the 
early 1980's. Personnel who conduct the actual extraditions are most 
often provided by the local district office where the extradited 
fugitive is being returned or is being held pending surrender to a 
foreign authority. The additional cost of the program is primarily due 
to the travel expenses of the prisoner and the USMS escorts dispatched 
to conduct the mission.

                        USMS EXTRADITION HISTORY
------------------------------------------------------------------------
                                                                Total
                                                            extraditions
                        Fiscal year                              and
                                                            deportations
------------------------------------------------------------------------
2002......................................................           340
2003......................................................           521
2004......................................................           541
2005......................................................           653
2006......................................................           685
2007......................................................           772
------------------------------------------------------------------------

    Question. What is the impact on the USMS Extradition Program when 
extradited subjects charged with ``extra-territorial'' narcotics or 
terrorism statutes (i.e., 21:959 or 21:960) are returned to the United 
States?
    Answer. The primary use of USMS-contracted dedicated flights in the 
past two fiscal years have been fugitives charged under 21 USC  959, 
or ``959'' indictments. They must be brought back to the United States 
under escort directly to the demanding jurisdiction. If the U.S. Port 
of Entry is a location other than the charging district, the subject 
must be tried in the district of formal entry to the United States. 
This causes great concern to the Department and U.S. Attorneys as their 
prosecutors, case preparation, files, agents, and witnesses are usually 
in the charging district and substantial resources would be needed to 
move the case to another district. The USMS faces several challenges in 
performing these extradition missions. For example, if no commercial 
flights exist from the country of origin, a contracted dedicated flight 
is the only option. If international flights can be identified from the 
country of origin, or a country will grant the USMS transit authority 
for a connecting flight, the USMS will utilize the most cost effective 
means. Since most of the individuals extradited on ``959'' indictments 
are high-level drug traffickers or individuals associated with narco-
terrorism, security for the prisoner and escorts is always a concern. 
These complicating factors increase the average cost of these ``959'' 
fugitive extraditions, especially if chartered aircraft are the only 
option available to support the mission, to an average of three times 
the cost of a non-959 extradition. The total cost of all ``959'' 
indictments completed in one fiscal year has risen from $53,040 in 
fiscal year 2004 to $688,450 in fiscal year 2007.
    Question. In fiscal year 2007, 53 missions were completed at a 
direct cost to the USMS of $688,450 or approximately 25.8 percent of 
the total extradition budget what is the Department doing to assist the 
Marshals Service with these spiraling expenses? Be specific.
    Answer. The Department takes increasing costs into account in 
determining priorities regarding law enforcement missions.
    Question. How will the implementation of the new Adam Walsh Child 
Protection and Safety Act of 2006 affect the USMS International 
Extradition Program?
    Answer. The number of extradition missions generated as a result of 
the Adam Walsh Child Protection and Safety Act (AWA) investigations is 
expected to drastically affect the Extradition Program. It is believed 
that many child predators travel internationally in pursuit of the 
child sex trade. Many of those predators are previously convicted sex 
offenders who are not in compliance and have failed to report that 
travel. They could readily retreat to familiar foreign locations once 
they are the focus of federal apprehension.
    Question. What is the estimated number of sex offenders who travel 
internationally to pursue and engage in illegal sex activity?
    Answer. There is no mechanism at this time to capture how many sex 
offenders (compliant or non-compliant) travel abroad. The DOJ Child 
Exploitation and Obscenities Section and the Sex Offender Management 
Apprehension Research and Tracking (SMART) office are working on 
guidelines to address the issue.
    Question. What are we doing to encourage our international partners 
to increase their commitment to assist us with non-compliant sex 
offenders who will be charged and eventually located internationally in 
countries such as Costa Rica, Thailand, Cambodia, the Philippines, and 
other Far East locations that cater to the underage sex business?
    Answer. In 2005, the USMS formulated a 5-year plan to expand the 
number of foreign postings that would help facilitate assistance with 
pursuing non-compliant sex offenders overseas. Currently, the USMS has 
a strong relationship with entities such as INTERPOL, NCMEC, and the 
Department of State that provides a framework to track and apprehend 
sex offenders traveling abroad. The USMS will work closely with these 
departments to create the National Sex Offender Targeting Center 
(NSOTC). NSOTC will assist law enforcement in tracking sex offenders 
both domestically and internationally.
    Question. What is the Justice Department doing to ensure that the 
Marshals Service has the resources and the manpower in these countries 
to assist in the hunting down of these predators?
    Answer. As stated above, the Justice Department works closely with 
partner agencies to apprehend these individuals overseas and supports 
the plan developed by the USMS to expand overseas presence to 
facilitate assistance in the pursuit of non-compliant sex offenders.
    Question. The Congressional Budget Office (CBO) conservatively 
estimates that the Marshals Service would need to hire at least 350 new 
Deputy Marshals to take a lead role in executing a significant number 
of additional warrants for unregistered sex offenders. CBO estimates it 
would cost $25 million year one and $220 million over a five-year 
period, including costs for space training, supervision and support 
staff. What new resources are requested by the Department in fiscal 
year 2009 to reduce the number of sex offenders from our streets?
    Answer. USMS actively assists state, local, and tribal territories 
in tracking and apprehending non-compliant sex offenders. No new 
resources have been requested for fiscal year 2009 for additional 
Deputy Marshals in the execution of this mission.
    Question. If the answer is zero what kind of message does this 
send?
    Answer. The USMS wants to send the message that we take our role 
that is outlined in the AWA very seriously. We want to ensure that the 
entire law enforcement community is aware that we will assist them in 
their efforts to track and apprehend non-compliant sex offenders. We 
want the public to be aware that we are uniting with state and local 
law enforcement in order to protect our children and our community from 
sexual predators.
    Question. Is this giving sex offenders a ``free ride''?
    Answer. The USMS recognizes the danger of having over 100,000 sex 
offenders roaming our communities with no supervision. There is no 
toleration of sexual abuse or exploitation by the USMS. USMS actively 
works with all levels of law enforcement to track and apprehend sexual 
predators.
    Question. How many DUSMs would you need to fully implement Adam 
Walsh?
    Answer. The USMS will work with DOJ and other agencies within the 
Administration to determine the appropriate level of resources to 
address its responsibilities as assigned by the Act.
    Question. How many are requested in the fiscal year 2009 budget?
    Answer. USMS resource requests for the AWA were included in the 
fiscal year 2008 budget submission to Congress; however, it was not 
part of the enacted appropriation. The fiscal year 2009 USMS 
President's budget does not contain any additional resources for sex 
offender enforcement.
    Question. The Presidential Threat Protection Act of 2000 authorized 
the Marshals Service to establish Regional Fugitive Task Forces (RFTFs) 
to locate and apprehend the most violent federal, state, and local 
fugitives. Over the years this Subcommittee has provided resources to 
the Marshals Service to establish six of these task forces. Results 
have been very impressive. Before there were RFTFs, the Marshals 
Service apprehended around 46,000 fugitives a year. Five years later, 
and with six RFTFs, the Marshals apprehended close to 95,000 felony 
fugitives--an increase of 106 percent. These fugitives are the ``worst 
of the worst,'' averaging more than four prior arrests each. Our 
communities are safer because taking these criminals off the streets 
prevented 378,000 crimes from being committed. How many new resources 
are requested in this budget for this program?
    Answer. The fiscal year 2009 USMS President's budget contains no 
enhancements to establish new RFTFs.
    Question. Even though the Marshals Service arrests more fugitives 
than all other federal agencies combined, DOJ in this budget request 
fails to recognize that the Marshals Service is one of its 
investigating agencies. Why are requests for more investigative 
resources not provided in this request?
    Answer. The USMS, in coordination with the DOJ, develop resource 
requests that reflect the Administration's priorities across all law 
enforcement components.

                           JUDICIAL SECURITY

    Question. The Court Security Act gives new responsibilities to the 
USMS, yet no additional funds were requested in fiscal year 2009. The 
Act authorized $20 million each year through 2011, but no additional 
funds are part of the fiscal year 2009 request.
    On March 11, 2008, ABC News and CNN reported that threats against 
federal judges and prosecutors are growing at an alarming rate. Threats 
against the federal judiciary and prosecutors have increased 69 percent 
over the past five years. Threats are on track to rise this year for 
the fifth straight year. The Congressional Budget Office (CBO) 
conservatively estimates that it would take $409 million over five 
years to provide sufficient resources to the USMS to provide increased 
court security.
    If the Marshals Service is under-staffed to perform its core 
mission of judicial security, how will they meet this mission 
requirement? Will these agents be pulled from the regional task forces? 
Provide a detailed breakout of where these manpower resources will come 
from.
    Answer. The USMS will continue to rely on District Security 
Officers (off-duty or retired law enforcement officers that the agency 
hires on an hourly or daily basis), overtime, and Deputy Marshals 
detailed from other district offices to meet mission requirements. 
Individual district offices are responsible for providing the staffing 
necessary to meet daily mission requirements; however, USMS 
Headquarters assists in coordinating travel for out-of-district Deputy 
Marshals when mission requirements exceed available resources in a 
district office.
    As an example, in fiscal year 2007, 307 out-of-district Deputy 
Marshals were utilized in order to staff protection details where there 
was inadequate staffing in the home district. The districts providing 
the resources then used Detention Enforcement Officers, District 
Security Officers (who work under personal services contracts), and 
overtime to meet their individual mission requirements.
    Deputy Marshals assigned to a district office may also be pulled as 
needed from any task force duties, including a Regional Fugitive Task 
Force, in order to staff critical judicial security missions. Deputy 
Marshals permanently assigned to Regional Fugitive Task Forces are 
pulled from their task force duties only in rare or exceptional 
circumstances, such as post-Hurricane Katrina duties in Mississippi and 
Louisiana.
    Question. The Committee understands that the Secret Service has 140 
people who analyze threats made against 40 officials. The Marshals 
Service has 35 people to analyst threats made against 7,700 judges and 
federal prosecutors. How do you address this disparity?
    Answer. The USMS Office of Protective Intelligence (OPI) presently 
has 25 people to analyze threats made against the 7,700 judges and 
prosecutors. Both the USMS and the U.S. Secret Service (USSS) 
proactively investigate threats and inappropriate communications 
directed at their protectees by conducting protective investigations. 
The USSS assigns full-time protective details for all of their 
protectees; however, the USMS does not assign full-time protective 
details to 7,700 individuals.
    If a judge or prosecutor is threatened, the USMS conducts a 
protective investigation to assess the severity of the threat. If 
required, a protective response is initiated and a protective detail 
assigned. Prior to and during the protective response, a Deputy Marshal 
conducts a protective investigation to mitigate the threat and any 
danger to the protectee. Judges are protected primarily only when they 
are at a U.S. Courthouse.
    Question. Without resources to improve the timeliness of threat 
assessments, how will you effectively predict who the next attacker is 
or who the next judicial victim will be?
    Answer. The USMS uses a behavior-based approach in conducting 
investigations. Predicting exactly who the next attacker or victim will 
be is difficult. USMS relies on statistical analysis to identify 
probable attackers. Studies have shown that individuals who pose a 
threat often do not communicate a warning in advance of their actions. 
Based on these studies, a methodology has been developed to look at a 
subject's behavior rather than strictly at the substance of what they 
may be communicating to the protectee or to law enforcement. The 
methodology includes an analysis of what actions they have taken to 
carry out an attack, statements they have made to others around them, a 
subject's individual criminal history, history of approaching possible 
victims, possession of weapons, and any life-changing experiences the 
subject may have undergone. When a subject comes to the attention of 
the judiciary or the USMS, proactive protective investigations pay 
attention to these indicators in their threat assessments.
    Identification of the next attacker or victim can be aided through 
enhancements in information technology. The threat management database 
currently used by the USMS was primarily designed for fugitive 
investigations rather than protective investigations, and as such the 
search capability and the automated analysis tools specific to 
protective investigations are limited. Four of the recommendations by 
the 2007 DOJ Office of Inspector General's (OIG) review of the USMS 
Judicial Security Process related to improving the threat assessment 
process and the databases that identify and track potential threats.
    An additional information technology tool that is used in the 
identification of potential attackers or victims is link analysis. The 
USMS has acquired a link analysis tool to interface with and search 
numerous USMS databases. A subsequent phase could expand the search 
capabilities of this analysis to include searches of other agencies' 
databases, court records, and open source data to aid in the 
investigation and identification of potential attackers.
    Question. How many DUSMs would you need to fully implement the 
Court Security Act?
    Answer. The USMS will work with DOJ and other agencies within the 
Administration to determine the appropriate level of resources to 
address its responsibilities as assigned by the Act.
    Question. How many are requested in the 2009 budget?
    Answer. The fiscal year 2009 request does not include any increases 
for the Court Security Act, but instead anticipates that the USMS will 
continue to rely on District Security Officers (contract guards with 
prior law enforcement experience), overtime for existing employees, and 
Deputy Marshals detailed from other districts to meet the requirements 
of the Act.
    Question. What challenges do you face in court security based on 
the fiscal year 2008 funding levels?
    Answer. The greatest challenge faced by the USMS is to provide a 
minimum standard of protection for judges, prosecutors, the court 
family and the public. Limited resources to address the constant 
pressure to produce and house more prisoners, investigate and apprehend 
more fugitives and sex offenders, and investigate and mitigate more 
risks posed to protectees is a tremendous challenge.
    Since 2005, the USMS has updated and appropriately raised the 
standards for judicial security. The USMS has changed polices and 
procedures related to everything from threat investigations to personal 
security details, re-engineering judicial security in the USMS.
    To address these challenges the USMS has combined the use of JSIs 
and PIIs to focus expertise on judicial threat analysis and 
investigation.
    Question. List by protectee the number of agents and vehicles 
assigned to each detail.
    Answer. Protectee detail information is sensitive information that 
could reveal USMS staffing levels and lead to security vulnerabilities 
affecting our protective mission. Therefore, specific details are not 
released outside the agency. In general, the number of Deputy Marshals 
and vehicles assigned to a protection detail varies and is determined 
on a case-by-case basis. The level of protection detail, depending on 
the severity of the threat, can range from an escort detail of a single 
Deputy Marshal to a full protection detail of a dozen or more Deputy 
Marshals. An escort detail is the minimum level of protection and a 
full protection detail is the maximum level of protection for USMS 
protective missions.
    Question. The cost of each protectee detail in 2007, to date in 
2008 and the projected year end cost.
    Answer. The USMS expended $1,857,000 for the operational cost of 
protection details in 2007 and $595,000 to date in 2008 with a 
projected total of $865,000 for the entire year. Totals exclude the 
regular payroll costs of Deputy Marshals.
    Question. How many agents in each shift of each detail?
    Answer. All protective details are staffed by Deputy U.S. Marshals. 
The number of Deputy Marshals and vehicles assigned to a protection 
detail varies and is determined on a case-by-case basis. The level of 
protection detail, depending on the severity of the threat, can range 
from an escort detail of a single Deputy Marshal to a full protection 
detail of a dozen or more Deputy Marshals. An escort detail is the 
minimum level of protection and a full protection detail is the maximum 
level of protection for USMS protective missions.

                         COURTHOUSE RENOVATIONS

    Question. In 1997, the U.S. Marshals Service proactively designed 
and implemented a National Security Survey to determine how well our 
400 federal courthouses measured up to security standards. Assaults and 
injuries in cellblocks place Deputy Marshals, pretrial and probation 
officers, and public defenders at grave risk. These same personnel are 
routinely exposed to airborne pathogens including hepatitis and 
tuberculosis due to improper heating and ventilation systems within 
cellblocks. The risk of escape is high when there are no segregated 
prisoner movement areas because Deputy Marshals must move prisoners 
through public corridors, stairwells, and elevators. Recent estimates 
suggest that $88 million would be needed over the next four years to 
renovate and remedy existing security deficiencies in cellblocks, 
vehicle sally ports, prisoner elevators, secure circulation areas, and 
holding cells. Another $30 million would be needed for cameras, alarms, 
and courthouse security systems.
    The 2009 request provides only $2 million for construction. A $2 
million request doesn't even cover the inflationary cost of maintenance 
and minor repairs. How will you allocate the $2 million to address what 
is identified as a $100 million problem?
    Answer. The $2 million included in the fiscal year 2009 request 
will be used to help meet expenses for those construction and 
renovation projects that are already in progress and that have the most 
pressing and immediate needs.
    Additionally, the 2009 budget proposes to consolidate the 
construction account within the larger salaries and expenses account. 
This proposal will increase the USMS flexibility to reprogram funds to 
address emergent construction needs and better prioritize funding.
    Question. Is the safety of the federal judiciary and all its 
participants a priority?
    Answer. Yes, it is the primary role and mission of the USMS to 
protect the Federal judiciary (28 U.S.C. 566(a)). The USMS Director's 
priority to ``Enhance Judicial Threat Management and Analysis'' fully 
supports the Department of Justice Strategic Goal 3.1.1 to ``Protect 
judges, witnesses, and other participants in federal proceedings, and 
ensure the appearance of criminal defendants for judicial proceedings 
or confinement.''
    Question. Is the health and safety of the federal agents who handle 
these prisoners addressed in this budget request? If the answer is yes 
explain why.
    Answer. The $2 million included in the fiscal year 2009 request 
will be used to help meet expenses for those construction and 
renovation projects that are already in progress and that have the most 
pressing and immediate needs.
    Additionally, the 2009 budget proposes to consolidate the 
construction account within the larger salaries and expenses account. 
This proposal will increase the USMS flexibility to reprogram funds to 
address emergent construction needs and better prioritize funding.
    Question. When the Administration requests only $2 million for 
construction each fiscal year, how long will it take to make sure that 
all courthouses are up to the latest security standards?
    Answer. At $2 million per year to renovate courthouse facilities, 
USMS-occupied space will continue to raise National Security Survey 
scores, which have significantly improved between 1999 and 2007. In 
1999, only 21 facilities met minimum standards. In 2002, 65 facilities 
met minimum standards. In 2006, 94 facilities met minimum standards. 
This improvement was the direct result of increasing funding in the 
Construction Appropriation and the S&E funding designated for 
courthouse security systems. Security scores for USMS facilities 
increased 4 percent-10 percent in many areas between the 2002 and 2006 
surveys. Security scores increased 15 percent-22 percent in major 
categories between the 1999 and 2006 surveys. The USMS utilizes a 
National Security Survey (originally developed in 1997 and refined 
every three years) to prioritize construction and renovation projects.

                      SOUTHWEST BORDER ENFORCEMENT

    Question. Two years ago (May 2006), the Administration's 
supplemental budget request included $2 billion to secure the Nation's 
border of which only $20 million, or 1 percent, was for the Department 
of Justice.
    When DHS ICE agents raid a plant and hundreds of illegal workers 
are detained, who is responsible for transporting these aliens to 
holding facilities?
    Answer. USMS does not participate in the detention of workers 
charged with administrative violations. However, upon arrest for 
Federal criminal offenses, DHS ICE agents transport detainees to 
holding facilities and to their initial court appearances. At the 
initial appearances, the judge remands detainees to USMS custody after 
which USMS Deputy Marshals perform all prisoner transports.
    Question. Why has DOJ not actively pursued reimbursement from DHS 
entities who summon the U.S. Marshal Service to transport mass amounts 
of illegal aliens who are detained?
    Answer. The USMS will work with DOJ and the affected DHS components 
to ensure that the proper funding mechanism is in place to fulfill the 
USMS responsibilities.
    Question. Are you unaware of the Border Patrol's enforcement 
efforts? Why does the Department not receive full reimbursement for all 
Border Patrol arrests that are then handed over to DOJ custody?
    Answer. The USMS is aware of the Customs and Border Protection's 
enforcement efforts that are conducted on the Southwest Border. The 
USMS will work with DOJ and the affected DHS components to ensure that 
the proper funding mechanism is in place to fulfill the USMS 
responsibilities.
    The USMS and Customs Border Protection (CBP) are exploring options 
to integrate the DHS IDENT automated booking system with the DOJ JABS 
automated booking system. Rather than establish a reimbursable 
agreement involving funding, the hope is that CBP would provide 
personnel to work alongside USMS staff on a temporary duty basis to 
integrate the systems. Providing CBP personnel (both government and 
contractors) to assist the USMS may be a way to improve 
interoperability without a establishing a reimbursable agreement.
    Question. ICE is requesting $30 million more for worksite 
investigations in areas no where near the Southwest Border. ICE arrests 
those who violate workforce rules involving document fraud, illegal 
workers, drug and human smuggling, as well as violent crime. These 
people are being prosecuted in federal court, which places further 
strain on DOJ resources and personnel and creates an immediate 
infrastructure crisis. What new resources are requested in this budget 
to address this?
    Answer. None. At the time the USMS was preparing its fiscal year 
2009 budget submission, the scope of ICE worksite enforcement efforts 
was unknown. The $12.7 million requested in the fiscal year 2009 budget 
was based on Southwest Border initiatives alone.
    Question. When will the Department request resources to respond to 
other immigration-related enforcement initiatives that are not on the 
border?
    Answer. The USMS will work with DOJ and the Administration to 
determine the appropriate level of funding for immigration-related 
enforcement initiatives, including those impacting the interior parts 
of the country.

                     LAW ENFORCEMENT COMMUNICATIONS

    Question. In March 2007, the Inspector General reported that, of 
the 30,000 DOJ radios, 79 percent are not airwave compliant; 95 percent 
lack federally mandated security; and 73 percent are obsolete. The 
report found that this failure to upgrade DOJ components' antiquated 
communications represent an unnecessary risk to the safety of agents. I 
have heard cost estimates to seriously address this issue are in the 
$20 billion range. Do you believe that $20 billion is a reasonable 
estimate of the cost?
    Answer. No, $20 billion is not a reasonable estimate. The 
Department has never asked for nor estimated the size of the program to 
be $20 billion. The Department estimates that the implementation of the 
modernized Integrated Wireless Network (IWN) across the four DOJ Law 
Enforcement Components--Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF), Drug Enforcement Administration (DEA), Federal Bureau 
of Investigation (FBI), and United States Marshals Service (USMS)--will 
cost $1.23 billion over 6 years. Previously submitted estimates were 
well over $2 billion for a ten year implementation, but as we have 
briefed Appropriations staff within the last two months, we have worked 
with the components to streamline and simplify the implementation to 
cut cost estimates significantly and to reduce implementation time 
estimates by 40 percent.
    This estimated cost would meet all security and narrowband 
requirements and improve existing coverage for the four components. In 
addition there will be operational costs (maintenance of legacy radio 
systems, maintenance of the modernized IWN, technical refresh, and 
programmatic support) of $462 million over the six year period. This 
O&M funding covers more than just break/fix costs, it also pays for the 
management of the program, site rental fees, monitoring of the network 
and most importantly, it covers the expenses of special events such as 
the Super Bowl and the political conventions.
    Question. Do the DOJ components have adequate LAND Mobile Radio 
communications capability to carry out their core missions?
    Answer. The components are carrying out core missions with existing 
legacy LMR equipment. However, this capability is limited by the age of 
their legacy communications systems. As cited in the March 2007 DOJ 
Office of the Inspector General Report, the majority of the 
Department's LMR communications systems are over 10 years old and 
function in an analog mode rather than a digital mode, which means they 
have limited functionality and diminished voice communications quality. 
Most DOJ legacy radio systems: Are not narrowband compliant; do not 
provide appropriate encryption to protect sensitive information; are no 
longer supported by the manufacturer; provide little to no 
interoperability with any other agencies; and cannot facilitate 
wireless data transfers.
    Question. Are current communications systems in compliance with 
presidential narrow band mandates and/or National Institute of 
Standards and Technology (NIST) security guidelines?
    Answer. No. The DOJ Inspector General's report on IWN from March of 
2007 estimated that 21 percent of the Department's radios are compliant 
with presidential narrowband mandates and 5 percent are capable of 
meeting NIST security guidelines. Since March of 2007, the limited 
funds have been prudently used to improve narrowband compliance to 30 
percent and NIST security compliance to 15 percent.
    Question. Is the IWN [pronounced ``I win''] Seattle Blaine pilot 
project a feasible model for the future?
    Answer. The Seattle Blaine pilot is a feasible model for major 
metropolitan areas with high federal agent user densities. Areas with 
large numbers of agents typically compete for limited spectral 
resources. These areas would benefit from the implementation of the 
trunking technology solution implemented in the IWN in Seattle. The 
Department would like to remind the Committee that the Seattle project 
was a pilot and as such we expected to learn what worked and what did 
not work. As a result of our experience there, we now have a plan for 
where trunking solutions should be implemented, and where it is not 
cost effective.
    Question. In the event of another attack, absent communications 
interoperability, how will federal law enforcement officers communicate 
with each other?
    Answer. At the direction of the Congress, DOJ started the 25 Cities 
High Risk Metropolitan Area Interoperability Project in 2005. This 
effort is nearly complete and has greatly improved communications 
capabilities in 25 of America's largest cities. The program encourages 
the preparation of local communications plans for use in emergency 
situations, the design and implementation of shared interoperability 
radio channels, and the standardization of technical solutions that 
contribute to interoperability. Federal law enforcement officers are 
able to use, where they exist, the 25 Cities interoperability 
solutions. More information about the successful, and nearly complete, 
program can be provided upon request.
    Short of an installed and fully functional communications system 
that allows for seamless interoperability between federal, state, and 
local users, federal law enforcement officers generally depend upon 
locally prepared and distributed communications procedures that 
describe emergency communications practices and protocols that enable, 
albeit and possibly in a limited fashion, law enforcement and public 
safety entities to interoperate. In the case of a major unplanned 
event, officers will generally default to their locally prepared 
communications plans for interoperability.
    Local emergency communications plans often call for the exchange of 
communications devices between agencies, the setting up of shared 
dispatch and command centers to facilitate information exchange, the 
designation of common ``hailing'' channels, the sharing of re-
designated radio channels for various types of emergency communications 
traffic, the use of pre-planned and/or pre-staged ``patching'' 
facilities that can be used to cross-connect radio traffic, and the use 
of ``cached'' communications devices which are held specifically for 
distribution during emergencies.

                     WIRELESS COMMUNICATION PROGRAM

    Question. Are DOJ component operations and maintenance budgets 
clearly defined and supported equitably amongst the components?
    Answer. DOJ component legacy communications systems operations and 
maintenance (O&M) requirements are funded through budget requests 
submitted to the WMO for inclusion in the overall Law Enforcement 
Wireless Communications (LEWC) budget submission. Component O&M budget 
requests are clearly delineated by specific categories. The WMO 
centrally manages the LEWC account and provides funding allotments to 
the Department's law enforcement components which are responsible for 
the O&M of legacy systems. O&M allotments are dispersed annually 
(through reimbursable agreements) by the WMO once appropriations have 
been received. If operating under a Continuing Resolution (CR) or if 
annual appropriations have not been received, the components will 
receive incremental allotments based on the availability of funds.
    Question. Are resources allocated effectively in and amongst the 
DOJ WMO and the respective components? Are the components receiving 
adequate support considering the operational size and expense of the 
WMO?
    Answer. Yes. The concept of creating a centralized program 
management office was to save on overhead and redundant expenses. The 
centralized WMO was conceived of and approved by Appropriations staff. 
We believe that significant overhead cost savings (nearly $35 million) 
have been realized over the past four years.
    The WMO currently employs 19 Government and 39 contractor staff 
across the nation in support of Law Enforcement Wireless Communications 
(LEWC) to include the modernized Integrated Wireless Network (IWN) 
design, deployment, operations and maintenance (O&M). Of the numbers 
listed above, 1 government (Bothell, WA) and 13 contractor personnel 
(9--Seattle/Spokane 4--San Diego) support O&M and the Federal Bureau of 
Investigation (FBI) consolidated dispatch center for the modernized 
program.
    Question. If the WMO currently invests a large portion of its 
budget into the Seattle Blaine IWN pilot isn't that investment at the 
expense of thousands of failing antenna sites elsewhere? Who makes 
these investment decisions about priorities?
    Answer. The Department and the components manage approximately 
4,400 radio sites across the country. While a number of these sites are 
aged and require upgrades, they are not all in danger of failure. In 
fiscal year 2007, 74 percent of the Law Enforcement Wireless 
Communications account appropriation was directed to the components for 
legacy O&M and special requests. For fiscal year 2008 the amount 
directed to the components increased to 80 percent with additional 
reallocations pending.
    A program of this size and scope requires a solid foundation for 
moving forward. At the direction of Congress, we have invested a 
significant amount of time and effort to conduct a full and open 
procurement and to plan for a multi-year, nationwide system development 
and deployment program that efficiently leverages our existing base of 
legacy technologies while ensuring we continue to support ongoing law 
enforcement communications needs. While at the same time we must manage 
the major risks inherent within a large scale communications system 
deployment/conversion program.
    The WMO reports to the Department's Chief Information Officer who 
is ultimately responsible for LEWC investment decisions. However, the 
components have significant input to the investment decisions through 
their wireless offices and through their CIOs. These decisions are made 
with full visibility to the components. In addition, LEWC investment 
priorities are established and reviewed by the Wireless Communications 
Board (WCB) which is comprised by senior executives from each of our 
components. The WCB evaluates the priorities established by each of the 
component agencies and identifies the recipient based on a consensus of 
what is in the best interest of the component agencies and what systems 
are most at risk of jeopardizing agent safety.
    The funding allocated in support of the Seattle Blaine IWN pilot 
and Pacific Northwest Expansion has tested and validated the business 
goals and objectives necessary to move the program forward from a 
design, implementation, and operations standpoint. The Seattle Blaine 
IWN pilot proved the viability (and certain limitations) of the IWN 
design, technology, site consolidation, site build-out, and 
implementation process. Significant improvements in communications 
capabilities and system efficiencies were realized; with dramatic 
reductions in spectrum resources (50 percent reduction) and facilities 
(60 percent reduction) needed to meet law enforcement operational 
requirements. Additionally all of our law enforcement components now 
have the same (and larger) communications coverage ``footprint'' across 
the region.
    The Seattle Blaine pilot has been successful and further geographic 
expansion and system enhancements are regularly requested by the local 
users. However, due to inadequate funding, we have not been able to 
fully support such requests. The Seattle Blaine pilot, along with the 
25 Cities Program, has proven the effectiveness of federal, state, and 
local interoperability through the successful execution of many mission 
critical operations.
    Question. It has come to the Committees attention that the 
components have identified this concern and requested reallocation of 
resources repeatedly. Provide all of the requests for reallocation of 
resources in this program and the outcome of those requests.
    Answer. The WMO receives hundreds of funding requests each year 
from the components. Funding them all is not possible due to limited 
resources. Recognizing that the components receive 74 percent and 80 
percent respectively of the WMO budget for O&M and special projects, 
the Department is very judicious in funding all component requests. 
Mindful of the congressional language supporting consolidation of 
narrowband activities within DOJ, a careful balance is struck between 
funding plans for the future and continuing to invest in component-
specific systems. In July 1998, the U.S. House of Representatives, 
Committee on Appropriations Subcommittee Report on Fiscal Year 1999 
Appropriations Bill stated,

    ``The Committee supports the consolidation of this activity under 
the Attorney General, as such a consolidation will ensure maximum 
coordination and system compatibility . . . Given the scale of the 
investment that may be required, the Committee believes that any 
Department of Justice narrowband conversion initiatives must be based a 
comprehensive strategy which achieves the following goals: (1) 
increased spectrum efficiency; (2) interoperability among all 
Department components, as well as Federal law enforcement agencies; and 
(3) maximized efficiencies and savings through shared infrastructure 
and common procurement strategies. The Committee is concerned that 
currently, the Department of Justice lacks such a [consolidation] 
strategy. In fact, the current approach appears to be fragmented and 
agency-driven, emphasizing individual agency requirements or 
initiatives, which may or may not accomplish the goals outlined above 
in the most strategic, and efficient manner. Therefore, the Committee 
intends that this critical initiative be coordinated and implemented by 
the Department, rather than through individual DOJ components.''

    Working with the components the Department has developed a strategy 
that satisfies the goals identified by Congress and demonstrated in the 
IWN Seattle Pilot/Pacific Northwest Expansion and Department 
procurement strategies. In Seattle and the surrounding area the 
Department has realized a 50 percent reduction in spectrum and a 60 
percent reduction in facilities. These savings have been factored into 
our overall cost model. The Department has also awarded a Systems 
Integration contract to General Dynamics to implement the program 
across the nation. Additionally contracts that facilitate bulk 
purchases of subscriber equipment (hand sets) have been extremely 
beneficial in achieving savings to the government.
    Question. Why is the WMO program management budget two times 
greater than the components budgets combined?
    Answer. We do not know the source of the Component budgets you 
refer to, but we believe a simple match of respective budgets results 
in an ``apples to oranges'' comparison. The WMO undertakes a number of 
network management and financial management functions on behalf of the 
Components, freeing them of the need to perform these tasks. In 
addition, the scope of WMO management responsibility spans across all 
the Components--something for which no individual Component has a 
similar function.
    DOJ was tasked to establish a WMO to consolidate four separate and 
individually run Component wireless programs, realize operating 
synergies, and then plan and direct the design, development and 
implementation of a multi-billion dollar and multi-year advanced 
network solution. If one compares the WMO's size to other program 
management offices at other agencies, the WMO is too small to manage 
the nationwide deployment effort of a new advanced solution. Because of 
a lack of funding, the modernization effort is not moving forward at 
the previously planned pace. The tasks done by the WMO are very 
different from the tasks of the components.
    The LEWC account provides a funding vehicle to manage all DOJ 
tactical wireless communications through a single established program 
management office necessary to support a large, nationwide 
implementation program. This office is charged with planning, 
implementing, and sustaining a system that replaces the existing 
tactical communications services operated by DOJ components in fifty 
states. In addition, WMO centrally manages funding allotments to the 
Department's law enforcement components for the O&M of Legacy 
Communications Systems. The LEWC Joint Program Office (WMO) currently 
employs 19 Government and 39 contractor staff in support of the 
modernization design, deployment, operations and maintenance. The 
component agencies have radio communication offices focused on current 
mission operations and technical support rather than the IWN 
modernization.
    The components receive the majority of the Law Enforcement Wireless 
Communications Appropriation. In fiscal year 2007 and fiscal year 2008, 
this represented 74 percent and 80 percent of the funding, 
respectively.
    Question. This budget request primarily funds O&M for TWO radio 
systems in San Diego and Seattle at the expense of all others. Is it 
true that the WMO currently employs more full time employees and 
contractors than three of the four components in support of Land Mobile 
Radio? What is the justification for this inequity that leaves the 
smaller component staff managing nationwide radio programs with a 
fraction of the budget and human resources the WMO uses to manage 2?
    Answer. We're not sure of the headcount numbers you refer to, but 
we believe this may be another case of comparing very different 
organizations, responsibilities, and scope of operations. The 
Department indeed manages shared radio systems in San Diego and 
Seattle. However, the LEWC budget does more than fund two radio 
systems. In San Diego and Imperial County, CA there are over 7,800 DOJ 
and DHS radios affiliated with the system. In the Seattle/Pacific 
Northwest system there are approximately 1,000 radios representing DHS, 
DOJ, Treasury, and Commerce users. These systems accommodate a far 
greater number of users and have a larger footprint than individual 
component systems that serve only the needs of the specific component. 
In an effort to consolidate operations, the Department has worked with 
the FBI and USMS to transition the USMS onto the FBI systems around the 
country. This effort is 90 percent complete and provides the USMS with 
enhanced coverage. The remaining components have much smaller systems 
although deployed around the nation and use different O&M approaches 
(contracting out or using government FTE).
    It is not accurate to compare the WMO to the component offices as 
they have different missions. Per Congressional guidance, DOJ is trying 
to streamline maintenance through a central office. Until the 
modernized solution is rolled out, it is unfair to compare functions of 
one office to the functions of the mission office. If funding is not 
going to be provided to modernize the radios, then the role of the WMO 
should be re-examined. Additionally, many (14) of the contractors in 
the WMO are working directly in the field for the components, 
especially in San Diego and Seattle.
    The components receive the majority of the Law Enforcement Wireless 
Communications Appropriation. In fiscal year 2007 and fiscal year 2008 
this represented 74 percent and 80 percent respectively. With the funds 
remaining, the WMO pays personnel salaries and benefits, conducts 
modernization planning, pays O&M for the Pacific Northwest and San 
Diego systems, pays NTIA fees, and manages the 25 Cities program and 
continues the expansion efforts in the Pacific Northwest. In addition, 
all funding for special events like the political conventions and the 
Super Bowl come from the LEWC account.
    The fiscal year 2009 budget request, and past budget requests, 
includes much more than O&M for two radio systems. The fiscal year 2009 
President's budget request totals $121,651,000, which continues support 
of all component legacy systems and operations across the country, 
including but not limited to, San Diego and Seattle. As important, the 
fiscal year 2009 budget request has a program increase of $43 million 
to (1) begin implementing IWN in the DC metropolitan area and (2) for 
equipment replacement to address high priority component equipment 
needs.
    Question. Do the components have adequate LAND Mobile Radio 
communications capability to carry out their core missions?
    Answer. The components are carrying out core missions with existing 
legacy LMR equipment. However, this capability is limited by the age of 
their legacy communications systems. As cited in the March 2007 DOJ 
Office of the Inspector General Report, the majority of the 
Department's LMR communications systems are over 10 years old and 
function in an analog mode rather than a digital mode, which means they 
have limited functionality and diminished voice communications quality. 
Most DOJ legacy radio systems: Are not narrowband compliant; do not 
provide appropriate encryption to protect sensitive information; are no 
longer supported by the manufacturer; provide little to no 
interoperability with any other agencies; and cannot facilitate 
wireless data transfers.
    Question. Are current communications systems in compliance with 
presidential narrow band mandates and/or NIST security standards?
    Answer. No. The DOJ Inspector General's report on IWN from March of 
2007 estimated that 21 percent of the Department's radios are compliant 
with presidential narrowband mandates and 5 percent are capable of 
meeting NIST security guidelines. Since March of 2007, the limited 
funds have been prudently used to improve narrowband compliance to 30 
percent and NIST security compliance to 15 percent.
    Question. The 2007 IWN OIG audit pointed out, the majority of DOJ 
Land Mobile Radio Infrastructure is antiquated and failing. Does DOJ 
have radio communications operability?
    Answer. DOJ radio communications capability is limited by the 
composition of the DOJ component legacy communications systems. The 
Department's LMR communications systems currently in use are over 10 
years old and function in an analog mode rather than a digital mode, 
which means they have limited functionality and diminished voice 
communications quality. Additional legacy operability challenges faced 
by components include; federal-to-federal, and federal-to-state 
interoperability, and lack of support for over the air re-keying (OTAR) 
security encryption standards. The components have basic capabilities, 
but do need a modernized system to support their needs.
    Question. What percentage of DOJ users are not NIST security 
standard compliant? Be specific.
    Answer. Currently 86 percent of ATF radios, 91 percent of DEA 
radios and 84 percent of FBI radios are not compliant with NIST 
security standards. These percentages reflect an improvement since the 
DOJ OIG report of March 2007 which reported 100 percent of ATF and DEA 
radios and 93 percent of FBI radios were not compliant. Updated figures 
for the U.S. Marshals Service are not available but it is safe to 
assume that their percentages are similar to the other components. DOJ 
has consistently reported our lack of compliance in testimony and in 
staff briefings.
    Question. Does this mean Federal Agents enforcing federal law and 
providing domestic security are using encryption that has been 
compromised and should not considered secure?
    Answer. Yes. Our legacy wireless systems employ encryption 
technology that is out-dated and could be subject to compromise.
    Question. How do DOJ communications capabilities compare to DHS?
    Answer. This is a very complicated question and the Department 
encourages you to ask Department of Homeland Security (DHS) about their 
capabilities. At a high operational level, both agencies face similar 
mission challenges. However, there is a significant difference in how 
the two Departments manage their respective wireless programs. Most 
notably, DHS funding for its radio programs is not centrally managed by 
a WMO as done at DOJ. Rather, DHS law enforcement components get their 
radios funded at the component level, which would typically lead to the 
individual (and possibly separate) prioritization of investment 
decisions (something that we were tasked by Congress to remedy with the 
establishment of our WMO).
    It is not clear what type of inter-operability exists between their 
components and with state and locals. The modernized IWN is being 
designed to allow for inter-connectivity between DOJ assets, DHS assets 
and local assets.
    Question. Is there a central dispatch or information center within 
DOJ?
    Answer. As it relates to radio dispatching, the answer is no. As 
part of the plans for the modernized system, we envision a central 
network operations center to manage the backhaul networks across the 
country and to serve as a focal point for support to the agents (and 
their support staff) in the field.
    Question. Does DHS have a higher level of operability than DOJ?
    Answer. Yes. Many of the DHS components have modernized their radio 
systems in the past five years. We cannot assess how well coordinated 
or financially effective these investments have been. However, the 
average age of their typical radio unit is much lower than the typical 
DOJ radio.
    Question. Is the IWN Seattle Blaine pilot a feasible model for the 
future? Is trunking technology a requirement for DOJ?
    Answer. The Seattle Blaine pilot is a feasible model for major 
metropolitan areas with high federal agent user densities. Areas of 
high user densities typically coincide with scarcity of spectrum 
resources. While the relative spectral efficiency of trunking radio 
technologies can be debated in remote or low-density rural areas, high 
user-density areas always benefit from the implementation of trunking 
technologies.
    A few design criteria from the Seattle Blaine pilot have been re-
evaluated and probably would not be implemented nationwide. The 
criteria include radio tower site improvements and backhaul redundancy. 
While overall system reliability in a trunked system is improved, 
nationwide implementation may be too costly. Selective application of 
redundancy at the most vulnerable system nodes, and site improvements 
commensurate with the equipment being installed would be the two major 
deviations from the Seattle Blaine model.
    The differences in ease-of-use between conventional and trunking 
radio are substantial. The WMO continually receives positive feedback 
from users on the Seattle Blaine IWN system regarding usability and 
roaming capabilities. The use of trunking technologies is not an 
explicit stated requirement for IWN, however, we feel the minimal 
incremental cost (estimated to be 30 percent) is well worth the 
significant improvement in radio usability and roaming capabilities for 
many areas, especially in urban settings.
    Question. Given the lack of support from OMB for the DOJ mission 
can the Department continue to spend $200 million and seven years 
building each radio system throughout the country?
    Answer. Through the IWN program, the DOJ will provision and 
maintain a range of secure and reliable wireless communications 
services, including voice, data and multimedia services that support 
counterterrorism, counterintelligence, law enforcement and emergency 
response operations. The DOJ IWN strategy will be implemented over a 
six year period in a series of overlapping phases. The planned six-
year, four phase upgrade and replacement of legacy communications 
systems will include regional design and deployment of the new tactical 
communications systems and services focusing on urban centers. The cost 
summary for a six-year IWN deployment is approximately $200 million per 
year from 2009-2014.
    For fiscal year 2009, OMB was supportive of the Department's IWN 
program and approved a program increase of $43 million to address 
priority radio infrastructure needs. The Department intends to continue 
working with OMB in future budget cycles to ensure that all 
Departmental priorities, including IWN, are discussed and addressed.
    Question. To what degree do DOJ operational personnel and technical 
program managers influence the direction and decisions of the WMO?
    Answer. Operational and program management personnel within each 
component agency formulate requirements and staff those requirements 
through the respective management chains. Senior managers from each 
agency participate equally in the DOJ Wireless Communications Board 
(WCB). All major system deployment decisions are vetted through the 
WCB. The WMO does not act unilaterally, and in fact takes all major 
program direction from the WCB, chaired by the DOJ CIO Mr. Hitch.
    Question. Is there adequate input from the agents in need of the 
resource?
    Answer. The component agency headquarter staffs coordinate with 
their field agents in identifying and defining IWN requirements to the 
WMO. However, WMO personnel also meet quarterly with local agents using 
IWN to discuss its status, lessons learned, and operational 
requirements. When in the field and opportunities arise, the WMO meets 
as often as possible with current and future IWN users. Also, in 
September 2007, the WMO hosted the first DOJ Wireless Summit attended 
by over 100 DOJ and component agency personnel from across the country, 
ranging from management to technical staff to field agents, to discuss 
trends in wireless technology, DOJ wireless initiatives, and the future 
of the IWN architecture and deployment. The summit was a success in 
accomplishing its objectives with future summits highly endorsed by the 
component agencies.
    Question. Is there, or should there be operational oversight/
leadership at the WMO?
    Answer. The Department's Investment Review Board (DIRB) provides 
oversight of the WMO's investment recommendations/decisions. The DIRB 
is chaired by the Deputy Attorney General. In addition, the WMO 
executes the decisions from the Department CIO and Wireless 
Communications Board (WCB) based on operational priorities as defined 
by the component agencies and DOJ management. The WMO welcomes 
participation from the operational users; however, there needs to be 
one executive oversight body responsible for looking at the set of 
requirements as a whole and providing direction on what is in the best 
interest of the Department. The WCB is tasked with assessing 
Department-wide needs and requirements and making recommendations 
accordingly.
    Question. How many operational personnel are currently employed by 
the WMO?
    Answer. The WMO employs personnel with backgrounds in program 
management, budgeting, procurement, and planning. It is not designed to 
be operational, but it is designed to rely on the components for 
operational input. The WMO staff includes personnel previously employed 
by the FBI, DEA, DOD, military, and private industry who experience 
supporting operations. The WMO is an integrated program office covering 
all the disciplines required to support a large, nationwide 
implementation program.
    Question. Beyond Component surveys what operational oversight of 
the WMO exists?
    Answer. The WMO holds a project team meeting on a monthly basis to 
brief status of all project activities. The components send 
representatives to this meeting to provide insight as well as oversight 
on WMO progress. The WMO team reports directly to the Deputy CIO who 
has day-to-day oversight responsibilities. In addition, the WMO has 
been subjected to numerous audits from internal and external groups.
    Question. What law enforcement, operational or tactical 
communications experience do the employees of the WMO have?
    Answer. The WMO is tasked with developing a secure wireless, 
nationwide tactical communications network that addresses federal law 
enforcement requirements to communicate internal to and across 
agencies, allow interoperability with state and local law enforcement 
partners, and meet spectrum mandates and NIST security guidelines. To 
achieve this task the WMO actively solicits input from its law 
enforcement components and agents on requirements and operational 
missions. The WMO is staffed with the requisite experience to oversee 
and maintain accountability for the design and implementation of a 
system of systems that will meet the requirements of, and allow the law 
enforcement agents and agencies to accomplish mission operations.
    The WMO has recruited staff from the law enforcement components and 
the military that have many years of direct experience with component 
(FBI/DEA) radio communications to include engineering, operations and 
spectrum management. In addition the WMO has looked outside the 
Department to DOD, other Departments and industry for certified Project 
Managers, staff with wireless industry and large scale contracting 
experience. The WMO also has an Administrative and Financial Staff led 
by a Certified Public Accountant (CPA) and former auditor to formulate 
budget strategies and maintain an accurate accounting structure, as 
well as enhance internal controls. The staff also includes an expert in 
the field of security certification and accreditation to ensure systems 
are protected to the maximum extent possible. A contracting officer is 
also assigned to the WMO to assist the program in executing on its 
acquisition strategies and procurement requirements.
    Question. Do components have adequate human resources to progress 
into the next generation of radio communications?
    Answer. The components are fully aware of the evolutionary changes 
taking place in the tactical communications marketplace. Since this 
will be a consolidated system, there will necessarily be changes in 
business rules and how systems are managed. All of the specific skill 
sets are not known at this point, but the WMO will provide training for 
component staff in new technologies as deployed. In the Seattle model, 
the WMO has hosted infrastructure training for technical staffs as well 
as subscriber training for the Agents.
    One of the reasons for doing a major procurement with a large 
systems integrator was to leverage the knowledge of the contractor 
employees as we attempt to build the next generation of radios. 
Improvements in satellite and data transmission will impact the radios 
of the future, and therefore the design must look beyond current 
capabilities.
    Question. What efforts are being made to leverage existing 
resources such as JUTNET, other governmental resources, and further 
consolidation?
    Answer. We have evaluated Justice Unified Telecommunications 
Network's (JUTNET) capabilities and assessed the potential to leverage 
those capabilities. Unfortunately, at this time, there is little 
potential for JUTNET to satisfy the needs of our wireless networks. 
JUTNET is currently a data communications system and is not designed to 
support the voice requirements that would be demanded by our wireless 
systems. Consequently, the general scope of JUTNET and the 
communications needs of the modernized IWN are different and lack 
suitable amounts of commonality to justify re-engineering or otherwise 
modifying JUTNET. A major strategic goal of the Department's CIO is to 
effectively leverage our enterprise investments to achieve synergies 
across DOJ. As JUTNET evolves to support voice services, we will work 
closely with that management team to ensure we can further consolidate 
and share IT infrastructure to achieve operations and cost synergies.
    To take advantage of possible cost savings while satisfying our 
operational requirements, the WMO is working with our DEA component to 
leverage a DEA-recommended Department of Defense network for 
communications backhaul. The solution is being implemented in the Gulf 
Coast region. The WMO also works with other Federal partners and, State 
and Locals to leverage opportunities for sharing communications 
backhaul and facilities where possible.
    The San Diego and Seattle systems are fully consolidated and shared 
across the components. Our updated IWN Plan ($1.23 billion versus $2+ 
billion) emphasizes and requires re-use of existing radio sites to 
reduce costs. In the past, one component would pay rent across the 
street from another component's rented radio site on a downtown 
skyscraper. The systems use, for example, a single building, antenna 
system, circuit for connectivity, site license, spectrum and staff 
resources. With this consolidation of former DOJ component assets in 
San Diego and Seattle into a single consolidated ``system of systems'' 
it is far more reliable, requires fewer radio sites and less O&M is 
needed to maintain single systems. Wireline circuits are now installed 
for the benefit of all DOJ components and not the exclusive use of one.
    Question. Do current cost models and modular budgets adequately 
address components radio communications requirements? How are radios 
funded for the hundreds of state and local task force agents?
    Answer. At the current funding level for LEWC, we believe that the 
funding level for the old legacy systems and handsets is absolutely 
inadequate. For all the reasons stated in the questions, the old 
systems and handsets are at the end of their useful life and 
``throwing'' additional money at these obsolete systems is not a long 
term (or even intermediate term) strategy. We are rapidly approaching 
the time when we will not be able to find the replacement parts and 
service inventory necessary to maintain these networks. A new, more 
modern, more secure and interoperable solution is needed. The modular 
budgets spread the existing funding around in an equitable manner, but 
the funding does not meet the needs of the agents in the field.
    The WMO is not responsible nor is it funded to provide radios to 
task force officers at the state and local level. However, when 
requests for task force support are given a high priority by the 
submitting component and the WCB approves, we try to fund radios for 
use by the task force officers. If we had a modernized system, the 
locally procured (usually with federal grant dollars) and locally 
maintained handsets for the locals could work on the federal network 
(certain channels).

                       PAY AND BENEFITS OVERSEAS

    Question. What efforts has the Department of Justice taken to 
ensure retention of its best and brightest, particularly in the 
enforcement agencies out in the field and those agents and employees 
working outside the United States?
    Answer. While Department of Justice law enforcement officials 
working outside the United States may be eligible for certain 
additional pay or benefits based on the location, the retention 
incentives available to those employees are the same as the incentives 
available to those located in the United States.
    The FBI continues to use the authorities it received in the 2005 
Consolidated Appropriations Act, some of which expire at the end of 
2009, to better compete with private industry and improve attrition 
rates. These authorities include recruitment, relocation, and retention 
incentives, student loan repayment, and the University Education 
Program. Recruitment bonuses allow the FBI to competitively recruit 
employees who possess special qualifications for hard-to-fill FBI 
positions, relocation bonuses increase the number of employees 
interested in hard-to-fill positions within the FBI by, in effect, 
reducing the employee's relocation costs, and retention allowances are 
used to retain current employees who possess high-level or unique 
qualifications or who fill critical FBI needs. Retention allowances may 
be provided on either an individual or group basis to help the FBI 
retain certain employees or categories of employees, such as 
intelligence analysts and police officers.
    The FBI has also used education benefits to improve the quality and 
job satisfaction of our workforce. For example, in order to improve our 
recruitment and retention of Intelligence Analysts, the FBI repaid 359 
student loans for these employees in fiscal year 2007. The FBI has also 
used the University Education Program to fund tuition expenses for 
current employees seeking to obtain certifications and academic 
degrees, approving payments for 679 participants in fiscal year 2008.
    Question. Is danger pay provided to agents and DOJ employees 
actively working along the Southwest Border?
    Answer. The FBI's Legal Attache (Legat) office in Mexico maintains 
a presence in Mexico City, Guadalajara, and Monterrey, but does not 
maintain a permanent presence along the Southwest Border. Currently, 
neither FBI employees assigned to the Mexico City Legat nor those 
assigned in the United States near the Southwest Border are afforded 
danger pay. It is the FBI's understanding that DEA personnel working in 
Mexico have been eligible to receive a danger pay allowance of 15 
percent of basic pay since approximately 1991. In April 2008 the FBI's 
Mexico City Legat asked FBI Headquarters to consider affording danger 
pay to all FBI personnel in Mexico based on the hostile environment in 
Mexico, including threats from organized crime fugitives, rebels, and 
terrorist groups, as well as street and residential crimes. This 
request is under review.
    Question. How many computer databases with similar information do 
we need before we have too many?
    Answer. Proper utilization of taxpayer funds is important and 
duplicative government programs should be avoided, however, the DOJ 
systems are not duplicative with other components/agencies.
    Question. The Department has continually had problems maintaining 
the jurisdictional integrity of the agencies it oversees. Namely the 
ATF and the FBI both have and claim jurisdiction over explosive 
incidents.
    Please explain how having yet another agency involved in explosive 
incidents is helpful and productive to preventing and solving a 
terrorist incident?
    Answer. The Attorney General, in coordination with the Department 
of Homeland Security, Department of Defense, and others, is currently 
developing the implementation plan as requested by HSPD 19. While the 
plan has not been fully developed yet, it will address the Senate's 
concerns over terrorism jurisdiction and incident management. 
Additionally, on July 8, 2008, the Director of FBI and the Acting 
Director of ATF signed a Memorandum of Understanding on ATF/FBI 
Protocols for Response to Explosives-related Incidents which delineates 
the roles of each agency when responding to bombing and explosives 
related incidents. The Department intends to make sure the HSPD 19 
implementation plan clearly identifies core Department responsibilities 
so that the involvement of another agency does not compromise our 
priorities.
    Question. If ATF and FBI have trouble sharing this jurisdiction 
within the Department how will the Federal Government manage yet 
another?
    Answer. HSPD 19, when fully developed and implemented, will ensure 
that all relevant parties within the Federal Government understand 
their role in explosive events relating to terrorist bombing incidents 
response. The policy will delineate who has jurisdictional control and 
the roles of the respective agencies.
    Question. Be specific in how these events will be managed if both 
justice agencies and the approximately 22 DHS agencies show up?
    Answer. HSPD 19, when fully developed and implemented, will ensure 
that all relevant parties within the Federal Government understand 
their role in explosive events relating to terrorist bombing incidents 
response. The policy will delineate who has jurisdictional control and 
the roles of the respective agencies. Also, DHS' Office of Bombing 
Prevention is not an operational response organization. The Department 
has the responsibility for operational response. We are committed to 
ensuring this important delineation. Therefore, response from a third 
party is not expected to be an issue.
    Question. What will the decision process be if all three respond to 
an incident? Be specific.
    Answer. The Department is working with the White House and DHS to 
develop the implementation plan for HSPD 19. When completed, the lines 
of authority will be clear as to who will have the lead in addressing 
different types of bombing incidents. At this point and time it is not 
possible to be overly specific about the decision process if all three 
organizations respond. For further explanation, see the answer to the 
next question. However, the Department is sensitive to and fully 
engaged on this issue with the White House and DHS to ensure our 
interests are considered and protected as the implementation plan for 
HSPD 19 is being developed.
    Question. Identify the role of each in an example when at one 
incident ATF is the lead, another incident when FBI is the lead and yet 
another incident when DHS is the lead?
    Answer. On July 8, 2008, the Director of FBI and the Acting 
Director of ATF signed a Memorandum of Understanding on ATF/FBI 
Protocols for Response to Explosives-related Incidents which delineates 
the roles of each agency when responding to bombing and explosives 
related incidents. DHS' Office of Bombing Prevention is not an 
operational response organization. DOJ has the responsibility for 
operational response. Therefore, the response from a third agency 
should not be an issue. However, once HSPD 19 is fully implemented, the 
lines of authority will be reflected as to who will have the lead in 
addressing different types of terrorist related bombing incidents.
    Question. If the lines of authority are unclear who will the State 
and locals call for assistance?
    Answer. The Department continues to work with the White House and 
DHS to ensure that the HSPD 19 implementation plan will ensure that 
clearly defines the lines of authority for differing terrorist related 
bombing incidents are clearly defined. Once that policy is fully 
implemented state and local officials will know which agency to contact 
for assistance during an incident.
    Question. Why are we paying 2 federal agencies to do research on 
explosives?
    Answer. The role of explosives research varies by agency. While it 
is important to ensure the proper expenditure of taxpayer funds and 
avoid duplication of efforts it may not be possible for a single agency 
to do the entirety of explosives research. Within the Department the 
FBI operates a number of explosives research programs at Quantico as 
well as at Redstone that address areas such as render safe techniques 
and bomb disposal. ATF on the other hand manages research projects and 
programs such as the National Center for Explosives Training and 
Research (NCETR) as well as post-blast research intended to foster ATFs 
abilities and techniques for post-blast investigations. The Department, 
however, is unable to comment on the program activities of DHS and any 
research activities that might be underway there.
    Question. Should we transfer this authority to the Department of 
Homeland Security since it seems to fit their mission statement? Be 
specific.
    Answer. No. The Department continues to have legitimate reasons for 
pursuing explosives research. ATF's research in explosives, for 
example, is vital to the accomplishment of their mandate. Such research 
not only benefits ATF in addressing explosives incidents but also 
enables them to better train state and local organizations as well as 
the U.S. military in Iraq. It also provides important data that is 
regularly used in ATF's investigative proceedings. The FBI continues 
their focus on the development of diagnostic and render safe 
technologies and tools. The FBI participates with ATF as active members 
in the DOD Technical Support Working Group (TSWG).
    Question. Do not agree on the information given out over the secure 
network? Do not agree on the terrorist explosive tactics? Do not agree 
on the proper response and handling by the state and locals?
    Answer. Please provide further clarification as to what this 
question asks.
    Question. Homeland Security is going to develop multi-
jurisdictional improvised explosive devices security plans for high-
risk jurisdictions. Isn't this something that the FBI should be using 
their JTTFs for?
    Answer. The Joint Terrorism Task Forces (JTTFs) are operational 
units, and are not responsible for developing comprehensive response 
plans. These plans include program areas outside the criminal 
investigation responsibilities of the JTTF. DHS is responsible for 
providing input for the National Response Framework, which outlines how 
the Nation manages response to terrorism incidents. In essence, the 
efforts of DHS mirror those that were previously performed by the DOJ 
National Domestic Preparedness Office, which was transferred to DHS in 
the 2002 Homeland Security Act. The JTTFs, in concert with other 
relevant elements of the Department of Justice, will work as 
appropriate to coordinate with the DHS.
    Question. Section 318 of the bill provides that the Secretary, 
shall--

    ``(1) evaluate and assess nonmilitary research, development, 
testing, and evaluation activities of the Federal Government relating 
to the detection and prevention of, protection against, and response to 
explosive attacks within the United States; and
    ``(2) make recommendations for enhancing coordination of the 
research, development, testing, and evaluation activities described in 
paragraph (1).''

    Does the Department of Justice believe that this oversight and 
assistance from the Homeland is necessary?
    Answer. The Department of Justice has not taken an official 
position on the Bill. Therefore, we cannot answer this question at this 
time.
    Question. What expertise does the Department of Homeland Security 
have that would give them the expertise to evaluate and assess 
nonmilitary research, development, testing, and evaluation activities 
of the Justice Department relating to the detection and prevention of, 
protection against, and response to explosive attacks within the United 
States?
    Answer. The Department of Justice believes it would be 
inappropriate to comment on the expertise of another federal agency. 
While multiple organizations across the Federal Government have 
programs to address this threat, the Department of Justice continues to 
work with all stakeholder agencies to avoid any redundancy or 
duplication of effort while best leveraging the unique expertise of 
each agency.
    Question. I am concerned to see the Department's position or lack 
thereof on IED training. It's only a matter of time before terrorists 
will begin detonating improvised explosive devices in the United 
States. The ATF and FBI are the premier experts in handling explosives 
and responding to an explosives incident, yet the Department of Justice 
is somehow ceding this jurisdiction to a fledgling agency that has 
endured embarrassing failure after failure.
    The Department of Homeland Security failed miserably in handling 
hurricane response, contracting Coast Guard ships that aren't 
seaworthy, the virtual fence, baggage-screening systems, the biometric 
entry-exit tracking system, and now Justice leadership has quietly 
watch the newly created DHS Office of Bombing Prevention begin seeping 
into its explosives jurisdiction. The Department of Homeland Security 
has its hands full with the border, among other problems. I would 
prefer the world's best and most experienced professionals in the ATF 
and FBI handle explosive prevention and training.
    Why has the Department idly sat by as the Office of Bombing 
Prevention has grown?
    Answer. By no means is the Department sitting idly on this issue. 
In fact, we The Department continue to train State, local, federal and 
international partners on render safe, post blast, disposal, prevention 
and detection. Training is an important component in ensuring a 
successful defense against IEDs. Facilities like the National Center 
for Explosives Training and Research (NCETR) will continue the 
Department's efforts in this important component. The Department is not 
aware of DHS' specific IED training curriculum and cannot comment 
specifically on that but we are working with the White House and DHS to 
make sure our interests are protected.
    Question. The establishment of the Office for Bombing Prevention, 
is to address terrorist explosive threats, and for other purposes. This 
proposal contains language that would provide yet another computer 
database that would provide ``a secure information sharing system that 
allows the sharing of critical information relating to terrorist 
explosive attack tactics, techniques, and procedures.''
    Why is it necessary to create yet another explosives data base?
    Answer. ATF's Bomb Arson Tracking System (BATS) is a case 
management system used by federal, State, and local agencies 
investigating arsons, bombings, and other explosives incidents. The 
system provides law enforcement and fire service officials with access 
to information collected in ATF's U.S. Bomb Data Center (USBDC), the 
repository for all domestic bombing and arson incidents.
    To avoid duplication of effort and allow more efficient use of 
Department resources, the FBI no longer tracks domestic law enforcement 
bomb incident data. However, in support of its intelligence and counter 
terrorism missions, the FBI continues to collect bombing-related 
intelligence and information as well as requests for FBI assistance 
from other law enforcement agencies. This information is entered into 
the FBI's enterprise case management system; all data is eventually 
archived.
    EXPeRT is the FBI's document management system and electronic 
reference library for organizing and making available for future 
reference all the documents, reference material, photos, and other 
information related to explosives forensic examinations conducted by 
the FBI Lab Explosives Unit and the Department's Terrorist Explosive 
Device Analytical Center (TEDAC). EXPeRT is used within the FBI to 
share case data and reference material that support forensic exams and 
investigations, within TEDAC in the DOJ/DOD/INTEL Community to share 
information.
    DOJ's explosives data and information sharing systems (EXPeRT, and 
BATS) are now hosted, or in the alternative hyperlinked, on the Law 
Enforcement Online (LEO) portal.
    The DHS database referenced in proposed legislation already exists 
as the National Capability Database (NCAD). The DHS database collects 
and shares information about federal, state, and local law enforcement 
and emergency service capabilities including bomb squad, dive teams, 
explosives detection canine teams, and SWAT teams. State and local 
planners use NCAD to identify gaps and apply ``best practices'' to 
improve their security posture and develop multi-jurisdiction plans to 
respond to emergencies.
    Question. Is this an agency looking for a mission?
    Answer. The Attorney General is the chief law enforcement officer 
of the United States with the duty to protect, deter, prevent and 
respond to terrorist attacks. Missions and functions of DHS are 
mandated in other laws. DOJ cannot address the missions currently 
assigned to the Department of Homeland Security.
    Question. Doesn't the Department already maintain 2 databases 
related to explosive incidents?
    Answer. ATF maintains the Department's sole database on arson and 
explosives incidents. ATF's Bomb Arson Tracking System (BATS) is a case 
management system used by federal, State, and local agencies 
investigating arsons, bombings, and other explosives incidents. The 
system provides law enforcement and fire service officials with access 
to information collected in ATF's U.S. Bomb Data Center (USBDC), the 
repository for all domestic bombing incidents.
    To avoid duplication of effort and allow more efficient use of 
Department resources, the FBI no longer tracks domestic law enforcement 
bomb incident data. However, in support of its intelligence and counter 
terrorism missions, the FBI continues to collect bombing-related 
intelligence and information as well as requests for FBI assistance 
from other law enforcement agencies. This information is entered into 
the FBI's enterprise case management system; all data is eventually 
archived.
    EXPeRT is the FBI's document management system and electronic 
reference library for organizing and making available for future 
reference all the documents, reference material, photos, and other 
information related to explosives forensic examinations conducted by 
the FBI Lab Explosives Unit and the Department's Terrorist Explosive 
Device Analytical Center (TEDAC). EXPeRT is used within the FBI to 
share case data and reference material that support forensic exams and 
investigations, within TEDAC in the DOJ/DOD/INTEL Community to share 
information.
    DOJ's explosives data and information sharing systems (EXPeRT, and 
BATS) are now hosted, or in the alternative hyperlinked, on the Law 
Enforcement Online (LEO) portal.
    Question. Does the FBI or ATF system already do this? If not, why 
not?
    Answer. The DHS database referenced in proposed legislation already 
exists as the National Capability Database (NCAD). The DHS database 
collects and shares information about federal, state, and local law 
enforcement and emergency service capabilities including bomb squad, 
dive teams, explosives detection canine teams, and SWAT teams. State 
and local planners use NCAD to identify gaps and apply ``best 
practices'' to improve their security posture and develop multi-
jurisdiction plans to respond to emergencies.
    Question. The Administration has indicated that one of its 
priorities surrounding the violence occurring along the SWB is to stop 
the flow of firearms into Mexico.
    While interdiction at the border is one way to deal with the 
problem, it seems that we also need to identify and disrupt the sources 
of these weapons.
    What is the Department doing to ensure that illegal firearms 
trafficking investigations are a priority along the SWB?
    Answer. Since 1972, because of its specific statutory authorities 
over firearms and explosives, ATF has played a strategic role in 
addressing violent crime along the Southwest Border--investigating 
criminal organizations that traffic firearms and explosives from the 
United States into Mexico and regulating Federal firearms licensees 
(FFL) and Federal explosives licensees (FELs) In April 2006, ATF 
created Project Gunrunner to enhance resources and focus efforts 
strategically on the Southwest Border to deny firearms, the ``tools of 
the trade,'' to criminal organizations in Mexico and along the border 
and to combat firearms related violence affecting communities on both 
side of the border.
    Intelligence gathered by ATF and other domestic Federal law 
enforcement entities strongly suggests that drug trafficking 
organizations have tasked their money laundering, distribution and 
transportation apparatuses--all of which reach across the border into 
the United States--to acquire firearms for illegal transfer back to 
Mexico for use in facilitating narco-trafficking and other criminal 
activities. ATF has developed an extremely effective real-time 
intelligence and evidence sharing network with the Mexican government. 
Given current circumstances and increasing volume, however, the system 
has been overwhelmed on both sides of the border.
    ATF is working with Mexican officials to increase their current 
usage of ATF's eTrace system. eTrace provides web-based access to ATF's 
Firearms Tracing System to allow law enforcement both domestically and 
internationally the ability to trace firearms seized in connection with 
criminal investigations. From fiscal year 2006 to fiscal year 2008, ATF 
has experienced more than a 100 percent increase in the number of trace 
requests from Mexico. With the deployment of eTrace to the nine 
consulates and the eventual implementation of Spanish eTrace, these 
numbers should continue to increase in the coming years. ATF's goal is 
to deploy eTrace software to all 31 states within the Republic of 
Mexico.
    Under Project Gunrunner, ATF has approximately 148 special agents 
dedicated to working firearms trafficking investigations on a full time 
basis and 56 industry operation investigators (IOI) responsible for 
conducting regulatory inspections of FFLs. ATF is also expanding its 
presence at the El Paso Intelligence Center (EPIC) which serves as the 
central repository and ``clearinghouse'' for all weapons related 
intelligence collected and developed by ATF's field personnel and 
attaches in Mexico as well as by all other Federal, State and local law 
enforcement entities involved in narcotics interdiction and 
investigation along the U.S./Mexico border.
    ATF's industry operations strategic plan under Project Gunrunner 
includes an outreach component to both the firearms industry and law 
enforcement at the Federal, State, and local level. ATF's outreach 
includes firearms seminars conducted within the border region to 
educate the firearms industry concerning schemes associated with 
firearm trafficking. An integral part of this outreach is ATF's ``Don't 
Lie for the Other Guy'' public awareness campaign that educates both 
FFLs and the general public on their responsibilities as it relates to 
purchasing firearms. ATF also partners with the National Shooting 
Sports Foundation (NSSF) on a retailer education program that includes 
a public awareness component with public service messages warning 
persons not to purchase firearms for others. Plans are underway to take 
this initiative to several cities along the Southwest Border. ATF also 
continues to provide training on SWB gun trafficking to law enforcement 
agencies both in the United States and abroad.
    ATF is pursuing funding to establish firearm trafficking groups 
within each of its four border field divisions. The groups would be 
staffed by one group supervisor, eight special agents, two IOIs and one 
investigative analyst. These trafficking groups would be fully 
dedicated to firearm trafficking investigations. ATF is also seeking 
funding from the Organized Crime Drug Enforcement Task Force (OCDETF) 
Executive Office for five positions to expand ATF's Gun Desk at the El 
Paso Intelligence Center (EPIC)--three intelligence research 
specialists (IRS), one investigative analyst and one full-time special 
agent. An additional four IRS positions have been requested to support 
the field divisions on the Southwest Border. The team at EPIC will 
coordinate with the IRSs in the field divisions to gather, analyze, and 
disseminate intelligence from ATF investigations targeting firearms 
trafficking cases that involve OCDETF CPOT- and RPOT-linked along the 
Southwest Border. The teams will also liaison with all participating 
agencies at EPIC to ensure intelligence gathered is coordinated.
    ATF is further collaborating with the Mexican government by 
deploying special agents to U.S. Consular offices in Mexico City and 
Monterrey, with additional deployments planned for Hermosillo, Baja 
California, Ciudad Juarez, and Tijuana in the near future, if funding 
is available. In this way, ATF will be able to work directly with 
Mexican counterparts, taking advantage of real-time intelligence that 
will benefit drug-related firearms trafficking investigations on both 
sides of the border. Intelligence sharing and transnational 
collaboration will provide valuable additional resources for ATF and 
its law enforcement partners. Those resources will be directed to 
identifying violent gangs and firearms traffickers that are also 
associated with OCDETF targets.
    Question. The Committee was under the impression that determining 
technology to be used in the field by bomb squads was part of the role 
for the Hazardous Devices School. How will this new initiative at the 
Dept of Homeland Security merge with the efforts of the FBI and the 
ATF?
    Answer. The Department of Justice is unable to comment on another 
Department's initiatives. The Hazardous Devices School (HDS) is not 
designed to serve as a research and development agency; however, the 
HDS is integral to the identification and transmission of operators' 
requirements and assists in the test and evaluation of emerging 
technologies developed through the efforts of the DOD Technical Support 
Working Group (TSWG) and others. TSWG is an interagency and 
international research and development organization focused on short 
term, quick turn around, fielding of equipment to meet operators' 
requirements. Both FBI and ATF, as well as OBP, are members of the TSWG 
and the National Science and Technology Council for Counter IED 
Research. As it stands, the Department continues to determine the 
technology best suited for bomb squad field use.
    Question. How much has the taxpayer already expended to create and 
maintain the current 2 systems?
    Answer. The cost to the taxpayers for the creation and maintenance 
of ATF's current database system is $13.8 million, with the first 
database being created in 1996.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. What are the authorized and the current staffing levels 
for the Bureau of Prisons facilities within the Commonwealth of 
Kentucky, including FMC Lexington, USP Big Sandy, FCI Ashland, FCI 
Manchester, and USP McCreary?
    Answer.

------------------------------------------------------------------------
                                          S&E Authorized    S&E Current
                                               Level      Staffing Level
------------------------------------------------------------------------
FMC Lexington...........................             501             430
USP Big Sandy...........................             385             337
FCI Ashland.............................             289             258
FCI Manchester..........................             308             273
USP McCreary............................             376             330
------------------------------------------------------------------------

    Question. What are the current inmate-to-staff ratios at each of 
the Bureau of Prisons facilities within the Commonwealth of Kentucky, 
including FMC Lexington, USP Big Sandy, FCI Ashland, FCI Manchester, 
and USP McCreary?
    Answer. The current (June 5, 2008) inmate-to-staff ratios are as 
follows:

------------------------------------------------------------------------
                                                               Ratio
------------------------------------------------------------------------
FMC Lexington...........................................        3.9 to 1
USP Big Sandy...........................................        5.2 to 1
FCI Ashland.............................................        6.0 to 1
FCI Manchester..........................................        6.1 to 1
USP McCreary \1\........................................        3.8 to 1
------------------------------------------------------------------------
\1\ USP McCreary is transitioning from Medium Security to High Security
  Programming. The inmate population will continue to increase until the
  transition is complete and thereby increase the Inmate to Staff Ratio.

    Question. What are the authorized, optimal, and minimally-safe 
inmate-to-staff ratios at each of the Bureau of Prisons facilities 
within the Commonwealth of Kentucky, including FMC Lexington, USP Big 
Sandy, FCI Ashland, FCI Manchester, and USP McCreary?
    Answer. The Bureau of Prisons (BOP) does not have an optimal or 
minimally safe inmate to staff ratio, particularly for individual 
prisons. For fiscal year 2007, the BOP's inmate to staff ratio was to 
4.92 to 1, whereas 10 years ago, this ratio was at 3.57 to 1.
    Question. What steps is the Bureau of Prisons taking to increase 
security and safety at each of its facilities within the Commonwealth 
of Kentucky, including FMC Lexington, USP Big Sandy, FCI Ashland, FCI 
Manchester, and USP McCreary, regarding current staffing levels and 
inmate-to-staff ratios?
    Answer. Ensuring the safety and security of all facilities 
including the facilities in Kentucky is the highest priority of the 
Bureau of Prisons (BOP). The BOP ensures institution security through a 
combination of factors that include the classification of inmates based 
on risk factors; physical security features at BOP's institutions, 
including the structure of inmate living quarters, security 
technologies, and perimeter security measures; internal controls for 
inmate movement and accountability; direct staff supervision of 
inmates; and inmate involvement in correctional programs.
    The graduated classification system allows the BOP to assign an 
inmate to an institution in accordance with his or her likelihood of 
engaging in disruptive behavior. Inmates who require high levels of 
security are confined in higher-security facilities. Inmates who are 
able to function with relatively less supervision, without disrupting 
institution operations or threatening the safety of staff, other 
inmates, or the public, are confined in lower security level 
institutions.
    Architecture and security technology also help maintain the safety 
and security of BOP institutions, and the BOP continues to evaluate and 
add technological innovations to increase the physical security of 
facilities. To facilitate direct supervision of inmates, structural 
barriers between staff and inmates are minimized where possible, and 
staff offices are located near the areas where programs and services 
are delivered. Staff circulate freely and constantly through all areas 
of the institution, continually interacting with inmates. This promotes 
a more normalized environment within an institution and places staff in 
a better position to observe inmate behavior. Frequent and constructive 
interaction and communication between staff and inmates is critical to 
ensuring security, maintaining accountability, and managing inmate 
behavior. Staff are encouraged to talk with and be available to inmates 
and to be receptive to inmate concerns. Most institutions also rely on 
closed-circuit cameras and monitors to augment staff observation of 
inmates.
    Question. Why has the Bureau of Prisons facility at USP McCreary 
not staffed certain security towers while its stun/lethal fence 
remained incomplete and nonoperational? What steps to ensure the safety 
of staff, inmates, and the community has the Bureau taken while the 
towers remain unstaffed?
    Answer. The BOP is piloting a stun-lethal fence system at seven of 
its high security facilities. During the construction phase of these 
fence systems, Wardens have established adequate procedures to provide 
perimeter security. At USP McCreary, the Warden determined that while 
the stun-lethal fence is being installed, the certain towers will 
continue to be staffed to control access to and from the institution. 
In addition to this, perimeter patrols are being used for perimeter 
security. It should be noted that electrified fence systems have been 
in operation at several state correctional facilities for a number of 
years, and their perimeter security is very similar to those 
established at Bureau institutions.
    Question. On March 14, 2008, Bureau of Prisons Director Harley 
Lappin testified before the U.S. House of Representatives Committee on 
Appropriations, Subcommittee on Commerce, Justice, Science, and Related 
Agencies. In response to a question from U.S. Representative Hal Rogers 
of Kentucky, Director Lappin described his concern about an increase in 
the severity of incidents of violence or disorder as the Bureau's 
inmate-to-staff ratio has worsened. He testified that the Bureau seeks 
to identify perpetrators and shift them into higher-security 
institutions. Given current staffing levels and inmate-to-staff ratios, 
what steps is the Bureau taking to ensure the security and safety of 
the staff, inmates, and community affiliated with the higher-security 
institutions that receive the violent inmates? What steps is the Bureau 
taking to retain and recruit staff at the higher-security institutions?
    Answer. As with the Department's answer to your previous question, 
ensuring the safety and security of staff, inmates, and the public is 
the highest priority of the Bureau of Prisons. The BOP ensures 
institution security through a combination of factors that include the 
classification of inmates based on risk factors; physical security 
features at our institutions, including the structure of inmate living 
quarters, security technologies, and perimeter security measures; 
internal controls for inmate movement and accountability; direct staff 
supervision of inmates; and inmate involvement in correctional 
programs.
    The graduated classification system allows the BOP to assign an 
inmate to an institution in accordance with his or her likelihood of 
engaging in disruptive behavior. Inmates who require high levels of 
security are confined in higher-security facilities. Inmates who are 
able to function with relatively less supervision, without disrupting 
institution operations or threatening the safety of staff, other 
inmates, or the public, are confined in lower security level 
institutions.
    Architecture and security technology also help maintain the safety 
and security of BOP institutions, and the BOP continues to evaluate and 
add technological innovations to increase the physical security of 
facilities. To facilitate direct supervision of inmates, structural 
barriers between staff and inmates are minimized where possible, and 
staff offices are located near the areas where programs and services 
are delivered. Staff circulate freely and constantly through all areas 
of the institution, continually interacting with inmates. This promotes 
a more normalized environment within an institution and places staff in 
a better position to observe inmate behavior. Frequent and constructive 
interaction and communication between staff and inmates is critical to 
ensuring security, maintaining accountability, and managing inmate 
behavior. Staffs are encouraged to talk with and be available to 
inmates and to be receptive to inmate concerns. Most institutions also 
rely on closed-circuit cameras and monitors to augment staff 
observation of inmates.
    BOP staffs are a key component to effective security and inmate 
management. Regardless of the specific discipline in which a staff 
member works, all BOP employees are ``correctional workers first.'' 
This means that everyone is responsible for the security and good order 
of the institution. All staff are expected to be vigilant and attentive 
to inmate accountability and security issues, to respond to 
emergencies, and to maintain a proficiency in custodial and security 
matters, as well as in their particular job specialty. This approach 
allows the BOP to maximize emergency preparedness and to operate in the 
most cost-effective manner (with fewer correctional officers) and still 
maintain direct supervision of inmates.
    Finally, the BOP operates a broad variety of programs to keep 
inmates constructively occupied and provide them opportunities to learn 
important skills. Research has shown that keeping inmates productively 
involved in appropriate correctional programs and activities is 
critical to ensuring both a safe and secure prison and public safety. 
Correctional programs and activities reduce inmate idleness and the 
stresses associated with living in a prison, and these programs are 
important to public safety by assisting inmates to return to the 
community as productive, law-abiding citizens.
    Question. What steps is the Bureau of Prisons taking to increase 
security and safety at each of its facilities within the Commonwealth 
of Kentucky, including FMC Lexington, USP Big Sandy, FCI Ashland, FCI 
Manchester, and USP McCreary, regarding the transfer of non-English-
speaking or bilingual violent inmates (including gang members) from 
other regions of the country and the attendant need to monitor inmate 
communications in foreign languages for threats to staff and 
institutional security?
    Answer. Ensuring the safety and security of our staff, inmates, and 
the public is the highest priority of the Bureau of Prisons. The BOP 
ensures institution security through a combination of factors that 
include the classification of inmates based on risk factors; physical 
security features at our institutions, including the structure of 
inmate living quarters, security technologies, and perimeter security 
measures; internal controls for inmate movement and accountability; 
direct staff supervision of inmates; and inmate involvement in 
correctional programs.
    During July 2007, the Bureau of Prisons established a Blanket 
Purchase Agreement to provide foreign language translation services for 
all institutions. The agreement incorporates language proficiency 
standards, security background requirements that the translators must 
meet, and an aggressive turnaround response time requirement 
(ordinarily two business days) for the contractor to complete the 
translation and return it to the Bureau of Prisons.
    At the same time guidance was provided to all institutions that all 
social communications (correspondence and telephone calls) for inmates 
meeting specific identified criteria, one of which was disruptive group 
affiliation or gang involvement, would be translated if written in 
foreign language. Social correspondence prepared in a foreign language 
by identified inmates would be held, translated and analyzed for 
intelligence value prior to mailing out of the institution. Incoming 
correspondence written in a foreign language would also be held, 
translated and analyzed for intelligence value prior being delivered to 
the inmate. Audio recordings of telephone calls are currently 
translated after the calls occur, but a new agreement currently under 
development will include the ability for simultaneous translation of 
inmate telephone calls.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess until 
Wednesday, April 16, at 2 p.m., when we'll take testimony from 
the Director of the FBI.
    We thank the Director for coming and for his forthcoming 
statements and look forward to working with his team.
    This subcommittee stands in recess.
    Attorney General Mukasey. Thank you very much.
    Senator Mikulski. As the prerogative of the Chair, the 
subcommittee's officially recessed. We would thank the 
advocates from the Y for coming today.
    I'm going to ask my staff, and I'm sure the Shelby staff 
would join, so that they can have a brief conversation with you 
and bring you up to date on what our efforts will be, but we 
thank you for your advocacy and, most of all, we thank you for 
the hundred years of good work empowering women and fighting 
racism and bigotry in our society.
    God bless you.
    [Whereupon, at 10:56 a.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene at 2 p.m., Wednesday, 
April 16.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2 p.m., in room SD-124 Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Shelby, and Stevens.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER III, DIRECTOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. The Commerce, Justice, Science 
Subcommittee will come to order.
    There are many hearings going on right now. I know the 
hearing on the supplemental is wrapping up and we have a vote 
at 2:15. So, I know Senator Shelby is on his way, Director 
Mueller.
    I want to exercise the prerogative of the Chair and give my 
opening statement. By that time Senator Shelby will be here. We 
hope to hear your testimony, then we'll recess and then come 
back for questions and answers. But I think that there are five 
hearings on appropriations going on simultaneously. Here he is.
    Good afternoon, and welcome. Today, the Commerce, Justice, 
Science Subcommittee will hear from Director Robert Mueller, 
the head of the Federal Bureau of Investigation (FBI), for its 
budget priorities for fiscal year 2009. We've had a very 
productive relationship with Director Mueller and his team and 
he can count on us to work with him.
    We regard this year as a year of transition. This time next 
year, we will have a new President and whatever we do with this 
year's budget for the FBI will be the operating budget for that 
President's first term.
    I want to make sure the FBI has the right resources to 
fulfill its mission, to fight terrorists, violent criminals, 
cyber crooks, and also predators on our children.
    The FBI has so many multiple roles, it truly is not J. 
Edgar Hoover's FBI anymore, and it isn't even Judge Webster's 
FBI anymore. It is a new modern FBI with multiple 
responsibilities, both as an intelligence and law enforcement 
agency, responsible for keeping 300 million people safe from 
terrorists, as well as, criminals.
    The President's budget request is $7.1 billion, a $450 
million increase above the 2008 passed omnibus. This will be a 
7 percent increase and it should help with funding for more 
special agents and more intelligence analysts.
    While we work to get the FBI the right resources, we also 
have to make sure that we have the best management practices. 
We know the FBI is hiring to meet our Nation's needs and we 
want to discuss with him the issues related to recruitment, 
retention, and training.
    In the area of counterterrorism, most increases in the FBI 
budget are in this category. We all agree this is a top 
priority. For counterterrorism, the budget proposes $3 billion, 
a $234 million increase above the 2008 omnibus. 
Counterterrorism is now 40 percent of the FBI's budget. This 
has been quite a transformation in the last 5 years.
    For intelligence, the budget proposes $1.4 billion, a $208 
million increase over 2008 and an 18 percent increase. I'm 
pleased that the FBI proposes major investments in intelligence 
gathering, fighting cyber crime, dealing with these issues 
related to weapons of mass destruction and improvised explosive 
devices (IEDs).
    At the same time, we need to know how the FBI is improving 
its management and oversight of critical intel tools. We know 
that the inspector general has raised flashing yellow lights 
about national security letters and to be sure that they are 
sent and used appropriately, the terrorist watch list, when you 
get on, how soon does it take to get the bad guy on it, and how 
soon does it take a good guy off of it inadvertently placed 
there, and also we're concerned that the FBI wiretap bill was 
unpaid. We cannot miss a ring on that number. The FBI must 
improve its accuracy and protect our privacy.
    Then we go to the crime budget. There is a surge in crime 
in the United States of America and we need our FBI. We are 
very concerned that over the years, funding for the FBI in the 
terrorist area was taken at the expense of crime.
    This year, the request is $2.3 billion for the FBI's 
traditional crime-fighting efforts, a $105 million increase 
over the 2008 omnibus level, but the budget has no new funds 
for the surge in violent crime, the additional surge 
responsibility of investigating the mortgage fraud disclosures 
which I know the chairman's an expert in, and also continuing 
our efforts to deal with a rising crime against children, the 
child predator issues from those who stalk children in our 
communities to the growing international child pornography 
rings.
    Since September 11th, the FBI has shifted 2,000 agents from 
violent crime to counterterrorism work. Local law enforcements 
taken up this slack. They're stretched to the limit. So, if 
we're going to have a surge of help in Baghdad, we need a surge 
of help in Baltimore.
    We support the idea of the joint Federal-State task forces. 
We have seen the work, the excellent work the FBI has done with 
these joint Federal-State task forces in fighting violent 
gangs, drug dealers, and child predators.
    If we can put $5 billion into the Iraqi police force, we 
can put more money into our FBI. Given all the FBI's important 
roles and responsibilities, we want to be sure that they have 
the right resources, that they are able to hire and keep the 
right people and that they have the modern technology that we 
need to fight these new techno-threats against the United 
States.
    We want to very much hear the Director's priorities and to 
work with him in a spirit of bipartisan partnership to keep 
America as safe as we can by having a strong FBI and we're 
going to be smarter in the way we work with you and fund this 
in order to get the job done.
    I now turn to Senator Shelby for any comments he has to 
make.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman. Before I begin 
my opening statement, I would want to take a moment to commend 
the chairwoman for her fiery comments to the OMB Director in 
the supplemental hearing that took place moments ago.
    Senator Mikulski, I stand with you in the fight to increase 
State and local funding in the supplemental and thank you for 
being the leader in this effort.
    Director Mueller, thank you for joining us today. We had a 
nice meeting in my office yesterday to discuss the Federal 
Bureau of Investigation's 2009 budget request.
    I want to begin by thanking the men and women of the FBI 
who work every day to protect the Nation. We're all indebted to 
them for the sacrifices they make to protect us.
    Since your arrival as the sixth Director of the FBI, 
Congress has tasked the FBI, Mr. Director, with more 
responsibility than any other Federal law enforcement agency 
resulting in more challenges and changes than ever before. No 
one knows this more than you.
    The FBI is the Nation's premier law enforcement, 
counterterrorism, and counterintelligence agency. The Bureau's 
missions include fighting terrorism, foreign intelligence 
operations, cyber crime, public corruption, white collar crime, 
and violent crime.
    The FBI request for 2009 is $7.1 billion. This is a $448 
million increase over the 2008 omnibus funding level. While 
this represents an increase, the FBI has a $56 million 
shortfall in the 2009 budget request.
    The bottom line may have increased but funding for the core 
missions and the responsibility has not. This hole in the 
budget increases the pressure on the FBI to do more with less.
    Based on my review of your request, Mr. Director, combined 
with the likely fiscal constraints of this subcommittee, we 
will need your assistance as we face tough funding decisions. 
This subcommittee and the Bureau share the difficult task of 
targeting these limited resources in a manner that safeguards 
taxpayer dollars while preserving public safety.
    I want to re-emphasize the chairwoman's point that since 9/
11, the FBI has shifted 2,000 agents from violent crime into 
counterterrorism and while this shift was necessary, it has 
created a huge burden on our State and local enforcement 
agents.
    This budget abandons our State and local law enforcement 
officials and cuts at all the grants that would have helped 
them to meet our most critical needs. We will work with you, 
Mr. Director, to ensure that we provide the FBI with the 
resources necessary to assist these critical partners in our 
fight against crime.
    Director Mueller, Congress has provided nearly $100 million 
for the FBI's render safe mission for critical equipment and 
air assets to counter the explosive devices in the United 
States. The FBI's render safe mission requires the FBI to have 
the capability to access, diagnose, and render safe chemical, 
biological, radiological, or nuclear devices within the United 
States and its territories.
    The FBI's responsible for all render safe operations 
involving weapons of mass destruction in the National Capital 
Region. It has been approximately 1 year since the chairwoman 
and I worked with you in good faith to provide the FBI with the 
funding needed for this mission.
    I understand as of today, the Office of Management and 
Budget (OMB) has still not released $38 million in funding 
appropriated in last year's war supplemental necessary for the 
Bureau to perform its critical weapons of mass destruction 
(WMD) and render safe missions. The availability of that 
funding expires in less than 6 months, September 30, 2008.
    I look forward to hearing your plans on how the FBI will be 
fully obligating these funds prior to their expiration.
    Currently, the FBI has on-call assets from other agencies. 
These same on-call assets are also responsible for conducting 
other critical missions. If these assets are not designated for 
both the U.S. Government and the FBI, how will the FBI use them 
to carry out a render safe response during a crisis? These 
assets could be double-booked.
    The FBI's Hazardous Device School, HDS, is a crown jewel of 
the Federal Government's effort to provide training to Federal, 
State, and local bomb technicians. In partnership with the 
Army, this facility has trained more than 20,000 bomb 
technicians. That is a proven record of success.
    A November 2007 Congressional Research Service (CRS) report 
stated that IEDs, roadside bombs, and suicide car bombs caused 
70 percent of all American combat casualties in Iraq and 50 
percent of all combat casualties in Afghanistan. The report 
also notes that ``there's a growing concern that IEDs might 
eventually be used by insurgents and terrorists worldwide, 
including in this country.''
    The administration's most recent homeland security strategy 
recognizes the potential threat of IEDs being used by 
terrorists here. IEDs are clearly a threat. We need to 
understand and prepare for them. We cannot afford to be 
complacent and pretend that it cannot happen here.
    The question is will we be prepared when they arrive? There 
has been more than 13,000 IED and evidentiary submissions from 
Iraq and Afghanistan in 2007. These submissions cause backlogs 
that require Federal, State, and local law enforcement to wait 
an average of 200 plus days to receive the results of forensic 
examinations from the FBI lab.
    We need to make sure that the FBI and its lab have the 
resources it needs to handle not just the influx of work 
associated with the war on terrorism but also provide timely 
forensic assistance to law enforcement. We must ensure that the 
Terrorist Explosive Device Analytical Center has the forensic 
and technical capabilities it needs to support its critical 
mission of countering the IED threat from terrorists without 
denying those same services to others who depend on the FBI for 
lab support.
    This threat, I believe, is not going to diminish. There are 
many other issues, Mr. Director, I'd like to discuss, including 
national security letters, critical rebuilding of the FBI 
Academy and the use of resources with the FBI's priority 
missions, and I look forward to your thoughts on these issues 
and many others.
    Thank you for joining us.
    Senator Mikulski. Thank you, Senator Shelby, and again 
Director Mueller, we just want to assure you we're going to 
move on your budget in a bipartisan way. Our thoughts are 
identical on this, but why don't you go ahead with your 
testimony?

                STATEMENT OF HON. ROBERT S. MUELLER III

    Mr. Mueller. Thank you, Madam Chairwoman, and Senator 
Shelby. Thank you for having me here today to discuss the 
issues relating to our 2009 budget request.
    I did submit a longer statement. I would hope that it would 
be made part of the record.
    As you are aware, the FBI's top three priorities are 
counterterrorism, counterintelligence, and cyber security. 
These priorities are critical to our national security and to 
the FBI's vital work as a committed member of the intelligence 
community.
    Also important are our efforts to protect our communities 
from the very real threat of crime, especially violent crime. 
In the counterterrorism arena, al-Qaeda and related groups 
continue to present a critical threat to the homeland, so do 
self-radicalized homegrown extremists and they are difficult to 
detect, often using the Internet to train and operate.
    At home, through our domestic joint terrorism task forces 
and abroad with our legal attaches and our international 
partners, we together share real-time intelligence to fight 
these terrorists and their supporters.
    An important aspect of the fight against terrorists is the 
threat of weapons of mass destruction and the FBI's commitment 
to our render safe mission to prevent, prepare for, and respond 
to the threat of a WMD in the United States.
    We appreciate the resources that you have provided for this 
endeavor and with your ongoing support, we will continue to 
work on this critical issue. I'm looking forward to discussing 
the funding in support of that particular initiative.
    Another important effort is the work of the Terrorist 
Explosive Device Analytical Center, the TEDAC as it is called, 
as was pointed out by Senator Shelby. This center was 
established as an interagency laboratory for analyzing 
explosive devices used by terrorists worldwide and it does use 
the most contemporary forensics techniques available to do so, 
providing that information to our troops on the ground in Iraq, 
Afghanistan, and elsewhere.
    With regard to the counterintelligence threat, protecting 
our Nation's most sensitive secrets from hostile intelligence 
services or others who would do us harm is also at the core of 
the FBI mission.
    In furtherance of this priority, we reach out to businesses 
and universities. We join forces with our intelligence 
community partners and we work closely with the military to 
help safeguard our country's secrets.
    As was pointed out by you, Madam Chairwoman, cyber threats 
to our national security and the intersection between cyber 
crime, terrorism, and counterintelligence is increasingly 
evident.
    Today, the FBI's cyber investigators focus on these threats 
and we partner with Government and industry. One way we do so 
is through our sponsorship of a program called Infraguard, an 
alliance of more than 23,000 individual and corporate members 
to help identify and prevent cyber attacks.
    We have also asked for your specific support of our efforts 
in connection with the comprehensive national cyber security 
initiative. The FBI's unique position as both an intelligence 
and law enforcement agency allows us to rapidly respond to 
cyber events at U.S. Government agencies, military 
installations, and within the broader private sector.
    I am mindful of your ongoing interest in the FBI's progress 
in building an intelligence program while combating these 
threats. The FBI has made a number of changes in the last 
several years to enhance our capabilities.
    Today's intelligence is woven throughout every FBI program 
and operation. By utilizing this intelligence, we have 
successfully broken up terrorist plots across the country, from 
Portland, Oregon; Lackawanna, New York; Torrance, California; 
Chicago, Illinois, to the more recent Fort Dix, and JFK plots.
    We have increased and enhanced our working relationships 
with our international partners, sharing critical intelligence 
to identify terrorist networks and disrupt planned attacks 
around the globe.
    We have doubled the number of intelligence analysts on 
board and tripled the number of linguists. We have tripled the 
number of joint terrorism task forces, from 33 in September 
2001 to over 100 to date. Those task forces combine the 
resources and expertise of the FBI, the intelligence community, 
military, State, local, and tribal law enforcement.
    Another critical and important part of the FBI mission, the 
traditional mission is quite clearly our work against criminal 
elements in our communities, very often and most useful in task 
forces with our Federal and State and local and tribal 
partners.
    Also, public corruption remains the FBI's top criminal 
investigative priority. In the past 2 years alone, we have 
convicted over 1,800 Federal, State, and local officials for 
abusing their public trust.
    Similarly, our work to protect the civil rights guaranteed 
by our Constitution is a priority, which includes fighting 
human trafficking, as well as, our focus on the civil rights 
cold case initiative.
    Gangs and violent crime continue to be as much a concern 
for the FBI as it is for the rest of the country. The FBI's 143 
Safe Streets violent gang task forces leverage the unique 
knowledge of State and local police officers with Federal 
investigative resources to combat this growing problem.
    The FBI also sponsors 52 additional violent crime and 
interstate theft task forces, as well as, 16 safe trails task 
forces targeting crime in Indian country.
    The FBI combats transnational organized crime in part by 
linking the efforts of our Nation's 800,000 State and local 
police officers with international partners. This is 
accomplished through the FBI's legal attache offices of which 
we have over 60 at this juncture around the world.
    And finally, major white collar crime. From corporate fraud 
to fraud in the mortgage industry clearly continues to be an 
economic threat to the country. For example, in recent years, 
the number of pending FBI cases focusing on mortgage fraud, 
including those associated with subprime lending, has grown 
nearly 50 percent to over 1,300 cases. Roughly one-half of 
these cases have losses of over $1 million and several have 
losses greater than $10 million. In addition, the FBI will 
continue our work to identify large-scale industry insiders and 
criminal enterprises engaged in systemic economic fraud.
    As I believe both of you have pointed out and we, too, 
recognize that for the past 100 years of the FBI's history, our 
greatest asset has been our people. We are building on that 
history with a comprehensive restructuring of our approach to 
intelligence training for both our professional intelligence 
analyst cadre, as well as, for new FBI agents coming out of 
Quantico.
    We have and will continue to streamline our recruiting and 
hiring processes to attract persons having the critical skills 
needed for continued success of the FBI's mission.
    I also remain committed to ensuring our employees have the 
information technology infrastructure they need to do their 
jobs. This includes the continuing successful development of 
the Sentinel Case Management System, as well as, other 
information technology (IT) upgrades.
    I am very well aware of your concerns that we always use 
legal tools given to the FBI fully but also appropriately. For 
example, after the Department of Justice review of the use of 
national security letters, we instituted internal oversight 
mechanisms to ensure that we, as an organization, minimized the 
chance of future lapses.
    Among the reforms was the creation of a new Office of 
Integrity and Compliance within the Bureau to identify and 
mitigate potential risks.
    In closing, the FBI recognizes that it is in some sense a 
national security service responsible not only for collecting, 
analyzing and disseminating intelligence but most particularly 
for taking timely action to neutralize threats to this country. 
These threats could be from a terrorist, from a foreign spy or 
a criminal, and in doing so, we also recognize that we must 
properly balance civil liberties with the public safety in 
pursuing our efforts and we will continually strive to do so.

                           PREPARED STATEMENT

    Madam Chairwoman, Senator Shelby, I appreciate the 
opportunity to testify this afternoon and look forward to your 
questions.
    Thank you.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller III

    Good afternoon, Chairwoman Mikulski, Senator Shelby, and Members of 
the Subcommittee. I appreciate the opportunity to appear before you 
today to discuss the President's fiscal year 2009 budget for the 
Federal Bureau of Investigation (FBI). I would also like to thank you 
for your continued oversight of the Bureau and for your efforts to 
ensure our success as we pursue the shared goal of making America 
safer.
    After the attacks of September 11, 2001, the FBI's priorities 
shifted dramatically as we charted a new course, with national security 
at the forefront of our mission. The intervening 7 years have seen 
significant changes at the FBI, and we have made remarkable progress. 
Today, the FBI is a stronger organization, combining greater 
capabilities with a longstanding commitment to the security of the 
United States, while at the same time upholding the Constitution and 
the rule of law and protecting civil liberties.

                          2009 BUDGET REQUEST

    The fiscal year 2009 budget for the FBI totals 31,340 positions and 
$7.1 billion, including program increases of 1,129 new positions (280 
Special Agents, 271 Intelligence Analysts, and 578 Professional 
Support) and $447.6 million. These resources are critical for the FBI 
to perform its national security, criminal law enforcement, and 
criminal justice services missions. Most importantly, the additional 
funding requested will continue to build upon our on-going efforts to 
integrate and cement our intelligence and law enforcement activities. 
These resources will allow us to create an awareness of, and become 
receptors for change in threats, and have the ability to make immediate 
adjustments in priorities and focus in an environment where national 
security threats and crime problems are constantly changing and 
shifting.
    Guiding the development of the FBI's budget strategy are six 
enterprise-wide and interdependent capabilities that the FBI needs to 
effectively perform its national security, criminal investigative, and 
criminal justice services missions. These end-state capabilities are:
  --Domain and Operations.--A mature enterprise capability for 
        employing intelligence and analysis to identify and understand 
        the national security threats and crime problems challenging 
        America, and developing and executing operational strategies to 
        counter these threats and crime problems;
  --Surveillance.--A surveillance (physical, electronic, human source) 
        and operational technology capability to meet operational 
        requirements;
  --Partnerships.--An established and productive network of 
        partnerships with local, State, Federal, and international law 
        enforcement and criminal justice agencies;
  --Leveraging Technology.--An enhanced capability for providing 
        forensic, operational technology, identification, biometric, 
        training, and criminal justice services to the FBI workforce 
        and our local, State, Federal, and international partners;
  --Workforce.--A professional workforce that possesses the critical 
        skills and competencies (investigative, technical, analytical, 
        language, supervisory, and managerial), experiences, and 
        training required to perform our mission; and
  --Infrastructure.--A safe and appropriate work environment and 
        information technology to facilitate the performance of the 
        FBI's mission.
    The FBI's 2009 budget strategy builds upon both current knowledge 
of threats and crime problems and a forward-look to how we anticipate 
terrorists, foreign agents and spies, and criminal adversaries are 
likely to adapt tactics and operations in a constantly evolving and 
changing world. This forward-look helps inform and determine the 
critical operational and organizational capabilities the FBI must 
acquire over the same time period to remain vital and effective in 
meeting future threats and crime problems.
    We also linked our budget plan to the FBI's Strategy Management 
System to ensure the investments in new resources were tied to our 
strategic vision and goals.
    I will highlight some of the key components of our budget request 
below.

                         DOMAIN AND OPERATIONS

    In order for the FBI to be successful, we must be able to fully 
utilize our intelligence analysis techniques to establish a mature 
enterprise capability for identifying and understanding the national 
security threats and crime problems facing the United States, and to 
develop and execute operational strategies to counter these threats and 
problems.
    This budget requests 568 new positions (190 Special Agents, 158 
Intelligence Analysts, and 220 Professional Support) and $131.0 million 
to improve intelligence analysis and conduct intelligence-driven 
terrorism investigations and operations. These resources will enable 
the FBI to conduct investigations to prevent, disrupt and deter acts of 
terrorism and continue to strengthen working relationships with our 
Federal, State and local partners; provide support to the National 
Virtual Translation Center, which serves as a clearinghouse to 
facilitate timely and accurate translation of foreign intelligence for 
elements of the Intelligence Community; leverage and expand existing 
Foreign Terrorist Tracking Task Force (FTTTF) operations to support all 
National Security Branch (NSB) mission areas to include 
Counterintelligence, Weapons of Mass Destruction (WMD), Domestic and 
International Counterterrorism, and Intelligence; and address growth in 
the number of terrorism and counterintelligence-related computer 
intrusion cases.
    The National Counterterrorism Center's WMD Threat Assessment, 2005-
2011 reaffirmed the intent of terrorist adversaries to seek the means 
and capability to use WMD against the United States at home and abroad. 
Within the United States Government, the FBI has been assigned 
responsibility for Render Safe operations involving WMD in the National 
Capital Region and for the rendering safe of deliberate deployments of 
WMD throughout the remainder of the United States. To carry out its 
critical responsibilities in the area of WMD, the FBI must continue to 
build the capacities and capabilities of its Render Safe Program while 
ensuring that the FBI is adequately staffed and equipped to 
forensically respond to a terrorist incident, whether it be Chemical, 
Biological, Radiological, or Nuclear. The FBI's fiscal year 2009 budget 
includes 132 positions (43 Special Agents and 89 Professional Support) 
and $65.8 million to enhance the FBI's capabilities to prevent, prepare 
for, and respond to the threat of WMD. These resources will allow the 
FBI to enhance strategic partnerships with foreign intelligence, law 
enforcement, security, public health, agricultural, chemical, and other 
public and private sector agencies and organizations that are vital to 
the early detection of a potential WMD incident.
    The FBI's fiscal year 2009 budget for Domain and Operations also 
includes an enhancement of 211 positions (35 Special Agents, 113 
Intelligence Analysts, and 63 Professional Support) and $38.6 million 
to support investigative, intelligence, and technical requirements of 
the Comprehensive National Cybersecurity Initiative.
    The threat of cyber-related foreign intelligence operations to the 
United States is rapidly expanding. The number of actors with the 
ability to utilize computers for illegal, harmful, and possibly 
devastating purposes continues to rise. Cyber intrusions presenting a 
national security threat have compromised computers on United States 
Government, private sector, and allied networks. The FBI is in a unique 
position to counter cyber threats as the only agency with the statutory 
authority, expertise, and ability to combine counterterrorism, 
counterintelligence, and criminal resources to neutralize, mitigate, 
and disrupt illegal computer-supported operations domestically. The 
FBI's intelligence and law enforcement role supports response to cyber 
events at United States Government agencies, United States military 
installations, and the broader private sector.

                              SURVEILLANCE

    Shifting from a reactive criminal prosecution approach to a 
prevention and intelligence-driven focus in our counterterrorism 
program is taxing the FBI's capacity to gather intelligence through 
both physical and electronic surveillance. The capacity to carry out 
extended covert court-authorized surveillance of subjects and targets 
is absolutely critical to the FBI's counterterrorism and 
counterintelligence programs. Surveillance activities--physical and 
electronic--give us insight into and awareness of our adversaries, 
which, in turn, create opportunities to identify sleeper cells, disrupt 
support networks and communications, and recruit assets. We need a 
vigorous surveillance capacity to keep on top of known and emerging 
targets. Additionally, we must be able to develop and deploy new 
operational technologies and techniques to counter a more technically 
sophisticated adversary and to exploit and share the information we 
gather.
    In fiscal year 2009, we seek an enhancement of 145 positions (10 
Special Agents and 135 Professional Support) and $88.5 million to 
strengthen surveillance capabilities. These resources will enable the 
FBI to increase the number of physical surveillance teams; replace 
aging surveillance aircraft; develop new techniques and tools to 
address emerging technologies; meet demands for new audio and data 
collection and upgrade or replace obsolete digital collection system 
equipment and components; and develop new techniques and tools for 
tactical operations.

                              PARTNERSHIPS

    The FBI prides itself on establishing and maintaining a productive 
network of partnerships with local, State, Federal, and international 
law enforcement and criminal justice agencies. In order to do this, we 
must enhance our capability and capacity to collect, manage, analyze, 
and share information within the FBI and with our Intelligence 
Community (IC), law enforcement, and allied partners. The fiscal year 
2009 budget includes 3 positions (2 Special Agents and 1 Professional 
Support) and $5.7 million to expand the FBI's presence overseas to 
obtain intelligence relative to threats involving the homeland; open 
and staff a new Legal Attache office in Algiers, Algeria, which will 
address a significant number of counterterrorism cases and leads in 
that region; and enhance the FBI's ability to participate in State and 
local intelligence Fusion Centers, which have become an important 
component in maintaining the flow of information between and within 
Federal, State, local, and Tribal Governments.

                         LEVERAGING TECHNOLOGY

    Technology is the cornerstone to fulfilling the FBI mission as well 
as creating efficiencies for both FBI personnel and our Intelligence 
and Law Enforcement Community partners. Leveraging technology will 
allow the FBI to provide forensic, analytical, and operational 
technology capabilities to FBI investigators and analysts, law 
enforcement officers, and the intelligence community. Without enhanced 
resources to invest in applied research, development, knowledge 
building, testing, and evaluation, the FBI will not be able to take 
advantage of emerging technologies or adapt to a constantly changing 
and evolving threat and operational environment.
    For example, the use of DNA technology continues to be an important 
tool for law enforcement; it not only helps identify suspects, but it 
can also be used to ensure innocent persons are not wrongly convicted 
of a crime. The FBI Laboratory continues to support forensic 
exploitation analysis for FBI investigations, State and local cases, 
and terrorist identification from Improvised Explosive Devices (IEDs) 
obtained from in-theater operations in Iraq and Afghanistan. The FBI's 
fiscal year 2009 budget includes 52 Professional Support positions and 
$32.1 million for DNA-related initiatives and enhanced counterterrorism 
and forensic analysis support for FBI investigations. The failure to 
provide timely examination results can affect information available for 
prosecutors during trials or negotiating plea agreements, or can cause 
a delay in the gathering of intelligence to support the identification 
of terrorists and their associates, which could impact the safety of 
United States troops overseas. By enhancing the forensic capabilities 
of the FBI Laboratory, the FBI will be better positioned to solve 
crimes and offer assistance to partner law enforcement agencies.
    The FBI must also keep pace with evolving technology. Currently, 
all wireless carriers in the United States are upgrading their networks 
to 3rd Generation wireless technology. This upgrade will radically 
transform voice, internet, email, short message service, multimedia 
services and any future services from circuit-switched data to packet 
transferred data. The FBI, along with the rest of the Intelligence 
Community, has created a Joint Wireless Implementation Plan, which will 
allow us to provide the field with advanced tools and technologies as 
well as provide adequate training on the use of duly authorized 
wireless intercept and tracking tools. The fiscal year 2009 budget 
includes $4.1 million to assist us in keeping abreast of this cutting 
edge technology and the ability to counter the technology posed by our 
adversaries.

                               WORKFORCE

    The FBI remains committed to a professional workforce that 
possesses the critical skills and competencies (investigative, 
technical, analytical, language, supervisory, and managerial), 
experience, and training required to perform our mission. With an 
expanding mission and a growing workforce there will be an increase in 
workforce-related challenges that need addressing. We must be able to 
attract strong candidates to fill Special Agent, Language Analyst, 
Intelligence Analyst, and Professional Support positions, bring these 
candidates on-board in a timely manner, and provide them with 
professional training.
    The fiscal year 2009 budget includes 18 positions and $43.6 million 
to address these workforce requirements, including resources for 
National Security Branch Training, which will enable the FBI to expand 
the number of Domestic Human Intelligence (HUMINT) Collection Courses, 
develop and deliver a HUMINT training program that specifically 
addresses terrorist organizations, and provide training to Cyber 
investigators on national security-related computer intrusions; the 
Foreign Language Proficiency Pay Program (FLP3), which will 
dramatically increase the FBI's recruitment and retention of highly 
qualified language professionals, especially those with expertise in 
Arabic, Urdu, and Chinese; pay modernization efforts, which will align 
FBI efforts more closely to the pay modernization plans established by 
the Office of the Director of National Intelligence (ODNI); and the 
FBI's Personnel Security Program, which will expedite the 
investigation, adjudication, and polygraph examination for prospective 
FBI employees and contractors.
    As a leader in the Intelligence and Law Enforcement Communities, 
the FBI must be equipped to hire, train, and pay the specialized cadre 
of personnel that the FBI employs.

                             INFRASTRUCTURE

    Critical to the success of the FBI's mission are safe and 
appropriate work environments and state-of-the-art information 
technology (IT). Over the years, the FBI has made substantial 
investments to upgrade its information technology architecture, 
including the purchase of computer workstations and software for 
employees and networks for connectivity both within the FBI and with 
external partners. Additionally, the FBI is moving forward to invest in 
upgrading field and training facilities to ensure secure and adequate 
workspace. However, the FBI still faces gaps in its capacity to support 
all of its critical projects and initiatives. Continued investments are 
needed to close the gaps to ensure the availability of critical FBI IT 
systems, applications, facilities, and data in the event of a disaster. 
The fiscal year 2009 budget includes $38.2 million to continue to 
develop facilities and IT support and services.
    The FBI prides itself on its ability to share information in a 
timely manner. The fiscal year 2009 budget includes resources to 
enhance and extend the unclassified network (UNet) and integrate it 
with the Law Enforcement Online, as well as upgrade our IT disaster 
recovery locations. This funding will enable the FBI to increase 
information sharing capabilities within the Bureau as well as with 
outside entities, like the Intelligence Community. Additionally, this 
funding will support the creation of backup IT capabilities to be 
available in the event of a catastrophic disaster.
    The FBI's budget also includes upgrades to our field facility 
infrastructure, expansion of the FBI Academy, and security for field 
office expansion. The FBI is in dire need of adequate space for FBI 
personnel and the large number of FBI-led, multi-agency task forces 
such as Joint Terrorism Task Forces, Safe Streets Task Forces, Health 
Care Fraud Task Forces, and Field Intelligence Groups. These resources 
will support the FBI's facility requirements to ensure adequate, safe, 
and secure working environments. The budget also includes resources to 
consolidate FBI records at the Central Records Complex (CRC). The CRC 
will enable us to efficiently locate and access all of our records 
quickly, thus allowing us to more effectively process name checks.
  strategic execution team: improvement of fbi's intelligence program
    Before closing, I would like to tell the Committee about our 
Strategic Execution Team (SET) and describe some of the changes that 
team has brought about toward improving FBI intelligence activities. 
This team exemplifies the commitment of the men and women of the FBI to 
successfully integrating our intelligence and law enforcement 
activities.
    We recently completed a comprehensive self-assessment of our 
intelligence program and concluded that we need to move further and 
faster to enhance our capabilities. In consultation with the 
President's Intelligence Advisory Board, we began working to examine 
how we can accelerate our progress and we have identified a number of 
areas where we are focusing our efforts.
    We have created a SET of field and headquarters personnel to help 
drive implementation of needed changes across the organization. The SET 
team includes approximately 90 agents, analysts, and other professional 
staff, from FBI Headquarters and roughly 27 field offices. This team 
has focused its initial efforts on three critical areas: intelligence 
operations, human capital, and program management.
    With the guidance of the SET, we are restructuring our Field 
Intelligence Groups (FIGs), so they can better coordinate with each 
other, with street agents, and with analysts and agents at FBI 
Headquarters. Drawing from the best practices we identified, we have 
developed a single model under which all FIGs will function, to 
increase collaboration between intelligence and operation, and to 
provide accountability for intelligence gathering, analysis, use, and 
production. The model can be adjusted to the size and complexity of 
small, medium, and large field offices.
    To enhance our collection capabilities, we are taking a two-pronged 
approach. First, we must ensure we are taking full advantage of our 
current collection capabilities in terms of what we know through our 
case work, and what we could know if we asked our existing source base 
the right questions. Tactical analysts will work with investigative 
squads, in all program areas, to ensure that collection plans are 
executed, and to help squads identify opportunities to address the 
intelligence requirements of the office.
    Second, to enhance the picture of a threat developed through our 
investigations, the FIG will include a team of specially trained agents 
who will collect intelligence to meet requirements, conduct liaison 
with local partners, and focus on source development.
    In terms of human capital, we have refined the Intelligence Analyst 
career path, including training, experiences, and roles that are 
required to develop a cadre of well-rounded and highly proficient 
analysts. We have also established core intelligence tasks for all 
Special Agents, further defined the Special Agent intelligence career 
path, and tailored individual development plans for all agents. 
Finally, we have developed a university recruiting program to hire 
additional intelligence analysts with targeted skill sets. We received 
hundreds of applications as a result of this effort.
    We in the FBI are mandated by the President, Congress, the Attorney 
General, and the Director of National Intelligence to protect national 
security. For nearly 100 years, the FBI has used intelligence to solve 
cases; today, however, we rely on our agents and analysts working hand-
in-hand with colleagues across the country and around the world to 
collect intelligence on multiple, inter-related issues. With the 
authority and guidance provided by the Intelligence
    Reform and Terrorism Prevention Act and other directives and 
recommendations, the FBI has implemented significant changes to enhance 
our ability to counter the most critical threats to our security.
    Today, we are building on our legacy and our capabilities as we 
focus on our top priority: preventing another terrorist attack. It is 
indeed a time of change in the FBI, but our values can never change. We 
must continue to protect the security of our nation while upholding the 
civil rights guaranteed by the Constitution to every United States 
citizen.
    When I speak to Special Agents upon their graduation from the FBI 
Academy, I remind each one that it is not enough to prevent foreign 
countries from stealing our secrets--we must prevent that from 
happening while still upholding the rule of law. It is not enough to 
stop the terrorist--we must stop him while maintaining civil liberties. 
It is not enough to catch the criminal--we must catch him while 
respecting his civil rights. The rule of law, civil liberties, and 
civil rights--these are not our burdens; they are what make us better.

                               CONCLUSION

    Madam Chairwoman, I would like to conclude by thanking you and this 
Committee for your service and your support. Many of the 
accomplishments we have realized during the past 7 years are in part 
due to your efforts and support through annual and supplemental 
appropriations. From addressing the growing gang problem to creating 
additional Legal Attache offices around the world, and, most 
importantly, to protecting the American people from terrorist attack, 
you and the Committee have supported our efforts.
    On behalf of the men and women of the FBI, I look forward to 
working with you in the years to come as we continue to develop the 
capabilities we need to defeat the threats of the future.

                             MORTGAGE FRAUD

    Senator Mikulski. Thank you very much, Director Mueller. We 
have about 4 minutes left in the vote. Senator Shelby and I are 
going to dash to the vote. This subcommittee will stand in 
recess. The first one back will reopen the hearing.
    This subcommittee will reconvene for the purposes of asking 
questions.
    Senator Shelby, I am going to take about 5 minutes, turn to 
you and then we'll come back for a second round. I know your 
ranking membership on the Banking Committee is taking a lot of 
your time.
    So, my first question is going to deal with mortgage fraud 
and the whole issue of predatory lending. As we look at what 
are the resources that the FBI needs, we know we've talked 
about the national security issues related to 
counterintelligence, counterterrorism, and the cyber 
initiative, I'll come back to that, but you've also gotten a 
surge responsibility related to mortgage fraud and the FBI 
mortgage load, the FBI mortgage fraud workload is increasing 
dramatically.
    The suspicious activity reports of mortgage fraud is up 300 
percent. We know that your workload has increased and it 
requires a very sophisticated--all of your agents are 
sophisticated, but this goes to forensic accounting and a whole 
lot of other very technical fields.
    Could you share with us what is it that you need in order 
to continue to do the type of investigations America needs you 
to do? We know that the workload has increased, that you have 
138 agents dedicated to investigating mortgage fraud.
    How many more agents do you need? Will you be able to add 
them? What is it that you need in the budget to really be able 
to meet this kind of surge demand?
    Mr. Mueller. Madam Chairwoman, as you point out, we've had 
a tremendous surge in cases related to the subprime mortgage 
debacle.
    We currently have almost 1,300 cases that have grown 
exponentially over the last several years and we expect them to 
grow even further. We also, as I pointed out in my statement, 
have 19 cases involving institutions themselves, where mortgage 
fraud may have contributed to misstatements and the like as you 
have pointed out, each of these cases, particularly the larger 
ones, require forensic analysis.
    We currently have a total of 150 agents who are working 
these cases. The vast majority of agents are working cases on 
brokers, buyers, lenders and the like and other agents that are 
working on the corporation misstatements. We also are 
participating in 33 task forces around the country.
    What we have found is that, over the last couple of years, 
we have had to take agents from other areas, whether it be 
healthcare fraud or other financial fraud cases, and put them 
on this area.
    When the budget was put together, the subprime mortgage 
cases had not grown to the point where we could anticipate the 
extent of the surge. Even at this point, I'm not certain at 
this point we can see the extent of the surge.
    What I'd like to do is be able to get back to you in terms 
of how many additional resources we need to address this.
    [The information follows:]

                        Mortgage Case Resources

    The FBI will work with the Department of Justice, the 
Office of Management and Budget, and Congress to convey the 
full resource requirements required to address Mortgage Fraud 
investigations.

    Mr. Mueller. One other point that you have raised in the 
past, as I recall, and that is the possibility of seeing an 
upsurge in cases relating to reverse mortgages. That is 
something that we are seeing and may well need additional 
resources to address.
    It is still too early to discern the full contours of the 
extent of the number of cases that we'll have to address, but 
we'll keep in touch with the subcommittee on that.
    Senator Mikulski. Well, we want very much to work with you 
because we feel that the enforcement of existing laws and 
holding people accountable through rigorous and fair 
investigations are what is very much needed.
    We need to not only protect the American people with their 
foreclosures but we have to make sure that we maintain 
confidence in the financial institutions. If we have a collapse 
of confidence, this could have even far more draconian effects 
on our economy.
    So, we'd like to hear back from you about what do you need 
to do the job that you're required and we request you to do. 
What we're looking for is full budgeting, not only the number 
of agents but the other kind of technical assistants you might 
need from others that are agents, as well as clerical help, et. 
cetera. This is enormously significant, important and timely. 
So, we look forward to hearing from you on that.

                     STATE AND LOCAL VIOLENT CRIME

    The other area that I want to move on is the whole issue of 
State and--excuse me. State and local violent crime. State and 
local law enforcement strongly support the joint Federal-State 
task forces. We hear that everywhere, but we're concerned that 
you've not had the resources to expand the program.
    In the President's request to us, there's no additional 
funding to expand these excellent task forces where we maximize 
the resources of the Federal Government and utilize the 
resources of State and local.
    You know that crime is up, robbery, aggravated assault, 
murder. So, our question to you is with the violent crimes on 
the rise, what is it that you think--what would be the 
desirable number you would like to expand the joint task forces 
and what would it take to do that?
    Mr. Mueller. Well, as I think I pointed out, we have 182 
violent gang crime task forces now, we continue to expand. We 
have 16 safe trails task forces, 23 child prostitution task 
forces, and 9 major theft task forces around the country.
    Senator Mikulski. Say that last one again.
    Mr. Mueller. We have 23 child prostitution task forces and 
nine major theft task forces around the country today.
    Senator Mikulski. Child prostitution?
    Mr. Mueller. Child prostitution task forces, yes. Children 
that are----
    Senator Mikulski. Lured into this?
    Mr. Mueller [continuing]. Lured into child prostitution 
rings, yes, around the country.
    Senator Mikulski. God.
    Mr. Mueller. Whether it be violent crime or areas such as 
this, it is our belief we have approximately 12,500 agents at 
this juncture, and we leverage our resources by task forces 
with our State, local, and other Federal counterparts.
    Regardless of the vehicle on the Federal side, I do believe 
that it's important that the State and local police 
departments, and sheriffs' office's are encouraged to 
participate in these task forces. Regardless of the vehicle, to 
the extent that funds are made available and tied into 
participation on task forces, it maximizes our ability and the 
ability of State and local law enforcement to address a number 
of these issues that you have raised.
    Senator Mikulski. Well, I'm going to come back to crimes 
against children. I'm going to turn now, my time is up, to 
Senator Shelby. I was a child abuse social worker. You know, 
all crimes are terrible but crimes against children are 
heinous. So, we'll come back, and we know the FBI's been just 
great on this, on the Internet predator and so it's a tough 
duty.
    Senator Shelby.

                          RENDER SAFE MISSION

    Senator Shelby. Thank you, Madam Chairwoman. Mr. Director, 
I alluded in my opening statement to the $38 million provided 
in the 2008 war supplemental with the OMB program, associate 
directors for justice, which it's my understanding they have 
refused to release.
    When these--when requested, these funds were critical, we 
were told, for the Bureau to perform its WMD and render safe 
missions. These funds have been available for obligation for 
approximately 1 year and will expire, as I mentioned, in 6 
months.
    Two questions. Are these funds critical to successfully 
carry out your mission?
    Mr. Mueller. They are, Senator, and let me explain a little 
bit about the mission to the extent that I can do so without 
going into classified matters.
    That mission requires us to put together WMD response 
teams, which include persons with the skills to be able to 
render safe various WMD devices. However, it also requires 
supporting command, control, communications, logistics, 
scientific and hazardous materials support elements as well, 
and coupled with that is a necessity for mobility of getting 
those resources to the site of the device.
    We have had tremendous support in long distance and getting 
those resources necessary for the program. We have been working 
with OMB to get the support for the release of that 38,000 that 
you mentioned.
    Senator Shelby. $38 million.
    Mr. Mueller. $38 million. Maybe it's a wee bit more than 
what I said. The $38 million that you mentioned, and it is 
tremendously important because we do have the responsibility 
for the National Capital Region, as well as, responsibility 
across the country and consequently that's important to us.
    Senator Shelby. Why is it--what's the hold-up with OMB?
    Mr. Mueller. Well, we're in discussions with 
representatives of OMB and our hope is that these funds will be 
released relatively shortly.
    Senator Shelby. Okay.
    Senator Mikulski. Mr. Chairman, may I interrupt----
    Senator Shelby. Yes, you may.
    Senator Mikulski [continuing]. Without in any way taking 
from your time?
    I am very disappointed in this, and I think my colleague 
and I would like to--we just had kind of a dust-up with OMB 
over law enforcement, at least I had a dust-up with them, and 
they've got to release the money and we would again work on a 
bipartisan basis to write a letter to him or to ask for the 
release of the money.
    It was appropriated in the supplemental. You need the money 
and this is a pretty important mission, so much so that we 
can't even talk about it except in a classified way. It doesn't 
get any bigger deal than that.
    So, Senator Shelby, why don't, after the hearing, you and I 
put our heads together and see if we can't spring this?
    Senator Shelby. We want to work with the Director on this.
    Senator Mikulski. Yes, absolutely.
    Mr. Mueller. Let me just say that OMB has been supportive 
of this, in supporting our mission. This is the one outstanding 
issue there is, but they have been tremendously supportive of 
our mission.
    Senator Shelby. Do you think you'll resolve this on your 
own?
    Mr. Mueller. It is my hope that we can. As I say, we've had 
discussions with OMB recently as well.
    Senator Shelby. Okay.
    Senator Mikulski. Well, we do the supplemental, the new 
supplemental, the new new new supplemental, and if it hasn't 
been--we've got to get that done, but we're going to be 
holding--we're going to be moving the supplemental in 2 weeks 
to the floor. So, let's--if we can't get it done in 2 weeks, we 
have to go to plan B. Okay?
    Mr. Mueller. Okay. Yes, ma'am.

                              FUNDING GAP

    Senator Shelby. Thank you, Madam Chairwoman. Budget for 
shortfalls. The budget the administration has submitted on 
behalf of the FBI proposes an additional $450 million to 
partially fund the implementation of the Bureau's intelligence 
mission and national security initiatives.
    This budget request fails to fix a $56 million gap in your 
base funding. During the 2008 budget process, Chairwoman 
Mikulski and I worked to provide the resources that you needed, 
Mr. Director, to close a $139 million shortfall in your budget. 
We expected the administration to fix the problem it created 
and we're disappointed that once again we're facing the 
substantial base shortfall in the FBI.
    With that in mind, what would be the impact on the FBI if 
there was a long-term continuing resolution for the first 90 to 
180 days of 2009? I know I don't want to contemplate that. It 
would be an impact.
    Mr. Mueller. I want to thank the subcommittee for its 
efforts last year on the shortfall. Most of it was taken care 
of. To the extent it was not, it did affect our ability to 
fully fund programs, such as the deoxyribonucleic acid (DNA), 
cyber, surveillances and the like.
    If there is a continuing resolution and I would say 90 
days, it would probably have an impact or shortfall of 
approximately $30 million and that would result in a--could 
conceivably result in a hiring freeze and it would require 
across-the-board reductions in all of our programs, and I do 
point out that from experience. I know that a number of the 
national security-related budgets were passed earlier last 
year. These include the Department of Homeland Security (DHS), 
quite obviously the military, as well as, the intelligence 
budgets. Now that we are a partner in the intelligence 
community, I would hope that the subcommittee would look at the 
impact of continuing resolutions. I recognize perhaps that we 
do need a budget as soon as possible, if we are to maintain and 
increase the programs that we have been discussing here.
    Senator Shelby. So basically, it could affect you carrying 
out your missions?
    Mr. Mueller. Yes. Yes, sir.

              SHIFT OF CRIMINAL AGENTS TO COUNTERTERRORISM

    Senator Shelby. And the subject of realignment of FBI, I 
guess, from criminal cases to terrorism, since 9/11, the FBI 
has shifted more than 2,000 agents from criminal investigations 
into terrorism. I agree that terrorism is the highest priority 
and represents the gravest threat to national security.
    I think it's also shortsighted for us to continue to 
cannibalize the criminal side of the FBI when we should be 
requesting more agents and resources to provide the FBI with 
the means to fight the threat of terrorism, as well as, help 
State and local law enforcement fight the rising crime epidemic 
gripping our communities.
    Mr. Director, are you satisfied that the FBI is reaching 
the right balance in resources between its national security 
and the criminal investigation missions or could you do more 
with more resources?
    Mr. Mueller. Well, the answer to the last part of that 
question is yes, we could do more with the resources.
    The fact of the matter is----
    Senator Shelby. Without the resources, you've got one hand 
tied behind you.
    Mr. Mueller. We do, and the fact of the matter is, you've 
used the word ``cannibalize,'' and I think that is appropriate, 
we've taken resources from the criminal side of the house to 
meet our national security responsibilities and to build up the 
intelligence side of the house which was absolutely essential 
in the wake of September 11th.
    We increasingly find that State and local law enforcement 
want us back working on task forces with them. Not across the 
country generally but in certain places across the country 
warrants a backfill of those agents who we've had to take from 
the criminal side of the house and put on the national security 
side of the house.
    Likewise, with the subprime mortgage crisis, the Innocent 
Images task forces, the growth of the Internet and the cyber 
challenges present unique threats that we now face. On the 
criminal side of the house, I do believe it's important to 
recognize that we have certain particular skills that could 
augment State and local law enforcement. Furthermore, we should 
consider building up those agents and the other support 
functions that we've had to push over to the national security 
side since September 11th.

              TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER

    Senator Shelby. I want to get into the subject of the FBI 
labs. The Terrorist Explosive Device Analytical Center, TEDAC 
we call it, accounted for almost two-thirds of the evidence 
submitted to the FBI lab for processing in 2007. This increased 
workload has affected the lab's ability to assist other 
agencies, including State and local law enforcement.
    The budget, this budget contains a request to reduce the 
backlog of the Federal Convicted Offender Program, but there 
appears to be minimal new resources to address the workload 
generated by TEDAC.
    Is the case turnaround time, which I'm told, Mr. Director, 
is currently averaging around 200 days, for processing evidence 
in the FBI lab an impediment to cases and prosecutions?
    Mr. Mueller. Yes.
    Senator Shelby. If not, could it be?
    Mr. Mueller. Yes, it is. We have two challenges here. One 
is IEDs, as you pointed out, and to bring in our expertise, 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF's) 
expertise to IEDs, whether they be in Iraq and Afghanistan or 
elsewhere around the world, and not only identifying----
    Senator Shelby. Sometimes here, although----
    Mr. Mueller. Or perhaps here----
    Senator Shelby [continuing]. I'm not suggesting----
    Mr. Mueller [continuing]. Ultimately.
    Senator Shelby [continuing]. That.
    Mr. Mueller. But identifying the engineer, the persons 
responsible for the various mechanisms that are used, but also 
utilizing DNA and fingerprints, contributing to intelligence 
has been tremendously effective for the military.
    On the DNA side of the house, that has meant a delay and 
we've also had additional responsibilities on the DNA side of 
the house when broader categories of individuals whose 
specimens need to go into our databases and so on both fronts, 
we're facing a shortfall and have requested funds to address 
that shortfall.
    Senator Shelby. So TEDAC basically is not sufficient a 
resource to do its job, not the job you would want it to do?
    Mr. Mueller. Well, again we've had to take resources from 
the criminal cases to address the national security which in 
this case is TEDAC as opposed to the services that have 
traditionally provided, not only to our investigators on the 
criminal side but also State and local investigators, and we 
have had to, to a certain extent, dry up the support we give 
the State and local laboratories traditionally in order to meet 
the national security demands that have been placed upon us.
    Senator Shelby. Senator Mikulski, I hope that we'll look at 
this hard and fast as we get into this to make sure that we 
fund it properly.
    Senator Mikulski. Absolutely. I find it--I find this very 
troubling.

                              FBI ACADEMY

    Senator Shelby. Quantico, very important, the FBI Academy 
in Quantico. Not only trains all FBI special agents but also 
trains intelligence analysts, as well as, State, local and 
international law enforcement National Academy students.
    Some of us are concerned that your training infrastructure 
needs are not being met here. It's a question of resources. The 
FBI Academy has expanded over the years and still struggles to 
satisfy all of the requirements of students and faculty to 
ensure that your agents, analysts and the National Academy 
students have the finest training capability available.
    In 2009, the FBI requested $9.8 million for FBI Academy 
instruction. Does this funding satisfy all your needs or is 
this just meeting the minimum?
    Mr. Mueller. Our buildings we have at Quantico for agents 
and the like are 40 years old at this juncture. We have gotten 
funds in past years to upgrade them, but it is certainly not 
enough.
    We have additional demands, as I indicated in my remarks, 
and we've doubled the number of investigative or intelligence 
analysts. They need to be trained and that has put a demand on 
the facilities at the FBI Academy.
    One of the crown jewels of the Bureau is the National 
Academy and the training that is done for not only State and 
local law enforcement, but also international law enforcement. 
There have been demands to expand our classes, both for State 
and local, as well as, international, and so we have additional 
demands, as well as, a relatively old structure that we would 
like to expand our capabilities of the FBI Academy to address 
these demands but also we have to continue to upgrade our 
facilities to meet our training needs.
    An example is as we get enhanced technology in the Bureau, 
the buildings are 40 years old and do not have the wiring that 
enables us to put in the classified networks that we need to 
provide the instruction for both our analysts, as well as, our 
agents.

                       CYBER SECURITY INITIATIVE

    Senator Shelby. The national cyber security initiative. I 
don't know what you can talk about here. We might need a 
classified briefing, Mr. Director, but to talk about the role 
of the national cyber security initiative, why it's important 
and also the resources. Is that more a place for a classified 
hearing than this?
    Mr. Mueller. I think I can talk generally about this 
initiative and then if it would be helpful, we can certainly go 
to a different session.
    The challenge of protecting the variety of networks, 
Government and private, is going to be increased over the 
years. We have the example that you mentioned, Madam Chairwoman 
in Estonia recently where it was subject to a wave of cyber 
attacks which could happen not only to Estonia but around the 
world.
    We have the responsibility to prevent and investigate the 
attacks within the United States. Most often, attacks do not 
occur within our borders but from outside our borders, which 
requires the integration of our experts with experts from other 
countries and the use of our legal attaches.
    In the last year or so, we have joined with our 
counterparts at the National Security Administration (NSA), 
Department of Defense (DOD), and the Department of Homeland 
Security to put together what is called the national cyber 
investigative joint task force which has us working in an 
integrated fashion to address these threats.
    We need to build on our capabilities, as well as, the 
capabilities of the Government overall. We have requested 211 
positions and $39 million in this budget to address the 
challenges we see from the threat of cyber attacks.
    Senator Shelby. Thank you. Thank you, Madam Chairwoman.
    Senator Mikulski. Senator Shelby, we are going to have a 
classified conversation about this rather than a formal hearing 
in which you and I and others can participate.
    I discussed this with Director Mueller yesterday. There are 
things that really are said elsewhere and last week, Senator 
Stevens presided over a DOD hearing on the DOD aspects. This is 
a pretty big deal.
    Interestingly enough, Business Week this week has a whole--
that's their front page about the possible attacks on corporate 
networks which, of course, have significant effect, financial 
networks, et cetera.
    So, we're going to hold a conversation with you to make 
sure that we're on the right track in terms of technology, 
workforce, while the administration works out a complicated 
governance approach.
    Also, if you would like to have an additional classified 
conversation on the Render Safe Program, we would want to 
cooperate with you on arranging it. It's really needed.
    Senator Stevens, we're happy to see you today.
    Senator Stevens. Thank you. I've got other hearings going 
on. My neighbor is here, but I wondered about the concept of 
the arrangements the FBI has with the Department of Homeland 
Security.
    It seems to me we're spreading this whole thing across the 
Government now. We had the hearing on DOD, as you said. We're 
having one on Homeland Security.
    Are you sharing across the board now in terms of these 
operations? You relate to a certain extent with Homeland 
Security, right?
    Mr. Mueller. Yes, sir. Whether it be the cyber initiative 
where we have roles, we work with Department of Homeland 
Security on the national cyber investigative joint task force 
that I just mentioned, but beyond that, we are working with 
Homeland Security fusion centers that have been established 
States around the country.
    We work very closely with them in terms of protecting our 
borders against terrorists. Are, I would say, across the board 
integrated with the Department of Homeland Security across the 
country.
    The last point I would mention is on joint terrorism task 
forces. We have over 100 joint terrorism task forces around the 
country now and we have members from various elements of the 
Department of Homeland Security that participate in task 
forces.
    Senator Stevens. Senator Mikulski mentioned, as a matter of 
fact, that was a classified issue. We can't talk about numbers, 
but I can tell you I was shocked with the numbers we saw, and I 
think you were, too, weren't you, Madam Chairman, in terms of 
the whole question of preparing to deal with the defense 
against cyber attacks.
    We've got a massive amount in the Defense Appropriations 
Subcommittee. We've got some in Homeland Security. Do you have 
part of that cyber attack in this budget?
    Mr. Mueller. We have a piece of it, yes, and----
    Senator Stevens. We need to know how it all fits together 
and how much it really is, if it's stretched so far, is what 
I'm asking.
    Mr. Mueller. We have a piece of it and we have worked with 
others in the community to set out a 5-year plan for what we 
need to build to address this particular threat.
    Senator Stevens. Would it be proper to suggest that maybe 
one of these days we should have a classified hearing with all 
three there----
    Senator Mikulski. You know,----
    Senator Stevens [continuing]. To discuss this in depth?
    Senator Mikulski [continuing]. I absolutely do. We 
encouraged Director McConnell, the head of the DNI, to meet 
separately with the appropriators involved with this.
    For those of us on the Intel Committee, we got an overall 
picture and we were concerned exactly what you're raising, 
Senator. How does it all fit together? How do we sequence what 
we need to fund because you don't fund everything at the same 
time, and then the overall question, sir, about who is in 
charge?
    But I think, why don't we cooperate with Senator Byrd and 
Senator Inouye and the ranking members and let's have a 
conversation about this?
    Senator Stevens. I hope you understand what we're saying. 
We--I believe we want redundancy and I do believe we want 
everyone involved to use their expertise, but the problem is, 
is do we have an overlapping of funding that is warranted?
    I tell you, if you saw the figures we saw projected out for 
the next 5 years, it was a substantial increase that we're 
looking at, and I don't know, we haven't got yours for that 5-
year period, but I do hope we can find some way to be assured 
that the money follows the assignment responsibility that we 
don't have a duplication of funding occurring without intention 
to do so and just not really realizing how much jointness there 
is in this operation.
    Mr. Mueller. I think----
    Senator Stevens. I'm talking about cyber now.
    Mr. Mueller. Right. We're talking about cyber. The Director 
of the DNI, Admiral McConnell, would be very willing to sit 
down with Mike Chertoff, myself and others to explain and lay 
out exactly how the pieces come together.
    I do understand substantial funding----
    Senator Mikulski. Do you want to do that?
    Senator Stevens. Yes. Thank you very much.
    Mr. Mueller. Thank you.
    Senator Stevens. That's my answer.

                                SENTINEL

    Senator Mikulski. Thank you very much, Senator Stevens.
    We will pick up on this because it's not only the money but 
it also goes to what needs to be done when, by whom, and who's 
in charge, number 1, and number 2, who will provide the 
technological assurances that we don't--that it's a boon, not a 
boondoggle. So, we don't need to go into that here.
    I want to raise, though, something that was a boondoggle 
that we turned into a boon which goes to our favorite program 
of the Sentinel. If I could, I'd like to focus on some of the 
oversight issues.
    Some years ago, this subcommittee was faced, as you were, 
where the fact that the attempt to develop an electronic case 
management system called Trilogy became deeply troubled and 
dysfunctional. We then moved to a new effort called the 
Sentinel.
    This is a very important tool because right after 9/11, the 
case management issues were not only what did we know and when 
did we know it but did we know how to connect the dots and 
that's why we looked for a new case management system. It 
wasn't only to be cool and groovy with electronics and be 
paperless, it was to have a better chase.
    So, having said that, while we're here today to stand 
sentry on the Sentinel. So, could you tell us where we are and 
how is the progress coming?
    Mr. Mueller. As you point out, in the wake of September 
11th, we had a contract to complete that had been started 
before September 11th called Trilogy. It was called Trilogy 
because there were three legs to the stool. Two of them were 
successful; that is, the networks themselves and other aspects 
of putting in place the infrastructure. What was not successful 
was the third leg of the stool and that was the software.
    We had to make a very difficult decision and say we could 
not go forward on that and, as you point out, it was replaced 
by Sentinel, which is contracted by Lockheed Martin, is a 
forward-based system.
    Phase 1 was successfully deployed in June 2007 and with the 
lessons from the deployment of phase 1, we have gone to what is 
called an incremental development strategy for phases 2 through 
4.
    We have had 12 builds since June on phase 1 which is part 
of that incremental development strategy, and phase 2 is on 
schedule and within planned costs.
    As an aside, I would say that the FBI and Lockheed Martin 
deployed phase 1 on budget and a few weeks late, but phase 2 is 
on schedule and currently within planned costs. Indeed, on 
April 4, we delivered the Enterprise Portal, which is a key 
component of the Sentinel project.
    I meet with CEO Bob Stevens of Lockheed Martin quarterly to 
make certain that this program is on track. Others who are much 
more involved in the program on a daily basis meet with their 
counterparts at Lockheed Martin regularly to make certain it is 
on track. I don't think there's another program that has more 
oversight than Sentinel from the inspector general, the 
Government Accountability Office (GAO), and Congress.
    I'm confident at this juncture that we are proceeding as we 
should be on this project, but I welcome the scrutiny and am 
happy to brief anyone on where we are to make certain that you 
also share that confidence that I have that we are on track.
    Senator Mikulski. Well, we understand from GAO that they 
say that Sentinel is on track and also on budget. So, it's on 
track in terms of its technology development, but we're also 
concerned that some of the most difficult parts lie ahead which 
is the conversion of case files from the old database to 
Sentinel.
    We just encourage you to really stand your continued 
vigilance on this because I think now we're also moving to some 
of the really tough parts and those that will determine the 
efficacy of its operation.
    Mr. Mueller. May I add one comment on that,----
    Senator Mikulski. Sure.
    Mr. Mueller [continuing]. Madam Chairwoman. We have been 
focused and rightfully so on Trilogy and also Sentinel, but 
since September 11th, we recognize the necessity of putting 
information relating to counterterrorism into a searchable 
database. In the wake of September 11th, we developed what was 
called the investigative data warehouse for our 
counterterrorism information. This database has been built up 
over time, and is a different database than that which had 
supported our case structure before. It is the latest in terms 
of technology and gives us the capability to connect the dots 
in the counterterrorism arena, similar to what we're moving to 
overall with Sentinel.
    So, we have not stood by waiting for the development of 
Sentinel but have put into place the mechanism a number of 
years ago to meet that shortfall.
    One last point on information technology, if I could. We 
have in the last year put out approximately 20,000 Blackberries 
to our agents, analysts, and others that enable us to be on the 
cutting edge of communication and capability to accomplish our 
mission.
    In the next year or so, we will be putting in almost 25,000 
UNeT computers, which is the Internet. As you know, we operate 
at the secret level but everybody should have Internet 
capability on their desk as opposed to having to go down to 
some other work station. We have already put in 12,000 those 
UNeT units. In 2008, we're going to put in another 14,000. By 
the end of 2009, everybody will have UNeT capability.
    Senator Mikulski. Well, I'm glad you brought all of that 
up. You know, when we think of the FBI, we think of agents, 
then we think of analysts, then we think of linguists. We don't 
think of the incredible support that we need to provide to our 
very talented and dedicated people who, I'll say, are in the 
street, whether that's Baghdad or Baltimore or whatever, but 
you need to have the kind of support staff, like I know you 
hired a chief information officer, and isn't that when we began 
to kind of right the ship on Sentinel and some others? Then 
that person needs to have the support.
    So, when we look at your appropriations, it's not only, you 
know, how many agents and do they have the guns and all of that 
is important, but you also need to have these other highly 
technical people to make sure that our agents, analysts, et 
cetera, are right resourced, isn't this right?
    Mr. Mueller. Absolutely. Since September 11th, we have had 
to put in place a chief information officer office and bring on 
board the talent and the capabilities to do that. We needed an 
architecture that would span the Bureau as a whole. We needed 
to develop a Government structure so that you identify and 
prioritize the particular projects that you're going to 
undertake as an organization.
    We've made substantial strides, but I will tell you we 
still have, we still have gaps that we need to fill in terms of 
providing the infrastructure, and the IT that the Bureau needs. 
We're working hard to fill those gaps, but I would be remiss if 
I thought that we were there. We've made a lot of strides but 
we've got a ways to go.

                          TERRORIST WATCH LIST

    Senator Mikulski. Which takes me to--I've got about two 
more questions--the terrorist watch list. The inspector general 
has identified concerns about the terrorist watch list and 
going back then to those dark days after 9/11 and the 9/11 
Commission, the Intel Committee's investigations, one of the 
things, issues that emerged was the efficacy of our watch 
lists, and according to the Department of Justice (DOJ) 
inspector general, he has identified serious flaws in the FBI 
terror watch list and also DOJ, Department of Justice, which 
means a real time lag in putting terrorists on the watch list 
and then also because of identical names or complexity, getting 
good people off of that watch list.
    Could you tell us your response to the inspectors general 
flashing yellow lights on this?
    Mr. Mueller. Let me start by saying that I believe the 
watch list is a success story. I believe it was 12 agencies who 
had separate watch lists. Since 2003 we have pulled together 
those 12 agencies and established a watch list procedure. A 
nomination process for international nominees come from the 
National Counterterrorism Center and domestic nominees come 
from the FBI.
    It has been successfully in operation, integrated with 
Border and Customs individuals, the State Department, as well 
as State and local law enforcement.
    The inspector general report did point out deficiencies in 
two areas and I will just single out those two areas. In the 
nomination process, the inspector general indicated that the 
FBI had established appropriate procedures for nominating, 
appropriate criteria for nominations, and appropriate quality 
controls.
    The inspector general did point out that we were not 
updating our watch list entries as fast as we should and there 
were field offices that had submitted incomplete and/or 
inaccurate information. The inspector general looked at a 
number of organizations, as well as ours, and pointed out those 
deficiencies.
    We have put into place software fixes and additional 
training to address these concerns. Of the 18 recommendations 
that the inspector general had, the FBI has closed 4 and we are 
waiting for another 12 to get approved from the inspector 
general.
    One last point I'd make on the other aspect that you 
mentioned, the redress issues relating to a watch list. 
Recommendation was made that we put together a multiagency 
working group to address that. In September 2007, put together 
and had signed off by each of the contributing agencies an 
memorandum of understanding (MOU) that would establish and did 
establish a redress officer in every one of the agencies and a 
unit in every one of the agencies to address that.
    There is still a backlog, but we have in place the 
mechanism that we need in my mind in each of the agencies to 
assure swifter redress so those persons who should not be on 
the watch list are taken off the watch list.
    As I said, of the 18 recommendations that the inspector 
general has made, 16 of those are on the verge of being 
completed and there are 2 that we're still working on.

                    FIGHTING CRIMES AGAINST CHILDREN

    Senator Mikulski. Well, thank you very much. I think with 
that, it gives us the assurance that, number 1, you take the 
inspector general concerns seriously and as we've talked about, 
both at this hearing and also in other conversations with you, 
that those issues that the inspector general did raise, that 
you, through your team, have addressed them. So, we do 
appreciate that.
    I just have one general area I'd like to come back to. You 
know, the crimes against children. It really took my breath 
away to hear about something called a joint task force on child 
prostitution, and I know Senator Shelby has just been a 
fantastic colleague and ally on issues related to trafficking, 
the child predator thing even in other parts of this 
appropriation, implementation of the Adam Walsh bill.
    We know that the FBI was given some time ago, even at the 
dawn of the Internet, the responsibility for dealing with child 
predators on the Internet.
    Could you just tell us what basically are you--are the 
programs you're responsible for the protection of children and 
do you feel that you need more support in this? Because I tell 
you, it just--you know, it seems that there's no end to how 
vile the world can be.
    Mr. Mueller. Well, this is a daunting problem. We could 
probably take all of our agents and still have work to do in 
terms of addressing the exploitation of children in a variety 
of horrific ways.
    I mentioned child prostitution, the task forces that we 
have addressing that. Human trafficking of persons, often 
children, is one aspect of that and you are knowledgeable about 
the FBI's Innocent Images Program which is where much of the 
work is initiated, particularly the international work is 
accomplished out of the task force up in Maryland.
    We currently have almost 270 agents who are working on 
Innocent Images cases. We have a total of 5,300 Innocent Images 
cases which are child pornography, the child predators on the 
Internet. We have on the international task force that we 
established in 2004, we have worked with 47 separate 
investigators from 21 different countries to address child 
pornography and child predators on the Internet.
    Senator Mikulski. Do they come to the Calverton facility 
for training?
    Mr. Mueller. Yes, they come to the Calverton facility and 
work on a task force shoulder to shoulder with the FBI.
    Senator Mikulski. Do they get training there, too?
    Mr. Mueller. Trained, and as we work together, we train 
together, then we work cases together. We recently had a case 
of a group of child predators on the Internet. We arrested 
persons in Australia, the United Kingdom, the United States, 
and other European countries. They had believed that they were 
free from the scrutiny of law enforcement by encrypting their 
files. They had something like 15,000 child pornographic files 
that had been encrypted. This case and it was emblematic of the 
work that we need to do internationally with our counterparts 
to address problems such as this.
    So internationally and domestically, we have put what 
resources we can to address a problem that is growing.
    Senator Mikulski. Well, we want to do all we can for you to 
be supported not only at the Calverton effort but in these task 
forces. You know, if you say to the American people, the 
taxpayer, I mean, they would want us to make this a priority.
    So, we have other questions, but we will submit them for 
the record.
    Senator Shelby, do you have any others?
    Senator Shelby. I have no further questions. I'm just glad 
to hear from the Director.
    Senator Mikulski. Yes, we're glad to hear from you, 
Director. We thank you for your candor and for your forthcoming 
in answering our questions, and we thank you and look forward 
to working with you as we put together both this 2009 
appropriation as well as the supplemental because some of the 
issues will be addressed there.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, the Senators may submit 
additional questions, we ask for the FBI to respond within 30 
days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
                              bullet lead
    Question. More than four months ago, in a letter I sent to you that 
remains unanswered, I expressed my concerns that flawed bullet lead 
analysis done by the FBI for many years may have led to wrongful 
convictions. The National Academy of Sciences issued a report in 2005 
discrediting bullet lead analysis, and the FBI stopped conducting 
bullet lead testing that same year. Over the last two years, however, 
the Justice Department has not taken steps to find or correct the cases 
where it was misused. As a former judge, I am sure you share my fear 
that this faulty forensic evidence may have been introduced in the 
estimated 2,500 cases where it was used. In my letter in November, I 
asked you to provide the Judiciary Committee with the list of cases 
where FBI bullet lead analysis was used, and to advise the Committee 
what steps you've taken to correct any unjust convictions resulting 
from bullet lead analysis.
    Please state whether you have taken any action in response to my 
letter and explain your response.
    Answer. As is discussed in more detail in the response to your 
November 2007 letter to the Attorney General, in 2005 the FBI sent to 
the National District Attorney's Association, the National Association 
of Criminal Defense Lawyers, the Innocence Project, and approximately 
300 agencies letters outlining the FBI's decision to discontinue these 
examinations. The letters were sent so the recipients could take 
whatever steps they deemed appropriate to ensure no one was convicted 
based on inappropriate bullet lead testimony.
    The FBI has committed to review all testimony provided by FBI 
Laboratory personnel in bullet lead cases that resulted in convictions 
in order to determine whether they testified within the scope of the 
science. Because the FBI performed bullet lead examinations for 
approximately 40 years, we cannot readily produce a list of all cases 
in which bullet lead analysis was performed. Because FBI laboratory 
personnel who conducted bullet lead examinations also conducted other 
types of forensic tests, the FBI has to examine all files worked by the 
universe of examiners who conducted bullet lead analysis. That process 
is ongoing. As of mid-May 2008, the FBI had identified approximately 
1,270 cases (covering the period of 1975 to 2004) in which bullet lead 
analyses resulted in ``positive'' results that may possibly have formed 
the basis of trial testimony.
    As the FBI Director has testified, the FBI will be working with the 
Innocence Project (IP) to ensure all appropriate parties are notified. 
Specifically, as the FBI identifies cases in which bullet lead analysis 
was performed, we will provide to the IP the FBI file number, the names 
of the contributor and prosecutor and their contact information, 
contributor and prosecutor file numbers, the FBI Laboratory examiner's 
name, the defendant's name, and the FBI's assessment of the 
appropriateness of the testimony provided. The FBI will also offer the 
IP copies of the transcripts received from prosecutors. By providing a 
dual notification track (that is, notification to both the prosecutor 
and the IP), the FBI is confident that appropriate notification will 
made to any defendant who was or may have been adversely affected by 
inappropriate FBI bullet lead testimony.
    Question. When can I expect a response to my letter?
    Answer. DOJ is completing its response to the letter and will be 
transmitted to your office presently.
    Question. According to press accounts, the FBI agreed in November 
to provide a list of all cases where bullet lead analysis was used to 
the Innocence Project in order to begin working to identify cases where 
there may be problems.
    Please state whether you support this collaborative effort and 
explain your response.
    Answer. In an FBI press release on November 17, 2007, the FBI 
announced that it has undertaken an additional round of outreach, 
analysis, and review efforts concerning bullet lead analysis. This has 
included joint work with the Innocence Project, which has done legal 
research to identify criminal cases in which bullet lead analysis has 
been introduced at trial.
    The Department of Justice, including the FBI, takes this issue very 
seriously, and we are developing procedures to ensure that appropriate 
disclosures are made to the relevant parties. Thereafter, the parties 
involved can make an assessment of the effect of any potentially 
erroneous testimony.
    Question. Has anyone in the Justice Department taken any steps to 
support or oppose this agreement between the FBI and the Innocence 
Project?
    Answer. Please see the response to subpart a, above.

                          UNANSWERED QUESTIONS

    Question. As of May last year, the Justice Department reported to 
the Judiciary Committee that there was only one FBI agent assigned to 
Iraq and one assigned to Kuwait to investigate significant contracting 
fraud. Since May 2007, has the Justice Department assigned more full-
time FBI agents or other federal investigators to work on contracting 
fraud cases in Iraq and Afghanistan? If not, why not?
    Answer. The FBI currently has Special Agents (SAs) deployed in 
Iraq, Afghanistan, and Kuwait to provide full-time support to the 
International Contract Corruption Initiative, which addresses major 
fraud and corruption in the war and reconstruction efforts in Iraq and 
Afghanistan. These deployments are conducted in 120-day rotation cycles 
and SAs work jointly with the Defense Criminal Investigative Service, 
Army Criminal Investigation Command Major Procurement Fraud Unit, 
Special Inspector General for Iraq Reconstruction, and U.S. Agency for 
International Development, who also have agents deployed to address 
this crime problem. The FBI's overseas assignments in direct support of 
this multi-agency initiative are as follows: one SA in Kuwait; one 
Assistant Legal Attache and two SAs in Iraq; and two SAs in 
Afghanistan.
    Question. In November, I sent you a letter expressing my concerns 
that flawed bullet lead analysis done by the FBI for many years may 
have led to wrongful convictions. As you know, the National Academy of 
Sciences issued a report in 2005 discrediting bullet lead analysis, and 
the FBI stopped conducting bullet lead testing that same year. But over 
the last two years, the Justice Department has not taken steps to find 
or correct the cases where it was misused. As a former judge, I am sure 
you share my fear that this faulty forensic evidence may have been 
introduced in the estimated 2,500 cases where it was used. Two months 
ago, I asked you to provide the Judiciary Committee with the list of 
cases where FBI bullet lead analysis was used, and to advise the 
Committee what steps you've taken to correct any unjust convictions 
resulting from bullet lead analysis. When can I expect a response to my 
letter? Have you taken any action in response to my letter?
    Answer. Please see the response to Question 1, above.
    Question. According to press accounts, the FBI agreed in November 
to provide a list of where all bullet lead analysis was used to the 
Innocence Project in order to begin working to identify cases where 
there may be problems. Do you support this collaborative effort? Has 
anyone in the Justice Department taken any steps to support or oppose 
this agreement between the FBI and the Innocence Project?
    Answer. Please see the response to Question 2, above.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan

                         TRIBAL JUSTICE FUNDING

    Question. The Justice Department dedicated 102 Federal Bureau of 
Investigations agents to investigate violent crimes in Indian country 
in 1998. Congress provided funding for an additional 30 agents in 
fiscal year 1999, and an additional 27 agents in fiscal year 2005. As a 
result of these appropriations, there should be 159 FBI agents 
dedicated to violent crime in Indian country. However, there are only 
114 FBI agents dedicated to Indian country today. Can you please 
explain this discrepancy?
    Answer. As of June 2008, there are 104 FBI Special Agents working 
on Indian Country (IC) matters. Of this total, 30 were appropriated in 
fiscal year 1997, 30 in fiscal year 1999, and 10 in fiscal year 2005 
(the FBI's fiscal year 2005 appropriation included 27 positions, 10 of 
which were Special Agents). The remaining 34 Special Agents currently 
working IC matters have been assigned by their respective field offices 
to address specific IC issues.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                       PAY AND BENEFITS OVERSEAS

    Question. What efforts has the Department of Justice taken to 
ensure retention of its best and brightest, particularly in the 
enforcement agencies out in the field and those agents and employees 
working outside the United States?
    Answer. While Department of Justice law enforcement officials 
working outside the United States may be eligible for certain 
additional pay or benefits based on the location, the retention 
incentives available to those employees are the same as the incentives 
available to those located in the United States.
    The FBI continues to use the authorities it received in the 2005 
Consolidated Appropriations Act, some of which expire at the end of 
2009, to better compete with private industry and improve attrition 
rates. These authorities include recruitment, relocation, and retention 
incentives, student loan repayment, and the University Education 
Program. Recruitment bonuses allow the FBI to competitively recruit 
employees who possess special qualifications for hard-to-fill FBI 
positions, relocation bonuses increase the number of employees 
interested in hard-to-fill positions within the FBI by, in effect, 
reducing the employee's relocation costs, and retention allowances are 
used to retain current employees who possess high-level or unique 
qualifications or who fill critical FBI needs. Retention allowances may 
be provided on either an individual or group basis to help the FBI 
retain certain employees or categories of employees, such as 
intelligence analysts and police officers.
    The FBI has also used education benefits to improve the quality and 
job satisfaction of our workforce. For example, in order to improve our 
recruitment and retention of Intelligence Analysts, the FBI repaid 359 
student loans for these employees in fiscal year 2007. The FBI has also 
used the University Education Program to fund tuition expenses for 
current employees seeking to obtain certifications and academic 
degrees, approving payments for 679 participants in fiscal year 2008.
    Question. Is danger pay provided to agents and DOJ employees 
actively working along the Southwest Border?
    Answer. The FBI's Legal Attache (Legat) office in Mexico maintains 
a presence in Mexico City, Guadalajara, and Monterrey, but does not 
maintain a permanent presence along the Southwest Border. Currently, 
neither FBI employees assigned to the Mexico City Legat nor those 
assigned in the United States near the Southwest Border are afforded 
danger pay. It is the FBI's understanding that DEA personnel working in 
Mexico have been eligible to receive a danger pay allowance of 15 
percent of basic pay since approximately 1991. In April 2008 the FBI's 
Mexico City Legat asked FBI Headquarters to consider affording danger 
pay to all FBI personnel in Mexico based on the hostile environment in 
Mexico, including threats from organized crime fugitives, rebels, and 
terrorist groups, as well as street and residential crimes. This 
request is under review.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess 
subject to the call of the Chair.
    Mr. Mueller. Thank you, Madam Chairwoman, Senator.
    [Whereupon, at 3:22 p.m., Wednesday, April 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2009 budget request for programs 
within the subcommittee's jurisdiction.]

                         DEPARTMENTAL WITNESSES

                         DEPARTMENT OF COMMERCE
            National Oceanic and Atmospheric Administration
Prepared Statement of Vice Admiral Conrad Lautenbacher, Jr. (U.S. Navy, 
   Ret.), Under Secretary of Commerce for Oceans and Atmosphere and 

                             Administrator

    Madam Chairwoman and members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration (NOAA). Your continued support for our programs is 
appreciated as we work to improve our products and services for the 
American people. Thank you for the opportunity to testify on the 
President's fiscal year 2009 budget request for NOAA.
    The fiscal year 2009 President's budget supports NOAA's priority to 
advance mission-critical services. The fiscal year 2009 request is $4.1 
billion, which represents a $202 million or 5.2 percent increase over 
the fiscal year 2008 enacted level. This request includes the level of 
resources necessary to carry out NOAA's mission, which is to understand 
and predict changes in the Earth's environment, and conserve and manage 
coastal and marine resources to meet our nation's economic, social and 
environmental needs. At NOAA we work to protect the lives and 
livelihoods of Americans, and provide products and services that 
benefit the economy, environment, and public safety of the nation. 
Before I discuss the details of our fiscal year 2009 budget request, I 
would like to briefly highlight some of NOAA's notable successes from 
the past fiscal year (2007).

                    FISCAL YEAR 2007 ACCOMPLISHMENTS

NOAA is Major Contributor to Nobel Prize-Winning Intergovernmental 
        Panel on Climate Change Reports
    Scientists from NOAA's Earth System Research Laboratory were among 
those sharing in the 2007 Nobel Peace Prize. The scientists were 
recognized for their contributions to the Intergovernmental Panel on 
Climate Change (IPCC). The IPCC was created in 1988 by the World 
Meteorological Organization and the United Nations Environment Program 
to provide regular assessments for policymakers of the scientific, 
technical and socio-economic aspects of climate change. IPCC has 
produced its major assessments every five to six years since 1990.
    NOAA scientists served as contributors to and government reviewers 
of the Fourth IPCC Assessment Report. NOAA's Geophysical Fluid Dynamics 
Laboratory provided model runs that enhanced the projections used in 
the IPCC report.

Magnuson-Stevens Act Implementation
    The Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2007 was signed into law on January 12, 2007. 
The reauthorized Act contains significant new provisions to end 
overfishing, promote market-based approaches to fisheries management, 
improve the science used in fisheries management, improve recreational 
data collection, enhance international cooperation in fisheries 
management, and address illegal, unreported, and unregulated fishing, 
as well as bycatch of protected living marine resources. Especially 
notable is the requirement to establish an annual catch limit for each 
fishery, which for the first time creates a mandate with a timetable to 
end overfishing.

Progress on Next Generation Geostationary Satellite Program
    Geostationary satellites remain the weather sentinels for NOAA. The 
next-generation geostationary satellite series, GOES-R, will provide 
new and improved atmospheric, climatic, solar, and space data. In 2007, 
NOAA revised the management and acquisition strategy for the GOES-R 
program, partnering more closely with NASA to take advantage of each 
agency's technical expertise. In February 2007, the Advanced Baseline 
Imager, the main instrument on GOES-R, completed a key milestone, 
enabling the contractor to begin building the first instrument. 
Throughout 2007, NOAA awarded the three remaining instrument contracts 
for the Solar Ultraviolet Imager, Extreme Ultra Violet and X-Ray 
Irradiance Sensors, and Geostationary Lightning Mapper. These 
instruments will help us to understand and forecast solar disturbances 
as well as track lightning strikes from space.

NOAA's National Weather Service Provides More Specific Warning 
        Information for Severe Weather
    NOAA's National Weather Service (NWS) began issuing more 
geographically specific warnings for tornadoes, severe thunderstorms, 
floods, and marine hazards on October 1, 2007. The new ``storm-based 
warnings'' allow forecasters to pinpoint the specific area where severe 
weather threats are highest, thereby reducing the area warned by as 
much as 70 percent when compared to the previously used county-by-
county warning system. Storm-based warnings are displayed graphically 
and are extremely adaptable to cell phones, PDAs, and the Internet. The 
Emergency Alert System (EAS) is geared toward counties and NOAA Weather 
Radio (NWR) All Hazards will still sound an alarm if there is a warning 
anywhere in a county. However, text and audio messages will provide 
more specific information about the location of the storm in the 
county, and the direction in which it is moving. Storm-based warnings 
will reference landmarks such as highways, shopping centers, and parks, 
and will use directional delimiters to indicate county location.

Fleet Modernization Moves Ahead
    In June 2007, NOAA celebrated the keel laying of NOAA ships BELL M. 
SHIMADA and FERDINAND R. HASSLER in Moss Point, Mississippi. This 
marked the first time NOAA has celebrated this important construction 
milestone for two ships simultaneously. HENRY B. BIGELOW, second of the 
four fisheries survey vessels of the same class being built by VT 
Halter Marine, was commissioned into the fleet in July before beginning 
operations in New England. In September, Phase I of conversion of NOAA 
Ship OKEANOS EXPLORER (formerly USNS CAPABLE) to an ocean exploration 
ship was completed. NOAA ship PISCES was christened in December and 
subsequently launched in Moss Point, Mississippi.

New State-of-the-Art Satellite Operations Facility Officially Opened
    In June 2007, NOAA and the General Services Administration 
officially opened the new state-of-the-art NOAA Satellite Operations 
Facility (NSOF). NSOF is the new home for NOAA's around-the-clock 
environmental satellite operations, which provides data critical for 
weather and climate prediction. NSOF supports more than $50 million of 
high technology equipment, including 16 antennas monitoring the 
operations of 16 on-orbit satellites.

National Water Level Observation Network Upgraded to Real-time Status
    The National Ocean Service (NOS) completed a three-year effort to 
upgrade the technology of its National Water Level Observation Network 
(NWLON). NWLON stations provide mariners, first responders, and the 
public with real-time tide and water-level information. A major benefit 
of the upgrade is that network stations normally equipped to transmit 
water-level and other environmental data at hourly increments via NOAA 
Geostationary Operational Environmental Satellites now transmit data 
every six minutes, thus enabling users to access data more quickly.

NOAA Aids in the Recovery of Fisheries and Fishing Communities Damaged 
        by Hurricanes
    NOAA funded and conducted a number of activities aimed at helping 
Gulf Coast fisheries recover from the devastating impacts of Hurricanes 
Katrina, Rita, and Wilma, which struck the Gulf Coast in 2005. The 
states are using these funds to restore and rehabilitate oyster, 
shrimp, and other marine fishery habitats damaged or destroyed by 
hurricane events, and to conduct cooperative research and monitoring 
and other activities designed to recover and rebuild Gulf of Mexico 
fisheries and fishing communities.

NOAA Weather Radio All Hazards Activities: Meeting the Expectations of 
        the Nation for Weather and All Hazard Warning Information
    NOAA's National Weather Service added 16 broadcast stations to the 
NOAA Weather Radio (NWR) All Hazards network in 2007. In addition to 
achieving 100 percent coverage of high-risk areas, NOAA refurbished 62 
broadcast stations with technology upgrades that significantly improved 
reliability and availability, while decreasing maintenance costs. This 
allows the network to meet expectations of availability as the nation's 
weather and all hazard warning system.
    NWR is a reliable and inexpensive means of communicating weather, 
hazard, and emergency information directly to the public. The network 
infrastructure consists of 986 broadcast stations covering 98 percent 
of the nation's population and has the ability to deliver messages to 
individuals monitoring their own receivers as well as the ability to 
reach millions of listeners and viewers through the Emergency Alert 
System, which is monitored by television and radio license holders. The 
network is required to broadcast to all areas of the United States 
identified as being at high risk of experiencing severe weather and to 
sustain a high level of reliability and maintainability in those areas.

Marine Reserves Established in Channel Island National Marine Sanctuary
    In 2007, NOS established the Federal portion of the marine reserves 
and conservation area network within the Channel Islands National 
Marine Sanctuary. This is the largest network of marine reserves in 
Federal waters in the continental United States. This action 
complements the State of California's established network of marine 
reserves and conservation areas within the State waters of the 
sanctuary in 2003.

Expanding U.S. Tsunami Preparedness
    NOAA's National Weather Service (NWS) is responsible for the 
expansion of the U.S. network of tsunami detection sensors. During 
2007, 14 Deep-ocean Assessment and Reporting of Tsunamis 
(DART<SUP>TM</SUP>) buoys were established: four in the Western Pacific 
Ocean, three off the Pacific Coast of Central America, five in the 
northwestern Pacific Ocean, and two in the North Atlantic Ocean, 
bringing the total number of U.S. DART<SUP>TM</SUP> stations to 34. The 
United States, with NOAA as lead agency, is currently working with 
approximately 70 countries, the European Commission, and over 50 non-
governmental agencies in planning and implementing the Global Earth 
Observation System of Systems (GEOSS), which includes a global tsunami 
warning system. In addition, NWS works with communities to prepare for 
tsunamis through the TsunamiReady<SUP>TM</SUP> Program. As of December 
12, 2007, there are 47 TsunamiReady<SUP>TM</SUP> sites in 10 states, 
Puerto Rico, and Guam. The National Weather Service reached its goal of 
recognizing 10 new TsunamiReady<SUP>TM</SUP> communities in fiscal year 
2007.

First Buoy to Measure Acidification Launched
    The first buoy to directly monitor ocean acidification was launched 
in the Gulf of Alaska. Ocean acidification is a result of carbon 
dioxide absorbed by the ocean. The new buoy, part of a National Science 
Foundation project awarded to PMEL and the University of Washington in 
Seattle, in collaboration with Fisheries and Oceans Canada and the 
Institute of Ocean Sciences in British Columbia, measures the air-sea 
exchange of carbon dioxide, oxygen, and nitrogen gas, in addition to 
the pH (a measure of ocean acidity) of the surface waters. The buoy is 
anchored in water nearly 5,000 meters deep and transmits data via 
satellite. Rising acidity in the ocean could have a detrimental effect 
on ocean organisms, with resulting impacts on ocean life and the food 
chain.

NOAA Ships Arrive at New Home Port in Hawaii
    NOAA ships OSCAR ELTON SETTE, HI'IALAKAI, and KA'IMIMOANA relocated 
to their new home port at Ford Island, Pearl Harbor, Hawaii, heralding 
the permanent presence of NOAA on Ford Island. This was a major 
milestone in the multi-year, multi-phase construction of the NOAA 
Pacific Regional Center, a project to consolidate NOAA programs and 
operations on the island of Oahu into a single facility on Ford Island.

NOAA's Open Rivers Initiative Completes First Projects
    In its first year, NOAA's Open Rivers Initiative completed three 
projects that restored over 30 miles of spawning and rearing habitat 
for migratory fish. The obsolete Brownsville Dam, located on the 
Calapooia River in Oregon, was removed in August 2007, effectively 
eliminating an obstruction to migratory fish and a safety hazard to the 
local human community. In California, two failing and undersized 
culverts were removed, allowing endangered salmon to reach their 
historic spawning and rearing grounds. In collaboration with local 
communities, NOAA's Open Rivers Initiative will continue to restore 
free fish passage to historic habitat by removing obsolete dams and 
barriers that dot the rivers of coastal states.

Delivering Real-Time Data to Help Shellfish Growers
    Shellfish growers in the Pacific Northwest can now get near real-
time water quality data from the System-wide Monitoring Program 
operating at National Estuarine Research Reserves in Alaska, 
Washington, and Oregon. The data are available through telemetering 
capabilities, which measure, receive, and transmit data automatically 
from distant sources. Water quality data can be viewed on a Web site 
jointly sponsored by NOS and the Northwest Association of Networked 
Ocean Observing Systems (http://www.nanoos-shellfish.org/). Water 
quality and weather data are transmitted every 30 minutes via satellite 
from monitoring stations at all 27 National Estuarine Research 
Reserves, providing information to the growing Integrated Ocean 
Observing System (IOOS).

Great Lakes Lab Recognized for ``Green'' Research Vessels
    NOAA's Great Lakes Environmental Research Laboratory (GLERL) 
converted a fleet of research vessels from petroleum-based to 100 
percent bio-based fuel and lubricants, earning a White House Closing-
the-Circle Award in the green purchasing category. GLERL operates 
research vessels throughout the Great Lakes region as scientific 
platforms for ecosystems research and other NOAA interests in the area. 
The conversion was a result of a call for ``greening'' of Government 
agencies through waste reduction, recycling, and the use of 
environmentally friendly and sustainable products including bio-
products.

               FISCAL YEAR 2009 BUDGET REQUEST HIGHLIGHTS

Supporting the President's Ocean Initiative
    Building on last year's investment in Ocean Initiative related 
activities, the fiscal year 2009 President's request includes new 
increases of $49.1 million for NOAA over the fiscal year 2008 
President's request to support the President's Ocean Initiative. This 
ocean initiative includes more funding to advance ocean science and 
research; protect and restore marine and coastal areas; and ensure 
sustainable use of ocean resources.
    New investments in ocean science are aimed at monitoring and better 
understanding marine ecosystems. Increased funding of $7.0 million is 
included for the Integrated Ocean Observing System (IOOS) to support 
Data Management and Communications, Regional Observations, and the Data 
Assembly Center (DAC), which delivers real-time, quality controlled 
data from NOAA and regional observing systems. An increase of $1 
million is requested to manage the escalating size and quantity of 
hydrographic datasets collected by NOAA and other providers. This 
increase in funding will help NOAA update the nautical charts provided 
to mariners navigating on U.S. waters in a more timely fashion. In 
addition, NOAA is requesting $2 million in increased funding for the 
PORTS program, to improve and expand the delivery of real-time and 
forecasted navigation information. A recent economic benefits study of 
the Houston/Galveston PORTS program, released in May 2007, showed that 
the program brought the Houston/Galveston area significant economic 
benefits and has helped to achieve a 50 percent reduction in 
groundings.
    Projects to protect and restore valuable marine and coastal areas 
include funding of $4 million to implement the newly enacted Marine 
Debris Research, Prevention, and Reduction Act. This funding will allow 
NOAA to provide competitive grants and to develop the first Federal 
clearinghouse on marine debris. NOAA also requests increased funding of 
$5.4 million for the Open Rivers program to restore stream miles of 
fish habitat through watershed-level projects with multiple fish 
passage opportunities.
    Finally, the budget provides support to ensure sustainable access 
to seafood through the development of offshore aquaculture and better 
management of fish harvests. In direct support of new provisions of the 
MSRA, and to provide better management of fish harvests, NOAA requests 
increased funding of $31.8 million over the fiscal year 2008 enacted 
level. Of this amount, $5.1 million is requested to enhance the 
independent peer-review process for scientific data required to 
appropriately set the annual catch limits for all managed fisheries; 
$8.5 million will initiate and expand existing sampling programs and 
management procedures in order to end overfishing by 2011, as mandated 
by the MSRA; and $3.0 million will complete the final implementation 
phase of a new registry system for recreational fishermen and for-hire 
fishing vehicles. An additional $1.5 million increase is requested in 
support of deep sea coral research, allowing NOAA to begin identifying, 
understanding, and providing the information needed in order to protect 
deep coral habitats.

Sustaining Critical Operations
    As always, I support NOAA's employees by requesting adequate 
funding for our people, infrastructure, and facilities. NOAA's core 
values are people, integrity, excellence, teamwork, ingenuity, science, 
service, and stewardship. Our ability to serve the nation and 
accomplish the missions outlined below is determined by the quality of 
our people and the tools they employ. Our facilities, ships, aircraft, 
environmental satellites, data-processing systems, computing and 
communications systems, and our approach to management provide the 
foundation of support for all of our programs. Approximately $42.0 
million in net increases will support our workforce inflation factors, 
including $37.5 million for salaries and benefits and $4.5 million for 
non-labor-related adjustments, such as fuel costs.
    This year we have focused our increases on satellite continuity and 
operations and maintenance support for our aircraft and NOAA vessels. A 
funding increase of $242.2 million is requested to continue support of 
the Geostationary Operational Satellites (GOES) program. GOES 
satellites provide critical atmospheric, oceanic, climatic, and solar 
products supporting weather forecasting and warnings, climatologic 
analysis and prediction, ecosystems management, and safe and efficient 
public and private transportation. This increase will be used for 
continued systems engineering, development of satellite instruments, 
risk reduction activities, and transition to the systems-level 
acquisition and operations phase of the program.
    Funding of $6.1 million is also requested in support of a Major 
Repair Period for the RAINIER, NOAA's most productive hydrographic 
vessel. At 39 years old, the RAINIER requires a major capital 
investment in its mechanical and electrical systems in order to 
maintain its current operational tempo and reduce risks to personnel, 
property, and mission capability.
    Finally, NOAA requests an increase of $4.0 million in support of 
additional flight hours and operations and maintenance for our 
aircraft. The requested funds will provide an additional 1,295 flight 
hours for hurricane research, surveillance, and reconnaissance, as well 
as for other research and forecasting requirements. NOAA also asks this 
year for restoration to several of our base programs, most notably in 
the National Weather Service and the National Marine Fisheries Service. 
These requested increases in our base accounts will allow NOAA to 
sustain on-going programs and projects at the levels recommended in the 
fiscal year 2008 President's budget.

Improving Weather Warnings & Forecasts
    Severe weather events cause $11 billion in damages and 
approximately 7,000 weather-related fatalities yearly in the United 
States. Nearly one-third of the U.S. economy is sensitive to weather 
and climate. Realizing this, NOAA seeks to provide decision makers with 
key observations, analyses, predictions, and warnings for a variety of 
weather and water conditions to help protect the health, life, and 
property of the United States and its economy. Landfalling hurricanes 
are one of the most physically destructive and economically disruptive 
extreme events that impact the United States, often causing billions of 
dollars of damage in their wake. In fiscal year 2009, NOAA will 
continue to improve our hurricane research and modeling capabilities 
with a requested increase of $4.0 million for operational support and 
maintenance of the next-generation Hurricane Weather Research and 
Forecasting model and storm surge prediction system, as well as 
accelerated improvements to that system. Increased funding of $3.0 
million will support the operations and maintenance of 15 hurricane 
data buoys in the Caribbean, Gulf of Mexico, and the Atlantic Ocean, 
enhancing our real-time hurricane storm monitoring and observations. 
NOAA also continues to improve and maintain our weather warning 
infrastructure, with requested funding of $6.6 million to upgrade the 
Advanced Weather Interactive Processing System, the nation's weather 
and flood warning system. Increased funding of $4.8 million will be 
used to upgrade twelve NOAA Wind Profilers and to perform a tech-
refresh on this twenty-year-old radar system. Finally, NOAA is 
requesting $2.9 million in increased funding for modernization of the 
NOAA Weather Radio network.

Climate Monitoring & Research
    Society exists in a highly variable climate system, and major 
climatic events can impose serious consequences on society. Preliminary 
estimates of the impact of the severe drought which affected the Great 
Plains and the Eastern United States throughout 2007 are in the range 
of $5 billion, with major reductions in crop yields and low stream and 
lake levels. Continued drought and high winds in the Western United 
States in 2007 resulted in numerous wildfires, with 3,000 homes and 
over 8.9 million acres burned, and at least 12 deaths. The fiscal year 
2009 budget request contains investments in several programs aimed at 
increasing our predictive capability, enabling NOAA to provide our 
customers (farmers, utilities, land managers, weather risk industry, 
fisheries resource managers and decision makers) with assessments of 
current and future impacts of climate events such as droughts, floods, 
and trends in extreme climate events. NOAA continues to build a suite 
of information, products, and services that will enable society to 
respond to changing climate conditions. In fiscal year 2009, NOAA will 
support the critical National Integrated Drought Information System 
with increases of $2 million to develop and bring into operation by 
fiscal year 2010 the next-generation Climate Forecast System, leading 
to improved climate forecasting products. An increase of $74 million 
will be used to develop Clouds and the Earth's Radiant Energy System 
(CERES) and Total Solar Irradiance Sensor (TSIS) climate sensors to 
preserve decades long climate data records. The CERES sensor will 
measure the Earth's radiation budget, an essential measurement for 
determining the causes of climate variability and change. The TSIS 
sensor measures the total energy of the sun falling on the Earth, a 
measurement used to identify and isolate natural solar variations that 
impact climate in contrast to other factors, such as human influences 
on climate.

Critical Facilities Investments
    The fiscal year 2009 President's budget request also includes 
important increases for critical facilities, necessary to provide a 
safe and effective working environment for NOAA's employees.
    For fiscal year 2009, NOAA will concentrate their modernization 
efforts on three main projects. NOAA requests an increase of $40.2 
million for the continued construction of the new Pacific Region Center 
on Ford Island in Honolulu, Hawaii. This increase in funding will 
support the continued construction and renovation of two buildings, 
enabling NOAA to reduce expenditures for rent and relocate operations 
from their current location in the deteriorating Kewalo Basin and Dole 
Street Lab Facilities. An increase of $12.1 million will complete the 
design and initial preparations for a replacement facility for the 
Southwest Fisheries Science Center. Finally, $11.7 million is requested 
to support the installation of a semi-permanent replacement structure 
for the at-risk Operations Complex at the NESDIS Command and Data 
Acquisition Station in Fairbanks, Alaska. The current facility is at 
risk to experience a major structural failure in the next five years. 
The requested funding will ensure that NOAA maintains crucial mission 
operations support for the polar-orbiting satellites, as well as backup 
support for others.

                               CONCLUSION

    NOAA's fiscal year 2009 budget request provides essential new 
investments in our priority areas while maintaining critical services, 
reflecting NOAA's vision, mission, and core values. The work NOAA 
accomplished in 2007 impacted every U.S. citizen. We will build on our 
successes from last year, and stand ready to meet the challenges that 
will surface in fiscal year 2009 and beyond. NOAA is dedicated to 
enhancing economic security and national safety through research and 
accurate prediction of weather and climate-related events, and to 
providing environmental stewardship of our nation's coastal and marine 
resources. That concludes my statement, Mr. Chairman. Thank you for the 
opportunity to present NOAA's fiscal year 2009 budget request. I am 
happy to respond to any questions the Committee may have.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                     NPOESS: CERES AND TSIS SENSORS

    Question. Although the budget includes funding for the restoration 
of the CERES and TSIS climate sensors, it has not been decided whether 
TSIS would fly on NPOESS or another satellite.
    When will a decision be made regarding which satellite TSIS will 
fly on?
    Answer. NOAA is completing a study with NASA to recommend whether 
TSIS would fly on NPOESS or another satellite. The results will be 
briefed at the next NPOESS Executive Committee (EXCOM) meeting, 
currently planned for May 2008. A decision on the platform for TSIS 
will be made shortly thereafter.
    If TSIS is placed back on NPOESS doesn't it just add more 
complexity and risk to NPOESS which was the very reason it was removed?
    Answer. The NPOESS Integrated Program Office (IPO) has concluded a 
study which determined that integrating TSIS on the first NPOESS 
satellite (C1) would not pose an appreciably higher risk to the overall 
NPOESS program should the EXCOM decide to manifest TSIS on C1.
    It is important to note that the 2006 decision to remove several 
sensors from NPOESS was made not only to reduce overall program risk, 
but also to address significant cost over-runs. The latter is not an 
issue since funding for building and adding TSIS would be coming from 
outside the NPOESS program. This helps make adding TSIS to (C1) a 
feasible option.
    The study also determined that the data requirements to command the 
TSIS instrument, and to transport the data to the appropriate ground 
processing location, are well-understood and would not add risk to the 
NPOESS command and control and data handling systems. However, since 
the priority for C1 is operational weather data continuity, there is a 
clear understanding that if a decision is made to fly TSIS on C1, the 
TSIS instrument would have to be delivered with an adequate lead time 
for integration onto the C1 spacecraft to avoid jeopardizing the 2013 
launch date. If TSIS were not delivered within this timeframe, C1 could 
potentially launch without TSIS in order to maintain operational 
weather continuity.

                     VIIRS CONTRACTOR DEFICIENCIES

    Question. In discussing the recent delays caused by the VIIRS 
issues Admiral Lautenbacher stated that he was ``extremely disappointed 
with the pace of the contractor in analyzing and closing potential 
quality, workmanship, and testing issues in the VIIRS program.''
    Could you provide specific examples of what he meant by those 
comments?
    Answer. Vice Admiral Lautenbacher's comments were based on poor 
performance of the NPOESS contractors in resolving workmanship and 
design problems that arose during the initial phases of the test 
program, current technical issues, and independent assessments of 
future work required. A summary of the key issues is provided below:
  --Insufficient time had been scheduled for test preparations;
  --Insufficient time had been scheduled to review the data generated 
        from the test program;
  --Insufficient time had been scheduled to resolve problems 
        highlighted by the test program;
  --Excessive use of jumper (White) wires;
  --Excessive number of Engineering Failure Reports (EFRs) remained 
        open after completion of ambient phase; and
  --Inability to determine the root cause of the power supply anomaly.
    Question. What is NOAA doing to address these contractor 
deficiencies?
    Answer. In addition to addressing potential quality and or 
workmanship deficiencies on a case by case basis, the NPOESS Program 
Executive Officer, a NOAA Senior Executive, is conducting bi-monthly 
senior executive level reviews with the prime contractor and the sub-
contractor. These executives monitor progress and ensure corporate best 
practices and resources are being applied to the program. The NPOESS 
Executive Committee (EXCOM) directed the NPOESS contractors to increase 
management oversight at the VIIRS facility. In addition to the above 
actions that were given at the January 16, 2008 EXCOM meeting, the 
following steps are being taken by the Government team:
  --In-plant oversight has been increased.
  --Independent review of the test schedule for VIIRS has continued.
  --Weekly reviews of all open/unresolved issues are being conducted.

                    OCEAN SURFACE VECTOR WINDS DATA

    Question. I recently read in Space News that NOAA was in 
discussions with the Chinese and Indian government's to gain access to 
their satellite data for ocean surface winds.
    Answer. That is correct. NOAA has enjoyed a longstanding working 
relationship with the Indian and Chinese space agencies. NOAA is 
working though our respective Embassies in Beijing and New Delhi to 
seek timely access to surface vector wind (both speed and direction) 
data from satellite scatterometers that the Chinese State Oceanic 
Administration and the Indian Space Research Organization plan to 
launch within the next two years.
    Question. Why do we have to go overseas for our weather data?
    Answer. NOAA leverages data from international partners wherever 
possible so that we can meet our higher priority needs for 
environmental observations within our budget constraints. Currently, 
there is no funded U.S. satellite in development that would carry a 
scatterometer capable of providing similar observations in the post-
QuikSCAT era, so we are seeking access to any available observations 
from all sources.
    Question. By relying on another government's satellite will we not 
have reliability and data quality concerns?
    Answer. Our international partnership agreements include provisions 
to work with our foreign partners to achieve the greatest reliability 
and data quality possible. For example, NOAA is working with European 
Organisation for the Exploitation of Meteorological Satellites 
(EUMETSAT) and has been processing and evaluating vector winds from 
EUMETSAT's MetOp mission since its launch in late 2006. MetOp is 
nearing the end of its post launch testing and will be providing wind 
data for operational use shortly. However, while the reliability and 
quality of the MetOp Advanced Scatterometer (ASCAT) data are not a 
concern, it only provides 60 percent of the coverage that QuikSCAT 
currently offers.
    Additionally, QuikSCAT is approaching 10 years of operations. In 
light of these factors, NOAA is seeking other sources of ocean vector 
winds data. NOAA is in discussions with China and India seeking access 
to ocean vector winds data once the scheduled Chinese and Indian 
satellites have been launched. While neither China nor India have flown 
a scatterometer instrument in the past, we can anticipate a lengthy 
test and evaluation phase, during which there could be reliability and 
data quality concerns. However, since there are no funded U.S. 
satellites that would carry a scatterometer capable of providing 
observations similar to QuikSCAT in the post-QuikSCAT era, NOAA is 
seeking access to similar observations from all sources to help meet 
the need for these data.
    Question. What would we do if after signing an agreement, the 
Chinese or Indians decide to renege and not provide the data? Can we 
afford this risk?
    Answer. NOAA has had longstanding working relationships with China 
and India with full and open exchange of satellite data. NOAA will 
ensure that the agreements are directly related to protecting lives and 
property or advancing our understanding of science. NOAA will work 
closely with the U.S. Department of State to ensure that the necessary 
provisions are included in the agreements to ensure uninterrupted 
access to these data.
    Since there are no funded U.S. satellites in development that would 
carry a scatterometer capable of providing observations similar to 
QuikSCAT in the post-QuikSCAT era, NOAA is seeking access to similar 
observations from all sources. Given this situation, NOAA will have to 
assume some risk associated with a dependence on foreign sources to 
help meet the requirement for these data.
    Question. The fiscal year 2009 request includes $3 million to study 
this issue but this seems like a critical component that deserves more 
than a study that once completed will likely tell us we need another 
satellite.
    Answer. Within the President's fiscal year 2009 budget request for 
NOAA there is $3 million to explore space and non space-based 
alternatives for these data and to conduct a comprehensive cost-benefit 
analysis on all of the alternatives. Results from the fiscal year 2009 
studies will help us more clearly define the follow-on capabilities 
that we should invest in and the specific benefits of those 
investments.
    Question. What are the current cost estimates for replacement 
Quikscat type satellite that relies on the same technologies (i.e. the 
exact same as we have)? What would a replacement cost that has newer 
technology (i.e. an Advanced Quikscat)?
    Answer. The NOAA Office of Systems Development is conducting an 
analysis of alternatives for acquiring ocean surface wind vector 
measurements. This analysis is still being developed and will include 
an evaluation of cost, schedule, and performance trades for a number of 
options. NOAA expects this analysis to be completed by this summer.

             VACANCY RATES AT THE NATIONAL WEATHER SERVICE

    Question. What is the vacancy rate at the National Weather Service?
    Answer. At the halfway mark through fiscal year 2008 (though March 
31, 2008), the FTE lapse rate (job vacancy rate) for the NWS is 5.1 
percent. However, the lapse rate for the Continental United States 
(CONUS) field positions, which includes Regional Headquarters (HQ), 
River Forecast Centers, and Weather Forecast Offices, is only 2.9 
percent.
    Question. What percentage of positions is being held vacant due to 
lack of funds?
    Answer. For fiscal year 2008, approximately 113 additional 
positions are projected to be held due to a lack of labor funding, 
primarily by holding NWS HQ positions vacant.
    Background: ``Labor lapse rates'' are a function of the time from 
when a field or HQ vacancy occurs to the time that position is filled. 
They can fluctuate based on job location, job requirements/duties, NOAA 
Workforce Management staffing workload and general job market 
conditions. Due to the current housing slump, the lapse rate for CONUS 
field positions is projected to be higher in fiscal year 2008.
    Question. Is the fiscal year 2009 request sufficient to eliminate 
these vacancies and fill all operational positions in a timely manner?
    Answer. Yes. The fiscal year 2009 requested restoration of $5.8 
million in Local Warnings & Forecasts (LWF) funding and $233,000 in 
Central Forecast Guidance (CFG), combined with full funding of our 
adjustments to base (ATBs) including the federal pay raise, will be 
sufficient to address these needs.
    Question. How much additional funding would be necessary to 
accomplish that?
    Answer. Please see response to the previous question; no additional 
funding is required.

                     COORDINATION OF OCEAN RESEARCH

    Question. As the lead federal agency on oceans, how does NOAA 
coordinate its efforts with NSF's research program? With other federal 
agencies?
    Answer. As evidenced by the President's establishment of the 
cabinet-level Committee on Ocean Policy (COP, created through Executive 
Order 13366 EO), the United States has an interagency approach to 
advancing ocean research. The COP provides a framework to coordinate 
the ocean and coastal related activities (including research) of over 
20 federal agencies that administer 140 laws. In addition, the EO 
mandated coordination among federal agencies with coordination and 
consultation with state, tribal and local governments; the private 
sector; foreign governments; and international organizations. NOAA 
believes that this structure has demonstrated progress on ocean 
leadership and coordination. As directed by the Oceans Act of 2000, the 
U.S. Ocean Action Plan is the President's response to the Final Report 
of the U.S. Commission on Ocean Policy. The implementation of the Ocean 
Action Plan through the coordinated interagency structure has begun to 
improve federal capacity to integrate research across jurisdictions at 
the federal, state, and non-governmental level. This new governance 
structure is still young but the Administration is committed to its 
success.
    NOAA continues to lead national ocean-related activities within the 
new, coordinated ocean governance structure outlined above. 
Specifically, NOAA has taken an active leadership role within the COP, 
the Interagency Committee on Ocean Science and Resource Management 
Integration (ICOSRMI), the Joint Subcommittee on Ocean Science and 
Technology (JSOST), and the Subcommittee on Integrated Management of 
Ocean Resources (SIMOR). NOAA serves as co-chair on both the JSOST and 
SIMOR. The National Science Foundation (NSF) also serves as a co-chair 
with NOAA on the JSOST, thereby increasing interagency coordination. 
NOAA and NSF leadership are engaged in numerous task teams under JSOST 
and SIMOR bodies to guide the successful execution of activities and to 
build strong collaboration with our sister agencies.
    Together, as co-chairs of the JSOST, NOAA and NSF led the 
development of Charting the Course for Ocean Science and the Ocean 
Research Priorities Plan and Implementation Strategy (Charting the 
Course for Ocean Science), a major milestone in federal coordination of 
ocean research. Charting the Course for Ocean Science describes the 
first ever national ocean research priorities that focus on the most 
compelling issues in key areas of interaction between society and the 
ocean. After extensive public participation, including public workshops 
and public comments, Charting the Course for Ocean Science provides 
guidance on how the various ocean science sectors (government, 
academia, industry, and non-government entities) can and should be 
engaged, individually or through partnerships, to address the areas of 
greatest research priority and opportunity. Charting the Course for 
Ocean Science identifies 21 recommendations for science and research 
needed to support six overarching societal objectives, and puts forward 
four near-term priorities.
    The Administration is now actively engaged in implementing Charting 
the Course for Ocean Science. The fiscal year 2008 President's budget 
requested $40 million ($20 million for NOAA, $17 million for NSF, and 
$3 million for USGS) to begin implementation of the four near-term 
priorities identified in Charting the course for Ocean Science 
(Assessing Meridional Overturning Current Variability: Implications for 
Rapid Climate Change (AMOC); Comparative Analysis of Marine Ecosystem 
Organization (CAMEO); Sensors for Marine Ecosystems; and Forecasting 
the Response of Coastal Ecosystems to Persistent Forcing and Extreme 
Events). The fiscal year 2008 appropriations provided NOAA and other 
agencies a portion of the $40 million ($11.25 million). For NOAA in 
fiscal year 2008, the Office of Oceanic and Atmospheric Research has 
committed $3 million to AMOC. NOAA's National Marine Fisheries Service 
(NMFS) issued a call for CAMEO proposals which will be completed at the 
end of the fiscal year 2008 and will result in projects available for 
funding by NMFS and NSF in fiscal year 2009. The administration 
believes that all four priorities are important and as such NOAA is 
taking steps to address the Sensors for Marine Ecosystems and 
Forecasting the Response of Coastal Ecosystems to Persistent Forcing 
and Extreme Events priority areas. Activities planned for the near-term 
priorities are consistent with the NOAA Five-Year Research Plan, and 
all of the near-term priorities are areas in which NOAA has significant 
programmatic responsibilities.
    In the President's fiscal year 2009 budget, NOAA requests $20 
million to implement the four near-term priorities identified in 
Charting the Course for Ocean Science ($5 million for each near-term 
priority). NOAA is committed to working with the NSF, other agencies, 
and our partners to implement the priorities in Charting the Course for 
Ocean Science.
    Finally, the Under Secretary of Commerce for Oceans and Atmosphere 
and the Director of the National Science Foundation jointly submit a 
comprehensive annual report to the House Committee on Resources and 
Science and the Senate Committee on Commerce, Science and 
Transportation on how the oceans and coastal research activities of 
NOAA and NSF will be coordinated (in compliance with Section 9 of 
Public Law 107-299). The report describes in detail any overlapping 
ocean and coastal research interests between the agencies and specifies 
how such research interests will be pursued by the programs in a 
complementary manner. This year's annual report is currently under 
administrative review.

                               FUEL COSTS

    Question. NOAA operates a fleet of 21 ships with the price of oil 
above $100 a barrel. How has this increase in fuel costs impacted the 
amount of science that can be conducted? When you prepared your budgets 
what was your assumption for fuel costs?
    Answer. Answer. At the time of our fiscal year 2009 budget 
development, NOAA projected fuel to cost $2.47 per gallon. Today, fuel 
costs are averaging nearly $3.17 a gallon. As an example of the 
challenges we are facing, in January 2008, one ship paid over $4 per 
gallon to refuel at a foreign port under a DOD contract. Half way 
through fiscal year 2008, with diesel fuel reaching record highs and 
averaging over $3 a gallon, our projection for fiscal year 2009 fuel 
prices shows a full-year average cost of $3.66 per gallon.
    At $2.47 per gallon, we expected to perform 3,390 days of science 
in fiscal year 2009; at $3.66, we can only perform 2,600 days of 
science--a reduction of 790 days or a 23 percent decrease.
    Rising fuel prices have also impacted NOAA's ability to charter 
days at sea. The day rate to charter both UNOLS and commercial ships 
has increased due to the rise in fuel costs. For example, UNOLS' RV 
REVELLE's fiscal year 2007 day rate was $26,200/day. As of March, 2008, 
this rate is now $32,000/day, a 22 percent increase. Other UNOLS 
vessels of the same class have also correspondingly increased in their 
day rates.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

                    ``JOHN C. COBB'' DECOMMISSIONING

    Question. I have been told that NOAA plans to decommission the NOAA 
fishery survey vessel JOHN C. COBB this year.
    What are NOAA's plans to replace this vessel?
    Answer. NOAA Fisheries Service is currently undertaking a 
comprehensive analysis of Southeast Alaska mission requirements that 
will address present and future MSRA mandated responsibilities. 
Potential procurement and/or long-term lease of suitable charter 
vessels to support NOAA's mission will be considered.
    Question. If this vessel is decommissioned does the fiscal year 
2009 budget request contain enough funding to contract out all of the 
surveys currently undertaken by the COBB in Alaska?
    Answer. NOAA's base funding contains $500,000 in fiscal year 2009 
to charter vessels to meet survey requirements in Southeast Alaska. 
This funding would be used to charter a vessel (or vessels) with 
capabilities similar to the COBB for work primarily in Southeast 
Alaska.

                  PACIFIC COASTAL SALMON RECOVERY FUND

    Question. The President's fiscal year 2009 budget calls for a 
drastic reduction in funding for the Pacific Coastal Salmon Recovery 
Fund.
    This program has been valuable in my State to ensure the health of 
salmon populations, and to mitigate the impacts of harvest reductions 
imposed by the Pacific Salmon Treaty on Alaska fisheries and coastal 
communities.
    How will the reduction in funding impact these efforts?
    Answer. The President's fiscal year 2009 budget requests $35 
million for Pacific Coastal Salmon Recovery Fund activities. The funds 
will be distributed under a competitive process between the eligible 
States of Washington, Oregon, California, Idaho and Alaska and Coastal 
and Columbia River Tribes.
    The funds will be distributed based on Congressional authorization 
direction for the funds--salmon habitat conservation and restoration, 
salmon stock enhancement, and salmon research and related activities--
and the following three program priorities: (1) Recovery and 
conservation of salmon and steelhead that are listed as threatened or 
endangered, or identified by a state as at-risk or to be so-listed, (2) 
Maintenance of salmon and steelhead populations necessary for exercise 
of tribal treaty fishing rights or native subsistence fishing, and (3) 
Habitat protection and restoration for salmon and steelhead. All funds 
distributed to State entities will require a 33 percent match of non-
federal funds. Under the competitive process in fiscal year 2009 the 
State of Alaska will be eligible to receive funds. The amount Alaska 
will receive will depend on how the above listed criteria are addressed 
in grant applications.
                                 ______
                                 
                Question Submitted by Senator Judd Gregg

                                 CICEET

    Question. VADM Lautenbacher, as you know, the Cooperative Institute 
for Coastal and Estuarine Environmental Technology (CICEET) is a 
partnership of the National Oceanic and Atmospheric Administration 
(NOAA) and the University of New Hampshire (UNH). CICEET is a valuable 
national resource that is making a difference in many coastal 
jurisdictions through its close coordination with the National 
Estuarine Research Reserve System.
    With my support, CICEET was established in 1997 to develop tools 
for clean water and healthy coasts nationwide. Through its nationally 
competitive, peer reviewed program, CICEET has funded development and 
demonstration of dozens of field ready technologies--with many more in 
the pipeline--that address coastal resource problems in three ways: 
tools to detect pollution, tools to enhance recovery, and tools to 
prevent pollution impacts.
    This year, the Office of Management and Budget elected to take 
CICEET out of the President's budget. Given the over ten years of 
Congressional support, an opportunity now exists for NOAA to make 
explicitly clear that CICEET is a core NOAA activity, and fund it 
directly out of its budget.
    Could you please provide a plan for how CICEET will be funded in 
fiscal year 2009 and beyond?
    Answer. The Administration has proposed a $5.2 million competitive 
research program to develop new technology to monitor coastal and 
estuarine environments and address coastal management challenges 
through the National Estuarine Research Reserves System. CICEET/UNH as 
well as previous CICEET grant recipients will be eligible to compete 
for funding through the NERRS competitive research program.
                                 ______
                                 
                      NATIONAL SCIENCE FOUNDATION

        Prepared Statement of Dr. Arden L. Bement, Jr., Director

    Chairwoman Mikulski, Ranking Member Shelby, and Members of the 
Subcommittee, I am pleased to present the National Science Foundation's 
budget for the 2009 fiscal year.
    The National Science Foundation (NSF) proposes a fiscal year 2009 
investment of $6.85 billion to advance the frontiers of research and 
education in science and engineering. Our budget request includes an 
increase of $789 million--or 13 percent--over the current fiscal year 
2008 amount. This increase is necessary to put NSF back on the course 
that was charted by the President's American Competitiveness Initiative 
(ACI) and by the America COMPETES Act. This year's budget reflects the 
Administration's continued resolve to double overall funding for the 
ACI research agencies within 10 years.
    An investment in the National Science Foundation is a direct 
investment in America's economic security. In fact, without a solid 
basic research foundation for our high-tech economy, no economic 
security is possible. Basic research underpins all of the technology 
that constitutes the lifeblood of today's global market. America's 
sustained economic prosperity is based in part on technological 
innovation resulting from previous fundamental science and engineering 
research. Innovation and technology are engines of the American 
economy, and advances in science and engineering provide the fuel.
    While the United States still leads the world in its level of 
public and private R&D investment, our counterparts around the globe 
are well aware of the importance of funding R&D. A string of recent 
reports have found evidence that China is rapidly accruing global 
technological standing, including an OECD finding that China was set to 
become the second-highest investor in R&D among world nations in 2006, 
behind only the United States.\1\ \2\ \3\ Over the last two decades, 
U.S. federal support of research in the physical sciences, mathematics, 
and engineering has been stagnant when adjusted for inflation. As a 
percentage of GDP, the U.S. federal government has halved its 
investment in physical science and engineering research since 1970. 
Conversely, the Chinese government has more than doubled its GDP 
percentage expenditure in R&D since 1995.\3\
---------------------------------------------------------------------------
    \1\ http://www.oecd.org/document/26/
0,2340,en_2649_201185_37770522_1_1_1_1,00.html.
    \2\ http://www.tpac.gatech.edu/hti2007/HTI2007ReportNSF_012208.pdf.
    \3\ http://www.nsf.gov/statistics/nsf07319/pdf/nsf07319.pdf.
---------------------------------------------------------------------------
    More than a dozen major studies have now concluded that a 
substantial increase in federal funding for basic scientific research 
is critical to ensure the preeminence of America's scientific and 
technological enterprise.
    Just recently, Norman Augustine, former CEO of Lockheed Martin, 
released a follow-up to ``The Gathering Storm'' report entitled, ``Is 
America Falling Off the Flat Earth?'' His message is clear: ``Unless 
substantial investments are made to the engine of innovation--basic 
scientific research and development--the current generation may be the 
first in our country's history to leave their children and 
grandchildren a lower sustained standard of living.'' \4\
---------------------------------------------------------------------------
    \4\ Augustine, Norman. Is America Falling off the Flat Earth? 
National Academies Press.
---------------------------------------------------------------------------
    For over fifty years, NSF has been a steward of the nation's 
science and engineering enterprise. NSF investments in discovery, 
learning, and innovation have been important to increasing America's 
economic strength, global competitiveness, national security and 
overall quality of life.
    With its relatively small size, NSF delivers an enormous ``bang for 
the buck'' of federal government research and development (R&D) 
investment. NSF represents just four percent of the total federal 
budget for research and development, but accounts for a full fifty 
percent of non-life science basic research at academic institutions. 
NSF is the research funding lifeline for many fields and emerging 
interdisciplines at the frontiers of discovery. In fact, NSF is the 
only federal agency that supports all fields of basic science and 
engineering research.
    NSF relies on a merit-based, competitive process that is critical 
to fostering the highest standards of excellence and accountability--
standards that have been emulated at other funding agencies around the 
world.

                    NSF SUPPORTS AMERICAN INNOVATION

The Foundation of Innovation
    NSF often funds a technology in its earliest stages, frequently 
before other agencies or industries get involved. NSF funding was 
involved in the developmental phase of the technology used in magnetic 
resonance imaging (MRI) now ubiquitous in diagnostic medicine, the 
research that led to the development of silicon-coated glass used in 
flat panel displays, and the early investigations that led to green and 
blue light-emitting diodes used in cell phone displays and traffic 
lights. In 1952, Caltech professor Max Delbruck used one of NSF's first 
grants to invent molecular biology techniques that enabled one of his 
students, James Watson, to discover the molecular structure of DNA, and 
another Nobel laureate, David Baltimore, to unravel some of its 
mysteries.
    In a more recent example, NSF CAREER awardee Jay Keasling, now the 
head of the NSF-sponsored Synthetic Biology Engineering Research Center 
at the University of California-Berkeley, and two postdoctoral 
researchers from his lab founded Amyris, a company that is taking a 
revolutionary approach to chemical manufacturing by harnessing 
metabolic processes in microorganisms. Through genetic engineering, the 
researchers ``program'' the microbes to churn out useful chemicals, 
bypassing traditional, more expensive methods. Amyris has engineered a 
strain of yeast that can produce large quantities of artemisinic acid, 
a precursor to a compound found naturally in a plant that fights 
malaria but is currently in short supply. Amyris is also developing a 
fermentation process to deliver a biofuel gasoline substitute. NSF 
funding of the early research conducted at Berkeley enabled the 
discoveries that led to this promising new company, named 2007 
``Business Leader of the Year'' by Scientific American magazine.
    NSF as an agency is itself the origin of transformative practices. 
One new NSF innovation is Research.gov, which is fulfilling our vision 
of a seamless interface between government funding agencies and the 
investigators we support. Research.gov is a one-stop shop, where 
researchers can go to manage their existing portfolio of grants and 
explore new opportunities. Research.gov is a tool that streamlines the 
process of applying for federal grants, making it easier and more cost-
effective for the federal government to serve its customers.

Educating Tomorrow's Workforce
    Beyond all of our efforts to advance the frontiers of knowledge and 
spur innovation, NSF is dedicated to educating and training the 
nation's skilled labor force. NSF plays a role in science, technology, 
engineering, and math (STEM) education at every educational level. Our 
contribution to education may ultimately be NSF's most profound and 
meaningful legacy.
    The scientists, technologists, engineers, and mathematicians 
trained through NSF's integration of research and education transfer 
the latest scientific and engineering concepts from universities 
directly to the entrepreneurial sector when they enter the workforce.
    Our graduate research fellowship (GRF) program has supported 
several notable technologists and scientists early in their 
professional training. Prominent economist Steven Levitt, co-author of 
the popular book Freakonomics, was an NSF GRF recipient from 1992 to 
1994. Sergey Brin, co-founder of Google, was an NSF graduate research 
fellow in the mid-1990s when he began thinking about how to create an 
internet search engine. NSF's GRF program is as old as the foundation 
itself, and gives young scientists an early career charge, allowing 
them to go on to greatness. At least three Physics Nobel Prize winners 
are former NSF GRF recipients. We are extremely pleased with the 
proposed $29 million increase in the GRF program's funding for fiscal 
year 2009 which will enable us to fund an additional 700 promising 
young American investigators. A recent article from the National Bureau 
of Economic Research suggests that an increase in the number of GRF 
awards would help to supply an increased demand for talented 
individuals in the American science and technology workforce that will 
result from an increase in R&D spending.\5\
---------------------------------------------------------------------------
    \5\ Freeman, Richard. The Market for Scientists and Engineers. NBER 
Reporter, 2007 No. 3, pp. 6-8.
---------------------------------------------------------------------------
    At some point in their careers, nearly 200 Nobel Prize-winning 
scientists received NSF funding for research in chemistry, physics, 
medicine, and economics. And scores of NSF-supported scientists shared 
a measure of the 2007 Nobel Peace Prize as members of the United 
Nation's Intergovernmental Panel on Climate Change.
    To strengthen the educational institutions that benefit from NSF 
awards, the Directorate for Education and Human Resources (EHR) 
program, Innovation through Institutional Integration (I3), challenges 
institutions to think strategically about the creative integration of 
NSF-funded awards. This provides the opportunity for NSF-grantees at 
particular institutions to cooperate and share a common vision for 
improved educational excellence at their institution.

                    AMERICA COMPETES ACT COMPLIANCE

    The America COMPETES Act contains several requirements for NSF. We 
are actively processing those directives and devising plans to 
implement them in a timely manner. In the fiscal year 2009 request, 
activities that overlap with the President's American Competitiveness 
Initiative receive top priority. These priority areas do include strong 
links to other fields, and our request includes across-the-board 
increases for all directorates.
    We are currently evaluating how to best ramp up the Robert Noyce 
Teacher Scholarship Program to bring an infusion of talented teachers 
into the nation's K-12 education system. To launch such a large-scale 
program, we will carefully evaluate what we need to do to maximize its 
societal impact and success. We will apply what we have learned from 
our other successful scholarship programs to ensure the program is 
administered in the best possible way.
    We are also working how best to evaluate grant applicants' plans 
for training undergraduates, graduate students, and postdocs in 
responsible and ethical conduct of research. A number of our programs 
including our Centers and the Integrative Graduate Education and 
Research Traineeship (IGERT) program already contain ethics components. 
We will add a new certification requirement for institutions, which 
will require the institution to have a plan in place to provide 
appropriate training and oversight in the responsible and ethical 
conduct of research for all undergraduates, graduate students, and 
postdocs participating in the NSF-funded research project.
    Open access to research results is an essential component of a 
strong and healthy scientific enterprise. We currently make available 
the citations of NSF-funded research on both the NSF website and on 
Research.gov. To further the goal of disseminating the results of NSF-
funded research, we will develop revised reporting guidelines for NSF 
principle investigators (PIs). These guidelines will enable the PIs to 
summarize the key accomplishments of their NSF-funded work, including 
scientific findings, student training, and professional development 
activities. This information will be made available on the NSF website.

                     2009 BUDGET REQUEST HIGHLIGHTS

    At NSF, we understand that new discoveries are the main driving 
force behind societal progress. As the nation's premier funding agency 
for basic research, our mission is to advance the frontiers of 
knowledge, where high-risk, high-reward research can lay the foundation 
for revolutionary technologies and tackle complex societal problems. 
The NSF budget for 2009 reflects this vital agenda, and I'm pleased to 
present it to you today.
    Let me begin with the big picture. As noted earlier, the President 
is requesting $6.85 billion for the NSF in fiscal year 2009. That's an 
increase of almost $789 million, or 13 percent above the current 2008 
appropriated amount. While it seems like a large increase, this level 
is necessary to fulfill the President's vision for physical science and 
basic research set forth in the American Competitiveness Initiative. 
The fiscal year 2009 request is squarely in line with the goal of 
doubling of ACI research agency budgets over 10 years. This increased 
investment will reinforce NSF's leadership in basic science and 
engineering and allow us to preserve America's preeminence in the 
global technology economy.
    In this year's proposed budget, funding levels increase for every 
major NSF appropriations account. Research and Related Activities 
investments increase by 16 percent, and our Education and Human 
Resources account is increased by 8.9 percent. We need rapid progress 
in these areas to stimulate the discoveries in research we need to 
maintain our standing in the global marketplace, and to keep our 
students engaged and ready to perform in the global workforce. Our 
budget includes increases for every Directorate and Office within NSF.
    Here are highlights of some of the key investments we are 
emphasizing in our 2009 budget.

Cyber-enabled Discovery and Innovation
    Cyber-Enabled Discovery and Innovation (CDI) is expected to create 
revolutionary science and engineering research results using 
``computational thinking''--thinking that encompasses all possible 
computational concepts, methods, models, algorithms, and tools. 
Computational thinking is relevant to all fields of science, 
engineering and education, and promises to have a profound impact on 
our nation's ability to generate and apply new knowledge. We expect CDI 
research to produce paradigm shifts in our understanding of a wide 
range of science and engineering phenomena, and we anticipate socio-
technical innovations to create new wealth and enhance the national 
quality of life. By investing in CDI, NSF continues its leadership in 
enabling the United States to preserve its role as the world leader in 
information technology.
    Requested Funding Level: $100 million.

Science and Engineering Beyond Moore's Law
    ``Moore's Law'' refers to the empirical observation made in 1965 by 
Intel co-founder Gordon Moore that the speed of computer processing 
based on semiconductor integrated circuits doubles about every 18 
months. With current silicon technology, we expect to reach the 
physical and conceptual limits of Moore's Law within 20 years. If we 
are ever to solve the computational challenges inherent in today's 
great scientific questions, we must find a way to take computing power 
and communications beyond Moore's Law. To get there, we'll need 
entirely new scientific, engineering, and conceptual frameworks. 
Fundamental research across many disciplines will be called upon to 
deliver the new hardware, architectures, algorithms, and software of 
the computers of tomorrow.
    Requested Funding Level: $20 million.

Adaptive Systems Technology
    Recent progress in probing the secrets of biological systems has 
been explosive. We are only just beginning to see the application of 
these new and transformational discoveries to the development of 
engineered systems, especially at the interface between human and 
machines. We call our new interdisciplinary endeavor--research at the 
convergence of human and mechanical systems--Adaptive Systems 
Technology (AST). New applications and technologies resulting from AST 
have already demonstrated substantial economic potential. Artificial 
retinas and cochlea, electronic language translators, and smart hand-
held electronics are just a handful of the products that have already 
come to market at the human-machine interface. NSF's broad portfolio 
encompasses the diverse research areas involved in this new 
interdisciplinary effort. Biologists uncover nature's progression from 
simple to complex nervous systems; physicists and chemists explain the 
fundamental processes underlying complex neural organization and 
communication pathways; mathematicians, computer scientists and 
cognitive scientists explore how systems compute; learning and 
behavioral scientists provide insights into how organisms learn and 
adapt to their environment; while engineers allow the design, analysis 
and construction of systems that mimic living nervous system networks. 
By working together, these scientists and engineers can benefit from 
the knowledge and experience of experts in other fields, developing new 
concepts through collaboration and idea-sharing.
    Requested Funding Level: $15 million.

Dynamics of Water Processes in the Environment
    This activity will build upon NSF's considerable track record on 
fundamental water research, while utilizing our unique ability to cross 
disciplinary boundaries to bring together the separate communities of 
researchers working on the varying aspects of water science. Water is 
fundamental to every economic activity in the country, and yet, we do 
not have a full understanding of the effects of human interventions and 
changing environmental conditions on the availability and quality of 
fresh water. The economic driving forces for understanding water 
processes are compelling: droughts alone cause average damages of $6 to 
$8 billion annually in the United States. Understanding water dynamics 
is also essential to understanding climate and environmental change. 
NSF's investment in Dynamics of Water Processes in the Environment will 
enhance our ability to understand complex freshwater systems at 
regional and local levels, taking advantage of advanced observation 
networks, cyberinfrastructure, and integrated databases.
    Requested Funding Level: $10 million.

National Nanotechnology Initiative
    NSF leads the U.S. nanotechnology research effort, and we remain 
strongly committed to supporting this vital emerging industry. Our goal 
is to support fundamental research and catalyze synergistic science and 
engineering research and education in emerging areas of nanoscale 
science and technology. We are also committed to research directed at 
the environmental, health, and safety impacts of nanotechnology. Novel 
materials, devices, and systems--with their building blocks designed on 
the scale of nanometers--open up new directions in science, 
engineering, and technology with potentially profound implications for 
society. With the capacity to control and manipulate matter at this 
scale, science, engineering, and technology are realizing revolutionary 
advances in areas such as individualized pharmaceuticals, new drug 
delivery systems, more resilient materials and fabrics, catalysts for 
industry, and order-of-magnitude faster computer chips.
    Requested Funding Level: $397 million.

Climate Change Science Program
    Scientists predict that the climate of the earth is changing 
rapidly, and we have much to learn about how climate affects human 
activities, how human activities affect climate, and what we can do to 
protect human life and health in the face of disruptive climate events. 
The Climate Change Science Program (CCSP) was established in 2002 in 
response to the challenge of understanding climate and climate 
variability. Science-based knowledge is absolutely essential to our 
ability to predict the changes that are likely to take place, and 
devise informed plans to mitigate the negative impacts of climate 
change on humanity. The CCSP engages thirteen U.S. agencies in a 
concerted interagency program of basic research, comprehensive 
observations, integrative modeling, and development of products for 
decision-makers. Consistent with the fiscal year 2009 Interagency 
Implementation Priorities memo, NSF provides support for the broad 
range of fundamental research activities that form a sound basis for 
other mission-oriented agencies in the CCSP, and the nation at large.
    Building on our agency's particular strengths, NSF encourages 
interdisciplinary activities and focuses particularly on Earth system 
processes and the consequences of change. Our priorities include the 
management of enormous amount of data necessary for accurate global 
change modeling and research, the refinement and improvement of 
computational models, and the development of new, innovative earth 
observing instruments and platforms.
    Requested Funding Level: $221 million.

International Science and Engineering
    International collaboration is essential to the health of the 
nation's research enterprise. The importance of international 
partnership continues to increase as globalization ``shrinks'' our 
world. Consequently, our funding request for the Office of 
International Science and Engineering is increased by nearly 15 percent 
to $47.4 million. A major focus in our budget is the Partnerships for 
International Research and Education (PIRE) program, which increases by 
$3.0 million to $15.0 million. This program funds innovative, 
international collaborative research projects that link U.S. 
institutions and researchers at all career levels with premier 
international collaborators to work at the most promising frontiers of 
new knowledge.

Broadening Participation
    NSF remains a leader in efforts to broaden participation in science 
and engineering, so that America's science and engineering enterprise 
is as diverse as the nation from which it draws its workforce. Our 2009 
request for the Experimental Program to Stimulate Competitive Research 
(EPSCoR) program increases to $113.5 million. We are also increasing 
our request for several programs designed to reach out to 
underrepresented groups, including Alliances for Graduate Education and 
Professoriate (AGEP), the Historically Black Colleges and Universities-
Undergraduate Program (HBCU-UP), the Louis Stokes Alliances for 
Minority Participation (LSAMP), and Centers of Research Excellence in 
Science and Technology (CREST).
Enhancing Opportunities for Beginning Researchers (CAREER)
    The 2009 request provides an increase of approximately $14 million 
for funding of the CAREER program. This increase will allow us to award 
some 34 more CAREER awards than in fiscal year 2008. CAREER awards 
support exceptionally promising college and university junior faculty 
who are committed to the integration of research and education. Our 
experience with previous CAREER awardees has proven that these faculty 
become the research leaders of their respective fields, and this 
program is vital to fostering the success of emerging science and 
technology leaders.
    Requested Funding Level: $182 million.

Stewardship
    NSF's Stewardship goal, to support excellence in science and 
engineering research and education through a capable and responsive 
organization, remains a priority in the 2009 budget, with a 13 percent 
increase to $404.3 million. Our request increases the NSF workforce by 
50 staff to enable us to manage our growing and increasingly complex 
workload. Investments in information technology (IT) increase by 32 
percent to $82.0 million, with an emphasis on increasing the 
efficiency, productivity, and transparency of NSF's business processes. 
In this request, NSF's IT portfolio is realigned to tie funding for 
mission-related activities more directly to NSF's programs.
    Requested Funding Level: $404 million.

Major Research Equipment and Facilities Construction (MREFC) account
    NSF will continue to support a portfolio of ongoing projects in the 
Major Research Equipment and Facilities Construction account (MREFC), 
including the Atacama Large Millimeter Array, Ice Cube, and Advanced 
LIGO.
    The Foundation continues to be committed to the Alaska Regional 
Research Vessel (ARRV), the National Ecological Observatory Network 
(NEON), and the Ocean Observatories Initiative (OOI). However, in 
keeping with new NSF policies, Administration and Congressional 
mandates, and guidance from the National Science Board, NSF has adopted 
more stringent budget and schedule controls to improve our stewardship 
of taxpayer dollars. We are postponing requests for additional funding 
for those projects until they have undergone a final design review, 
completed a risk management plan, and developed a rigorous baseline 
budget, including carefully considered contingencies.
    NSF's MREFC portfolio includes late-stage design-phase funding for 
the proposed Advanced Technology Solar Telescope (ATST), which if 
carried into the construction phase would be the first large U.S. solar 
telescope built in the past 30 years. ATST would reveal critical 
information needed to explore crucial mysteries such as: What are the 
mechanisms responsible for solar flares, coronal mass ejections and 
space weather, with their associated impact on satellites, 
communications networks, and power grids? What are the processes that 
cause solar variability and its impact on the Earth's climate and 
evolution? The ATST project is managed by the National Solar 
Observatory, which administers the world's leading collection of solar 
telescopes.
    Requested Funding Level: $2.5 million.

                           CONCLUDING REMARKS

    Madam Chairwoman, I've touched on just a handful of programs found 
in NSF's diverse and vibrant portfolio. NSF's research and education 
activities support the nation's innovation enterprise. America's 
present and future strength, prosperity and global preeminence depend 
directly on fundamental research. This is not merely rhetoric; the 
scientific and economic record of the past 30 years is proof that an 
investment in R&D is an investment in a secure future.
    NSF may not be the largest agency that funds science and 
engineering research, but our size serves to keep us nimble. Our 
portfolio is continually evolving as we identify and pursue new 
research at the frontiers of knowledge. An essential part of our 
mission is to constantly re-think old categories and traditional 
perspectives. This ability is more important than ever, as conventional 
boundaries constantly shift and disappear--boundaries between nations, 
between disciplines, between science and engineering, and between what 
is basic and what is applied. NSF, with its mandate to support all 
fields of science and engineering, is uniquely positioned to meet the 
needs of researchers exploring human knowledge at these interfaces, 
whether we're organizing interdisciplinary conferences, enabling cyber-
sharing of data and information, or encouraging new collaborations and 
partnerships across disciplinary and national borders. No other 
government agency comes close to our flexibility in STEM education and 
basic research.
    In today's high-tech economy, the supply of new jobs is 
inextricably linked to the health of the nation's innovation endeavor. 
NSF is involved in all aspects of innovation; NSF not only funds the 
discoveries that directly become the innovations of tomorrow, we also 
fund discoveries that lead to still more discoveries that lead to the 
innovations of tomorrow, and, perhaps most critically, we train the 
technologists who dream up the discoveries that lead to the discoveries 
and innovations of tomorrow.
    Industry increasingly relies on government support for high-risk, 
high-reward basic research. If we fail to provide adequate support of 
the technological sector now, we may well reduce our own economic 
security. It is no accident that our country's most productive and 
competitive industries are those that benefited the most from sustained 
federal investments in R&D--including computers and communications, 
semiconductors, biotechnology, and aerospace.
    As we look to the century ahead of us, we face the reality that the 
other nations in this world are eager to create jobs and robust 
economies for their citizens. In this context, ``globalization'' is 
shorthand for a complex, permanent, and challenging environment that 
calls for sustainable, long-term responses, not just short-term fixes. 
Regardless of our action or inaction as a nation, the world is full of 
highly motivated and increasingly skilled workers who are working hard 
to improve their economic standing and well-being. We can either 
innovate, and keep our economic prosperity, or stagnate, and suffer the 
consequences of inaction.
    Despite some of the more pessimistic forecasts of some observers, I 
believe that America can continue to be on the leading edge of ideas 
and research. Through strong federal leadership, we can maintain the 
standing of our businesses and universities. We must not only maintain 
our position, we must actively seek to increase our strengths: 
leadership in fundamental discovery, including high-risk, high-reward 
transformational research, state-of-the-art facilities and 
infrastructure, and a world-class S&E workforce. With a firm commitment 
to these fundamental building blocks of our high-tech economy, we can 
solidify America's role as the world leader in innovation.
    Madam Chairwoman and members of the Committee, I hope that this 
brief overview has given you a taste of just how very important the 
National Science Foundation and its activities are to the future 
prosperity of the United States. I look forward to working with you in 
months ahead, and I am happy to answer any questions you may have.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                             STEM EDUCATION

    Question. Statistics show that women earn half of the bachelors 
degrees in science and engineering, yet continue to be significantly 
underrepresented in academic science and engineering careers 
(constituting 29 percent of doctoral science and engineering faculty in 
four-year colleges and universities and only 18 percent of full 
professors).
    Why was ADVANCE the one program at NSF designed specifically to 
increase the participation and advancement of women in academic science 
and engineering careers cut in the fiscal year 2009 request?
    Answer. The ADVANCE Program is an integral part of NSF's 
multifaceted strategy to broaden participation to help realize a 
diverse science and engineering (S&E) workforce. The program supports 
the critical role of the Foundation in advancing the status of women in 
academic S&E. ADVANCE is an NSF-wide activity and its success depends 
upon the cooperation, dedication, and coordinated action of 
directorates and offices from across the Foundation. EHR, where the 
ADVANCE Program now resides, supports several of the Foundation's 
flagship broadening participation programs and is well positioned to 
undertake this coordination. EHR's increased investment in fiscal year 
2009 in ADVANCE serves to offset slightly the reduction from the 
Research and Related Activities account.
    Question. NSF requests an overall increase in its fiscal year 2009 
budget of 13 percent, yet the six primary programs that it utilizes to 
advance the goal of increasing diversity in the science and engineering 
workforce are only increased a combined 7 percent.
    Why isn't NSF prioritizing the advancement of women and minorities 
in the fields of science and engineering as much as research grants?
    Answer. A seven percent increase--far higher than the average 
increase for discretionary programs--shows NSF's strong support for 
these programs. NSF remains committed to broadening participation in 
science, technology, engineering and mathematics (STEM) disciplines. 
While the following six programs are flagship efforts within the HRD 
Division in support of diversity, there are other programs at NSF that 
support this goal. Alliances for Graduate Education & the Professoriate 
(AGEP); Centers for Research Excellence in Science and Technology 
(CREST); Historically Black Colleges and Universities-Undergraduate 
Program (HBCU-UP); Louis Stokes Alliances for Minority Participation 
(LSAMP); Research on Gender in Science and Engineering (GSE); and 
Tribal Colleges & Universities Program (TCUP).
    Other programs located in the EHR Directorate that focus on 
diversity entirely or include it as a key component. They are: Research 
in Disabilities Education (RDE); Presidential Awards for Excellence in 
Science, Mathematics and Engineering Mentoring (PAESMEM); Scholarships 
in Science, Technology, Engineering and Mathematics (S-STEM); Graduate 
Teaching Fellows in K-12 Education (GK-12); Robert Noyce Teacher 
Scholarship Program (NOYCE); and Math and Science Partnerships (MSP) 
Program.
    Finally, several NSF programs focus on diversity as key components 
of workforce development: ADVANCE; Opportunities for Enhancement of 
Diversity in the Geosciences; Integrative Graduate Education Research 
Traineeship Program (IGERT); Graduate Research Fellowships (GRFs); 
EPSCoR (which focuses on broadened geographic diversity); Broadening 
Participation in Computing; and Broadening Participation in the 
Biological Sciences.
    In addition, many NSF-supported centers conduct education and 
outreach efforts to increase interest in STEM. Some of these are aimed 
specifically at groups underrepresented in science and engineering.
    Given the scope and complexity of Foundation-wide programs, NSF is 
currently developing a plan to coordinate ongoing STEM efforts to 
increase the participation of underrepresented groups as a core 
practice.
    Question. The fiscal year 2008 omnibus urged NSF to begin focus on 
broadening Hispanic participation rates in science and engineering. 
What is NSF doing to increase Hispanic participation?
    Answer. NSF appreciates the omnibus conference language encouraging 
the agency to broaden Hispanic participation throughout STEM 
disciplines. In response to the America COMPETES Act, NSF established 
an internal study group to determine the most effective ways to serve 
Hispanic-serving institutions (HSIs) through our existing programs and 
to consider the creation of a designated HSI program. We are in the 
process of gathering best practices from existing programs and 
scholarly research to complement current NSF program investments and to 
inform future programmatic directions regarding HSIs.

                              STEWARDSHIP

    Question. How does the new ``no-cost over run'' policy impact the 
Alaska Research Vessel, NEON, and the ocean observatory initiative?
    Answer. NSF expects the lead organizations for these projects to 
develop firm plans, budgets, risk assessments, and schedules for 
accomplishing the proposed activities prior to making any further 
request to Congress for construction funding. NSF will conduct Final 
Design Reviews (FDR) for all three projects, utilizing experts in all 
of the major technical, management, and administrative areas, to assure 
that these plans, budgets, risk assessments, and schedules are 
credible. Only after successful completion of these reviews will NSF 
make a request for further construction funding. The impact to these 
projects is that there will be confidence that they will accomplish 
what they propose within the envelope of requested construction 
funding, recognizing that required funding and schedules will be 
different than was previously presented in NSF budget requests.
    Question. Will NSF submit a revised budget if the University of 
Alaska presents an acceptable schedule and budget for the Alaska 
Research Vessel under the new policy?
    Answer. As is noted above, all future funding requests for the ARRV 
construction depend on the project successfully completing the final 
design review. Now that the FDR is a requirement, the current ARRV 
project plan is to complete the FDR process in time for consideration 
by the next Administration in the fiscal year 2010 budget request.
    Question. Congress provided total appropriations of $115 million 
between fiscal year 2005 and fiscal year 2007 for the Scientific Ocean 
Drilling ship. The ship is currently under construction in Singapore as 
no U.S. shipyard bid on the project.
    What special steps has NSF done to maintain oversight of this 
project given that it is on the other side of the world?
    Answer. NSF has taken a number of specific steps to maintain 
oversight of the SODV project. These steps are intended to ensure 
ongoing communication with the project team in Singapore and to address 
the rapidly changing climate in the shipbuilding industry.
    NSF has overseen the installation in Singapore of an experienced 
on-site project team, skilled in all aspects of ship construction and 
outfitting, to oversee, facilitate, and monitor progress. The on-site 
personnel are in daily communication with their stateside counterparts, 
and report regularly to NSF.
    NSF staff members have made many visits to Singapore to confer with 
those directly involved in the refit of the ship, and to see first-hand 
the activity and progress that have occurred. Except for the greater 
travel distances involved, these oversight activities are similar to 
what would be done if the work were done at a closer location.
    In addition to issues related to the location of the SODV refit, 
other issues relate to difficulties in managing the rapidly changing 
business climate in the shipbuilding industry. With a budget profile 
that allowed the SODV to enter the shipyard in 2007, rapid cost 
escalations meant that the original plan to extend the SODV was not 
financially feasible. The project team, led by the Joint Oceanographic 
lnstitutions' (JOI) Division of the Consortium for Ocean Leadership 
(COL) did not have ready a robust design for a refit within the 
existing hull, and time was needed to prepare one. In response to NSF 
concerns, COL has ensured involvement of, and buy-in from, the 
scientific ocean drilling community in the rescoped plans for the SODV 
refit; overseen augmentation of, and changes to, the senior on-site 
project management team; and led planning for the final stages of 
construction and outfitting. NSF has requested and received from COL a 
Corrective Action Plan to ensure maximum efficiency and benefit to NSF 
in these final stages of the project.
    Question. Has the weakness in the U.S. dollar adversely impacted 
the completion of the ship?
    Answer. The effect of the weak U.S. dollar has been relatively 
small compared to the overall project budget of $115 million. The 
shipyard work is being done under a fixed price contract in U.S. 
dollars, and much of the ancillary science equipment is of U.S. origin. 
There have been negative impacts, however, due to the roughly 9 percent 
decline in the United States vs. the Singapore dollar, which has made 
it somewhat more expensive to maintain the necessary U.S. oversight 
team in Singapore during the refit activity.
    Question. In the latest Semiannual Repot to Congress, the NSF 
Inspector General notes that the Large Facilities Office is not 
adequately staffed to handle it increasing responsibilities for 
oversight.
    Do you plan to hire additional staff for this office?
    Answer. NSF was able to add one additional person to the Large 
Facilities Office (LFO) in the last year, which has been very helpful. 
With a large number of ongoing and upcoming MREFC projects, we 
recognize the need to have the necessary internal resources available. 
The fiscal year 2009 budget includes funding for at least one 
additional FTE for the LFO, and we will allocate additional FTEs and 
financial resources as needed. We also engage outside project 
management expertise on a contract basis as needed.
    Directorates involved in detailed planning or implementation for 
MREFC projects are also expected to provide the more specialized 
technical expertise that is closely matched to the needs of individual 
MREFC projects. This complements the capabilities of the LFO.
    Question. If not, what other methods will you use to provide the 
additional oversight that is needed?
    Answer. NSF continues to provide training opportunities to Program 
Officers to inform them of project management issues, and NSF and NSB 
are also examining ways that earlier NSB review and analysis of 
potential future large projects could strengthen NSF's oversight.

                            CLIMATE RESEARCH

    Question. A recent GAO study of federal climate research at DOE, 
NASA, NSF, and NOAA examined how to make research data more widely 
available to research community. While some of the data generated by 
this research are stored in online achieves most remains in a less 
accessible format with individual researchers. GAO recommended that 
agencies develop additional archiving strategies.
    What is the current policy with regard to the sharing of data at 
NOAA and NSF?
    Answer. Data-sharing plans are an important consideration during 
both the peer review of proposals and subsequently in the award 
decision process. The NSF has a standing agency-wide data policy 
requiring free (other than duplication costs) and open access to data 
collected with NSF support. Most directorates have more detailed 
guidelines and terms designed specifically for the types of data 
normally collected in the research disciplines they support and may 
include specific requirements as part of their formal proposal 
solicitations.
    Question. What are NSF and NOAA doing to address these GAO 
recommendations?
    Answer. A large portion of the data collected routinely that is 
relevant to the Climate Change Science Program is obtained by various 
mission agencies (National Oceanic and Atmospheric Administration--
National Oceanographic Data Center and National Climate Data Center, 
U.S. Geological Survey, United States Department of Agriculture, 
National Aeronautics and Space Administration, etc.), which support 
national archives, and much of the data collected as part of NSF's 
research efforts is ultimately stored in such archives. For example, 
much of the paleoclimate data are stored in the World Data Center for 
Paleoclimatology run by NOAA in Boulder, CO, although some resides in 
the National Lacustrine Core Repository at the University of Minnesota. 
Data from process studies may be stored at agency archives or at 
facilities serving the broader community such as the National Center 
for Atmospheric Research (NCAR). In addition, data are stored in 
personal archives maintained by NSF Principal Investigators at their 
home institutions.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

                           POLAR ICEBREAKERS

    Question. Does the funding arrangement for the polar icebreakers 
allow for adequate maintenance of the polar ice breaking fleet and the 
training/proficiency of Coast Guard crews?
    Answer. Yes, assuming that our budget requests are fully 
appropriated. Under the terms of the USCG-NSF Memorandum of Agreement, 
the USCG provides budget estimates for inclusion in the President's 
budget request. NSF and USCG develop the annual program plan that 
supports operation and maintenance of the icebreakers.
    Question. Did the National Science Foundation request funding this 
year to keep the Polar Star in care-taker status? Why did NSF opt to 
lease a foreign icebreaker rather than use the Polar Sea for this 
year's Antarctic mission?
    Answer. NSF did not request funding to keep the Polar Star in 
caretaker status.
    The Swedish icebreaker Oden was used instead of Polar Sea for 
several reasons. The Oden offers far superior capabilities for 
scientific research and the deployment enabled U.S. scientists to 
conduct research in the Southern Ocean that would otherwise have been 
impossible. In addition, using the Polar Sea for the Antarctic mission 
would have mandated subsequent dry dock maintenance and repair costs of 
approximately $5 million. Under our agreement for the Oden, our costs 
were strictly limited to those for operations. Finally, using Oden in 
Antarctica enabled us to keep Polar Sea in reserve in the North for any 
emergency Arctic duty. We should note also that the arrangement for use 
of the Oden was a government-to-government agreement and not an 
arrangement between NSF and a foreign firm.
    Question. Do you see a strategic national interest in the Arctic 
beyond your science mission?
    Answer. Other federal agencies are more qualified than NSF to 
address needs beyond those required to support scientific research. 
With decreasing ice cover in the Arctic there would seem to be a strong 
potential for an increased range of activities in the Arctic Ocean, 
including shipping and resource exploration, but a better understanding 
of why climate change is affecting different parts of the Arctic 
differently, and differently in different seasons, will be needed 
before these activities can proceed with confidence.
    Question. Does the National Science Foundation intend to fund a 
Polar Sea Arctic mission this year in order to allow the Coast Guard 
icebreaking crew to maintain its competency?
    Answer. Yes. The Polar Sea is currently underway in the Arctic, 
conducting crew training, USCG missions (including community liaison 
and law enforcement), and science of opportunity.

                     ALASKA REGION RESEARCH VESSEL

    Question. I understand construction funding for the Alaska Region 
Research Vessel was not included in the President's fiscal year 2009 
budget.
    This vessel will replace NSF's recently de-commissioned R/V Alpha 
Helix and offer great opportunities to study the coastal and open ocean 
waters of the Alaska region.
    What are your goals for completing construction of the vessel and 
what can we do to assist you in expediting the process?
    Answer. NSF's goals for completing construction are:
  --NSF will conduct a Final Design Review (FDR) this fall to validate 
        the technical design, budget, and proposed schedule for the 
        ship. The FDR's validated cost and schedule will be used to 
        formulate the fiscal year 2010 budget request under the next 
        Administration.
  --The shipyard evaluation and bidding process will commence following 
        FDR.
  --We expect shipyard construction to require 30 months or more, 
        followed by 6-12 months of sea trials and commissioning, 
        overlapping with the first scientific activities.
    We appreciate your offer of assistance and you and your colleagues' 
continued support for the Foundation's programs. In particular, your 
efforts to date with the University of Alaska to convey NSF's policies 
and the need for a rigorous pre-construction planning process have been 
especially valuable. We look forward to continuing to work with you as 
the fiscal year 2009 and subsequent budgets are considered.
                                 ______
                                 
                       NONDEPARTMENTAL WITNESSES

 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program

    The Regional Information Sharing Systems (RISS) Program 
respectfully requests that Congress appropriate $52.7 million for 
fiscal year 2009 to continue RISS's support in combating violent crime, 
criminal gangs, terrorist activity, illegal drug trafficking, organized 
criminal activity, human trafficking, identity theft, and other 
regional criminal priorities and promoting officer safety.
    RISS has been at the forefront in paving the way so that law 
enforcement, public safety, and private sector partners can share 
information and receive critical investigative and technical 
assistance. The fiscal year 2008 budget request to Congress stated that 
RISS has emerged as one of the Nation's most important law enforcement 
intelligence sharing networks and continues to support efforts to 
expand and improve information sharing.
    RISS, which dates back to the 1970s, not only offers secure 
communications, access to intelligence databases, and investigative 
resources to law enforcement and public/private partners but also 
provides services to enhance and improve the ability to detect crime, 
apprehend offenders, and successfully prosecute individuals. These 
services include information sharing, analytical support, equipment 
loans, confidential funds, field staff support, technical support, 
training, research, publications, and officer safety. In many cases, 
these are services that criminal justice agencies would not have access 
to without the support of RISS.
    RISS is a federally funded, nationwide program supporting local, 
State, Federal, and tribal law enforcement and prosecution efforts with 
membership in all 50 States, the District of Columbia, United States 
territories, Australia, Canada, and England. RISS operates on a 
national basis but provides support regionally through its six 
intelligence centers, which support and serve the unique needs of their 
regions. The six RISS centers and the areas that they serve are:
  --Middle Atlantic-Great Lakes Organized Crime Law Enforcement Network 
        (MAGLOCLEN).--Delaware, District of Columbia, Indiana, 
        Maryland, Michigan, New Jersey, New York, Ohio, and 
        Pennsylvania, as well as Australia, Canada, and England.
  --Mid-States Organized Crime Information Center (MOCIC).--Illinois, 
        Iowa, Kansas, Minnesota, Missouri, Nebraska, North Dakota, 
        South Dakota, and Wisconsin, as well as Canada.
  --New England State Police Information Network (NESPIN).--
        Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, 
        and Vermont, as well as Canada.
  --Regional Organized Crime Information Center (ROCIC).--Alabama, 
        Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, 
        North Carolina, Oklahoma, South Carolina, Tennessee, Texas, 
        Virginia, and West Virginia, as well as Puerto Rico and the 
        United States Virgin Islands.
  --Rocky Mountain Information Network (RMIN).--Arizona, Colorado, 
        Idaho, Montana, Nevada, New Mexico, Utah, and Wyoming, as well 
        as Canada.
  --Western States Information Network (WSIN).--Alaska, California, 
        Hawaii, Oregon, and Washington, as well as Canada and Guam.
    RISS acts as a force multiplier, enhancing the ability of criminal 
justice agencies to identify, target, and remove criminal conspiracies 
and activities spanning multijurisdictional, multistate and, sometimes, 
international boundaries. RISS facilitates the seamless exchange of 
information among agencies pertaining to known suspected criminals or 
criminal activity and enhances the coordination and communication among 
agencies that are in pursuit of criminal conspiracies determined to be 
interjurisdictional in nature.
    There is an increasing communications sophistication by criminal 
networks and a rising presence of organized and mobile narcotics crime 
as well as a resurgence of gang activity occurring across the nation. 
Interagency cooperation in sharing information has proven to be the 
best method to combat this increasing criminal activity. The RISS 
centers fill law enforcement's need for rapid, but controlled, sharing 
of information and intelligence through their unique structure, 
versatility, flexibility, and diverse services. Congress funded the 
RISS Program to address this need, as evidenced by its authorization in 
the Anti-Drug Abuse Act of 1988.
    The Bureau of Justice Assistance (BJA) administers RISS and has 
established guidelines for the delivery of RISS services. RISS is 
subject to oversight, monitoring, and auditing by the United States 
Congress; the United States Government Accountability Office; the 
United States Department of Justice (DOJ), BJA; and local and State 
governmental units. BJA also monitors RISS for 28 Code of Federal 
Regulations (CFR) Part 23 compliance. The 28 CFR Part 23 regulation 
emphasizes adherence to individual constitutional and privacy rights 
and places stricter controls on the RISS intelligence databases than 
those placed on most local, State, or Federal agencies. Evaluation of 
RISS continues to be positive. RISS supports and has fully operated in 
compliance with 28 CFR Part 23 since its inception. RISS firmly 
recognizes the need to ensure that individuals' constitutional rights, 
civil liberties, civil rights, and privacy interests are protected 
throughout the intelligence process. In this regard, RISS officials 
adopted a Privacy Policy to further strengthen their commitment and 
support of 28 CFR Part 23 and protection of individual privacy rights.
    In 1997, well before the attacks of September 11, 2001, RISS began 
building a national system, a secure intranet known as RISSNET. Through 
funding from Congress, RISS was able to develop RISSNET, thereby 
creating a gateway for disparate systems to connect while providing 
users with the ability to quickly query, analyze, and research data. 
Today, RISSNET is used as the system of choice for numerous law 
enforcement entities. RISSNET links thousands of law enforcement, 
criminal justice, and public safety agencies and uses state-of-the-art 
technology, such as DOJ's Global Justice Extensible Markup Language 
(XML) Data Model, to connect existing systems and networks. RISSNET 
provides the communications backbone and infrastructure for 
bidirectional sharing of investigative and intelligence information, 
offers secure sensitive but unclassified electronic communications, and 
provides controlled access to a variety of sensitive information 
resources. Over 80,000 access officers, representing hundreds of 
thousands of law enforcement officers from around the globe, are able 
to access RISSNET resources.
    Currently, more than 80 agencies are connected or pending 
connection to RISSNET. Examples include the El Paso Intelligence 
Center; the National White Collar Crime Center; Nlets--The 
International Justice and Public Safety Network; DOJ Criminal Division; 
information/intelligence networks from California, Colorado, Oregon, 
Utah, and Wyoming; and numerous other local, State, and Federal 
systems. In addition, the Executive Office for United States Attorneys 
has connected staff to RISSNET, and RISS continues to expand its 
partnership with the High Intensity Drug Trafficking Areas (HIDTA). 
Currently, 18 HIDTAs are electronically connected to RISSNET.
    In this world of changing technology and with the increased need to 
provide timely, accurate, and complete information to law enforcement 
and public safety professionals, the ability to connect systems and 
streamline the capacity to house, share, inquire, and disseminate 
information and intelligence is paramount. Through RISSNET, RISS 
provides valuable collaboration with others who have experienced 
similar crime problems or who are investigating the same or similar 
crimes. In addition, RISS offers resources and tools to additional 
users beyond the typical bounds of the law enforcement realm, which 
vastly enhances the information exchange. After 9/11, RISS recognized 
the need to expand communications to public safety entities and 
developed the Automated Trusted Information Exchange (ATIX). ATIX is a 
communications system that provides first responders, critical 
infrastructure personnel, and other public safety personnel involved in 
prevention and response efforts with the ability to share terrorism and 
homeland security information in a secure, real-time environment. In 
2007, ATIX was expanded to serve as a communications resource for both 
State sex offender registries and fusion centers.
    In 2007, RISS expanded its RISS National Gang Program, known 
collectively as RISSGang, to include a criminal intelligence database, 
a Web site, a bulletin board, secure e-mail, and gang-specific 
resources. The RISSGang database provides law enforcement agencies with 
access to gang suspects, organizations, weapons, locations, and 
vehicles, as well as visual imagery of gang members, gang symbols, and 
gang graffiti. The Web site contains valuable information, research, 
tools, and other resources, including an anonymizing filter that is 
automatically applied when a user clicks on one of the links to 
published criminal gang Web sites. This tool removes the ability of the 
target Web sites to identify officers.
    RISS is currently in the process of developing RISSafe, an officer 
safety event deconfliction system. RISSafe will store, maintain, and 
monitor information on planned law enforcement events--such as raids, 
controlled buys, and surveillances--with the goal of identifying and 
alerting affected agencies of potential conflicts. Over 18,000 law 
enforcement officers have been killed in the line of duty; RISSafe will 
make a significant contribution towards enhancing officer safety and 
supporting criminal investigations.
    RISS partners with a number of criminal justice organizations and 
fosters a collaborative information sharing environment. RISS partnered 
with the United States Drug Enforcement Administration and HIDTAs to 
create the National Virtual Pointer System (NVPS). NVPS is an automated 
system that connects existing deconfliction pointer databases into one 
virtual pointer system. RISS also partnered with Project Safe 
Neighborhoods, which submits data to the RISS intelligence databases 
for the purpose of reducing gun violence. The Operation Respond 
Institute electronically connected its Operation Respond Emergency 
Information System, which provides critical information on railroads 
and other transportation industries, to RISSNET.
    RISS is working with DOJ and the United States Department of 
Homeland Security (DHS) on the Counterterrorism Collaboration 
Interoperability Project (CCIP), which provides participating systems 
with the ability to publish documents for access by authorized users of 
other participating systems via Really Simple Syndication (RSS) feeds. 
This project has been recognized as a model for agencies to share 
information, as required by Presidential Executive Order 13388, 
Strengthening the Sharing of Terrorism Information to Protect 
Americans.
    Throughout 2007, RISS continued to support a number of initiatives 
to enhance information sharing, including the Dru Sjodin National Sex 
Offender Public Website and the National Criminal Intelligence Resource 
Center. RISS represents the core of collaboration and constantly seeks 
out and fosters new and existing partnerships in order to maximize the 
Nation's information sharing environment.
    RISS's partnerships and efforts have resulted in an unprecedented 
level of information and intelligence sharing. As a result, it is 
critical to ensure that the information is secure and available only to 
authorized users. RISSNET protects information through encryption, 
Internet protocol security standards, and firewalls to prevent 
unauthorized access. In addition, the criminal intelligence information 
accessed through RISSNET is controlled by its local, State, Federal, 
and tribal law enforcement member agency owners. RISS continues to 
evolve and expand, utilizing the latest technology to meet the needs of 
law enforcement member agencies.
    In 2006, RISS embarked on the RISSNET 2007 initiative to streamline 
RISS users' access to RISSNET resources. This project enhances the 
security and accessibility of RISSNET and allows for compatibility and 
interoperability of existing systems' infrastructures to leverage and 
expand information and intelligence sharing systems. RISSNET 2007 
consists of three main components--the RISSNET Portal, Secure Sockets 
Layer (SSL) authentication technology, and the Trusted Credential 
Project (TCP). The RISSNET Portal was launched in 2007 and provides 
authenticated users with one entry point for RISSNET, providing access 
to all RISSNET resources from one location. In addition, the Portal 
creates additional security layers that protect RISSNET resources and 
provides ease of access by RISS members to permitted resources. SSL is 
a widely implemented Internet browser-based technology used to transmit 
encrypted data between a Web server and a Web browser by creating a 
secure virtual connection between the browser and the server. SSL 
technology is supported by all major Internet browsers and is a 
maturely developed standard for the secure transmission of sensitive 
information. Finally, TCP seeks to identify industry-leading 
technologies for user authentication and access control and will 
develop, test, and demonstrate methods to recognize and accept 
credentials in addition to those currently used on RISSNET. These three 
projects work in unison and represent the natural next steps for 
enhancing RISS technology and service to its members.
    The RISSNET architecture is referenced and recommended in the 
General Counterdrug Intelligence Plan (GCIP) and is endorsed by the 
National Criminal Intelligence Sharing Plan (NCISP). RISS has embraced 
and integrated the recommendations contained in the NCISP and continues 
to foster similar integration among its member agencies. In addition, 
RISS has embraced the Fusion Center Guidelines developed by DOJ and DHS 
and continues to build relationships with fusion centers. RISS 
developed a Fusion Center Partnership Strategy that integrates RISS 
services and tools into fusion center operations and has signed a 
Resolution in support of fusion centers. RISS has provided analysts to 
fusion centers, participated on fusion center advisory boards, provided 
RISSNET connectivity to fusion centers, and continues to work with 
fusion center leadership to tailor RISS services to their needs.
    RISS is one of three systems promoted by DOJ's Law Enforcement 
Information Sharing Program (LEISP) Strategy and is the only nonfederal 
entity participating in the LEISP process. RISS has also begun 
exploring opportunities to meet the needs of the recently published 
National Information Sharing Strategy.
    RISS's services and tools directly benefit detectives and 
investigative units within local, State, regional, Federal, and tribal 
criminal justice entities, making RISS a comprehensive and universal 
program. RISS delivers more that 20,000 analytical products annually 
and trains more than 68,000 officers each year. RISS's field staffs 
conducted over 27,000 on-site visits to member agencies last year to 
train, support, and help integrate RISS services. This one-on-one 
support has resulted in trusted relationships and a network prized 
among its members. These services are what make RISS a unique and 
valued program.
    The success of RISS has been acknowledged and vigorously endorsed 
by the International Association of Chiefs of Police as well as other 
national law enforcement groups, such as the National Sheriffs' 
Association and the National Fraternal Order of Police.
    In view of today's increasing demands on local, State, Federal, and 
tribal law enforcement budgets, requests for RISS services have risen. 
RISS's support has had a dramatic impact on the success of numerous 
investigations. By providing timely and accurate intelligence 
information, the RISS centers have greatly enhanced law enforcement's 
ability to more effectively dismantle criminal organizations. The 
results of these successes can be measured in the number of violent 
career criminals that are removed from our communities and the 
reduction of illicit drugs that are available to our young people. 
During the 3-year period of 2005-2007, RISS generated a return by 
member agencies resulting in 15,000 arrests, narcotics seizures valued 
over $113 million, and seizures of over $51 million in currency and/or 
recovered or seized property.
    It is respectfully requested that Congress appropriate $52.7 
million for fiscal year 2009 to continue RISS's efforts in combating 
crime and terrorism. Local and State law enforcement depend on RISS for 
information sharing, investigative support, and technical assistance 
and are increasingly competing for decreasing budget resources. It 
would be counterproductive to require local and State RISS members to 
self-fund match requirements, as well as to reduce the amount of BJA 
discretionary funding. Local and State agencies require more, not less, 
funding to fight the Nation's crime problem. RISS cannot make up the 
decrease in funding that a match would cause, and it has no revenue 
source of its own. Cutting the RISS appropriation by requiring a match 
should not be imposed on the program.
    Funding is requested to support the increased needs of law 
enforcement and public safety entities, to maintain RISSNET, and to 
meet the demand for RISS services and resources. These funds will 
enable RISS to continue services to law enforcement agencies to 
identify, target, prosecute, and remove criminal conspirators involved 
in terrorism and other crimes that span multijurisdictional boundaries. 
In addition, RISS will utilize increased funds to:
  --Deploy RISSafe on a nationwide scale and integrate RISSafe with 
        intelligence systems and other deconfliction systems.
  --Expand the existing RISSGang Program by developing and implementing 
        online gang-related training programs and minimum standards for 
        such training programs.
  --Develop and implement a gang deconfliction system.
  --Coordinate and host a regional/and or national gang conference.
  --Expand fusion center partnerships by connecting fusion centers, 
        providing bidirectional sharing, and offering technical on-site 
        assistance.
  --Expand RISS ATIX to accommodate the growing number of public and 
        private sector entities requiring secure communications.
  --Upgrade and maintain the RISSNET infrastructure. Upgrade hardware, 
        operating systems, and portal framework software for the 
        RISSNET Portal.
  --Implement the Trusted Credential Project.
    RISS is grateful for this opportunity to provide the committee with 
this testimony and appreciate the support this committee has 
continuously provided to the RISS Program. (See Attachment A)
        attachment a.--the regional information sharing systems
    Each RISS center offers basic services to member agencies. 
Traditional services include information sharing, analysis, 
investigative support, equipment loans, confidential funds, training, 
and technical assistance.
    Information Sharing.--The operation of RISSNET and its various 
applications enhances information sharing and communications among RISS 
members by providing various secure databases and investigative tools. 
Each RISS center develops and provides access to specialized 
information sharing systems for use by its member agencies.
    Analysis.--RISS center personnel create analytical products for 
investigative and prosecutorial use. These products include highly 
complex and specialized flowcharts, link-analysis charts, crime scene 
diagrams, telephone toll analysis reports, and financial analysis 
reports and provide computer forensics analysis. Staff members also 
provide video and audio enhancement services.
    Investigative Support.--Each center maintains a staff of 
intelligence technicians that support member agencies with a variety of 
investigative assistance. Staff members conduct database searches, 
utilize all RISS applications, and process batch uploads. Intelligence 
technicians respond to thousands of requests and questions.
    Equipment Loans.--Pools of specialized and surveillance equipment 
are available for loan to member agencies for use in support of 
multijurisdictional investigations.
    Confidential Funds.--Member agencies may apply for funds to 
purchase information, contraband, stolen property, and other items of 
an evidentiary nature or to provide for other investigative expenses 
related to multijurisdictional investigations. The availability and use 
of confidential funds are strictly controlled by Federal guidelines, 
and internal policies and procedures are developed by each center.
    Training and Publications.--RISS centers sponsor or cosponsor 
meetings and conferences that build investigative expertise for member 
agency personnel. Subject areas include anti-terrorism, crime-specific 
investigative and surveillance techniques, specialized equipment, 
officer safety, and analytical techniques. In addition, each center 
researches, develops, and distributes numerous publications, such as 
bulletins, flyers, and criminal intelligence publications.
    Technical Assistance.--RISS field service coordinators provide 
technical assistance to member agencies to facilitate delivery of RISS 
services. This personal interaction with member agencies significantly 
improves information sharing and ensures that member agencies are 
provided with quality and timely service.
    Centers also offer additional services based on regional and member 
agency needs.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission

    Thank you for the opportunity to submit our testimony to this 
Committee to provide our funding requests on the Department of Commerce 
fiscal year 2009 appropriations. My name is Billy Frank, and I am the 
Chairman of the Northwest Indian Fisheries Commission (NWIFC). The 
NWIFC is made up of the twenty Tribes party to the United States vs. 
Washington litigation. The NWIFC supports an increase in funding over 
that proposed by the Administration for both the NOAA Fisheries and the 
NOAA-National Ocean Service (NOS) budgets. These budgets should, at a 
minimum, be that of the fiscal year 2006 enacted levels, with 
additional monies as described below that support key Federal and State 
partnerships with the twenty (20) Treaty Indian Tribes in Western 
Washington.

           SUMMARY OF FISCAL YEAR 2009 APPROPRIATIONS REQUEST
                        NWIFC SPECIFIC REQUESTS

    $110 million for the Pacific Coastal Salmon Recovery Fund with a $9 
million allocation for the twenty affected Treaty Tribes and the 
Northwest Indian Fisheries Commission in Western Washington for their 
management responsibilities (NOAA/National Marine Fisheries).
    $3.17 million for the Tribal Ocean Ecosystem Initiative (NOAA/
National Ocean Service).

                       JUSTIFICATION OF REQUESTS

$110 million for the Pacific Coastal Salmon Recovery Fund with a $9 
        million allocation for the twenty affected Treaty Tribes in 
        Western Washington and the Northwest Indian Fisheries 
        Commission
    The Pacific Coastal Salmon Recovery Fund (PCSRF) is a multi-state, 
multi-tribe program established by Congress in fiscal year 2000 with a 
primary goal to help recover wild salmon throughout the Pacific 
Northwest and Alaska. The PCSRF seeks to aid the conservation, 
restoration and sustainability of Pacific salmon and their habitats by 
financially supporting and leveraging local and regional efforts. 
Recognizing the need for flexibility among Tribes and the States to 
respond to salmon recovery priorities in their watersheds, Congress 
earmarked the funds for salmon habitat restoration, salmon stock 
enhancement, salmon research, and implementation of the 1999 Pacific 
Salmon Treaty Agreement, as well as related agreements. PCSRF is making 
a significant contribution to the recovery of wild salmon throughout 
the region.
    The Tribes' objectives for use of the PCSRF is to restore and 
protect essential habitat that promotes the recovery of ESA listed 
Puget Sound Chinook, Hood Canal Summer chum, Puget Sound steelhead, 
Lake Ozette sockeye, and other salmon populations in the Puget Sound 
and Washington Coast. These species are essential for Western 
Washington Tribes to exercise their treaty-reserved fishing rights 
consistent with U.S. vs. Washington and Hoh vs. Baldrige. These funds 
will support policy and technical capacities within Tribal resource 
management departments to plan, implement, and monitor recovery 
activities.
    Since the program's inception, Pacific Coastal Tribes, including 
the 20 Treaty Tribes in Western Washington, have used PCSRF monies to 
remove 79 fish passage barriers--open access to 47 stream miles; 
restore 282 miles of instream habitat; restore 747 acres and 113 stream 
miles of riparian habitat; restore 129 acres of wetland habitat and 
protect 288 acres of habitat through land acquisition, easement or 
lease. The Tribes are also using these funds to implement the recovery 
plan for ESA-listed Puget Sound Chinook recently approved by NOAA.
    Unfortunately, the PCSRF monies have decreased over the past few 
years from the original amount of $110 million that was appropriated in 
2000 to $67 million in 2008. In the fiscal year 2009 budget proposal 
the Administration seeks to further decrease funding to $35 million for 
this very important program. The Tribes originally were slated to 
receive 10 percent of the overall amount, but with the declining base, 
the Tribal amount has dwindled precipitously. Restoration of these 
monies to the $110 million level will support the original intent of 
Congress and enable the Federal government to fill its obligations to 
salmon recovery and the Tribes.
$3.17 million for Tribal Ocean Ecosystem Initiative from the National 
        Ocean Service
    The Hoh River Tribe, Makah Tribe, Quileute Tribe, and the Quinault 
Indian Nation have deep connections to the marine resources off the 
coast of Washington. They have pioneered cooperative partnerships with 
the State of Washington and the Federal government in an effort to 
advance the management practices in the coastal waters. However, to be 
an effective partnership, the Tribes and their partners need additional 
funding. These requests are as follows:
            Intergovernmental Policy Council (IPC) $1.10 million
    The four Tribes, the State of Washington and NOAA National Ocean 
Service, through the Marine Sanctuary Program, have formed the 
Intergovernmental Policy Council (IPC). The IPC is intended to 
strengthen management partnerships through coordination and focus of 
work efforts. Through this partnership, the entities hope to maximize 
resource protection and management, while respecting existing 
jurisdictional and management authorities. While the IPC has received 
some funding from the Marine Sanctuary Program, the current funding 
does not provide for full participation in activities that will build 
the partnerships necessary to coordinate management and research 
activities within the Olympic Coast National Marine Sanctuary.
    For the IPC to continue to expand its capacity for program 
operations, technical staff participation and development of 
collaborative research efforts, long-term program funding is needed. 
The four coastal treaty Indian Tribes, the State of Washington and the 
Olympic Marine Sanctuary needs $1.10 million in fiscal year 2009 to 
support their IPC efforts to transition into an ocean ecosystem-based 
management system.
    As existing marine resource management transitions to an ecosystem-
based management approach a forum and coordinating body such as the IPC 
will need the capacity to collect and organize information that will 
propel discussions and recommendations into decisions and actions.
            Rockfish Assessment and Habitat Mapping $2.07 million
    The Hoh River Tribe, Makah Tribe, Quileute Tribe, Quinault Indian 
Nation and the state hope to conduct a five-year ocean monitoring and 
research initiative to support and transition into an ecosystem-based 
management of rockfish. The proposal would augment the National Oceanic 
and Atmospheric Administration existing Northwest Science Center trawl 
survey data with additional State and Tribal survey data from areas 
currently not sampled on the continental shelf and slope. It would also 
expand the existing groundfish port sampling program for the region. 
Both of these data sources are essential to evaluate stock status and 
abundance. Finally, it would accomplish a comprehensive assessment of 
the coastal ecosystem and its associated species groups.
    Effective management of the ocean ecosystem and its associated 
resources requires the development of baseline information against 
which changes can be measured. This initiative will expand on and 
complement existing physical and biological databases to enhance 
ecosystem-based management capabilities. In turn, this will support 
ongoing efforts by the State and Tribes to become more actively engaged 
in the management of offshore fishery resources. Transition to 
ecosystem-based management requires expansion of the current resource 
assessment surveys and ocean monitoring systems off the Olympic coast.
    Effective conservation actions for rockfish and other groundfish 
species will depend on accurate knowledge and distribution of sea-floor 
habitat types and species found within the region. The establishment of 
this finer-scale biological database is an essential step toward 
improving the region's forecasting capability of stock status and 
abundance.
    The partners hope to:
  --Conduct a comprehensive stock assessment of rockfish resources 
        found along the continental shelf and slope off the Olympic 
        coast and enhance the existing groundfish port sampling 
        efforts.
  --Convene a State, Tribal and Federal technical workgroup to develop 
        the sampling protocols and assessment methodologies necessary 
        to incorporate this additional survey information into the 
        annual Federal stock assessment and forecasting process.
  --Increase biological sampling through the expansion of State and 
        Tribal port sampling in Westport, La Push and Neah Bay to 
        ensure complete coverage of all groundfish fisheries (such as 
        sablefish, flatfish and lingcod), of which rockfish are a 
        component of the catch.
  --Complete multi-beam side-scan sonar mapping and surveying of the 
        seabed off the Olympic coast in cooperation and partnership 
        with the Olympic Coast National Marine Sanctuary.
  --Collaborate on a research plan with the Olympic Coast National 
        Marine Sanctuary and assist in completing the sonar mapping of 
        seafloor relief and substrate.
  --Develop a State and Tribal collaborative effort to address emerging 
        ecosystem management concerns such as the status and abundance 
        of deep-water coral and sponge communities that benefit the 
        entire region.
    The economic value associated with effective marine resource 
protection is huge. Not only are marine areas crucial for our natural 
resources and those that use them; they are bridges of commerce between 
nations and continents. Healthy oceans are essential if we value stable 
climates that will sustain our economies and our lives. Tribes must be 
partners in the efforts to research, clean up and restore the environs 
necessary to deal with identified problems.

                               BACKGROUND

    When our ancestors signed treaties, ceding millions of acres of 
land to the United States government, they reserved fishing, hunting 
and gathering rights in all traditional areas. These Constitutionally-
protected treaties, the Federal Trust Responsibility and extensive case 
law, including the U.S. vs. Washington Decision of 1974, all 
consistently support the role of Tribes as natural resource managers, 
on and off reservation. In Washington State, these provisions have 
developed into a generally successful co-management process between the 
Federal, State and Tribal governments. The co-management route is the 
one and only path that leads to true sustainability in our region, and 
is the tool that must be used to meet the many environmental challenges 
we face, such as polluted and over-appropriated waters, species decline 
and climate change. Treaties are nation-to-nation accords, and Tribes 
have always been outstanding natural resource managers and stewards of 
the land.
    However, the Federal government has chosen to cut funding to 
natural resource management programs over the past six years. There is 
no question that this jeopardizes the bond of trust between our 
governments. It also jeopardizes management programs and infrastructure 
critically important to co-management and to the health and vitality of 
natural resources, and the Tribal and non-tribal people they sustain. 
The timing of funding cuts could not have been worse. We are facing 
many environmental and natural resource management challenges in the 
Pacific Northwest, caused by human population expansion and urban 
sprawl, increased pollution problems ranging from storm water runoff to 
de-oxygenated or ``dead'' areas in the Hood Canal, parts of Puget Sound 
and in the Pacific Ocean. The pathway to the future is clear to us. The 
Federal, State and Tribal governments must strengthen our bond and move 
forward, together, with the determination and vigor it will take to 
preserve our heritage. Together, we must focus on the needs of our 
children, with an eye on the lessons of the past.

                              OUR MESSAGE

    Our message to you now is that achieving such objectives requires 
adequate funding. The Tribes strive to implement their co-management 
authority and responsibility through cooperative and collaborative 
relationships with the State and local communities. We constantly seek 
ways to restore and manage these precious natural resources in a manner 
that can be supported by all who live in this area. The work the Tribes 
do benefits all the citizens of the State of Washington, the region and 
the nation. But the increasing challenges I have described and the 
growing demand for our participation in natural resource/environmental 
management requires increased investments of time, energy and funding. 
Restoring and protecting these natural resources is essential to the 
economy and the quality of life that is so valued by those who live in 
the Northwest.
    We are sensitive to the budget challenges that Congress faces. We 
recognize that this Administration has greatly reduced the allocation 
to discretionary domestic spending during the last several years, which 
makes it increasingly difficult to address the many requests you 
receive. Still, we urge you to maintain and increase the allocation and 
appropriations for priority ecosystem management initiatives. The need 
for an ecosystem-based management approach for Washington's marine 
waters have come into sharp focus in recent years with major studies by 
the U.S. Commission on Ocean Policy and the Pew Charitable Trust. In 
its report, ``An Ocean Blueprint for the 21st Century,'' the Ocean 
Commission essentially concluded that the oceans are sick, and 
estimated the costs for reversing declines and restoring coasts and 
oceans nationwide at about $4 billion annually. Follow through on that 
report has obviously not approached that level of investment--and it 
might not for some time. But, for the sake of sustainable health, 
economies and the natural heritage of this resource, it is critically 
important for Congress to do more than it has, and to direct Federal 
agencies to do even more to coordinate their efforts with State and 
Tribal governments.
    As frequently attributed to Chief Seattle (Sealth), Tribes believe 
all things are connected. That is why we believe only through a 
holistic ecosystem management approach can we find success in achieving 
a healthy environment and robust natural resources. However, all of 
this requires adequate funding.

                               CONCLUSION

    Clearly, Western Washington Tribes are leaders in the Northwest 
salmon recovery effort. The Tribes possess the legal authority, 
technical and policy expertise, and effective programs to address 
impacts on wild salmon from harvest and hatcheries.
    The Tribes are strategically located in each of the major 
watersheds, and no other group of people is more knowledgeable about 
the natural resources than the Tribes. No one else so deeply depends on 
the resource for their cultural, spiritual and economic survival. 
Tribes seize every opportunity to coordinate with other governments, 
and non-governmental entities, to avoid duplication, maximize positive 
impacts and emphasize the application of holistic ecosystem management. 
We continue to participate in resource recovery and habitat restoration 
on an equal level with the State of Washington and the Federal 
government because we understand the great value of such cooperation.
    We ask that the Senate help us in our efforts to protect and 
restore our great natural heritage and support our funding requests. 
Thank you.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission

    Mr. Chairman, my name is W. Ron Allen and I serve as an Alternate 
Commissioner on the Pacific Salmon Commission (PSC) and as the Chair of 
the Budget Committee for the U.S. Section of the Commission. The 
Pacific Salmon Treaty (Treaty) between the United States and Canada was 
established in 1985. An Agreement was concluded in June of 1999 (1999 
Agreement) that established new abundance-based fishing regimes under 
the Treaty and made other improvements in the Treaty's structure. 
During fiscal year 2009, the PSC will implement new Treaty fishing 
regimes that are currently being renegotiated. The U.S. Section 
recommends that Congress:
  --fund the Pacific Salmon Treaty Line Item of the National Marine 
        Fisheries Service at $8,000,000 for fiscal year 2009, restoring 
        $1,000,000 previously provided by Congress in fiscal year 2005. 
        This funding provides the technical support for the states of 
        Alaska, Washington, Oregon and Idaho and the National Marine 
        Fisheries Service to implement the salmon stock assessment and 
        fishery management programs required to implement the Treaty 
        fishing regimes. Included within the total amount of $8,000,000 
        is $400,000 to continue a joint Transboundary River Enhancement 
        Program as required by the Treaty.
  --fund the Pacific Salmon Treaty Chinook Salmon Agreement line item 
        of the National Marine Fisheries Service for fiscal year 2009 
        at $1,844,000, level funding from what was provided by Congress 
        for fiscal year 2008. This funding continues to be necessary to 
        acquire the technical information to implement abundance-based 
        Chinook salmon management program provided for under the 
        Treaty.
    The base Treaty implementation projects include a wide range of 
stock assessment, fishery monitoring, and technical support activities 
for all five species of Pacific salmon in the fisheries and rivers from 
Southeast Alaska to those of Washington, Oregon, and Idaho. The states 
of Alaska, Washington, Oregon, and Idaho, and the National Marine 
Fisheries Service (NMFS), are charged with carrying out a major portion 
of the salmon fishery stock assessment and harvest management actions 
required under the Treaty. Federal funding for these activities is 
provided through NMFS on an annual basis. The agency projects carried 
out under PSC funding are directed toward acquiring, analyzing, and 
sharing the information required to implement the salmon conservation 
and sharing principles of the Treaty. A wide range of programs for 
salmon stock size assessments, escapement enumeration, stock 
distribution, and catch and effort information from fisheries, are 
represented. The information from many of these programs is used 
directly to establish fishing seasons and harvest levels.
    Congress increased this funding in fiscal year 2005 to a total of 
$8,000,000 to provide for programs needed to implement the new 
abundance-based fishing regimes established under the 1999 Agreement, 
but the level was reduced in subsequent years. The U.S. Section 
recommends that $8,000,000 be restored in fiscal year 2009 to allow 
full implementation of Treaty provisions. The 1999 Agreement and the 
fishery regimes currently being renegotiated, include fishing 
arrangements and abundance-based management approaches for Chinook, 
southern coho, Northern Boundary and Transboundary River fisheries. The 
$400,000 that has been provided since 1988 for a joint Transboundary 
River enhancement program with Canada is included in this amount.
    In 1996, the United States adopted an abundance-based approach to 
managing Chinook salmon fisheries in Southeast Alaska. Under this 
approach, Chinook harvest levels are based on annual estimates of 
Chinook abundance. This system replaced fixed harvest ceilings agreed 
to in 1985, which did not respond to annual fluctuations in Chinook 
salmon populations. Under the 1999 Agreement, this abundance-based 
management approach was expanded to all Chinook fisheries subject to 
the Treaty. Beginning in fiscal year 1998, Congress provided $1,844,000 
to allow for the collection of necessary stock assessment and fishery 
management information to implement the new approach. Through a 
rigorous competitive technical review process, the states of Alaska, 
Washington, Oregon, and Idaho, and the twenty-four treaty tribes are 
using the funding to support research and data collection needed to 
implement abundance-based Chinook salmon management coast-wide under 
the new Agreement. The U.S. Section recommends level funding of 
$1,844,000 for fiscal year 2009 to support the implementation of 
abundance-based Chinook salmon management.
    The United States and Canada agreed in 1988 to a joint salmon 
enhancement program on the Transboundary Rivers, which rise in Canada 
and flow to the sea through Southeast Alaska. Since 1989, Congress has 
provided $400,000 annually for this effort through the National Marine 
Fisheries Service International Fisheries Commission line item under 
the Conservation and Management Operations activity. Canada provides an 
equal amount of funding and support for this bilateral program. This 
funding is included in the $8,000,000 the U.S. Section is recommending 
for the fiscal year 2009 NMFS Pacific Salmon Treaty line item.
    This concludes the statement of the U.S. Section of the PSC 
submitted for consideration by your Committee. We wish to thank the 
Committee for the support that it has given us in the past.

  SUMMARY OF PROGRAM FUNDING FOR THE U.S.-CANADA PACIFIC SALMON TREATY
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Department of Commerce: Pacific Salmon Treaty Line
 Item:
    Fiscal year 2007 appropriation....................        $7,000,000
    Fiscal year 2008 appropriation \1\................         5,592,000
    Fiscal year 2009 administration request...........         5,616,000
    Fiscal year 2009 U.S. Section recommendation......         8,000,000
Pacific Salmon Treaty--Chinook Salmon Agreement Line
 Item:
    Fiscal year 2007 appropriation....................         1,844,000
    Fiscal year 2008 appropriation....................         1,844,000
    Fiscal year 2009 administration request...........         1,844,000
    Fiscal year 2009 U.S. Section recommendation......         1,844,000
------------------------------------------------------------------------
\1\ The recommended fiscal year 2008 amount includes $400,000 provided
  for the Joint Transboundary River Enhancement Program previously
  funded under the NMFS International Fisheries Commission account.

                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team

    Thank you and I am honored for the opportunity to submit this 
testimony on behalf of the Independent Tribal Court Review Team. I 
would like to address the serious funding needs of Tribal Courts and 
our requests and recommendations for the fiscal year 2009 budget for 
the Office of Tribal Justice in the Department of Justice.
    For the past two years, our Independent Review Team, under a 
commercial contract by the BIA, has been traveling throughout Indian 
Country reviewing 25 Tribal and CFR Courts. The scope of our research 
project, the first of its kind, was to: (1) Provide assistance to 
Tribes by performing an assessment of their Tribal Courts; and (2) 
provide information to the BIA and Office of Management and Budget 
(OMB) regarding the status of Tribal Courts.
    We are confident that this is the most comprehensive information 
compilation effort ever undertaken, and completed, regarding Tribal 
Courts and it is the strong recommendation of the Independent Tribal 
Courts Review Team that the Federal Tribal Courts budget be 
substantially increased in the fiscal year 2009 budget. Our Team has 
been to 25 Tribal Courts and we feel safe in saying that there is no 
one with more awareness of the current needs of Tribal Courts than our 
Review Team.
Budget Priorities, Request and Recommendations--$70.0 Million
    +$58.4 million authorized under the Indian Tribal Justice Act of 
1993, Public Law 103-176, 25 USC 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds to date).
    +$11.6 million above the fiscal year 2008 enacted level for Tribal 
Courts.
    Support the continuance of set-asides in the Office of Tribal 
Justice Programs.

Justification
    There are approximately 299 tribal judicial systems in Indian 
country and 156 of these tribal and BIA Courts of Indian Offenses, 
commonly referred to as CFR Courts (Code of Federal Regulations), are 
BIA funded. All Tribal Court operational costs are funded under 
contracts, which provide less than 74 percent of need.
    The President's fiscal year 2008 enacted levels are inadequate to 
support the operations and utility of the Tribal Justice Systems. We 
respectfully request Congress to take a close look at these funding 
levels. Our research did not identify any area that could withstand a 
decrease without causing harm to Tribal Court systems and Indian 
people. Specifically, we request the following funding in the fiscal 
year 2009 budget above the fiscal year 2008 enacted levels:

------------------------------------------------------------------------
                                      Fiscal Year 2008  Fiscal Year 2009
             Line Items                    Enacted       Tribal Requests
------------------------------------------------------------------------
Tribal Courts.......................    $8.630 million    +$11.6 million
Tribal Grants:
    Youth Programs..................      14.1 million       +10 million
    Indian Alcohol & Substance Abuse     5.180 million       +10 million
    Construction....................     8.630 million       +10 million
    Sex Offender....................           940,000        +5 million
Indian Country Detention Centers....     8.630 million       +10 million
------------------------------------------------------------------------

    The Justice Department has developed grants for a variety of 
current Tribal Courts programs. Unfortunately, those grants will 
eventually run out and it is doubtful that most Tribes will have the 
funds to continue to provide those services. Some Tribes, 
unfortunately, do not place a priority on seeking grant funds for 
exactly this reason. In addition, some of those grants fund what are 
generally considered to be permanent Court needs, such as Judge or 
clerk. As Examiners, we mention to Tribes that they should not rely on 
grant funds as permanent funding. However, most Tribes have few other 
means to fund permanent positions. Federal resources used for temporary 
grant-funded Tribe Court initiatives too often turn out to be temporary 
programs. (We also note that the Tribes who need the most assistance 
tend to be the Tribes least able to acquire grant funds.) We wonder if 
it would be better if such funding were placed into a permanent Tribal 
Court funding account.
    It is a positive thing if a Tribe has recognized some Court needs 
and used its grant writers to find grant money to address those needs. 
To decrease the potential for harm when those funds are discontinued, 
those programs should contain or require the Tribe to develop formal 
plans for when the funds no longer exist. This would include, for 
example, redistribution of a caseload, records transfer and seeking new 
continuation funding. We general recommend the Court develop formal 
plans to address what will happen to projects in planning for the 
eventual loss of grant funds, particularly for those projects and 
positions, which would otherwise be considered permanent.
    It is to the credit of many Tribes that they do seek and have had 
success in obtaining grant funds for the Courts. Grant funds enable the 
Court to supplement staff or develop programs needed by the Tribe. 
Several areas, funded through grants, have proven to be successful, 
regardless of how brief the grant is and regardless of the relative 
size and wealth of the Tribe. This includes Computerization, Staff 
Development and Training, Code Development and grants curbing 
Methamphetamine Abuse.
    Tribes are expected to make do with money from the Bureau of Indian 
Affairs (BIA). The elimination of these funds will be catastrophic to 
the Tribal Courts and Judicial Systems. The remaining funds will only 
assist a small number of Tribes, hardly the intent of the Indian Tribal 
Justice Act. It was the intent of all involved to examine and determine 
the adequacy of the current Federal funding levels for Tribal Courts. 
Our research indicates that Tribal Courts are at a critical stage in 
terms of need. Tribal Court systems have Trial and Appellate Courts, 
conduct jury trials, within Courthouses that need improvements, and 
Tribal Bar listings and fees. Nationwide, there are 156 Tribes with 
Courts that receive Federal Funding. These Tribes divide a mere $11.4 
million in Federal funds. Tribal Courts must deal with the very same 
issues state and Federal Courts confront in the criminal context, 
including, child sexual abuse, alcohol and substance abuse, (namely 
Methamphetamine), gang violence and violence against women just to name 
a few. Tribal Courts, however, must address these complex issues with 
far less financial resources than their Federal and state counterparts.
    It is clear that Tribal Courts and justice systems are vital and 
important to the communities where they are located. Tribes value and 
want to be proud of their Court systems. There are many positive 
aspects about Tribal Courts. After decades of existence, many Tribal 
Courts, despite minimal funding, have achieved a level of experience 
and sophistication approaching, and in some cases surpassing, local 
non-Indian Courts. Tribal Courts, through the Indian Child Welfare Act, 
have mostly stopped the wholesale removal of Indian children from their 
families. Indian and Non-Indian Courts have developed formal and 
informal agreements regarding jurisdiction. Tribal governments have 
recognized the benefit of having law-trained Judges, without doing away 
with Judges who have cultural/traditional experience. Judicial training 
that addresses the existing problems in Indian Country, while also 
being culturally sensitive, is essential if our efforts are to be 
effective in deterring and solving crime in Indian communities.
    With the passage of the Indian Tribal Justice Act, Public Law 103-
176, 25 U.S.C.  3601 et seq. (the ``Act''), Congress found that 
``[T]ribal justice systems are an essential part of tribal governments 
and serve as important forums for ensuring public health, safety and 
the political integrity of tribal governments.'' 25 U.S.C.  3601(5). 
Congress found that ``tribal justice systems are inadequately funded, 
and the lack of adequate funding impairs their operation.'' 25 U.S.C.  
3601(8). In order to remedy this lack of funding, the Act authorized 
appropriation of base funding support for tribal justice systems in the 
amount of $50 million for each of the fiscal years 1994 through 2000. 
25 U.S.C.  3621(b). An additional $500,000 for each of the same fiscal 
years was authorized to be appropriated for the administration of 
Tribal Judicial Conferences for the ``development, enhancement and 
continuing operation of tribal justice systems . . .'' 25 U.S.C.  
3614.
    Our research also indicates that grant programs at Justice were 
only moderately effective. Tribes often did not have funding to 
maintain grant funded programs after the conclusion of the grant. These 
programs were often eliminated after the conclusion of the grant. We 
did, however, identify several areas where grants were, or could be 
effective. These are grants providing for:
  --Computer Upgrade, Training and Court Management Software.--Tribes 
        generally do not have available funds to upgrade their use of 
        computer technology. Increased use of computer technology 
        improves the function of the Court and even may result in Court 
        staff savings due to the decreased staff time needs.
  --Digitizing of Tribal Codes.--Tribes most often collect their Codes 
        in very large three ring binders. Everyone does not always 
        receive new law. It is difficult to obtain a copy of the Code. 
        If Codes are digitized, they can be easily distributed on CD 
        and even be placed on the Tribal website. The result is a more 
        efficient system
  --Development of MOU/MOAs with Local Non-Indian Jurisdictions.--There 
        is a large and growing problem resulting from the Oliphant 
        Case. Tribal jurisdictions have no control over unlawful acts 
        committed by non-Indian offenders. This has specifically 
        resulted in drug dealers and methamphetamine labs moving on to 
        Indian lands. Many Tribes and non-Indian jurisdictions have 
        developed MOU/MOAs that provide for jurisdictional compromise 
        between Law Enforcement and Courts. More of these agreements 
        should be encouraged.
  --Administration of Tribal Courts.--Tribal legislatures and 
        Administration generally have several areas of relationship; 
        including hiring, payroll, and financial administration of the 
        Court. Often, Tribal governments are confused and very 
        concerned about where to draw the line regarding the 
        relationship with the Court. They do not want to violate the 
        Courts independence. Tribes need help to formally develop the 
        relationship between the Courts and other governmental 
        entities. This may include such things as development of an 
        over-site committee and a judicial employment contract.

Independent Tribal Court Review Team Report Findings
    The Independent Tribal Court Review Team completed the Tribal & CFR 
Court Reviews Project Fiscal Year 2006 Final Report. The Report 
contains 132 findings regarding all areas involving Tribal Courts. Many 
of the findings support the recommendations made above, including 
several indicating that Tribal Courts are under-funded. We list some of 
these below:
  --Finding #38.--The Federal Funds are inadequate to fund most Court 
        needs. Other Court needs such as technology, supplies, travel 
        and training, are usually assumed by the Tribe. These needs are 
        often provided by decreasing available funds for Tribal 
        Programs. Or, the needs are simply not provided and the Courts 
        must make due without these services.
  --Finding #32.--Almost all Courts are under-funded. Court budgets 
        vary widely. When you get beyond the few Tribes with very 
        successful economic development ventures, a substantial number 
        of the Courts, approximately 90 percent, are under-funded. They 
        are missing staff positions and common items such as a safe, a 
        Court recording system, telephone systems, or security systems. 
        Almost every Court that is under-funded is still mostly 
        functional.
  --Finding #33.--Many are under-funded at a critical level. Some 
        contracted Courts are very poor. There are Courts with only a 
        part-time Judge and a Clerk. They must rely on Administration 
        for simple items, such as printer ink. There is no training. 
        Salaries are below the poverty level. We have seen Courts that 
        operate on less than $25,000 per year. We have seen groups of 
        Tribes with low Federal funding numbers joined into a single 
        overworked Court system that can only provide limited service.
  --Finding #6.--A very small number of Tribes have large amounts of 
        available economic development funds. These Tribes (about 10 
        percent) are those few with very successful economic 
        development ventures. These Tribes contribute 90 percent or 
        more of the funding to their Courts. These Tribes pay well, 
        they have several Attorneys on staff, including on the Court 
        staff and have fully funded law enforcement. These Tribes are 
        better trained and experientially and financially able to deal 
        with Court matters, including criminal matters, than local 
        city, county and state governments.
  --Finding #5.--Most Tribal economic development funds provide jobs 
        and pay for a modest amount of other governmental services. The 
        biggest fallacy about Indian Nations is that gaming has made 
        all Tribes rich. (This fallacy isn't always bad. It often 
        encourages non-Indian governments and law enforcement to work 
        with the Tribe.) The vast majority of Tribes has limited 
        economic development that (1) funds itself and (2) can modestly 
        assist Tribal programs and the Court budgets. A portion of 
        Tribes has no economic development or economic development that 
        only funds itself.
    Finally, the Indian Civil Rights Act: A Report of the United States 
Civil Rights Commission, June 1991 found that ``the failure of the 
United States Government to provide proper funding for the operation of 
tribal judicial systems . . . has continued for more than 20 years.'' 
The Commission also noted that ``[f]unding for tribal judicial systems 
may be further hampered in some instances by the pressures of competing 
priorities within a tribe.'' Moreover, they opined that ``If the United 
States Government is to live up to its trust obligations, it must 
assist tribal governments in their development . . .'' More than 
sixteen years ago, the Commission ``strongly support[ed] the pending 
and proposed Congressional initiatives to authorize funding of Tribal 
Courts in an amount equal to that of an equivalent State Court'' and 
was ``hopeful that this increased funding [would] allow for much needed 
increases in salaries for judges, the retention of law clerks for 
tribal judges, the funding of public defenders/defense counsel and 
increased access to legal authorities.''
    We are still hopeful that these recommendations will come to 
fruition!
    On behalf of the Independent Tribal Court Review Team: Charles D. 
Robertson Jr., Esquire, the Honorable Philip D. Lujan, Court Reporter 
Myrna Rivera and the Honorable Elbridge Coochise, thank you again for 
your consideration of these requests. Should you have any questions, 
please feel free to contact Team Leader Elbridge Coochise at 602-418-
8937 or Charles D. Robertson, Jr. at 605-390-0061.
                                 ______
                                 
          Prepared Statement of the American Chemical Society

    The American Chemical Society (ACS) appreciates the opportunity to 
submit public testimony to the Commerce, Justice, Science and Related 
Agencies Subcommittee on the fiscal year 2009 budget for the National 
Science Institute of Standards and Technology (NIST).
    The ACS is a nonprofit scientific and educational organization, 
chartered by Congress in 1937, with more than 160,000 chemical 
scientists and engineers as members. The world's largest scientific 
society, ACS advances the chemical enterprise, increases public 
understanding of chemistry and science, and brings its expertise to 
bear on state and national matters.
    Investments in NIST advanced research, measurement methods, and 
standards are vital to American industry as well as the nation's 
economic competitiveness and security. Increased funding is necessary 
to meet ongoing private sector needs for NIST measurements and 
standards, as well as the growing needs in homeland security, advanced 
manufacturing, climate, and nanotechnology. America's future 
competitiveness will be enhanced through sustained, predictable federal 
investments in science agencies like NIST.
    Specifically, the ACS urges Congress to support the $634 million 
funding level (5.5 percent increase over fiscal year 2008) for the NIST 
core programs as outlined in the President's fiscal year 2009 budget 
request. While this falls short of the level authorized to enhance U.S. 
innovation and competitiveness in the America COMPETES Act passed last 
summer with overwhelming bipartisan support, we hope that Congress will 
strive to return to this funding blueprint over time. Additionally, the 
ACS supports the $535 million request for NIST laboratories (21.3 
percent increase over fiscal year 2008). However, we strongly dissent 
from the proposed termination of the Technology Innovation Program 
(TIP) and urge Congress to fund the program at its authorized level of 
$131.5 million.

NIST Laboratories
    NIST laboratories serve as the technological nerve center for 
countless products and services across industries. By advancing 
research and extremely accurate measurement technology, NIST enables 
universal quality-control technologies that undergird industrial 
productivity, efficiency improvements, and faster product development. 
NIST also plays a critical role in advancing public health and safety, 
environmental progress, and national security. For example, NIST's 
calibration and related measurement methods are critical in areas such 
as emission control, fuel-composition control, laser eye surgery, 
smoke-detector sensitivity, electricity-meter readings, energy-
efficiency measurement, and the operation of fiber optics. The ACS 
strongly supports the $535 million request for NIST laboratories.
    However, we remain concerned that recent cuts in standards-related 
programs have hampered NIST's ability to promote U.S. standards and to 
facilitate global trade. Without NIST's consensus-based measurement 
standards, companies would be less innovative, less efficient, and less 
competitive. Independent studies show that every dollar invested in 
NIST measurement and standards returns at least three dollars in 
national economic benefit.
    Additionally, the ACS supports the request for $99 million for NIST 
facilities. These funds support facility improvements and acquisition 
of cutting-edge equipment in Boulder, Colorado, and Gaithersburg, 
Maryland. In previous years, in excess of $100 million was used 
annually to support projects peripheral to the NIST mission. As a 
result, NIST facilities are suffering to the point of becoming 
ineffective for cutting-edge research.

Technology Innovation Program
    The ACS continues to support NIST's Technology Innovation Program 
(TIP), established to support, promote, and accelerate innovation in 
the United States through high-risk, high-reward research in areas of 
critical national need. This program enables small- and medium-sized 
businesses to work in joint ventures and with universities to 
commercialize high-risk technologies. Without this program, the United 
States would continue to be at a global competitive disadvantage if 
these businesses, the traditional incubators of innovation, could not 
pursue high-risk opportunities. ACS strongly opposes the 
administration's proposed termination of TIP. We urge Congress to fully 
fund TIP (as was the practice to restore funding to the Advanced 
Technology Program--TIP's predecessor) at the $131.5 million level 
authorized by the America COMPETES Act (Public Law 110-69) for fiscal 
year 2009.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    To the Chairwoman and Members of the Subcommittee: The American 
Geological Institute (AGI) supports fundamental Earth science research 
sustained by the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), the National Institute 
of Standards and Technology (NIST) and the National Aeronautics and 
Space Administration (NASA). Frontier research on Earth, energy and the 
environment has fueled economic growth, mitigated losses and sustained 
our quality of life. The Subcommittee's leadership in expanding the 
federal investment in basic research is even more critical as our 
nation competes with rapidly developing countries, such as China and 
India, for energy, mineral, air and water resources. Our nation needs 
skilled geoscientists to help explore, assess and develop Earth's 
resources in a strategic, sustainable and environmentally-sound manner 
and to help understand, evaluate and reduce our risks to hazards. AGI 
supports a total budget of $7.32 billion for NSF (as authorized in the 
America COMPETES Act of 2007--Public Law 110-69); $542 million for 
Scientific and Technical Research and Services at NIST (as authorized 
in America COMPETES Act); $4.5 billion for NOAA (an increase of $400 
million over the request to maintain core programs and infrastructure), 
and $4.869 billion for the Science Mission Directorate at NASA (an 
increase of about $428 million over the request to maintain core 
research and missions).
    The President's American Competitiveness Initiative and the America 
COMPETES Act of 2007 supports a doubling of physical science research 
at NSF and NIST, while noting the importance of robust research and 
science education programs at NASA and NOAA. AGI strongly supports both 
initiatives and the inclusion of Earth science in such efforts.
    AGI is a nonprofit federation of 44 geoscientific and professional 
societies representing more than 100,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.

NSF
    We applaud the President's request for a 13 percent increase for an 
overall budget of $6.854 billion for NSF and the Administration's 
commitment to the American Competitiveness Initiative. We hope that the 
Subcommittee can strengthen our research and science education 
initiatives by funding NSF at an overall budget of $7.32 billion which 
is consistent with the amount authorized in the America COMPETES Act of 
2007. NSF remains under funded and would benefit from an increase of 
about $466 million over the request in fiscal year 2009. AGI believes 
that such a forward-looking investment in tight fiscal times will pay 
important dividends in future development and innovation that drives 
economic growth, especially in critical areas of sustainable and 
economic natural resources and reduced risks from natural hazards.
    NSF Geosciences Directorate.--The Geosciences Directorate is the 
principal source of federal support for academic Earth scientists and 
their students who are seeking to understand the processes that 
ultimately sustain and transform life on this planet. The President's 
budget proposal requests an increase of about 13 percent (about $96 
million) for a total budget of about $849 million, which AGI strongly 
supports.
    The President's request for fiscal year 2009 asks for $260.58 
million for Atmospheric Sciences, $177.73 million for Earth Sciences, 
$353.5 million for Ocean Sciences and $56.82 million for Innovative and 
Collaborative Education and Research (ICER) within the Geosciences 
Directorate. Much of the geosciences research budget is for 
understanding that is critical for current national needs, such as 
climate change, water and mineral resources, energy resources, 
environmental issues and mitigation of natural hazards. AGI asks the 
Subcommittee to strongly support these essential investments and 
requests that these investments be used for research.
    A significant concern for NSF and GEO is the rising costs of 
materials, infrastructure, and operations and maintenance. Costs for 
drilling, ships, instrumentation and raw materials are sky-rocketing as 
the supply and demand for these has increased in the public and private 
sector. Unexpected shortages, increasing competition and growing demand 
is significantly increasing the cost of basic research in GEO. This is 
one reason for NSF's decision to defer the Alaska Region Research 
Vessel (ARRV) and the Ocean Observatories Initiative (OOI) which would 
receive no funding from the Major Research Equipment and Facilities 
Construction (MREFC) account, but would instead receive about $7.5 
million from the GEO Research and Related Activities account for 
planning.
    Infrastructure and operation and maintenance costs for facilities 
are coming directly from the research budget within GEO. Among the 
major facilities, the Academic Research Fleet would receive $87.96 
million, EarthScope Operation would receive $26.29 million, 
Incorporated Research Institutions for Seismology (IRIS) would receive 
$12.2 million, Ocean Drilling Activities would receive $47.4 million, 
Ocean Observatories would receive $10.5 million and the National Center 
for Atmospheric Research would receive $95.42 million. These facilities 
are essential for not only basic research but also for addressing 
critical issues facing the nation, such as climate change, energy and 
mineral resources, water resources and hazards mitigation. Funding for 
these facilities, many of which have been operating for decades, must 
remain robust and require an infusion of funds approaching $300 
million. Therefore AGI strongly supports the congressionally mandated 
budget of $7.32 billion for NSF in fiscal year 2009 and asks that a 
significant fraction of the $466 million increase relative to the 
President's request be used to support facilities, whose operating 
funds are coming from the research budget of GEO.
    We would encourage the general increase for GEO to focus on funding 
research, which means providing essential support to the faculty, 
staff, post-doctoral researchers, graduate students and undergraduate 
students at universities and other educational/research institutions 
across the nation. The outstanding facilities being maintained by GEO 
require investments in outstanding human capital through competitive 
research grants. Now is the time to boost Earth science research and 
education to fill the draining pipeline of skilled geoscientists and 
geo-engineers working in the energy industry; the construction 
industry, particularly on levees and dams; the environmental industry; 
the academic community, particularly on understanding natural hazards 
and the sustainability of our natural resources; the primary federal 
Earth science agencies, such as the United States Geological Survey; 
and in all areas of education.
    NSF Support for Earth Science Education.--Congress can improve the 
nation's scientific literacy by supporting the full integration of 
Earth science information into mainstream science education at the K-12 
and college levels. AGI supports the Math and Science Partnership (MSP) 
program, a competitive peer-reviewed grant program that funds only the 
highest quality proposals at NSF. The NSF's MSP program focuses on 
modeling, testing and identification of high-quality math and science 
activities whereas the Department of Education MSP program does not. 
The NSF and Department of Education MSP programs are complementary and 
are both necessary to continue to reach the common goal of providing 
world-class science and mathematics education to elementary and 
secondary school students. AGI opposes the transfer of the MSP from NSF 
to the Department of Education.

NOAA
    AGI appreciates the President's request for increased funding for 
NOAA for a total budget of $4.1 billion. Unfortunately, NOAA's funding 
has remained flat, at $3.9 billion since fiscal year 2005 and based on 
an annual inflation rate of 3 percent a budget of $4.4 billion in 
fiscal year 2009 would leave the agency's budget level in constant 
dollars. NOAA cannot support its core mission services including 
weather and severe storm forecasting, spill response, ocean observing, 
habitat restoration and conservation, and research on climate change, 
fisheries, and coastal and marine ecosystems without a more robust 
budget. We ask that the Subcommittee provide small increases (about 10 
percent increases to their total budgets) rather than proposed cuts to 
the National Ocean Service, the National Marine Fisheries Service and 
the Office of Atmospheric Research following the recommendations of the 
U.S. Commission on Ocean Policy. AGI also supports the additional 
increased funding for the National Weather Service for analysis, 
modeling and upgrading of observing systems and additional increases 
for the National Environment Satellite, Data and Information Service 
for the development of the Geostationary Operational Environmental 
Satellite (GOES-R) and the National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS). Both satellite systems will 
maintain a global view of the planet to continuously watch for 
atmospheric triggers of severe weather conditions such as tornadoes, 
flash floods, hailstorms, and hurricanes.

NIST
    We applaud the President's request for a 22 percent increase in 
research and related funding for NIST in fiscal 2009. Basic research at 
NIST is conducted by Earth scientists and geotechnical engineers and 
used by Earth scientists, geotechnical engineers and many others on a 
daily basis. In particular, we strongly support increases for 
Measurements and Standards for the Climate Change Science Program ($5 
million), Disaster Resilient Structures and Communities ($4 million) 
and the National Earthquake Hazards Reduction Program (NEHRP) ($3.3 
million). The climate change research will improve the accuracy of 
climate change measurements, may reduce satellite costs and may help to 
guide climate change policy. The hazards research will help to reduce 
the estimated average of $52 billion in annual losses caused by floods, 
fires and earthquakes. NIST is the lead agency for NEHRP, but has 
received only a small portion of authorized and essential funding in 
the past. AGI strongly supports a doubling of the NIST budget over 5 to 
7 years as authorized in the America COMPETES Act of 2007, so that core 
research functions at NIST are maintained, while needed funding for 
climate change and hazards are protected.

NASA
    AGI supports the vital Earth observing programs within NASA. 
Currently the topography of Mars has been measured at a more 
comprehensive and higher resolution than Earth's surface. While AGI is 
excited about space exploration and the President's Vision for 
Exploration, we firmly believe that NASA's Earth observing program is 
effective and essential to solving global to regional puzzles about 
Earth systems, such as how much and at what rate is the climate 
changing. AGI strongly supports the requested increase for Earth 
Science and Planetary Science programs within the Science Mission 
Directorate.
    The Science Mission Directorate, which includes Earth Science, 
Planetary Science, Astrophysics and Heliophysics, would receive $4.441 
billion in the fiscal year 2009 proposal, a decline of 6 percent or 
$265 million compared to fiscal year 2008 enacted levels. The 
President's fiscal year 2009 budget request would provide $1.3675 
billion for NASA's Earth Science program, a 6.8 percent increase over 
the fiscal year 2008 appropriation to continue with current missions 
and begin development of new missions. AGI is very grateful to see an 
increase for Earth science. Unfortunately, about $570 million of the 
increase created for the decadal survey missions is funded through the 
transfer of funding from other science divisions, resulting in 
reductions in the Mars Exploration Program, a delay to the Solar Probe 
mission and other programmatic cuts. In addition the funding outlook 
does not come close to meeting the $500 million annual increase 
recommended by the National Academies decadal survey report to bring 
the program back to its fiscal year 2000 funding level and enable the 
decadal recommendations.
    AGI asks for a budget of $4.869 billion for the Science Mission 
Directorate at NASA or an increase of about $428 million over the 
President's request. The increase would eliminate the $265 million 
deficit compared to fiscal year 2008 enacted budget for the Science 
Mission Directorate in the President's proposal and would include an 
additional $163 million for the Earth Science program (for a total of 
$1.530 billion in fiscal year 2009). This would bring the Earth Science 
program up to an increase of $250 million about half of what is needed 
to meet the priorities of the decadal survey, but enough to keep key 
missions on track under tight fiscal constraints. We strongly urge the 
Subcommittee to return spending levels for Earth science within NASA to 
fiscal year 2000 levels (eliminating a 30 percent cut over the past 6 
years) and implement the priorities of the National Academies Earth 
Science and Applications from Space Decadal Survey.
    I appreciate this opportunity to provide testimony to the 
Subcommittee and would be pleased to answer any questions or to provide 
additional information for the record. I can be reached at 703-379-2480 
ext. 228 (voice), 703-379-7563 (fax), <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="addfc2daccc3edcccac4dac8cf83c2dfca">[email&#160;protected]</a>, or 4220 King 
Street, Alexandria VA 22302-1502.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History

Overview
    Recognizing its potential to support NASA in its goals to pioneer 
the future in space exploration, scientific discovery, and aeronautics 
research; to develop a balanced overall program of science, 
exploration, and aeronautics; and to establish new and innovative 
programs to enhance understanding of our Earth, other planets, 
asteroids, and comets in our solar system, as well as the search for 
life around other stars, the American Museum of Natural History (AMNH) 
seeks $3.5 million to advance its successful multi-year collaboration 
with NASA to contribute its unique science, education, and 
technological capacity to helping the Agency to meet these goals.

About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its joint 
mission of science and public education. It is renowned for its 
exhibitions and collections of more than 32 million natural specimens 
and cultural artifacts. With some 4 million annual on-site visitors--
approximately half of them children--it is one of the largest, fastest 
growing, and most diverse museums in the country. Museum scientists 
conduct groundbreaking research in fields ranging from all branches of 
zoology, comparative genomics, and informatics to Earth science, 
biodiversity conservation, and astrophysics. Their work forms the basis 
for all the Museum's activities that seek to explain complex issues and 
help people to understand the events and processes that created and 
continue to shape the Earth, life and civilization on this planet, and 
the universe beyond.

The American Museum--NASA Partnership
    NASA and the AMNH for many years engaged in a partnership founded 
on a joint commitment to cutting-edge research and the integration of 
that research into unique educational tools and resources. The AMNH has 
worked with the Agency to develop innovative technologies and resources 
that provide an unparalleled platform for interpreting, displaying, and 
distributing NASA content to audiences nationwide.
  --The Museum has built a set of singular national resources that 
        bring cutting-edge science and integrated NASA content to total 
        audiences of more than 16 million in New York City, across the 
        country, and around the world. In the New York area alone, the 
        Museum reaches nearly four million annual visitors, including 
        more than 450,000 children in school groups and more than 5,000 
        teachers, with millions visiting online.
  --We have created Science Bulletins--technologically innovative, 
        immersive multimedia science encounters, presenting space, 
        Earth, and life science news and discoveries in visually 
        stunning feature documentaries, data visualizations, and weekly 
        updates.
  --We have launched a successful program to disseminate project 
        resources to informal learning venues nationally and 
        internationally, with Science Bulletins already on view in 40 
        locations across the country (including eight NASA visitor 
        centers), with more being added.
  --The Museum has made numerous technological breakthroughs--it has 
        established leadership in science visualization and high 
        resolution renderings of massive data sets; it has converted 
        its Space Shows to digital format, making the AMNH the only 
        full planetarium dome content provider that crosses all major 
        platforms; it has pioneered a unique online distribution 
        network that each week streams new science content in HD MPEG2 
        encodes to partners across North America and most recently, has 
        simplified the technical requirements of the network, including 
        new server and/or lower bandwidth for downloading, so that 
        content is more accessible to more venues.
  --AMNH routinely hosts major events celebrating NASA's mission 
        highlights and milestones. Recent events have included live, 
        large-scale events of broadcasts of the New Horizons launch, 
        Stardust sample return, and Mars Reconnaissance Orbiter arrival 
        at Mars.
  --The Museum's educational mission is fueled by and reflects cutting-
        edge science, including the work of our scientists in 
        collaboration with NASA centers and researchers.
    Building on this foundation, the Museum seeks in fiscal year 2009 
to advance the AMNH-NASA collaboration--with a particular focus on 
scaling up to reach even larger audiences--with a program for 
communicating current science content, and content about NASA science 
and missions in particular, to diverse national audiences. The Museum's 
activities will include the development of current NASA science 
education resources, such as Science Bulletins, and continuing to scale 
up their national distribution for presentation in public spaces and 
for classroom use.
    Science Bulletins (SB) is a nationally distributed, multimedia 
science exhibition program targeted to informal learning settings. It 
presents cutting-edge research and discoveries in visually compelling 
feature documentaries and updates in flexible, large-screen, high-
definition video and interactive kiosk versions, as well as in a free 
online version adapted for classroom use. Our SB program for the 
following year includes expanding dissemination significantly, 
developing new visualization methods for use in the development and 
distribution of SB, and reaching out in diverse ways to the formal 
education sector to maximize access to the Science Bulletins at the K-
12 level.
    Museum activities for the next year also include R&D on new 
techniques for visualizing massive space science data sets, creating 
visualization tools for presenting NASA missions and other dynamic 
science stories, and for advancing innovative solutions to technical 
challenges in presenting digital planetarium shows. AMNH will conduct 
extensive internal and external evaluation of this program's 
activities.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History

Overview
    Recognizing its potential to support NOAA in its goals to 
understand and predict changes in the Earth's environment; to conserve 
and manage coastal and marine resources; and to protect, restore, and 
manage the use of coastal and ocean resources to meet our Nation's 
economic, social, and environmental needs, the American Museum of 
Natural History (AMNH) seeks $2 million to advance a partnership with 
the agency to promote the environmental education, outreach, and 
research so pivotal to the health of our nation and our planet.

About the American Museum of Natural History
    The AMNH is one of the nation's preeminent institutions for 
scientific research and public education. Since its founding in 1869, 
the Museum has pursued its mission to ``discover, interpret, and 
disseminate--through scientific research and education--knowledge about 
human cultures, the natural world, and the universe.'' It is renowned 
for its exhibitions and collections of more than 32 million natural 
specimens and cultural artifacts. With nearly four million annual 
visitors, its audience is one of the largest, fastest growing, and most 
diverse of any museum in the country. Museum scientists conduct 
groundbreaking research in fields ranging from zoology, comparative 
genomics, and informatics to Earth, space, and environmental sciences 
and biodiversity conservation. Their work forms the basis for all the 
Museum's activities that seek to explain complex issues and help people 
to understand the events and processes that created and continue to 
shape the Earth, life and civilization on this planet, and the universe 
beyond.
    The Museum's Center for Biodiversity and Conservation, founded in 
1993, is dedicated to enhancing the use of scientific data to mitigate 
threats to global biodiversity, and to integrating this information 
into the conservation process and disseminating it widely. It conducts 
conservation-related field projects around the world, trains 
scientists, organizes scientific symposia, presents public programs, 
and produces publications geared toward scientists, policy makers, and 
the lay public. Each spring, the CBC hosts symposia that focus on 
conservation issues. The 2007 symposium, Small Matters: Microbes and 
Their Role in Conservation, brought together a diverse group of 
microbiologists and conservation biologists to explore broad questions 
of the planet's microbial diversity and how conservation practices take 
microbial life into account. The 2008 symposium, Sustaining Cultural 
and Biological Diversity in a Rapidly Changing World: Lessons for 
Global Policy will seek to bridge gaps, address challenges and 
opportunities, and help to forge a long-term multi-dimensional vision 
for sustaining biological and cultural diversity.
    The Museum's renovated Hall of Ocean Life, reopened in spring 2003, 
is a major focal point for public education on marine science issues. 
Drawing on the Museum's world-renowned expertise in Ichthyology as well 
as other areas of Vertebrate as well as Invertebrate Zoology, the Hall 
is pivotal in educating visitors about the oceans' key role in 
sustaining life on our planet. The renovated Hall of Ocean Life, 
together with the new Halls of Biodiversity, Planet Earth, and the 
Universe and the rebuilt Hayden Planetarium (part of the new Rose 
Center for Earth and Space) provide visitors with a seamless 
educational journey from the universe's beginnings to the formation and 
processes of Earth to the extraordinary diversity of life on our 
planet.

Common Goals of NOAA and AMNH
    The National Oceanic and Atmospheric Administration (NOAA) is 
committed to understanding and predicting changes in the Earth's 
environment and to conserving and managing coastal and marine resources 
to meet the nation's needs. NOAA's Education Plan outlines a broad 
vision for reaching various audiences to build awareness and knowledge 
of issues related to the world's atmosphere, climate, oceans, and 
coastal ecosystems. Addressing the needs of teachers, students, and 
policy makers as well as the general public, the agency's goals include 
enhancing environmental literacy and knowledge, application of NOAA 
science, and development of a capable and diverse workforce for 
environmental science.
    The American Museum of Natural History shares NOAA's commitment to 
these environmental goals and to the scientific research and public 
education that support them. Since its founding in 1869, the American 
Museum has pursued its mission of scientific investigation and public 
education. Its exhibitions and collections serve as a field guide to 
the entire planet and present a panorama of the world's cultures. 
Museum collections of some 32 million specimens and cultural artifacts 
provide an irreplaceable record of life. More than 200 Museum 
scientists conduct groundbreaking research in fields as diverse as 
systematic and conservation biology, astrophysics, and Earth and 
biodiversity sciences. The work of scientific staff fuels exhibitions 
and educational programming that reach annually an on-site audience of 
nearly four million visitors--nearly half of them children.

Environmental Literacy Initiative
    In fiscal year 2004, as a result of Congressional leadership, the 
Museum entered into a partnership with NOAA that launched a multi-year 
marine science and education initiative. Support for this initiative, 
which encompassed a broad range of education and research activities 
closely aligned with NOAA goals and purposes, was continued in fiscal 
year 2005 (and recommended in the fiscal year 2007 Senate report), and 
further leveraged by Museum scientists who successfully secured 
competitive NOAA education and research funding.
    Building upon this strong foundation, and in concert with the 
strategic priorities of NOAA and the Museum, we seek $2 million in 
fiscal year 2009 to join with NOAA in education, outreach, and research 
activities that promote environmental literacy, particularly concerning 
climate. Over a one-year period, the Museum will seek to advance the 
nation's climate literacy by carrying out a rich agenda of public 
education and outreach activities, many in conjunction with a major 
national exhibition on climate change. These activities will include 
presenting current climate-related issues and news in the Museum's 
nationally distributed Science Bulletins program; developing advanced 
visualization tools and techniques for presenting environmental data to 
the public in varied formats; developing on-site and online 
professional development offerings, exchanges, and resources for 
teachers, children, families, and students; presenting programs for the 
general public; and carrying out research that advances conservation of 
marine ecosystems systems.
                                 ______
                                 
        Prepared Statement of the American Physiological Society

    The American Physiological Society (APS) thanks the Subcommittee 
for its commitment to scientific research at the National Science 
Foundation (NSF) and the National Aeronautics and Space Administration 
(NASA). Scientific research plays an important role in technological 
innovation and economic development and therefore is critical to the 
future of our nation. The APS recognizes that the NSF has benefited 
from recent budget increases, but is disappointed that the agency has 
fallen behind the budget levels endorsed by Congress and the 
Administration in the America COMPETES Act passed in 2007. The APS 
recommends that the NSF be funded at the authorized level of $7.33 
billion in fiscal year 2009, which will keep the agency on track to 
double its budget over the next several years. While the overall budget 
for NASA continues to grow, the APS remains concerned about the lack of 
consistent funding for research into the effects of spaceflight on 
humans. The APS recommends that funding for NASA's Human Research 
Program (HRP) be reinvigorated with increased funds in fiscal year 
2009.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has more than 10,000 members who do research 
and teach at public and private research institutions across the 
country, including colleges, universities, medical and veterinary 
schools. Many of our members conduct physiology research that is 
supported by funds allocated through the NSF and NASA. In this 
testimony, the APS offers its recommendations for fiscal year 2009 
funding for both agencies.

NSF
    The basic science initiatives funded by the NSF are driven by the 
most fundamental principles of scientific inquiry. Although at times 
NSF-funded research may seem to be exploring questions that lack 
immediate practical application, we have learned again and again that 
the relevance of the knowledge gained becomes apparent over time. The 
NSF provides support for approximately 20 percent of federally funded 
basic science and is the major source of support for non-medical 
biology research, including integrative, comparative, and evolutionary 
biology, as well as interdisciplinary biological research.
    The majority of the funding NSF provides is awarded through 
competitive, merit-based peer review, which ensures that the best 
possible projects are supported. NSF has an excellent record of 
accomplishment in terms of funding research endeavors that have 
produced results with far-reaching potential. Listed below are just a 
few of NSF's most recent advances in biological research.\1\
---------------------------------------------------------------------------
    \1\ Research examples from http://www.nsf.gov, accessed March 18, 
2008.
---------------------------------------------------------------------------
  --Scientists have developed computational methods to catalog genes 
        involved in memory and learning.
  --Research into the molecular characteristics of degenerative 
        neurological diseases such as Alzheimer's, Parkinson's and the 
        human version of Mad Cow disease has revealed similar molecular 
        pathology underlying all three diseases.
  --Novel imaging techniques have been developed that could aid in the 
        earlier diagnosis of pancreatic cancer, a disease that is 
        especially deadly due to delayed detection.
  --Studies of abnormally developed frogs led to the discovery that 
        nutrient runoff from agriculture fuels parasitic infections 
        that lead to developmental deformities in amphibians.
  --Researchers studying flatworms (planaria) found that the 
        connections between cells play a role in regulating how adult 
        stem cells contribute to injury repair.
    In addition to funding innovative research in labs around the 
country, the NSF also fosters the next generation of scientists through 
education programs. The APS has benefited from this support which 
allows us to provide training opportunities and career development 
activities to enhance the participation of underrepresented minorities 
in science. The APS was recognized for its efforts in 2003 with a 
Presidential Award for Excellence in Science, Mathematics and 
Engineering Mentoring (PAESMEM), funding for which was provided by NSF 
and was reinvested in our education programs. We believe that NSF is 
uniquely suited to administer science education programs of the highest 
quality, and we recommend that Congress continue to provide federal 
funds for science education through the NSF.
    Passage of the America COMPETES Act showed that Congress is 
committed to fostering the NSF not only through increased 
appropriations, but also through explicit support for the agency's 
respected education programs. We thank Congress for the passage of the 
America COMPETES Act and join the Federation of American Societies for 
Experimental Biology (FASEB) in recommending that the NSF be funded at 
the full authorized level of $7.33 billion in fiscal year 2009.

NASA
    The Human Research Program (HRP) at NASA conducts research and 
develops countermeasures with the goal of enabling safe and productive 
human space exploration. During prolonged space flight, the 
physiological changes that occur due to microgravity, increased 
exposure to radiation, confined living quarters, and alterations in 
eating and sleeping patterns can lead to health problems and reduced 
ability to perform tasks. APS scientists are actively engaged in 
research that explores the physiological basis of these problems, with 
the goal of contributing to the development of countermeasures.
    Given NASA's current focus on manned space exploration, it is 
critical that resources be devoted to research into the health effects 
of prolonged space flight. NASA is the only agency whose mission 
includes addressing the biomedical challenges of manned space 
exploration. Over the years, the amount of money available for 
conducting this kind of research at NASA has dwindled, and this year 
the budget request for the Human Research Program stands at only $151.9 
million. The cuts are especially troubling given the Administration's 
commitment to returning humans to space. NASA and the National 
Institutes of Health signed a memorandum of understanding in 2007 that 
provides a framework for the two agencies to work together and move 
health research forward. While the agreement does not involve any 
funding obligations, we are hopeful that the agencies will develop 
plans to take advantage of the opportunities for collaboration. The APS 
joins FASEB in applauding Congress' call in the fiscal year 2008 
Omnibus bill for NASA to ``establish and ongoing relationship'' with 
the National Academies for the purpose of ``independent project 
review.'' Independent review will help ensure that resources are 
appropriately directed towards critical research programs.
    The APS urges Congress and NASA to increase support for peer-
reviewed research into the health risks of long-term space flight and 
development of appropriate countermeasures at a rate that meets or 
exceeds the biomedical research and development price index (BRDPI).
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
          Society of America, Soil Science Society of America

    The American Society of Agronomy, Crop Science Society of America, 
Soil Science Society of America (ASA-CSSA-SSSA) are pleased to submit 
the following funding recommendations for fiscal year 2009. ASA/CSSA/
SSSA understand the challenges the Senate Commerce, Justice, Science, 
and Related Agencies Appropriations Subcommittee faces with the tight 
agriculture budget for fiscal year 2009. We also recognize that the 
Commerce, Justice, and Science Appropriations bill has many valuable 
and necessary components, and we applaud the efforts of the 
Subcommittee to fund mission-critical research through the National 
Science Foundation.
    With more than 25,000 members and practicing professionals, ASA-
CSSA-SSSA are the largest life science professional societies in the 
United States dedicated to the agronomic, crop and soil sciences. ASA-
CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.

Biological Sciences Directorate
            Molecular and Cellular Biosciences (MCB)
    The Molecular and Cellular Biosciences division of NSF Biology 
directorate provides funding for critical research that contributes to 
the fundamental understanding of life processes at the molecular, 
subcellular, and cellular levels. Programs such as the Microbial 
Observatories increase the understanding of microbial distribution in a 
variety of ecosystems--the first step in evaluating microbial impact on 
ecosystem function. ASA-CSSA-SSSA support the proposed increase for MCB 
to $126 million, yet, disagree with the proposed change in priorities. 
Historically, the division focused on understanding living networks and 
complex molecular and cellular systems, microbial biology, and 
fundamental plant biology research. However, priorities for fiscal year 
2009 focus on metagenomics, theoretical and mathematical modeling, 
synthetic biology, small RNA biology, and the role of intracellular 
environment on the dynamic structure and function of complex 
biomolecules. We agree that considerable advances investigating 
interactions between microbial communities and plants have been made, 
however critical gaps do remain requiring additional study to 
understand the complex, dynamic relationships existing between plant 
and microbial communities.
            Integrative Organismal Systems (IOS)
    The emergence of a bioeconomy requires greater reliance on plants 
and crops, further expanding their use into the energy sector. To meet 
the increased demands and develop more robust crops, additional 
fundamental understanding regarding the basic biology of these crops is 
needed. The Plant Genome Research Program (PGRP) accomplishes these 
objectives by supporting key NSF projects. The Developing Country 
Collaborations in Plant Genome Research program links U.S. researchers 
with partners from developing countries to solve problems of mutual 
interest in agriculture and energy and the environment. Additionally, 
in collaboration with the U.S. Department of Energy and the U.S. 
Department of Agriculture, the Plant Genome Research Program has 
financed the Maize Genome Sequencing Project--a sequencing project for 
one of the most important crop grown globally. Finally, the 
International Rice Genome Sequencing Project, published in 2005 the 
finished DNA blueprint for rice, a crop fundamental to populations 
worldwide. To continue the discovery of new innovative ways to enhance 
crop production for a growing population, sustained funding is needed 
for similar projects. It is therefore critical the fiscal year 2009 
decision to transfer the Plant Genome Research Program to IOS does not 
adversely impact PGRP. ASA-CSSA-SSSA are concerned that dedicated 
funding for the Plant Genome Research Program may be directed towards 
other programs, such as the Arabadopsis 2010 Program. ASA-CSSA-SSSA 
recommend that the Plant Genome Research Program continue to receive 
the funding intended for it. To ensure adequate funding for all of the 
programs under IOS, we recommend that it receive an overall 10 percent 
increase to $220.86 million.
            Emerging Frontiers (EF)
    The Emerging Frontiers division supports multidisciplinary research 
opportunities and networking activities whereby new initiatives will be 
fostered and subsequently integrated into core programs. The Plant 
Science Cyberinfrastructure Collaborative is a critical program funded 
under EF. Established in fiscal year 2008, this center establishes 
multi-disciplinary teams of computational science experts and plant 
science experts to address evolving critical questions in plant 
science. ASA-CSSA-SSSA offer full support for the President's proposed 
$2.48 million increase (37.4 percent) over fiscal year 2008 funding 
levels for the Plant Science Cyberinfrastructure Collaborative.

Geological Sciences Directorate
            Atmospheric Sciences (ATM)
    Changes in terrestrial systems will have great impact on 
biogeochemical cycling rates. The Atmospheric Sciences division funds 
critical programs, such as Atmospheric Chemistry, that increase 
understanding of biogeochemical cycles. Soils and plants make up one of 
the largest sinks and sources for several environmentally important 
elements. ASA-CSSA-SSSA support the President's proposed 13.6 percent 
increase in funding for the Atmospheric Science division to $260.58 
million.
            Earth Sciences (EAR)
    The Earth Sciences division supports research emphasizing improved 
understanding of the structure, composition, and evolution of the 
Earth, the life it supports, and the processes that govern the 
formation behavior of the Earth's materials. Fiscal year 2009 
priorities will support theoretical research, including the biological 
geosciences, the hydrologic sciences, and the study of natural hazards. 
Important programs funded within this division are the Critical Zone 
Observatories, which focus on watershed scale studies that advance 
understanding of the integration and coupling of Earth surface 
processes as mediated by the presence and flux of fresh water. ASA-
CSSA-SSSA support the $750,000 increase to this project.

Engineering Directorate
            Chemical, Bioengineering, Environmental and Transport 
                    Systems (CBET)
    CBET supports research that enhances the protection of U.S. 
national health, energy, environment, security, and wealth. CBET 
supports programs, such as the Biotechnology, Biochemical, and Biomass 
Engineering, which offer critical solutions to global environmental 
problems associated with climate change. The continual funding of the 
Biotechnology, Biochemical, and Biomass Engineering program is 
essential if we are to develop genetically engineered biofuel 
feedstocks that are more feasible for conversion into biofuels. ASA-
CSSA-SSSA agree with the President's recommend $42.34 million increase 
for CBET to $173.34 million in fiscal year 2009.

Directorate for Education and Human Resources
            Division of Graduate Education
    ASA-CSSA-SSSA are dedicated to the enhancement of education, and 
concerned about recent declines in enrollment for these sciences. To 
remain competitive, scientific fields need to find new, innovative ways 
to reach students. The programs offered in the Education and Human 
Resource Directorate accomplish this goal. The Graduate Teaching 
Fellows in K-12 Education offers graduate students interested in 
teaching, an opportunity to get into the classroom and teach utilizing 
new innovative ways of teaching the material. ASA-CSSA-SSSA support the 
$2 million increase to $49 million in the President's budget for this 
program, but request a 10 percent increase over fiscal year 2008 
funding levels to $51.7 million. Graduate students are the next crop of 
scientists, therefore opportunities for study must be increased with 
increasing demands of science. Global problems rely on scientific 
discovery for their amelioration; therefore it is critical that the 
United States continue to be a leader in graduate education. The ASA-
CSSA-SSSA recommend an increase to the Integrative Graduate Education 
and Research Traineeships (IGERT) from no change from fiscal year 2008 
to an increased level of $30 million (20 percent increase) in fiscal 
year 2009. Education is the key for our future competitiveness; 
therefore it is essential increases in education funding remain on par 
with goals set forth by ACI, so ASA-CSSA-SSSA recommend an overall 
increase of 15 percent in fiscal year 2009 over fiscal year 2008 to 
$832.44 million.
            Division of Undergraduate Education
    Advanced Technological Education (ATE) program focuses on the 
education of technicians for the high-technology fields that drive our 
nation's economy. We support continued funding for this program. ASA-
CSSA-SSSA recommend that this program receive a 20 percent increase 
over fiscal year 2008 to $62 million in fiscal year 2009.

NSF-Wide Programs
            Dynamics of Water Processes in the Environment
    Providing an adequate supply and quantity of water for human use, 
while maintaining the integrity of natural ecosystems, is one of the 
greatest challenges facing the country. ASA-CSSA-SSSA support the 
creation of the multi-disciplinary, multi-scale research program, 
Dynamics of Water Processes in the Environment with $10 million in 
fiscal year 2009.
            Climate Change Science Program
    The Climate Change Science Program, initiated in 2002, provides the 
Nation and the world with the science-based knowledge to predict, 
change, manage risk, and take advantage of opportunities resulting from 
climate change and climate variability. Biological systems are critical 
to mitigating the impacts and effects of climate change. Additional 
research is needed to examine potential crop systems, plant traits, 
wetland properties, and other ecosystem adaptations to help manage 
climate change. The basic sciences of agro-ecosystems, plant 
improvement, soils, and riparian and wetland ecology need support. 
Therefore while ASA-CSSSA-SSSSA maintain the importance of the 
President's proposed increase to CCSP funding to $220.6 million in 
fiscal year 2009; however additional funding is needed for the 
Biological Sciences. Therefore, ASA-CSSSA-SSSA recommend a 10 percent 
increase in the current funding level from BIO to $16.6 million.
    As you lead the Congress in deliberation on funding levels for the 
National Science Foundation, please consider American Society of 
Agronomy, Crop Science Society of America, Soil Science Society of 
America as supportive resources. We hope you will call on our 
membership and scientific expertise whenever the need arises.
    Thank you for your thoughtful consideration of our requests. For 
additional information or to learn more about the American Society of 
Agronomy, Crop Science Society of America and Soil Science Society of 
America (ASA-CSSA-SSSA), please visit www.agronomy.org, www.crops.org 
or www.soils.org or contact ASA-CSSA-SSSA Director of Science Policy 
Karl Glasener (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fcf0fbf6e4f2f9f2e5d7f6f0e5f8f9f8faeeb9f8e5f0">[email&#160;protected]</a>, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a8a4afa2b0a6ada6b183a0b1acb3b0edacb1a4">[email&#160;protected]</a>, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5cec2c9c4d6c0cbc0d7e5d6caccc9d68bcad7c2">[email&#160;protected]</a>).
                                 ______
                                 
   Prepared Statement of the American Society of Mechanical Engineers
    The National Science Foundation (NSF) Task Force of ASME's 
Technical Communities is pleased to provide comments on the NSF fiscal 
year 2009 budget request, in support of this year's proposed funding 
level of $6.85 billion for the NSF. Founded in 1880 as the American 
Society of Mechanical Engineers, ASME is a worldwide engineering 
society of over 127,000 members focused on technical, educational and 
research issues. It conducts one of the world's largest technical 
publishing operations, holds approximately 30 technical conferences and 
200 professional development courses each year, and sets many industry 
and manufacturing standards.

NSF Fiscal Year 2009 Budget Request Overview
    With its commitment to broad-based, cross-cutting programs that 
advance the boundaries of science and engineering, the NSF is essential 
in guiding the nation's non-defense-related research and education. As 
recognized by the Administration and Congress, in order for the United 
States to remain competitive in the integrated global marketplace, the 
nation must ``support and promote innovation research in the United 
States through high-risk, high-reward projects that meet fundamental 
scientific and technological challenges.'' To implement this vision, 
the America COMPETES Act, which was signed into law in August 2007, 
includes the NSF as one of three key federal science and engineering 
agencies targeted for budget doubling over 10 years. To this end, ASME 
strongly endorses the NSF's investments in the requisite acquisition of 
new knowledge and in the development of talent whereby transformative 
research is supported and a world-class science and engineering 
workforce is built, inciting innovation, encouraging economic growth, 
addressing critical national needs, and establishing our nation's role 
as a global leader.
    The total fiscal year 2009 NSF budget request is $6.85 billion 
representing an $882 million or 13.6 percent increase over the fiscal 
year 2008 estimate of $6.03 billion. It is worth noting that the 
original fiscal year 2008 request was $6.43 billion, which was reduced 
to $6.03 billion (representing only a 2 percent increase over fiscal 
year 2007) in the final fiscal year 2008 omnibus spending measure. 
Thus, after setbacks in fiscal year 2007 and fiscal year 2008, the 
present budget request places NSF back on the path of budget doubling 
set forth in the President's American Competitiveness Initiative (ACI) 
and the America COMPETES Act.
    Research and Related Activities (RRA) comprises the dominant 
portion of the total NSF request at $5.6 million, representing a 16 
percent increase over the fiscal year 2008 estimate of $4.8 million. 
After flat funding in fiscal year 2008, all of NSF's research 
directorates would receive considerable increases in fiscal year 2009, 
recovering from post-2004 NSF budget cuts to reach all-time highs in 
inflation-adjusted dollars. Funding for the Engineering Directorate 
(ENG) would increase by 19.2 percent over the current year estimate to 
$759 million, of which $127 million is budgeted (through mandate) for 
the Small Business Innovation Research (SBIR) and Small Business 
Technology Transfer (STTR) programs that ENG administers for all of 
NSF.
    ENG consists of the following disciplinary-area divisions: 
Chemical, Bioengineering, Environmental, and Transport Systems (CBET), 
up 32.3 percent to $173 million; Civil, Mechanical and Manufacturing 
Innovation (CMMI), up 26.3 percent to $202 million; Electrical, 
Communications and Cyber Systems (ECCS), up 13 percent to $94 million; 
Industrial Innovation and Partnerships (IIP), up 15.8 percent to $141 
million; Emerging Frontiers in Research and Innovation (EFRI), up 16 
percent to $29 million; and Engineering Education and Centers (EEC), up 
3.4 percent to $120 million.
    A portion of the ENG budget (allocated from the constituent 
divisions) will continue to support research and education efforts 
related to broad, Foundation-wide investments in a number of areas, 
including the Administration's interagency R&D priorities. Under ENG, 
three new priority areas are funded in fiscal year 2009, i.e. Adaptive 
Systems Technology ($3.49 million), Dynamics of Water Processes in the 
Environment ($0.53 million), and Science and Engineering Beyond Moore's 
Law ($4 million). The following continuing areas also receive 
increases: National Nanotechnology Initiative (up 2.2 percent to $140 
million), Cyberinfrastructure (up 7.1 percent to $60 million), and 
Networking and Information Technology R&D (up 45.9 percent to $28 
million--$16.8 million of which is Cyber-enabled Discovery and 
Innovation). Climate Change Science Program ($1 million) funding 
remains level, and the Human and Social Dynamics initiative concluded 
in fiscal year 2008, with funds returning to core programs for 
continued support.

The ASME NSF Task Force Position
            Affirmation and Endorsement
    The ASME NSF Task Force maintains its high endorsement of NSF's 
crucial role in directing the fundamental research and education that 
keeps America at the leading edge of science, engineering, and 
technology. NSF has an outstanding record of supporting a broad range 
of high-quality research, from ``curiosity-driven'' science to targeted 
initiatives. This achievement has been made possible only through 
strict adherence to the independent peer review process for merit-based 
awards. ASME recognizes the significance and relevance of NSF's 
investment areas that address major national needs for the 21st 
century. The increases proposed under the America COMPETES Act would 
allow NSF to properly sustain and expand these efforts and commitments, 
honing the nation's competitive edge.
    The fiscal year 2009 budget request represents a 13.6 percent 
increase over the fiscal year 2008 estimate. Over three-quarters of the 
total $882 million increase for NSF is in R&D funding, totaling $5.6 
billion, a gain of $772 million or 16 percent over the fiscal year 2008 
estimate. After flat funding in fiscal year 2008, this request would 
bring R&D investment to an all-time high in inflation-adjusted dollars, 
allowing the research directorates to recover from the budget cuts that 
occurred after 2004. In a competitive, multifaceted, and ever-changing 
global setting, adequate investment in basic science and engineering 
research, that involves both established and emerging areas, is 
essential in recognizing and nurturing innovation, in preparing the 
next generation of scientific talent and leaders, and in producing the 
products, processes, and services that improve health, living 
conditions, environmental quality, energy conservation, and national 
security for all Americans.
    Overall, the Task Force also supports and commends activities 
within ENG. NSF's vision of ``advancing discovery, innovation, and 
education beyond the frontiers of current knowledge'' is exemplified 
within ENG. It is important to recognize that it is through such 
fundamental science and engineering research by which next generation 
technologies are frequently engendered. Examples of successes emerging 
from ENG include the fabrication of nanowires for optical applications, 
presenting the potential to miniaturize microphotonic devices and 
transform telecommunications. ENG's SBIR program has developed 
lightweight, flexible, low-cost, and more efficient solar cells--
plastic reels coated with layers of dye-sensitized titania 
nanoparticles, enabling capture of larger portions of the visible 
spectrum and absorption of more energy. ENG has also funded pioneering 
work on embedding transistors into microcantilevers, where deflections 
resulting from the binding of target molecules in a specific 
environment, create measurable changes in drain current of the 
transistor. This technique allows for a unique sensor system that could 
potentially detect the presence of heart disease from a person's drop 
of blood or detect the presence of chemicals used for explosives.
    NSF leads the U.S. nanotechnology research effort, and ENG is the 
focal point within NSF for this key national research endeavor. ASME 
has strongly supported the National Nanotechnology Initiative (NNI) 
since its inception as an NSF investment area in fiscal year 2000. 
Increased funding amounts are requested for research at the fundamental 
level, as well as in environmental, health, and safety aspects. Within 
the total NSF-wide investment for NNI, ENG's contribution will increase 
by $3 million to a total of $140 million.
    Finally, ASME continues to support NSF's vision to ``empower future 
generations in science and engineering.'' In coordination with the 
Department of Education, NSF will continue funding for the Math and 
Science Partnership program (at $51 million), aimed at improving K-12 
science, technology, engineering, and mathematics (STEM) education and 
teaching. Funding for the Faculty Early Career Development (CAREER) 
awards, which support exceptionally promising college and university 
junior faculty who are most likely to become the academic leaders of 
the 21st century, will increase $14.2 million to $181.9 million. The 
fiscal year 2009 request provides $245.9 million for NSF's three 
flagship graduate fellowship and traineeship programs: $124.8 million 
for the Graduate Research Fellowship (GRF) program, $63.8 million for 
the Integrative Graduate Education and Research Traineeship (IGERT) 
Program, and $57.3 million for the Graduate Teaching Fellowships in K-
12 Education (GK-12) program. This funding will enable NSF to support 
an estimated 5,450 graduate students. NSF supports the Research 
Experiences for Undergraduates program (REU) at $61.6 million, and the 
Research Experiences for Teachers program (RET) at $9.7 million. NSF 
continues to broaden participation in science and engineering, with 
support totaling $674.4 million. This includes efforts to reach all 
states and regions, e.g. the Experimental Program to Stimulate 
Competitive Research (EPSCoR), which increases to $113.5 million, as 
well as efforts that focus on underrepresented groups.
            Questions and Concerns
    ASME's key questions and concerns arising from the fiscal year 2009 
budget request center on: the need to fund NSF at the appropriate level 
as specified in the America COMPETES Act; a more even funding 
distribution for ENG with respect to other Directorates within NSF; a 
balance between manufacturing and services R&D within ENG; and 
increased funding for non-priority-area core disciplinary research 
within ENG.
    NSF is the only federal agency mandated ``to strengthen the health 
and vitality of U.S. science and engineering and support fundamental 
research and education in all scientific and engineering disciplines.'' 
While comprising only 4 percent of the total federal budget for R&D, 
NSF provides 45 percent of the federal support given to academic 
institutions for non-medical basic research. Moreover, while NSF does 
not directly support medical research, its investments do provide the 
technologies in diagnosis, medicine, manufacturing pharmaceuticals, and 
drug delivery that are essential for the medical sciences and related 
industries. Given recent budget cuts at the appropriations stage, the 
ASME NSF Task Force believes that NSF is severely under funded, with 
the immediate and future welfare of our nation at stake.
    Recognizing the urgency in preserving the nation's past success in 
leading-edge discovery and innovation, Congress and the Administration 
enacted the America COMPETES Act in August of 2007, laying out a bold 
path toward revitalizing basic research in the physical sciences and 
engineering. Beginning with the release of the National Academies' 
report, Rising Above the Gathering Storm, the America COMPETES Act was 
the culmination of a growing consensus among policy makers, engineers, 
and scientists that substantial national efforts related to R&D funding 
in the physical sciences and engineering are needed to preserve the 
nation's competitiveness. The America COMPETES Act was a bipartisan 
bill supporting the doubling of funding over ten years at three key 
federal science agencies (NSF, the Department of Energy's Office of 
Science, and the Department of Commerce's National Institute of 
Standards and Technology). However, despite an increase for NSF and the 
other two agencies, the proposed fiscal year 2008 increase for NSF was 
far from met in the final appropriation. As a result, the ASME NSF task 
force urges Congress to recommit to the ideals of the America COMPETES 
Act, and to fund NSF at the level of the fiscal year 2009 President's 
request, i.e. $6.85 billion, which is commensurate with the intended 
doubling plan.
    ENG is the single largest source of federal funding for university-
based, fundamental engineering research--providing 40 percent of the 
total federal support in this area. However, ENG (less SBIR/STTR) is 
still only fifth in total funding (at $632 million) of the six 
Directorates within NSF, despite receiving the second largest 
percentage increase of the Directorates at 19.6 percent and matching 
CISE for the second largest total amount increase at $104 million. At 
the same time, ENG supports 23 percent of the total NSF REUs, which 
give U.S. undergraduates research experience to encourage them to 
pursue doctoral studies. ENG also supports over 50 percent of the total 
NSF RETs, which give K-12 teachers and community college faculty 
research experience so that they can extend their experience into 
classrooms. It's important to note that ENG supports these two 
activities at the highest percentages among the Directorates within 
NSF. Our Nation's long-standing global prominence in technological 
innovation may be at risk, if such investments in basic engineering 
research and education are constrained by lack of federal funding in 
engineering.
    Driving new innovation, knowledge-intensive industries comprising 
both services and manufacturing are critical in surviving in the 
worldwide economy. However, since 2002, the nation's decades-long 
comparative advantage in the trade balance of high-technology products 
has shifted from surplus to deficit. Of concern is the transformation 
of the United States from a sustainable ``making products'' economy to 
an unsustainable ``selling products'' economy. As found in a study by 
the World Technology Evaluation Center, Inc. (WTEC) on American 
Manufacturing, globalization of manufacturing and the low level of 
government investment in manufacturing R&D have stripped the United 
States of its position as the recognized leader in manufacturing 
innovation and the commercialization of new technologies. Given the 
need for local manufacturing for national security, wealth generation, 
and quality of life (e.g. health care products compromised by unknown 
sources), the portfolio balance of manufacturing versus services R&D 
within ENG should be examined.
    Encouragingly, the 16 percent growth in RRA allows for the support 
of 1,370 additional research grants NSF-wide. For ENG, 454 additional 
grants are anticipated, along with a funding-rate increase from 16-20 
percent and a $2,000 increase in average annualized award size, for 
unsolicited fundamental research proposals for individual investigators 
and small group activities. Although we are moving in the right 
direction, the total funding for non-priority-area core disciplinary 
research (from which new priority areas and even new disciplines are 
often conceived) within ENG should still be examined. Not counting the 
SBIR/STTR program, the funding for investment priority-areas 
constitutes over 40 percent of the budget request for ENG. The Task 
Force does not advocate for the redistribution of monies from 
investment priority-areas into non-priority core areas, but rather 
significant increases for completely flexible core funds in order to 
develop the creative and novel ideas that feed the comprehensive 
fundamental Science, Engineering, and Technology knowledge base, which 
serves as a foundation for this nation's greatness.

Closure
    The ASME NSF Task Force urges Congress to support the 
Administration's request at a minimum of $6.85 billion for fiscal year 
2009, and enthusiastically commends the National Science Foundation's 
leadership in projecting the nation's basic research and development 
vision. We applaud Congress for its recent passage of the House budget 
resolution, which includes significant increases that would bring NSF 
into full compliance with the America COMPETES Act. A substantial 
increase in the NSF's budget, by increasing both the number and size of 
its awards, especially in core disciplinary research and education, 
will enable the NSF to better position itself to fulfill its leadership 
responsibility in directing the nation's research and development 
activities. As Congress considers the fiscal year 2009 appropriations 
bills, we hope that the aforementioned resolution is effected, ensuring 
that the necessary basic R&D funding is secured for future U.S. 
competitiveness in science and technology.
    This testimony represents the considered judgment of the NSF Task 
Force of ASME's Technical Communities and is not necessarily a position 
of ASME as a whole.
                                 ______
                                 
                Prepared Statement of Bell Incorporated

    On behalf of Bell Incorporated, a global packaging manufacturer, 
located in Sioux Falls, South Dakota, I would like to thank the 
Committee for allowing our organization to submit this testimony for 
the record. I am writing to respectfully request that the Hollings 
Manufacturing Extension Partnership program be provided the authorized 
$122 million within the fiscal year 2009 Commerce, Justice, Science and 
Related Agencies Appropriations Bill. This requested level of funding 
for 2009 was provided for in the recently enacted America COMPETES Act. 
As you know, the Hollings Manufacturing Extension Partnership (MEP) is 
a program within the Department of Commerce, National Institute of 
Standards and Technology, a program authorized to improve 
competitiveness of America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In South Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. Several years ago, our company began our commitment 
to continuous improvement with the assistance of Dakota MEP.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
 Prepared Statement of the National Association of State Universities 
                   and Land-Grant Colleges (NASULGC)

    On behalf of the NASULGC Board of Natural Resources (BNR), we thank 
you for your support of science and research programs within the 
National Science Foundation. As members of the scientific academic 
community we encourage you to support an appropriation of at least 
$6.85 billion for the National Science Foundation, including at least 
$675 million for the Directorate of Biological Sciences (BIO). The 
fiscal year 2008 enacted level for NSF is $6.07 billion. The 
administration's fiscal year 2009 request is $6.85 billion for NSF and 
$675 million for BIO. Furthermore, within BIO, we ask that you support 
the President's budget request for the National Ecological Observatory 
Network (NEON) at $26 million in fiscal year 2009.
    While we are pleased that the NSF received an increase (3 percent) 
in fiscal year 2008 over fiscal year 2007 enacted level, we are 
concerned that when adjusted for inflation, the NSF is still receiving 
less funding than in previous years. The BNR supports a 13 percent 
increase for the NSF over the 2008 enacted level to keep it above the 
level of inflation over the past several years and fulfill the promises 
of the America COMPETES Act.
    State universities and land-grant colleges truly welcome and are 
excited by the passage of the America Competes Act and the renewed 
national focus on scientific research and education. Education and 
scientific research have served as the infrastructure and foundation 
for much of Nation's economic and national security. We are also 
extremely pleased with the administration's proposal to double funding 
in the physical sciences at NSF over the next 10 years; however, we 
feel that biological sciences are equally important to America's 
competitiveness.
    Better support for the BIO Division of Environmental Biology is a 
very serious need. NSF's BIO support represents 63 percent of all 
federal funding for basic research in environmental biology. Of the 
non-medical aspects of the biological sciences, BIO is the dominant 
federal supporter of basic research at academic institutions--providing 
66 percent of all support. NSF's contribution to a broad array of the 
biological sciences is critically important--particularly in such areas 
as environmental biology and plant sciences.
    If continued increased investments are not made in environmental 
biology, the younger generation of ecological scientists at our 
universities will be shut out of graduate study, and the contributions 
they should be making to our improved understanding of the environment 
will never happen. These young scientists need to be empowered to help 
us recognize the value of our natural capital, better equipping us to 
protect the America's long term economic and environmental interests.
    Using the University of Alabama as one example out of many BIO-
supported universities, BIO's Division of Environmental Biology has 
been the major source of funding that has supported research and 
education associated with the Aquatic Biology Program and the Center 
for Freshwater Studies for the past 15 years. The Ecosystem Science, 
Ecological Biology, and the Systematic Biology and Inventories clusters 
have been especially important in supporting individual investigator 
and interdisciplinary, collaborative projects. These funded projects 
have been instrumental in furthering our understanding of the important 
Mobile River System, the largest river system that drains into the Gulf 
of Mexico, east of the Mississippi River. Additionally, these projects 
have also supported over 100 undergraduate, graduate, and post-doctoral 
students at our institution.
    Many recent graduate students that received support from the NSF 
Division of Environmental Biology are already greatly contributing to 
the field, especially in recovery efforts in the Gulf Coast. The 
knowledge gained from their NSF funded projects is especially valuable 
at a time when both coastal and inland areas along the Gulf coast are 
increasingly being affected by major hurricanes such as Katrina and 
Rita. An understanding of the roles of river floodplains and wetlands 
in mediating major floods and storm surges is critical to effective 
management and restoration of these environments.
    Another program that deserves much support is the NSF-National 
Ecological Observatory Network (NEON), which is envisioned as a 
continental-scale research and infrastructure platform that will 
provide unprecedented advances in ecological forecasting and 
prediction. NEON will transform the way we conduct science by enabling 
the integration of research and education from natural to human 
systems, and from genomes to the biosphere. NEON will address many 
issues critical to the nation's environmental and economic health, 
including land use and climate change, invasive species, and hurricane 
effects. We support the current NSF budget request for funding for NEON 
in the Directorate for Biological Sciences (e.g., Division of 
Biological Infrastructure and Emerging Frontiers).
    Issues of national importance related to the environment, economy, 
agriculture, and human welfare require an understanding of how living 
organisms function and interact with nonliving systems. Advancing 
fundamental scientific discovery in all aspects of life--from molecules 
to whole ecosystems--is supported within NSF, where the ability to 
integrate the range of biological sub-disciplines is unique.

About NASULGC
    NASULGC is the nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions--located in all fifty 
states. The Association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.

About the Board on Natural Resources
    The Board's mission is to promote university-based programs dealing 
with natural resources, fish and wildlife, ecology, minerals and 
energy, and the environment. Most NASULGC institutions are represented 
on the Board. Present membership exceeds 500 scientists and educators, 
who are some of the nation's leading research and educational expertise 
in environmental and natural-resource disciplines.
    This testimony was developed for the BNR by the Chair of the BNR's 
Ecology Section, Dr. Amy Ward, Professor of Biological Sciences, 
University of Alabama.
                                 ______
                                 
 Prepared Statement of the National Association of State Universities 
                   and Land-Grant Colleges (NASULGC)

    On behalf of the National Association of State Universities and 
Land-Grant Colleges' Board on Oceans and Atmosphere, thank you for the 
opportunity to provide recommendations for the fiscal year 2009 budgets 
for the National Oceanic and Atmospheric Administration (NOAA), the 
National Aeronautic and Space Administration (NASA), and the National 
Science Foundation (NSF). All three agencies support research at our 
member institutions that provides critical information to policymakers 
and communities across the country. That is why we strongly recommend 
$4.5 billion for NOAA; $380.6 million in the NASA Earth Science 
Research Account; and $6.85 billion for NSF. Furthermore, within NOAA, 
we recommend $471 million for the Ocean and Atmospheric Research (OAR), 
including $72 million for the National Sea Grant Program; $930.7 
million for the National Weather Service (NWS); $29.5 million for the 
National Ocean Service (NOS) Ocean and Coastal Research Program and the 
NOS Oceans and Human Health Initiative; $96 million for the Integrated 
Ocean Observing Systems (IOOS); and $1.2 billion for the National 
Environmental Satellite, Data and Information Service (NESDIS). Within 
NSF, we recommend $848.7 million for the Geosciences Directorate; $98 
million for the Academic Research Fleet; and $244.74 million for the 
Major Research Equipment & Facilities Construction account, including 
$38 million for the Integrated Ocean Drilling Program (IODP), and $31 
million for the Ocean Observatories Initiative (OOI) .

About NASULGC
    NASULGC is the nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions--located in all fifty 
states. The Association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.

About the Board on Oceans and Atmosphere
    The BOA's primary responsibility is to advance research and 
education in the marine and atmospheric sciences through a federal 
relations program. The board currently has approximately 200 regionally 
distributed members, including some of the nation's most eminent 
research scientists, chief executive officers of universities, marine 
and atmospheric scientists, academic deans, and directors of Sea Grant 
programs.

NOAA
    In order to maintain our country's homeland security, scientific 
leadership, and economic competitive edge, we must have a diverse 
portfolio of federally supported science research and programs. 
Consequently, we are concerned about the significant cuts made to NOAA 
in fiscal year 2006, 2007, and 2008. The science-based work of NOAA 
protects and impacts every American citizen, everyday. NOAA is the 
third largest source of funds for academic marine research in the 
federal government. As a member of the Friends of NOAA Coalition, 
NASULGC strongly recommends $4.5 billion for NOAA in fiscal year 2009.
    BOA recommends a portion of the $4.5 billion be used to support the 
following programs:
    $471 million for Oceanic and Atmospheric Research (OAR), including 
$72 million for the National Sea Grant College Program (Sea Grant). The 
fiscal year 2008 enacted level is $380 million while the President's 
fiscal year 2009 request is $382 million. The research conducted 
through OAR and partnering universities helps us understand climate 
variability, provide better protection for coastal resources, 
contribute to our Nation's commerce, and support our transportation 
systems. OAR supports such important programs as the Ocean Exploration, 
the National Undersea Research Program, U.S. THORPEX medium-range 
forecast improvement research program, transition research for new 
operational forecast models, Climate Operations and Sea Grant.
    For Sea Grant, the fiscal year 2008 enacted is $57.1 million while 
the President's fiscal year 2009 request is $55 million. In constant 
dollars, the program is at its lowest funding levels since its 
inception four decades ago. Sea Grant is the flagship program between 
NOAA and the academic community, supporting the work of 31 colleges 
located in coastal and Great Lakes states and serving as the core of a 
national network of more than 300 institutions involving more than 
3,000 scientists, educators, students, and outreach experts.
    BOA supports the President's request of $930.7 million for the 
National Weather Service (NWS). The fiscal year 2008 enacted is $805.3 
million. NWS provides weather, hydrologic, and climate forecasts and 
warnings for the United States, for the protection of life and property 
and the enhancement of the national economy. NWS data and products form 
a national information database and infrastructure which can be used by 
other governmental agencies, academia, the private sector, the public, 
and the global community.
    $29.5 million for the extramural portions of both the NOS ocean and 
coastal research program and the Oceans and Human Health Initiative 
(OHHI). The fiscal year 2008 enacted level is $3 million while the 
President's fiscal year 2009 request is $1 million. Within the NOS, BOA 
supports restoration of the drastic cuts in competitive extramural 
research, bringing funding back to the more sustainable and effective 
level provided in fiscal year 2005. In addition, we support the 
appropriation of sufficient funds for full NOAA participation in 
collaborative NOS science programs, particularly OHHI. NOS support for 
extramural research conducted in cooperation with NOAA scientists is 
leading to improved knowledge and forecasts to address complex problems 
such as harmful algal blooms, hypoxia, coastal stressors and ecosystem-
based management of fisheries.
    $96 million for the Integrated Ocean Observing System (IOOS), 
(including $50 million for Regional Ocean Observing Systems (ROOS), $10 
million for data management and communications, $30 million for IOOS 
enhancements and $6 million for global ocean observing system 
enhancements). Fiscal year 2008 enacted is $26.4 million while the 
President's fiscal year 2009 request is $6.5 million for NOAA IOOS and 
$14.6 million for IOOS Regional Observations (competitive funding). 
IOOS is critical to improving predictions of climate change and 
weather, improving the safety of maritime operations, and reducing 
public health risks. While BOA is supportive of NOAA's inclusion of 
IOOS in its budget request, funding still falls short of last year's 
funding by $5 million, and we prefer placing the vast majority of 
funding for IOOS into competitive funding for the ROOS.
    BOA supports the President's fiscal year 2009 request of $1.2 
billion for NESDIS. BOA strongly supports the building and 
strengthening of NOAA's satellite systems, because these programs are 
extremely important to timely and accurate weather forecasts that 
directly affect public safety, protection of property, and economic 
health and development. In supporting this request, however, BOA is 
concerned that the increase in satellite budget for the Geostationary 
Operational Environmental Satellite not come at the expense of other 
programs within NOAA. Money directed to satellite programs should be in 
addition to funding of other NOAA programs.

NASA
    Last year, the National Research Council released its report, 
``Earth Science and Applications from Space: National Imperatives for 
the Next Decade and Beyond.'' The report found that between 2000 and 
2006, funding for Earth Sciences (ES) has fallen from $2 billion to 
$1.5 billion annually. ES research is absolutely critical to 
understanding global climate change, such as the decline of Earth's ice 
sheets or the health of the global oceans. BOA generally supports the 
findings of this report, and we urge the committee to increase the ES 
funding levels consistent with the report's recommendations so that 
future missions as well as research and analysis (R&A) are supported. 
It is also critical to continually evaluate the scientific priorities 
of future missions so that mission priorities can be adjusted to 
provide the most benefit and imminent gaps in capabilities and 
systematic observations can be addressed. For this reason, BOA 
recommends additional funding to support a gap analysis of critical 
systematic and emerging science priorities and to adjust mission 
strategies as appropriate, including the development of new mission 
plans where appropriate.
    ES activities currently fall within the agency's Science Mission 
Directorate. We continue to see ES activities, such as R&A in the past 
five years, being cut because of other agency priorities. ES 
investments in university-based research have resulted in valuable 
advances in weather forecasting, improved climate projections, and 
understanding of Earth ecosystems. Furthermore, the R&A program within 
ES is the primary mechanism for funding to the academic community. 
Through its support for young scientists and graduate students, the R&A 
program supports innovation in ES and technology using NASA's satellite 
missions. New sensor concepts, new data processing algorithms, and new 
approaches to global-scale ES are the legacy of the research funded by 
the R&A program. In view of the rapid changes taking place in global 
climate, weather, ice cover, carbon cycle science and ecosystems, it is 
essential that NASA maintain a strong level of R&A funding to derive 
maximum benefit from today's missions as well as to support the 
innovation needed to develop the missions of tomorrow. To ensure the 
viability and effectiveness of our ES R&A programs, BOA supports 
restoring Earth Sciences funding to fiscal year 2000 levels, an 
increase of approximately 33 percent.

NSF
    BOA welcomes the renewed national focus on scientific research and 
education as illustrated by the passage of the American COMPETES Act. 
BOA supports the President's NSF fiscal year 2009 budget request of 
$6.85 billion. The fiscal year 2008 enacted is $6.06 billion.
    BOA recommends that a portion of that $6.85 billion be used to 
support the following program:
    BOA supports the President's request of $848.7 million for the 
Geosciences Directorate. No specific numbers for the Geosciences 
Directorate were enacted for fiscal year 2008. As the principal source 
of federal funding for university-based fundamental research in the 
geosciences, GEO addresses the Nation's need to understand, predict, 
and respond to environmental events and changes. GEO-supported research 
also advances our ability to predict natural phenomena of economic and 
human significance, such as climate changes, weather, earthquakes, 
marine ecosystem change, and disruptive events in the solar-terrestrial 
environment.
    $244.74 million for the Major Research Equipment & Facilities 
Construction Account, (MREFCA) and within MREFCA, $31 million for the 
Ocean Observatories Initiative (OOI) and $38 million for the Integrated 
Ocean Drilling Program (IODP). The fiscal year 2008 enacted for MREFCA 
is $220.74 million, while the President's fiscal year 2009 request is 
$147.51 million. No specific fiscal year 2008 numbers were enacted for 
OOI or IODP. The President's fiscal year 2009 request is $10.50 million 
for OOI and $47.74 million for IODP.
    The OOI will provide the oceanographic research and education 
communities with continuous, interactive access to the ocean. Through a 
global-scale array, a regional-scaled cabled network, and a network of 
coastal observatories, scientists will be able to study real-time data 
transmission and visual images from the seafloor multiple, interrelated 
processes over variable timescales. OOI will also provide the ideal 
platform for training a new generation of oceanographers skilled in the 
use and manipulation of large, oceanographic, time-series datasets, a 
necessity given the planned establishment of the National Integrated 
Ocean Observing System (IOOS).
    The IODP is an international partnership of scientists, research 
institutions, and agencies using ocean drilling to explore the 
evolution and structure of Earth as recorded in the ocean basins. As 
part of its co-leadership of IODP with Japan, NSF will provide a light 
drillship and science support services for high-resolution studies of 
environmental and climate change, observatory and biosphere objectives. 
The contracting, conversion, outfitting and acceptance trials of a new 
Scientific Ocean Drilling Vessel will enable NSF to move forward with 
its portion of IODP.
    $98 million for the Academic Research Fleet (ARF). Finally, to 
optimize the potential of these ocean research infrastructures, 
operating and maintenance funding will be required. No specific funding 
was enacted for ARF in fiscal year 2008. The administration's fiscal 
year 2009 request is $83.96 million.
                                 ______
                                 
     Prepared Statement of the California State Coastal Conservancy

                                SUMMARY
 
   On behalf of the California State Coastal Conservancy, I want to 
thank the Subcommittee for this opportunity to present our priorities 
for fiscal year 2009. The Conservancy respectfully requests the 
following funding levels needed from the listed NOAA accounts for the 
implementation of the California Seafloor Mapping Program (CSMP). Our 
requests during fiscal year 2009 are as follows: $1,000,000 for the 
Office of Coast Survey; $300,000 for the NOAA National Marine Fisheries 
Service Southwest Fisheries Service Center and $3,500,000 for the NOAA 
Coastal Services Center. The Conservancy is also seeking a $1 million 
appropriation for the NASA Ames Research Center located in the Silicon 
Valley section of California in support of our efforts with the South 
San Francisco Bay Salt Ponds Restoration. In totaling our requests the 
Conservancy is asking for $5.8 million in funding during fiscal year 
2009 from accounts under the subcommittees jurisdiction.

                         CONSERVANCY BACKGROUND

    The California State Coastal Conservancy, established in 1976, is a 
state agency that uses entrepreneurial techniques to purchase, protect, 
restore, and enhance coastal resources, and to provide access to the 
shore.
    To date, the Conservancy has undertaken more than 950 projects 
along the 1,100 mile California coastline and around San Francisco Bay. 
Through such projects, the Conservancy: protects and improves coastal 
wetlands, streams, and watersheds; works with local communities to 
revitalize urban waterfronts; assists local communities in solving 
complex land-use problems and protects agricultural lands and supports 
coastal agriculture to list a few of our activities.
    Since its establishment in 1976, the Coastal Conservancy has: 
helped build more than 300 access ways and trails, assisted in the 
completion of over 100 urban waterfront projects, joined in partnership 
endeavors with more than 100 local land trusts and other nonprofit 
groups and completed projects in every coastal county and all nine San 
Francisco Bay Area counties.

                  CALIFORNIA SEAFLOOR MAPPING PROGRAM

    The California State Coastal Conservancy, in conjunction with 
numerous state and federal partners, is ambitiously pursuing the 
mapping of the entirety of the seafloor directly off the coast of the 
state of California. This project will produce detailed bathymetric 
maps of some of the most productive ocean waters in the United States 
and the world and as such is critical for a multitude of reasons.
    A large number of ocean management decisions can be made more 
effectively with accurate statewide mapping of seafloor substrate, 
marine habitat types, and bathymetry (underwater topography) of 
California's coastal and nearshore waters. This information will inform 
the designation of new marine reserve areas as well as the monitoring 
of all reserve areas along the California Coast. High resolution sea 
floor maps will distinguish underwater habitats and highlight faults, 
chasms, fissures, crevices and pinnacles and will help identify and 
understand known and unknown fault dynamics along the seismically 
active California Coast. This information will then be utilized by 
scientists and resource managers to identify potential biological hot 
spots to aid their understanding of the highly productive and diverse 
ecosystem along the California Coast. Further, information concerning 
the size and extent of activity associated with known and unknown 
underwater fault lines will allow our communities to better prepare for 
the possibility of cataclysmic seismic activity of the California 
Coast.
    In addition, the project will provide extensive navigational 
benefits as it will identify hidden reefs, sunken obstacles and other 
navigation hazards in California's near and offshore waters. This 
information is essential for the safety of maritime commerce vessels, 
and subsequently the economies of California and the nation. These maps 
will provide greater knowledge and understanding of navigational 
channels and hazards surrounding the Ports of Los Angeles, Long Beach, 
and Oakland, the nations 1st, 2nd and 4th busiest port facilities 
respectively, which collectively are responsible for 50 percent of the 
nation's total container cargo volume.
    Examples of some additional applications that would benefit from 
marine mapping and data include: understanding sediment transport and 
sand delivery, identifying dredging and dumping sites, regulation of 
offshore coastal development, and illuminating the dynamics of 
fisheries and other marine species. Detailed bathymetric maps are also 
critical in the development of an ocean circulation model that will 
allow us to better predict ocean response to natural and human-induced 
changes.
    We are committed to the success and completion of the project and 
have secured $12.5 million from the State of California Ocean 
Protection Council (OPC) for the advancement of the project to date. 
The OPC also intends to appropriate an additional $7.5 million in 
fiscal year 2009 if funds become available. We are also working with 
the Packard Foundation to determine the potential of financial support.
    In support of the project the California Coastal Conservancy is 
seeking $1,000,000 from the Office of Coast Survey (OCS) in the 
National Oceanographic and Atmospheric Administration. OCS has been 
surveying the coastal waters of the United States and producing 
navigational charts for our nation's ports and waterways for nearly two 
centuries. Federal funds would be used to augment state funds to 
collect remaining data in California's state waters. OCS committed 
$2,000,000 to the program in fiscal year 2008.
    In addition, we are seeking $300,000 in funding from the National 
Marine Fisheries Service Southwest Fisheries Science Center. Habitat 
differences of biological and geological significance cannot always be 
discerned from remotely sensed data. Some physical (grab samples) or 
visual (video) sampling is required to meet International Hydrographic 
Organization standards. Working in cooperation with the USGS and the CA 
Department of Fish and Game, federal funds and staff time for NMFS are 
needed to assure biological accuracy of the mapping effort. An 
additional $1.5 million will be requested from the U.S. Geological 
Survey Coastal and Marine Geology Program for scientific data 
collection (hydrographic surveys of the seafloor, video ground-truthing 
of remotely collected data to verify habitats and geologic structure, 
and seismic profiling to determine geologic stability) and for final 
map production. Although most of the hydrographic survey data will be 
collected by private industry, the Coastal and Marine Geology Program 
of the USGS is uniquely qualified to ground truth the accuracy of the 
data, and in coordination with the CA Geological Survey, create 
finished map products.
    We are also seeking $3,500,000 in funding for the establishment of 
a NOAA West Coast Coastal Services Center. This is essential as the 
CSMP will produce vast amounts of data and maps. An established Coastal 
Service Center in this region will allow NOAA to work with the state to 
ensure managers have access to essential data and to develop decision-
making tools for resource managers. These tools will help local and 
state managers make connections between coastal land use and marine 
resources and better understand climate change and sea level rise 
impacts on our coastal and ocean resources. The establishment of the 
West Coast Services Center will also enhance the federal support for 
the West Coast Governors' Agreement on Ocean Health such as the 
development of social economic baselines for coastal communities and 
West Coast-wide mapping products, tools, and technical training through 
the Digital Coast effort.
    Finally, the subcommittee should know that the CSMP enjoys broad 
support from a multitude of local, state, and federal agencies. These 
entities include: NOAA, USGS, Mineral Management Service, U.S. Coast 
Guard, U.S. Army Corps of Engineers, U.S. Fish and Wildlife Service, CA 
Department of Fish and Game, CA State Lands, CA Coastal Commission, and 
CA State Water Resources Control Board. The CSMP is also supported by 
the federal Integrated Ocean Observing Program and the two regional 
associations within California, the Central and Northern Coastal Ocean 
Observing System (CeNCOOS) and the Southern CA Coastal Ocean Observing 
Program (SCCOOS). Seafloor mapping is included as a major priority in 
the OPC's strategic plan and in the West Coast Governor's Agreement on 
Ocean Health. Furthermore, the Interagency Working Group on Ocean and 
Coastal Mapping, established by the Joint Subcommittee on Ocean Science 
and Technology, is currently drafting a National Ocean and Coastal 
Mapping Strategic Action Plan that will highlight the state-federal 
partnerships developed for CSMP as a model for the country.

  SOUTH SAN FRANCISCO BAY SALT PONDS RESTORATION--NASA AMES RESEARCH 
                                 CENTER

    The California State Coastal Conservancy in conjunction with the 
U.S. Fish and Wildlife Service, U.S. Army Corps of Engineers, NOAA, the 
Santa Clara Valley Water District and Alameda County Flood Control and 
Water Conservation District is pursuing the restoration of over 15,100 
acres of salt ponds formerly owned by the Cargill corporation. The 
project, known as the South San Francisco Salt Ponds Restoration 
Project, is the largest wetlands restoration initiative on the west 
coast of the United States and the 2nd largest restoration project in 
the nation, trailing only the Comprehensive Everglades Restoration 
Program in size and scope.
    The project will provide dramatic benefits to the region, state and 
nation by transforming 15,100 acres of salt ponds formerly owned by the 
Cargill Corporation into a vibrant wetlands area that will provide 
extensive habitat for federally endangered birds, fish and wildlife. In 
addition, the project will improve wildlife oriented recreational 
opportunities including fishing, hunting, environmental education and 
bird-watching.
    In addition, the project will provide increased public access to 
areas of the South San Francisco Bay that were previously unreachable 
through the creation of new bay trails and other associated 
undertakings. The construction of one particular segment of bay trail 
runs adjacent to the NASA Ames Research facility. The facility, 
currently well removed from public access, will need upgraded security 
features to safeguard its personnel and contents in advance of 
increased public access to the area. As such, we are seeking a $1 
million in increased funding for the facility for the construction of 
this fence. Of this amount $661,800 will be for 13,236 linear feet of 
fencing, $50,000 for 10 double swing gates valued at $5,000 per gate 
and $60,000 is required for the installation of closed circuit 
monitoring technologies.
    This request is supported by the center and all our project 
partners. Specifically, the South San Francisco Bay Salt Ponds Project 
is supported by a great number of respected organizations including: 
the San Francisco Bay Joint Venture, the City of San Jose, The Bay 
Institute, Save the Bay, the Bay Trail Program, the National Audubon 
Society, and many other local governments, environmental groups, 
community groups, businesses, and recreation organizations.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers

Introduction
    Thank you, Chairwoman Mikulski, Ranking Member Shelby and other 
distinguished members of the Subcommittee, for this opportunity to 
express support for the Census Bureau and the National Science 
Foundation (NSF), two agencies important to the Population Association 
of America and the Association of Population Centers (PAA/APC). PAA and 
APC request that you support the administration's budget for the Census 
Bureau at $2.6 billion and for NSF at $6.8 billion.

Background on the PAA/APC and Demographic Research
    The PAA is an interdisciplinary, scientific organization comprised 
of over 3,000 research professionals, including demographers, 
economists, sociologists, and statisticians. The APC is a similar 
organization comprised of over 30 universities and research groups that 
foster collaborative demographic research and data sharing, translate 
basic population research for policy makers, and provide educational 
and training opportunities in population studies.
    Demography is the study of populations and how and why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, immigration and disabilities 
as well as racial, ethnic and socioeconomic changes in populations. 
Among the major policy issues, population researchers study the 
demographic causes and consequences of population aging, trends in 
fertility, marriage, divorce and their effects on the health and well 
being of children, and immigration and migration and how these patterns 
affect the ethnic and cultural diversity of our population and the 
nation's health and environment.
    PAA/APC members rely on a number of federal agencies charged with 
funding demographic research and generating reliable, accessible data. 
The ability of our members to produce meaningful research, often used 
to inform policy decisions, requires the use of substantial data sets 
and support for research projects and research training. Both the 
Census Bureau and National Science Foundation (NSF), which are under 
your subcommittee's jurisdiction, are key to the success of our field.

The Census Bureau
    The Census Bureau is the most comprehensive source of demographic 
and economic data on every facet of our nation's population and 
communities. PAA and APC members rely on accessible data produced by 
the Census Bureau to conduct their research. Thus, we support the 
Administration's request of $2.6 billion for the Census Bureau in 
fiscal year 2009 and hope the Subcommittee will as well. This funding 
is necessary to support the significant ramp-up activities in the final 
preparation year for the 2010 decennial census and to support the 
agency's ongoing survey operations, too.
    We recognize the fiscal year 2009 request is double the fiscal year 
2008 appropriation of $1.3 billion. However, as you know, the Census 
Bureau's budget is cyclical and must increase dramatically in the years 
immediately preceding the decennial census to pay for necessary 
preparations. In fiscal year 2009, these activities include:
  --Opening and staffing 150 ``early'' local census offices;
  --Canvassing all neighborhoods and rural areas to verify addresses 
        (on the Master Address File) and geographic locations (in the 
        TIGER system);
  --Finalizing data capture, data processing, and telecommunications 
        systems;
  --Printing hundreds of millions of census questionnaires and other 
        forms; and
  --Conducting promotional activities, including the Regional 
        Partnership Program, to assure the greatest possible level of 
        participation in 2010.
    The groundwork done in the final year before the census will, to a 
large extent, determine the success of the 2010 Census. The Census 
Bureau must receive, at a minimum, the President's requested funding 
level, to ensure vital preparations are thorough and timely.
    Fiscal year 2009 is also a pivotal year for the American Community 
Survey (ACS), which has replaced the traditional census long form. In 
2010, the ACS will provide the first demographic, economic, and housing 
characteristics data for areas as small as census tracts and block 
groups, based on five years worth of data collection for households 
(2005-2009). To assure the data collected in the last year are as 
accurate as in previous years, the Census Bureau needs sufficient 
funding to continue sampling three million households that receive the 
ACS annually.
    The Administration's request also will enable the agency to 
continue its other ongoing surveys, which measure changes in individual 
and household demographic and economic conditions. For example, in 
fiscal year 2009, the Census Bureau will tabulate and publish data from 
the 2007 Economic Census, launch an initiative to improve the 
collection of economic statistics on the growing service sector, and 
continue the Survey of Income and Program Participation. Continuation 
of these activities is particularly important in the current difficult 
economic climate, as these data provide a basis for key economic 
indicators and help Congress assess the prudence of fiscal policy 
proposals.

National Science Foundation (NSF)
    PAA and APC, as members of the Coalition for National Science 
Funding, support the President's fiscal year 2009 budget request for 
NSF of $6.8 billion. This budget will enable the NSF Social, Behavioral 
and Economic Science Directorate (SBE) to continue its support of 
social science surveys and a rich portfolio of population research 
projects.
    The mission of NSF is to promote the progress of science; to 
advance the national health, prosperity, and welfare; to secure the 
national defense. The demography of our population directly impacts the 
health, prosperity, welfare, and security of our nation. NSF's support 
of demographic research, particularly its support of large-scale 
longitudinal surveys, such as the General Social Survey and Panel Study 
of Income Dynamics, is central to the agency's mission and essential 
for the field of demographic research. NSF is the funding source for 
approximately 20 percent of all federally supported basic research 
conducted by America's colleges and universities, including basic 
behavioral and social research. Demographic research also depends on 
support from NSF for support of individual research projects and 
research centers.
    The Census Bureau and the National Science Foundation support, 
indirectly and directly, the collection and availability of rich data 
sources important to PAA/APC members. Our demographers, economists, 
sociologists, and statisticians rely on federally supported data to 
conduct sound research and inform public policy. Investments in these 
data sets are investments in good policy.
    Thank you for considering our requests and for supporting federal 
programs that benefit the field of demographic research.
                                 ______
                                 
  Prepared Statement of the Consortium of Social Science Associations 
                                (COSSA)

    Mr. Chairman and Members of the Subcommittee: The Consortium 
represents over 110 professional associations, scientific societies, 
universities and research institutes concerned with the promotion of 
and funding for research in the social, behavioral and economic 
sciences. COSSA functions as a bridge between the research world and 
the Washington community. A list of COSSA's membership is attached.
    Like you, COSSA was disappointed in some of the final numbers in 
the fiscal year 2008 Consolidated Appropriations Act. We had hoped the 
Administration and the Congress could agree on an overall number that 
would have allowed you to maintain some of the early promising 
increases for the National Science Foundation and other agencies. We 
hope the fiscal year 2009 process will work more smoothly.
    We appreciate the opportunity to comment on the proposed fiscal 
year 2009 budgets for the National Science Foundation (NSF), for which 
we recommend at least $6.85 billion; the Bureau of Economic Analysis, 
for which we support the proposed budget of $86.9 million; the Census 
Bureau, for which we recommend whatever funds, both regular and 
``emergency'' appropriations, that may be necessary to ensure a fair 
and accurate Census and protect the Bureau's other data collection 
activities; the National Institute of Justice (NIJ), for which we seek 
$50 million in program funds, and Bureau of Justice Statistics (NIJ), 
for which we urge $50 million in program funds. COSSA is well aware 
that each year you confront difficult choices among competing agencies 
under the Subcommittee's jurisdiction. We hope that you will give these 
agencies' needs generous consideration.

                   NATIONAL SCIENCE FOUNDATION (NSF)

    COSSA strongly recommends that NSF receive at least the President's 
request of $6.85 billion in fiscal year 2008. We recognize that this is 
below the authorized level of $7.33 billion, that would double NSF's 
budget in seven years, but we are realistic. We also strongly support 
the Research and Related Activities request of $5.594 billion.
    We realize the NSF fiscal year 2009 budget proposal is driven by 
the Administration's American Competitiveness Initiative (ACI). And we 
know that the ACI grew out of the National Academies' Rising Above the 
Gathering Storm (RAGS) report. Both of these have asserted that 
reinvigorating the physical sciences and engineering are a national 
priority. Yet, there are admonitions from the RAGS report, from the 
language in the fiscal year 2008 appropriations report, for which we 
are grateful to this Subcommittee, and from the COMPETES Act, that the 
social, behavioral and economic (SBE) sciences should not be left 
behind. COSSA believes the NSF's fiscal year 2008 allocation and the 
fiscal year 2009 request suggest that is what is happening. There is no 
apparent increase in the fiscal year 2008 current plan for the SBE 
directorate and its fiscal year 2009 proposed increase of $18 million 
pales in comparison to the $235 million boost for the physical and 
mathematical sciences. NSF is extremely important for federal support 
for basic research in the SBE sciences. For some fields in these 
sciences, NSF is the only source of federal support for basic research 
and infrastructure development.
    Now is also a time when advances in methodologies, computing power, 
and interdisciplinary cooperation are helping SBE scientists produce 
significant results. We need sustained support for the new modes of 
research, such as collaborations, economic and political laboratories, 
merged databases, functional MRIs, and virtual centers that have 
transformed SBE research.
    The social and behavioral research portfolio is enormous and 
supports science of tremendous intellectual excitement and substantial 
societal importance. Let me list a number of areas, far from a 
comprehensive list, where social and behavioral research plays a 
significant role in addressing America's and the world's problems.
  --The Brain/Behavioral Interface--neuroeconomics, law and 
        neuroscience, biomarkers
  --Ethical, Legal and Social Implications (ELSI)--
    --Information Technology--privacy, human-machine interfacing
    --Nanotechnology--regulatory and safety considerations
  --Climate Change
    --Human Dimensions, International Politics, Land Use, Coupled 
            Natural and Human Systems
  --Energy
    --Behavior Changes for Conservation
    --Biofuel Impact on Rural America
  --Developing Human Capital
    --Language and Other Learning, Skill Formation, Changing Workforce.
  --Social Networks--terrorism, teen sexual behavior
  --Decision Making--under uncertainty, risk taking and risk aversion
  --Organizational Change--virtual organizations, flat pyramids, 
        telecommuting
  --Public Health--obesity, health disparities, lifestyle choices
  --A Fair Society--broadening participation and enhancing diversity
  --A Safe Society--crime and criminal justice
  --Changing Demographics
    --International Aspects--global aging, migration, birth and death 
            Rates
    --U.S.--internal shifts, immigration
    --Changing Family Structure
  --Global Issues--Conflict and Cooperation, Terrorism, Differential 
        Economic Growth, Compatibility of Economic and Political 
        Freedom
    As you can recognize, many of these are issues the Congress deals 
with constantly. Social and behavioral research provides you with 
answers to many of these vexing problems. Yet, at budget time, we are 
relatively poor orphans.
    Admittedly, not all of these issues are related to NSF's agenda. 
However, basic research on individual, group, and societal behavior is 
the underpinning for much of the knowledge and insight that policy 
makers bring to coping with these issues. Of course, we understand, as 
political science studies have shown, that research results are not the 
only consideration used by policy makers.
    Some specific SBE-related programs continue, such as the initiative 
on the Science of Science and Innovation Policy (SciSIP). These studies 
examine how national research and development systems work, how to 
measure and nurture innovation, and how to direct the nation's 
investments. Two major competitions have been solicited, generating 
high demand, and more will follow. Unfortunately, the fiscal year 2008 
lack of a spending increase affected the ability of this program to 
fund some excellent proposals.
    The Foundation-wide, SBE-managed, priority called Human and Social 
Dynamics (HSD) has come to an end. HSD supported projects that 
investigated the dynamics of human action and development, as well as 
knowledge about organizational, cultural, and societal adaptation and 
change. It utilized multidisciplinary research teams and comprehensive, 
interdisciplinary approaches across the sciences. Two major HSD foci 
will continue as part of the core programs within SBE: environmental 
research and the development of international, integrated, microdata 
sets to enhance analysis of both national and global attitudes and 
trends.
    SBE maintains its support for major long-term data bases such as 
the Panel Study on Income Dynamics, the General Social Survey, and the 
American National Election Studies. These three extraordinary sets of 
time-series data continue to paint a portrait of American's economic, 
social, and political attitudes and behavior over five decades, while 
updating their methodology and expanding their scope.
    With regard to the Education and Human Resources directorate (EHR), 
COSSA believes that broadening participation in science, across all the 
sciences, is a worthy endeavor. We support NSF's programs to ensure 
that all students get a chance to become scientists; including SBE 
scientists. COSSA recently organized and led a full-day retreat on 
Enhancing Diversity in the Sciences with the participation of 
representatives from professional associations, scientific societies, 
NSF, and NIH. Information about the retreat can be found at 
www.cossa.org.
    We strongly support the 32 percent proposed budget increase for 
NSF's Graduate Education programs to provide more fellowships. These 
have been extremely important for budding scientists across all the 
disciplines. We also believe in programs that will enhance the quality 
of teaching in our K-12 system, not only for math and science, but for 
all subjects. It is clear from NAEP and other tests that American 
students need help across-the-board.
    We also strongly support funding for EHR research that evaluates 
the effectiveness of these programs and enhances their ability to get 
the job done right. We also believe that STEM education cannot be done 
in isolation from social, economic, and cultural factors that influence 
our education system and its students. The SBE sciences are in the 
forefront of providing research and evidence for improving how our 
children learn and survive in the modern, complex societies in which we 
live. NSF's Science of Leaning Centers program is an important part of 
this and COSSA strongly supports the continued funding of these Centers 
found in the Integrated Activities account.

         THE U.S. CENSUS BUREAU AND BUREAU OF ECONOMIC ANALYSIS

    COSSA is a member of the 2010 Census Advisory Committee and as we 
move toward that redesigned short-form Census, the large increase 
proposed for the Bureau's fiscal year 2009 budget becomes imperative if 
we are to get the count right. We are aware that there are difficulties 
surrounding the preparations for 2010, particularly with regard to the 
use of handheld devices to verify addresses and to conduct the 
nonresponse follow up. We hope that Congress and the Bureau can 
cooperate to ensure that these problems are straightened out.
    Nonetheless, the Census is constitutionally mandated and has an 
important impact on reapportionment, redistricting, and the 
distribution of federal and state funds. So we must make every effort 
and spend whatever is necessary to make sure we get a fair and accurate 
count.
    In addition, the other regular activities at the Census Bureau 
should not suffer as a result of the difficulties with the preparations 
for 2010. The American Community Survey (ACS) has allowed the decennial 
to become a short-form census and ACS' annual data collections also 
provide timelier information for use by state and local governments and 
businesses. The other Bureau activities are also important to 
maintaining our economic statistical databases that play an important 
role in employment policy, housing policy, and economic policy and 
their funding should be sufficient.
    COSSA also supports the increase proposed for the fiscal year 2009 
Bureau of Economic Analysis (BEA) that continues the development of 
measures of investment in R&D and other knowledge-based activities in 
order to incorporate them into the nation's GDP. BEA also maintains the 
nation's current income accounts, an important tool for economic policy 
making.

     NATIONAL INSTITUTE OF JUSTICE (NIJ) AND THE BUREAU OF JUSTICE 
                            STATISTICS (BJS)

    At the House CJS Subcommittee hearing with the Office of Justice 
Programs there were many references to the studies and data collections 
of NIJ and BJS. The problem has been that these references do not 
necessarily translate into increased budget support. In recent years, 
these agencies have seen their budgets stagnate and in some years go 
down. We appreciate this Subcommittee's support of the fiscal year 2008 
increase for BJS and the strong report language regarding the 
importance of the National Crime Victimization Survey (NCVS). We ask 
for enhanced resources for these agencies in fiscal year 2009, $50 
million in program funds for each agency. The cost of crime to victims 
and to society is far out of proportion to the budget for research 
studies and the collection and analysis of data that are essential to 
understanding how to effect change with regard to crime and criminal 
justice.
    Recently, the National Academies' Committee on National Statistics 
has been reviewing BJS' programs. In early January they released their 
report Surveying Victims: Options for Conducting the National Crime 
Victimization Survey. In many years, NCVS takes up to 60 percent of the 
BJS budget.
    The Committee found that ``as currently configured and funded, the 
NCVS is not achieving and cannot achieve BJS' legislatively mandated 
goal to `collect and analyze data that will serve as a continuous and 
comparable national social indication of the prevalence, incidence, 
rates, extent, distribution, and attributes of crime.' '' They 
recommend that BJS needs additional funds to ``generate accurate 
measures of victimization, which are as important to understanding 
crime in the United States as the UCR measure of crimes reported to the 
police.'' Additional resources will also permit NCVS to provide sub-
national data, a sticking point for many practitioners regarding the 
NCVS.
    Recent increases in crime are not uniform across America. Many 
large cities continue to show declines, while medium-size cities and 
rural areas are experiencing difficulties. There are many possible 
explanations and the sorting out process continues. But it is clear 
that strategies that worked in some places, ``hot spots,'' community 
policing, crime mapping, are not working in others. The re-entry of 
former prison inmates into the general population creates more 
concerns. COSSA sponsored a session on April 4 on Violent Crime: What's 
Happening and Why in which distinguished criminologists and a former 
judge discussed these problems. NIJ needs more resources to support 
further explorations of this differentiation that now marks criminal 
activity.
    The National Academies' has also begun a study of NIJ's research 
activities. COSSA testified to that panel in December of last year. The 
NIJ social science portfolio has been limited in recent years, as 
budgets have decreased and the fascination with technological fixes 
continues. COSSA has nothing against technology, but as has been proven 
in so many areas, human behavior and social conditions often thwart 
technology-driven solutions and thus the focus, we believe has to 
shift.
    In July of each year, NIJ convenes a large R&D conference that 
examines major issues facing the criminal justice community. It is a 
special opportunity to bring together scientists, practitioners, and 
policy makers to interact and cooperate on setting research agendas.
    Again, I understand that this is expected to be another difficult 
year for the appropriations' process. COSSA hopes that when you 
consider the fiscal year 2009 funding for the agencies I discussed, you 
will treat them as generously as you can.
    Thank you for the opportunity to present our views.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS

Governing Members
American Association for Public Opinion Research
American Economic Association
American Educational Research Association
American Historical Association
American Political Science Association
American Psychological Association
American Society of Criminology
American Sociological Association
American Statistical Association
Association of American Geographers
Association of American Law Schools
Law and Society Association
Linguistic Society of America
Midwest Political Science Association
National Communication Association
Rural Sociological Society
Society for Research in Child Development
Membership Organizations
American Agricultural Economics Association
American Association for Agricultural Education
Association for Asian Studies
Association for Public Policy Analysis and Management
Association of Research Libraries
Council on Social Work Education
Eastern Sociological Society
International Communication Association
Justice Research and Statistics Association
Midwest Sociological Society
National Association of Social Workers
National Council on Family Relations
North American Regional Science Council
North Central Sociological Association
Population Association of America
Social Science History Association
Society for Behavioral Medicine
Society for Research on Adolescence
Society for the Psychological Study of Social Issues
Society for the Scientific Study of Sexuality
Sociologists for Women in Society
Southern Political Science Association
Southern Sociological Society
Southwestern Social Science Association
Colleges and Universities
Arizona State University
Brown University
University of California, Berkeley
University of California, Davis
University of California, Irvine
University of California, Los Angeles
University of California, San Diego
University of California, Santa Barbara
Carnegie-Mellon University
University of Chicago
Clark University
Columbia University
Cornell University
Duke University
George Mason University
George Washington University
University of Georgia
Harvard University
Howard University
University of Illinois
Indiana University
University of Iowa
Iowa State University
Johns Hopkins University
John Jay College of Criminal Justice, CUNY
Kansas State University
University of Kentucky
University of Maryland
Massachusetts Institute of Technology
Maxwell School of Citizenship and Public Affairs, Syracuse
University of Michigan
Michigan State University
University of Minnesota
Mississippi State University
New York University
University of North Carolina, Chapel Hill
North Carolina State University
Northwestern University
Ohio State University
University of Oklahoma
University of Pennsylvania
Pennsylvania State University
Princeton University
Purdue University
Rutgers, The State University of New Jersey
University of South Carolina
Stanford University
University of Tennessee
State University of New York, Stony Brook
University of Texas, Austin
Texas A & M University
Tulane University
Vanderbilt University
University of Virginia
University of Washington
Washington University in St. Louis
West Virginia University
University of Wisconsin, Madison
University of Wisconsin, Milwaukee
Yale University
Centers and Institutes
American Academy of Political and Social Sciences
American Council of Learned Societies
American Institutes for Research
Brookings Institution
Center for Advanced Study in the Behavioral Sciences
Cornell Institute for Social and Economic Research
Institute for Social Research, University of Michigan
Institute for the Advancement of Social Work Research
Institute for Women's Policy Research
National Bureau of Economic Research
National Opinion Research Center
Population Reference Bureau
Social Science Research Council
                                 ______
                                 
              Prepared Statement of Crary Industries Inc.

    On behalf of Crary Industries Inc., manufacturer of agricultural 
and outdoor equipment, located in West Fargo, North Dakota, I would 
like to thank the Committee for allowing our organization to submit 
this testimony for the record. I am writing to respectfully request 
that the Hollings Manufacturing Extension Partnership program be 
provided the authorized $122 million within the fiscal year 2009 
Commerce, Justice, Science and Related Agencies Appropriations Bill. 
This requested level of funding for 2009 was provided for in the 
recently enacted America COMPETES Act. As you know, the Hollings 
Manufacturing Extension Partnership (MEP) is a program within the 
Department of Commerce, National Institute of Standards and Technology, 
a program authorized to improve competitiveness of America's 
manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In North Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. We have worked on a variety of improvement projects 
with the assistance of Dakota MEP.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience

Introduction
    Mr. Chairman and members of the subcommittee, I am Eve Marder, 
Ph.D., President of the Society for Neuroscience (SfN) and the Victor 
and Gwendolyn Beinfield Professor of Neuroscience at Brandeis 
University. It is my honor to submit this testimony on behalf of SfN in 
support of the National Science Foundation.
    My research focuses on understanding how circuit function arises 
from the intrinsic properties of individual neurons and their synaptic 
connections. Of particular interest is the extent to which similar 
circuit outputs can be generated by multiple mechanisms, both in 
different individual animals, or in the same animal over its lifetime. 
To address this, my lab studies the central pattern generating circuits 
in the crustacean stomatogastric nervous system, such as those found in 
crabs and lobsters. Central pattern generators are groups of neurons 
found in vertebrate and invertebrate nervous systems responsible for 
the generation of specific rhythmic behaviors such as walking, 
swimming, and breathing. I am the recipient of federal support from the 
National Institutes of Health, and from the National Science Foundation 
for research and the training of the next generation of scientists.
Fiscal Year 2009 Budget Request
    The Administration requests a budget of $6.85 billion for NSF in 
fiscal year 2009, a 13 percent increase from fiscal year 2008. The 
administration's request for the Research and Related Activities (R&RA) 
account, where all NSF grant funding resides, is $5.59 billion, an 
increase of 16 percent from fiscal year 2008. The scientific community 
applauds this strong support for the agency--it is a crucial step in 
keeping the United States competitive in science and technology.
    SfN is advocating a budget of $7.33 billion for NSF in fiscal year 
2009, the amount authorized by the House in the America COMPETES Act. 
This represents a 20.8 percent increase for NSF. While this increase 
seems large, we ask that the Subcommittee consider the following:
  --NSF accounts for nearly 25 percent of federal support of basic 
        research at U.S. academic institutions.
  --This is effectively a two-year increase. NSF received an increase 
        of just 1.3 percent for fiscal year 2008 after Congress passed 
        much larger amounts in their spending bills.
  --In some cases, directorates not covered under the American 
        Competitiveness Imitative actually saw funding decreases in the 
        last fiscal year, including the Biological Sciences Directorate 
        (-2.9 percent).
    SfN supports such dramatic budgetary action because it represents a 
necessary step in the advancement of physics, computer science, 
mathematics, chemistry, engineering, as well as biology. These fields, 
and scientists trained in them, are crucial for us to understand the 
brain and the way it controls behavior. Through NSF grants and 
cooperative agreements with colleges, universities, K-12 school 
systems, and other research organizations throughout the United States, 
neuroscientists can continue to conduct the basic research that 
advances scientific knowledge and leads to tomorrow's treatments and 
cures. Additionally, SfN recognizes the leadership role that NSF plays 
in driving innovation in science education.

Basic Research--Fundamental Science
    Continued investment in basic research at NSF is essential to 
laying the groundwork for discoveries that will inspire scientific 
pursuit and technological innovation for future generations. As 
reflected in the America COMPETES Act, aggressive investment in 
technology and scientific research is crucial to ensure America 
sustains its global leadership and competitiveness. Science is now a 
truly global enterprise that has the potential to revolutionize the 
human experience, health and activity--the question is whether America 
will maintain its role leading the next generation of scientific 
advances.
    Future scientific progress requires the kinds of quantitative and 
interdisciplinary training that NSF fosters. NSF programs such as the 
Integrative Graduate Education and Research Traineeship Program (IGERT) 
are producing a cohort of scientists who have learned to work 
cooperatively, and have learned to learn across disciplinary 
boundaries, ensuring that the workforce is provided highly trained 
scientists who are unafraid of the challenges of the future.
    NSF-funded biologists and neuroscientists are discovering 
fundamental mechanisms important to understanding how humans and other 
animals behave, develop, communicate, learn, and process information. 
Understanding the neuroscience of animal diversity is necessary as we 
confront environmental and agricultural changes in the future. NSF-
funded physicists, mathematicians, computer scientists and engineers 
have done ground-breaking work that enables the analysis of EEG data, 
the development of brain prosthetic devices, and other technologies 
that will assist in the rapid diagnosis and treatment of epilepsy and 
stroke. NSF-funded statisticians are developing new methods for 
analysis of the large amounts of genome data, on humans and other 
organisms, and developing better statistical tools for looking at the 
effects of the environment on human and animal populations. NSF-funded 
chemists have developed new methods that allows for the extremely 
accurate measurement of very small amounts of brain hormones.
    Indeed, many of the new findings in neuroscience can be traced back 
to fundamental work in these other fields that has contributed to new 
technologies of all kinds. This allows us to carry out new kinds of 
experiments not imaginable even 5-10 years ago. Consider these recent 
advances in neuroscience made possible by discoveries in other fields:
    Artificial Cochlea.--NSF-funded researchers at the University of 
Michigan developed an artificial cochlea to assist the hearing-
impaired. The device, made mainly of Pyrex glass, silicone oil and 
silicon nitride, works by converting vibrations into electrical pulses 
that the brain is able to process. Via cochlear implants, nearly 
120,000 people have had partial hearing restored.
    Brain Mapping.--Scientists at the College of William and Mary used 
NSF funding to create real-time, dynamic maps of patients' brains to be 
used during neurosurgery. Computers use images taken prior to surgery 
combined with live data feeds from the patient's brain during the 
procedure to show changes and assist neurosurgeons with quicker, more 
accurate medical procedures that will result in lives saved.
    These discoveries have great potential to improve the lives of 
Americans and almost certainly would not have been made without the 
strong commitment to interdisciplinary research at NSF.

What is the Society for Neuroscience?
    The Society for Neuroscience is a nonprofit membership organization 
of basic scientists and physicians who study the brain and nervous 
system. Recognizing the field's tremendous potential, the Society was 
formed in 1969 with less than 500 members. Today, SfN's membership 
numbers more than 38,000 and it is the world's largest organization of 
scientists devoted to the study of the brain. Neuroscience advances the 
understanding of human thought, emotion, and behavior. Our member 
neuroscientists work to understand animal and human nervous systems, 
how they develop, learn, and how they interact with their environment. 
Our membership includes investigators from backgrounds as diverse as 
physics, chemistry, engineering, mathematics, biology, biochemistry, 
and psychology, brought together to understand all aspects of brain 
function, from molecules and genes to cognition.
    SfN is devoted to education about the latest advances in brain 
research, and to raising awareness of the need to make neuroscience 
research a funding priority. Many SfN members are committed to 
developing educational innovations that take advantage of new 
neuroscience research.

Conclusion
    The scope of the challenge of understanding the human mind requires 
a bold approach and the ability to undertake high-risk, high-reward 
projects. With proper funding, the NSF can do both. By laying the 
groundwork for revolutionary discoveries and advances in neuroscience 
with interdisciplinary research, NSF is poised to keep the United 
States competitive in the 21st century and beyond.
    We urge the subcommittee to support and approve a 20.8 percent 
increase to the NSF budget for fiscal year 2009. Thank you for the 
opportunity to submit this testimony.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    Thank you, Mr. Chairman for the opportunity to present this 
testimony on behalf of the American Society of Plant Biologists (ASPB). 
Founded in 1924, ASPB is a non-profit society of 5,000 plant 
scientists. My name is Rob McClung. I am Associate Dean of the Sciences 
at Dartmouth College and President of ASPB. ASPB urges Subcommittee 
support for the fiscal year 2009 budget request of the National Science 
Foundation (NSF) of $6.85 billion, including $5.59 billion for NSF 
Research and Related Activities and $790 million for NSF Education and 
Human Resources. ASPB urges a 16-percent increase for the NSF 
Directorate for Biological Sciences, which is the average of increases 
for all directorates in the fiscal year 2009 request.
    ASPB joined with 17 other science societies in a March 17 letter to 
the Chairman and Ranking Member expressing appreciation for your 
leadership in supporting NSF and comparable increases for all science 
disciplines. As noted in the letter, we are concerned that the NSF 
fiscal year 2009 budget request again tries to distinguish among the 
disciplines in its proposed increases for the research directorates.
    The Consolidated Appropriations Act of 2008 indicates that the 
``Committees also believe the Foundation should maintain comparable 
growth in fiscal year 2008, to the extent possible for the biological 
sciences and social, behavioral, and economic sciences directorates. 
Each of the science disciplines is valuable in maintaining U.S. 
competitiveness.'' This reflects language in the House Report. Thank 
you, Mr. Chairman and Mr. Ranking Member for your leadership on this 
provision.
    Your position is supported by the America COMPETES Act, which 
treats all disciplines as priorities. In addition, ``Rising Above the 
Gathering Storm'' said there should not be a disinvestment in such 
important fields as the life sciences and social sciences.
    We join with 17 other science societies in asking that the 
Subcommittee include report language in the fiscal year 2009 
Appropriations report that asks NSF to ensure that the biological 
sciences, geosciences and social, behavioral and economic sciences 
directorates receive increases in fiscal year 2009 that are comparable 
to the other directorates.
    It is only through advances in all science disciplines that the 
nation will take advantage of the full range of innovation the science 
community has to offer.
    Investment in world leading basic research sponsored by NSF 
contributes to U.S. leadership in the world in science and technology. 
U.S. leadership in a wide range of science disciplines is needed for 
U.S.-based development of new technologies that will help U.S. 
industries and workers compete and survive in the highly competitive 
global market.
    Support for NSF is an investment in the knowledge base of our 
nation. Existence of a highly educated workforce is a major 
consideration for businesses in determining what part of the world they 
will start or expand their operations. Despite the attractions of lower 
costs for wages, land, buildings and related costs to companies 
considering moving jobs offshore, it is the highly skilled workforce in 
the United States that plays a major role in contributing to job starts 
and business expansions here at home.
    The students, post doctoral students, assistant professors and 
professors supported at universities across the nation by NSF research 
and education grants make up a valuable talent pool highly prized by 
business and industry. In addition to the United States, other nations 
are aware of the contributions the science community can make to its 
economy.
    Educating and training its citizens to be world leading scientists 
and providing a reasonable opportunity for success in a science 
academic career have been keys to success for the U.S. science 
community and its related industries. Support provided by NSF for 
research proposals selected based on the highest scientific merit as 
determined through peer review is essential to development of the 
nation's scientific talent base. We're concerned that the high rate of 
rejection of even the highly rated biology proposals by NSF, will 
discourage some talented young students from pursuing a career in 
science.
    Grant approval rates at 21 percent for the NSF Directorate for 
Biological Sciences are below the average of 23 percent for all 
directorates in NSF Research and Related Activities. We appreciate the 
10.3 percent increase in the budget request for the Directorate for 
Biological Sciences. We request that the Subcommittee increase funding 
for the Directorate for Biological Sciences to the 16-percent average 
increase for Research and Related Activities in the budget request. 
This would make possible the granting of more awards for a greater 
number of high quality research proposals.
    The NSF Directorate for Biological Sciences is the major source of 
support for fundamental non-medical biology research conducted at 
universities across the nation. Increased support for non-medical 
biology research could strengthen the nation's world standing and 
competitive strength in this important area of research. This would in 
turn strengthen U.S.-based industries dependent upon basic biological 
research, including biotechnology, bioenergy, biosafety, biodefense and 
agriculture.
    In concert with maintaining preeminence in science and technology, 
one of the keys to maintaining world leadership for the United States 
will be to assure a reliable and affordable energy supply for industry 
and consumers. Basic plant research supported by the NSF Directorate 
for Biological Sciences is providing knowledge that is contributing to 
bioenergy research capabilities of the U.S. Department of Energy and 
U.S. Department of Agriculture. For example the Plant Genome Research 
Program (PGRP) and 2010 Project are producing a treasure trove of 
knowledge of plant gene structure and functions.
    As projected in a report prepared by DOE and USDA in April 2005, 
advances in plant and related research will enable the United States to 
produce more than 1.3 billion tons of biomass ``enough to produce 
biofuels to meet more than one-third of the current demand for 
transportation fuels.'' The report is titled ``Biomass as Feedstock for 
a Bioenergy and Bioproducts Industry: The Technical Feasibility of a 
Billion-Ton Annual Supply.'' The report can be found at: http://
www1.eere.energy.gov/biomass/pdfs/final_billionton_vision_report2.pdf.
    A letter to the editor I wrote on ``The next generation of 
biofuels'' that was published in The Washington Times March 6, 2008 and 
is appended to my statement commends the Congress and President for 
initiating needed investments in new generation biofuels. We encourage 
additional investment in all phases of plant research. This will hasten 
the day when biofuels make up 33 percent instead of three percent of 
the transportation fuels used in the United States.
    Plant genome research has helped propel plant science into a new 
modern era with far more capabilities in biology, bioinformatics, 
computational biology, modeling systems, systems biology and other 
areas. Findings in future years through the Plant Genome Research 
Program and 2010 Project will further enhance research capabilities 
with plants. As the primary source for food, fiber and feed and a 
promising clean alternative energy source, increased knowledge of plant 
structure and function is essential to meeting life-sustaining human 
needs.
    A recent report of the National Academies found many important 
contributions from the NSF-sponsored National Plant Genome Initiative. 
The report found that basic plant genome research serves a wide 
diversity of agricultural and environmental purposes, as well as 
contributing to basic scientific discovery. For example, by increasing 
knowledge of how plants cope with extreme environmental stresses, plant 
genomics research can help scientists more precisely breed or engineer 
plants that can thrive as climates change. This knowledge is 
particularly important with respect to how water is used to grow crops. 
Economically viable production of fuels from plant biomass, in 
quantities that could contribute to a reversal of the world's 
dependence on fossil fuels, will require increases in plant 
productivity and advances in plant biomass-to-fuel conversion.
    A key to maintaining the health and security of the United States 
and its citizens is to continue to provide secure food supplies. NSF 
support for basic plant research contributes to the local economies 
nationwide, including rural areas, while helping to secure the food 
supply of all Americans. As the first step of every food chain, plants 
and research on plants plays an essential role in meeting the 
nutritional needs of people here and abroad.
    The NSF Directorate for Biological Sciences sponsors examination of 
basic research questions on plants and other organisms that will lead 
to technologies to continue a secure supply of domestically produced 
food and bioenergy.
    Thank you again for this opportunity to present our testimony 
before the Subcommittee.

               [From The Washington Times, March 6, 2008]

                         letters to the editor
                    The Next Generation of Biofuels

    Oil closed at $100 a barrel Feb. 19 for the first time. The 
Washington Times reported on Feb. 20 (``Oil tops $100 on refinery, 
OPEC,'' Business) that fears that the Organization of the Petroleum 
Exporting Countries may cut production contributed to the price 
increase.
    Some analysts see this $100 mark as just a stop on the way to $200-
per-barrel oil, possibly by the end of this decade. The reason cited is 
similar to newspaper reports on the bump to $100 per barrel--OPEC's 
control of supply.
    In addition to the economic and political challenges imposed by our 
reliance on foreign oil, we also need to be concerned that greenhouse 
gas (GHG) emissions associated with the use of fossil fuel contribute 
significantly to global warming, evident from observed increases in 
global air and ocean temperatures, widespread melting of snow and ice 
and a rising global average sea level. Is there a large-volume 
alternative to the use of increasingly costly oil with its high GHG 
emissions? There will be.
    We are at the early stages of research on the next generation of 
biofuels using plant cellulose. Plant stems, stalks and leaves will 
become low-cost feedstocks for biofuels. A 2005 report from the U.S. 
Department of Agriculture and the U.S. Department of Energy projects 
that there will be enough biomass (cellulose) to meet more than one-
third of the current U.S. demand in transportation fuels.
    At the same time, next-generation biofuels will greatly lower 
emissions of stored carbon compared to gasoline. Biofuels will be 
better for Americans' pocketbooks and the environment.
    The President and Congress are to be commended for initiating 
needed investments in new-generation biofuels research. Additional 
investment is needed in all phases of plant research. This will help 
hasten the day when biofuels make up 33 percent instead of 3 percent of 
the transportation fuels used in the United States.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives

Interest of the IME
    The IME is the safety and security association of the commercial 
explosives industry. The production, distribution, storage and use of 
explosives are highly regulated. ATF is one of the agencies that play a 
primary role in assuring that explosives are identified, tracked, and 
stored only by authorized persons. The ability to manufacture, 
distribute and use these products safely and securely is critical to 
this industry. We have carefully reviewed the Administration's fiscal 
year 2009 budget request for ATF and have the following comments about 
its impact on the commercial explosives industry.

Addressing Statutory Mandates
    The commerce of explosives is one of the nation's most heavily 
regulated activities. As noted above, ATF plays a key role in this 
regulatory scheme through its implementation of Federal Explosives Law 
(FEL). Yet, ATF seems to have forgotten its statutory mandate to 
``protect interstate and foreign commerce''--which is the business of 
the commercial explosives industry--in its quest to be a lead 
terrorist/criminal agency.\1\ ATF states that it is ``dedicated to 
preventing terrorism, reducing violent crime, and protecting our 
Nation.'' \2\ ATF's own data, however, suggests that commercial 
explosives are not a ``preferred tool'' of criminals or terrorists.\3\ 
While ATF claims to work ``with . . . industry members . . . to make 
regulation less burdensome'', the needs of the legitimate explosives 
industry are secondary to the agency's criminal enforcement 
interests.\4\ By statute, ATF is supposed to ``take into consideration 
. . . the standards of safety and security recognized in the explosives 
industry'' when issuing rules and requirements.\5\ But, our 
recommendations are increasingly bypassed--we believe to the detriment 
of safety and security. Finally, we see ATF reaching out to regulate in 
areas that are not the Bureau's primary area of responsibility at a 
time when ATF is not keeping up with the responsibilities already on 
its plate. With this perspective, we offer the following comments on 
ATF's budget request and program performance.
---------------------------------------------------------------------------
    \1\ Public Law 91-452, Sec. 1101.
    \2\ ATF Fiscal Year 2008 Budget Submission, page 1.
    \3\ Over half of substances used in illegal bombing incidents are 
not regulated by ATF. Only 18 percent involve explosives subject to FEL 
requirements, and of these, 91 percent are common fireworks or 
components. ``Implementation of the Safe Explosives Act'', OIG, DOJ, 
Report Number I-2005-005, page 59.
    \4\ ATF Fiscal Year 2009 Budget Submission, page 39.
    \5\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
Adequacy of Budget Resources
    As contrasted with the fiscal year 2008 budget justification, ATF's 
fiscal year 2009 budget request does not disclose the level of funding 
slated for its explosives regulatory program. Last year, the amount was 
$63.6 million or 23 percent of its entire Arson and Explosives (A&E) 
budget.\6\ Inasmuch as the fiscal year 2009 budget request anticipates 
no increase to current services, we expect that the allocation to the 
explosives regulatory program is roughly the same or $62.5 million of 
the $267.2 million request for the A&E program.\7\ While the budget 
request anticipates an increase of four FTE for the A&E program, the 
justification indicates that the revised FTE is only to maintain 
current services.\8\ As discussed below, we are concerned that ATF has 
not directed additional FTE to address the regulatory needs of the 
commercial explosives industry. Absent a reprogramming of resources, 
however, the Bureau's ability to perform its regulatory functions in a 
timely manner is jeopardized.
---------------------------------------------------------------------------
    \6\ ATF Fiscal Year 2008 Budget Submission, page 47 & 14, and ATF 
Fiscal Year 2009 Budget Submission, Exhibit G: Crosswalk of 2008 
Availability.
    \7\ ATF Fiscal Year 2009 Budget Submission, page 39.
    \8\ ATF Fiscal Year 2009 Budget Submission, Exhibit B.
---------------------------------------------------------------------------
Protect Commerce
    Our industry relies on ATF to efficiently and effectively perform a 
number of functions to ensure that the legitimate commerce of 
explosives can go forward safely and unimpeded.\9\ In this regard, we 
support all necessary resources for these essential services. However, 
the budget justification contains information suggesting that ATF will 
fall short of its three-year statutory obligation to inspect 100 
percent of its licensee/permittees as required by law.\10\ We are also 
disappointed not to see a performance measure concerning investigation 
of explosives thefts.
---------------------------------------------------------------------------
    \9\ These functions include the issuance of licenses to companies 
engaged in the manufacture, importation, and distribution of commercial 
explosives, and permits to those that purchase and receive these 
materials, background checks of certain employees of licensees and 
permittees, and regulations to ensure that commercial explosives are 
stored safely and securely. Additionally, when explosives are stolen, 
lost, or used for illegal purposes, we rely on the ATF to recover 
products and investigate incidents as necessary.
    \10\ ATF Fiscal Year 2009 Budget Submission, page 48 and FN5.
---------------------------------------------------------------------------
Industry Standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements. We have endeavored to fulfill this obligation through the 
development of industry best practices for safety and security, 
participation in relevant standard-setting organizations, and forums 
for training. We have offered ATF recommendations that we believe will 
enhance safety and security through participation in the rulemaking 
process, in the Bureau's research efforts, and in other standard 
setting activities. Our interface with ATF in these settings prompts 
the following comments.
  --Rulemakings.--Under the heading of ``Explosives . . . Regulatory 
        Programs,'' ATF states that it has ``issued three rulings.'' 
        \11\ Two of these three rulings apply to the explosives 
        industry.\12\ While we are appreciative of these rulings, they 
        are interpretive statements of agency policy and should not be 
        confused with regulatory activity conducted pursuant to the 
        Administrative Procedure Act (APA). Under the APA, ATF has six 
        open rulemakings of interest and concern to the explosives 
        industry, the same number of outstanding dockets as reported 
        last year.\13\ The oldest of these was proposed in 2001. 
        Several are a result of the enactment of the 2002 Safe 
        Explosives Act (SEA). Two of these rulemakings were issued as 
        ``interim final rules,'' which allows rules to be enforced 
        without public input as to the effect of the rule on the 
        regulated community. Subsequently, IME raised a number 
        interpretative questions and concerns about these rules which 
        are critical to the continued commerce of commercial 
        explosives. Yet, ATF has delayed again the projected date for 
        finalizing these rules until October 2008 and the projected 
        dates for finalizing every other open rulemaking of 
        significance to IME.
---------------------------------------------------------------------------
    \11\ ATF Fiscal Year 2009 Budget Submission, page 44.
    \12\ The rulings allow for the use of computer records under 
certain conditions and storage options for residual amounts of bulk-
blasting agents.
    \13\ Semiannual Agenda, http://www.reginfo.gov/public/do/
eAgendaMain (December 10, 2007).
---------------------------------------------------------------------------
    Last year, Congress directed ATF to address these long-standing 
rulemaking concerns.\14\ Despite this fact, ATF has not requested 
additional staff to address its regulatory backlog or other pending 
requests for interpretive guidance and accommodations that are the day-
to-day work of regulatory agencies. These regulatory tasks may be at 
odds with ATF's vision as a law enforcement agency, but they are 
critical to the lawful conduct of the commercial enterprises the Bureau 
controls.
---------------------------------------------------------------------------
    \14\ Conference Report--Consolidated Appropriations Act, 2008, H.R. 
2764/Public Law 110-161, page 257, citing, ``Open Rules.--The 
Appropriations Committees concur with language in the House Report 
regarding open rulemakings and the delay in resolving the rules due to 
staff shortages. The ATF to report within two months after enactment of 
this Act on the status of all open rules and the ATF's plans to address 
the backlog.''
---------------------------------------------------------------------------
  --Data.--ATF is continuing efforts to enhance data capabilities. 
        These efforts should be supported. We are only disappointed in 
        one aspect. We rely on ATF's data collection and analysis 
        capabilities. IME needs data about incidents and theft and 
        losses to perfect our safety and security recommendations and 
        practices. The latest full-year information we have about 
        explosive incidents is from 2003. We urge the Subcommittee to 
        ensure that ATF has the resources to gather and release this 
        information in a timelier manner.
  --IMESAFR.--IME prides itself in being the safety and security 
        advocates for the commercial explosives industry. The technical 
        expertise of our members is a resource we gladly share with 
        government agencies. In this regard, IME has spent years and 
        hundreds of thousands of dollars developing and validating a 
        credible alternative to strict interpretation of quantity-
        distance tables used to determine safe setback distances from 
        explosives in collaboration the Department of Defense 
        Explosives Safety Board and Canadian and U.S. regulatory 
        agencies, including ATF. The result is a windows-based computer 
        model for assessing the risk from a variety of commercial 
        explosives activities called IMESAFR.\15\ Not only can IMESAFR 
        determine the amount of risk presented, but it can also 
        determine what factors drive the overall risk and what actions 
        would lower risk, if necessary. The probability of events for 
        the activities were based on the last 20 years experience in 
        the United States and Canada and can be adjusted to account for 
        different explosive sensitivities, additional security threats, 
        and other factors that increase or decrease the base value. 
        Following this effort, we expected that ATF would be willing to 
        recognize this powerful assessment tool as an alternative for 
        the regulated community to meet quantity-distance limitations, 
        which limitations are themselves standards developed by the 
        IME. However, this has not been the case. ATF has not taken 
        advantage of opportunities to partner with IME and accept this 
        risk-based approach to explosives safety. ATF's reluctance to 
        recognize risk-based modeling is contrary to the norm practiced 
        by all other federal agencies with regulatory responsibilities 
        over the explosives industry. We believe that the consistency 
        of risk analysis offered by IMESAFR is preferable to the 
        haphazard ``variance'' approach ATF uses to address setback 
        issues now.
---------------------------------------------------------------------------
    \15\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities.
---------------------------------------------------------------------------
Areas of Responsibility
    ATF has used resources to venture into areas of regulatory 
authority that are not within its primary sphere of responsibility. In 
2003, ATF chose to interpret FEL to give it authority to set clearance 
standards for workers involved in the transportation of commercial 
explosives. In 2005, there was a flurry of concern about the breadth of 
ATF security checklist documents that included standards for facility 
security such as surveillance, training, public and employee access, 
vehicle control, fencing and gates--areas of expertise reserved for the 
Department of Homeland Security (DHS). Since then ATF has advocated for 
authority or otherwise suggested a role to regulate ammonium nitrate 
and other easily purchased/unregulated materials used by terrorists in 
improvised explosive devices.\16\
---------------------------------------------------------------------------
    \16\ ATF Fiscal Year 2007 Budget Submission, pages 18, 21, 53, 54, 
56 and 66. ATF Fiscal Year 2008 Budget Submission, pages 6, 7, 44, 45, 
and 49. ATF Fiscal Year 2009 Budget Submission, pages 7 and 45.
---------------------------------------------------------------------------
    While we respect ATF's expertise and authority to establish 
standards for explosives storage magazines, ATF's statutory authority 
does not reach to the security of ammonium nitrate or other explosive 
precursors.\17\ Congress has tasked this responsibility to the DHS 
under its Chemical Facility Anti-terrorism Standards authority and 
through the enactment of the Secure Handling of Ammonium Nitrate Act of 
2007.\18\ Many materials can be manipulated to produce an explosive 
effect. However, in their unadulterated state they will not 
explode.\19\ DHS is far better positioned to address the range of 
issues raised by the prevalence of these precursor materials. According 
to Homeland Security Presidential Directive 7, DHS is charged to 
identify, prioritize and coordinate protection of the nation's critical 
infrastructure, of which chemical manufacturing is one sector.\20\ The 
Government Accountability Office, in a report on implementation of 
critical infrastructure programs, identifies no role for the ATF, or 
the Department of Justice, in developing a national infrastructure 
protection plan or in guarding that infrastructure and its 
products.\21\ IME supports chemical facility, hazardous materials 
transportation and ammonium nitrate security standards. However, we 
question ATF's involvement and attendant use of resources in these 
areas, when the Bureau consistently falls behind in its own vital 
regulatory responsibilities.
---------------------------------------------------------------------------
    \17\ ``Implementation of the Safe Explosives Act'', OIG, DOJ, 
Report Number I-2005-005, page ii.
    \18\ 72 FR 17688 (April 9, 2007) & 72 FR 65396 (November 20, 2007) 
and. The Consolidated Appropriations Act, 2008, H.R. 2764/Public Law 
110-161, sec. 563.
    \19\ Containing the Threat from Illegal Bombings, NRC, 1998, page 
130.
    \20\ Homeland Security Presidential Directive/HSPD-7, paragraphs 13 
& 15, December 17, 2003.
    \21\ Agency Plans, Implementation, and Challenges Regarding the 
National Strategy for Homeland Security, January 2005, GAO-05-33, pages 
18, 47, 78 and 133.
---------------------------------------------------------------------------
Performance Measure Improvements
    For a number of years, IME has expressed concern about the lack of 
appropriate performance measures for the commercial explosives 
industry. Currently, ATF has three performance and two efficiency 
measures that apply to the commercial explosives industry.\22\ Only one 
performance and one efficiency measure are directed at facilitating 
regulatory compliance. These measures are the number and percentage of 
explosives licensee/permittees that are inspected and the percent of 
perfected explosives applications acted on within 90 days. Yet, ATF is 
now proposing to delete the only efficiency measure applicable to the 
explosives industry because the ``measure was never developed.'' \23\ 
Not only should Congress direct the Bureau to restore and implement 
this measure, it should direct the agency to institute other measures 
of performance and efficiency for the explosives regulatory program. We 
have advocated for measures showing the number of background checks 
that ATF has performed, within what average timeframe, and of those, 
how many individuals failed to receive clearance, and of those, how 
many appealed the Bureau's findings; the number of rulemakings 
outstanding and their priority; turnover rates among agents and 
inspectors; and the number of individuals from which agencies that are 
trained through ATF programs. Absent information of this type, it is 
unclear how Congress can effectively oversee ATF's explosives 
operations and determine the adequacy of its budget request.
---------------------------------------------------------------------------
    \22\ ATF Fiscal Year 2009 Budget Submission, page 49.
    \23\ ATF Fiscal Year 2009 Budget Submission, page 49.
---------------------------------------------------------------------------
Leadership
    The ATF has been without a director since August 2006. Director-
designee Michael J. Sullivan has served with distinction for nearly a 
year. He came at a particularly challenging time and has overseen the 
agency's move to its new headquarters. We believe the Bureau has been 
too long without permanent leadership and we urge Congress to promptly 
act on this nomination.

Conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the important 
role played by ATF in helping our industry achieve and maintain safe 
and secure workplaces. Industry and the public trust that ATF has the 
resources to fulfill its regulatory responsibilities. It is up to 
Congress and, in particular, this Subcommittee to ensure that ATF has 
the resources it needs. We strongly recommend full funding for ATF's 
explosives program.
                                 ______
                                 
    Prepared Statement of the Association for Psychological Science

Summary of Recommendations
  --APS supports the Coalition for National Science Funding 
        recommendation of $7.326 billion for the National Science 
        Foundation in fiscal year 2009.
  --We ask for the Committee's support of Section 7018b of the America 
        COMPETES Act (Public Law 110-69) which provides equal 
        consideration for NSF's Social, Behavioral and Economic 
        Sciences Directorate. This will ensure that the behavioral and 
        social sciences share proportionately in the increases received 
        by NSF, which is essential to strengthen the vital role of 
        these sciences in achieving innovation and realizing the full 
        potential of basic research to benefit our Nation.
  --NSF-funded psychological scientists have won the Nobel Prize and 
        the President's Medal of Science for their groundbreaking work. 
        Greater funding for the SBE Directorate will result in more 
        such breakthroughs and will ensure that the Nation continues as 
        the world's leader in behavioral and social science research 
        and training.
    Mr. Chairman, Members of the Committee: Thank you for this 
opportunity to present the views of the Association for Psychological 
Science (APS) on the fiscal year 2009 appropriations of the National 
Science Foundation (NSF). APS is dedicated to the promotion, 
protection, and advancement of the interests of scientifically oriented 
psychology in research, application, teaching, and the improvement of 
human welfare. Our 20,000 members are scientists and academics at the 
Nation's universities and colleges. The NSF supports many members of 
APS, and a great deal of basic research in our field simply could not 
exist without NSF funding.

The Nation's Premiere Basic Research Enterprise
    In the America COMPETES Act of 2007, Congress and the President 
agreed that basic science research budgets should be doubled. The 
fiscal year 2008 omnibus appropriation, however, did not provide the 
necessary funds to keep pace with this goal. The National Science 
Foundation received only a 2.5 percent increase for fiscal year 2008, 
$364 million less than the President's request. The continued 
underfunding of NSF constitutes a significant delay in this Nation's 
science and technology advancement--one we cannot afford in the face of 
rising global competitiveness.
    A renewed commitment to basic research and educational programs at 
NSF is essential to capitalize on the enormous promise of scientific 
innovation, to train future scientists, and to ensure the success of 
multidisciplinary initiatives. The basic science community asks the 
Committee to make the underlying intent of this Act a reality. The 
increase we are recommending today, as a member of the Coalition for 
National Science Funding, is a critical step in offsetting the under-
funding that has been a chronic condition for NSF.

The Social, Behavioral and Economic Sciences (SBE) Directorate
    It is crucial to recognize the role the behavioral and social 
sciences play in fostering innovation. The President's Science Advisor 
and Director of the Office of Science and Technology Policy, John 
Marburger, has underscored the importance of our discipline in this 
endeavor, and your colleagues in the House, led by Subcommittee on 
Research and Science Education Chair Brian Baird, have asked NSF to 
comply with the statutory requirement in Public Law 110-69, Section 
7018b to give equal consideration to the Social, Behavioral, and 
Economic Sciences (SBE) Directorate.
    Under the Administration's budget plan, the SBE Directorate would 
receive $233.48 million, 8.5 percent over fiscal year 2008. While this 
stems the tide of below-average increases in previous years, it is 
unacceptably disproportionate to other Directorates, which are 
receiving between 10.3 and 20.2 percent increases. The America COMPETES 
Act specifically called on NSF not to disinvest in the behavioral and 
social sciences over the long term. We are concerned about this 
imbalance, given the enormous potential of behavioral science to 
address many critical issues facing the Nation, including global 
competitiveness. To offset previous years' under-funding, we ask the 
Committee to, at the very least, give the SBE Directorate the 8.5 
percent increase the President proposed in this year's NSF budget 
request. We also ask that the SBE Directorate share proportionately in 
any such increases ultimately received by NSF.
    An Overview of Basic Psychological Research.--NSF programs and 
initiatives that involve psychological science are our best chance to 
solve the enigma that has perplexed us for so long: How does the human 
mind work and develop? APS members include many scientists who conduct 
basic research in areas such as learning, cognition, and memory, and 
the linked mechanisms of how we process information through visual and 
auditory perception. Others study judgment and decision-making (which 
is the focus of a Nobel prize recently awarded to APS Fellow and NSF 
grantee Daniel Kahneman); mathematical reasoning (the focus of the 
recent President's Medal of Science awarded to APS Fellow and NSF 
Grantee R. Duncan Luce); language development; the developmental 
origins of behavior; and the impact of individual, environmental, and 
social factors in behavior.
    What's more, basic psychological research supported by NSF and 
conducted by APS members ultimately has had a wide range of 
applications, including designing technology that incorporates the 
perceptual and cognitive functioning of humans; teaching math to 
children; improving learning through the use of technology; developing 
more effective hearing aids and speech recognition machines; increasing 
workforce productivity; and ameliorating social problems such as 
prejudice or violence. While this is a diverse range of topics, all 
these areas of research are bound together by a simple notion: that 
understanding the human mind, brain, and behavior is crucial to 
maximizing human potential. That places these pursuits squarely at the 
forefront of several of the most pressing issues facing the Nation, 
this Congress, and the Administration.

SBE Directorate Highlights
    Research supported by the SBE Directorate has the potential to 
increase employee productivity, improve decision making in critical 
military or civilian emergency situations, and inform the public 
policymaking processes across a range of areas. To give just a few 
examples:
    Developmental and Learning Sciences.--This program supports studies 
that increase our understanding of cognitive, linguistic, social, 
cultural, and biological processes related to children's and 
adolescents' development and learning. This kind of research adds to 
our basic knowledge of how people learn and the underlying 
developmental processes that support learning. For example, one 
recently funded study is identifying the cognitive, emotional, and 
social characteristics that make some children more suggestible than 
others with respect to legal questioning. The results of these studies 
will have important implications for developing scientifically sound 
interviews that produce the most accurate reports from children, and 
for constructing instruments to detect children who are prone to 
suggestive factors, which can be adapted for use in schools, mental 
health, medical, and forensic contexts.
    Perception, Action, and Cognition.--The perception, action, and 
cognition program at NSF supports research on these three functions, 
and the development of these capacities. Topics include vision, 
audition, attention, memory, reasoning, written and spoken discourse, 
motor control, and developmental issues in all topic areas. One recent 
study funded by this program looks at the important role language plays 
in emotion perception, and understanding the mechanisms by which 
language might influence emotion perception. This research shows that 
the emotions you see in others are influenced by what you know about 
emotion (especially the language that you speak). It may well be the 
case that people can be taught to become better emotion perceivers, and 
hence, better communicators.
    Cognitive Neuroscience.--Cognitive neuroscience, within the last 
decade, has become an active and influential discipline, relying on the 
interaction of a number of sciences, including psychology, cognitive 
science, neurology, neuroimaging, physiology, and others. The cross-
disciplinary aspects of this field have spurred a rapid growth in 
significant scientific advances. The blooming field of social 
neuroscience is yielding research, for example, on the psychological 
and neural mechanisms involved in the experience of empathy. Brain 
imaging is being used to measure the effects of stigma, racial bias, 
similarity, and past shared experiences between oneself and others. 
This important research will yield a better understanding of the 
cognitive and neurological mechanisms involved in empathy as well as 
our ability to share feelings and care for others. Both the findings 
and the techniques will be of tremendous value to clinicians as well as 
other researchers.

Cross-Cutting Behavioral Initiatives at NSF
    Cyber-enabled Discovery and Innovation.--This new, cutting-edge 
program supports research on computational thinking, complexity, and 
interacting systems. NSF expects that this ambitious new undertaking 
with potentially transformative results will revolutionize the field 
and shed light onto wide-ranging topics such as emergent phenomena and 
tipping points in human development. Research into the complexity of 
social systems will constitute a significant contribution to this 
endeavor. This investment will help maintain our Nation's expertise in 
information technology, an essential element for our future 
competitiveness.
    Adaptive Systems Technology.--A new interdisciplinary initiative, 
this program recognizes the essential human element of exciting new 
technologies and machines. The human-machine interface is crucial to 
explore if we are going to make the best use of the latest technology. 
While biologists describe the trajectory from simple to complex systems 
and chemists explain the processes underlying complex neural 
organization, cognitive scientists explore how systems compute and 
behavioral scientists provide insights into how organisms learn and 
adapt to their environment. By working together, these scientists can 
reap the benefits of and develop new ideas through collaboration.
    Science of Science and Innovation Policy (SciSIP).--In 2005, the 
President's Science Advisor, John Marburger, called for a national 
``science of science policy,'' asking for research on innovation and 
scientific discovery processes, as well as on how policymakers use 
science to shape policy. In response, NSF created the Science of 
Science and Innovation Policy (SciSIP) research program. By studying 
science as a social process, SciSIP's goal is the development of an 
evidence-based platform for science policy. One example of the kind of 
ideas materializing from this initiative is the measurement of well-
being, which deals with such questions as: How can science policy and 
science outcomes be evaluated by measuring societal well-being? Can 
scientific priorities be based on well-being? Does well-being as an 
outcome lead to different science priorities than considering other 
outcomes? What about national competitiveness and productivity in 
relation to science and well-being? Addressing these questions has 
implications for health and the economy, both of which are linked to 
well-being.
    In closing, I want to note that building and sustaining the 
capacity for innovation and discovery in the behavioral sciences is a 
goal of the National Science Foundation. We ask that you encourage 
NSF's efforts in these areas, not just those activities described here, 
but the full range of activities supported by the SBE directorate and 
by NSF at large. Your support will help NSF lay the groundwork for this 
long-overdue emphasis on these sciences. Thank you.
    We would be pleased to answer any questions.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2009 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization with more than 42,000 members. The ASM mission is 
to enhance the science of microbiology, to gain a better understanding 
of life processes, and to promote the application of this knowledge for 
improved health and environmental well-being.
    The President requests a 13 percent increase in the NSF's budget 
for fiscal year 2009 for a total funding level of $6.85 billion. 
Included in this request is $5.6 billion for Research and Related 
Activities (R&RA), an increase of $773 million, or 16 percent above 
fiscal year 2008. With the 16 percent growth, NSF anticipates 
supporting an additional 1,370 research grants, which will help 
increase the overall funding rate to 23 percent from the 21 percent 
rate in fiscal year 2008. However, the success rates in many important 
biological sciences programs remain below 20 percent. The ASM, 
therefore, recommends a 16 percent, or $98 million, increase for BIO, 
consistent with the requested increase for R&RA. The ASM also 
recommends that the overall increase for R&RA be $808 million, or 16.8 
percent, and the overall increase for NSF be 13.6 percent above fiscal 
year 2008, to cover ASM's recommended increase for BIO without 
affecting the requested increases for other programs.
    The NSF plays a critical role in the discovery of new knowledge in 
the biological sciences. The Society has a number of concerns about BIO 
funding for the biological sciences, which are discussed below. Our 
nation's competitiveness in areas such as nanotechnology, climate 
change, water sustainability, and alternative energy sources depends on 
innovation in the biological sciences. It is essential that NSF 
continue strong support for the biological sciences to maintain and 
expand the contributions of biological sciences research for human, 
environmental, and economic well being.
    The NSF has successfully leveraged its resources for over half a 
century to promote progress in all fields of science and to enhance its 
effectiveness and productivity. The NSF builds the nation's research 
capability through investments in advanced instrumentation and 
facilities, and by supporting excellence in science and engineering 
research and education through its competitive, peer-reviewed grants 
programs. These activities are essential for increasing the nation's 
economic and scientific competitiveness. Nearly 90 percent of the NSF's 
budget supports extramural grants, selected through a competitive merit 
review process, that meet the mission of the Foundation ``to promote 
the progress of science; to advance the national health, prosperity, 
and welfare; to secure the national defense . . .'' The NSF has been 
especially responsive to and benefited from supporting individual 
investigators and investigator-initiated ideas.
    The ASM particularly supports increased funding for R&RA. This 
funding will promote support for unsolicited grants that potentially 
advance the frontiers of learning and discovery. The ASM 
enthusiastically supports the continuation of the NSF's tradition of 
funding investigator-initiated research.

NSF Biological Sciences
    The NSF provides 67 percent, about two-thirds, of federal support 
for U.S. academic basic research in non-medical biological sciences. 
This means that NSF's BIO, is arguably the most important source of 
non-medical funding for biological research, infrastructure, and 
education in the United States. Through its long history of 
productivity and innovation, biological research supported by the NSF 
has been critical for understanding issues of national importance such 
as the environment, economy, agriculture, and human welfare.
    NSF funding is not only important for understanding the functions 
and behaviors of organisms, it is especially important for 
understanding how organisms, such as microbes, function and interact 
with physical and chemical systems. For example, basic biological 
research has provided physicists and chemists with model systems used 
in nanotechnology, chemical production and renewable energy generation, 
each of which are important for American competitiveness. Thus, it is 
essential to continue strong investments in the biological sciences, 
since they translate to advances in physical, mathematical, 
engineering, and computational sciences.
    The Administration has proposed an fiscal year 2009 budget for BIO 
of $675 million, an increase of 10.3 percent over fiscal year 2008. 
This increase continues along the proposed track of the President's 
American Competitiveness Initiative (ACI). The ASM is concerned that 
funding for BIO since fiscal year 2003 has flattened and even 
decreased. The success rate of competitive awards for BIO in fiscal 
year 2009 is estimated at 19 percent, well below the overall NSF 
estimated funding rate of 23 percent. Additionally, some programs 
within BIO have funding rates less than 14 percent, such as the 
Microbial Observatories/Microbial Interactions and Processes (MO/MIP) 
programs, Assembling the Tree of Life program, and the Ecology of 
Infectious Diseases program. Funding rates for BIO research grants have 
been consistently lower than agency wide average research funding 
rates, and the gap between BIO and agency wide funding rates has 
increasingly widened in the last three years.
    Scientific opportunities in the biological sciences are increasing 
significantly, illustrated by the estimated 20 percent increase in BIO 
research grant proposals from fiscal year 2003 through fiscal year 
2007. However, as opportunities have steadily increased, BIO research 
grant funding rates have decreased significantly from 26 percent in 
fiscal year 2003 down to an estimated 19 percent in fiscal year 2007.
    Growth in BIO is essential for progress in the biological sciences. 
Growth in the total NSF budget should be reflected by real growth in 
BIO as well as other NSF directorates. We, therefore, recommend an 
increase in the BIO budget consistent with the President's request for 
R&RA in fiscal year 2009, of 16 percent, for a total of $710 million.
    Research in BIO is key to providing fundamental support that is 
needed for research supported by other NSF directorates. The rapid 
growth in knowledge by the biological sciences is resulting in the 
formation of new multi-disciplinary, interdisciplinary, and 
transdisciplinary efforts that often involve physical and chemical 
sciences and engineering. Advances in programs in bioenergy and 
biophysics now depend as much on biology as they do on other scientific 
disciplines. BIO supports scientific disciplines other than the 
biological sciences through programs such as Environmental Genomics, 
MO/MIP, and contributes to interagency priorities, such as climate 
change and the new NSF-wide program Dynamics of Water Processes in the 
Environment (WATER).
            BIO MO/MIP
    In addition to its general concerns about biological sciences 
funding, the ASM is concerned with a proposal to shift funding in 
fiscal year 2009 to strengthen core BIO programs and to eliminate 
support for the demonstrably highly successful Microbial Observatories 
(MO), Microbial Interactions and Processes (MIP) programs. These 
programs represent the only sustained national initiatives to describe 
broadly and understand the diversity of microbial life within the 
United States. Loss of these programs will mean that other nations with 
which the United States competes in biotechnology (e.g., China, Japan, 
Korea, Germany) will continue to support efforts to discover microbial 
diversity, while the US decreases support.
    Differences in funding emphases between existing core programs and 
microbe-specific programs will likely lead to lower success rates and 
less funding for microbial researchers. Funding success rates for MO/
MIP are already less than 10 percent. The ASM recommends that MO and 
MIP should be identified as a part of the core programs in BIO, rather 
than be discontinued. The ASM also recommends increased support for MO/
MIP.
    Maintaining programs such as MO/MIP is essential to ensure 
continued discovery of the microbial world, over 99 percent of which 
remains undescribed. Because they are ubiquitous and functionally more 
diverse than all plants and animals combined, microbes continue to 
offer enormous economic potential for industry, agriculture, and 
medicine. Bioprospecting has already led to many commercial 
applications, including probiotics, biofuels, and wastewater treatment. 
The wealth of bacteria, viruses, and other microorganisms that have yet 
to be cultivated or understood comprise an untapped resource for 
industry, agriculture, and medicine.
    Loss of MO/MIP cannot help but reduce our nation's competitiveness 
and ability to sustain leadership in microbial biology. Loss of these 
programs will also adversely affect agricultural research involving a 
collaboration between USDA and NSF.

NEON
    The ASM supports the establishment of the National Environmental 
Observatories Network (NEON), which will be the first national 
ecological measurement and observation system designed to answer 
fundamental regional- to continental-scale scientific questions about 
the current state of major ecosystems and their response to climate 
change and other disturbances. Full implementation of the NEON platform 
will transform our ability to detect and predict changes in ecosystems, 
and to provide information necessary to respond to change. Integration 
of microbial biology into the NEON framework also promises to provide a 
new level of understanding of the interactions between microbes, 
ecosystems and climate change. The ASM strongly encourages this 
integration through expanded funding in BIO, and expresses its concern 
that funding for NEON-related research not reduce the capacities of 
current BIO programs.

Support for Geosciences, Engineering, and Physical Sciences
    Biology and microbial biology are important components of all the 
research directorates at NSF and should be strongly supported within 
them. The ASM supports the fiscal year 2009 proposed increases in 
funding for the research activities at the Geosciences Directorate 
(GEO), the Engineering Directorate (ENG), and the Mathematical and 
Physical Sciences Directorate (MPS).
    The Geobiology and Low-Temperature Geochemistry program in GEO 
provides an example of the mutually beneficial relationship between 
biological sciences and geosciences. Among other areas, this program 
examines interactions between biological and geological systems at all 
scales of space and time, interactions between microbes and 
economically important resources, and interactions among microbes, 
minerals and groundwater. The Geobiology and Low-Temperature 
Geochemistry Program also facilitates cross-disciplinary efforts to 
harness new bioanalytical tools, such as those emerging from molecular 
biology. The ASM supports the proposed request of $178 million for 
Earth Sciences (EAR), an increase of $22 million, or 14 percent, above 
fiscal year 2008, with an emphasis towards increased support for the 
biological geosciences and $354 million for Ocean Sciences Funding 
(OCE), an increase of $43 million, or 14 percent above fiscal year 
2008.
    Similarly, the Engineering Directorate employs microbial research 
to examine problems involved in the processing and manufacture of 
economically important products, and in the efficient utilization of 
chemical resources and renewable bioresources. Much of this work 
depends on bioinformatics originating from genomic and proteomic 
studies. The ASM supports the proposed request of $173 million for 
Chemical, Bioengineering, Environmental, and Transport Systems (CBET), 
an increase of $42 million or 32 percent, above fiscal year 2008. High 
emphasis applications for the biological sciences within this program 
include postgenomic engineering, tissue engineering, biophotonics, 
nano-biosystems, and biotechnology, leading to improved biosensors, 
biomaterials, and controlled drug release.
    Collaboration with other scientific disciplines is also very 
important for continued progress in physics, including biological 
physics at molecular and cellular levels. MPS supports 
interdisciplinary research that greatly benefits the physical sciences 
as well as the biological sciences by creating tools that assist in 
advancing biological research and other disciplines. The ASM also 
supports the NSF-wide investment, Dynamics of Water Processes in the 
Environment (WATER). WATER supports research on living organisms in 
freshwater ecological systems.

Workforce Development and Training
    Support for science and engineering education, from pre-K through 
graduate school and beyond is an essential part of NSF's mission. 
Research funded by NSF is thoroughly integrated with education to help 
ensure that there will always be a skilled workforce to support new and 
future scientific, engineering, and technological fields, and a robust 
community of educators to train and inspire coming generations.
    In fiscal year 2007 BIO alone, support approximately 13,000 people, 
including senior researchers, other professionals, postdoctorates, 
graduate students, undergraduate students, and K-12 teachers. Due to 
flat funding in fiscal year 2008, this number dropped to approximately 
12,700. Increased support for the NSF is essential to fostering a 
competitive, well-trained scientific workforce. The proposed increase 
for BIO is estimated to support over 13,500 senior researchers, other 
professionals, postdoctorates, graduate students, undergraduate 
students, and K-12 teachers.

Conclusion
    Support for the NSF is essential for maintaining and improving the 
nation's scientific and economic competitiveness. The ASM recommends a 
13.6 percent increase in funding for the NSF, slightly above the 
President's request, but below the NSF's authorized level for fiscal 
year 2009. However, the ASM is concerned that BIO has suffered from 
flat funding over the last six years and we recommend at least a 16 
percent increase for BIO, the same as the increase proposed by the 
President for the entire Research and Related Activities, of which BIO 
is a part. This increase will recapture ground lost to inflation, 
expand the currently successful programs, and take advantage of new 
scientific opportunities in the biological sciences, such as 
metagenomics. Increased funding for the NSF should ensure adequate 
funding for all areas of science. One of the primary strengths of the 
NSF is its ability to catalyze important interactions among research 
disciplines in the physical and biological sciences. Consequently, all 
science must be well funded and encouraged.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as it considers the 
fiscal year 2009 appropriation for the NSF.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association

    The Sea Grant Association (SGA) \1\ respectfully submits for the 
official record this written testimony for fiscal year 2009 to the 
Senate Appropriations Subcommittee on Commerce, Justice, and Science. 
SGA joins with other stakeholders in urging the Subcommittee to 
recognize and support the vital programs of the National Oceanic and 
Atmospheric Administration (NOAA) and requests that the Subcommittee 
fund NOAA at $4.5 billion for fiscal year 2009. Further, SGA requests 
that within the overall fiscal year 2009 appropriation for NOAA, the 
Subcommittee appropriate $72 million for the National Sea Grant College 
Program, which is a key component of NOAA's extramural research, 
education and outreach enterprise playing a direct role in keeping our 
coastal communities safe, prosperous, and vibrant.
---------------------------------------------------------------------------
    \1\ The Sea Grant Association is a non-profit organization 
dedicated to furthering the Sea Grant program concept. The SGA's 
regular membership consists of the academic institutions that 
participate in the National Sea Grant College Program, located within 
the National Oceanic and Atmospheric Administration (NOAA). SGA 
provides the mechanism for these institutions to coordinate their 
activities, to set program priorities at both the regional and national 
level, and to provide a unified voice for these institutions on issues 
of importance to the oceans, coasts and Great Lakes. The SGA advocates 
for greater understanding, use, and conservation of marine, coastal and 
Great Lakes resources.
---------------------------------------------------------------------------
    Growth of the National Sea Grant College Program (Sea Grant) has 
been stunted during that last few years, which over time has begun to 
directly impact the services delivered on a daily basis to our coastal 
communities. The constituents of the Sea Grant program--coastal 
resource managers, state and local governments, tourism sectors, 
fishing industries, and the general public to name a few--have come to 
expect and rely on a certain level of service and expertise from the 
Sea Grant program. However, as the needs of our coastal communities 
have increased, funding required for the Sea Grant program to support 
these needs has not kept pace. The SGA recommendation of $72 million is 
realistic and even represents an amount below that which is authorized 
for the program for fiscal year 2004 \2\. The programmatic request of 
$72 million is also consistent with the amount requested in a Dear 
Colleague Letter for Sea Grant that was submitted to your Subcommittee 
earlier this month with 32 signatures. In addition, attached is a list 
of about 300 stakeholders who attest to the value of the Sea Grant 
program.
---------------------------------------------------------------------------
    \2\ National Sea Grant College Program Act Amendments of 2002, 
Public Law 107-299.
---------------------------------------------------------------------------
    With the costs of research and education rising, the near flat-
funding of Sea Grant during the last few years has forced programs to 
reduce staff and leave numerous high-quality research and outreach 
projects unsupported. An increased investment in Sea Grant will not 
only enhance its ability to meet these additional demands, it will also 
leverage additional state and university matching funds, reflecting its 
unique value as a federal-state partnership.
    The Administration's request of $55 million for fiscal year 2009 
would reverse the small progress made by the program last year by 
eliminating the modest growth provided by the Congress for fiscal year 
2008 (for a total fiscal year 2008 budget of $57.1 million). At the 
level proposed by the Administration, the Sea Grant program would be 
asked to operate at its lowest level in its 40 year history in 2007 
dollars (see the below chart).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The implications of what is essentially a freeze in funding for Sea 
Grant are significant with respect to the economy, sustainability of 
natural resources, and national safety and security. The Sea Grant 
network is severely strained and challenged to support its current 
activities, staff, and operations within this budget scenario, and has 
difficulty investing in important new research, education and outreach 
geared toward addressing emerging challenges in such areas as regional 
climate change and coastal community resiliency.
    At present, only about 12 percent of the research proposals 
submitted for funding to the Sea Grant program are funded due to 
resource constraints. By contrast, the research funding success rate at 
the National Science Foundation is just over 20 percent. Sea Grant 
directors estimate that they receive enough high quality meritorious 
research proposals--of importance and relevance to NOAA's mission--to 
fund about 25 percent, or double what the program is currently able to 
support. Within the current budget for Sea Grant of $57.1 million, 
about $30 million is used to support research. The balance of the Sea 
Grant budget is used to support related extension, communication, 
education and program management. Based on this, the research portion 
of the Sea Grant program could responsibly manage between $60 million 
to $80 million annually--or double its current research budget. At this 
level, the Sea Grant program could support important research proposals 
that currently go unfunded to answer questions and provide new 
knowledge needed by ocean and coastal resource managers.
    It is also important to remember that the success of the Sea Grant 
program is attributable to its unique ability to intimately tie 
research results to an extension, communication, and education process 
that is essential to ensure the use of science to meet the needs of our 
citizens. The current level of expenditure for extension, 
communication, and education in the Sea Grant program is approximately 
$25 million. A recent report to the NOAA Science Advisory Board \3\ 
called on NOAA to substantially expand its extension, outreach, and 
education activities. Sea Grant has the experience and the ``on-the-
ground'' network to fulfill that policy recommendation immediately if 
sufficient additional support from NOAA were forthcoming. As the 
research program expands to meet increasing demands, so too must the 
tools that put the research results in the hands of decision makers so 
that they can be utilized. The Sea Grant extension, communication, and 
education function should be increased commensurate with the level of 
research funding in the program from its current $25 million to between 
$40 million to $50 million to ensure the continued balanced approach 
when it comes to research, extension, communication, and education.
---------------------------------------------------------------------------
    \3\ Engaging NOAA's Constituents: A Report from the NOAA Science 
Advisory Board, March 2008.
---------------------------------------------------------------------------
An Investment in the Economic, Environmental and Social Well-being of 
        the Nation
    Research and outreach programs supported by Sea Grant are based on 
competition, undergo rigorous peer-review, and are geared toward 
addressing the marine, coastal and Great Lakes challenges that face our 
citizens. The federal investment in Sea Grant enables a nationally 
coordinated network embedded in the best research universities to apply 
unparalleled intellectual capital to address these problems and 
opportunities while assisting NOAA in addressing its missions. Cost-
effectiveness is enhanced by access to existing university management 
infrastructure.
    Sea Grant serves the nation in many ways. Sea Grant's unmatched 
access to regional, state and local constituencies through its 
extension and outreach programs ensures that the federal investment is 
targeted at relevant issues. The Sea Grant model contributes to the 
missions of NOAA and other federal agencies, and state and local 
governments, to the benefit of the general public. In addition, marine 
education programs supported by Sea Grant funds reach from kindergarten 
to marine-related business people to elder hostels.
    Sea Grant is a national program addressing national, regional, 
state and local needs. It is a partnership among government, academia, 
business, industry, scientists, and private citizens to help Americans 
understand and wisely use our precious coastal waters and Great Lakes 
for enjoyment and long-term economic growth. This network unites 32 
Programs, over 300 universities, and millions of people. Sea Grant is 
an agent for scientific discovery, technology transfer, economic 
growth, resource conservation, and public education. It is government 
as our citizens want it--visible, tangible, relevant, efficient, and 
effective.

Informing Smart Policy through Sound Science
    The interface between science and policy is precisely where the Sea 
Grant program applies its precious resources. As the program makes 
decisions on the funding of research projects, issues that are acutely 
important to local, regional and national decision-makers receive 
priority attention. Extension and educational resources are also 
deployed in ways that enhance the relevance and impact of the science 
and discoveries that result from Sea Grant-funded research.
    There is a growing demand from our nation's decision makers and 
public for scientifically-sound decisions to many of today's complex 
problems. Sea Grant's integration of science and outreach allows for 
up-to-date and ongoing needs assessment that helps identify the most 
important and timely issues that benefit from science-based decision 
making. Technological and scientific approaches, though desirable, 
cannot solve all of society's problems, and Sea Grant's ability to 
embed itself within the communities it serves enables the social 
dynamics of human ecology to be incorporated thereby improving the 
utility and impact of investments through the Sea Grant program. Sea 
Grant's work is always fresh. Although the program has been in place 
for 40 years, the constant attention to societal needs through 
stakeholder interactions allows the program to be nimble and 
responsive, while also maintaining the rigor and reliability of a 
strategic enterprise.
    In recent years, the work of two major national commissions \4\ 
have brought into focus the importance of our oceans and coasts to our 
nation's natural heritage, security, and economy. With an offshore 
ocean jurisdiction larger than the total land mass of the United 
States, U.S. waters support rich and diverse systems of ocean life, 
provide a protective buffer, and support important commerce, trade, 
energy, and mineral resources. And in each example, Sea Grant is there.
---------------------------------------------------------------------------
    \4\ An Ocean Blueprint for the 21st Century, U.S. Commission on 
Ocean Policy, April 20, 2004; America's Living Oceans: Charting a 
Course for Sea Change, Pew Oceans Commission, June 2, 2003.
---------------------------------------------------------------------------
  --More than $1 trillion, or one-tenth, of the nation's annual gross 
        domestic product (GDP) is generated within near-shore areas, 
        the relatively narrow strip of land immediately adjacent to the 
        coast. Looking at all coastal watershed counties, the 
        contribution swells to over $6.1 trillion, more than half of 
        the nation's GDP;
  --In 2003, ocean-related economic activity contributed more than $119 
        billion to American prosperity and supported over 2.2 million 
        jobs. Roughly three-quarters of the jobs and half the economic 
        value were produced by ocean-related tourism and recreation. 
        More than 13 million jobs are related to trade transported by 
        the network of inland waterways and ports that support U.S. 
        waterborne commerce;
  --Annually, the nation's ports handle more than $700 billion in 
        goods, and the cruise industry and its passengers account for 
        $11 billion in spending;
  --The commercial fishing industry's total value exceeds $28 billion 
        annually, with the recreational saltwater fishing industry 
        valued at around $20 billion, and the annual U.S. retail trade 
        in ornamental fish worth another $3 billion; and
  --Nationwide retail expenditures on recreational boating exceeded $30 
        billion in 2002.
    The SGA recognizes and appreciates the difficult funding tradeoffs 
the Subcommittee is forced to make each year. We urge you to consider 
Sea Grant as an investment in the future health and well-being of our 
coastal communities and support the program at $72 million for fiscal 
year 2009. Thank you for the opportunity to present these views.
    For more information, please visit www.sga.seagrant.org or contact: 
Paul Anderson, SGA President, 207.581.1435, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb8b9a959f9e89889495bb969a92959ed59e9f8e">[email&#160;protected]</a>; Rick 
DeVoe, SGA External Relations Committee Chair, 843.727.2078, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a08131911541e1f0c151f3a0919091f1b1d081b140e5415081d">[email&#160;protected]</a>; Joel Widder, Government Relations, 
202.289.7475, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbb1acb2bfbfbea99bb7beacb2a8f6b9aea9b0bef5b8b4b6f5">[email&#160;protected]</a>
                                 ______
                                 
      Prepared Statement of the American Psychological Association

    The American Psychological Association (APA), a scientific and 
professional organization of more than 148,000 psychologists and 
affiliates, is pleased to submit testimony for the record. Because our 
behavioral scientists play vital roles within the National Science 
Foundation (NSF), National Aeronautics and Space Administration (NASA) 
and the National Institute of Justice (NIJ) within the Department of 
Justice (DOJ), APA will address the proposed fiscal year 2009 research 
budgets for each of these agencies:
  --APA recommends that the Subcommittee support the President's fiscal 
        year 2009 request of $6.85 billion for NSF.
  --APA requests that the Subcommittee provide $18.3 billion for NASA, 
        including $671 million for NASA Advanced Capabilities (which 
        houses the Human Research Program), and $594 million for NASA 
        Aeronautics.
  --APA urges the Subcommittee to reverse the trend of budgetary 
        neglect for NIJ (within DOJ) by providing $50 million in fiscal 
        year 2009 for NIJ programs.

National Science Foundation
            Core Psychological Research at NSF
    NSF is the only federal agency whose primary mission is to support 
basic research and education in math, engineering and science--
including the behavioral and social sciences. NSF's investment in basic 
research across these disciplines has allowed for extraordinary 
scientific and technological progress, ensuring continued economic 
growth, improvements in the design, implementation and evaluation of 
public education, strengthened national security, and the generation of 
cutting edge new knowledge.
    APA supports the Administration request of $6.85 billion for NSF in 
fiscal year 2009, and urges Congress to implement a doubling of the NSF 
budget over the next ten years. This is consistent with Administration 
and Congressional plans to invest substantially in federal science 
agencies with the capacity to stimulate global competitiveness and 
innovation. Within the overall NSF budget, APA supports a strong 
investment in psychological research throughout the research and 
education directorates foundation-wide, in order to address critical 
national challenges with an understanding of human behavior at their 
core. The America COMPETES Act specifically noted the importance of 
funding the social sciences and this must be reflected in an increase 
for NSF's behavioral and social science research portfolio comparable 
to proposed increases for other sciences at NSF.
    Although psychologists receive funding from diverse programs within 
NSF, most core psychological research is supported by the Social, 
Behavioral and Economic Sciences Directorate (SBE), with its focus on 
the variables that determine human behavior across all ages, affect 
interactions among individuals and groups, and decide how social and 
economic systems develop and change. In addition to core behavioral 
research in cognitive neuroscience, human cognition and perception, 
learning and development, and social psychology, SBE also will continue 
to support the development of science metrics through its Science of 
Science and Innovation Policy (SciSIP) research program. Funding SciSIP 
research is fundamental to identifying processes by which investments 
in research are transformed into social and economic outcomes, and 
providing a more effective evaluation of the ``return'' on scientific 
investments.
    The Biological Sciences Directorate at NSF also provides support 
for research psychologists who ask questions about the very principles 
and mechanisms that govern life at the level of the genome and cell, or 
at the level of a whole individual, family or species. In previous 
testimony, APA has expressed concern about diminishing support for key 
behavioral research programs within this Directorate, most notably 
those focused on learning and cognition. NSF recognizes the importance 
of learning and cognition to many branches of science already, and 
supports Foundation-wide initiatives and individual research projects 
that seek to understand the neural or genetic mechanisms by which 
learning occurs, that use learning as an assay for the effects of 
environmental change on a biological system, that construct and 
evaluate artificial learning systems, that conceptualize the role of 
learning in biodiversity and evolution and that apply learning 
principles to education and workforce challenges.
    However, we hope that NSF's focus on transformational science will 
continue to recognize that behavior links everything from molecular 
biology to ecology because in a sense behavior is the ultimate genetic 
phenotype. Animals behave to eat, defend and reproduce, so an 
understanding of how the molecular processes within and beyond the 
central nervous system lead to behavior and how behavior serves an 
adaptive function seems essential to integrating biology across levels. 
Within the field of animal behavior and cognition there are clear 
demonstrations that this integration is occurring. For example, 
individual differences in gene expression can now be linked to 
individual differences in memory, attention, decision making, 
individual adaptation and fitness. The opportunity for understanding 
individual differences is unprecedented.

National Aeronautics and Space Administration
            Behavioral Research is Critical for Space Exploration and 
                    Air Safety
    Over the last 20 years, the NASA research budget has gone down 
steadily, with space exploration expanding at about the same rate. The 
result is an increasing gap in life sciences and human factors 
knowledge--knowledge that is critical for successful missions and for 
improving both the safety and efficiency of our current and future 
aerospace systems. Longer space missions place increasing demands on 
psychological health and performance in space. Psychological scientists 
are meeting these challenges head on by extending the information 
management capacity of individuals through computational systems--
systems that can sense when the user is overloaded, or determine what 
needs to be done next and automatically adapt. Such systems improve 
human decision-making and allow humans to function in extremely 
challenging environments, such as space flight. The need for science-
based practical principles to enhance systems, interfaces, team 
dynamics, decision-making, training, and psychological health continues 
to grow, but with a diminishing research budget, NASA behavioral 
scientists are ill equipped to take on this crucial task.
    In 2005, Congress endorsed the Vision for Space Exploration (VSE) 
to send humans to the moon and then to Mars. An understanding of human 
performance in space is critical for VSE, and the ability to measure 
and predict human performance through all mission phases enhances 
mission safety and mission success. APA urges NASA to prioritize life 
sciences and human aeronautics research and to restore its support for 
these programs to a level commensurate with other NASA programs.
    In the recently passed America COMPETES Act, NASA is directed to 
increase funding for basic STEM research to boost competitiveness and 
innovation. APA urges the Subcommittee to explicitly include social 
sciences in the STEM definition for NASA, consistent with the 
definition authorized in the America COMPETES Act in the section on 
NSF.
    In the NASA Authorization Act of 2005, Congress authorized 
$18,686,300,000 for fiscal year 2008. The actual allocation for fiscal 
year 2008 shortchanged the agency by over $1 billion. At $17.6 billion, 
the President's fiscal year 2009 budget request again shortchanges the 
agency and fails even to keep pace with inflation. APA requests that 
NASA's budget be at least $18.3 billion in order for the agency to 
succeed in moving forward with the Vision for Space Exploration (VSE) 
while also sustaining its non-Exploration missions. In order to 
preserve the integrity of the agency's missions, APA further urges 
Congress to block transfer authority between budget accounts.
            Human Research Program
    Over the past several years, support for programs in the life 
sciences has diminished significantly, despite a renewed commitment in 
2005 to extend human presence in space, and an unprecedented interest 
in behavioral research. Now, what remains of the Human Research Program 
is budgeted at $152 million, an increase of just 3.4 percent over 
fiscal year 2008. Human research must be securely and adequately funded 
and considered an integral component of space mission planning. A 
successful overall behavioral health program will require a broad 
perspective, multiple convergent research strategies, and a variety of 
settings, including space itself. APA therefore requests that NASA's 
budget for Advanced Capabilities, which houses the Human Research 
Program, be increased to the fiscal year 2008 level of $671 million.
            Aviation Safety
    Aeronautics research (including human factors) has long been a 
cornerstone of NASA. APA applauds NASA Ames Research Center for its 
historic attention to human factors research but continued cuts to 
aeronautics programming and a recent reorganization of the Aeronautics 
Research Mission Directorate threaten to dismantle this once world-
class center for human factors research. The Aeronautics Research 
Mission has been re-oriented to emphasize disciplines such as 
aerodynamics over human performance and operational issues. Further, 
the agency's fiscal year 2008 allocation diminished the spending power 
of the aeronautics program by 40 percent compared to 2004, forcing NASA 
centers to cut jobs and university grants in aeronautics research, 
especially in the area of human performance and aviation safety. NASA's 
continual underfunding of aeronautics research also poses a significant 
threat to the Next Generation's (NextGen) schedule and budget. APA 
therefore recommends that Congress restore NASA's Aeronautics budget to 
at least the fiscal year 2006 level of $594 million.
Department of Justice--National Institute of Justice
    Behavioral and social science research is also essential to 
improving the criminal justice system. The National Institute of 
Justice (NIJ) is the research, development, and evaluation arm of the 
Department of Justice. It funds research in a range of scientific 
disciplines, including behavioral and social science research aimed at 
identifying evidence-based solutions for reducing crime and increasing 
public safety. The Administration has proposed flat funding for NIJ in 
fiscal year 2009 for a total of $34.7 million, equal to its fiscal year 
2008 level and a dramatic 32 percent decrease from the fiscal year 2007 
level of $54.3 million. APA strongly urges the Committee to reverse 
this trend of budgetary neglect for NIJ and recommends providing $50 
million in fiscal year 2009 for NIJ programs.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Agency Involved: Department of Justice
    Program Involved: COPS Tribal Resources Grant Program (TRGP)
Summary of GLIFWC'S Fiscal Year 2009 Testimony
    GLIFWC requests that Congress: (1) fund the TRGP at $31,065,000 in 
fiscal year 2009 (the same level as fiscal year 2007 enacted and 
$16,025,000 more than fiscal year 2008 enacted), (2) maintain the 
Tribal Resources Grant Program (TRGP) as a distinct program within the 
DOJ COPS Office of Justice Programs, and (3) ensure that special 
conservation agencies remain eligible, unlike in fiscal year 2006.
Ceded Territory Treaty Rights and GLIFWC's Role
    GLIFWC was established in 1984 as a ``tribal organization'' within 
the meaning of the Indian Self-Determination Act (Public Law 93-638). 
It exercises authority delegated by its member tribes to implement 
federal court orders and various interjurisdictional agreements related 
to their treaty rights. GLIFWC assists its member tribes in: securing 
and implementing treaty guaranteed rights to hunt, fish, and gather in 
Chippewa treaty ceded territories; and cooperatively managing and 
protecting ceded territory natural resources and their habitats.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For the past 24 years, Congress and Administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific federal obligations under: (a) a number of United States/
Chippewa treaties; (b) the federal trust responsibility; (c) the Indian 
Self-Determination Act, the Clean Water Act, and other legislation; and 
(d) various court decisions, including a 1999 U.S. Supreme Court case, 
affirming the treaty rights of GLIFWC's member tribes. GLIFWC serves as 
a cost efficient agency to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
tribes, to develop cooperative partnerships with other government 
agencies, educational institutions, and non-governmental organizations, 
and to work with its member tribes to protect and conserve ceded 
territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.

Community-based Policing
    GLIFWC's officers carry out their duties through a community-based 
policing program. The underlying premise is that effective detection 
and deterrence of illegal activities, as well as education of the 
regulated constituents, are best accomplished if the officers work 
within tribal communities that they primarily serve. The officers are 
based in reservation communities of the following member tribes: in 
Wisconsin--Bad River, Lac Courte Oreilles, Lac du Flambeau, Red Cliff, 
Sokaogon Chippewa (Mole Lake) and St. Croix; in Minnesota--Mille Lacs; 
and in Michigan--Bay Mills, Keweenaw Bay and Lac Vieux Desert.

Interaction With Law Enforcement Agencies
    GLIFWC's officers are integral members of regional emergency 
services networks in Minnesota, Michigan and Wisconsin. They not only 
enforce the tribes' conservation codes, but are fully certified 
officers who work cooperatively with surrounding authorities when they 
detect violations of state or federal criminal and conservation laws. 
These partnerships evolved from the inter-governmental cooperation 
required to combat the violence experienced during the early 
implementation of treaty rights in Wisconsin. As time passed, GLIFWC's 
professional officers continued to provide a bridge between local law 
enforcement and many rural Indian communities.
    GLIFWC remains at this forefront, using DOJ funding to develop 
inter-jurisdictional legal training attended by GLIFWC officers, tribal 
police and conservation officers, tribal judges, tribal and county 
prosecutors, and state and federal agency law enforcement staff. DOJ 
funding has also enabled GLIFWC to certify its officers as medical 
emergency first responders trained in the use of defibrillators, and to 
train them in search and rescue, particularly in cold water rescue 
techniques. When a crime is in progress or emergencies occur, local, 
state, and federal law enforcement agencies look to GLIFWC's officers 
as part of the mutual assistance networks of the ceded territories. In 
fact, the role of GLIFWC's officers in these networks was further 
legitimized in 2007 by the passage of Wisconsin Act 27. This law 
affords GLIFWC wardens the same statutory safeguards and protections 
that are afforded to their DNR counterparts. GLIFWC wardens will now 
have access to the criminal history database and other information to 
identify whom they are encountering in the field so that they can 
determine whether they are about to face a fugitive or some other 
dangerous individual.

GLIFWC Programs Funded by DOJ
    GLIFWC recognizes that adequate communications, training, and 
equipment are essential both for the safety of its officers and for the 
role that GLIFWC's officers play in the proper functioning of 
interjurisdictional emergency mutual assistance networks in the ceded 
territories. GLIFWC's COPS grants have provided a critical foundation 
for achieving these goals. Significant accomplishments with Tribal 
Resources Grant Program funds include:
    Increased Versatility and Homeland Security on Superior.--In 2007 
GLIFWC used COPS funding to obtain a 22 foot boat to expand patrol 
capabilities and coverage on Lake Superior. This boat also provides 
greater versatility than GLIFWC's larger patrol boat to access bays and 
harbors in the Lake. The boat will be stationed in Marquette for use in 
both the 1836 and 1842 ceded territories in Lake Superior, as well as 
to provide increased emergency response, when needed.
    Emergency Response Equipment and Training.--Each GLIFWC officer has 
completed and maintains certification as a First Responder and in the 
use of life saving portable defibrillators. Since 2003, GLIFWC officers 
have carried First Responder kits and portable defibrillators during 
their patrol of around 275,000 miles per year throughout the ceded 
territories. In remote, rural areas the ability of GLIFWC officers to 
respond to emergencies provides critical support of mutual aid 
agreements with federal, state, and local law enforcement agencies.
    Ice Rescue Capabilities.--Each GLIFWC officer maintains 
certification in ice rescue techniques and was provided a Coast Guard 
approved ice rescue suit. In addition, each of the patrol areas was 
provided a snowmobile and an ice rescue sled to participate in 
interagency ice rescue operations with county sheriffs departments and 
local fire departments.
    Wilderness Search and Rescue Capabilities.--Each GLIFWC officer 
completed Wilderness Search and Rescue training. The COPS Tribal 
Resources Grant Program also enabled GLIFWC to replace a number of 
vehicles that were purchased over a decade ago, including 10 ATV's and 
16 patrol boats and the GPS navigation system on its 31 foot Lake 
Superior Patrol Boat. These vehicles are used for field patrol, 
cooperative law enforcement activities, and emergency response in the 
1836, 1837 and 1842 ceded territories. GLIFWC officers also utilize 
these vehicles for boater, ATV, and snowmobile safety classes taught on 
reservations as part of the Commission's Community Policing Strategy, 
providing critical outreach to tribal youth.
    Hire, Train and Equip Three Additional Officers.--Funding was 
contracted to provide three additional officers to ensure tribes are 
able to meet obligations to both enforce off-reservation conservation 
codes and effectively participate in the myriad of mutual assistance 
networks located throughout a vast region covering 60,000 square miles. 
As required by the program, GLIFWC has absorbed the salary costs 
related to sustaining those positions, however COPS funding is needed 
now more than ever to sustain the other components of program related 
to training and equipment.
    Consistent with numerous other federal court rulings on the 
Chippewa treaties, the United States Supreme Court re-affirmed the 
existence of the Chippewa's treaty-guaranteed usufructuary rights in 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. In addition, a consent decree 
signed in 2007 will govern the exercise of treaty rights in inland 
portions of the 1836 ceded territory in Michigan, where one of GLIFWC's 
member tribes exercises treaty rights.
    But for GLIFWC's COPS grants, this expanded workload, combined with 
staff shortages would have limited GLIFWC's effective participation in 
regional emergency services networks in Minnesota, Michigan and 
Wisconsin. The effectiveness of these mutual assistance networks is 
more critical than ever given: (1) national homeland security concerns, 
(2) state and local governmental fiscal shortfalls, (3) staffing 
shortages experienced by local police, fire, and ambulance departments 
due to the call up of National Guard and military reserve units, and 
(4) the need to cooperatively combat the spread of methamphetamine 
production in rural areas patrolled by GLIFWC conservation officers. 
Examples of the types of assistance provided by GLIFWC officers follow:
  --As trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --Search and rescue for lost hunters, fishermen, hikers, children, 
        and the elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        Counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        Counties in Michigan).
  --Being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        Counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Bayfield, Burnett, Sawyer, and Vilas Counties in 
        Wisconsin).
  --Use of a thermal imaging camera (purchased through the COPS 
        program) to track an individual fleeing the scene of an 
        accident (Sawyer County, Wisconsin).
  --Assistance in evacuating residents after a chemical plant explosion 
        (Burnett County, Wisconsin).
  --Organizing and participating in search and rescues of ice fishermen 
        on Lake Superior (Ashland and Bayfield Counties in Wisconsin), 
        Lake Superior boats (Baraga County in Michigan and with the 
        U.S. Coast Guard in other parts of western Lake Superior), and 
        kayakers (Bayfield County in Wisconsin).
    In 2008, GLIFWC proposes to utilize DOJ TRGP funding for training 
and equipment to: (1) recognize, secure and respond appropriately to 
homeland security threats, (2) improve response to incidents that 
trigger joint law enforcement activities such as ``incident command 
center'' protocols and training, and (3) improve community awareness 
through state certified safety classes (hunter safety, boater safety, 
ATV safety and snowmobile safety). Simply put, supporting GLIFWC's 
officers will not only assist GLIFWC in meeting its obligations to 
enforce tribal off-reservation codes, but it will enhance 
intergovernmental efforts to protect public safety and welfare 
throughout the region in the states of Wisconsin, Minnesota, and 
Michigan. The COPS Tribal Resources Grant Program provides essential 
funding for equipment and training to support GLIFWC's cooperative 
conservation, law enforcement, and emergency response activities. We 
ask Congress to support increased funding for this program.
                                 ______
                                 
         Prepared Statement of Killdeer Mountain Manufacturing

    On behalf of Killdeer Mountain Manufacturing, manufacturer of 
aerospace assemblies, located in Killdeer, Halliday, Hettinger, and 
Dickinson, North Dakota, I would like to thank the Committee for 
allowing our organization to submit this testimony for the record. I am 
writing to respectfully request that the Hollings Manufacturing 
Extension Partnership program be provided the authorized $122 million 
within the fiscal year 2009 Commerce, Justice, Science and Related 
Agencies Appropriations Bill. This requested level of funding for 2009 
was provided for in the recently enacted America COMPETES Act. As you 
know, the Hollings Manufacturing Extension Partnership (MEP) is a 
program within the Department of Commerce, National Institute of 
Standards and Technology, a program authorized to improve 
competitiveness of America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In North Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. Our company is currently working on a nationally 
recognized Lean Enterprise Certification Program with the assistance of 
Dakota MEP.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories

    On behalf of the National Association of Marine Laboratories I am 
pleased to submit this statement for the official record in strong 
support of the research and education programs under the subcommittee's 
jurisdiction that play a vital role in the ocean, coastal, and Great 
Lakes research and education enterprise. I will focus my remarks on 
four key areas: federal support for extramural ocean, coastal and Great 
Lakes research; the next generation of ocean infrastructure; U.S. 
innovation and competitiveness through investment in the marine 
sciences; and ocean education, literacy, diversity and workforce 
development.
    The National Association of Marine Laboratories (NAML) is a 
nonprofit organization of about 100 institutions employing more than 
10,000 scientists, engineers, and professionals and representing ocean, 
coastal and Great Lakes laboratories stretching from Maine to the Gulf 
of Mexico, Guam to Bermuda, and from Alaska to Puerto Rico. NAML labs 
support the conduct of high quality ocean, coastal and Great Lakes 
research and education in the natural and social sciences and the 
effective use of that science for decision-making on the important 
issues that face our country.

 FEDERAL SUPPORT FOR EXTRAMURAL OCEAN, COASTAL AND GREAT LAKES RESEARCH

    NAML strongly urges the Subcommittee to maintain and strengthen its 
support for cutting-edge ocean, coastal, and Great Lakes research and 
education across the federal funding agencies within its jurisdiction.
    The marine sciences are inherently interdisciplinary, push the 
envelope in terms of technology development, test the boundaries of our 
data collection and analysis systems, and offer an effective training 
ground for future scientists and engineers. NAML believes that 
competitive, merit-based research support by all relevant federal 
agencies is essential to the overall progress of coastal, ocean and 
Great Lakes science and education. Specifically, NAML calls on the 
Subcommittee in the fiscal year 2009 appropriations bill to support the 
research and education programs of the National Science Foundation, the 
National Oceanic and Atmospheric Administration, and the National 
Aeronautics and Space Administration one of its highest priorities.
National Science Foundation (NSF)
    NSF provides vital support for basic research and education which 
enhances public understanding of the Nation's oceans, coastal areas, 
and the Great Lakes and strengthens the long-term economic 
competitiveness and national security of our country. NSF support for 
cutting edge research, cyberinfrastructure, as well as more traditional 
instrumentation and infrastructure is essential for the health of the 
Nation's research enterprise. NSF also plays a large role in supporting 
education and training for the next generation of scientists and 
engineers and enhancing diversity by attracting and retaining women and 
minorities. Marine labs contribute significantly to this objective 
through the research and education programming conducted with NSF 
support. NAML is supportive of proposals from the Administration ($6.9 
billion request for fiscal year 2009) and the Congress (via the America 
COMPETES Act) to substantially increase NSF support for fiscal year 
2009 and urges that in the provision of such resources, they be 
distributed in a balanced way to include all of the NSF directorates 
consistent with similar guidance provided in the fiscal year 2008 
appropriations conference report.
National Oceanic and Atmospheric Administration (NOAA)
    NOAA is a critical player in ocean, coastal and Great Lakes 
research and education and many NAML labs are co-located with, or 
linked to, NOAA laboratories. Through its partnerships with marine labs 
and universities, NOAA has access to world-class expertise and unique 
research facilities. In addition, by partnering with the external 
research and education community, NOAA can leverage funds and 
facilitate multi-institution cooperation, all for the purpose of 
promoting the very best science. NAML urges the Subcommittee to 
recognize the value of NOAA by funding the agency at a budget of $4.5 
billion for fiscal year 2009, as supported by the Friends of NOAA 
Coalition. In addition, we call on the Subcommittee to emphasize NOAA's 
key extramural research and education programs which assist NOAA in 
addressing its mission. These programs include: the National Sea Grant 
College Program, the National Undersea Research Program, Ocean 
Exploration and Research, the National Estuarine Research Reserve 
System, the Competitive Research Program within NOAA's Climate Program 
Office, the Integrated Ocean Observing System, Oceans and Human Health, 
Coastal Zone Management, Office of Education and the various joint and 
cooperative institutes. In addition, NOAA supports important research 
in aquaculture and invasive species.
    In 2007, NOAA released a comprehensive five year research plan \1\ 
that highlights the linkage between NOAA research and the Nation's 
economic competitiveness. A healthy NOAA budget coupled with solid 
partnerships with the extramural research and education communities 
will only strengthen NOAA's research and education capabilities and 
ultimately make our nation safer.
---------------------------------------------------------------------------
    \1\ Research in NOAA: Toward Understanding and Predicting Earth's 
Environment, National Oceanic and Atmospheric Administration, June 
2007.
---------------------------------------------------------------------------
National Aeronautics and Space Administration (NASA)
    Budgets for NASA earth and space science have declined in recent 
years despite fervent calls from the community to protect science 
funding at the agency. The National Academy of Sciences released a 
report in 2007 \2\ calling on NASA to ``renew its investment in Earth 
observing systems and restore its leadership in Earth science and 
applications.'' NAML is not alone in its contention that this nation is 
in need of a balanced investment in NASA that will maintain a strong 
and vibrant earth and space science enterprise. NASA's support for 
earth observations and research is vital in helping us better 
understand our own planet. We are encouraged that the Administration 
has called for Earth and Space science increases in its fiscal year 
2009 budget request. NAML urges the Subcommittee to renew its 
investment in the NASA Earth Science budget for fiscal year 2009.
---------------------------------------------------------------------------
    \2\ Earth Science and Applications from Space: National Imperatives 
for the Next Decade and Beyond, Committee on Earth Science and 
Applications from Space: A Community Assessment and Strategy for the 
Future, National Research Council, January 2007.
---------------------------------------------------------------------------
                NEXT GENERATION OF OCEAN INFRASTRUCTURE

    In addition to program support for research at the various federal 
funding agencies, support for infrastructure and instrumentation--
including long term planning for the next generation of 
infrastructure--is critical to the operation of marine labs. NSF in 
particular provides important support for basic laboratory facilities, 
instrumentation, support systems, computing and related 
cyberinfrastructure, and ship access through the important Major 
Research Instrumentation (MRI) and the Field Stations and Marine 
Laboratories (FSML) programs. The U.S. Commission on Ocean Policy's 
report \3\ made several recommendations about the need for development 
and enhancement of ocean, coastal and Great Lakes research 
infrastructure. NAML recognizes the need for infrastructure investment 
at all scales, from traditional infrastructure--such as marine 
laboratories, ships, observation systems, satellites--to next 
generation infrastructure and technology like genomics, proteomics, 
robotics, nanotechnology, and other advanced computational approaches. 
As federal research budgets grow, so too must support for critical 
infrastructure required to effectively implement research and 
education. We are hindering our brightest scientific minds by denying 
them the proper infrastructure needed to support their research. NAML 
urges the Subcommittee to recognize the importance of sustained support 
for infrastructure across the federal research agencies and provide 
commensurate funding for fiscal year 2009.
---------------------------------------------------------------------------
    \3\ An Ocean Blueprint for the 21st Century, U.S. Commission on 
Ocean Policy, April 20, 2004.
---------------------------------------------------------------------------
    FEDERAL SUPPORT FOR U.S. INNOVATION AND COMPETITIVENESS THROUGH 
                   INVESTMENT IN THE MARINE SCIENCES

    NAML notes that the Federal government has targeted the ``physical 
sciences'' for funding increases in recent years, despite the outcome 
of the fiscal year 2008 appropriations process. The Congress, through 
enactment of the America COMPETES Act (Public Law 110-069), recognized 
that the physical sciences did not only refer to science coming out of 
the National Science Foundation, the Department of Energy's Office of 
Science, and the National Institute of Standards and Technology, as 
defined by the Administration. In addition to these agencies the 
COMPETES Act acknowledged the role that many Federal agencies--such as 
NOAA and NASA--play in U.S. innovation and competitiveness. For fiscal 
year 2009, NAML urges the Subcommittee to fund all of the ``physical 
science'' agencies, including NSF, NOAA, and NASA, at levels that will 
help the nation keep pace on the global stage.

     OCEAN EDUCATION, LITERACY, DIVERSITY AND WORKFORCE DEVELOPMENT

    NAML believes that an informed, engaged and ocean literate populace 
is critical for the economic, environmental health of our planet and to 
the quality of life of all Americans. NAML encourages the federal 
government to strengthen its commitment to enhancing ocean, coastal and 
Great Lakes education, literacy, diversity and workforce development.
    In early 2008 NAML developed a whitepaper \4\ addressing the ocean 
education mission at NOAA and calling on NOAA to be a strong 
contributor to the implementation of the recommendations made within 
the 2006 Conference on Ocean Literacy (CoOL) report \5\. The Conference 
on Ocean Literacy was a watershed event that brought together for the 
first time all of the Federal entities overseeing ocean education and 
literacy. Its subsequent report issued key recommendations for 
fostering an ocean-literate society and increasing ocean workforce 
diversity. NAML looks forward to working with NOAA, as well as other 
federal agencies with ocean education missions, in implementing the 
report's recommendations.
---------------------------------------------------------------------------
    \4\ Ocean Literate America: A Whitepaper in Support of the National 
Oceanic and Atmospheric Administration's Ocean Education Plan, National 
Association of Marine Laboratories, February 2008.
    \5\ Conference on Ocean Literacy Report, Washington, D.C., June 7-
8, 2006.
---------------------------------------------------------------------------
    A strong national ocean policy can only be sustained with the most 
up to date and reliable scientific information. To ensure that the 
Nation will continue to generate the very best knowledge investment is 
needed today in coastal, ocean, and Great Lakes education programs that 
support learning at all age levels, by all disciplines, and for all 
Americans. NAML labs work closely with many programs throughout the 
Federal government to produce a more ocean-literate populace. These 
include the Centers for Ocean Science Education Excellence program 
(COSEE) and the Louis Stokes Alliance for Minority Participation 
program at NSF, and the Office of Education and National Sea Grant 
College Program within NOAA. Not only do marine labs serve as excellent 
training grounds for experiential ocean education, they are also 
committed to enhancing diversity within the field of ocean, coastal and 
Great Lakes research and education by fostering relationships with 
community colleges and minority-serving institutions (MSIs) to provide 
distinctive learning opportunities for underrepresented groups. At 
marine laboratories, students achieve a greater understanding of the 
oceans and coastal ecosystems and take with them a sense of stewardship 
for these important environments. Given the interdisciplinary nature of 
the ocean sciences, a continued interagency approach will be needed by 
the Federal government to foster a truly ocean-literate populace. NAML 
urges the Subcommittee to provide priority funding for the science 
education programs noted above for fiscal year 2009.
    Thank you for the opportunity to express these views on behalf of 
the National Association of Marine Laboratories. We hope the 
Subcommittee will take these points into consideration as you move 
forward in the fiscal year 2009 appropriations process.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                      Experimental Biology (FASEB)

Mission
    Our nation's ability to remain competitive in the global economy 
depends on its capacity to develop new knowledge, train scientists, and 
provide resources that fuel discovery and innovation. Funding for the 
National Science Foundation's (NSF) scientific research and education 
programs is essential to the fulfillment of these goals.
    NSF's mission is ``to promote the progress of science; to advance 
the national health, prosperity, and welfare; [and] to secure the 
national defense.'' \1\ Although NSF receives less than 5 percent of 
the federal research and development (R&D) budget, it has a leading 
role in advancing U.S. science, technology, engineering and mathematics 
(STEM). In addition to providing necessary support for large scale 
research facilities, NSF funds approximately 20 percent of all 
federally-sponsored basic research \2\ and at least two-thirds of all 
federally-sponsored non-medical basic research at America's colleges 
and universities.\3\ Each year, this funding results in grants to more 
than 200,000 scientists, teachers and student researchers for cutting-
edge projects at thousands of institutions across the country. NSF is 
also a major force in science education and training. The agency 
supports education research and funds initiatives to prepare teachers, 
develop curricula, and engage students in scientific activities that 
are critical for strengthening our scientific workforce. NSF's support 
of science and education and its emphasis on integrating research and 
education make it unique among federal research sponsors; its broad 
approach stimulates the flow of ideas across scientific boundaries and 
brings new insight to bear on perplexing research questions. NSF's 
pioneering research investments have advanced the frontier of science 
and have led to the development of marketable technologies, processes 
and methods.
---------------------------------------------------------------------------
    \1\ National Science Foundation. http://www.nsf.gov/about/. 
Accessed September 17, 2007.
    \2\ Ibid.
    \3\ AAAS Report XXXII: Research and Development Fiscal Year 2008. 
(2007) American Association for the Advancement of Science. Washington, 
DC.
---------------------------------------------------------------------------
    A recent National Academies report warns that as other countries 
make R&D spending a top priority, the scientific and technological 
building blocks that are critical to U.S. economic leadership are 
eroding.\4\ Expressing a similar sentiment, the U.S. Office of Science 
and Technology Policy stated that ``keeping our competitive edge in the 
world economy requires policies that lay the ground work for continued 
leadership in innovation, exploration, and ingenuity.'' \5\ Although 
Congress recognized NSF's contribution to the science and technology 
enterprise when it authorized a doubling of the agency's budget by 
2007, NSF's budget remains far below the amount the NSF Authorization 
Act of 2002 specified.\6\
---------------------------------------------------------------------------
    \4\ National Academies of Science. (2007) Rising Above the 
Gathering Storm: Energizing and Employing America for a Brighter 
Future. Washington, DC.
    \5\ Domestic Policy Council. (2006) American Competitiveness 
Initiative: Leading the World in Innovation. Office of Science and 
Technology Policy. Washington, DC.
    \6\ Public Law 107-368. (December 2002) National Science Foundation 
Authorization Act of 2002.
---------------------------------------------------------------------------
    Enactment of the America Creating Opportunities to Meaningfully 
Promote Excellence in Technology, Science, and Education (COMPETES) Act 
\7\ in 2007 renews U.S. commitment to science and technology and puts 
NSF on a path to double its budget by 2015, permitting the agency to 
expand its support for scientific research and education and training 
programs. These critical investments in NSF will ensure that the United 
States remains at the forefront of scientific discovery and 
technological innovation.
---------------------------------------------------------------------------
    \7\ H.R. 2272. (August 2007) America Creating Opportunities to 
Meaningfully Promote Excellence in Technology, Science, and Education 
(COMPETES).
---------------------------------------------------------------------------
Select Accomplishments in Research and Education
    Research that NSF funds traverses the sciences, captures the 
imagination, and improves our quality of life. A few highlights of 
innovative research and education projects NSF supports follow.
            Nanotechnology
    Nanotechnology is a multidisciplinary field in which scientists 
design and build objects and even machines with the dimensions of 
individual atoms and molecules. This new research area is 
revolutionizing everything from computers to health care, and NSF is 
leading the charge.
  --Developing Medical Nanosensors.--Scientists have developed nanosize 
        chemical sensors that can detect glucose in human tissue. This 
        research is paving the way for the development of a class of 
        biosensors that could improve the way diabetics monitor blood 
        sugar and facilitate tracking a variety of other molecules, 
        such as hormones, cholesterol and drugs.
  --Disrupting Cancer Development.--Scientists have found they can use 
        antisense DNA to disrupt cells' production of cancer-causing 
        proteins; attaching gold nanoparticles to antisense strands 
        enhances their ability to disrupt the production of these 
        proteins.
            High-End Computing and Advanced Networking
    Computational research that NSF funds is driving discovery in 
critical scientific fields. High-end computing and advanced networking 
is enabling scientists to better understand biological systems and 
apply new knowledge to pressing health, environmental and social 
concerns.
  --Developing HIV Drugs.--Scientists are harnessing the power of 
        super-computers to model molecular structure and movement. 
        Structural models of enzymes that permit HIV to survive and 
        proliferate have guided the development of new drugs to target 
        these essential proteins.
  --Networking Biodiversity Data.--The Global Biodiversity Information 
        Facility has created a worldwide network of biodiversity data, 
        including genetic and ecological data, on the earth's myriad 
        species. This information is useful in predicting the spread of 
        disease, identifying the sources of disease-resistant crop 
        genes, and tracking the spread of invasive species.
            Materials Science and Engineering
    Nature produces an array of materials with structural properties 
that the materials scientists create in labs cannot rival. Basic 
research on the structures of these materials is helping engineers 
develop new products with medical and industrial applications.
  --Developing Artificial Joints and Limbs.--Basic research on the 
        biology of the unique cartilaginous skeletons of sharks may 
        help researchers design biological materials that are suitable 
        for the development of artificial joints and limbs.
  --Medical Uses of Collagen.--Researchers have discovered ways to 
        modify collagens that may help block the formation of scar 
        tissue, control the growth of blood vessels in tissues for 
        implantation, and develop better infection-fighting bandages.
            Basic Physiological Processes
    Though it may not be evident at first glance, humans have a fair 
amount in common with species as diverse as fungi, frogs and bears. Due 
to similarities at the genetic, cellular and physiological levels, 
studying these and other organisms yields insight into human health and 
disease. NSF support for this basic scientific research paves the way 
for human medical advances.
  --Advancing Organ Transplant Technology.--Researchers discovered that 
        certain frogs produce an ``antifreeze'' that prevents cell 
        damage in frigid temperatures. As a result, these frogs can 
        survive for months in freezing weather even though their major 
        organs have come to a practical halt. Research in this area may 
        lead to technologies that permit longer preservation of human 
        organs and, therefore, improve transplantation success rates.
  --Using Baker's Yeast to Study HIV.--Yeast cells are structurally 
        similar to human cells and contain harmless retrovirus-like 
        elements that scientists use to model HIV. A mechanism 
        scientists discovered in these retrovirus-like elements may be 
        the missing link to retrovirus replication and may provide a 
        new target for the development of HIV drugs.
            Science Education and Training
    The National Science Foundation supports the nation's STEM 
infrastructure by contributing to science education. NSF programs are 
cultivating the next generation of scientists and engineers by 
developing research curricula, engaging K-12 and undergraduate students 
in science, providing support for graduate and postdoctoral 
researchers, and improving teacher training.
  --Math and Science Partnership (MSP) Program.--This program supports 
        educational partnerships between universities, local school 
        systems, businesses, and informal science organizations. Early 
        analyses of this initiative demonstrate that participating 
        students show improvements in math and science proficiency.
  --Science, Technology, Engineering, and Mathematics Talent Expansion 
        (STEP) Program.--The STEP program aims to increase the number 
        of students who obtain undergraduate degrees in STEM 
        disciplines through grant support to academic institutions. 
        With STEP funding, colleges and universities have developed 
        programs to engage women and minorities in science, provide 
        students with research opportunities, and introduce them to 
        scientific careers.
  --Integrated Graduate Education Research and Training (IGERT) 
        Program.--This initiative supports 125 doctoral degree programs 
        that foster interdisciplinary training in emerging scientific 
        domains. IGERT trainees have produced important scientific and 
        technological breakthroughs, which include a handheld imaging 
        device that can detect breast tumors and ``bio-transformable'' 
        materials doctors can implant in the body to deliver drugs or 
        open blood vessels.

Investing in the Future
    NSF's strategic plan for the future \8\ outlines the agency's 
approach to building our nation's research capacity. By combining 
support for basic research, education, and training with investments in 
emerging areas of scientific interest and need, NSF will ensure that 
the United States has the infrastructure and talent to maintain its 
role as a leader in science and technology.
---------------------------------------------------------------------------
    \8\ National Science Foundation (2006). Investing in America's 
Future: FY 2006-2011. http://www.nsf.gov/pubs/2006/nsf0648/NSF-06-
48.pdf. Accessed October 31, 2007.
---------------------------------------------------------------------------
            Fundamental and Transformational Research
    NSF will continue to support both transformational R&D and the 
basic science on which it depends. The agency is emphasizing 
interdisciplinary investigation in areas such as the neural bases of 
behavior, energy and climate research, and nanomaterial safety. Through 
investments in computer science and mathematics, NSF will advance 
research in all STEM disciplines and enhance our ability to make future 
discoveries.
            Systems Biology
    Support for NSF is critical to advancing new areas of biological 
discovery such as systems biology. NSF has led this emerging field, 
which unites biologists, chemists, engineers, mathematicians and 
physicists. Systems biologists are developing a better understanding of 
living systems and their interactions with the non-living world, which 
is essential to understanding the global impact of phenomena such as 
climate change.
            Education and Training
    By funding initiatives such as MSP, STEP and IGERT, NSF will 
continue to foster innovative approaches to science education. NSF's 
focus on integrating research and education; bridging gaps between K-
12, undergraduate science and technical education; and expanding 
partnerships between academia and industry will broaden interest and 
participation in science careers.

Recommendation
    If we are to continue to lead the world in innovation and prepare 
for future prosperity, funding for NSF is essential. As NSF Director 
Arden Bement, Jr. has said, ``America's sustained economic prosperity 
is based on technological innovation made possible, in large part, by 
fundamental science and engineering research. Innovation and technology 
are the engines of the American economy, and advances in science and 
engineering provide the fuel.'' \9\ Without a greater commitment to 
NSF, our country faces the grave possibility of losing its global 
dominance in science and technology.
---------------------------------------------------------------------------
    \9\ Dr. Arden L. Bement, Jr., Director National Science Foundation. 
(March 29, 2006) Testimony before the Senate Commerce, Science, and 
Transportation Subcommittee on Technology, Innovation, and 
Competitiveness. http://commerce.senate.gov/pdf/bement-032906.pdf. 
Accessed on September 17, 2007.
---------------------------------------------------------------------------
    In keeping with the America COMPETES Act of 2007, FASEB recommends 
an appropriation of $7.33 billion for the National Science Foundation 
in fiscal year 2009.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians

    On behalf of the tribal nations of the National Congress of 
American Indians (NCAI), the Nation's oldest and largest organization 
of tribal governments, we are pleased to present our recommendations on 
the Administration's fiscal year 2009 budget for Indian programs.
Recommendations
    Priority 1.--Reject consolidation of DOJ programs and restore 
funding to fiscal year 2002 levels. Top three priorities at DOJ: COPS 
$35 million, Tribal Courts $15 million, Tribal Prison Construction $35 
million.

                                              DEPARTMENT OF JUSTICE
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal year--
                                                             ---------------------------------------------------
                                                                                                         2009
                                                                                                      (Restored
                                                                  2006         2007         2008      to fiscal
                                                                enacted      enacted      Omnibus     year 2002
                                                                                                       Levels)
----------------------------------------------------------------------------------------------------------------
Indian Assistance:
    Tribal Prison Construction..............................        9,000        9,000        8,630       35,000
    Indian Tribal Courts Program............................        8,000        8,000        8,630       15,000
    Alcohol and Substance Abuse.............................        5,000        5,000        5,180        5,000
Community Oriented Policing Services: Tribal Law Enforce-          14,808       15,000       15,040       35,000
 ment.......................................................
Title V--Incentive Grants: Tribal Youth.....................       10,000       10,000       14,100       14,100
----------------------------------------------------------------------------------------------------------------

    Priority 2.--Fully fund Violence Against Women Act programs; 
Research on violence against Native women; and the National Tribal Sex 
Offender and Order of Protection Registry.

                                                      VAWA
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal year--
                                                             ---------------------------------------------------
                                                                                                         2009
                                                                                                      (Restored
                                                                  2006         2007         2008      to fiscal
                                                                enacted      enacted      Omnibus     year 2002
                                                                                                       Levels)
----------------------------------------------------------------------------------------------------------------
Research on violence against Native women...................  ...........  ...........          940        1,000
National Tribal Registry....................................  ...........  ...........          940        1,000
----------------------------------------------------------------------------------------------------------------

    Priority 3.--Department of Commerce, Office of Native American 
Business Development, $3 million.

Background
    The administration of justice in Indian Country is clearly in 
crisis.\1\ Because of the unique legal and political status of Indian 
tribes within the United States, the federal government has a 
responsibility to assist tribes in safeguarding Native people from 
crime. Despite this responsibility, law enforcement and criminal 
justice services in Indian Country are chronically underfunded. In 
October 1997, the Executive Committee for Indian Country Law 
Enforcement Improvements issued its final report to the Attorney 
General and the Secretary of the Interior. The report concluded that 
``there is a public safety crisis in Indian Country,'' and ``the single 
most glaring problem is a lack of adequate resources in Indian 
Country.'' \2\ In the wake of this report, funding for tribal justice 
systems was increased for several years. Ten years later, however, 
funding levels have been cut and law enforcement and justice systems in 
Indian Country are once again operating without the resources they 
need. As a result, tribal communities continue to suffer crisis levels 
of crime.
---------------------------------------------------------------------------
    \1\ Michael Riley, Lawless Lands, Denver Post (Nov. 11-14, 2007).
    \2\ Report of the Executive Committee for Indian Country Law 
Enforcement Improvements (1997), available at http://www.usdoj.gov/otj/
icredact.htm.
---------------------------------------------------------------------------
    The Bureau of Justice Statistics estimates that Native Americans 
``experience an estimated 1 violent crime for every 10 residents age 12 
or older.'' \3\ Native Americans are the victims of violent crime twice 
as often as African Americans, two and half times as often as whites, 
and four and a half times as often as Asian Americans.\4\ Two specific 
areas of crime in Indian Country deserve particular mention: domestic 
violence and drug-related crime.
---------------------------------------------------------------------------
    \3\ Steven W. Perry, Bureau of Justice Statistics, U.S. Dep't of 
Justice, ``American Indians and Crime: A BJS Statistical Profile,'' 
1992-2002, at iv (2004) [hereinafter American Indians and Crime 1992-
2002], available at http://www.ojp.usdoj.gov/bjs/pub/pdf/aic02.pdf.
    \4\ Id. at 5.
---------------------------------------------------------------------------
    Violence against Women.--Nearly every study on the rate of sexual 
assault in the last ten years that has included race or ethnicity as a 
factor has concluded that American Native American women suffer a rate 
of sexual violence at least 2 to 3 times higher than any other group of 
women in the United States.\5\ In 2000, the National Violence Against 
Women Survey concluded that more than 1 in 3 Native women will be raped 
in their lifetime.\6\ These statistics demonstrate that violence 
against Indian women has reached crisis proportions. Full funding for 
the programs authorized by the Violence Against Women Act will bring 
much needed resources to tribal governments.
---------------------------------------------------------------------------
    \5\ Amnesty International, Maze of Injustice: The Failure to 
Protect Indigenous Women From Sexual Violence in the United States 
(2007); Lawrence A. Greenfeld & and Steven K. Smith, Bureau of Justice 
Statistics, U.S. Dep't of Justice, ``American Indians and Crime,'' p. 
3, table 3 (Feb. 1999), available at http://www.ojp.usdoj.gov/bjs/
abstract/aic.htm.
    \6\ Patricia Tjaden & Nancy Thoennes, National Inst. of Justice, 
U.S. Dep't of Justice, ``Full Report of the Prevalence, Incidence, and 
Consequences of Violence Against Women,'' p. 23 (2000), available at 
http://www.ncjrs.gov/pdffiles1/nij/183781.pdf.
---------------------------------------------------------------------------
    Methamphetamines.--Nationally Native Americans have the highest 
rates of methamphetamine abuse.\7\ On some reservations the reported 
rate of meth abuse has been as high as 30 percent.\8\ The Bureau of 
Indian Affairs Office of Law Enforcement Services surveyed tribes with 
whom they work closely on law enforcement, 74 percent of tribes 
indicated that meth is the drug that poses the greatest threat to their 
community.\9\ Meth causes dramatic increases in violent crime, suicide, 
and child neglect. An informal survey of the seven FBI offices located 
primarily in Indian country estimated that approximately 40 percent to 
50 percent of violent crime cases investigated in Indian country 
involve meth.\10\ In addition, the National Indian Child Welfare 
Association estimates that 80-85 percent of the Indian families in 
child welfare systems have drug or alcohol abuse issues.\11\
---------------------------------------------------------------------------
    \7\ Office of Applied Studies, Substance Abuse and Mental Health 
Services Administration, ``Methamphetamine Use, Abuse, and Dependence: 
2002, 2003, and 2004. The National Survey on Drug Use and Health 
Report,'' (Sept. 16, 2005).
    \8\ Donna Vigil, Director, Division of Health Programs, White 
Mountain Apache Tribe, Oral testimony offered to the U.S. Senate 
Committee on Indian Affairs Hearing on Indian Youth Suicide (May 17, 
2006).
    \9\ The New Mexico Investigative Support Center, ``Bureau of Indian 
Affairs Office of Law Enforcement Services, National Methamphetamine 
Initiative Survey,'' p. 4 (2006) [hereinafter National Methamphetamine 
Initiative Survey], available at http://www.ncai.org/ncai/Meth/
BIA_MethSurvey.pdf.
    \10\ FBI Indian Country Unit Presentation, The Federal/Tribal Meth 
Summit sponsored by the Department of Justice, Attorney General's 
Advisory Committee, Native American Issues Subcommittee of United 
States Attorneys (Oct. 13, 2005).
    \11\ Connie Bear King, Testimony of the National Indian Child 
Welfare Association before the Senate Finance Committee regarding 
Keeping America's Promise: Health Care And Child Welfare For Native 
Americans (March 22, 2007), available at http://www.senate.gov/
finance/hearings/testimony/2007test/032207testcbk.pdf.
---------------------------------------------------------------------------
    In order to address the profound needs in many tribal communities, 
additional law enforcement and criminal justice resources are badly 
needed. The most telling indicators of the under-resourcing of public 
safety services in Indian Country are the chronic law enforcement 
staffing deficit, the over-burdened tribal courts, and the deplorable 
conditions of tribal detention facilities.
    Law Enforcement Staffing.--More than 200 tribal police departments, 
ranging from small departments with only two officers to those with 
more than 200 officers, help to maintain public safety in Indian 
Country. Current funding for tribal law enforcement and first 
responders lags well behind that for non-tribal law enforcement. The 
Bureau of Indian Affairs conducted an analysis of law enforcement 
staffing in Indian Country in 2006, and found that Indian Country has 
2,555 law enforcement officers, yet needs a total of 4,409, resulting 
in a gap of 1,854 officers, or a 42 percent unmet staffing need. 
According to the Bureau of Justice Statistics, cities like Baltimore, 
Detroit, and Washington have police-to-citizen ratios of 3.9 to 6.6 
officers per 1,000 residents. On the other hand, virtually no tribal 
police department has more than 2 officers per 1,000 residents. 
Increased funding for tribes under the COPS program will help to close 
this gap.
    Tribal Courts.--Tribal judicial systems, the primary and most 
appropriate institutions for maintaining order in tribal communities, 
frequently are overburdened due to lack of federal funding. Tribal 
courts are overwhelmed with hundreds of serious cases declined by U.S. 
attorneys as well as increasing meth and drug crimes. Tribal courts 
have been level funded for at least the last five years. Increased 
funding for tribal courts will ensure that tribal justice systems are 
equipped to handle their increasing case load.
    Detention Facilities.--Well functioning detention centers for 
tribal members both accused and convicted of crimes are of great 
importance to criminal justice in Indian Country. Detention centers in 
Indian Country often do not meet minimum acceptable standards for 
prisons: frequently basic maintenance does not occur, major sanitation 
concerns exist, safety and security are inadequate, resources for 
juveniles do not exist, funding for rehabilitation and re-entry 
programs is almost non-existent, health care services for inmates are 
lacking, and there is very little accountability for fixing the 
problems that plague tribal detention centers.\12\ As such, the safety 
of tribal members who are incarcerated is often jeopardized and the 
safety of tribal members in the community is put at risk because 
prisoners are offered few basic services and quickly released due to 
over-crowding. Increased funding for the construction of tribal 
detention facilities is imperative.
---------------------------------------------------------------------------
    \12\ U.S. Department of the Interior, Office of the Inspector 
General, ``Neither Safe Nor Secure: An Assessment of Indian country 
Detention Facilities,'' P. 1-6 (2004), available at http://
www.doioig.gov/upload/IndianCountryDetentionFinal%20Report.pdf.
---------------------------------------------------------------------------
    Juvenile Justice.--A critical piece of law enforcement is juvenile 
detention facilities and juvenile rehabilitation and treatment 
programs. Many tribes have no place to house juvenile offenders and are 
required to shoulder the cost of transportation and bed rental in order 
to send their youth to another jurisdiction--often far from their 
communities. In addition, tribes have no ongoing source of funds for 
non-detention programs for youth. Research on juvenile justice has 
shown that detention is the most expensive and often the least 
effective way to deal with young offenders; it should be the last 
resort. However, without the resources to support alternatives to 
detention, tribes have few options for addressing juvenile crime. 
Increased funding for the Tribal Youth Program will allow tribes to 
begin to address this need.
                                 ______
                                 
    Prepared Statement of the Marine Conservation Biology Institute

    On behalf of Marine Conservation Biology Institute (MCBI), I wish 
to thank the members of the Commerce, Justice, Science, and Related 
Agencies Appropriations Subcommittee for the opportunity to submit 
written testimony on fiscal year 2009 National Oceanic and Atmospheric 
Administration (NOAA) appropriations. MCBI supports funding increases 
to the President's fiscal year 2009 budget for several significant NOAA 
conservation programs and activities as follows: $2 million for 
Hawaiian monk seal recovery; $5.5 million for the Deep Sea Coral 
Research and Technology Program; $30 million for the National Marine 
Sanctuaries Program; and $2.9 million for the Marine Protected Areas 
Program.
    MCBI is a national, nonprofit environmental organization whose 
mission is to advance the science of marine conservation biology and 
secure protection for ocean ecosystems. Our headquarters are in 
Bellevue, Washington; we also have offices in Hawaii, California and 
Washington, DC. MCBI is a member of the Friends of NOAA Coalition and 
supports the Coalition's recommendation for funding NOAA at $4.5 
billion in fiscal year 2009. Our justifications of increases for 
critical conservation programs and activities are as follows:
    The Hawaiian monk seal is one of the most critically endangered 
marine mammals in the world, and is the only U.S. marine mammal species 
whose entire range lies within U.S. jurisdiction. Most Hawaiian monk 
seals reside in the Papahanaumokuakea Marine National Monument, but 
there is a small important sub-population in the Main Hawaiian Islands. 
Over the last 20 years, the Hawaiian monk seal population has declined 
to approximately 1,200 individuals.
    The Hawaiian monk seal is headed toward extinction unless the 
National Marine Fisheries Service (NMFS) and its partner agencies 
aggressively budget for, and implement the recommendations of the 2007 
recovery plan, which strives to protect and enhance the overall number 
of breeding female seals. This is not an unattainable goal, but it will 
require a variety of concurrent actions and interventions at a 
projected annual cost of approximately $7 million annually over the 
next 5 years. Although this cost may seem high, in comparison, the 
Steller seal lion whose current Western population is approximately 
45,000 has received $55 million in conservation support since 1998, 
while the more critically endangered Hawaiian monk seal has received 
approximately $21 million over the same time period.
    For fiscal year 2009, the President's budget includes an $855,000 
request from NOAA in the monk seal line item. Additionally, 
discretionary funding usually is allocated from other Protected 
Resources line items for seal management. In fiscal year 2008, for 
example, total funding for the seal base program is approximately $2.1 
million. Even at this funding level, research and protection 
interventions in the Northwestern Hawaiian Islands have been cut back 
by two-thirds for the summer field season. Furthermore, there are no 
funds requested in fiscal year 2009 for managing seals in the Main 
Hawaiian Islands where human interactions are a significant threat to 
recovery.
    To recover the monk seal, the recovery team is unanimous that the 
recovery plan must be implemented aggressively on a sustained basis. I 
urge the subcommittee to increase seal funding as follows:
  --For fiscal year 2009, MCBI recommends an additional $2 million 
        above the President's budget request be added to the monk seal 
        line item specifically for recovery plan implementation. $1 
        million of this amount is needed for the Pacific Island 
        Fisheries Science Center's ongoing field efforts to enhance pup 
        and juvenile survival principally in Papahanaumokuakea.
  --Another $1 million is needed for coordinating the seal recovery 
        program and crisis intervention actions in the Main Hawaiian 
        Islands. Of this $1 million, MCBI recommends $150,000 for a 
        Regional Office Coordinator, and $600,000 for six field 
        response team leaders who handle day to day interventions to 
        protect the 100 or so seals scattered around the Main Islands. 
        The remaining $250,000 would go for programs to educate the 
        public on appropriate behavior toward seals, prevent seal 
        disease, and capture and rehabilitate entangled, abandoned, 
        sick or wounded seals for eventual release back into the ocean.
    The Deep Sea Coral Research and Technology Program is an exciting 
addition to the budget this year. With the recent discovery of 
extensive deep sea coral ecosystems within U.S. waters--ecosystems 
every bit as diverse as many tropical coral reef systems--scientists 
are now challenged to understand these ecosystems to the fullest. 
Unfortunately, many deep sea coral areas are highly susceptible to 
destructive fishing practices, particularly bottom trawling. Under the 
newly reauthorized Magnuson-Stevens Conservation and Management Act of 
2006, NOAA was directed to create a new Deep Sea Coral Research and 
Technology Program under the direction of the National Marine Fisheries 
Service.
    MCBI is pleased to see start-up funding of $1.5 million for the 
program in the fiscal year 2009 NOAA request. However, we would like to 
mention that due to the expensive technology and research vessel time 
required to study and map deep sea corals, an additional $5.5 million 
could be used to fund known research needs:
  --An area of the southeastern U.S. shelf edge and slope spanning 
        approximately 23,000 square miles is of top priority for 
        mapping and scientific studies for the conservation of deep sea 
        corals. With adequate funding, extensive mapping of this 
        southeastern shelf can be accomplished with three 30-day 
        scientific cruises at approximately $2 million per cruise.
  --In addition, another priority for the Deep Sea Coral Research and 
        Technology Program is the development of observer by-catch 
        workshops. These workshops will train fisheries observers to 
        identify corals brought up by commercial fishers and assess the 
        continued impacts that fishing is having on seafloor corals. $1 
        million would fund at least three workshops in the regions 
        where they are most needed.
    The National Marine Sanctuaries Act authorizes the Secretary of 
Commerce to designate and manage areas of the marine environment for 
resource protection and multiple use. Currently, the National Marine 
Sanctuary Office is responsible for managing the nation's 13 marine 
sanctuaries and the Papahanaumokuakea Marine National Monument in the 
Northwestern Hawaiian Islands. Collectively, these units cover more 
area than the entire National Park System.
    The President has requested $49.8 million in fiscal year 2009 for 
the Sanctuary Program base. This includes $44.4 million for Operations, 
Research and Facilities (ORF) and $5.4 million for Procurement, 
Acquisition, and Construction. This is a decrease of $6.5 million from 
the $56.3 million enacted in fiscal year 2008.
    Given the pressing needs to better protect sanctuary resources, 
MCBI recommends a considerable increase in funding of $23 million in 
fiscal year 2009, to bring the overall program budget to $80 million. 
This would include $60 million for the ORF base and $20 million for 
acquisition and construction. With the proper funding, the Office of 
National Marine Sanctuaries can better execute its responsibilities as 
a leader in ocean management and conservation. Funding will support 
monitoring and enforcement of sanctuaries, ensure public access through 
visitor facilities and programs, and promote scientific research.
    The Marine Protected Areas Program is responsible for the 
implementation of Executive Order 13158, ``Marine Protected Areas'' 
(MPAs). MPAs are defined as discrete areas of the ocean that have some 
degree of formal protection under federal, state, tribal and local 
laws. MPAs are essential to maintain biological diversity, protect 
ocean habitats, and effectively manage fish populations. NOAA is tasked 
with undertaking a gap analysis to identify which additional types of 
marine areas should be protected.
    Given the ongoing degradation of our ocean resources, research to 
implement the executive order has moved excessively slowly, in part due 
to insufficient funding. After receiving a start-up budget of $3 
million in fiscal year 2001, the MPA Program budget reached almost $5 
million in fiscal year 2004, and then dropped rather abruptly to $1.5 
million in fiscal year 2007 and 2008. During this period of decline, 
the center lost 70 percent of its staff (i.e., a loss of 18 full and 
part-time employees).
    MCBI recommends $2.9 million be added to the fiscal year 2009 
budget for the MPA Science Center in fiscal year 2009. Without adequate 
funding, the MPA Center cannot properly carry out the goals of creating 
and expanding a national system of MPAs, rendering technical assistance 
to state-level MPA programs, and maintaining its MPA inventory.
    In conclusion, MCBI respectfully requests that the subcommittee 
augment funding for the marine ecosystem and species protection 
programs mentioned above. Thank you for the opportunity to share our 
views.
                                 ______
                                 
      Prepared Statement of the National Corn Growers Association

    The National Corn Growers Association (NCGA) appreciates the 
opportunity to share with the subcommittee our appropriations 
priorities for fiscal year 2009, and we respectfully request this 
statement be made part of the official hearing record.
    The National Corn Growers Association (NCGA) is a national 
organization founded in 1957 and represents more than 32,000 members in 
48 states, 47 affiliated state organizations and more than 300,000 corn 
farmers who contribute to state check-off programs for the purpose of 
creating new opportunities and markets for corn growers.
    NCGA's top priority in the fiscal year 2009 Science, State, Justice 
and Commerce appropriations bill is maintaining funding and focus of 
the $101.22 million for the National Science Foundation (NSF) Plant 
Genome Research Initiative (initiative). The initiative is supported by 
the Interagency Working Group on Plant Genomes under the auspices of 
the National Science and Technology Council within the Office of 
Science and Technology Policy. In 1997, NCGA spearheaded the effort on 
legislation that authorized major plant genome research, which resulted 
in the Plant Genome Research Initiative. Obtaining genome sequence 
information frequently leads to breakthroughs in the study of a 
particular organism. The goal of the initiative is to understand the 
structure and function of plant genes at all levels in species of 
economic importance and indeed, the initiative has led to an 
unprecedented increase in our understanding of the genomics and 
genetics of plants. The initiative also changed the way research is 
conducted in plant biology and helped to attract a new generation of 
scientists to the plant sciences field at U.S. colleges and 
universities.
    Bringing agriculturally important plant species into the genomic 
age is an important goal. Initial major accomplishments included the 
completion of the model laboratory plant Arabidopsis and rice genome 
sequences. Completion on those genomes demonstrated that genomic 
sequence was the most comprehensive way toward gene discovery--a first 
step toward identifying the role of each gene. Building upon lessons 
learned sequencing smaller plant genomes, sequencing the corn genome 
became feasible. Arabidopsis, a member of the brassicaceae, or mustard, 
family, has a genome of 125 million base pairs. Rice's genome has 430 
million base pairs. Sequencing the corn genome had been considered 
difficult because of its large size and complex genetic arrangement. 
The genome has 50,000 genes scattered among the haploid genome size of 
2.3 billion nucleotides--molecules that form DNA--that make up its 10 
chromosomes.
    In 2004, valuable corn research was made available through NCGA to 
research scientists working to understand the maize genome through the 
availability of sequencing data from Ceres, DuPont and Monsanto. This 
information, combined with the corn sequence data already in the public 
domain, significantly accelerated the identification of genes within 
the entire corn genome and was a precursor to the effect that the full 
corn sequence will have on the research community.
    In 2005, NSF, the United States Department of Agriculture (USDA) 
and the Department of Energy (DOE) awarded $29.5 million to sequence 
the corn genome. NSF selected a consortium of four research 
institutions to sequence the maize genome: The University of Arizona, 
Washington University in St. Louis, Iowa State University in Ames and 
Cold Spring Harbor Laboratory in Cold Spring Harbor, New York. The goal 
of the Maize Genome Sequencing Project is to unravel the DNA sequence 
of the maize plant and to identify the genes and begin to determine 
their position on the chromosomes--the tiny bundles of DNA that form 
the storage units of genetic information. The sequencing of corn pushed 
the state of the art of genetic research to new levels as its genome 
has complexities beyond any plant sequenced to date. The highly 
repetitive regions of DNA, formerly considered ``junk'' DNA, are 
extremely prevalent in corn, and have been shown to have a significant 
impact on how the genetic engine of life truly works. These issues have 
posed significant challenges to researchers interested in crop 
improvement, plant molecular biology, or genome evolution. Using a 
physical map that covers about 95 percent of the maize genome map, 
scientists generate a draft sequence to reveal the locations of 
regulatory elements within stretches of so-called non-coding ``junk'' 
DNA. Focus of the project does center on gene-containing regions and 
are sequenced in detail. This sequencing strategy enables the 
consortium to sequence the corn genome at a fraction of the cost that 
was necessary to decipher the human genome, which is only slightly 
larger than the corn genome.
    Today, genomic research technology and techniques are ready to 
complete a high quality corn genome sequence. The result will be the 
complete sequence and structural understanding of the entire corn 
genome, annotated functional sequences, and their locations on corn's 
genetic and physical map. This genome will be the most complex 
eukaryotic genome to be sequenced to date, including the human genome. 
The corn genome sequence will, in turn, help in the eventual completion 
of other major crop genome sequences, as itself benefited from 
knowledge gained through the prior completion of other genome 
sequences. Corn will also serve as a model system to aid in elucidating 
clues to improve the growth and development of other related grass 
crops, such as wheat, sorghum, millet and barley. Importantly, access 
to all of this information is shared through GenBank, Gramine, MazeGDB 
and other public repositories for genome-sequence data.
    With focused funding, we will be much closer to achieving the goal 
of this initiative--understanding the structure and function of all 
economically significant plant genes. The corn industry, including the 
academic research community, grain handlers, growers, and seed 
companies, supported the corn genome sequencing project and will 
continue to support a program that maintains its focus on discovering 
the functionality of genes in economically important plant species. A 
complete corn genome sequence and the application of its information 
will provide a wide range of benefits. Both the public and private 
sectors will be able to expedite their breeding programs and increase 
their knowledge of corn's important agronomic traits. Corn growers will 
be able to plant varieties of corn that are better suited to market and 
environmental needs, such as pest resistant traits, lower nitrogen 
needs, and higher yields--all increasing sustainability. Quality 
researchers will continue to be attracted to the field of plant 
genomics and genetics.
    Consumers will also benefit from more abundant and sustainable 
food, feed and fuel supplies. Corn is not only grown for food and feed, 
it is converted to a myriad of processed food products--literally 
thousands of products in the typical supermarket contain corn. 
Improvements aim at increasing yield and nutritional value and 
optimizing the properties crucial for grain products such as flour and 
pasta. The production of corn-based products with enhanced nutritional 
value that are safer and less allergenic will directly benefit 
consumers.
    Corn is also an important material for many industrial purposes and 
products including rubber, plastics, fuel and clothing. Corn is a model 
system for studying complex genomic structure, organization and 
function and its high quality genetic map will serve as the foundation 
for studies that may lead to improved biomass and bioenergy resources 
from corn and related plant species.
    The request for the Directorate for Biological Sciences (BIO) is 
$675.06 million, and increase of $63.04 million, or 10 percent, over 
the fiscal year 2008 request of $612.02 million. The Directorate for 
Biological Sciences supports research, infrastructure, and education in 
the biological sciences at U.S. colleges, universities, non-profit 
research institutions, and other research and education organizations.
    BIO includes a sub-activity request for Plant Genome Research (PGR) 
of $101.22 million, an amount that does not contemplate an increase 
from the fiscal year 2008 request. PGR sub-activity was initiated in 
fiscal year 1998 as a stand alone budget managed by Biological 
Infrastructure (DBI). In general, 36 percent of the PGR portfolio is 
available for new research grants. The remaining 64 percent is used 
primarily to fund continuing grants made in previous years. PGR 
supports research in agronomic significant species. However, the fiscal 
year 2009 budget proposes to roll PGR into the Integrated Organismal 
Systems (IOS) sub-activity, potentially causing the program to lose 
focus. Rolling the PGR budget into IOS will result in a significant 
reduction in funds available for new genetic projects in economically 
important species as the needs of non-agricultural plants would be 
served from the same budget. The fiscal year 2009 budget also proposes 
to roll Arabidopsis 2010 into the IOS sub-activity. It is important to 
note that model systems research such as this project, has been 
traditionally supported through NSF's core budget and not PGR or IOS. 
This change may result in a reduction of resources available for 
economically significant plants, such as continued work on new projects 
involving the rice genome and future new project stemming from corn 
genome work, during flat budget cycles. The Arabidopsis 2010 project 
and the NSF's independent Plant Genome Research Program (PGRP) 
complement each other and provide a broad base of support for the plant 
biology research community. Arabidopsis 2010 has traditionally received 
up to $25 million per year. It is critical that both activities remain 
separate and receive enough support to achieve their goals.
    Maintaining and improving upon the resources available for crop 
systems is now more important than ever, as agriculture tries to meet 
the demands of consumers worldwide by providing a safe and secure 
supply of resources for human and animal nutrition, fiber, bioenergy, 
and industrial feeds. Continued strong governmental support of basic 
agricultural research is essential to ensure that the innovation 
pipeline remains robust. NCGA requests that this subcommittee include 
in the fiscal year 2009 Science, State, Justice and Commerce 
appropriations bill language that secures the $101.22 million PGR 
budget to be applied exclusively to species of economic importance, 
keeping in line with the original intent of the program.
    Thank you for the support and assistance you have provided to corn 
growers over the years. Please feel free to contact Jon Doggett at 202-
628-7001 if you need any additional information.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Madam Chairman and Members of the Subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2009 funding for 
the National Fish and Wildlife Foundation (Foundation). We appreciate 
the Subcommittee's past support and respectfully request your approval 
of $4 million through the National Oceanic and Atmospheric 
Administration's (NOAA) fiscal year 2009 appropriation.
    This funding request is well within the authorized levels and would 
allow the Foundation to uphold our mission and expand our successful 
partnership with NOAA. Madam Chairman, I want to make one very 
important point: we are asking for your support of well-established 
conservation programs with national significance. The Foundation is an 
honest broker for the federal agencies and we have a remarkable track 
record of bringing private partners together to leverage federal funds 
and maximize conservation impacts.
    In 1999, Congress expanded the Foundation's mandate to specifically 
include NOAA's mission to restore and protect marine and coastal 
resources. During fiscal year 2001-2006, the Foundation received an 
average appropriation of $2 million annually to further the mission of 
NOAA's National Marine Fisheries Service and National Ocean Service 
through cooperative agreements and leveraging of private sector funds. 
In fiscal year 2007, the Foundation sustained cooperative agreements 
with NOAA to continue our partnership programs. We respectfully request 
that the Subcommittee restore NOAA appropriations for the Foundation in 
fiscal year 2009 to accelerate our work with NOAA to protect coastal 
habitats and marine species.
    This fiscal year 2009 request would allow the Foundation to expand 
key partnerships and highly successful grant programs in the areas of 
marine debris removal, coral reef conservation, marine species 
protection and coastal ecosystems such as Delaware Bay, Long Island 
Sound, Tampa Bay, San Francisco Bay, Puget Sound and Chesapeake Bay. 
The Foundation continues to excel in grant-making while providing 
thought leadership, accountability and sustainable conservation 
outcomes. Our unique ability to organize federal agencies and private 
partners to work together to achieve mutual conservation goals through 
on-the-ground and in-the-water grant programs is notable and there is 
significant potential to advance these efforts in fiscal year 2009 and 
beyond.
    In addition to NOAA, the Foundation works closely with the U.S. 
Fish and Wildlife Service (FWS) and other Department of the Interior 
agencies, the Environmental Protection Agency (EPA), and USDA's Natural 
Resources Conservation Service (NRCS), among others. On average, every 
federal dollar is leveraged with three or more matching dollars from 
the non-federal sector. Therefore, a NOAA appropriation of $4 million 
in fiscal year 2009 would turn into a minimum of $8 million, according 
to the Foundation's Congressional Charter which requires a minimum of a 
1:1 match, and have the potential to turn into $16 million or more for 
on-the-ground conservation. Funds appropriated by this Subcommittee are 
fully dedicated to project grants and do not cover any overhead 
expenses of the Foundation.
    This Subcommittee's funding will also attract additional funding 
for conservation through corporate sponsorship, legal settlements, and 
direct gifts. Through our targeted grants, the Foundation strategically 
invests federal funds entrusted to us to achieve measurable success in 
``moving the needle'' on collaborative conservation objectives over the 
next five to ten-year period. To date, the Foundation has leveraged 
more than $53 million in NOAA funds to invest more than $157 million 
for on-the-ground and in-the-water conservation. Over 1,200 project 
grants have been awarded, focusing on the conservation needs of at-risk 
species, habitat enhancement, coastal restoration, marine debris clean-
up, environmental education, and community-based stewardship.
Conserving Fish, Wildlife, Plants and Habitats
    fiscal year 2009 appropriations through NOAA will be focused on 
mutually agreed upon projects according to our Keystone Initiatives and 
the objectives of the Foundation's Special Grant Programs, which are 
specific to a geographic area, group of species, or conservation 
concern. The Keystone Initiatives represent the new core portfolio of 
the Foundation's grant making with clearly defined long-term goals, 
well-articulated strategies, and defined budgets to reach desired 
outcomes. In 2007 the Foundation continued implementing a new strategic 
plan and developing targeted Keystone Initiatives, with the goal of 
achieving sustainable and measurable conservation impacts.
    Four Keystone Initiatives were launched by the Foundation in 2007: 
(1) Birds, (2) Wildlife and Habitats, (3) Fish, and (4) Marine and 
Coastal Conservation. Each grant approved under a Keystone Initiative 
will be designed to provide a measurable outcome that brings us one 
step closer to the final long-term conservation goal of the Initiative. 
Achieving success through our Keystone Initiatives will also help to 
fulfill the objectives of the National Fish Habitat Action Plan and the 
National Oceanographic Partnership Program, among others.
    With increased support through NOAA appropriations, the Foundation 
can accelerate our collaborative efforts to achieve long-term 
conservation impacts for fish and wildlife through our Keystone 
Initiatives. Increased funding in fiscal year 2009 will also help to 
strengthen the Foundation's Special Grant Programs, a few of which are 
highlighted below:
  --The Coral Reef Conservation Fund was initiated in 2000 with NOAA to 
        build public-private partnerships and leverage resources for 
        effective stewardship of marine and coastal resources, and the 
        communities that depend on them. FWS and NRCS have contributed 
        to the Fund which supports grants to reduce and prevent 
        degradation of coral reefs and associated habitats. Recently, 
        the Harold K.L. Castle Foundation provided additional support 
        for our efforts in Hawai'i and Tesoro Corporation is providing 
        additional support in 2008 for an education and outreach 
        campaign. The Foundation has provided funding for nearly 200 
        projects with $7.3 million in federal and non-federal funds, 
        leveraged with $11.6 million in non-federal matching funds, for 
        a total of $18.9 million for coral reef conservation in 38 
        countries, including 4 U.S. states and 8 U.S. territories.
  --The International Sea Turtle Conservation Fund supports projects 
        for the six species of sea turtles found in the Western 
        Hemisphere, all of which are considered endangered or 
        threatened. Since 1998, grants have been awarded for more than 
        100 projects in over 25 countries, representing a total of $6.2 
        million in funding from both federal and non-federal sources. 
        Projects focus on key nesting and foraging areas for species 
        survival as well as local capacity-building and outreach with 
        fisherman to increase awareness and minimize damage caused by 
        certain fishing techniques to marine turtle populations. This 
        collaborative effort with NOAA and FWS is the leading source of 
        funding for sea turtles in the Western Hemisphere.
  --The Marine Debris Prevention and Removal Program was established in 
        2006 through a partnership with NOAA's Marine Debris Program. 
        The program focuses on improving best management practices of 
        ports and marinas, reducing derelict fishing gear, and research 
        to better understand the impacts of marine debris on marine 
        mammals, sensitive habitats, and tourist and fishing 
        industries. Since 2006, the Foundation has supported 28 
        projects with over $1.2 million in federal funds, leveraged 
        with over $1.5 million in non-federal matching funds for 
        projects in 13 States and 4 U.S. Territories. In 2007, the 
        Foundation formed partnerships with industry to prevent debris 
        introduction to the marine environment, including the new Reel 
        in and Recycle Program in partnership with Pure Fishing and 
        Berkeley Recycling, and the Nets to Energy in partnership with 
        Covanta, aimed at recycling retiring or derelict fishing gear 
        and convert it into energy.
  --The Pinellas County Environmental Fund (PCEF) is a unique 
        partnership formed in 2000 between the Pinellas County Board of 
        County Commissioners, NOAA, and the Foundation to actively 
        pursue the protection, restoration, and enhancement of fish and 
        wildlife habitat around Tampa Bay. PCEF helps to implement the 
        on-the-ground habitat and species conservation recommendations 
        developed through the Tampa Bay Estuary Program and 
        incorporated into the Tampa Bay Comprehensive Conservation and 
        Management Plan. Since inception, the PCEF has leveraged $9.6 
        million with an additional $14.3 million in matching funds to 
        support 123 projects for a total conservation investment of 
        nearly $24 million in the Tampa Bay area.
    Other Special Grant Programs supported by NOAA, including the 
Delaware Estuary Watershed Grants Program, Long Island Sound Futures 
Fund and Chesapeake Bay Stewardship Fund, continued positive results in 
2007 with grantee requests far exceeding available funds. As mentioned, 
the Foundation is successfully building bridges between the government 
and private sector to benefit NOAA's mission. Fiscal year 2009 
appropriations through NOAA allow the Foundation to continue our 
investment in common-sense, innovative, cooperative approaches that 
directly benefit coral reefs and other marine habitats as well as 
targeted species, such as Loggerhead turtles, Hawskbill turtles, and 
Pacific coho salmon.

A Tradition of Successful and Accountable Performance
    Since 1984, the Foundation has awarded nearly 9,500 grants to over 
3,000 organizations in the United States and abroad and leveraged--with 
our partners--more than $400 million in federal funds into over $1.3 
billion for conservation. NFWF is recognized by Charity Navigator with 
a 4-star rating for efficiency and effectiveness. The Foundation has 
taken important strides to improve our grant review and contracting 
process to ensure we maximize efficiency while maintaining strict 
financial and evaluation-based requirements. Interactive tools through 
our website have improved communication with our stakeholders and 
helped to streamline our grant-making process. We expect that as of 
spring 2008, the Foundation will be operating under a paperless 
application system.
    Grant-making through our Keystone Initiatives and Special Grant 
Programs involves a thorough internal and external review process. Peer 
reviews involve federal and state agencies, affected industry, non-
profit organizations, and academics. Grants are also reviewed by the 
Foundation's Keystone Initiative staff, as well as evaluation staff, 
before being recommended to the Board of Directors for approval. In 
addition, according to our Congressional Charter, the Foundation 
provides a 30-day notification to the Members of Congress for the 
congressional district and state in which a grant will be funded, prior 
to making a funding decision.
    Once again, Madam Chairman, we greatly appreciate your continued 
support and hope the Subcommittee will approve funding for the 
Foundation in fiscal year 2009.
                                 ______
                                 
    Prepared Statement of the Optoelectronics Industry Development 
                              Association

    On behalf of the 75 member organizations of the Optoelectronics 
Industry Development Association (OIDA) and our approximately 200 
affiliates, I urge you to fund the National Institute of Standards and 
Technology (NIST) in fiscal year 2009 at the levels authorized in the 
America COMPETES Act signed into law in 2007: $541.9 million for 
Scientific and Technical Research and Services, $86.4 million for 
Construction of Research Facilities, $131.5 million for the new 
Technology Innovation Program, and $122 million for the Manufacturing 
Extension Partnerships, or a total of $881.8 million.
    The high technology community depends on sound metrology to support 
its products. The NIST Optoelectronics Division helped develop the 
metrology standards that enabled American companies to establish a very 
strong market share in optical fiber, which provides the backbone of 
the Internet. But the need for metrology assistance continues and our 
members therefore strongly support NIST's proposed fiscal year 2009 
initiative called ``Going at Light Speed: Optical Communications and 
Computing.'' In a different area, the NIST Optical Technology Division 
provides the standards for the emerging solid state lighting industry, 
in which our members are developing new technology that will save 
energy, help our environment, and enable new lighting functions. These 
are just a few examples from our industry.
    We strongly object to the absence of an Administration request for 
funding for the new NIST Technology Innovation Program (TIP). Like its 
predecessor, the Advanced Technology Program (ATP), TIP will help our 
members, many of which are small and medium-sized companies, advance 
their technologies through the most difficult and risky stages of 
development. We believe that the legislation creating TIP has resolved 
all significant concerns with ATP, and TIP will prove to be an 
extraordinarily successful program.
    We appreciate your consideration of the needs of our industry. The 
Optoelectronics Industry Development Association is a Washington, DC-
based organization that is the focal point for vision, transformation, 
and growth of the optoelectronics industry. OIDA advances the 
competitiveness of its members by focusing on the business of 
technology, not just technology itself.
                                 ______
                                 
    Prepared Statement of the International Fund for Animal Welfare

    The International Fund for Animal Welfare and our more than 2 
million members worldwide appreciate this opportunity to submit 
testimony in support of recovery efforts for the endangered North 
Atlantic right whale. On behalf of the many scientists, academics, 
aquariums, and conservationists who are deeply worried about the plight 
of the North Atlantic right whale, we are writing to request the 
Subcommittee's support for restoring funding for North Atlantic right 
whale conservation and research programs administered by the National 
Oceanic and Atmospheric Administration (NOAA)/National Marine Fisheries 
Service (NMFS). Adequate funding is essential to ensure that this 
endangered marine mammal is not lost forever. Specifically, we ask 
Congress to restore funding in NOAA's fiscal year 2009 budget to the 
fiscal year 2005 level of $12.5 million. This funding is vital for the 
long-term recovery of this species. At least half of the requested 
amount should be directed to funding disentanglement efforts and a 
competitive grants program that focuses on (1) innovative entanglement 
mitigation and monitoring, (2) reproduction and health research (health 
assessment, reproduction studies and monitoring, and non-invasive 
medical assessments), and (3) monitoring of anthropogenic impacts 
(necropsy, carcass recovery, field monitoring, scar analysis).
    The North Atlantic right whale is one of the worlds' most 
endangered marine mammals, with only about 300-400 whales remaining 
today. While the North Atlantic right whale is protected under both the 
Endangered Species Act and the Marine Mammal Protection Act, a lack of 
adequate resources over the years has severely hampered NMFS' ability 
to effectively protect and recover this endangered species.
    The survival of each individual is vitally important to ensure the 
survival of this species. Since 1986, the majority of confirmed North 
Atlantic right whale deaths, have resulted from human-induced causes 
including ship strikes and entanglements in fishing gear. Since January 
2004, twenty right whale deaths have been confirmed. These data are a 
minimum estimate of the actual number of deaths as they do not account 
for animals that may have died at sea and gone undetected. At least 
nine of these mortalities were linked to ship strikes. Seven of them 
were reproductively mature females and three were pregnant with near-
term fetuses at the time of death, suggesting that females are 
particularly vulnerable to ship strikes. These data alone represent a 
loss of more than five percent of the total breeding population adding 
yet more pressure to the successful recovery of this species.
    Little is known about the year-round distribution of right whales. 
Existing federally-funded surveys operate seasonally, and only in 
specific areas where human impacts are thought to be greatest. This 
results in many areas with little or no survey effort, which has led to 
a lack of understanding of other areas that may be important to right 
whale survival, which puts them at an avoidable and unnecessary risk.
    Restoring funding to the fiscal year 2005 level of $12.5 million 
would provide much-needed funding for: surveys (both visual and 
acoustic); mandatory ship reporting systems; ship strike strategy 
implementation (including enforcement of speed restrictions and routing 
measures); mortality investigations; disentanglement efforts; gear 
research; state and federal cooperative research grants; health 
assessments; population monitoring; implementation and refinement of 
take reduction plans; and other high-priority projects identified in 
the recovery plan. This will allow NMFS to improve protections for 
right whales by reducing the threat of entanglements in fishing gear 
and preventing fatal ship strikes.
    The urgency of this situation is highlighted by the announcement in 
December, 2006, of the extinction of the Yangtze, or baiji, river 
dolphin in China. In the 1980's, scientists estimated there were 400 
baiji alive, only a remnant of the estimated 5,000 that once existed, 
but a number sufficient to allow recovery for the species, if 
adequately protected. Sadly, over-fishing, vessel traffic, noise 
pollution, habitat degradation and marine debris continued to exert 
ever-increasing pressure on the remaining population. The result? In 
less than 30 years, they are now officially extinct and join the 
growing list of species that humans have helped drive to extinction.
    The similarities between the history and fate of the baiji and the 
North Atlantic right whale are alarming. Human generated threats such 
as vessel strikes, entanglements in fishing gear, pollution, and 
habitat degradation have replaced whaling as a threat. We are seeing 
the increasing industrialization of our oceans, and whales will be the 
first to pay the price of our neglect.
    North Atlantic right whales remain at risk of extinction from 
human-induced vessel strikes and entanglements in fishing gear, and 
from low reproductive rates. NMFS has made laudable efforts to reduce 
mortalities from shipping and fishing, but these efforts have been 
hamstrung by inadequate funding and information. We remain hopeful that 
the Administration will soon issue long-overdue protections from ship 
strikes and provide the funding needed for implementation and 
monitoring to ensure full compliance with these protective measures.
    In collaboration with scientists, academics, aquariums, 
conservationists, and as identified in NMFS' own recovery plan, we have 
identified the following funding priorities for fiscal year 2009 to 
further recovery efforts of North Atlantic right whales. The requested 
funding will ensure the survival of right whales by providing better 
information to managers, developing solutions for conflicts with 
industry, supporting management measures that integrate industry and 
right whale needs, and monitoring progress toward these goals.
Innovative entanglement mitigation and monitoring
    Gear research is urgently needed to develop fishing methods and 
gear types that will not harm right whales while also allowing 
fishermen to make a living. A new rule mandating sinking groundline 
will be in effect in October 2008 and is likely to reduce right whale 
entanglements. No clear options or agreement on vertical lines exist, 
and work on this problem is urgently needed. Vertical lines may account 
for up to 70 percent of entanglements.

Reproduction and health research (health assessment, reproduction 
        studies and monitoring, and non-invasive medical assessments)
    Right whale reproduction is still suffering from unknown effects. 
The potential causes of impaired reproduction include habitat problems 
(including noise and pollution), incidental effects of entanglements 
(over 70 percent of right whales have been entangled), disease 
(possible human sources), and red tides. Identifying those causes could 
lead to prevention or solutions that would enhance population recovery. 
Health assessments are a critical tool for evaluating the aftermath of 
ship strikes and entanglements, and allow predictions of survival. In 
addition, health assessments are essential for evaluating trends in the 
population related to reproduction and survival.

Monitoring of anthropogenic impacts (necropsy, carcass recovery, field 
        monitoring, scar analysis)
    Support for necropsy work on stranded right whales is needed to 
determine the cause of death. This is a fundamental tool for evaluating 
whether management actions have been effective. Monitoring of 
anthropogenic impacts on right whales through photo-documentation and 
scarring analysis is critical to understanding whether management 
actions regarding fishing and shipping have been effective. Appropriate 
photographic data collection, scarring analysis, and entanglement 
documentation are all required to understand the status of the right 
whale population.

Surveys (both visual and acoustic, habitat studies)
    Effective management of human activities to reduce impacts to right 
whales requires a detailed understanding of migratory paths and 
behavioral patterns. Shipboard and aerial surveys are the single most 
important source of information to determine seasonal distribution of 
right whales. Shipboard surveys also collect vital population data, 
including biopsy samples for genetic studies and fecal samples for 
reproduction and health research. Passive acoustic surveys provide a 
simple tool for evaluating the presence of whales when poor weather or 
nighttime conditions prevent visual surveys. These combined datasets 
are essential for managers attempting to manage anthropogenic risk to 
right whales.
    While surveys directly address our need to understand right whale 
distribution, habitat studies address questions of why right whales 
visit particular habitats. Right whales may experience different risks 
depending upon the habitat use of an area (i.e., surface feeding in the 
great South Channel puts whales at risk from ships, and bottom feeding 
may put whales at risk from certain fishing gear). Short-term tagging 
studies, combined with prey and oceanographic sampling, can provide 
valuable information to managers, and long term non-invasive tagging 
techniques (under development), can do this across several habitats.

Disentanglement efforts
    Until appropriate ``whale-safe'' gear and or methods have been 
developed and implemented, disentanglement efforts are our last line of 
defense against right whale deaths from fishing gear. Right whales are 
commonly hard and always dangerous to disentangle. Pharmacological 
restraint may enhance success, and these and other available tools 
should be deployed as appropriate.

Catalog and population monitoring, genetic studies
    The foundation of all right whale research and conservation efforts 
is the individual identification of right whales, which allows tracking 
of births, deaths, movements, and anthropogenic effects by age, sex, 
and genetic characteristics. Catalog data identifies segments of the 
population that are at risk from human activities, and is the only way 
to monitor recovery.
    The catalog is critical for tracking population size and trends, 
developing population models for management, and targeting particular 
management actions. Genetic analyses provide information that cannot be 
obtained by any other means including factors affecting the 
reproductive rate, and genetic identification of live and dead right 
whales.

Implementation, refinement, and enforcement of take reduction plans
    NMFS has the ultimate responsibility for reducing take of North 
Atlantic right whales, and needs adequate support and the best 
available data to ensure this process is effective and informed by good 
science.
    In conclusion, we respectfully request that the Subcommittee on 
Commerce, Justice, Science, and Related Agencies appropriate no less 
than $12.5 million in the fiscal year 2009 for recovery of the 
endangered North Atlantic right whale. Funding of the previously 
mentioned programs is essential to not only protect the North Atlantic 
right whale from further decline, but to help recover their population 
to a level that will ensure these charismatic creatures, which play an 
integral role in the oceans' ecosystems, will survive for the benefit 
and enjoyment of future generations.
                                 ______
                                 
                      Prepared Statement of Oceana

    On behalf of the more than 250,000 supporters of Oceana, an 
international, non-profit conservation organization devoted to 
protecting ocean waters and wildlife, I submit the following testimony 
on the fiscal year 2009 budget for the National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce. I request that 
this testimony be submitted for the official record.
    The National Oceanic and Atmospheric Administration's (NOAA) 
mission is ``to understand and predict changes in Earth's environment 
and conserve and manage coastal and marine resources to meet our 
Nation's economic, social, and environmental needs.'' More 
specifically, NOAA manages our fisheries, researches climate change, 
and predicts our weather, among other critical duties. Funding for this 
agency has been well below the needed level to fully address all of its 
responsibilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the fiscal year 2009 budget, the Administration requests $4.11 
billion for NOAA. Oceana is pleased that the Administration request is 
above the fiscal year 2008 enacted amount of $3.91 billion. The 
majority of the increase is directed to the Procurement, Acquisition 
and Construction (PAC) account for needed improvements to the NOAA 
satellite program. While this increase is necessary to keep our 
satellites operating, more resources must also flow into the 
Operations, Research and Facilities (ORF) account, which funds the 
programmatic work of the agency. The ORF account has remained stagnant 
since fiscal year 2005, which when taking inflation into account, has 
resulted in less money for ocean conservation and management.
    Oceana urges the Subcommittee to provide $4.5 billion for NOAA in 
the fiscal year 2009 Commerce, Justice, Science appropriations bill. 
NOAA has a critical role in promoting sustainable coastal communities 
and a healthy economy. We recommend that any increase above the 
President's request be directed into the ORF account to provide 
resources for fishery management, coral reef protection, undersea 
research, ocean wildlife conservation, coastal management, and ocean 
education.
    More specifically, we urge the subcommittee to fund the following 
critical ocean research and conservation programs at these recommended 
levels: $56 million for fishery observer programs; $40.5 million for 
stock assessments; $57.1 for enforcement activities; $15 million for 
deep water coral conservation; $26.4 million for sea turtle research 
and management; $82 for marine mammal research and management; and $10 
million for ocean acidification research.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Marine Fisheries Service (NMFS)
    The Administration's fiscal year 2009 request for the National 
Marine Fisheries Service is less than the previous year's enacted level 
and is below the fiscal year 2008 Administration's request. This 
decrease is disappointing; especially considering the President's 
signing into law the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act (MSRA) in January 2007. This 
comprehensive law includes critical changes to our fishery management 
system and requires additional funding to implement these changes. The 
Administration's request includes approximately $32 million for new 
programs to implement the requirements under the MSRA, but more money 
is needed to provide data for responsible fishery management. Stock 
assessments and fishery observers are just a few examples of such 
programs. In addition, sufficient enforcement of fishery management 
laws is needed.
            Fishery Observer Programs--$56 million
    Fishery observers are independent scientists who gather information 
about fishing practices by accompanying fisherman at sea. Observers 
collect data on the composition of what is caught and brought on board 
during fishing operations. This is in contrast to landings data which 
only records what is brought to port--failing to account for bycatch--
often dead or injured fish, marine mammals, sea turtles, sea birds and 
other ocean wildlife that is discarded. According to the NMFS, 
observers are currently deployed in only 42 of the nation's 300 
fisheries. Of the fisheries that have observers, coverage levels in 
many of these fisheries are well below the amount needed for precise 
and accurate estimates of bycatch and total catch of fish and other 
marine species.
            Stock Assessments--$40.5 million
    Oceana supports the President's request for $40.5 million for the 
fisheries stock assessment program. Almost two-thirds of the nation's 
fish populations lack basic information to determine whether or not 
those fish populations are depleted or ``overfished.'' In fact, there 
are 65 ``major'' stocks or stock complexes classified as ``unknown'' 
with respect to their population status. The Magnuson-Stevens Fishery 
Conservation and Management Act requires that the fisheries of the 
United States end overfishing, therefore accurate data is needed to 
provide regional fishery managers with the information needed to make 
management decisions.
            Enforcement--$57.1 million
    Successful fishery management relies upon fair enforcement of laws, 
regulations, and other requirements of fishery management plans. 
Without resources for enforcement personnel at sea and at ports, 
compliance with fisheries laws will be inconsistent. The enforcement 
program also provides resources for cooperative agreements with state 
enforcement authorities.
            Deep Sea Coral Conservation--$15 million
    The Magnuson-Stevens Fishery Conservation and Management Act 
provides the regional Fishery Management Councils with the authority to 
protect deep sea coral habitat. These long-lived, slow growing corals 
can be destroyed in a matter of minutes by certain types of destructive 
fishing gear. These coral areas often serve as nurseries for 
commercially important species. Recognizing the importance of corals, 
the President's budget includes $1.5 million for a deep sea coral 
research program to identify and map sensitive habitat areas. Oceana 
supports this recommended increase for research and also would like 
additional resources be used for additional fishery observers, 
enforcement of protected areas, and the minimization of gear impacts on 
deep sea coral habitat.
            Sea Turtle Research and Conservation--$26.4 million
    Oceana requests that the Subcommittee reject the Administration's 
funding cut to the marine turtle program and instead expand upon 
existing funding. For over 25 years, all sea turtles that swim in U.S. 
waters are listed as endangered or threatened under the Endangered 
Species Act, yet populations of sea turtles continue to decline. 
Commercial fisheries alone are authorized to kill 10,000 and injure an 
additional 334,000 turtles each year. Beyond commercial fishing, the 
federal government has not analyzed the cumulative impact of all 
permitted activities on sea turtle populations. There is not enough 
research on the health of sea turtle populations to ensure that these 
authorized takes are not jeopardizing the existence of the species. 
Additional funding will enhance research, recovery and conservation 
activities for imperiled sea turtles species.
            Marine Mammal Research and Conservation--$82 million
    Oceana requests that funding for the marine mammal program be 
restored to the fiscal year 2005 level of $82 million. These funds will 
help ensure that National Marine Fisheries Serve adopts measures to 
recover depleted and strategic marine mammal species, such as Northern 
right whales, bottlenose dolphins, and pilot whales. Activities that 
may be supported by these funds include marine mammal research, bycatch 
reduction strategies recovery plan implementation, and marine mammal 
mortality event response. The President's request of $41.23 million is 
only half of the enacted fiscal year 2005 level.
            Ocean Acidification--$10 million
    In addition to climate change, humanity's emissions of carbon 
dioxide are altering the acidity of the world's oceans. As emissions 
increase, more carbon dioxide is absorbed by the oceans, thus altering 
the water chemistry. Researchers agree that ocean acidification will 
pose a significant threat to marine ecosystems over the next century, 
with significant potential impacts to fisheries and coral reefs. More 
research is needed to better understand the ecological implications of 
these predicted impacts to the entire marine ecosystem and the degree 
to which marine organisms and ecosystems will be able to adapt to 
increased acidity. Oceana recommends $10 million for an ocean 
acidification research program.

Climate Change
    NOAA's role in climate change includes monitoring, researching, and 
predicting the impacts of climate change on humans and the environment. 
In the oceans alone, ocean acidification, sea level rise, and increased 
intensity of storms are just a few of the areas under NOAA's purview, 
not to mention, coastal infrastructure impacts, changes to inland 
weather patterns, and increased satellite needs to monitor global 
fluctuations. NOAA's research capabilities are becoming increasingly 
important in our changing world. New money is needed now to address 
climate change. This increased research should not come out of the 
existing NOAA budget and at the cost of current programs.
    Overall, substantial increases are needed for the National Oceanic 
and Atmospheric Administration. Increases to the PAC account cannot 
come at a cost to the ORF funding. Both accounts need substantial 
increases in the fiscal year 2009 budget and in years to come if NOAA 
intends to manage our fisheries, conserve endangered species, protect 
ocean and coastal habitat, monitor global warming and its impacts, 
predict our weather, and perform other critical services to our nation.
    Thank you for your consideration of these recommendations.
    Oceana received no funding from a federal grant (or subgrant 
thereof) or contract (or subcontract thereof) in the current fiscal 
year or either of the two previous fiscal years.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences (AIBS) encourages the 
Committee to provide the National Science Foundation (NSF) with $7.326 
billion for fiscal year 2009, the funding level authorized by the 
America COMPETES Act.
    AIBS is a nonprofit scientific association dedicated to advancing 
biological research and education for the welfare of society. Founded 
in 1947 as a part of the National Academy of Sciences, AIBS became an 
independent, member-governed organization in the 1950s. AIBS is 
sustained by a robust membership of some 5,000 biologists and nearly 
200 professional societies and scientific organizations; the combined 
individual membership of the latter exceeds 250,000. AIBS advances its 
mission through participating in coalition activities in research, 
education, and public policy; publishing the peer-reviewed journal 
BioScience and the education Web site ActionBioscience.org; providing 
scientific peer review and advisory services to government agencies and 
other clients; convening meetings; and managing scientific programs.
    The fiscal year 2008 omnibus appropriations provided only a 2.5 
percent increase over fiscal year 2007 funding for the NSF. This 
appropriation disappointed many in the science community who had hoped 
for the 10 or 11 percent increase pledged by Congress through House and 
Senate Appropriations Committee marks, respectively.
    Although the President's fiscal year 2009 budget request recognizes 
the need to increase funding for the NSF, the request would only 
provide a modest two-year adjustment for NSF programs such as the 
Biological Sciences directorate (BIO). Thus, we encourage the Committee 
to work to provide NSF funding at the level authorized in the America 
COMPETES Act (Public Law 110-69), enabling a modest increase for BIO 
and the Social, Behavioral and Economics directorate (SBE).
    Invigorating our innovation enterprise, improving science 
education, strengthening research infrastructure, and addressing 
energy, security, and environmental problems are bipartisan national 
priorities. NSF is the primary federal agency that funds fundamental 
research through competitively awarded, peer-reviewed, extramural grant 
programs. These research grants drive discovery and have enabled the 
United States to remain a global economic and scientific leader. 
Moreover, NSF-sponsored biological sciences research is transformative 
and leads to the development of sustainable and cost-effective 
solutions for society's greatest challenges, including energy 
independence, climate change, and security.
    NSF's BIO directorate is vital to our nation's continued leadership 
in the biological sciences, the fields of science dedicated to 
understanding how organisms and ecological systems function. Research 
disciplines heavily dependent upon the directorate include botany, 
ecology, microbiology, zoology, basic molecular and cellular biology, 
and systematics and taxonomy. Equally important, NSF provides essential 
support for our nation's biological research infrastructure, such as 
field stations and natural science collections (e.g. university-based 
natural history museums), and education and training programs for 
undergraduate, graduate and post-doctoral students.
    According to government data, BIO provides 67 percent of federal 
grant support for fundamental biological research conducted at our 
nation's universities and other nonprofit research centers. 
Transformative research in the biological sciences has advanced our 
understanding of complex living systems and is leading the way forward 
in addressing major challenges--protecting the environment, conserving 
biodiversity, and developing new bio-inspired technology. In fact, 
during a hearing before the House CJS Subcommittee on February 27, 
2008, NSF Director Arden Bement referred to this century as ``the bio 
century'' and went on to explain that bioscience is ``where the 
fundamental work is being done.'' Indeed, biological research from 
molecules and cells to ecosystems is the backbone supporting major 
cross-foundation initiatives, including Adaptive Systems Technology and 
Dynamics of Water Processes in the Environment (WATER). To continue to 
support activities across the Foundation, it is critical that BIO 
receives appropriate funding to advance its core research programs.
    The President's fiscal year 2009 budget request would provide 
$5.594 billion to support disciplinary research programs within the 
Research and Related Activities (R&RA) account. This funding level 
would provide an average 16.0 percent increase over fiscal year 2008 
estimated appropriations for the R&RA account; however, within R&RA, 
proposed budget increases are spread unevenly among the directorates. 
For example, the Mathematical and Physical Sciences directorate would 
increase $235.36 million (20.2 percent) and the Engineering directorate 
would increase $122.46 million (19.2 percent) over their respective 
fiscal year 2008 estimated appropriations while BIO is slated for just 
a $63.04 million increase (10.3 percent). This pattern would be 
understandable and acceptable if it were a one-year anomaly. However, 
this pattern of funding has become the norm--leaving some directorates, 
such as BIO, SBE and Geosciences behind.
    In contrast, COMPETES authorizes $5.742 million for R&RA in fiscal 
year 2009, and would provide an average 19.1 percent increase over 
fiscal year 2008 appropriations. Moreover, COMPETES-authorized funding 
levels would provide NSF with the necessary funding to provide BIO with 
a 19 percent increase, placing it more on-par with the trajectory of 
other directorates.
    Administration officials point to the importance of aligning the 
budget with priorities articulated in both the American Competitiveness 
Initiative and the America COMPETES Act. Yet, language in COMPETES 
(Public Law 110-69, Sec. 7018(b)) calls for parity in funding among 
scientific disciplines by specifying, ``The Director shall give 
priority in the selection of awards and the allocation of Foundation 
resources to proposed research activities, and grants funded under the 
Foundation's Research and Related Activities Account, that can be 
expected to make contributions in physical or natural science, 
technology, engineering, social sciences, or mathematics, or that 
enhance competitiveness, innovation, or safety and security in the 
United States.''
    Indeed, research in the biological sciences has directly 
contributed to the development of new technologies and has advanced our 
understanding of life in critical areas, including genomics, emerging 
diseases, ecosystem services, global change, nanotechnology, and 
complex systems. Such research has led to important discoveries with 
implications for American competitiveness and public health and safety. 
For example, scientists at Arizona State University funded through BIO 
used a special laser to analyze the split-second process within 
photosynthesis where plants harness light energy; their research may 
have important implications for the development of solar energy 
technologies. It is imperative that we understand how biological 
systems--whether a microbe or an ecosystem--function so that we can 
address current issues like global change and can innovate solutions to 
additional challenges that will likely emerge in the future.
    Members of the biological sciences community are concerned that 
inadequate funding is being provided to fundamental biological and 
environmental sciences. For twelve years, the research grant funding 
rate for BIO has been consistently lower than the NSF-wide funding 
rate. In 2008, the research grant funding rate was only 15 percent 
compared with an agency-wide rate of 21 percent. Unfortunately, this 
trend occurs at a time when BIO is contributing the largest percentage 
of federal dollars to basic biological sciences research and the number 
and scope of problems requiring biological information continues to 
increase.

Key Areas
    Increased funding for NSF at the level authorized by the America 
COMPETES Act would enable more robust investment in the five core 
programs supported by BIO: Molecular and Cellular Biosciences; 
Integrative Organismal Systems; Environmental Biology; Biological 
Infrastructure; and Emerging Frontiers.
    The fiscal year 2009 budget request includes important funding for 
the National Ecological Observatory Network (NEON), the first national 
ecological measurement and observation system designed to answer 
regional- to continental-scale scientific questions. NEON is an 
innovative facility that is designed to transform the way science and 
education are conducted by enabling integration of data from natural- 
to human-dominated systems and from genomes to the biosphere. A total 
of $26 million has been requested for NEON in the fiscal year 2009 BIO 
budget. Roughly $16 million would be funded from Emerging Frontiers and 
$10 million from Biological Infrastructure.
    BIO provides essential support for the development and maintenance 
of other important research infrastructure (e.g., natural science 
collections and field stations) that is necessary to advance our 
understanding of biological systems.
    Indeed, there is a growing national awareness of the need to 
reinvest in the physical and personnel resources associated with our 
nation's scientific collections. Evidence for this may be found in the 
annual Office of Science and Technology Policy (OSTP) and Office of 
Management and Budget (OMB) memorandum to federal agencies on research 
and development priorities, which has charged federal agencies to 
evaluate the needs of the collections they host or support. A federal 
interagency working group on scientific collections has also been 
established. As part of this effort, NSF is surveying non-federal 
research collections to gain a better understanding of the nature of 
our nation's holdings.
    Unfortunately, the fiscal year 2009 budget request for the Division 
of Biological Infrastructure (DBI) is $86.99 million, only 0.1 percent 
more than DBI's fiscal year 2008 appropriation ($86.94 million). The 
biological sciences community is increasingly concerned that decreasing 
investment in the tools of science, namely the facilities, collections, 
and instruments that enable discovery, will have profound and negative 
impacts on the science.
    Research support is only one of NSF's important missions. NSF is a 
vital component of our nation's formal and informal science education 
system. Whether through programs such as Research Experiences for 
Undergraduates, Integrated Graduate Education and Research 
Traineeships, or other fellowships for graduate and post-doctoral 
researchers, NSF provides the resources required to recruit, educate 
and train our next generation of scientists. We encourage Congress to 
continue to support these vital science education programs.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the National Science Foundation. If you have any 
questions or require additional information, please contact either of 
us at 202-628-1500.
                                 ______
                                 
            Prepared Statement of Padgett Business Services

    On behalf of Padgett Business Services, located in Fargo, North 
Dakota, I would like to thank the Committee for allowing our 
organization to submit this testimony for the record. I am writing to 
respectfully request that the Hollings Manufacturing Extension 
Partnership program be provided the authorized $122 million within the 
fiscal year 2009 Commerce, Justice, Science and Related Agencies 
Appropriations Bill. This requested level of funding for 2009 was 
provided for in the recently enacted America COMPETES Act. As you know, 
the Hollings Manufacturing Extension Partnership (MEP) is a program 
within the Department of Commerce, National Institute of Standards and 
Technology, a program authorized to improve competitiveness of 
America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In North Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. In several companies, I have had the opportunity to 
partner with Dakota MEP to further develop our manufacturing capacity.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
              Prepared Statement of Phoenix International

    On behalf of Phoenix International, a leader in the design and 
manufacture of custom, integrated electronic solutions, located in 
Fargo, North Dakota, I would like to thank the Committee for allowing 
our organization to submit this testimony for the record. I am writing 
to respectfully request that the Hollings Manufacturing Extension 
Partnership program be provided the authorized $122 million within the 
fiscal year 2009 Commerce, Justice, Science and Related Agencies 
Appropriations Bill. This requested level of funding for 2009 was 
provided for in the recently enacted America COMPETES Act. As you know, 
the Hollings Manufacturing Extension Partnership (MEP) is a program 
within the Department of Commerce, National Institute of Standards and 
Technology, a program authorized to improve competitiveness of 
America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In North Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. With the assistance of Dakota MEP, our company has 
worked on a number of improvement projects to improve productivity.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
  Prepared Statement of the Red Cliff Band of Lake Superior Chippewas

    The following is a brief, qualitative analysis of the local impact 
of the Presidents fiscal year 2009 budget proposal as we understand it 
from data available in the Department of the Interior Indian Affairs 
Budget Justifications Fiscal Year 2009 and related budget documents. A 
more detailed, large-scale analysis of the appropriation is available 
from the National Congress of American Indians (www.ncai.org), but here 
we focus on concerns and priorities of the Red Cliff Band, a small, 
federally-recognized Indian Tribe in far northern Wisconsin.
    Key information about the Red Cliff community is available in the 
attached Red Cliff ``Community Snapshot'' http://www.redcliff-nsn.gov/
planning/08snapshot-2.pdf

Natural Resources Management
    The President's fiscal year 2009 budget continues to stifle the 
Tribe's effort to maintain an active role in the management and 
stewardship of the Lake Superior fishery resource, which has tangible 
recreational and economic benefits for the region and which was 
severely impacted by heavy cuts to the Tribal Management Development 
Program (TMDP) in the mid 80's and 90's. Funding since that time has 
stagnated such that, in 2009, TMDP funding will still have not 
recovered to levels of over twenty years prior, yet cost for such 
things as utilities, staff benefits, and supplies have significantly 
increased over that time, and this has prevented the Tribe from 
adequately addressing its aging hatchery facilities and water systems.
    Lake Superior has the only fully-restored, self-sustaining trout 
populations in Lake Superior, due in substantial part to Red Cliff's 
efforts. Now the fisheries management department of the Tribe, which 
co-manages an area of almost 2.8 million hectares, is further 
threatened by a dramatic increase in disease-management costs 
associated with the deadly fish disease VHS.
    Without offsets to these cumulative cost increases, the viability 
of Red Cliff's fisheries programs is severely threatened.
    More details about the accomplishments and challenges of the Red 
Cliff Natural Resources program are attached (Attachment 2).
    Request: At minimum, restore Red Cliff's TMDP funding to mid-80's 
funding levels of $300,000 (up from $222,000 proposed for fiscal year 
2009) and reject Bush's 30 percent cut to the BIA's Fish Hatchery 
Maintenance program.

Public Safety and Justice
    Tribally-designated COPs grants have served as the Tribe's only 
reliable source of law enforcement vehicles and field equipment in the 
past decade. Red Cliff responds to emergencies not only on reservation 
lands but, at times, on the beautiful but dangerous shores of Lake 
Superior and the adjacent National Park lands, and Red Cliff likewise 
responds to the mutual aid requests of the City of Bayfield and 
Bayfield County. President Bush's budget will eliminate Tribal COPs 
set-asides, reducing the likelihood of our responders' availability and 
preparedness, thereby threatening the safety and well-being of 
residents and tourists.
    Likewise, set-asides are proposed to be eliminated for Tribal 
Courts, for which Red Cliff's base funding is also being reduced by 4.2 
percent in the President's budget. Red Cliff Tribal Court has no 
alternative funding and has already curtailed expenditures on judges 
and otherwise limited its services in the enforcement of vital local 
laws. With further erosion of funds, Red Cliff will continue to 
struggle to bring justice to the victims of child abuse, protect its 
treaty rights, or generally enforce the Red Cliff Code on which it 
depends for its sovereignty and civil order.
    Finally, the fiscal year 2009 budget Justification shows that 
nearly $15,000 for Red Cliff community fire protection has been 
eliminated. Red Cliff's local Fire Department which, again, serves Red 
Cliff and adjacent communities, is very much dependent on CFP dollars 
for equipment purchases, the most recent being wildland fire fighting 
vehicle attachments.
    Request: Reject the President's proposal to consolidate DOJ 
programs and eliminate Tribal set-asides. Maintain previous years' 
average funding levels of +/- $15,000 for Community Fire Protection.

Education and Job Training
    With combined elimination of the Johnson O'Malley (JOM) and Job 
Placement and Training programs from the BIA's Consolidated Tribal 
Government budget, Red Cliff stands to lose over $73,500 in much-needed 
assistance to already-disadvantaged local people.
    The Red Cliff Tribe does not feel JOM's GPRA/PART ratings reflect 
the strong value that our community places on the JOM program, which 
serves as an important way to promote educational parity for children 
whose families experience unemployment and poverty rates several times 
that of surrounding Bayfield County. JOM provides such things as sports 
gear, instrument rentals, and other important academic supports which 
can make the difference between attainment and alienation. While JOM 
cannot solve all of the challenges of the Bayfield School district with 
its large proportion of native students, the tutors paid for by Red 
Cliff's JOM program have helped many young learners build the academic 
confidence to resist otherwise high truancy rates of the District.
    Job training and placement for Tribal members is especially 
important in light of Red Cliff's geographic isolation and distance to 
the service industries in which local jobs are relatively scarce. In 
light of great commitment to their ancestral lands and culture and 
their obligations to local extended families, Tribal members seeking 
jobs rely on placement and training assistance to increase their 
likelihood of local employment.
    Request: Reject the Presidents proposed elimination of the Johnson 
O'Malley program and Job Placement and Training programs.

Housing and Community Facilities
    The President's fiscal year 2009 budget proposes elimination of the 
Department of the Interior's Housing Improvement Program (HIP). While 
the program is competitive and does not result in a large number of 
projects in a community as small as Red Cliff, the Tribal members it 
does assist are among our most needy: the elderly and disabled. With 
housing having been in extremely short supply on the Red Cliff 
Reservation, deterioration of an elder's home often guarantees 
stressful relocation. HIP is often the only option for remodeling or 
replacement of existing homes where the elder cannot afford or qualify 
for other housing programs.
    A $4.6 million reduction has also been proposed for the Indian 
Community Development Block Grant program in fiscal year 2009. In Red 
Cliff, ICDBGs have been an absolutely essential solution to the 
abovementioned housing shortage. With ICDBGs and DOD Sec. 154 funds, 
the Tribe has been able to make the most significant housing 
infrastructure improvements in a generation--making over 175 sewered 
home sites available in the coming years. Likewise, ICDBGs offer the 
Tribe one of its primary options to address aging and inadequate public 
facility space.
    Every dollar eliminated from ICDBGs translates to homes not served 
with essential utilities or to community services that cannot be sited 
in Red Cliff.
    Request: Restore $13.6 million eliminated from the DOI's Housing 
Improvement Program and $4.6 million from HUD's Indian Community 
Development Block Grant. programs in fiscal year 2009.

Health
    The President's fiscal year 2009 budget does not slash budgets for 
the Indian Health Service, yet neither does it address the disturbing 
health trends in the community that are likely to pose a massive burden 
to the health care budgets of the Red Cliff Health Center, the City of 
Ashland's health service providers, Bayfield County, and the State of 
Wisconsin.
    We are referring in part to the fact that local data shows 74 
percent of native patients at the Red Cliff Health Center--including 
many children--are obese or at risk of obesity, and the resulting 
incidence of Type 2 diabetes and related complications are projected to 
triple disease-related health care expenditures for those afflicted, an 
increase that is above and beyond the double-digit medical services 
inflation that has been disproportionately impacting our impoverished 
community.
    The ten-year old Red Cliff Health Center is one of the Tribes 
greatest social and economic successes and has already met or exceeded 
some patient service levels that were not projected to be realized 
until 2015. The Red Cliff Health Center's ability to address the vital 
health needs of the Red Cliff community--ranging from pre-natal care to 
mental health treatment to dental services--are presently most limited 
by space available.
    To address the obesity challenge and other service demands 
mentioned above, the Health Center seeks a facility expansion of at 
least 5,000 to 8,000 square feet at a base cost of $1 million to $1.4 
million which would be dedicated to preventative health and specialty 
health services. IHS and other federal funds for facility expansion are 
presently very limited.
    The Red Cliff Health Center has earned a reputation for offering 
quality services to Tribal and non-Tribal members throughout the 
County. A special appropriation for Health Center expansion will help 
the Red Cliff Tribe to help avert the looming cost crisis and to offer 
marketable services and health industry jobs.
    For additional details see Attachment 3.
    Request: Special appropriation of up to $1.4 million for expansion 
of Red Cliff's Health Center for preventative health services.

Welfare
    President Bush's fiscal year 2009 national budget proposes a $14 
million reduction in welfare assistance, which includes BIA's General 
Assistance Program (GA). Estimates of Tribe-specific cuts are not 
clear, but the fiscal year 2009 BIA budget justification shows that, 
both with regard to clients served and welfare costs for GA, Red Cliff 
could expect a cut of as much as 40 percent from fiscal year 2007 
levels of $82,000, which allows the Tribe to assist with over 300 cases 
per year.
    Compared with adjacent Bayfield County, the rates of unemployment 
and children in poverty in Red Cliff are as much as three times and 
five times higher, respectively. Loss of 40 percent of Tribal GA funds 
could pose extreme hardships to a number of our residents who have few 
if any other income options.
    Request: Reject Bush's proposed $14 million cut to BIA's welfare 
assistance programs.

Transportation
    The President's proposal to cut in half the BIA road maintenance 
program comes at a time when costs for fuel, pavement, and other 
materials have substantially increased the per-mile cost of maintaining 
Red Cliff's 35 miles of reservation roads--costs which are already high 
due to severe winter conditions commonly experienced in our location at 
the northern tip of Wisconsin.
    The road maintenance funding cuts will have significant impacts 
beyond Red Cliff. The Tribe realizes great operating efficiencies by 
using BIA road maintenance dollars to contract with the nearby Town of 
Russell, whose facilities, staff, and equipment are utilized for road 
grading, snow removal, vegetation clearing, and other services 
necessary to maintain safe roads for residents and visitors. In 
addition to Russell, other communities' roads that are not on the 
Reservation but are nevertheless used heavily by Tribal members are 
also eligible for Tribal assistance. Thus, reductions to BIA roads 
maintenance funds may pose hardships not just to Red Cliff but to 
adjacent governments.
    Request: Reject Bush's proposed fiscal year 2009 50 percent 
reduction of BIA roads maintenance funding.

Land Consolidation
    The Indian Land Consolidation Program (ILCP) was proposed for 
elimination in fiscal year 2009.
    Red Cliff's Reservation is a mere 14,000 acres, only 8,000 of which 
are held in Trust for the Tribe. Land recovery is therefore a top 
priority, but the Tribe itself has no discretionary funds for 
acquisitions. Fractionation of ownership interests in land probated to 
heirs of Tribal land allotees poses major obstacles to land recovery, 
and it also places heavy probate administration costs on the BIA, which 
consequently diminishes other BIA and/or federal services available to 
the Tribe.
    The President's claims of ILCP inefficacy are misleading. The 
program's efforts have been strategically targeted, and in those areas 
have been very effective. ILCP reports 68 percent of fractionated 
interests in Red Cliff have been acquired by ILCP, which translates to 
just over 1,000 acres--a very significant portion of our Reservation! 
Continued ILCP effort toward land consolidation is very important to 
Red Cliff and to other Tribes around the nation.
    Request: Reject Bush's proposed fiscal year 2009 elimination of the 
ILCP.

General comments
    Contrary to what is sometimes heard from Indian Nations, the Red 
Cliff Band of Lake Superior Chippewa strongly supports the mission and 
budget of the Bureau of Indian Affairs. That is not to say we are 
entirely satisfied with BIA's performance or decisions, yet we 
recognize that we as individual Tribes are also responsible to aid the 
agency in attaining GPRA and PART goals.
    Of the Tribal casinos in the State of Wisconsin, the Red Cliff 
Tribe's Isle Vista Casino is distinguished as one of the lowest 
grossing, and thus it serves to offer only basic local employment and 
exceedingly little aid to local government. Stagnation in federal 
funding levels in the face of increasing costs of living therefore 
equates to lost programs, services, and organizational capacity. We ask 
you to protect and enhance Indian programs offered through BIA, IHS, 
HUD, USDA and others.
    The Red Cliff Tribe's greatest strides in recent years have been in 
the areas of housing and related infrastructure, and we are grateful 
for your support. Health care, education, economic development, and 
environmental protection remain as urgent needs in our community, and 
we look forward to working with you and your staff to discuss issues 
and implement solutions. Thank you.
                                 ______
                                 
  Prepared Statement of the Dakota Manufacturing Extension Partnership

    On behalf the Board of Directors of Dakota Manufacturing Extension 
Partnership, I would like to thank the Committee for allowing our 
organization to submit this testimony for the record. I am writing to 
respectfully request that the Hollings Manufacturing Extension 
Partnership program be provided the authorized $122 million within the 
fiscal year 2009 Commerce, Justice, Science and Related Agencies 
Appropriations Bill. This requested level of funding for 2009 was 
provided for in the recently enacted America COMPETES Act. As you know, 
the Hollings Manufacturing Extension Partnership (MEP) is a program 
within the Department of Commerce, National Institute of Standards and 
Technology, a program authorized to improve competitiveness of 
America's manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In the Dakotas, the Dakota MEP provides assistance 
to companies in continuous improvement, innovation, strategic growth, 
technology and workforce development--all major needs of our companies. 
Several years ago our company, Turtle Mountain Corporation in Dunseith, 
North Dakota, was able to significantly improve its overall 
competitiveness as a supplier and its workforce with the assistance of 
Dakota MEP.
    As a Dakota MEP Board Chairman, I would also like to report that 
the average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry compete with 
offshore companies. Without unwavering strong federal support, the MEP 
will be unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
   Prepared Statement of SEARCH, The National Consortium for Justice 
                       Information and Statistics

Introduction
    Mr. Chairman and members of the subcommittee, I am Ron Hawley, 
Executive Director of SEARCH. Thank you, Mr. Chairman and members of 
the Subcommittee for your support. The efforts of your outstanding 
subcommittee staff are also greatly appreciated. SEARCH has requested a 
$2 million earmark from the Department of Justice, Byrne Discretionary 
Grant Program to be included in the Commerce, Justice, Science, and 
Related Agencies Appropriation bill. This amount of funding will ensure 
that the SEARCH National Technical Assistance and Training Program can 
reach local and state criminal justice agencies that are truly in need 
of SEARCH's services.
    SEARCH is a state criminal justice support organization comprised 
of governors' appointees from each state. SEARCH's mission is to 
promote the effective use of information and identification technology 
by criminal justice agencies nationwide. For more than 20 years, the 
SEARCH National Technical Assistance and Training Program has been the 
only no-cost service for small- and medium-sized criminal justice 
agencies to assist them in: (1) enhancing and upgrading their 
information systems; (2) building integrated information systems that 
all criminal justice agencies need; (3) ensuring compatibility between 
local systems and state, regional and national systems; (4) developing 
and delivering high-tech crime training; and (5) providing computer 
forensic technical assistance support. SEARCH has provided training and 
technical assistance in every state. The criminal justice agencies that 
SEARCH has assisted have found our services invaluable.
    Because the National Technical Assistance and Training Program is 
national in scope, SEARCH is able to replicate successful 
implementation strategies in one state or locality and disseminate and 
transfer those strategies to other states and localities. This unique 
program not only helps state and local agencies work more efficiently 
and effectively through the use of advanced information technologies, 
but it also creates a foundation for a national information 
infrastructure for interoperable justice systems.
    SEARCH conducts research to examine emerging trends and issues that 
have the potential to impact the collection, maintenance and exchange 
of justice information, while advocating policies that ensure effective 
privacy protection for the subjects of those records. The technical 
assistance provided by SEARCH has always been sensitive to the privacy 
implications of the effective use of information systems.
    In short, the automated sharing of information is a critical 
component of effective justice. Better information means better 
decisions, and better decisions mean improved public safety. Creating 
information sharing capabilities among state and local public safety 
agencies that consistently conform to national and international 
standards efforts and that provide tangible benefits and outcomes will 
strengthen the foundation for successful nationwide information sharing 
to help prevent major national incidents and terrorist attacks.
    SEARCH's National Technical Assistance and Training Program has 
received rave reviews, not only from those local, regional and state 
law enforcement and criminal justice agencies that have received its 
services, but also from the Bureau of Justice Assistance (BJA), which 
administers the grants to SEARCH.
    In the Department of Justice Reauthorization Act (Public Law 109-
162), the Congress expressly and specifically authorized SEARCH's 
National Technical Assistance and Training Program. Chapter 5, 
Subsection C, 1184 of that provision reads:

    (a) In General.--Pursuant to subpart 1 of part E of title I of the 
Omnibus Crime Control and Safe Streets Act of 1968, the Attorney 
General may make grants to SEARCH, the National Consortium for Justice 
Information and Statistics, to carry out the operations of the National 
Technical Assistance and Training Program.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to the Attorney General to carry out this section 
$4,000,000 for each of fiscal years 2006 through 2009.

Byrne Competitive Grant Program
    Before talking specifically about the SEARCH National Technical 
Assistance and Training Program, let me take a moment to ask for 
enhanced funding for the Byrne Competitive Grant Program. Through the 
Chairman's leadership, the fiscal year 2008 omnibus appropriations bill 
established the competitive grant process for programs of national 
significance to prevent crime, improve the administration of justice, 
and assist victims of crime. The process is administered by the Office 
of Justice Programs (OJP) to those national programs that previously 
have received earmark funding under the Byrne discretionary program. 
However, the total amount of grant funding provided to all of the 
competing national programs was set at only $16 million in fiscal year 
2008. We believe that funding in the range of at least $65 million is 
the minimum necessary to permit a workable and effective competitive 
grant program.
    SEARCH supports the laudable goal of distributing funds on a 
competitive basis to those national programs that can demonstrate the 
most compelling uses for those funds. However, the outstanding 
leadership of the Subcommittee in creating this program is undermined 
by the harsh reality that $16 million is a woefully inadequate amount 
to provide funding for national programs to assist criminal justice and 
law enforcement efforts across the country.
    SEARCH's National Technical Assistance and Training, alone, 
received a $2 million grant from the Byrne Discretionary funds in 
2006--this would comprise one-eighth of the funds now available under 
the Byrne competitive grants. Dividing $16 million among dozens of 
national programs will result in drastic reductions in the level of 
funding provided to these programs or no funding at all for many 
deserving organizations.
    Indeed, for that reason we not only urge the Congress to fund the 
fiscal year 2009 competitive program at the $65 million level, but also 
to support emergency legislation that would increase the amount 
provided for the Byrne Competitive Grant program in fiscal year 2008 by 
approximately $50 million so that those national programs seeking to 
compete for these funds will have a chance at receiving a meaningful 
grant amount and, thereby, continuing to provide their vital criminal 
justice services. We have attached to our written testimony a letter 
from SEARCH and four other national programs supporting enhanced 
competitive grant funding.

Use of Past Funding
    Returning now to SEARCH, in fiscal year 2007, SEARCH's National 
Technical Assistance and Training Program received a $2 million earmark 
out of the Byrne Discretionary Grant Program in the Office of Justice 
Programs. Through funding provided in fiscal year 2007, the SEARCH 
National Technical Assistance and Training Program reached out to 
nearly every state, as well as the District of Columbia.
    SEARCH's on-site technical assistance customarily includes helping 
a state or local law enforcement agency establish an automated justice 
information system; evaluate and plan for integration of existing 
information systems; or enhance, expand or implement a computerized 
criminal justice record system. A typical technical assistance activity 
takes approximately six weeks and is staffed by two individuals with 
the required expertise making three site visits--one for an initial 
consultation and data gathering, one to provide recommendations, and 
one for follow-up. Each of these technical assistance activities cost 
approximately $50,000.
    SEARCH has been recognized for its longstanding commitment to 
improving criminal history records at both the state and national 
levels. SEARCH software and related materials assist police and other 
law enforcement agencies in areas such as computer-aided dispatch, 
records management systems and mobile computers. In the post-9/11 
world, information sharing and communications interoperability is more 
important than ever to protect our families and the first-responders 
responsible for their safety in an emergency.
    For example, SEARCH is helping state policymakers and technical and 
operational stakeholders in numerous jurisdictions develop standards-
based, high technology data sharing solutions so that critical law 
enforcement, court, corrections, prosecutor, and other justice agency 
information is rapidly shared to provide the foundation for accurate 
and appropriate decision-making. Simultaneously, SEARCH is actively 
focused on helping states develop privacy policies governing the 
collection of information in various state criminal justice systems to 
protect individual privacy and civil liberties in the growing 
information sharing environment.
    Meanwhile, SEARCH provides direct operational support to law 
enforcement in its cybercrime investigation program. SEARCH, for 
example, was integral in helping law enforcement identify and stop a 
suspect who was planning a shooting rampage at a local high school. A 
State Patrol officer contact SEARCH for immediate help after receiving 
reports about an individual making statements via the Internet that a 
local high school was to be the target of a shooting rampage. The State 
Police did not have the local resources or expertise to properly 
conduct an Internet investigation to identify the user. Using its 
knowledge of Internet Service Provider protocols and social networking 
Web sites, SEARCH located the individual's online profile on a 
networking site that displayed photos and videos of firearms and 
automatic weapons. The State Patrol was then able to gather the leads 
necessary to further their investigation. SEARCH performed a forensic 
capture of the individual's profile and videos, which were offered to 
the State Patrol.
    In other cybercrime assistance efforts, SEARCH has helped a number 
of police departments across the nation set up MySpace predator 
deterrent programs. The departments set up MySpace pages that encourage 
local youth to add the police department as a ``number one friend'' on 
the youths' MySpace Pages. This gives the police a prominent presence 
on the youth's page, and also enables the youth to quickly contact the 
police online if they receive inappropriate messages. This is just 
another example of how SEARCH helps law enforcement proactively work to 
protect their young citizens from Internet risks.
    Through SEARCH cybercrime training classes and technical workshops, 
investigators are taught methods to prevent, detect and investigate the 
rising tide of cybercrime, such as fraud, email threats, online 
stalking and child exploitation. In one-on-one work with law 
enforcement investigators and prosecutors, SEARCH provides immediate 
operational assistance and critical operational guidance to 
practitioners on emerging technological issues in high-tech crime, such 
as assisting a local law enforcement agency obtain evidence from cell 
phones seized at the scene of a gang-related drive-by shooting.

Intended Use of Funding From Fiscal Year 2009
    For fiscal year 2009, SEARCH is requesting $2 million for the 
National Technical Assistance and Training Program. If SEARCH is 
provided with the requested funding, SEARCH intends to utilize the 
funds to address goals in both the information sharing and high-tech 
crime investigation aspects of the program. In the information sharing 
space, SEARCH intends to: (1) support through training and technical 
assistance the adoption of national law enforcement and public safety 
information technology standards; (2) contribute to the development of 
new and emerging law enforcement and public safety standards; (3) 
develop specific information sharing requirements for the re-entry of 
prisoners into society following incarceration; and (4) improve 
agencies' ability to measure and manage their information sharing 
initiatives. SEARCH also intends to use the funds to train law 
enforcement investigators in high tech crime investigation, including 
training and education on cybercrime.

Conclusion
    Congressional support for the SEARCH National Technical Assistance 
and Training Program is vital. The federal investment of $2 million can 
be leveraged many times over by contributing to the ability of state 
and local criminal justice agencies to provide timely, accurate and 
compatible information throughout the nation.
    On behalf of SEARCH, its governors' appointees, and the thousands 
of criminal justice officials who participate in the SEARCH network and 
who benefit from SEARCH's efforts, I thank you for your time. It has 
been a pleasure appearing here today.
                                 ______
                                 
           Prepared Statement of The Florida State University

    Summary of Request: Florida State University is requesting 
$3,000,000 from the National Oceanic and Atmospheric Administration 
(NOAA) Air Research Laboratory (ARL) Account to fund the Center for 
Vapor Mercury in the Atmosphere.
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $190 
million this past year in research awards.
    Florida State University attracts students from every state in the 
nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. Since 
2005, FSU students have won more than 30 nationally competitive 
scholarships and fellowships including 2 Rhodes Scholarships, 2 Truman 
Scholarships, Goldwater, Jack Kent Cooke and 18 Fulbright Fellowships.
    At Florida State University, we are proud of our successes as well 
as our emerging reputation as one of the nation's top public research 
universities.
    Mr. Chairman, let me summarize our primary interest today.
    Mercury is one of two very toxic trace elements known to be best 
transported through the atmosphere. Local, regional, and global 
distributions of gaseous elemental mercury are unknown even though 
vapor mercury is the most important source of anthropogenic mercury to 
the atmosphere. Most U.S. mercury emissions occur in the northeast yet 
most mercury deposits fall on Florida and the southeastern coastal 
zone. Patterns of mercury in local rainfall can be interpreted as 
either ``local source'' or ``long-distance source'' and are thus non-
diagnostic. These enormous gaps in scientific understanding undermine 
public policy initiatives to develop strategies to protect natural 
environments and human health and to find appropriate energy solutions 
to our national power and transportation needs.
    To this end, FSU is prepared to lead a Southeastern Mercury 
Consortium to study the large-scale sources and fates of atmospheric 
mercury. This consortium will be a partnership between NOAA's Air 
Resources Lab (ARL), Florida State University (FSU) and Georgia 
Institute of Technology. ARL's mercury research group has pioneered 
ground and airborne measurements and models of atmospheric mercury. 
FSU's Oceanography Department and Isotope Geochemistry Programs in the 
National High Magnetic Field Lab excel in ultra-trace element chemistry 
and isotopes--including mercury--in global atmospheric and aquatic 
environments. Georgia Tech's Schools of Earth & Atmospheric Sciences 
and Civil & Environmental Engineering have extensive regional and 
global programs in urban photochemistry, ``tailpipe'' and ``smoke 
stack'' gases, and global atmospheric mapping of reactive trace gases 
and aerosols from research airplanes and satellites. We will 
concentrate on the two most critical pieces of the puzzle--gaseous 
elemental mercury and reactive gaseous mercury. This effort will fill 
the gap we now have in the understanding of mercury vapors, so that we 
can ensure safe power and transportation to our citizens.
    Mr. Chairman, this project is extremely important and I appreciate 
your consideration.
                                 ______
                                 
Prepared Statement of the Educational Association of University Centers

    Mr. Chairman, as President of the Educational Association of 
University Centers, which is the advocacy organization for universities 
in the EDA University Center Program, I am pleased to offer this 
testimony regarding fiscal year 2009 funding for this important program 
administered by the Economic Development Administration at the 
Department of Commerce. On behalf of our the network of universities 
across the United States that are participating in the program, our 
appropriation request for the EDA University Center Program for fiscal 
year 2009 is $12.5 million. The EDA Technical Assistance line item is 
currently funded at about $9 million annually for the national EDA 
University Center Program.
    As you know, the EDA University Center Program is a network of 
centers located at universities and colleges in most states. The 
program has operated for over 30 years as the only federally funded 
program specifically designed to link the higher education system in 
the United States with local and regional economic development 
organizations, local units of government, private sector companies, 
non-profits and regional organizations. There are about 55 centers in 
the program currently.
    Through this program, the resources, research, expertise, 
experience and capabilities of the higher education system are made 
accessible to help capitalize on opportunities, address problems and 
overcome economic challenges for areas suffering economic dislocation 
and distress. Each University Center reflects the character and 
capacities of the sponsoring institution and tailors its portfolio of 
programs, projects and services based on the individual institution and 
the needs of the service region that center serves.
    Each EDA University Center currently receives approximately 
$100,000 to $150,000 per year. The program has been funded at the same 
level for over a decade. The additional funding that is requested would 
enable current University Centers to be funded at a level of $250,000 
per year, which combined with the required local match of an amount 
equal to the federal share, would create program budgets of $500,000 
per University Center. The nation's universities are a vital component 
of the economic development capacity of the United States and this 
increased funding will yield a strong return on the investment.
    The University Center Program and the University Centers that form 
it operate in conformance with the EDA's investment principles. That 
means that programs and projects undertaken by the university centers 
include: being market-based and results-driven; having strong 
organizational leadership; advancing productivity, innovation and 
entrepreneurship; addressing medium to long-term needs; anticipating 
economic changes; fostering economic diversification; and including a 
high degree of local commitment. To those ends, the University Center 
program nationwide participates in economic development activities that 
help leverage hundreds of millions of dollars in private sector 
investment.
    A fundamental objective of the University Center Program is to 
focus program activities on areas of economic distress and to conduct 
projects and programs that lead to the creation and retention of high-
wage, high-skill, and high-demand jobs. The types of activities 
undertaken by university centers include direct technical assistance. 
That assistance can take the form of direct assistance to private 
sector companies. A typical example of a technical assistance project 
would be working with a manufacturer to develop a prototype of a new 
product, analyze the potential market for the product, and help 
commercialize and launch the new product. The end result will hopefully 
lead to increases in production capacity within the firm, resulting in 
new job creation.
    University centers also often have the capacity and the mission to 
conduct applied research to inform economic development initiatives. 
Before a significant financial investment is made in an economic 
development project, due diligence must be performed to determine if 
there is a high probability for a significant return on investment in 
terms of jobs created and retained, as well as indirect jobs created 
and retained in the supply chain and in local and regional commercial 
and retail businesses. Typical projects that would require applied 
research to determine potential for success are industrial parks, 
technology parks, business incubators and accelerators, and public 
works projects to improve infrastructure, such as potable water 
treatment plants, wastewater treatment, access roads and other 
projects. Research such as market and feasibility analyses, business 
plans, operating plans and other types of analyses serves to strengthen 
projects and to help ensure that investments are directed toward 
projects with the highest potential to deliver in economic terms.
    University centers also conduct economic analyses to identify 
industry clusters that exist or that have the potential to be created. 
Industry clusters are private sector companies that exist in a defined 
geographic region and that have similar characteristics that can enable 
individual firms to create competitive advantages through relationships 
that often include pooled procurement activities or supply chain 
linkages, where firms provide raw materials, components or other 
products or services to companies that are using raw materials to 
produce value-added products or that create products by combining 
components to produce a finished item for delivery to customers. By 
conducting the research to identify companies with potential affinity 
and the potential for benefit from economies of scale, jobs may be 
created or retained and individual companies made more competitive and 
profitable. These efforts also can strengthen local and regional 
economies by developing a local supply chain and producing products 
that are exported from the region, thereby bringing revenue into the 
region from external sources.
    An example of university center activity is the initiative has been 
undertaken by the University Center program at the University of 
Michigan, which I oversee, along with our partners at Cleveland State 
University, Ohio University and Purdue University. Our work addresses 
the adverse impacts on communities in Michigan, Ohio and Indiana that 
are experiencing major manufacturing plant closures. The university 
center programs at these universities are collaborating to deliver 
services to the impacted communities and to help the communities to 
access resources from a range of federal agencies, state agencies and 
non-profit organizations. The EDA University Centers in each 
institution are active collaborating to provide student, staff and 
faculty support for the affected communities in their respective 
states.
    The tools that have been created to help these communities develop 
economic recovery plans include a resource guide to Federal, State and 
Non-profit agencies and organizations that can help communities in 
economic distress and experiencing sudden and severe economic 
dislocation. Communities also receive a Regional and Community Profile 
that contains critical information, such as key infrastructure, 
transportation corridor information, workforce characteristics, 
demographic information, and that helps identify core competencies and 
competitive advantages of communities and regions. A ``Strategic 
Planning for Economic Recovery Workbook'' helps to facilitate an 
accelerated strategic planning process that takes place over a period 
of 4-6 weeks and leads to a set of implementation projects to address 
economic, community and social needs in the communities and regions 
that are adversely impacted.
    After the community stakeholders have become organized and identify 
critical needs, the program convenes a Community Stakeholder Workshop 
that brings Program Representatives from Federal and State agencies to 
present information about their programs for distressed communities and 
to meet one-on-one with stakeholders representing a wide range of 
economic and community development organizations, social service 
agencies, local elected officials and units of governments that are 
qualified to receive funding.
    Another example of the wide range of University Center Program 
assistance activities is a project conducted by the University of 
Pennsylvania EDA University Center. The South Central Workforce 
Investment Area of Pennsylvania created a Department of Defense (DOD) 
Industry Partnership to strengthen the region's defense industry 
through targeted skills training. Penn State University's Pennsylvania 
Technical Assistance Program (PennTAP) managed the development of this 
Partnership. This Partnership grew out of a state-funded economic 
development initiative, Job Ready PA, which builds partnerships to more 
effectively respond to the workforce needs of targeted industries.
    The Industry Partnership is comprised of representatives from 
regional DOD commands and activities, the private contractors 
supporting those activities, and regional education institutions and 
training providers. The Partnership acts as a workforce intermediary, 
connecting the workers and contractors with the educational 
infrastructure by creating industry-driven training programs in 
response to identified skill gaps targeting three categories of 
workers: DOD personnel; civilian contractors providing both 
infrastructure as well as technical and mission support services; and 
DOD systems manufacturers and parts and component suppliers.
    Every University Center Program across the United States has many 
examples of terrific project and program activities that have greatly 
contributed to the health of regional and local economies and that have 
addressed economic distress.
    The economic security, national security and global competitiveness 
of our nation are increasingly bound with the higher education system 
of colleges and universities in America. The economy of our nation is 
in a period of transformation from a primarily industrial-based economy 
to a post-industrial economy. This transformation is creating enormous 
challenges as jobs are lost in some sectors and regions, and jobs are 
created in other sectors and regions. It is essential that the higher 
education system play an engaged and proactive role in the nation's 
economy.
    The EDA University Center Program is the primary federal program to 
ensure that that role is continual and successful. It is for that 
reason that the funding for this critical program be continued with the 
increase that is requested. Because it is a national program, no single 
state, region or economic sector gains at the expense of any other 
region or sector. I thank you for your attention to this issue and hope 
that this request will be approved.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
Subcommittee requesting a $30 million appropriation for the Commerce 
Department's Public Telecommunications Facilities Program (PTFP) in 
fiscal year 2008. As the President and CEO of the National Federation 
of Community Broadcasters, I speak on behalf of 250 community radio 
stations and related individuals and organizations across the country 
including many new Low Power FM stations. NFCB is the sole national 
organization representing this group of stations, which provide 
independent local service in the smallest communities and the largest 
metropolitan areas of this country. Nearly half of NFCB's members are 
rural stations, and half are controlled by people of color.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Supports funding for PTFP that will cover the ongoing needs of 
        public radio and television stations.
  --Supports funding for conversion of public radio and television to 
        digital broadcasting.
  --Supports funding to help public and community radio stations 
        prepare to provide emergency information during natural or 
        manmade disasters.
    Community Radio supports $30 million in funding for the Public 
Telecommunications Facilities Program in fiscal year 2009. Federal 
funding distributed through the PTFP is essential to continuing and 
expanding the public broadcasting service throughout the United States. 
It is particularly critical for rural stations and those serving low 
income communities. PTFP funds new stations, expanding the reach of 
public broadcasting to rural areas and to audiences that are not served 
by existing stations. In addition, it replaces obsolete and worn out 
equipment so that existing public stations can continue to broadcast 
high quality programming. PTFP funding is critical to ensuring public 
radio's readiness to provide life-saving information to communities in 
the event of local disasters, as we have seen during weather 
emergencies in the past few years. Finally, with the advent of digital 
broadcasting, PTFP funding is helping with the conversion to this new 
technology.
    We support $30 million in funding to ensure that both the ongoing 
program will be continued, and that there will be additional financial 
resources available to help cover the cost of improving the emergency 
infrastructure of public broadcasting stations. This additional funding 
is considered an urgent need if community stations are to withstand and 
continue broadcasting through extreme weather or other emergency 
situations. In addition, increased funding is necessary to assist the 
conversion of public radio and television to a digital format, which is 
particularly important when the FCC has endorsed a standard for digital 
radio broadcasting, the television conversion deadline is imminent, and 
commercial radio stations are converting to digital transmission, and 
public radio should not be left behind.
    PTFP funding is unique. It is the only funding source available to 
help get new stations on the air and ensure that public broadcasting is 
available everywhere in the United States. At a time when local service 
is being abandoned by commercial radio, PTFP aids communities 
developing their own stations which provide local information and 
emergency notifications.
    Funding from PTFP has been essential to keep public radio stations 
on the air by funding the replacement of equipment, often items that 
have been in use for 20 or more years. The program is administered 
carefully to be certain that stations are acquiring the most 
appropriate type of equipment. They also determine that equipment is 
being properly maintained and will not fund the replacement of 
equipment before an appropriate period of time in use. PTFP has also 
helped bring public radio service to rural areas where it is not 
otherwise available. Often they fund translators to expand the coverage 
of an existing station and they help with the planning and equipment 
needs of a new station. Recently, many of these new projects have been 
for Native American controlled stations on Indian Reservations or new 
Low Power FM installations that broadcast very locally.
    Federal funding is particularly critical to stations broadcasting 
to rural and underserved audiences which have limited potential for 
fundraising due to sparse populations, limited number of local 
businesses, and low income levels. Even so, PTFP funding is a matching 
program, so federal money is leveraged with a local commitment of 
funds. This program is a strong motivating factor in raising the 
significant money necessary to replace, upgrade and purchase expensive 
broadcast equipment.
    Community Radio stations must be prepared to provide continuing 
service during emergency situations. As we saw during the severe storms 
and devastating hurricanes of the last few years, radio is the most 
effective medium for informing a community of weather forecasts, 
traffic issues, services available, evacuations, etc. Since everyone 
has access to a radio and they are portable and battery operated, a 
radio is the first source for this critical information. Radio stations 
therefore must have emergency power at both their studios and their 
transmitter in order to provide this service.
    The National Federation of Community Broadcasters supports funding 
for the conversion to digital broadcasting in public radio and 
television. While public television's digital conversion is mandated by 
the Federal Communications Commission, public radio is converting to 
digital to provide more public service and keep up with the market. The 
digital standard for radio has been approved and over 365 public radio 
transmitters have been converted. Most exciting to public radio is that 
stations can broadcast two or more high quality signals, even while 
they continue to provide the analog signal. Currently 117 stations are 
providing 153 streams of programming. The development of additional 
digital audio channels will potentially more than double the service 
that public radio can provide, particularly to unserved and underserved 
communities.
    Thank you for your consideration of our testimony. If the 
Subcommittee has any questions or needs to follow up on any of the 
points expressed above, please contact the National Federation of 
Community Broadcasters at www.nfcb.org.
                                 ______
                                 
        Prepared Statement of the American Astronomical Society

    I appreciate the opportunity to comment on NASA's 2009 budget from 
my perspective as President of the American Astronomical Society (AAS).
    The AAS believes that the President's fiscal year 2009 request of 
$17.6 billion is the bare minimum necessary to meet the agency's many 
challenges--from the reinvention of manned spaceflight, to the agency's 
many scientific missions in Earth Science, Heliophysics, Astrophysics, 
and Planetary science.
    The AAS is the major organization of professional astronomers in 
the United States. The basic objective of the AAS is to promote the 
advancement of astronomy and closely related branches of science. The 
membership, numbering approximately 7,000, includes physicists, 
mathematicians, geologists, and engineers whose interests lie within 
the broad spectrum of modern astronomy. AAS members advise NASA on 
scientific priorities, participate in NASA missions, and use the data 
from NASA's outstanding scientific discoveries to build a coherent 
picture for the origin and evolution of the Earth, the solar system, 
our Galaxy, and the Universe as a whole.
    In recent years, the astronomical community, working together with 
NASA, has produced a remarkable string of successes that have changed 
our basic picture of the Universe. Observations with the Hubble Space 
Telescope (HST) of exploding stars whose light has been traveling for 
half the age of the Universe, combined with the exquisite map of the 
glow from the Big Bang itself from the Wilkinson Microwave Anisotropy 
Probe and information from other observatories, shows that the Universe 
we live in is not the Universe we see. Mysterious Dark Matter makes the 
ordinary particles clump together to form stars and galaxies. Even more 
mysterious Dark Energy makes the expansion of the Universe speed up. 
Both of these concepts challenge our understanding of the nature of 
matter and energy in the Universe and open up broad new vistas for 
future work.
    Similarly, exploration of the solar system has been a resounding 
success for NASA, with exciting missions to Mars and to Saturn 
revealing a beautiful and intricate history that is interwoven with the 
history of our planet Earth. A new mission is now on its way to Pluto. 
The discovery of planets around other stars has been a great triumph of 
the past decade, raising hopes for seeing planets like our own Earth, 
and placing our own solar system, and life itself, in a new context.
    In addition to contributing greatly to our knowledge and 
understanding of the universe, NASA continues its long history of 
contributing to the country's high technology economy via spin-offs 
from it science programs. Hubble Space Telescope (HST) images form one 
of the key databases behind GoogleSky bringing state-of-the-art imagery 
of the Universe into a tool now available to anyone, anywhere in the 
world with a computer (http://www.google.com/educators/
spacetools.html). NASA's leadership brings high visibility to U.S. 
science and technology achievements and attracts young people to these 
fields.
    NASA's key role in these discoveries makes its science program of 
deep interest to AAS members. In the past, NASA has worked with the 
astronomical community to find the most promising paths forward. The 
James Webb Space Telescope (JWST) is a large program that was endorsed 
by the National Academy of Sciences (NAS) Decadal Survey in astronomy. 
When completed in the next decade, it will help expand the frontier of 
knowledge to the deepest reaches of space and time and into the hidden 
places where stars and planets are formed. The astronomical community 
also recommended, and NASA plans to execute, a wide range of other 
programs--some of moderate scope and others that nourish the 
infrastructure for a healthy and vibrant community. This balanced 
approach has proved best--with a range of opportunities carefully 
crafted to get the best science from NASA's Science budget.
    While we enjoy a generous flow of data from past and current space 
telescopes, we are looking forward to new telescopes and new scientific 
challenges in the next decade. The astronomical community, under the 
leadership of the National Academy of Sciences (NAS), is preparing for 
the commencement of the Astronomy and Astrophysics Decadal Survey that 
is carried out once every ten years. This is an opportunity to look 
forward toward the future of space astrophysics in the context of a 
broad, national astronomy and astrophysics program. The next Decadal 
Survey will provide guidance for federal investment in the next 
generation of ground and space-based telescopes.
    This priority-setting exercise has been the key ingredient in the 
success of U.S. astronomy and astrophysics for the past five decades. 
It is very important for the health of NASA's astrophysics program that 
we conduct an orderly evaluation of concepts across the full spectrum 
of astrophysics missions and wavelengths. To emphasize this point, the 
American Astronomical Society issued this statement in January 2008:

    ``The American Astronomical Society and each of its five divisions 
strongly endorse community-based priority setting as a fundamental 
component in the effective federal funding of research. Broad community 
input is required in making difficult decisions that will be respected 
by policy makers and stake-holders. The decadal surveys are the premier 
examples of how to set priorities with community input. Other National 
Academy studies, standing advisory committees, senior reviews, and town 
hall meetings are important components. Mid-decade adjustments should 
also be open to appropriate community input. Pleadings outside this 
process for specific Congressional language to benefit projects or 
alter priorities are counterproductive and harm science as a whole. The 
American Astronomical Society opposes all attempts to circumvent the 
established and successful community-based priority-setting processes 
currently in place.''

    Recognizing the current challenging budget climate, in which 
federal non-security, discretionary spending is severely constrained, 
the current NASA budget for science is nonetheless cause for concern. 
Specifically, I am concerned about the overall drop in funding for 
Astrophysics from $1.363 billion in fiscal year 2008 to a proposed 
$1.162 billion in fiscal year 2009 (a decline of 14.7 percent). The 
budget is projected to remain flat thereafter.
    Using NASA's new-start inflation index, this forecast is a 
reduction of $423 million (31 percent) for fiscal year 2013 in real 
buying power over that for fiscal year 2008. This decrease is proposed 
to occur during an era of significant new astrophysics discoveries with 
observatories such as the JWST and with the expected exciting 
recommendations from the Decadal Survey.
    The fundamental issue is that NASA is under-funded for its overall 
mission and received no extra funds to help with the recovery of the 
Columbia disaster. This, in turn, creates budgetary stress for all of 
the Directorates including Science. In my view, this is the key problem 
that must be addressed by the Congress and the next Administration.
    The AAS therefore recommends that Congress fund NASA Science by 2.9 
percent over the fiscal year 2009 level. This modest increase over the 
President's fiscal year 2009 request will help maintain balance within 
the science portfolio, which is critical to our community. This 
increase is also the same increase as proposed for the top-line NASA 
budget. Small missions and research grants to individual investigators 
must also be supported. Otherwise, many exciting programs to explore 
the solar system, to detect planets around other stars, to measure 
gravitational waves from astronomical events, to explore black holes in 
all their manifestations, and to seek the nature of the dark energy may 
be threatened. The AAS also recommends a one-time supplement of $1 
billion to help allay expenses associated with the Columbia disaster 
and the Shuttle return to flight.
    Finally, the AAS strongly encourages the Administration and 
Congress to uphold the priorities of the NAS Decadal Survey in 
astronomy. We are pleased that the development of JWST and HST 
servicing mission are priorities in the new budget, but we stress that 
balance is critical in the Science portfolio.
    NASA Science has been and continues to be a beacon of innovation 
and discovery by inspiring generations of young people, capturing the 
imagination of the public, developing new technologies, and discovering 
profound insights into the nature of our Universe.
    The AAS and its members are prepared to work with Congress and with 
NASA to help find the best way forward. We will give you our best 
advice and we will work diligently to make the most of NASA's 
investment in science.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Thank you for the opportunity to offer the recommendations of The 
Nature Conservancy (Conservancy) on the fiscal year 2009 budget for the 
National Oceanic and Atmospheric Administration (NOAA). The Conservancy 
urges the Committee to provide appropriations for NOAA at or 
approaching $4.5 billion, as recommended by the Friends of NOAA 
Coalition. This funding level for NOAA would allow expanded ocean 
conservation, restoration, and management programs; increased research 
and education activities; and provide critical improvements in 
infrastructure (satellites, ships, high performance computers, 
facilities) and data management. More specifically, The Nature 
Conservancy supports the following funding levels for the following 
programs:

                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal Year
                                               2009         Fiscal Year
      Line Office, Account, Program         President's      2009 TNC
                                              Budget      Recommendation
------------------------------------------------------------------------
National Ocean Service:
    Operations, Research, and
     Facilities:
        Regional Collaboration..........           5              10
        Coral Reef Program..............          25.9            30.5
        Response and Restoration Base,             9.3             9.3
         Damage Assessment, Remediation,
         and Restoration Program (DARRP)
        Estuary Restoration Program.....           1.2             4
    Procurement, Acquisition, and                 15              60
     Construction: Coastal and Estuarine
     Land Conservation Program..........
National Marine Fisheries Service:
    Operations, Research, and
     Facilities:
        Community-based Restoration               13              23
         Program........................
        Open Rivers Initiative..........           7              12
        Protected Species Research &                .990           5
         Management, Cooperation with
         States.........................
National Environmental Satellite Data &             .737            .737
 Information Service: Operations,
 Research, and Facilities: Coral Reef
 Monitoring.............................
Pacific Coastal Salmon Recovery Fund....          35              90
------------------------------------------------------------------------

    The Conservancy works to identify priorities for coastal and marine 
conservation through ecoregional plans. We identify present and likely 
future threats to biological diversity and then identify appropriate 
strategies for conservation. At more than one hundred marine sites 
around the world, the Conservancy has used a variety of strategies for 
conservation including habitat restoration, removal of invasive 
species, coastal land acquisition, private conservation of submerged 
lands, establishment of protected areas, management of extractive 
marine resources activities, and reduction of nutrient and toxic inputs 
to coastal systems. No single strategy works everywhere; at every site 
multiple conservation approaches that take into account the biological, 
socioeconomic, and political circumstances are needed.
    NOAA is an important partner to the Conservancy in many aspects of 
our conservation work:
  --We work with NOAA's programs that support site-based conservation 
        and restoration activities of coastal and marine systems. 
        Programs such as Coastal and Estuarine Land Conservation, 
        Community-based Restoration, Open Rivers Initiative, and the 
        Pacific Coastal Salmon Recovery Fund are excellent examples of 
        practical, community-oriented approaches to conservation of 
        coastal and marine resources. These programs should be 
        expanded.
  --Our chapters routinely partner with NOAA programs that support 
        management of marine and coastal ecosystems. The National 
        Marine Sanctuary Program, the National Estuarine Research 
        Reserve System, the Coastal Zone Management Program, the Coral 
        Reef Program, the Marine Protected Areas Center, and fisheries 
        and protected species management programs, are all valuable 
        partners on Conservancy projects and should be funded robustly.
  --We rely upon NOAA's data, research, and monitoring of coastal and 
        marine systems, and have several shared priorities on which we 
        collaborate. For example, NOAA's Coastal Services Center 
        maintains a strong partnership-oriented approach to providing 
        information and technical assistance to states, local 
        governments, other federal agencies, and the private sector to 
        inform decision-making.
  --NOAA's contributions to state and local implementation and 
        education programs help ensure that the human capacity exists 
        to address environmental management issues at the necessary 
        scale. The Committee should provide funding for staff capacity 
        to provide technical assistance, efficiently manage grants and 
        programs, and help to measure effectiveness.
    The Conservancy highly values the contributions these NOAA programs 
make to sustaining healthy ocean and coastal ecosystems and we 
encourage the Committee provide significant funding for them. In 
particular, we would like to offer our recommendations regarding a 
specific set of programs that support conservation and restoration. 
NOAA has demonstrated significant capability to achieve results by 
advancing constructive, on-the-ground and in-the-water habitat 
conservation. Habitat losses have a substantial impact on the health 
and productivity of marine ecosystems, yet NOAA's ability to work 
closely with communities around the country to stem or reverse these 
losses is constrained by the relatively small amount of funding they 
receive. We would urge you to consider increasing funding for the 
following programs:

Habitat Restoration
    Community-based Restoration Program ($23 million).--Currently this 
program, with its exceptional track record since 1996, is able to fund 
only about 15 percent of the proposals it receives. Additional funds 
would be well-spent.
    Open Rivers Initiative ($12 million).--There are hundreds of 
thousands of small obsolete barriers on rivers and streams across the 
United States that block fish passage and restrict access to important 
habitat. This Initiative is part of a multi-agency commitment to 
address this problem.
    Damage Assessment, Remediation, and Restoration Program (DARRP) 
($9.3 million).--Thousands of oil spills and hazardous waste sites 
contaminate coastal and estuarine areas. DARRP uses a collaborative 
process to respond to pollution events, assess injuries, and work with 
responsible parties to restore natural trust resources. Through this 
program NOAA has secured nearly $450 million in settlements for 
restoration projects over the last 15 years. Additional funding is 
necessary for NOAA to continue to properly respond to spills, conduct 
initial environmental assessments, and work to resolve each settlement.
    Estuary Restoration Program ($4 million).--The Estuary Restoration 
Act (ERA), as reauthorized by the Water Resources Development Act of 
2007, sets a goal to restore one million acres of estuary habitat by 
2010. The Act encourages coordination among all levels of government, 
and engages the unique strengths of the public, nonprofit, and private 
sectors. The ERA authorizes $4 million for NOAA, including $2.5 million 
for on-the-ground restoration projects and $1.5 million for maintenance 
of restoration project monitoring data.

Protected Species Conservation
    Cooperation with the States ($5 million).--Through this program, 
authorized under Section 6 of the Endangered Species Act, NMFS provides 
grants to States to support conservation actions that contribute to 
recovery or benefit listed species, recently de-listed species, and 
candidate species that reside within that State. A comparable program 
in U.S. Fish and Wildlife Service (FWS) has been successful in funding 
activities that contribute to the recovery of listed species under FWS 
jurisdiction. With the exception of jointly managed species (e.g. 
Atlantic salmon), activities related to NMFS jurisdiction species are 
not eligible for funding under the FWS program. While substantial 
funding has been directed to Pacific salmon, there are few resources 
available to support proactive conservation efforts for the other 30 
species for which NMFS has sole or joint management responsibility.
    Pacific Coastal Salmon Recovery Fund ($90 million).--The 
Conservancy strongly supports $90 million for the Pacific Coast Salmon 
Recovery Fund (PCSRF). PCSRF has funded hundreds of successful on the 
ground salmon conservation efforts and is a critical state, tribal, and 
local complement to federal salmon recovery and management efforts. We 
are pleased that NOAA is moving towards a more merit-based allocation 
of funds focused on activities to recover and protect listed and at-
risk salmon populations. However, we are greatly concerned about the 
dramatic decline in funding for the program, from $89 million in fiscal 
year 2004 and fiscal year 2005 to $35 million in the President's fiscal 
year 2009 request.

Coastal and Estuarine Land Conservation
    Coastal and Estuarine Land Conservation Program (CELCP) ($60 
million).--The Nature Conservancy supports funding CELCP at $60 million 
for fiscal year 2009. We recognize that this is a substantial increase 
of prior year funding levels, but feel that it is warranted given the 
extraordinary circumstances surrounding the fiscal year 2007 and fiscal 
year 2008 budgets and the pent-up demand left over from low funding 
levels in those years. We support a competitive process to award CELCP 
funding. However, for a competitive process to be successful, funding 
for the program needs to accommodate a greater percentage of the 
overall demand for coastal acquisition projects.

Coral Reef Conservation
    Coral Reef Conservation Program ($30.5 million).--The Conservancy 
continues to work through a strong partnership with NOAA's Coral Reef 
program, and we are delighted with their enthusiastic desire to work 
together on improving resilience of coral reefs, developing approaches 
for sustainable financing for coral conservation activities at the 
local level, and other creative approaches to reducing threats to 
corals. The $30.5 million requested would include $1.5 million to 
support ``Local Action Strategies,'' a unique partnership between NOAA 
and states and territories to address threats to coral reefs at the 
local level.
    Coral Reef Monitoring ($737,000).--This line item is an important 
part of the Coral Reef Program, but is requested by the Administration 
through the National Environmental Satellite Data and Information 
Service (NESDIS). The President's budget requests $737,000 for this 
modest but effective program known as ``Coral Reef Watch.'' Whether 
funded in NESDIS or consolidated with the Coral Reef Program funding in 
NOS, we recommend that $737,000 be included in addition to the $30.5 
million referenced above.

Regional Approaches to Ocean and Coastal Issues
    Regional Collaboration ($10 million).--For the second year, the 
Administration's budget requests $5 million to help implement the Gulf 
of Mexico Governors' Action Plan. The Conservancy thanks the Committee 
for their support and appropriation of this funding in fiscal year 2008 
and urges the Committee to provide an additional $5 million of funding 
in 2009 to support implementation of regional collaborations in the 
Northeast and the West Coast, as well as the Governor's Alliance in the 
Gulf of Mexico. As states come together to form these collaborations, 
funding should be made available to address issues at the regional 
scale. As such, we also recommend including this funding in the budget 
under the title or ``Regional Collaborations'' rather than ``Gulf of 
Mexico Regional Collaboration.''
    Thank you for this opportunity to share with the Committee the 
Conservancy's priorities in NOAA's fiscal year 2009 budget. We would be 
pleased to provide the Committee with additional information on any of 
the Conservancy's activities described here or elsewhere. You may 
contact Emily Woglom at 703-841-5374 or via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3550425a52595a5875415b561b5a4752">[email&#160;protected]</a>, 
if you have questions on which we might be of assistance.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground and in-the-water conservation work 
is carried out in all 50 states and in more than 30 countries and is 
supported by approximately one million individual members. We have 
helped conserve nearly 15 million acres of land in the United States 
and Canada and more than 102 million acres with local partner 
organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses to 
address sustained human well-being.
                                 ______
                                 
              Prepared Statement of Trail King Industries

    On behalf of Trail King Industries, major trailer manufacturer and 
employer of 900 people, with plants located in West Fargo, North 
Dakota, Mitchell, South Dakota and in Brookville, Pennsylvania, I would 
like to thank the Committee for allowing our organization to submit 
this testimony for the record. I am writing to respectfully request 
that the Hollings Manufacturing Extension Partnership program be 
provided the authorized $122 million within the fiscal year 2009 
Commerce, Justice, Science and Related Agencies Appropriations Bill. 
This requested level of funding for 2009 was provided for in the 
recently enacted America COMPETES Act. As you know, the Hollings 
Manufacturing Extension Partnership (MEP) is a program within the 
Department of Commerce, National Institute of Standards and Technology, 
a program authorized to improve competitiveness of America's 
manufacturing community.
    The MEP is one of the most successful partnerships in the country. 
In addition to public support, a value proposition to improve 
manufacturer's global competitiveness is supported by those companies 
who receive benefit. In South Dakota, the Dakota MEP provides 
assistance to companies in continuous improvement, innovation, 
strategic growth, technology and workforce development--all major needs 
of our companies. Last year, we were able to pilot a unique 
Manufacturing ``Boot Camp'' for unemployed, with the Dakota MEP.
    As a Dakota MEP Director, I would also like to report that the 
average company benefits and impacts realized in the Dakota MEP 
improvement work with manufacturers mirrors the national MEP average at 
$1.4 million per engagement. These benefits have been realized by 
manufacturers who've partnered with Dakota MEP over the past six years.
    Manufacturing continues to diversify and grow the economies of the 
Dakotas. It currently is 10 percent of the gross state product in North 
Dakota and 11 percent in South Dakota. The industry has nearly 1,900 
firms employing 69,000 in the Dakotas exporting over $2 billion. 
Manufacturing brings new wealth to our country, our states and 
communities which, in turn, generate other economic activity and 
opportunities.
    Manufacturing must remain one of our country's economic strengths 
and the MEP is an invaluable program to help the industry better 
compete. Without unwavering strong federal support, the MEP will be 
unable to maintain its mission of serving America's small 
manufacturers' increasing needs. At a time when our economic strength 
and global competitiveness are national priorities, the MEP continues 
to be a wise investment. We respectfully request that you appropriate 
$122 million for the MEP in fiscal year 2009.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    I submit this written testimony for the record of the U.S. Senate 
Committee on Appropriations, Subcommittee on Commerce, Justice, 
Science, and Related Agencies, on behalf of the University Corporation 
for Atmospheric Research (UCAR). UCAR is a 71-university member 
consortium that manages and operates the National Center for 
Atmospheric Research (NCAR) and additional programs that support and 
extend the country's scientific research and education capabilities.
    We are reminded on almost a daily basis that the world faces 
significant and profound environmental challenges. Yet at a time when 
the need has never been greater, we are faced with decreasing 
investments in real terms for the National Science Foundation (NSF), 
the National Aeronautics and Space Administration (NASA), and the 
National Oceanic and Atmospheric Administration (NOAA). These are key 
agencies needed to provide the necessary observations, science, 
prediction models, and information that policy- and decision-makers 
need to respond effectively to short-term threats from weather hazards 
and to plan and prepare for the long-term future of the United States 
as we move into an uncharted climate. To meet both short- and long-term 
challenges the nation must support Earth sciences and applications in 
NSF, NASA and NOAA. I urge the Members to support the fiscal year 2009 
request of $6.84 billion for NSF at a minimum, $4.583 billion for 
NASA's Science Mission Directorate, and $4.5 billion for NOAA overall.
    The atmospheric and Earth sciences community appreciates the 
difficult choices Appropriators were forced to make in the fiscal year 
2008 Consolidated Appropriations Act, but remains concerned about the 
negative consequences of not investing now in science. We appreciate 
Congress' support for the enactment last year of the America COMPETES 
Act and urge the Appropriations Committee to follow through with fiscal 
year 2009 funding for NSF, NASA, and NOAA that reflects the concern 
demonstrated in that legislation for the health of this country's 
scientific programs.

National Science Foundation (NSF)
    While we lost a year with nearly flat NSF funding for fiscal year 
2008, this critical science agency can get back on track to planned 
accelerated research levels by receiving appropriated funds at the 
level of the authorized amount of $7.32 billion in the America COMPETES 
ACT. This would provide a return on investment that would benefit 
citizens in additional research funded for the short and long term 
health of the country. I urge the Members to support the President's 
overall fiscal year 2009 request of at least $6.84 billion for the NSF, 
and within NSF, the request of $5.59 billion at least for Research and 
Related Activities (R&RA), the heart of NSF's scientific enterprise.
    Geosciences Directorate (GEO).--In this most critical moment for 
the health of our planet and the future of life as we know it, the 
geosciences contribute knowledge that is absolutely necessary to 
understanding climate, weather, the dynamics of water resources, solar 
effects on Earth, space weather, the interactions of Earth's systems, 
energy resources, geologic hazards, and all aspects of the global 
oceans. The economic effects are substantial, with estimates of the 
component of the U.S. economy exposed to risks associated with weather 
and climate variability alone reaching $3 trillion annually. While we 
support the increase for NSF's GEO Directorate in the fiscal year 2009 
budget request, we urge the Committee to once again reiterate, as it 
did last year, that all disciplines of science, including the 
geosciences, should be considered integral to the American 
Competitiveness Initiative and urge even stronger increases to include 
GEO on the ``doubling track.'' I urge the Members to support the 
President's fiscal year 2009 request of $848.67 million, at a minimum, 
for the Geosciences Directorate, and within GEO, to provide the 
President's request of $240.8 million at least for the Atmospheric 
Sciences Division which provides resources for the atmospheric sciences 
community that are critical to the physical safety of our citizens, our 
economic health, and global issues of national security such as severe 
weather hazards, climate change, the security of our communications 
infrastructure, and the environmental health of the planet.
    Office of Cyberinsfrastructure (OCI).--As stated in the fiscal year 
2009 request, OCI ``supports research, development, acquisition and 
operation of advanced shared and connecting infrastructure that enables 
otherwise unrealizable advances in 21st century science and engineering 
research and education.'' The modeling of the Earth's atmosphere is one 
of these ``otherwise unrealizable advances.'' I urge the Members to 
support the fiscal year 2009 request of $220.08 million, an 18.8 
percent increase over fiscal year 2008 that recognizes 
cyberinfrastructure's key role.

National Aeronautics and Space Administration (NASA)
    NASA's Science Mission Directorate (SMD) has a central role in 
understanding our planet. Yet despite increasing policy-driven demand 
for information and analysis the funding in this area is not keeping up 
with needed support for observing systems and research. I appreciate 
the Administration's focus on the especially critical Earth Science 
account in the fiscal year 2009 request. But NASA's overall role in 
this country's scientific endeavor is so strategic and central to our 
well being that SMD should be one of this nation's highest priorities. 
I urge the Members to increase the Science Mission Directorate funding 
levels to at least $4.583 billion, $142 million above the fiscal year 
2009 request and sufficient to keep pace with 3 percent inflation.
    With accelerating climate change, there are few NASA 
responsibilities more important than monitoring the Earth's 
environment. Within NASA's SMD account, Earth Science does relatively 
well at $1.367 billion, a 6.8 percent increase, but much less well than 
in recommendations of the National Research Council's Earth and Science 
Applications From Space (Decadal Survey). Planned out-year funding 
absolutely falls short. It is encouraging to see the Decadal Survey 
being used as a benchmark for the order and timing of missions. 
However, falling behind schedule increases the risk of losing 
continuity in important observational data, which presents serious 
calibration issues. I urge the Members to plan for future investments 
of over $2 billion annually as called for by the Decadal Survey, 
whereas the fiscal year 2009 request includes out-year funding of 
approximately $1.3 billion annually.
    NASA's SMD programs that are in progress and others that are yet to 
be implemented will enable us to mitigate some of the property damage 
and prevent some of the deaths caused by severe weather and help us to 
mitigate, understand, and cope with the inevitable effects of natural 
and human-induced climate change. SMD ``space weather'' programs, part 
of the Living with a Star Program, will also protect space vehicles, 
astronauts, and satellites from the devastating radiation of solar 
storms. These programs are critical to the health of our economy, to 
the health of the Earth, and to our national security. Once again, I 
urge the Members to protect the vibrant NASA science accounts and 
missions, current and planned, that make possible the study of our own 
planet and the environment that sustains life on Earth.

National Oceanic and Atmospheric Administration (NOAA)
    As stated in the Friends of NOAA Coalition letter of March 12, 
2008, ``Assuming an annual inflationary rate of 3 percent, and using 
fiscal year 2005 as a baseline, the agency's budget would need to be 
$4.4 billion in fiscal year 2009 just to remain level in constant 
dollars.'' It is obviously impossible for NOAA to keep up with 
expanding responsibilities while its budget effectively shrinks. The 
atmospheric sciences community appreciates the Administration's request 
of $4.1 billion for fiscal year 2009, but this increase of 5.5 percent 
over fiscal year 2008 will primarily augment the satellite programs 
while others are diminished. The America COMPETES Act, signed into law 
last August, states that NOAA ``shall be a full participant in any 
interagency effort to promote innovation and economic competitiveness 
through near-term and long-term basic scientific research and 
development and the promotion of science, technology, engineering, and 
mathematics education consistent with the agency mission, including 
authorized activities.'' NOAA has the potential to make much greater 
contributions, but the agency is struggling. There simply must be a 
better balance between NOAA's infrastructure, operations, and research 
funding, as well as effective management and organizational structure 
at all levels, for this agency to accomplish its mission.
    I urge the Members to support an appropriation of at least $4.5 
billion for NOAA in fiscal year 2009--a level recommended by the Senate 
for the past three fiscal years and endorsed by the multi-sector 
Friends of NOAA Coalition and Weather Coalition--and to do so while 
maintaining vital support for other portion's of the Subcommittee's 
research and development portfolio. While not sufficient to meet all of 
NOAA's current obligations, it would begin to alleviate pressures that 
have built up over many years and set a more realistic (although still 
inadequate) base for this agency to meet current and future obligations 
of national importance.
    Office of Oceanic and Atmospheric Research (OAR).--Within OAR's 
Competitive Research Program request of $134.7 million, a small 
increase will support several climate and weather data related 
activities of great importance to the country and enable OAR to work 
more effectively with, and leverage from, the enormous base of 
expertise in the academic community. Within OAR Weather and Air Quality 
Research, the potentially substantial role of Unmanned Aircraft Systems 
in filling very serious observational gaps will be examined, and 
hurricane forecast improvement will be pursued. The fiscal year 2009 
request moves the U.S. Weather Research Program from the National 
Weather Service back to OAR. This chronically underfunded program will 
fund THORpex, a multi-year international field experiment to improve 
two to ten-day forecasts, as well as experimental hurricane forecasting 
work. I urge the Members to support the fiscal year 2009 request of 
$372.2 million (Operations, Research and Facilities--ORF) for the 
Office of Oceanic and Atmospheric Research.
    National Weather Service (NWS).--Within NWS, UCAR supports the 
fiscal year 2009 program changes including support for weather data 
buoys to enhance hurricane and severe storm observations, developing 
enhanced fire weather modeling capability, and additional water vapor 
sensors that contribute to improved weather aviation services within 
the Integrated Upper Air Observing System. I urge the Members to 
support the fiscal year 2009 request of $930.7 million for the NWS.
    National Environmental Satellite, Data and Information Service 
(NESDIS).--NESDIS receives an absolutely necessary increase for the 
geostationary satellite series, GOES-R. Any further delay or decrease 
in funding will cause additional program costs as well as interruption 
to the overall continuity of GOES comprehensive data coverage including 
atmospheric, oceanic, climatic, and solar observations. This would 
cause severe problems for the nation's weather forecasts and warnings, 
climatologic analysis and prediction, ecosystems management, and safe 
and efficient public and private transportation. The fiscal year 2009 
request cuts funding for the tri-agency National Polar-orbiting 
Operational Environmental Satellite (NPOESS) program, which we 
understand is a result of restructuring. We are extremely concerned 
about out-year funding for this critical program, but are pleased with 
the reinstatement of the development of two NPOESS climate sensors that 
were previously de-manifested, the Clouds and the Earth's Radiant 
Energy System (CERES) sensor and the Total Solar Irradiance Sensor 
(TSIS).
    Of additional concern is the nearly flat funding for NESDIS Data 
Centers. If the country is truly committed to renewing and capitalizing 
on its investment in Earth-observing systems, it must also invest in 
accessing, archiving and assessing the data gathered from these 
systems. The weather and climate community is concerned also that the 
President's request fails to begin initial planning for the CLARREO and 
GPSRO missions, as recommended in the NRC Decadal Survey. CLARREO and 
GPSRO provide critical measurements of Earth's and the sun's radiation, 
which are critical for climate, and temperature, water vapor, and 
electron density profiles for weather, climate, and space weather.
    I urge the Members to consider the NESDIS Procurement, Acquisition 
and Construction (PAC) account fiscal year 2009 request level of $1.24 
billion to be the base level for this line office; to examine the 
erosion of funding for the NESDIS Data Centers and appropriate for them 
an inflationary increase; to press the agency to begin planning for the 
CLARREO and GPSRO missions; and to continue to pursue solutions to this 
nation's critical Earth observing program, the infrastructural 
satellite component of which is going to cause NOAA's core programs to 
be undercut severely if additional resources or restructuring are not 
provided.
    National Ocean Service (NOS).--Ocean data are of great importance 
to the work of the atmospheric sciences community. Of particular 
interest are the efforts within NOS to manage hydrographic datasets 
more effectively and efficiently (Ping to Chart Infrastructure 
Streamlining), as well as the implementation as it was originally 
conceived, of the Integrated Ocean Observing System (IOOS). There is 
great concern that years of report recommendations have not been heeded 
and that the original concept of a ``system of systems'' providing 
information on the current and future state of the oceans, informed by 
competitive research grants to provide the technologies and 
understanding required to build and improve a scientifically sound 
system, has been abandoned. I urge the Members to support data 
gathering efforts within the National Ocean Service, but to ensure that 
a competitive grants program be fully funded for the Integrated Ocean 
Observing System so that this valuable program may be appropriately 
structured to meet its societal goals.
    I sincerely thank the members of the Committee for your stewardship 
of the nation's scientific enterprise and your understanding that the 
future strength of the nation depends on the investments we make in 
science and technology today.
                                 ______
                                 
                Prepared Statement of Mitchell V. Voydat

    My name is Mitchell V. Voydat and I'm a private citizen 
highlighting the extreme urgency of appropriations that need to be 
earmarked for the continuation of two very successful, critical and 
important programs. The two programs are the Whale disentanglement 
program of the Provincetown Center for Coastal Studies (PCCS), located 
in Provincetown, Massachusetts for the highly endangered species, the 
North Atlantic Right Whale and the Dolphin SMART program, for the wild 
bottlenose dolphin located in the Florida Keys National Marine 
Sanctuary. The North Atlantic Right Whale is a highly endangered 
species listed under the Federal Endangered Species Act and both right 
whales and the bottlenose dolphin must be protected under the Marine 
Mammal Protection Act. The National Marine Fisheries Service (NMFS) 
under the National Oceanic and Atmospheric Administration (NOAA) is the 
responsible agency for the protection of the North Atlantic Right Whale 
and the bottlenose dolphin.
    Let me explain the whale disentanglement program of PCCS.
    The main responsibility of the whale disentanglement program is 
freeing Right Whales from life-threatening entanglements in fishing 
gear. Without the necessary appropriations, there is a very, very high 
and very, very real possibility of North Atlantic Right Whales becoming 
entangled in life-threatening fishing gear, serious injury or death 
caused by the entanglement and extinction of the highly endangered 
species, because there are only approximately 350 North Atlantic Right 
Whales living today.
    The whale disentanglement program is world-renowned and the only 
one of its kind on the East Coast.
    The whale disentanglement program of PCCS have freed 89 Right Wales 
and five of these rescues were right whales who went on to have calves.
    Please help the PCCS secure the very necessary and urgent 
appropriations to continue its life savings services of freeing right 
whales from life-threatening entanglements in fishing gear.
    Let me explain the Dolphin SMART Program.
    A special area of the Florida Keys National Marine Sanctuary is 
home to a resident group of bottlenose dolphins. It is also where many 
businesses conduct dolphin tours in a small geographic area. This 
heightened amount of human activity in a small area may cause 
unnecessary stress to the local population by disrupting their natural 
behaviors. This prompted conservation agencies, including NOAA's 
National Marine Sanctuary Program and National Marine Fisheries 
Service, the Dolphin Ecology Project and the Whale and Dolphin 
Conservation Society, as well as local businesses and members of the 
public, to team up and develop a unique, multi-faceted program 
encouraging responsible viewing of wild dolphins and recognizing 
businesses that participated.
    When we approach wild dolphins too closely, move too quickly, or 
make too much noise, we increase the risk of disturbing their natural 
behaviors, such as migration, breathing, nursing, breeding, feeding and 
sheltering.
    The Dolphin SMART mission is to promote responsible stewardship of 
wild dolphins inhabiting the Florida Keys Nation Marine Sanctuary.
    Program participation is for commercial businesses conducting and 
booking wild dolphin tours in the Florida Keys. The Dolphin SMART 
program offers participation incentives for businesses that follow the 
program criteria and educate their customers about the importance of 
minimizing wild dolphin harassment.
    What does Dolphin SMART mean?
    S--Stay at least 50 yards from dolphins.
    M--Move away cautiously if dolphins show signs of disturbance.
    A--Always put your engine in neutral when dolphins are near.
    R--Refrain from swimming with, touching or feeding wild dolphins.
    T--Teach others to be Dolphin SMART.
    Purpose of the Dolphin SMART Program:
  --Minimize the potential of wild dolphin harassment caused by 
        commercial viewing vehicles.
  --Reduce expectations of wanting to closely interact with wild 
        dolphins in a manner that may cause harassment.
  --Eliminate advertising that creates expectations of engaging in 
        activities that may cause harassment.
  --Promote stewardship of the Florida Keys National Marine Sanctuary.
    Upon successful completion of the program criteria, the training 
and evaluation, Dolphin SMART businesses receive materials recognizing 
them as active Dolphin SMART participants. Participants must complete 
an annual refresher training and evaluation to ensure active 
participation. Dolphin SMART participants can easily be identified by a 
flag or decal displayed on their vessel featuring the Dolphin SMART 
logo and current calendar year.
    Madam Chairman and Honorable U.S. Senators: As you can see, here 
are two very, very successful programs, but without earmarking the 
necessary funds to keep these programs running, without the Dolphin 
SMART program, human intervention will threaten, disrupt and destroy 
the natural behaviors of wild dolphins in the Florida Keys, and without 
the whale disentanglement program of PCCS, extinction of the North 
Atlantic Right Whale is very, very real and very certain.
    I want to thank Madam Chairman, the Honorable U.S. Senator from 
Maryland, Senator Mikulski, and the ranking member, the Honorable U.S. 
Senator from Alabama, Senator Shelby and all the Honorable Committee 
Members on the U.S. Senate Subcommittee on Commerce, Justice, Science 
and related agencies for giving me the opportunity to submit my written 
testimony for these two very successful, critical and very important 
programs.

 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

American Astronomical Society, Prepared Statement of the.........   317
American Chemical Society, Prepared Statement of the.............   234
American Geological Institute, Prepared Statement of the.........   235
American Institute of Biological Sciences, Prepared Statement of 
  the............................................................   304
American Museum of Natural History, Prepared Statements of the.237, 239
American Physiological Society, Prepared Statement of the........   240
American Psychological Association, Prepared Statement of the....   277
American Society for Microbiology, Prepared Statement of the.....   271
American Society of Agronomy, Prepared Statement of the..........   242
American Society of Mechanical Engineers, Prepared Statement of 
  the............................................................   244
American Society of Plant Biologists, Prepared Statement of the..   262
Association for Psychological Science, Prepared Statement of the.   268

Bell Incorporated, Prepared Statement of.........................   247
Bement, Dr. Arden L., Jr., Director, National Science Foundation, 
  Prepared Statement of..........................................   212

California State Coastal Conservancy, Prepared Statement of the..   252
Consortium of Social Science Associations (COSSA), Prepared 
  Statement of the...............................................   256
Crary Industries Inc., Prepared Statement of.....................   260
Crop Science Society of America, Prepared Statement of the.......   242

Dakota Manufacturing Extension Partnership, Prepared Statement of 
  the............................................................   310
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Questions Submitted by.......................................139, 198

Educational Association of University Centers, Prepared Statement 
  of the.........................................................   314

Federation of American Societies for Experimental Biology 
  (FASEB), Prepared Statement of the.............................   285
Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by.........................................    95

Great Lakes Indian Fish and Wildlife Commission, Prepared 
  Statement of the...............................................   279
Gregg, Senator Judd, U.S. Senator From New Hampshire, Question 
  Submitted by...................................................   211
Griffin, Hon. Dr. Michael, Administrator, National Aeronautics 
  and Space Administration.......................................    53
    Opening Statement of.........................................    57
    Prepared Statement of........................................    60
Gutierrez, Hon. Carlos M., Secretary, Secretary of Commerce, 
  Department of Commerce.........................................     1
    Opening statement of.........................................     6
    Prepared Statement of........................................     8

Independent Tribal Courts Review Team, Prepared Statement of the.   231
Institute of Makers of Explosives, Prepared Statement of the.....   265
International Fund for Animal Welfare, Prepared Statement of the.   298

Killdeer Mountain Manufacturing, Prepared Statement of...........   282

Landrieu, Senator Mary L., U.S. Senator From Louisiana, Questions 
  Submitted by...................................................    91
Lautenbacher, Vice Admiral Conrad, Jr., (U.S. Navy, Ret.), Under 
  Secretary of Commerce for Oceans and Atmosphere and 
  Administrator, National Oceanic and Atmospheric Administration, 
  Department of Commerce, Prepared Statement of..................   201
Leahy, Senator Patrick J., U.S. Senator From Vermont, Questions 
  Submitted by.................................................129, 196

Marine Conservation Biology Institute, Prepared Statement of the.   291
McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by...................................................   166
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Opening Statements of....................................1, 99, 171
    Questions Submitted by.................................26, 207, 218
    Statement of.................................................    53
Mueller, Hon. Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice...........................   171
    Prepared Statement of........................................   178
    Statement of.................................................   175
Mukasey, Hon. Michael B., Attorney General, Department of Justice    99
    Prepared Statement of........................................   105

National Association of Marine Laboratories, Prepared Statement 
  of the.........................................................   283
National Association of State Universities and Land-Grant 
  Colleges (NASULGC), Prepared Statements of the...............248, 249
National Congress of American Indians, Prepared Statement of the.   288
National Corn Growers Association, Prepared Statement of the.....   293
National Federation of Community Broadcasters, Prepared Statement 
  of the.........................................................   316
National Fish and Wildlife Foundation, Prepared Statement of the.   295
Northwest Indian Fisheries Commission, Prepared Statement of the.   226

Oceana, Prepared Statement of....................................   300
Optoelectronics Industry Development Association, Prepared 
  Statement of the...............................................   297

Padgett Business Services, Prepared Statement of.................   306
Phoenix International, Prepared Statement of.....................   306
Population Association of America/Association of Population 
  Centers, Prepared Statement of the.............................   254

Red Cliff Band of Lake Superior Chippewas, Prepared Statement of 
  the............................................................   307
Regional Information Sharing Systems (RISS) Program, Prepared 
  Statement of the...............................................   222

Sea Grant Association, Prepared Statement of the.................   274
SEARCH, The National Consortium for Justice Information and 
  Statistics, Prepared Statement of..............................   311
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Prepared Statement of........................................    55
    Questions Submitted by.............................36, 83, 138, 198
    Statements of...........................................3, 101, 173
Society for Neuroscience, Prepared Statement of the..............   261
Soil Science Society of America, Prepared Statement of the.......   242
Stevens, Senator Ted, U.S. Senator From Alaska:
    Prepared Statement of........................................     6
    Questions Submitted by.................................49, 210, 221

The Florida State University, Prepared Statement of..............   313
The Nature Conservancy, Prepared Statement of....................   319
Trail King Industries, Prepared Statement of.....................   322

United States Section of the Pacific Salmon Commission, Prepared 
  Statement of the...............................................   229
University Corporation for Atmospheric Research, Prepared 
  Statement of 
  the............................................................   323

Voydat, Mitchell V., Prepared Statement of.......................   326

 
                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF COMMERCE

            National Oceanic and Atmospheric Administration

                                                                   Page

CICEET...........................................................   211
Coordination of Ocean Research...................................   209
Fiscal Year:
    2007 Accomplishments.........................................   201
    2009 Budget Request Highlights...............................   204
Fuel Costs.......................................................   210
``John C. Cobb'' Decommissioning.................................   210
NPOESS: CERES and TSIS Sensors...................................   207
Ocean Surface Vector Winds Data..................................   208
Pacific Coastal Salmon Recovery Fund.............................   211
Vacancy Rates at the National Weather Service....................   209
VIIRS Contractor Deficiencies....................................   207

                         Secretary of Commerce

Additional:
    Committee Questions..........................................    26
    Costs for Census.............................................    40
Census--2008 Dress Rehearsal and Handhelds.......................    26
Colombia and Panama Shrimp:
    Activities...................................................    16
    Exports......................................................    16
Data Security....................................................44, 45
Department Information Systems...................................    47
Digital Transition...............................................35, 50
Economic Development.............................................    34
Economic Development Administration..............................    13
    Funding......................................................    50
Effect of FDCA Alternative.......................................    28
Elimination of MEP Federal Funding...............................    35
Endangered Species Listings in Alaska............................    50
FDCA:
    Technical Requirements.......................................    27
    Technology...................................................    17
Fish Protection Priorities.......................................    44
Fisheries Research and Management Funding Levels.................    49
Free Trade and Shrimp Imports....................................    42
GOES-R:
    Contracts....................................................    31
    Cost and Schedule Goals......................................    44
    ``Cost-Plus'' Contract Option................................    31
    Key Decision Point...........................................    43
    Oversight....................................................    43
    Satellite Program............................................    21
    Total Program Cost...........................................    31
Handheld Technical Requirements..................................    46
Harris Contract Awards...........................................    28
Internet Corporation for Assigned Names and Numbers..............    42
Lake Pontchartrain...............................................    48
Management:
    Of Decennial Census..........................................    15
    Reform.......................................................28, 36
        For Satellite Programs...................................    22
        In NOAA Satellite Program................................    22
MITRE Review June 2007...........................................    37
MSRA Implementation--IUU.........................................    49
NOAA:
    Fleet Modernization Plan.....................................    48
    In the Gulf of Mexico........................................    41
NPOESS:
    Cost and Schedule Goals......................................    41
    Cross Track Infrared Sounder Issues..........................    41
    Launch Date..................................................    40
    Satellite Program............................................    20
    VIIRS:
        Contingency Planning.....................................    40
        Issues...................................................    40
Other 2010 Decennial Contracts...................................    29
Paper Non-Response Follow Up.....................................    39
Patent Backlog...................................................    23
Possible Supplemental Appropriation..............................    20
Retaliatory Measures:
    Against EADS Airbus..........................................    12
    Following Ruling in EADS Airbus Case.........................    13
Satellite Oversight During Administration Transition.............    30
Subsidation of EADS Airbus Aircraft..............................    25
Tanker Contract to EADS Airbus...................................    14
Trade Dispute With EADS Airbus...................................    11
2010 Decennial Effectiveness Rating..............................    36
United States Patent and Trademark Office........................    31
Use of Handhelds.................................................    39
VIIRS and Ocean Color Requirements...............................    30
Weather Infrastructure in the Southeast..........................    41

                         DEPARTMENT OF JUSTICE

                            Attorney General

Adam Walsh Act.................................................115, 116
Additional Committee Questions...................................   129
Bullet Lead......................................................   131
Compliance of Current Communication Systems......................   128
Corruption in Iraq...............................................   129
Courthouse Renovations...........................................   151
Cuts to State and Local Law Enforcement..........................   122
Department of Justice:
    Agents.......................................................   140
    Funding......................................................   125
E-mail and E-mail Retention......................................   132
Explosives Database..............................................   114
Fugitive Apprehension Program....................................   141
Immigration Judges in Nashville..................................   105
Information Regarding:
    A Terrorist Phone Call.......................................   120
    The Integrated Wireless Network..............................   128
Judicial Security................................................   149
Justice Department Employees.....................................   126
Law Enforcement Communications...................................   153
Monitorship Programs.............................................   118
National Security: Protecting the American People by Preventing 
  Terrorist Acts.................................................   106
No-bid Contracts.................................................   118
Office of Legal Council's Memo...................................   122
Other............................................................   140
Pay and Benefits Overseas........................................   161
Pre-9/11 Phone Call..............................................   119
Proposed Creation of a Database Under the Jurisdiction of the 
  Office for Bombing Prevention/DHS With Information on 
  Explosives.....................................................   115
Radios...........................................................   127
Sexual Predator Technology.......................................   126
Southwest Border:
    Enforcement................................................140, 152
    Initiative...................................................   108
Supporting Essential Federal Detention and Incarceration Programs   109
Supporting our State, Local, and Tribal Partners in the Fight 
  Against 
  Crime..........................................................   110
Telecommunication Carrier Compensation...........................   138
Terrorist Watch List.............................................   111
Tribal Justice Funding...........................................   139
Unanswered Questions.............................................   132
Violent Crime..................................................113, 117
Wireless Communication Program...................................   154

                    Federal Bureau of Investigation

Additional Committee Questions...................................   196
Bullet Lead......................................................   196
Cyber Security Initiative........................................   189
Domain and Operations............................................   178
FBI Academy......................................................   189
Fighting Crimes Against Children.................................   195
Funding Gap......................................................   186
Infrastructure...................................................   181
Leveraging Technology............................................   180
Mortgage:
    Case Resources...............................................   183
    Fraud........................................................   182
Partnerships.....................................................   180
Pay and Benefits Overseas........................................   198
Render Safe Mission..............................................   185
Sentinel.........................................................   192
Shift of Criminal Agents to Counterterrorism.....................   187
State and Local Violent Crime....................................   184
Strategic Execution Team: Improvement of FBI's Intelligence 
  Program........................................................   181
Surveillance.....................................................   179
Terrorist:
    Explosive Device Analytical Center...........................   188
    Watch List...................................................   194
2009 Budget Request..............................................   178
Tribal Justice Funding...........................................   198
Unanswered Questions.............................................   197
Workforce........................................................   180

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

Additional:
    Bridge Employment Efforts....................................    95
    Committee Questions..........................................    83
Aeronautics Research Mission Directorate.........................    64
Chairman's Closing Remarks.......................................    82
Commercial Orbital Transportation Services.......................    76
Cross-Agency Support.............................................    69
Earth Observing Sensors..........................................    81
Education........................................................    69
    Cuts.........................................................    84
Enhanced Use Lease Authority.....................................    94
EPSCoR and Space Grant funding...................................    84
Exploration:
    Activities...................................................    86
    Systems Mission Directorate..................................    66
Extending the Space Shuttle Lifetime.............................    74
Financial Systems................................................    87
Funding for Constellation Program................................    92
Highlights of the NASA Fiscal Year 2009 Budget Request...........    61
Iran, North Korea, Syria Non-Proliferation Act (INKSNA)..........    76
NASA Operations at the Michoud Assembly Facility (MAF)...........    91
National Polar-Orbiting Operational Environmental Satellite 
  System (NPOESS)................................................    82
Overall Science Budget...........................................    79
Relying on Russian ``Soyuz'' Services............................    75
Return to Flight.................................................    74
Robotic Lunar Lander.............................................    83
Science Mission Directorate......................................    62
Small/Disadvantaged Business Utilization Efforts.................    92
``Soyuz'' Launch Capabilities....................................    76
Space:
    Operations Mission Directorate...............................    67
    Shuttle Workforce Transition.................................    78
    Transportation System........................................    72
10 Healthy Centers...............................................    85

                      NATIONAL SCIENCE FOUNDATION

Alaska Region Research Vessel....................................   221
America COMPETES Act Compliance..................................   214
Climate Research.................................................   220
NSF Supports American Innovation.................................   212
Polar Icebreakers................................................   221
Stem Education...................................................   218
Stewardship......................................................   219
2009 Budget Request Highlights...................................   214

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
